<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 1999</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 1999

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS
                             SECOND SESSION
                                ________
                    SUBCOMMITTEE ON NATIONAL SECURITY
                   C. W. BILL YOUNG, Florida, Chairman
 JOSEPH M. McDADE, Pennsylvania      JOHN P. MURTHA, Pennsylvania
 BOB LIVINGSTON, Louisiana           NORMAN D. DICKS, Washington
 JERRY LEWIS, California             W. G. (BILL) HEFNER, North Carolina
 JOE SKEEN, New Mexico               MARTIN OLAV SABO, Minnesota
 DAVID L. HOBSON, Ohio               JULIAN C. DIXON, California
 HENRY BONILLA, Texas                PETER J. VISCLOSKY, Indiana         
 GEORGE R. NETHERCUTT, Jr., 
Washington
 ERNEST J. ISTOOK, Jr., Oklahoma
 RANDY ``DUKE'' CUNNINGHAM, 
California                          
          
 NOTE: Under Committee Rules, Mr. Livingston, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
    Kevin M. Roper, David F. Kilian, Alicia Jones, Juliet Pacquing, 
 Gregory J. Walters, Patricia Ryan, Doug Gregory, Paul W. Juola, Tina 
                        Jonas, Steven D. Nixon,
         David L. Norquist, and Betsy Phillips, Staff Assistants

       Jennifer Mummert and Sherry L. Young, Administrative Aides
                                ________
                                 PART 2
                                                                   Page
 Commanders in Chief:
   Central Command and European Command...........................    1
   Special Operations Command.....................................  133
   Pacific Command and United States Forces, Korea................  211
 Testimony of Members of Congress and Other Interested Individuals 
and Organizations.................................................  337
                                ________

         Printed for the use of the Committee on Appropriations

                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 77-604                     WASHINGTON : 2002





                     COMMITTEE ON APPROPRIATIONS

                   BOB LIVINGSTON, Louisiana, Chairman

 JOSEPH M. McDADE, Pennsylvania      DAVID R. OBEY, Wisconsin
 C. W. BILL YOUNG, Florida           SIDNEY R. YATES, Illinois
 RALPH REGULA, Ohio                  LOUIS STOKES, Ohio
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 JOHN EDWARD PORTER, Illinois        NORMAN D. DICKS, Washington
 HAROLD ROGERS, Kentucky             MARTIN OLAV SABO, Minnesota
 JOE SKEEN, New Mexico               JULIAN C. DIXON, California
 FRANK R. WOLF, Virginia             VIC FAZIO, California
 TOM DeLAY, Texas                    W. G. (BILL) HEFNER, North Carolina
 JIM KOLBE, Arizona                  STENY H. HOYER, Maryland
 RON PACKARD, California             ALAN B. MOLLOHAN, West Virginia
 SONNY CALLAHAN, Alabama             MARCY KAPTUR, Ohio
 JAMES T. WALSH, New York            DAVID E. SKAGGS, Colorado
 CHARLES H. TAYLOR, North Carolina   NANCY PELOSI, California
 DAVID L. HOBSON, Ohio               PETER J. VISCLOSKY, Indiana
 ERNEST J. ISTOOK, Jr., Oklahoma     ESTEBAN EDWARD TORRES, California
 HENRY BONILLA, Texas                NITA M. LOWEY, New York
 JOE KNOLLENBERG, Michigan           JOSE E. SERRANO, New York
 DAN MILLER, Florida                 ROSA L. DeLAURO, Connecticut
 JAY DICKEY, Arkansas                JAMES P. MORAN, Virginia
 JACK KINGSTON, Georgia              JOHN W. OLVER, Massachusetts
 MIKE PARKER, Mississippi            ED PASTOR, Arizona
 RODNEY P. FRELINGHUYSEN, New Jersey CARRIE P. MEEK, Florida
 ROGER F. WICKER, Mississippi        DAVID E. PRICE, North Carolina
 MICHAEL P. FORBES, New York         CHET EDWARDS, Texas
 GEORGE R. NETHERCUTT, Jr.,          ROBERT E. (BUD) CRAMER, Jr., 
Washington                           Alabama                            
 MARK W. NEUMANN, Wisconsin
 RANDY ``DUKE'' CUNNINGHAM, 
California
 TODD TIAHRT, Kansas
 ZACH WAMP, Tennessee
 TOM LATHAM, Iowa
 ANNE M. NORTHUP, Kentucky
 ROBERT B. ADERHOLT, Alabama        
          
                 James W. Dyer, Clerk and Staff Director

                                  (ii)

 
             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 1999

                              ----------                              

                                           Tuesday, March 17, 1998.

  COMMANDER IN CHIEF, UNITED STATES CENTRAL COMMAND AND COMMANDER IN 
                 CHIEF, UNITED STATES EUROPEAN COMMAND

                               WITNESSES

GENERAL ANTHONY C. ZINNI, COMMANDER IN CHIEF, UNITED STATES CENTRAL 
    COMMAND, U.S. MARINE CORPS
GENERAL WESLEY K. CLARK, COMMANDER IN CHIEF, UNITED STATES EUROPEAN 
    COMMAND, U.S. ARMY

                              Introduction

    Mr. Young. The Committee will come to order. This afternoon 
we are very happy to welcome General Wesley Clark, Commander in 
Chief of the United States European Command, and General 
Anthony Zinni, Commander in Chief of the United States Central 
Command.
    We thought we would take the opportunity to have both of 
you appear before the Committee together inasmuch as you have 
done this before. Your respective commands are continuous, your 
geographical responsibilities are immense and growing, and 
between the two of you, you seem to own most of the pressing 
operational problems faced by the U.S. forces today.
    General Clark, you are leading our forces deployed in the 
Balkans as they help to create a self-sustaining peace in that 
region. We are proud of the achievements of the troops under 
your command to date, and a number of us visited with you and 
your troops just this past week, and we cannot tell you how 
impressed we were with the conduct and accomplishments of those 
soldiers. But we do have questions and concerns about the 
purpose of what seems to be an indefinite presence in Bosnia. 
You are also dealing with the not inconsequential matter of 
NATO expansion and the committee is interested in what this 
development means to you as the regional CINC.
    General Zinni, you need to worry about backing up American 
diplomacy in the Persian Gulf and the long-term containment of 
a brutal and oppressive Iraqi regime. As we sit here today, you 
are leading a significant force in the Gulf that may have to 
act if Saddam Hussein does not comply with the latest U.N. 
agreement concerning their weapons of mass destruction program. 
We are also proud of what your troops have accomplished today 
and as we visited with you and some of your troops in October 
in the region, and again very, very proud of the way they 
conduct themselves and the accomplishments and what you have 
been able to do there.
    In addition to issues dealing with your respective 
commands, some of the key questions the Committee would like to 
address are:
    Are the resources at your disposal for each of your 
contingencies sufficient?
    What would be the impact to your commands of not having a 
timely disposition of the fiscal year 1998 emergency 
supplemental or even having to offset it as some have 
suggested?
    And what are the effects on the readiness and morale of 
forces under your command as you face near constant deployments 
in your operating areas?
    The hearing is closed this afternoon and so we are looking 
forward to a very candid discussion today with you on these 
issues. After you briefly summarize your statements, which will 
be placed in their entirety in the record, we will then proceed 
to questioning.
    Now I would like to yield to Mr. Murtha.

                         Remarks of Mr. Murtha

    Mr. Murtha. Let met add my welcome to these two 
distinguished gentleman and say to General Zinni, the Chief of 
the Egyptian Armed Forces was very complimentary about your 
work.
    Of course, General Clark, the Secretary of Defense has 
commented a number of times. I understand you are pushing to 
try to get an expansion into Macedonia, more forces in 
Macedonia, and I like that idea. I was the one that recommended 
we put troops there in the first place, because I felt we 
needed a buffer there, we needed to show them we are serious 
about what is going on over there. So I look forward to hearing 
your testimony.
    One other thing I will add. I remember during the Beirut 
crisis what a difficult thing it was to coordinate that little 
area there because it is so close to each other's area of 
responsibility. So I know how important it is. I think the 
Chairman is absolutely right in having both of you in, because 
there is close responsibility and such a need for coordination 
between the two commands.
    Mr. Young. Okay, General Clark, we will start with you, 
sir. As I said, your entire statement will be placed in the 
record, and then you should get geared up for some good 
questions.

                   Summary Statement of General Clark

    General Clark. Thank you, Mr. Chairman, I would like to 
thank you and the members of this Committee for your great 
support of all of our service members and their families in our 
command in Europe. I would also like to thank you for the 
opportunity to testify before you today and describe the 
contributions of the command to our affairs and interests in 
Europe, Africa and the Middle East.
    It is a time of historic opportunity and challenge in 
Europe. The threat of massive attack across the inter-German 
border has been replaced by a plethora of other problems, 
including the proliferation of weapons of mass destruction, 
terrorism, organized crime, drug trafficking, environmental 
degradation, refugee migration, and, most importantly, the 
instability in the region fueled by ethnic and regional 
conflict.


                        EUROPEAN COMMAND THREATS


    We believe we have to deal with these concerns and we have 
to deal with them early, before they become more serious 
problems. So the strategy that the U.S. European Command is 
pursuing today is a strategy focused on shaping the 
international environment to address these more ambiguous 
challenges and to prevent conflicts before they arise.
    We also recognize we have to be ready to respond quickly 
with appropriate force to deal with the conflict and to defeat 
an aggressor. Maintaining our readiness ensures we canrespond 
with sufficient trained and ready forces for any future operation, and 
our superb forces are engaged today in Bosnia, Africa, and in support 
of current operations in CENTCOM.

                            BOSNIA OPERATION

    In Bosnia-Herzegovina, we believe our efforts are 
continuing to show the progressive markers of success, thanks 
to the great work of our soldiers and the support of our 
allies. I visit our troops in Bosnia and assess the situation 
on the ground personally several times each month. I was there 
last Thursday. Troop morale was good. The situation in Brcko 
was well in hand, and I think we are making progress.
    The progress, of course, is necessary, but the progress 
also requires continued military presence. Our forces there are 
deterring renewed conflict, they are helping maintain a secure 
environment, and they are supporting the implementation of the 
accords, to the point that we can achieve a self-sustaining 
normalization.
    Planning is well under way for our part of the follow-on 
force. Of course, funding for that force is a key part of what 
we will be discussing today.

                             NATO EXPANSION

    NATO remains the foundation for our engagement in Europe. 
Poland, Hungary and the Czech Republic are eagerly awaiting 
parliamentary ratification of their succession into this great 
organization. I visited each country in the last month, met 
with their leadership, many of their top units. They have 
waited many, many years for this historic moment and this great 
opportunity to join the West. Their troops are surprisingly 
effective. Their leaders are committed. They want to dedicate 
the resources, they want to join us, and I believe they will 
make significant and meaningful contributions to the alliance.

                            PERSONNEL ISSUES

    For the men and women in our command, the missions 
continue, operational tempo is high, and I think all the people 
in the United States should be very proud of the work of our 
service members and their families over there. They are keeping 
their readiness sharp in the face of a lot of challenges.
    Force protection is our highest priority, Mr. Chairman, 
because our most precious resource is the soldiers, sailors, 
airmen, marines, civilian employees and their families, but we 
also have to be concerned about quality of life, because that 
directly impacts our readiness, our retention. It impacts 
family life, morale, and our mission accomplishment.
    Our biggest quality-of-life problem is the deplorable 
conditions of our barracks and housing in Europe. We have got 
some 11,000 family quarters that were built in the early 1950s 
that have never been renovated. Everything from electrical 
problems to sewage leaks and other things are coming out as a 
consequence. This is a problem associated with the shortage of 
construction and major repair funds. That is compounded by an 
even more critical shortage of real property maintenance funds.
    We really need the supplemental funding and we need an 
offset supplemental. If we don't have this, we will be forced 
to divert money from already inadequate operations and 
maintenance accounts to cover the shortfall.

                                SUMMARY

    Today, U.S. European Command is smaller, leaner and 
probably more heavily tasked than at any time in our history. I 
think our men and women are up to the challenge. They are doing 
a great job, but we do need resources. We need the current 
force structure and we need sufficient operations 
infrastructure and quality-of-life funding to meet our urgent 
needs. With the continued help and leadership of this 
committee, we will get the job done over there.
    Again, thank you very much for the opportunity to be here, 
and I look forward to answering your questions.
    [The statement of General Clark follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Young. General Clark, thank you very much. Let me turn 
now to General Zinni. Then we will get to the questions.

                   Summary Statement of General Zinni

    General Zinni. Thank you, Mr. Chairman. Just a brief 
opening statement. First I thought I would give a brief wrap-up 
of the situation as it stands today. I think everyone knows 
that UNSCOM is inspecting. We have had an intrusive inspection, 
and their normal routine inspections are ongoing. We monitor 
those very closely. So far we have seen cooperation. I think it 
is going to take a test of time to ensure that we do have the 
compliance and cooperation that is desired. Until we are 
assured of that, the current force levels should remain in 
place. ------. I would say that these troops have come to me in 
a fine state of readiness, with high morale. I have no assigned 
forces, so I draw on CINCs like General Clark and the other 
CINCs that are my force providers. I do know they pay a big 
cost to keep these forces out in the Gulf and to keep our 
interests protected.
    I am keenly aware, through my service components, of those 
costs. I am very appreciative of the fact that thesupplemental 
has been voted out of your subcommittees, and I back up General Clark's 
statements that this is critical for us to be able to keep going.
    I would also like to mention very briefly something that 
may have been misunderstood, and that is the support we have 
had from our allies in the Gulf. I think a lot of focus and 
misrepresentation was maybe misleading in giving the impression 
that they were not supportive. ------.
    Thank you, Mr. Chairman.
    [The statement of General Zinni follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Young. General, thank you very much. Excuse me just one 
second.
    I would like to recognize Mr. Livingston, the Chairman of 
the Appropriations Committee.

                      SUPPLEMENTAL BUDGET REQUEST

    Mr. Livingston. Thank you, Mr. Chairman. I will be brief.
    Gentleman, I apologize for just bouncing in and out. You 
all are in charge of some very, very significant problems 
facing this Country, and as Chairman of the Appropriations 
Committee, I just want to tell you we want to work with you to 
try to get through these immediate problems that you are 
facing, at least give you the money and the wherewithal that 
you need to do it. We are going to be, with the help of the 
Chairman here, launching the path for our supplemental, and it 
is my great hope that we will get it through the Congress with 
as little controversy and fanfare as possible. But we want you 
and the troops that you lead and represent to have the 
wherewithal that they need to do the job that we are so proud 
of.
    Thank you. Thank you, Mr. Chairman.
    Mr. Young. General Zinni, as you mentioned, this 
subcommittee has reported out a supplemental without offsets. 
That is the first time in a number of years we have done that. 
We hope we are going to be able to maintain this position 
through the consideration by the full committee and by the 
House and by the full Congress, because we all recognize the 
serious problems that we are causing by offsetting these 
extensive contingencies from the regular budgets of the 
services.
    So we keep our fingers crossed that we can maintain the 
position that the subcommittee took on last week.
    Now, because we have such important visitors, I know all 
the members have a lot of questions, I don't want to run out of 
time before we get to Mr. Cunningham again like we have done 
the past several times, so we are going to adhere strictly to 
the 5-minute rule and get a chance to go around the table a 
couple of times if we do that.
    I would like to yield now, since I have had a chance to 
visit with both of you in your areas of responsibility and more 
recently in personal conversations, I will yield my time to Mr. 
Lewis for 5 minutes.

                      SITUATION IN THE GULF REGION

    Mr. Lewis. Thank you very much, Mr. Chairman. General Clark 
and General Zinni, thank you very much for making the effort to 
get here. We know the difficulty that you are facing these 
days, and we appreciate this effort.
    General Zinni, you have been quoted as saying that it is 
only a matter of time until Saddam Hussein breaks the latest 
agreement with the United Nations. Can you elaborate more on 
that view for the Committee?
    General Zinni. Sir, I think if you look back from the end 
of the Gulf War until now, ------. I think as long as sanctions 
and the pressure are on, he is not going to be happy with that, 
and we will see a return to that pattern shortly.

                   U.S. FORCES READINESS IN THE GULF

    Mr. Lewis. General, in view of that, how long can you hold 
the present force in the Gulf together at readiness rates 
significant to conduct air strikes should they become 
necessary?
    General Zinni. ------. We have proven that we can get 
there. I was extremely proud about how the flow of forces went. 
Again, I attribute this to my supporting CINCs that have 
provided the forces and CINCs like Transportation Command. ----
--.

                         IRAQI THREAT ASSESMENT

    Mr. Lewis. General, update the Committee as to the status 
of the threat posed by the Iraqi regime, and in your answer 
would you include the following: the Iraqi weapons of mass 
destruction program; the state of conventional force 
modernization; and recent activities in support of 
international terrorism.
    General Zinni. Sir, I will take the conventional forces 
first. I think Saddam Hussein would have modernized his forces 
by now had he been allowed to do so without the sanctions. He 
is running some equipment that is getting a little old. ------.
    Mr. Lewis. Well, if the UNSCOM mission was to fail and we 
did nothing, how long would it take the Iraqis to fully 
reconstitute the WMD development program?
    General Zinni. Sir, I would say if they were left with no 
monitoring and no inspection. ------.
    Mr. Lewis. Okay. I yield back, Mr. Chairman.
    Mr. Young. Thank you, Mr. Lewis. Mr. Murtha.

                          DEPLOYMENT OF FORCES

    Mr. Murtha. Do we have any problem with coordination of 
deployment? I know when we had a problem in Zaire, the troops 
had to land in the Congo because of some problems of 
coordination. Are there any problems like that of coordination, 
we deploy our troops? It is a very small deployment, but it 
always worried me that there was a problem of coordination 
there. Do we have any kind of problem like that now?
    General Clark. We have no problem that I know of, 
Congressman, but before any deployment, we have got to be sure 
that we have the permission of the countries that we have to 
overfly, the countries we have to stage in, and there are 
varying degrees of diplomatic sensitivity with every one of 
these deployments. So every on is a case in itself.
    Mr. Murtha. Wouldn't we get the deployment for the troops 
on the airplanes out and movement out before we landed?
    General Clark. Absolutely.
    Mr. Murtha. Yet in this case, we thought we were going to 
Zaire and we landed in the Congo.
    General Clark. I can't address that issue. Those troops 
were down there before I was the commander, and they didn't 
stay very long. I just don't have the information on that.
    Mr. Murtha. So at any rate, you don't know of any 
coordination problems there actually are now?
    General Clark. No, I don't. In fact, I tell you our 
coordination for our European allies for work in Africa is 
better now than it ever has been.

                                 KOSOVO

    Mr. Murtha. Let me mention two other things, not questions. 
One, I know you and I differ on these war criminals, but I have 
a great concern about being aggressive with the war criminals. 
I think it has worked out very well the way it is working now.
    But my caution--and the Chairman and myself and Mr. 
Livingston and Mr. Obey met with the national security team, 
and we told them the same thing. Our concern is what happened 
in Somalia and the danger of being aggressive and reaction and 
the vulnerability of our troops in a place like Brcko. So I 
just always feel it is necessary to caution you, as I did 
General Joulwan before you took over, about my concern about 
it.
    The other was Kosovo. We have had a long concern about 
Kosovo. For 2 or 3 years we expected that place to flare up, 
and it hasn't until just recently. How serious is the problem 
in Kosovo and what do you see happening there?
    General Clark. I think the problem in Kosovo is very 
serious. I see it getting progressively worse because, over 
time, the opinion among the Albanians has been progressively 
radicalized. Their opposition to Serbian dominance has been 
strengthened. They are building support networks in Western 
Europe. Those Albanians and that support is now returning. They 
have also contacted Iran for support. At the same time, Russian 
diplomacy is now strongly in support of Milosevic. So we are 
heading toward a much more difficult period in Kosovo.

                          BALKAN WAR CRIMINALS

    With respect to the war criminals, Congressman, I hope you 
don't believe everything you read in the press about me on that 
subject. Sometimes my friend Bob Gelbard gets carried away 
about this. We have done nothing there that we haven't 
thoroughly looked at very carefully, worked through all of the 
possible outcomes, measured the risk, made sure we were totally 
capable of handling not only the action but the consequences, 
and we have seen the payoff from the very limited actions we 
have taken. We now have people talking to us and wanting to 
surrender because they know that they are in danger.
    We are casting a big, big shadow over there. There is one 
thing those people in Bosnia understand, and the rest of that 
region of the world; they understand force and they understand 
the United States and they respect us, and they are a little 
bit afraid of us. We sure want to keep them that way.
    Mr. Murtha. There is no question in my mind without the 
deployment of the United States, leadership of the United 
States forces and deployment of our forces, this fighting would 
still be going on. It has been an impressive success up to this 
point. I just am always concerned we will go too far because of 
our enthusiasm in trying to get rid of these war criminals. All 
of us deplore it, but we are just worried that we could have 
some casualties, unnecessarily, if we go too far, too fast.
    General Clark. Yes, sir, I understand.
    Mr. Young. Mr. Skeen.
    Mr. Skeen. I yield my time.
    Mr. Young. Mr. Hefner.

                            SANCTIONS UPDATE

    Mr. Hefner. Thank you, Mr. Chairman. The sanctions. I think 
that is probably what Saddam would like to have, the sanctions 
lifted, and we are fighting a battle on PR for sanctions as far 
as the people go. But it seems what you are telling us is that 
as long as the sanctions stay in place, even prohibiting him 
from modernizing his forces and what have you, even though he 
is probably using the money that he is allowed to sell oil for 
his own agenda, but the people are suffering. Do we need to 
keep the sanctions?
    General Zinni. Sir, if I could answer that in two parts. 
First, if he used the Oil for Food program properly--and there 
is a lot of propaganda value for him contending that the 
bureaucracy set up deliberately is done sothe food won't get to 
the people, when actually he is the cause--if he used that properly, he 
would be able to care for his people.
    In terms of the sanctions, if the sanctions were lifted, --
----.
    Mr. Hefner. Well, one other question. When we were on the 
borderline of doing a strike against Iraq, at the last moment 
they reached an agreement. Were you fairly well satisfied that 
the targets that you had targeted would have been effective? I 
don't know the magnitude of what it would have been, but do you 
feel like it would have been effective in putting some, in down 
home talk, some ``hurt'' on Saddam Hussein if you did a strike?
    General Zinni. Yes, sir. Our mission was twofold. One was 
to diminish his ability to threaten his neighbors. So obviously 
those kinds of forces that we can identify, see, target, that 
would present those kinds of opportunity for him, Republican 
Guards, others, we can obviously target and diminish 
significantly. ------.

                             INFRASTRUCTURE

    Mr. Hefner. One other question about Bosnia. I have been 
real impressed by the job we have been able to do there, and we 
don't see the carnage every night on television about children. 
But is one of the keys to making this an ongoing successful 
operation is investment in infrastructure? We asked that 
question here the other day: when you make investments in 
infrastructure; where people can have jobs. Is that a big part 
of the success?
    General Clark. Yes, sir, it is. It is a very big part of 
the success.
    Mr. Hefner. How is it coming?
    General Clark. It is coming, I would say on a scale of zero 
to 10, it is about a 4. The reason it is not better is twofold. 
First, because there is still a lot of corruption in the 
political systems, particularly in the Federation side, between 
the Bosnians and the Croats. There has been an awful lot of 
funds diverted into private party coffers that could have gone 
to infrastructure funding. Secondly, because some countries 
haven't ponied up their full share of the infrastructure 
funding.
    So we are making headway. One of the key challenges, 
though, that we are going to be facing is to bring refugees 
home. They have to have jobs. To have jobs there has got to be 
the investment in the basic power industry. You have to get 
that restarted. They have to open up lines of communication. 
That means roads and bridges have got to be put in. And it is 
going to take a lot of international civilian effort to do 
that. These aren't things the United States Armed Forces can 
do.
    Mr. Hefner. I thank you, gentleman. Thank you, Mr. 
Chairman.
    Mr. Young. Mr. Nethercutt. Mr. Nethercutt just recently 
returned from the region, General Clark. He had a chance to 
visit with you there at SFOR headquarters.

                       EFFECTIVENESS OF SANCTIONS

    Mr. Nethercutt. Thank you, Mr. Chairman. Welcome, General.
    General Zinni, I have heard you talk about sanctions with 
regard to Iraq, and I know we have seen reports that the oil is 
coming out of that country and perhaps money is coming back in 
surreptitiously. I am wondering to what extent you feel we have 
the ability to tighten sanctions, and, if so, what should we 
do? To what extent is the oil smuggling helping the 
modernization effort of Saddam Hussein?
    General Zinni. ------.

                             IRANIAN POLICY

    Mr. Nethercutt. With regard to Iran and President Khatemi 
reaching out and appearing to be a moderate and seeking some 
measure of peace or relationship with the United States, to 
what extent do you see that as a pretext for their continuing 
modernization efforts? Do you see an inconsistency there that 
you can talk about here?
    General Zinni. I believe there are two leadership factions 
in Iran now. ------.
    Mr. Nethercutt. Are you worried about their military 
capability at this point?
    General Zinni. ------.

                     THE DANGERS OF FUNDAMENTALISM

    Mr. Young. Mr. Cunningham.
    Mr. Cunningham. Thank you, Mr. Chairman. It is good that I 
have got both of you here representing Europe and theIraq-Iran 
area, because my major concern is the fundamentalists movements all 
over the planet. I feel that in many cases, the Mujahedin and Hamas 
from Iran, Iraq, and Afghanistan have moved into Bosnia, and with the 
United States, the continuation of us arming and training the Muslims, 
I feel if we pulled out today there would be conflict, whether it is 
Kosovo or somewhere else; but if we stay, with an increasing movement 
of Izetbegovic and Silajdzic toward Iran, Iraq, and Afghanistan, that 
when we do pull out, and if we keep arming, then we are inviting 
disaster even more so in the future, because then it is going to be the 
fundamentalists that they go after. And we are not talking just Muslim, 
we are talking hard-core, well trained, experienced individuals that 
are infiltrating the whole area in great numbers.
    Do you agree with that?
    General Clark. I would say this, Congressman, that we are 
not going to prevent Islamic arms reaching Bosnia by stopping 
our Train and Equip program. We put our Train and Equip program 
in place. I don't have anything to do with it in my current 
position, by the way, but it was put in place as matter of U.S. 
national policy, because we wanted to drive out Iranian and 
Fundamentalist influence, and at the same time provide a basis 
for a sure answer and confidence among both Bosnian and Bosnian 
and Croat populace living in the Federation that they would no 
longer be subjected to Serb long-range artillery attacks that 
we were defenseless against. That is why Train and Equip was 
put in. I think it is serving that purpose.
    But to further reduce Iranian and Fundamentalist influence, 
we have to take a different tactic. We have got to identify 
those people that are there, we have got to confront them, and 
we have got to get them out. There were actions under way to do 
that. A number of them have left. We haven't broken all of the 
ties with the leadership, clearly. We know Izetbegovic and 
Solidavich continue to go back there, they are receiving a lot 
of money from not only Iran, but countries like Qatar, and they 
are still connected.
    Now, we are not going to see real light at the end of the 
tunnel in Bosnia until we get a new generation of leadership in 
there, and that includes a new generation of leadership there 
among the Muslim group, people that are committed to 
implementing the Dayton agreements and implementing a multi-
ethnic Bosnia.
    Mr. Cunningham. I guess my real question is, do you think 
it is a danger for us to continue dumping our arms in there and 
training, that when we do pull out, then this is going to be 
like a wave coming back at the surge?
    General Clark. No, sir, I do not think it is a danger. I 
think it would be a mistake for us to stop the Train and Equip 
program. I think we want to follow through with that and use 
that as its leverage to build a democratic force and a western-
oriented force inside the Federation and take other measures to 
diminish the Fundamentalist influence.

                       INTELLIGENCE CAPABILITIES

    Mr. Cunningham. Okay. Do you have a pretty good, in both 
Iraq and Bosnia, pretty good coordination with our intelligence 
services? We had CIA brief us. Do you work pretty candidly with 
those agents and do they have enough forces in the country?
    General Zinni. Yes, sir. Obviously we have a representative 
in our headquarters. All the intelligence agencies are tied in 
with us and tied together. We feel we have a good picture. I 
would like to see more HUMINT Intelligence on the ground in 
both places. I think that is where we are woefully inadequate 
in both countries, Iran and Iraq.
    Mr. Cunningham. Do you have any compartmentalization 
problems, where you are getting the different conflicts, we had 
problems, we couldn't find out where it was, where it was 
coming from, the information? Are you getting pretty well-
versed information?
    General Zinni. Yes, sir. As a matter of fact, I have been 
to CIA headquarters several times and received briefings I felt 
were more than adequate. Additionally, some degree of 
compartmentalization of intelligence is required to protect 
human and technical sources.
    General Clark. I think we are doing very well in Bosnia. --
----. General Shinseki gets it on the ground in Bosnia, I get 
it in my headquarters in Belgium, and I think it is a very good 
connection.
    Mr. Cunningham. I don't know, do I have a minute, or is 
that it? That is it.
    Mr. Young. You are going to get a second chance, though. 
Mr. Visclosky.

                 U.S. BASING RIGHTS IN THE MIDDLE EAST

    Mr. Visclosky. Thank you, Mr. Chairman. General Zinni, as 
far as the basing in Saudi Arabia and Turkey, apparently as far 
as a strike against Iraq, we would not be allowed to base 
planes and personnel in those countries. Is there any progress 
being made as far as the basing issue?
    General Zinni. ------.

                                 TURKEY

    Mr. Visclosky. What about Turkey?
    General Clark. With respect to Turkey, in the EUCOM AOR, we 
have an operation flying from there, operation Northern Watch. 
The Turks accommodated an expansion of that program so we could 
keep roughly 12 hours a day in the skies to deny the no-fly 
zone north of the 36th parallel. They gave strong indications 
they didn't want to support strikes down there; on the other 
hand, they have been cooperative in many other areas. We have 
multiple interconnections and dialogues going on with Turkey. 
We didn't need to launch strikes from Turkey to support General 
Zinni's program. Had we done so and had we put the pressure on, 
we might well have gotten the answer we wanted.
    Mr. Visclosky. For both gentlemen, is that a change? Is 
there a subtle change going on? Is that a deterioration of what 
their position may have been, even if it is 1 out of 8 or 9 
maybe in the end we could have, is that a deterioration, or has 
that been constant?
    General Zinni. ------.
    General Clark. If I could answer with respect to Turkey,I 
think we should be very concerned about our relationship with Turkey. I 
think Turkey is a country that is on the brink of descending into chaos 
right now. They are trying to cope with the increasing growth of 
fundamentalism. They have been excluded from the European Union because 
of their non-democratic constitution, and frankly because of the 
prejudices of a number of European countries against their workers. 
They are feeling isolated and beset, including under attack from us 
because of their human rights policies, and they are having a very hard 
time coping right now. There are those who are more familiar than I 
with the situation in Iran in the early 1970s, who see overtones of the 
same destabilizing constellation of forces that converged in Iraq. They 
see them moving toward Turkey now.

                     COMPOSITION OF FORCE STRUCTURE

    Mr. Visclosky. Would either of you believe that we should 
be looking at restructuring some of our forces because of, at 
least in the case of Turkey now, these developments? Is there 
something we should be looking ahead to as far as a change in 
the force structure?
    General Clark. With respect to Turkey, I don't see it as a 
force structure issue, I see it as an issue for American 
diplomacy and our ability to persuade our NATO allies that the 
European Union has a vital interest in Turkey as well, and has 
to avoid the tendency to draw Europe's southeastern boundary 
along the perimeter of the Greek islands off Turkey's Aegean 
coast. I think it is a matter for diplomacy at this stage, and 
there is only a limited amount we can do, even with military 
dialogue, and nothing with force structure.
    General Zinni. Sir, I feel in our region we have kept the 
force posture very flexible. ------. We have Operation Southern 
Watch running out of several countries there, but we view that 
only in terms of as long as sanctions are on and that 
particular sanction is maintained. We have tried not to get 
many fixed installations and we have tried to spread the wealth 
and our presence out there. I think I would recommend we 
continue that kind of flexibility. ------.

                     LENGTH OF CURRENT DEPLOYMENTS

    Mr. Young. Generals, as we proceed with this supplemental, 
we are going to get hit with a lot of questions from a lot of 
Members who think we should not be facing down Saddam, who 
think we should not be in Bosnia, and they are concerned about 
what we might be thinking about doing in Kosovo.
    My general question is going to be what do you see in the 
future. How long are we going to be deployed in your respective 
regions? The question becomes fairly important to me after our 
visit last week, General Clark. We had a very interesting 
session in Brcko. After having seen all of the stability in the 
country because of your forces there, but in Brcko the Dayton 
agreement had not been implemented, and now there has been an 
announcement it will be put off until 1999. Our delegation had 
an interesting experience. We had a version of a town meeting 
in Brcko with a group of folks that represented different 
organization, and they were Muslims and Serbs.
    It started off in a very friendly way and people were 
smiling and we were exchanging questions and answers. But 10 or 
15 minutes into the session, our guests were standing and 
shaking their fists at each other and shouting. I am not sure 
what they were saying, but it was loud.
    In view of this tension that existed there, are we going to 
have difficulty ever establishing a situation where they are 
going to get along without the presence of our troops there?
    The same thing, General Zinni, in your region. We watched 
Saddam cheating and then retreating, and then cheating and then 
retreating. We deployed and then we withdraw.
    Both of you, just tell us what you see in the future as to 
our presence, because we are going to get bombarded with those 
kinds of questions when this supplemental gets on the floor.

                                 BOSNIA

    General Clark. I can't comment on the specifics of your 
town hall meeting there, Mr. Chairman, because I don't know 
exactly who was there. I was in Brcko on Thursday with the 
Secretary General and we met the three mayors, and it was a 
much different atmosphere. But a lot of the inter-ethnic strife 
in Bosnia at least is contrived. It is contrived by political 
forces who profit from ethnic division and tension, and who 
exploit the people there to serve their own personal interests 
and political gain and financial aggrandizement. We know that.
    We have seen new leadership come to the fore in the 
Republic of Sprska. As we see new leadership in the Federation, 
I think we are going to see a different attitude on the part of 
the people there. Many of the people in Brcko are refugees from 
Sarajevo. They have been invited to return now to Sarajevo. 
President Izetbegovic has become increasingly more 
accommodating on the refugee return issue, and I think that is 
going to diffuse tensions also.
    On the other hand, we shouldn't underestimate the 
importance of Brcko symbolically. This was the last peace not 
resolved at Dayton. It was the tie breaker that got us the 
Dayton agreement. The agreement had collapsed until Milosevic 
agreed to arbitration. We were never able to agree on what 
Brcko consisted of. We couldn't draw a map on it. It is going 
to be hotly contested. We couldn't have a decision made with 
the new government because that would have undercut them 
entirely in their efforts.
    We shall be looking at what to do in the November-December 
time frame. But again and again when I go to Bosnia, I am 
impressed by the fact when you talk to people, they just want 
to get on with their lives. These people have had enough of 
conflict, they have had enough of division, and let alone they 
will go back to their homes and reestablish their relationships 
and businesses and other things, and we will have peace in 
there.
    So I don't see this as an endless commitment. I see it as 
rather something we have got to work the process here, we have 
got to get the balance of forces right, and then we have got to 
let the good aspects of human nature take over, which they will 
in that region.
    General Zinni. Sir, two-thirds of the world's oil is in my 
part of the world, plus a large percentage of the natural gas 
and other energy sources. ------ and General Clark also has the 
other partof the Caspian Basin, the Caucasus, with equal 
amounts of energy.
    Access to this region is going to be critical to us in the 
future, to the markets and to the energy sources. The transit 
through this region, the Suez Canal, Strait of Hormuz, the Bab 
al-Mandab, these are narrow straits that we require freedom of 
navigation through, and overflight of. Instability in this 
region, as was mentioned by Mr. Cunningham, can spread 
throughout the world. It isn't confined to any kind of 
religious or ethnic problems that blow up. It seems to scatter 
to the winds, be it terrorism, fundamentalism or whatever. ----
--. Just the general instability in this region that can spread 
is a concern. The number of border, ethnic, and religious 
disputes, along with fights over water which will be the fuel 
of war in the future, more so than oil in this region, do not 
look good. So I see the important of this region for us to be 
great for a long time to come.
    Mr. Young. General Zinni, I think maybe I wasn't specific 
enough in my question as it related to you. I was actually 
talking about the increased deployments that we have seen just 
in the recent weeks. I certainly agree with what you said about 
the importance of our presence in that region, but I wonder 
about the increased force.
    General Zinni. ------.
    Mr. Young. Mr. Murtha.
    Mr. Murtha. No further questions.
    Mr. Young. Mr. Lewis.

                              IRAN UPDATE

    Mr. Lewis. Thank you, Mr. Chairman. General Clark, not a 
question, but your general description of the region and 
comments regarding Turkey especially have piqued my interest 
and I think the Committee should focus in a special way on 
those problems.
    But, General Zinni, you too pointing to just how vital this 
region is to us, economically and otherwise, causes me to want 
to extend some of the questions of Mr. Nethercutt relative to 
Iran. Last May, a relatively moderate government theoretically 
was elected, and yet you say the hardliners are still in 
control.
    What is your assessment of the intentions of the new regime 
and do you believe that we have any genuine--do we have a 
change to improve relations with Iranians?
    General Zinni. ------.
    Mr. Lewis. Knowing where our friends and opportunities are 
has always been difficult in the region, the need for Intel, 
especially HUMINT, is good comments as well.
    Would you update the Committee on the current status of 
Iran's efforts to first acquire weapons of mass destruction and 
offensive missile capability and further support of terrorist 
activities?
    General Zinni. ------.
    Mr. Lewis. Finally, General Zinni, given the slight changes 
in the environment in Iran, has there been a change in the 
military-to-military relationships with that country?
    General Zinni. ------.
    Mr. Lewis. Thank you.
    Mr. Young. Mr. Hefner.

                            BOSNIA ECONOMICS

    Mr. Hefner. Thank you, Mr. Chairman. I just have a brief 
comment or question. As I am listening to your explanations, it 
would seem to me that the overriding key--you talked about the 
town hall meetings where the people are shouting at each other, 
if they have jobs and their kids are going to school and there 
is some peaceful existence--is how much of a part of this whole 
conflict is economics?
    General Clark. It wasn't the major part initially, but it 
is going to be probably the major part in restoring harmony in 
the country. If we had the job opportunities right now, we 
could bring the refugees home, we being the international 
community, not SFOR but the international community could bring 
these refugees home much more quickly. As it is when you fly 
over communities there, you see that 5 out of 6 factories are 
shut down. In Brcko, for example, really the only industry 
going in Brcko is the alcoholic beverage industry and the bars 
at night, because the river ports are not open, there is no 
commerce allowed by President Tudjman into Croatia if you are a 
Serb.
    This has been a real problem for them. The electric power 
industry doesn't work, or the water works, so they don't get 
water flowing through the tap a lot of the time. They need a 
lot of investment. They need jobs, and this is what is going to 
really bring this country back.
    Mr. Hefner. Thank you, Mr. Chairman.
    Mr. Young. Mr. Skeen.

                          LANDMINES IN BOSNIA

    Mr. Skeen. Thank you, Mr. Chairman. General Zinni and 
General Clark, this may seem like a very small problem, but how 
heavy is the land mine situation in Bosnia and Kosovo and 
Serbia?
    General Clark. There are a lot of land mines in Bosnia. I 
can't address the situation in Serbia. There are some there, no 
doubt, along the border with Macedonia, but they are not widely 
scattered yet because there hasn't been open fighting. In 
Bosnia there are several million land mines which are still 
there.
    We have a demining process that is under way. We require 
each of the former warring factions to demine a particular set 
of acreage each month. If they don't, they don't get to train 
their armed forces. We are also providing demining training for 
them. There is also a U.N. effort to do this. But it is going 
to take many years to get the mines out.
    Really the farmers have discovered the effective way to get 
the mines out. They send a herd of goats or sheep across the 
countryside, and after that is repeated a few times, that is 
the way they know it is safe to walk in the fields.
    Mr. Skeen. I read it feels like that is an insult to the 
herd.
    General Clark. I can understand that, sir.
    Mr. Skeen. But it is an ongoing problem and I know it has 
been a big problem. The reason I ask is because we have a 
development going on in my particular district to locate mines, 
both plastic and metal and so forth.
    General Clark. I think it is very important we do that. It 
needs to be funded and encouraged and we need to get those 
developments in place over there.
    Mr. Skeen. Sheep, if we could export ours over there, we 
would sure like to have the address.
    General Clark. Well, there are not enough sheep to do the 
job. It is not reliable. But I comment on that because when I 
was in Brcko Thursday, I looked out from the Humvee as we were 
driving by and we watched a herd of sheep being driven across 
this minefield where we will not walk. And so that is the way 
it is being done on the ground, hands on, by the local people.
    Mr. Skeen. Thank you very much for that answer to that 
great problem.
    Mr. Young. Mr. Nethercutt.

                             NATO EXPANSION

    Mr. Nethercutt. Thank you, Mr. Chairman.
    General Clark, the expansion of NATO is something that is 
under consideration in the Senate and we may get some of that 
over here with regard to the funding requirements.
    The administration has indicated that the total cost of 
expansion for NATO members will be $1.5 billion. There is some 
suggestion that perhaps that may be low. What is your sense of 
that? How much do you expect the expansion of NATO to cost? Is 
the $1.5 billion a good figure or what are you able to say at 
this point?
    General Clark. I think, first of all, I have to tell you my 
headquarters, my NATO headquarters did this study, so I stand 
by the $1.5 billion figure as a preliminary estimate.
    I have asked for an additional program to be added that 
would add to the cost of expansion. I would like to be able to 
affirm their interoperability readiness. That means a computer-
assisted exercise simulation program similar to what we use for 
the United States Armed Forces that we could put in place for 
these Polish, Hungarian, and Czech forces to come in. That is a 
marginal increment to the bill. But by and large, it is going 
to be in the $1.5 billion range.
    That is the common funding that all the existing NATO 
members and the new members will share. Of course, they have 
several billion dollars of additional expenses of their own. We 
have gone through the NATO force goals process with them. I 
visited their Presidents and their Defense Ministers. They have 
assured me they are going to pay their billings, they are going 
to scope the resourcing up so they can be effective 
contributors to security so there will be costs, but I think 
for the common infrastructure funding, the $1.5 billion cost is 
a good cost.
    I will tell you also that we are in a dispute with our 
European allies who believe that the $1.5 billion should be 
absorbed by the ongoing infrastructure budget rather than be an 
incremental to the existing budget. I don't know how that is 
going to come out. It could be we don't pay anything extra for 
these countries. That is certainly the way the French would 
like it.
    Mr. Nethercutt. General Zinni, on a more personal issue for 
me, we have a constituent by the name of Don Hutchings who was 
kidnapped in Kashmir in 1995. For the record, I don't expect 
you to know this at this point, wondering if you have heard 
anything. A group called Al Faran captured him, he is an 
American citizen, and we are worried that we don't know where 
he is. I don't know if you know anything more. If you do, sir, 
for the record I would appreciate you submitting it, or if you 
have something now, that would be great.
    General Zinni. I am aware of the case, sir. I have no new 
information, but I will check with the Pakistanis to see if 
they have any insights.
    Mr. Nethercutt. Thank you so much. Thank you, Mr. Chairman.
    Mr. Young. Mr. Visclosky.

                                DEMINING

    Mr. Visclosky. Thank you, Mr. Chairman.
    General Clark, just to get back to mining for one second, I 
had asked the Secretary of Defense last week about whether 
people are actively still laying mines in Bosnia. He indicated 
he did not believe that that was the case, he had no 
information. You are closer to this, and I am not looking to 
try to trap him, but you are closer to the situation. Do you 
have a sense that that may be happening?
    General Clark. We don't see that going on. I can't swear 
that nobody has ever laid one, but in general it is not going 
on.

                         U.S. BASING IN EUROPE

    Mr. Visclosky. Okay. General Clark, on the European basing, 
with the drawdown and the situation you face, any sense as to 
whether or not the Europeans want your footprint to grow larger 
again or smaller than it is today? Do you have any basing 
situations that need to be addressed one way or the other?
    General Clark. Well, we are adjusting some of our basing. 
For example, we are going to try to improve our in-transit 
capabilities to support deployments through the theater, so we 
are looking to get to move out of, for example, Rhein Main Air 
Base and get an expansion of one of our other bases there that 
can handle a better load 24 hours a day. But in general, the 
Poles, Hungarians and Czechs, of course, would be very happy if 
we based forward in their countries.
    We are under considerable pressure to keep open the 
facility in Hungary that we have right now. When I was in 
Poland they were hinting around about how much they would like 
to have a NATO headquarters in Poland, and that means a U.S. 
presence in Poland. We don't have any intention of doing that. 
I think we are solid where we are right now.
    What we need to do is concentrate on our infrastructure 
money as best we can on improving the quality of life of our 
single service members and their families in this region. It 
would take an extra $275 million per year between now and 2010 
to meet the standards that the Department of Defense has given 
us for our family housing in this theater. No money was 
invested for 6 years at all by any of the services in Europe in 
family housing. This was because we thought the payment in kind 
program, which was going to give the German reimbursement as we 
turned over facilities, was going to cover it. We thought we 
could invest all of our money into the infrastructure 
installations we were going to keep back in the United States 
and we simply didn't step up and take care of our people in 
Europe. So we are woefully underfunded historically for 
infrastructure in family quarters and troop billets in the 
EUCOM AOR.
    Mr. Visclosky. Is the $275 million you mentioned over and 
above any budget allocation you currently have?
    General Clark. It is.
    Mr. Visclosky. That would be through the year 2010, to get 
current in that year?
    General Clark. That is right.
    Mr. Visclosky. I appreciate your comments. Thank you, Mr. 
Chairman.
    Mr. Young. General, are we talking about the need for new 
construction or real property maintenance on existing housing, 
or both?
    General Clark. There are enough SETS; it is the question of 
how it could be most economically done. In general the way it 
is preferred to be done, is as a whole neighborhood renewal 
program, where you take the buildings down. Most of buildings 
over there are stairwell-type living, so you are living three 
or four floors high, two families on a stairwell, and you have 
to take the whole building down. You have to start with the 
plumbing and electrical wiring which has not been fixed. You 
probably add a little bit of space on the outside so they have 
got a second or half-bath addition to the apartments, and this 
is between $100,000 and $200,000 per dwelling on average. 
Construction costs over there run 40 percent higher than they 
do in the United States, as you know. In general, we would be 
talking about the existing buildings and then really working 
them over.
    Mr. Young. Mr. Cunningham.

            CHINESE INVOLVEMENT WITH IRAN/IRAQ WMD PROGRAMS

    Mr. Cunningham. Thank you, Mr. Chairman.
    Generals, there is a straight dichotomy in Iran and Iraq, 
they are bitter enemies, but yet they help each other from time 
to time, especially with the Fundamentalist groups.
    We had reports of different countries, i.e., China, of 
shipping in chemical and biological weapons and nuclear 
materials. We are talking about sanctions out, but coming 
across the border, is there much still coming in to boost up 
their capability?
    General Zinni. ------.
    Mr. Cunningham. The reason I ask, it was reported that 
COSCO, Chinese shipping, was stopped with chemical and 
biological weapons and nuclear components heading for Iran, 
which much of it would end up in Iraq. I didn't know if 
intelligence helped you with that at all.
    You are both talking about the economics, but if you look 
at Northern Ireland, you look at Russia, you look at the Middle 
East, Bosnia, all of those, I think if the economy was good 
there like it was in the United States, we wouldn't have 
anywhere near the problem. The problem we have is there is not 
enough money in all the world to help one of those, let alone 
all.
    We go in investing, I grant you can break out your 
checkbook and pay for it if you want, but we deal in $16 
billion, looking at an extension of Somalia aid and Bosnia 
through the current time, which you are well aware of comes out 
of O&M, and the additional forecast costs $35 billion, and you 
have OPTEMPO that is high, you have 1970s equipment. These are 
all nice things we do to pay for these, but how do we plan on 
paying for these? Do you have any ideas, without cutting more 
military?
    I am just trying to give you an idea of what we have to 
look at every day, because the President could have just raised 
his budget authority on his budget and we would not have an 
emergency supplemental. In my opinion, he didn't want to 
identify politically the domestic cuts it would take to change 
that budget. He wants Congress to do it or break the budget. It 
is going to be difficult to pay for all this, though.

                        EUROPEAN ECONOMIC STATUS

    General Clark. Congressman, I think in some respect you are 
into a ``pay me now'' or ``pay me later'' situation here. The 
things we are doing over there are cost effective in the long 
term, I believe, in terms of preventing conflict and in terms 
of extending American influence.
    If we look at the situation in Europe today, for example, 
where we have got 50 percent of our direct U.S. investment and 
30 percent of our exports and 3 million U.S. jobs, stability 
there is very, very important to us. A twitch, a problem in 
Europe, compounds itself many times over in terms of its impact 
at home on our GDP, on our welfare. So I think that the several 
billion dollars that we are putting forth to support the 
mission on Bosnia could be justified on economic grounds alone.
    I would say though with respect to the jobs problem there, 
of course, it is clear that the United States Government is not 
going to finance the recovery of those economies. Those people 
have to recover themselves. What we need to do is give them the 
opportunity to do so. I am convinced they will.
    Mr. Cunningham. I agree. I worked on a farm once, and I was 
going to make a Persian cat and a Siamese cat friends. I had 
them on each side of me. I brought them together and they 
started fighting, and I brought them closer, and they got 
tense; I got them that far apart, and I didn't have a shirt on, 
I ended up in a bloody mess.
    I don't think in my lifetime we are going to see the Middle 
East or in Bosnia a real peace. I think we have got to keep 
working that way, just like we are in Russia. But for us to 
continue making investments, with the old equipment we have and 
the retention rate, and just looking at the military side of 
it, and then to stay in a balanced budget--the reason our 
economy is doing well in my opinion now economically, to bust 
that and to make those kinds of investments, you say it may be 
``pay me later'' or ``pay me now,'' but I see it as a disaster 
all the way if we stay there a long time.
    And I do disagree on the issue of continuing arming the 
Muslims. There we are adding claws to one side where the other 
has had its claws pulled, and when we pull out, the claws are 
going to come out and we are going to end up back in there.

                           GULF BURDENSHARING

    General Zinni. Sir, I would just say the reliance on Middle 
East oil is growing. This country's reliance is growing. In a 
few years it could be up as high as 25 percent. More 
importantly to us, and it affects the global economy, countries 
like Japan and areas like Western Europe, it is growing 
significantly higher. If the access to that energy is lost or 
controlled by a hegemony in an area that is completely chaotic 
or instability reigns, it would be disastrous for the world's 
economy and ours too. It is a case of pay me now or pay me 
later.
    I would say one thing at this point. There is burdensharing 
out there. ------.
    Mr. Cunningham. Wasn't it just in the hundreds of thousands 
of dollars in the case of Saudi Arabia?
    General Zinni. Hundreds of millions. Contributory 
negligence.
    Mr. Cunningham. We are paying billions. There is a little 
delta there. ------.
    Mr. Young. Generals, we appreciate your being here and we 
appreciate all of the responses to our questions. I wonder if 
either or both of you have anything you would like to say that 
we forgot to ask about?
    General Clark. Well, I would like to thank the Committee 
for the very astute questions. I do feel that in Europe, we are 
at a very important juncture, and it is a question of whether 
the United States is going to continue to present American 
leadership in this part of the world and derive the benefits 
that come from that leadership, or whether we are going to halt 
right here and give those who, for whatever reason, view 
themselves as our competitors and adversaries the chance to 
exploit that halt at this time.
    Obviously I certainly am a strong proponent of American 
leadership. I believe that people in the region respect us and 
need us, and I think it is in our own self-interests, economic 
as well, that we continue to develop our influence and enhance 
our ability to affect events in that part of the world.
    So I just underscore my appreciation for the support of the 
Committee on the supplemental and wish you the best as you try 
to get this to the floor, Mr. Chairman. I think it is very 
important to our country.
    General Zinni. Two short points, Mr. Chairman. I arrived in 
the Gulf as Kofi Anan was leaving after having arranged the 
diplomatic agreement with Iraq. Everywhere I went, I was 
congratulated immediately, a hand was outstretched, and they 
felt this was a victory for the United States. Diplomacy was 
impossible without American resolve and American might behind 
it. That wasn't lost on any of the leaders in the region, and 
they clearly saw it as a direct win for us.
    I would also say that following that, if that wasn't good 
enough to make me feel pretty proud, I visited all our 
soldiers, sailors, airmen, marines, coast guardsmen and 
civilians that work out there, and were on the edge ready to go 
into action, and I couldn't have been prouder.
    So for all those young people that make up our Armed 
Forces, I would just say that they are the ones that pulled 
this off without a shot being fired.
    Mr. Young. Well, I hope that both of you will express to 
your troops as you visit with them that the members of this 
Committee admire the job that they do. We understand the 
sacrifice that they have to make to do these jobs, and we 
understand the important answer, as they do, of the mission 
that they are sent to.
    If you extend that message for us, we would appreciate it 
because we are very, very proud of them.
    This Committee stands very strong in support of all of our 
soldiers, sailors, airmen, marines, coast guardsmen, merchant 
marines, everybody involved in the effort.
    We appreciate your being available to visit with the 
Committee this afternoon. I know you have extremely important 
responsibilities in other parts of the world. Thank you again 
for coming. God bless you. The Committee is adjourned until 10 
o'clock tomorrow when we will have the senior enlisted 
personnel of each of the services and we will talk about 
quality of life issues.
    [Clerk's note.--Questions submitted by Mr. Young and the 
answers thereto follow:]

                           Command Operations

    Question. In addition to issues dealing with your respective 
commands, some of the key questions the Committee would like to address 
are: Are the resources at your disposal for each of your contingencies 
sufficient?
    EUCOM Answer. Under current law, combatant commanders such as 
USCINCEUR are not tasked to provide the resources necessary for 
contingency operations. Rather, combatant commanders issue mission 
directives to subordinate units to participate in particular 
operations, and these subordinate units then draw upon their parent 
Services for resources to accomplish these missions.
    Contingency planning within the Joint Operations Planning and 
Execution System involves the combatant commander's headquarters staff 
working closely with the Service component commanders' staffs. This 
cooperation results in plans which recognize the fiscal constraints 
within which each Service must work. Should resource constraints cause 
operational restrictions, this would be manifested as military risk in 
the proposed course of action. I would then either accept that risk, or 
request of the Secretary of Defense the additional resources necessary 
to conduct the operation in a manner which had acceptable risks.
    Fortunately, our components have received assurances from their 
parent Services that everything will be done to provide full after-the-
fact reimbursement for validated contingency obligations, pending 
receipt of the supplemental appropriation. Service commitment to 
contingency requirements has ensured adequate support for all mission 
safety, force protection and quality of life requirements. This support 
takes visual form as well: the best cold weather clothing; up-armored 
vehicles to reduce potential loss of life and limb in mined areas; and 
doctors and medical staffs with the latest deployable technology. You 
and the American people, both in spirit and dollars, show the soldiers 
the ultimate support that you care about them and their families' 
welfare. Good morale makes ``life in the mud'' tolerable, service to 
the Nation enduring and assures mission success. To date, we have the 
ability to fund additional expenses through the third quarter of this 
fiscal year before we must receive additional contingency funding.
    CENTCOM Answer. Yes. Each of the Services has allocated sufficient 
resources to support the various contingencies in Central Command's 
Area of Responsibility.
    Question. What would be the impact to your commands of not having a 
timely disposition of the fiscal year 1998 emergency supplemental or 
even having to offset it as some have suggested?
    EUCOM Answer. The supplemental appropriation is critical to our 
ability to continue funding contingency operations within the area of 
responsibility. Our baseline budgets cannot support both mandatory 
mission readiness training requirements and contingency support. The 
primary impact of not having timely disposition would be the 
combination of decreased levels of quality of like support to the 
deployed force and a deferral of important training and quality of life 
initiatives back at the home station. Both of these impacts would cause 
uncertainty among the force as to the commitment of our government to 
their mission and to the welfare of their family members at home.
    Every USEUCOM service component estimates its total contingency 
operations will cost more than has been distributed to date, leaving a 
significant shortfall should the supplemental appropriation not be 
forthcoming. At our current pace, we will have to start canceling 
training events in the third and fourth quarters to ensure adequate 
cash flow to continue contingency support. Cancellation of training 
events will degrade readiness.
    Finally, any offsets to our current annual funding program at this 
late time in the fiscal year would have an out of proportion effect. 
Most base support functions are fixed costs that will have been 
obligated going into the fourth quarter. The only flexibility left at 
that point in the year is through decrements to the training program. 
Fourth quarter decrements will cause serious readiness problems 
throughout the force.
    CENTCOM Answer. Quick approval of the emergency supplemental 
appropriation for this fiscal year is essential. Without the additional 
funding, the services will shortly begin using funds that had been 
allocated for training in the third and fourth quarters. The end result 
will be a decrease in readiness for forces not just in the U.S., but 
overseas as well.
    Question. What are the effects on the readiness and morale of 
forces under your command as you face near constant deployments in your 
operating areas?
    EUCOM Answer. ------.
    Morale. From an equal opportunity standpoint, the morale within 
Bosnia and the United States Forces in Europe remains positive. Senior 
leaders continue to focus on accomplishment of real world missions that 
are making a difference in the lives of people in a troubled region. 
Focused training, caring for soldiers and the provision of the highest 
standard quality of life are positively impacting each soldier, sailor, 
airman and marine in the USEUCOM AOR. Equally important is support for 
military equal opportunity programs by reinforcing the zero tolerance 
for discrimination and sexual harassment policy. We firmly believe that 
a positive equal opportunity environment directly corresponds to 
positive morale for the men and women assigned to Europe. The morale of 
our troops is continually assessed through aggressive climate 
assessment programs. The process entails both a qualitative and 
quantitative assessment of various factors which positively impact 
morale within the European command. Another insight into morale is 
retention. We believe retention is another indicator of morale. In 
EUCOM, our retention program performs well against service goals. 
USAREUR exceeded re-enlistment objectives for both first-termers and 
mid-careerists for all four quarters of FY-97. USAFE exceeded re-
enlistment objectives for all re-enlistment categories. USAFE re-
enlisted 69.8 percent of first-termers against a goal of 55 percent; 89 
percent of second-termers against a goal of 75 percent and 95.8 percent 
career airmen against a goal of 95 percent. NAVEUR re-enlisted 31 
percent of eligible first-termers against an objective of 38 percent. 
NAVEUR exceeded objectives for mid-termers, re-enlisting 77 percent 
against a goal of 54 percent, and careerists, re-enlisting 82 percent 
against a goal of 62 percent.
    Leadership continues to make strides towards improving quality of 
life in theater, particularly for deployed personnel. Spirits are high 
as we continue to execute the national security strategy through a 
series of regional engagement activities. Our servicemen and women in 
Bosnia understand the importance of their mission to regional stability 
and are focused for success. The Morale, Welfare, and Recreation 
structure continues to improve Quality of Life of deployed personnel. 
Commercial telephone service has made it much easier for them to keep 
in touch with their ``home bases.'' They enjoy modern aerobics/fitness 
equipment, reading rooms, TV/VCR rooms, and opportunities for weekly 
religious events. There is also an established special circuit for 
professional entertainment/USO shows. The Army and Air Force Exchange 
provides direct operating exchanges, food, alternations and barber 
services. These initiatives have provided outlets for members to spend 
time relaxing, getting/staying fit, and fulfilling spiritual needs. 
Along with force protection, Quality of Life remains at the top of 
USCINCEUR's Priority List.
    Adequate funding for quality of life facilities, services and 
programs for military and civilian personnel and their families in the 
European Theater continues to be USECOM's top resourcing priority. 
Given the numerous contingency operations tasked to USAREUR, resourcing 
QOL programs is critical to mission readiness and a significant part of 
a total integrated mission support package. Efficiency savings and 
reprogramming will not provide for continual upgrade of equipment or 
the programs necessary to sustain program vitality. Within USAFE, the 
Air Force Central NAF construction program is healthy again, and we 
envision no problems in meeting the demand for facility projects in 
USAFE. However, we are concerned about the poor funding outlook for APF 
projects. Because of the limited dollars made available to USAFE, no 
MWR projects are within MILCON Total Obligated Authority (TOA) beyond 
FY-97. USAFE is continuing its Funding Opportunities for Communities in 
USAFE (FOCUS) Program in FY-98. This program was a success in FYs 96 
and 97 because it allowed QOL programs to compete for mission dollars. 
In FY 97 the USAFE Commander funded dorm furnishings, Armed Forces 
Radio and Television Service (AFRTS) 97 connection costs, library 
automation, equipment and furnishings, Command Development Center 
playgrounds, Airmen Leadership Schools and completion of remaining 
postal upgrades.
    CENTCOM Answer. U.S. Central Command (CENTCOM) has no permanently 
assigned forces. The services and other unified commands all provide 
forces, as complete units and as individuals, to our Area of 
Responsibility (AOR). The forces that are being provided to me are in 
an exceptional state of readiness and high morale. This has been 
especially true during the recent crisis with Iraq. I am aware that the 
services and other commanders in chief pay a price in providing CENTCOM 
these forces.
    Commanders are working hard to sustain their readiness as much as 
possible. However, given the realities of the region and wide-ranging 
training requirements that units have, it can be difficult. In 
particular, aircrews conducting Operation SOUTHERN WATCH have limited 
training opportunities, while Army and Marine Corps units operating in 
Kuwait have much greater training opportunities. The brigade from the 
3rd Infantry Division that deployed to Kuwait will soon go through a 
Combat Training Center (CTC) equivalent exercise using equipment they 
drew from prepositioned stocks in that country.
    We are taking steps to keep the morale of deployed forces high. 
Permanent facilities are being constructed at Prince Sultan Air Base 
and local commanders are taking steps to ensure our personnel stay in 
touch with their families.

                             NATO Expansion

    Question. In the next few weeks the Senate will vote on the 
ratification of the ``accession protocol'' to expand the membership of 
NATO. The new member states of NATO are proposed to be Poland, Hungary 
and the Czech Republic. While the costs and strategic logic of the 
expansion have been and will continue to be debated, the Committee has 
some questions concerning the military implications of increasing the 
size of NATO at the present time. General Clark, what are your views on 
the military implications of NATO expansion, as both SACEUR and 
Commander in Chief of the United States European Command?
    EUCOM Answer. From a military perspective, NATO enlargement creates 
the opportunity to combat the greatest threats which we face in Europe 
today: political, economic and military instability. Expanding NATO 
further will greatly enhance and broaden military stability in the 
region. NATO expansion increases our Strategic Depth. As stability 
increases, the potential for US forces to be called upon to fight in 
this theater decreases. Beyond the manpower and equipment increases we 
gain, adding the Czechs, Poles and Hungarians brings in three new 
allies who have already proved themselves as they stood with us in the 
Gulf War, Bosnia and in our most recent crisis with Iraq. I am 
confident that these three nations so painfully aware of the 
consequences of lost freedom will stand firm with us in defense of 
freedom throughout NATO and Europe.
    Question. Any changes in the military mission of NATO as a result 
of expansion?
    EUCOM Answer. The military mission of NATO will not change as a 
result of expansion. NATO always has been and will remain a defensive 
alliance. Alliance policy calls for the maintenance of a military 
capability sufficient to prevent war and to provide for effective 
defense and overall capability to successfully manage crises affecting 
the security of its members. The primary role of Alliance military 
forces remains unchanged: to guarantee the security and territorial 
integrity of member states.
    Question. Your estimate of the costs to EUCOM in particular and the 
US in general resulting from expansion?
    EUCOM Answer. It is best to think of enlargement costs in three 
categories. First is the cost borne by new members for their own 
national security and contributions to the Alliance--this is no cost to 
the US. The second category includes expenses borne by all members to 
enhance their own contributions to the alliance in support of 
accession. As NATO adapts from a static defense to emphasize more 
mobile operational concepts in support of out-of-area contingencies, 
the operational and strategic deployability of forces has to be 
strengthened. Fulfilling existing force goals will fully prepare all 
current members for the strategic requirements of NATO enlargement. 
This second cost can be viewed as the normal modernization expenditures 
that a nation incurs over its defense planning cycles. The third 
category of costs consists of NATO common-funded accounts. These 
include headquarters operating costs, common operations and 
maintenance, and the NATO Security Investment Program (NSIP). Each NATO 
member contributes a percentage to the NATO NSIP budget, and as the 
alliance grows the infrastructure will increase. This is the one area 
that will require additional U.S. funding to support enlargement.
    NATO's estimate of the cost associated for the NSIP budget is $1.5 
billion over a 10-year period. In addition, SHAPE has requested $200 
million to conduct interoperability training over that same period to 
enhance the training standards of all Alliance members--this is totally 
independent of NATO expansion. If the additional funds for 
interoperability training are approved, the total NSIP increase will be 
$1.7 billion. The U.S. share of the costs should be approximately $40 
million per year for 10 years. Additional costs to USEUCOM will be 
negligible.
    Question. Changes necessitated to the NATO command and control 
structure?
    EUCOM Answer. The military implications of enlargement are 
positive. The three prospective new members will contribute a combined 
total of nearly 300,000 troops, over 3,000 tanks, and over 500 fighter 
aircraft. I have visited all three countries in 1998, and can assure 
you their leadership is committed, and their troops are sharp and 
motivated--they are eager to join NATO. All three have contributed 
units to the Implementation and Stabilization Forces in Bosnia, which 
has increased their interoperability for NATO forces. They have been a 
part of over 100 Partnership for Peace (PfP), and bilateral exercises. 
Poland and the Czech Republic also contributed forces to the Gulf War 
Coalition, and Hungary has served as a vital staging area for NATO 
forces in Bosnia. They will make a meaningful, significant, and 
immediate military contribution to the Alliance.
    The Command and Control for the Alliance will remain essentially 
the same under NATO's current Integrated Command Structure. Changes to 
NATO's Command and Control structure are not a result of NATO 
enlargement. While future internal adaptation is possible, it will be 
more a result of NATO's just concluded Long-Term Study, and the 
changing European strategic environment.
    Question. What are your views on additional expansion of NATO in 
the future?
    EUCOM Answer. This is a political not military decision. If the 
political leaders of the alliance propose additional members in the 
future, as SACEUR, I will provide the military advice to the Alliance 
on military requirements of the new members, plus the effects new 
members would have on the overall collective security of NATO.
    Question. Have there been changes in the level and quality of 
military-to-military cooperation with the Russians since the decision 
to expand NATO?
    EUCOM Answer. During calendar years 1997 and 1998 the Russian 
military elected not to actively engage the United States European 
Command via the annual military-to-military contact program executed 
between our two nations. Although USEUCOM nominated between 30-35 mil-
to-mil events for the Russians' consideration each year, the Russians 
only selected two to three events. They subsequently pulled out from at 
least one event during each year. While bilateral mil-to-mil contacts 
with USEUCOM have been minimal, Russian participation in these events 
with other unified combatant commands (e.g., USPACOM and USACOM) has 
ranged from 10-12 events per command per year. The small number of 
events with USEUCOM could possibly be tied to their continuing 
dissatisfaction with NATO enlargement or with the fact that they have 
decided to engage the United States military in Europe under the 
auspices of the NATO Partnership for Peace program. U.S.-Russian 
cooperation within the framework of the NATO IFOR/SFOR operation in 
Bosnia, however, has been positive. In April 1998 we completed a 
comprehensive Marshall Center-hosted conference in Moscow, on NATO-
Russian military cooperation and lessons learned in Bosnia. This was an 
excellent professional military exchange and dialogue-anticipate future 
engagement opportunities evolving between Russian and NATO forces.
    Question. Expansion will mean a quantitative change in NATO's 
collective defense responsibilities: 15 percent more European territory 
and a nearly 400 mile move eastward to the Polish-Belorussian border.
    What new capabilities and equipment are necessary for EUCOM in 
order to participate in the collective defense of the new NATO members?
    EUCOM Answer. ------.
    Question. What exactly is NATO defending against today?
    EUCOM Answer. No large-scale conventional threat to NATO in the 
near term is foreseen. However, the threats and risks to the Alliance 
are varied. The nations of the Alliance are faced with regional 
instability, Islamic extremism, nationalism state-sponsored terrorism, 
proliferation of weapons of mass destruction, organized crime, and 
economic and political instability. The strength of NATO has always 
been based on collective defense. NATO must not become a collective 
security organization. ------.
    Question. What do you believe are appropriate out-of-area 
operations for NATO to undertake in the future?
    EUCOM Answer. The conduct of out-of-area operations would be a 
political, not military, decision made by the North Atlantic Council 
(NAC). Each Alliance member has a Permanent Representative on the NAC. 
All members must agree by consensus to conduct any operations, whether 
they be in or out of theater. As Supreme Allied Commander, I am 
responsible for providing military advice to the NAC, and planning 
possible Allied Command Europe military operations--I would receive 
both guidance and political authority from the NAC. Additionally, SHAPE 
HQ, which is under SACUR's command, has the responsibility for 
identifying the military capabilities, and ensuring the force readiness 
requirements needed to contribute to crisis management, peace support, 
humanitarian aid, and the protection of vital interests of the 
Alliance.

                            Bosnia Operation

    Question. On December 18, 1997, President Clinton announced that he 
had agreed in principle that U.S. forces should participate in a Bosnia 
peacekeeping force after the mandate of the current SFOR expires. 
Decisions made recently by NATO planners have led to the requirement 
for approximately 6900 U.S. military personnel (as opposed to 8500 in 
SFOR) to remain in Bosnia until the achievement of a self-sustaining 
peace in the region. In his certification to Congress that the 
continued presence of U.S. forces, after June 30, 1998 is required, the 
President notes several ``benchmarks'' which must be achieved prior to 
the ultimate withdrawal of forces from the region. They include, the 
establishment of judicial reforms, the dismantling of pre-Dayton 
institutions, the regulation of the media, free market reforms, the 
conduct of free elections, and a whole host of other political, civic 
and economic goals. Does the pursuit of these goals, in fact, 
constitute nation building by U.S. forces?
    EUCOM Answer. U.S. and NATO forces are supporting the civil 
implementation effort in Bosnia by providing a secure environment and 
freedom of movement throughout the country to allow the massive civil 
implementation effort to move forward. In addition, U.S. and NATO civil 
affairs officers liaise with civil implementation organizations. The 
value of having civil affairs officers in close liaison with civil 
implementation organizations is that they often push through 
bureaucratic barriers, thus allowing for a higher rate of progress. 
Finally, U.S. and NATO forces provide assistance to the civil effort by 
providing logistic support and security only when it does not interfere 
with primary mission tasks.
    The tasks cited above are all military tasks which are approved in 
the current NATO plan for the employment of military force in Bosnia.
    Question. How are the troops under your command in Bosnia equipped 
to achieve these ``benchmark'' goals as described in the President's 
certification?
    Answer. U.S. and NATO forces are highly equipped to provide the 
secure environment and freedom of movement necessary for the attainment 
of these ``benchmark'' goals. Without a strong military presence on the 
ground in Bosnia, civil implementation of the Dayton Accord would fail 
since continued competing agendas of the factions would prevent any 
progress. Civil affairs officers are highly trained functional area 
experts who provide a much needed focus to the pursuit of civil, 
economic and political goals. Finally, the most powerful tool that our 
forces have is the respect that they muster from all the parties in 
Bonsia.

                           Violence in Kosovo

    Question. Hostilities have recently flared in the Serbian province 
of Kosovo, where ethnic Albanians constitute 90 percent of the 
population. Serbian government forces have cracked down on Albanian 
separatists and civilians have been killed. Recent statements by 
administration officials suggest that consideration is being given to 
increasing force levels in Macedonia and even possibly deploying to 
Kosovo. General, what contingency planning are you engaged in with 
regard to the situation in Kosovo?
    EUCOM Answer. There is no political guidance to plan for any 
military intervention in Kosovo, nor is there any instruction to either 
the NATO staff or the U.S. European Command Staff to conduct any 
planning for military intervention in Kosovo.
    Question. If troops were deployed in that region, what do you 
understand your mission would be?
    EUCOM Answer. Though NATO and U.S. military staffs are carefully 
monitoring the situation in Kosovo, there is no political guidance to 
intervene in Kosovo with military force. No mission has been defined.
    Question. Would forces be detached from those participating in SFOR 
if deployment to Kosovo was ordered?
    EUCOM Answer. Current NATO planning for the continuing SFOR mission 
does not address deploying forces from the SFOR into the region. The 
United Nations Preventive Deployment (UNPREDEP) in the Former Yugoslav 
Republic of Macedonia does not authorize the use of those forces for 
intervention in Kosovo. The UNPREDEP mandate under Chapter VII of the 
UN Charter and authorized under UN Security Council Resolution 983 of 
31 March 1995 (with subsequent mandate extensions) only establishes a 
monitoring force on the disputed border between the Federal Republic of 
Yugoslavia and the Former Yugoslav Republic of Macedonia.

                                  Iraq

    Question. General Zinni, you are said to be an expert regarding 
Arab ``man in the street'' opinion. What are the present perceptions of 
the Gulf State nations with respect to U.S. policy towards Iraq?
    CENTCOM Answer. I am no expert, but there are concerns in the Arab 
world over the impact of sanctions on the Iraqi people. Arab popular 
opinion tends to connect the effects of sanctions on the Iraqi people 
with the UN and U.S. policies, not Saddam Hussein's failure to comply 
with UN resolutions and look after the needs of his own population. The 
stalled Middle East Peace Process creates the perception of a double 
standard in the implementation of UN Security Council Resolutions. I 
believe most Arabs in the region understand that our military presence 
helps regional stability.

                       Iraq--Potential Airstrikes

    Question. Airstrikes against Iraq were narrowly avoided last month 
after UN Secretary General Kofi Annan persuaded Saddam Hussein to fully 
cooperate in granting access to UN inspectors who are examining the 
Iraqis' Weapons of Mass Destruction program (WMD). According to an 
article in Aviation Week (2/16/98), ``Saudi Arabia has decided not to 
allow U.S. Air Force aircraft stationed there to shift to nearby 
countries such as Kuwait, Bahrain, Oman, or Qatar to carry out attacks 
against Iraq--at least for now.'' The article also stated that 
according to Air Force officials, ``morale among the Saudi-based U.S. 
units has plummeted with the news that after seven years of deployments 
and training, they may be excluded from any future air campaign against 
Iraq.'' General Zinni, are these reports accurate? Under what agreement 
with the U.S. can the Saudis block the transfer of U.S. Air Force 
aircraft out of the country to other bases in the Gulf region? Has any 
headway been made to get the Saudis to reverse their stance on this 
issue since the article was published? What is the state of readiness 
and morale of air personnel based in Saudi Arabia?
    CENTCOM Answer. There is no agreement where the Saudis could block 
the transfer of U.S. aircraft. The Saudis ------. This arrangement is 
consistent with arrangements we have with any government that allows us 
to station combat assets on its soil. We did not plan to relocate any 
of our combat aircraft from Saudi Arabia to any other country in the 
Gulf.
    Saudi Arabia continues to support international efforts to enforce 
UN Security Council Resolutions. During the recent crisis the Saudi 
government provided U.S. forces with all support that U.S. Central 
Command asked for. The friendship between our two countries remains 
strong and I see no reason to readdress our current bi-lateral 
agreements.
    While morale has certainly not plummeted, we acknowledge that it is 
something that needs improvement and we have taken positive steps to do 
so. Our deployed forces conducting Operation SOUTHERN WATCH and DESERT 
THUNDER are living under very austere conditions and in many cases have 
deployed to the region for the second or third time. At Prince Sultan 
Airbase fixed facilities are being built and units should move into 
them by the end of the year. Morale, Welfare, and Recreation (MWR) 
opportunities have been increased and personnel are able to keep in 
touch with families back home through e-mail and free phone calls.
    Our forces in the region realize that their job is an important one 
and train very hard, often under adverse circumstances, to hone their 
combat skills. They take great pride in their capabilities and 
readiness. Furthermore, they realize that often the critical aspect of 
our military capability and readiness is its deterrent value. Our 
troops are ready. They continue to train with their Gulf allies to 
conduct their missions as a part of Operation SOUTHERN WATCH.

                   Budget Priorities and Deficiencies

    Question. Do you feel the interests and needs of your Commands have 
been adequately addressed in the fiscal year 1999 budget request?
    EUCOM Answer. The fiscal year 1999 budget request meets the needs 
of USEUCOM Commands, with a few exceptions. Additional funding of $16.1 
million for engagement activities, $1.125 million for command and 
control communications, and $275 million for family housing and 
barracks renovation is required.
    Additional engagement funding of $16.1 million is required for 
fiscal year 1999. Engagement is the key component of our theater 
strategy toward regional peace and stability. It is a long-term 
investment, the return on which is often difficult to quantify, and if 
successful, may never be fully recognized. Systematic underfunding of 
engagement activities threatens our ability to provide stability.
    --Military liaison teams must be established in the new Unified 
Command Plan-directed countries of Moldova, Georgia and Ukraine ($400 
thousand).
    --Essential USEUCOM Headquarters support to Partnership for Peace 
activities must be funded ($1.1 million).
    --Humanitarian assistance activities in Africa must be funded ($684 
thousand).
    --USEUCOM Headquarters joint exercise participation in Moldova, 
Georgia and Ukraine must be funded ($100 thousand).
    --The George C. Marshall European Center for Security Studies in 
Garmisch-Partenkirchen, Germany, provides defense education to civilian 
and military personnel of the United States, NATO, European nations and 
the New Independent States of the Former Soviet Union. As the OPTEMPO 
in the European theater increases, funding is needed to renovate vacant 
German barracks to provide additional student billets. In addition, a 
larger and state-of-the-art lecture hall is needed to provide visual 
information capabilities for instructors, students, and conference 
attendees. It is essential to raise the quality and quantity of the 
existing infrastructure to a level commensurate with those of 
equivalent DoD and NATO educational institutions. (Student billets: $5 
million; lecture hall and associated communication/electronic 
equipment: $8 million)
    --Force protection improvement requirements at our military liaison 
team locations must be funded ($1.2 million).
    Modifications to the non-strategic nuclear force command and 
control Regency network must be funded to ensure its viability ($1.125 
million).
    Housing construction and maintenance requires an additional $361 
million per year over the next 10 years to eliminate inadequate housing 
throughout USEUCOM. Since the drawdown, there has been near zero 
investment in European infrastructure. USEUCOM is trying to play catch-
up with a steadily failing infrastructure. The situation is aggravated 
by overseas housing funding that does not keep pace with CONUS housing, 
a much higher cost ofconstruction/maintenance, and fair share 
apportions that include ``payment-in-kind'' funds from the host nation 
that never meet projections. USEUCOM full house appropriations 
committee/national security subcommittee supports the Secretary of 
Defense's initiative to eliminate inadequate housing by 2010 and 
requests that funding be provided in steady and consistent amounts to 
support this initiative.
    While not a fiscal year 1999 funding issue, one of USEUCOM's top 
priorities, the Medium Extended Air Defense System (MEADS), needs 
support for future program funding. MEADS is a replacement for HAWK and 
PATRIOT systems and provides NATO a lower-tier, hit-to-kill, point 
defense capability for protecting both NATO territory and forces 
operating out-of-area. MEADS requires \1/3\ of the airlift that an 
equivalent PATRIOT unit requires and unlike Patriot systems, can be 
moved by C-130 aircraft. MEADS is important to USEUCOM because it is an 
active defense, trilateral, Theater Missile Defense initiative between 
the U.S., Germany, and Italy. Additionally, this burden sharing may 
inspire Turkey and Netherlands to become partners, further 
strengthening the alliance and U.S. leadership. MEADS is only funded 
through fiscal year 1999. $1 billion is needed during fiscal years 
2000-2005 to ensure the commitment of our allies to assist in the 
completion of a capability we urgently need.
    CENTCOM Answer. Yes. As the Commander-in-Chief of a Unified 
Command, I submit my requirements to the Joint Staff and Department of 
Defense (DoD) through my Integrated Priority List (IPL). The Fiscal 
Year 1999 budget, as well as the Future Year Defense Program (FYDP) 
supports Central Command's IPL.
    Question. What is your assessment of the major shortfalls in 
personnel, training, equipment and maintenance for those units under 
your day-to-day command as well as those that would be assigned to you 
in a war time situation?
    EUCOM Answer. ------.
    The Services have made great strides capturing readiness for low-
density, high-demand assets. What requires more attention is the 
support force assets that are constantly tapped for continuing 
operations. Military police, transportation units, movement control 
teams, intelligence analysts and headquarters elements are constantly 
on the road or supporting deployments while at home bases, resulting in 
long hours which are difficult to capture. Because low density/high 
demand asset tracking for the Services counts days away from home 
station (temporary duty), we may miss a large portion of the tail in 
the tooth-to-tail element of an operation. These support force assets 
are required by all operations that are experiencing equally high, but 
more difficult to capture, TEMPO rates. We need more accurate ways of 
identifying readiness costs that focus on additional indicators beyond 
just ``a night away from home'' to better capture the readiness impact 
of high TEMPO on the entire force. ------.
    Basing facilities. USEUCOM, a forward-deployed force operating at 
the highest TEMPO of any Unified Command, has less than adequate 
facilities for its troops. 23% of USAREUR's maintenance facilities and 
18% of its operational facilities are substandard for daily operations. 
It would require $3.4 billion to bring operational facilities to 
standard and $450 million for maintenance facilities. 60% of USAREUR's 
28K barracks spaces require renovation to meet Department of Defense 
standards. Finally, 88% of USAREUR's 24K housing units and 70% of 
USAFE's 10.5K housing units require renovation. It is important for 
Congress to support USEUCOM's forward-deployed force with adequate 
facilities--several program budget decisions cut funding in this area 
during the most recent budget cycle. ------.
    5. Wartime Assigned Forces. USEUCOM is not a major theater war 
CINC. The two Ft. Riley brigades designated to deploy with USAREUR's 
divisions to any major theater war are USACOM assets and are monitored 
and tracked by that unified command. Should either brigade not meet the 
criteria for deploying MTW forces, it would fall on USACOM to resolve 
the shortfall. USEUCOM does not have oversight over their readiness 
shortfalls.
    On a day-to-day basis, USEUCOM does use assets from other theaters, 
thereby moderating the TEMPO of ongoing operations. The 2ACR from Ft. 
Polk, LA, for example, is currently in Bosnia supporting peacekeeping 
operations. The reserves also provide forces to make up theater 
shortfalls. In each case, however, the unified command supplying forces 
is responsible for ensuring they are trained and ready to execute 
assigned tasking prior to arrival. USACOM personnel proceeding to or 
returning from Bosnia, for instance, process through Ft. Benning, GA. 
This ensures standardization in preparing troops for the Bosnia 
environment prior to deploying overseas.
    CENTCOM Answer. U.S. Central Command (CENTCOM) has no units 
assigned under our day-to-day command. The forces that have been 
provided to us for operations such as Operation SOUTHERN WATCH and 
Maritime Intercept Operations have deployed to the theater in a high 
state of readiness with all their equipment. The forces that have been 
deployed for Operation DESERT THUNDER have also arrived in a similar 
high state of readiness.
    Question. What are the top ten items on your most recent integrated 
priority list? How do your top ten priorities differ from last year and 
why?
    EUCOM Answer. ------.
    CENTCOM Answer. My Integrated Priority List (IPL) emphasizes 
maintaining and improving capabilities, rather than asking for specific 
systems or programs. Capabilities I am most interested in improving are 
Force Deployment and In-Theater Sustainability, Theater Missile 
Defense, In-Theater Force Application, Force Protection, Intelligence 
Collection, Command and Control, and Joint Readiness.
    Since taking command of U.S. Central Command last year, we have 
conducted a major review of our regional strategy and requirements to 
execute that strategy. At the same time, the Department of Defense 
reorganized the process through which it receives priorities from 
unified commanders. The result was an updated list of priorities that I 
believe accurately reflects our requirements.

                       Year 2000 Computer Problem

    Question. One of the problems that we face as we enter the next 
century is older computers that are only programmed to remember the 
last two digits in a year. Thus they remember ``1997'' as simply 
``97''. The year 2000, however, will be saved as ``00'', the same as 
the year 1900. This can lead to calculation errors and system failures. 
How serious is this problem for your Command? What would be the impact 
if your Mission Critical Systems were not corrected by the year 2000?
    EUCOM Answer. The impact could be very serious. Every mission and 
function that we perform could be impacted, but until the Joint or 
Service program managers tell us how extensive the technical problems 
are, the functional users cannot fully assess the impact.
    The Services have oversight for US European Command Component 
Commands. Each service recently reported that they are on track with 
their respective Service Year 2000 Action Plans (Source: 24-26 March 
1998 Joint Staff Year 2000 Working Group hosted by the Joint Staff J6). 
I am currently polling my component commanders for their assessments to 
be completed in May 1998, but these assessments will be an interactive 
process.
    At the Headquarters we are strictly users, not developers, of joint 
Mission Critical Systems. These systems are the responsibility of 
Service and Agency program managers. We report these systems quarterly 
to the Joint Staff and we have identified our Top 20 priorities for the 
warfighter. We are counting on all fixes to be delivered by the 
December 98 deadline. (Deadline is mandated in the Joint Chiefs of 
Staff Year 2000 Action Plan (March 1998, Version 2.0)). Our job after 
that is to test the fixes and develop contingency plans if the fixes 
are incomplete.
    CENTCOM Answer. This is a large problem being handled within the 
DoD as a team effort headed up by the Office of the Assistant Secretary 
of Defense (Command, Control, Communications, and Intelligence). Each 
DoD Component, including US Central Command, must correct the systems 
they are responsible for. Of the 468 systems we use in US Central 
Command, we are responsible for correcting 17. We are taking action to 
make our 17 systems year 2000 compliant by the end of this year. If any 
systems we use, including our Mission Critical Systems, still have 
problems by the year 2000, we do not expect catastrophic failures. We 
will be able to carry out our mission.
    Question. What testing do you plan to do to ensure that your 
warfighting systems are fully compliant prior to the year 2000?
    EUCOM Answer. All USEUCOM warfighting systems are provided by a 
Service or a joint agency. We will support Service and Agency testing 
efforts fully. Service and Agency-provided systems must be tested and 
fielded to us by Dec 1998 (Source: Joint Chiefs of Staff Year 2000 
Action Plan, March 1998, Version 2.0 and DoD Year 2000 Management Plan, 
April 1997, Version 1.0). For all our systems, we will perform our own 
functional testing after the fixes are delivered.
    We fully support DoD-wide testing. I applaud the Assistant 
Secretary of Defense C3I for marking 1999 to be used as a systems test 
year. Our success in conducting functional testing relies heavily on 
the Services and Agencies completing and fielding system fixes to us by 
the December 1998 deadline (Deadline is mandated in the Joint Chiefs of 
Staff Year 2000 Action Plan (March 1998, Version 2.0)).
    CENTCOM Answer. We will test software we developed by setting the 
clocks ahead and performing off-line operational tests. We will also 
perform software interface tests between and among the other software-
dependent warfighting systems that we use.
    Question. What steps have our coalition partners taken to ensure 
that their warfighting systems are Year 2000 compliant? Are you 
comfortable that our allies will have their systems corrected in time?
    EUCOM Answer. I am not comfortable at this time because I do not 
have a lot of insight into their actions. However, the Joint Staff and 
SHAPE are currently working this issue. The Joint Staff is working with 
the Office of the Secretary of Defense and the State Department to 
gather information on the status of our coalition partners. 
Additionally SHAPE and NATO are accelerating their efforts and have 
recently formed a working group. We rely heavily on our coalition 
partners, who generally have resource constraints and equipment that is 
older and more susceptible to year 2000 problems.
    CENTCOM Answer. We do not know the extent of our coalition 
partners' efforts to identify and correct year 2000 problems with their 
various systems. However, we do not believe they are expending much 
effort in this area. Many of our allies are using American systems 
obtained through an open Foreign Military Sales case. The United States 
has a responsibility to inform the country of any known problems and 
the steps we are taking to resolve those problems.
    Question. Would you consider conducting some of your training 
exercises with ``the clocks turned forward'' to ensure that your 
systems are ready? Do you believe this would be a valuable test to see 
if your critical computer systems will be ready for the year 2000? If 
not, why not?
    EUCOM Answer. Fixes, replacement systems, or workarounds must be in 
place prior to any functional user testing. It would be counter-
productive to test systems that are still being analyzed and revised by 
Service or Joint Agency program managers.
    It is important that we not lose sight of the fact that the 
prerequisite to testing is identifying, fixing and fielding. Most of 
our systems, and certainly our major systems, are under the management 
of a Service Executive Agent or Joint Agency program manager. We, as 
functional users, must validate the fixes they deliver to us.
    We fully support efforts for testing year 2000 fixes, first at the 
program manager's lab, then at the functional user site. Training 
exercises may provide excellent opportunities for user testing in some 
cases, but they are not the only method of test available.
    However, we caution that our exercises should not lose focus on the 
original training objectives. Training objectives should not be 
sacrificed to identify problems that should be found and corrected by 
the responsible Service or Agency for the system. Training exercises 
should only be used to validate delivered fixes.
    Resources to correct the Year 2000 problem are very scarce. We 
encourage any actions that would provide additional resources to the 
Service and Agency efforts to fix the systems we use.
    CENTCOM Answer. Turning the clocks ahead to see what happens during 
an exercise would have limited value. During exercises we use 
operational systems. Thus, turning the clocks ahead during exercises 
could impact real world operations. Alternatively, a carefully designed 
scenario, utilizing systems isolated from the real world, could be 
effectively and safely used to determine if critical systems are ready 
for the year 2000.
    Question. Have you begun developing contingency plans in case your 
Mission Critical Systems are not year 2000 compliant?
    EUCOM Answer. We are primarily users of Service and Joint Systems. 
Contingency plans cannot be developed at our level until we know if 
there is a problem and how great the problem is. To date, no specific 
problems have been published to facilitate our contingency planning but 
each Service has provided guidance to their Components for the 
completion of contingency plans based on the Service-set criteria.
    We are working with the Joint Staff to obtain the Service and 
Agency statements of compliance or definitions of problems we will 
encounter. This data will allow our functional users to develop the 
necessary contingency plans. As specific system problems are provided, 
we will assess them in light of our specific needs and develop 
contingency plans as appropriate.
    CENTCOM Answer. We expect to be year 2000 compliant this year. This 
gives us an additional year to clean up any systems that we may have 
missed. We do not expect any year 2000 related problems to cause 
catastrophic failures.

                             JCS Exercises

    Question. In the Quadrennial Defense Review the Department of 
Defense announced plans to reduce the number of man-days required for 
joint exercises by 15 percent in order to reduce the high PERSTEMPO 
rates. Have either of your Commands experienced a reduction in Joint 
Chiefs of Staff (JCS) exercises?
    EUCOM Answer. Yes. Program management and execution actions 
undertaken since the Quadrennial Defense Review in May 1997 have made 
significant changes (e.g., in 18 percent reduction in the number of 
exercises and more than 25 percent reduction in man-days devoted to 
exercise participation). This reduced level of exercise participation 
is expected to continue to comply with the Chairman's guidance. Actions 
taken include reducing the number, scope, duration, and participation 
levels for specific exercises; combining, merging, and linking 
exercises across USEUCOM and Military Service lines; and placing 
greater emphasis on staff and headquarters exercises, simulations, and 
improved communications and computer technologies to reduce personnel 
demands.
    CENTCOM Answer. Yes, Central Command (CENTCOM) has experienced a 
reduction in JCS exercise. From fiscal year 1996 to 1998, CENTCOM's JCS 
exercise program was reduced from 39 to 37 exercises. In addition, the 
1999 exercise program is being reduced to 34 and the 2000 program to 
32. In total, our JCS exercise program has been reduced by seven 
exercises over a four-year period.
    In order to meet the QDR man-day reduction requirements, CENTCOM 
conducted a comprehensive review of the JCS exercise program to 
identify additional ways to reduce exercise Personnel Tempo 
(PERSTEMPO). Some of the initiatives used to achieve the reduction in 
PERSTEMPO were: increased use of deployed in-theater forces to conduct 
exercises, rescheduling and combining smaller exercises to result in 
more complex Joint exercises, and Command Post Exercises (CPX) 
utilization of model distributive simulation. From 1996 to 2000 we will 
have reduced JCS exercise PERSTEMPO by thirty-two percent.
    Question. If you have experienced a reduction in JCS exercises has 
this had a noticeable effect on your PERSTEMPO rates?
    EUCOM Answer. HQ USEUCOM tabulates individual PERSTEMPO (as opposed 
to numbers of personnel in-theater at a given point) for shore-based 
personnel assigned to USAREUR, USAFE and USNAVEUR. Based on the 
PERSTEMPO statistics reported by EUCOM theater components for October 
1996 through January 1998, we have not experienced a noticeable 
decrease in theater PERSTEMPO. From October, 1996 through January 1997, 
13,120 EUCOM Component personnel returned from participation in an 
exercise. From October 1997 through January 1998, 32,014 returned from 
exercises and field maneuvers.
    On average, from October 1996 through January 1998, 13 percent of 
EUCOM's assigned personnel were deployed or TDY at all times. Apart 
from those participating in Operation Joint Guard, PERSTEMPO drops only 
during the winter holiday season (December-February).
    At this point, we can tabulate individual PERSTEMPO with confidence 
only for EUCOM Component personnel. While a high OPTEMPO may produce a 
high PERSTEMO for individuals involved in those operations, that 
PERSTEMPO ``calculation'' accounts for about 70 percent-75 percent of 
the ``day away'' from home station reported by EUCOM components.
    CENTCOM Answer. Since we are a command with no assigned forces, 
Central Command (CENTCOM) must rely on the Services to calculate and 
track Operational and Personnel Tempo (OPSTEMPO/PERSTEMPO) rates. We do 
not have visibility of all the deployments for units and individuals 
during an entire year. However, we are sensitive to the PERSTEMPO 
currently experienced in the force and clearly our operational and 
exercise requirements affect the OPSTEMPO/PERSTEMPO. Consequently, we 
are committed to helping reduce OPSTEMPO/PERSTEMPO. In fiscal year 1997 
we reduced our exercise program by 11 exercises which resulted in a 
savings of 160,800 man-days.
    Question. How do you determine that the right mix of exercise is 
being conducted?
    EUCOM Answer. USEUCOM is guided in the exercises we conduct based 
on deficiencies we identify in our after-action reports and the needs 
of the theater as delineated in Theater Security Planning System. We 
combine these two elements with input from the Service components to 
craft an exercise program that is geared to enhanced readiness and 
interoperability.
    CENTCOM Answer. Each year I receive an assessment brief from my 
Component Commanders that provide their assessment of their warfighting 
abilities. This assessment provides my staff with detailed information 
on what areas of the respective Components warfighting abilities are 
trained and which areas require additional training. My staff then 
plans and coordinates exercises designed to fulfill the Component 
requirements, Central Command's ``Theater Engagement Plan,'' and Host 
Nation requirements. These include: battlestaff exercises, warfighting 
functional exercises, Joint Task Force/Combined Task Force exercises, 
sub-regional multi-lateral exercises, or country specific bilateral 
exercises that best support the Component Commander's training 
requirements.
    Question. What portion of the exercises that you conduct are 
primarily to train US forces for their wartime mission and what portion 
is for regional engagement?
    EUCOM Answer. USECOM schedules Joint Chiefs of Staff exercises to 
meet training needs, enhance joint interoperability, support readiness 
and refine interoperability with allies and partners. In the course of 
conducting these exercises we meet engagement strategies but do not 
schedule exercises for engagement purposes.
    CENTCOM Answer. Our JCS exercise program at U.S. Central Command 
from FY95 to FY00 totals 183 exercises, of which 50 are primarily for 
regional engagement and 133 are designed to train U.S. forces in their 
wartime missions.

             Combating Terrorism Readiness Initiative Fund

    Question. With congressional support, the Chairman of the Joint 
Chiefs of Staff established the Combating Terrorism Readiness 
Initiative Fund. How much did your Command receive from this fund in 
fiscal year 1997 and what were the funds used for?
    EUCOM Answer. USEUCOM received $1.86 million in Combating Terrorism 
Readiness Initiative Fund funding for fiscal year 1997.
    $200,000 funded Close Circuit Television Upgrades for Headquarters, 
U.S. Navy Europe, United Kingdom.
    $618,000 funded the following three projects for Headquarters, U.S. 
Navy Europe, United Kingdom: (1) Special Project R12-94 (hardening of 
Headquarters, U.S. Navy Europe) ($600,000); (2) the purchase of one (1) 
X-Ray Machine for the post office ($10,000); and (3) a contract to 
update as-built drawings for the alarm system ($8,000) of Headquarters, 
U.S. Navy Europe building.
    $158,000 funded the following three projects at Naval Air Station 
Sigonella: (1) an upgrade to the intrusion detection system ($72,000) 
for the base; (2) a repair of the electronic security system for 
protection of the flightline perimeter ($36,000); and (3) the purchase 
of three (3) Explosive Ordnance Disposal response backpacks containing 
Explosive Ordnance Disposal tools.
    $98,000 funded communication upgrades for Naval Support Activity 
NAPLES Security Department, Italy.
    $790,000 funded the construction of two Pass and Identification 
facilities at the Capodochino Compound, NSA Naples, Italy.
    In addition, in fiscal year 1997, Headquarters U.S. European 
Command received $777,000 in force protection funding; U.S. Army Europe 
received $5,500,000; U.S. Air Force received $3,400,000; and U.S. Navy 
Europe received $351,000.
    CENTCOM Answer. U.S. Central Command (CENTCOM) received $948,000 in 
fiscal year 1997 to establish and support initial operating costs of 
the Joint Rear Area Coordinator (JRAC).
    The Joint Rear Area Coordinator is my overall coordinating 
authority for force protection within the CENTCOM Area of 
Responsibility (AOR). The primary mission of the JRAC is to conduct 
risk assessments of Department of Defense units and personnel and to 
determine their vulnerability to terrorist attack. The JRAC is 
responsible for ensuring force protection measures are adequate for the 
security of all forces assigned.
    A portion of the $948,000 was used to purchase furnishings and 
equipment for the new JRAC offices, as well as some specialized 
equipment used to conduct vulnerability assessments. The remainder of 
the funding, was spent on travel--first, to allow JRAC personnel to 
attend antiterrorism training, then for them to conduct vulnerability 
assessments in theater.
    Question. How much has your Command requested from the fund this 
year, fiscal year 1998?
    EUCOM Answer. Currently, Headquarters US European Command (HQ 
USEUCOM) is processing 37 projects totaling $3,387,000. Project 
submissions cover such force protection items as communications 
equipment, X-Ray machines, hand-held explosive detectors, vehicle 
barriers, and minor construction.
    In addition, in fiscal year 1998, HQ USEUCOM received $848,000 in 
force protection funding; U.S. Army Europe received $18,881,000; U.S. 
Air Force Europe received $1,704,000; and U.S. Navy Europe received 
approximately $6,500,000. Force Protection funds are included in base 
operations funding. Also as a result of Program Budget Decision 098R, 
Department of the Army was directed to fund $1,300,000 in U.S. Army 
force protection requirements, and the Department of the Navy was 
directed to fund $300,000 in U.S. Navy Europe force protection 
requirements.
    CENTCOM Answer. In fiscal year 1998 we have requested and received 
$1,193,838 from the combating terrorism initiative fund. The funds were 
used to buy vehicle-mounted VHF radios, pagers, and upgrade existing 
radios for personnel stationed in Saudi Arabia.
    This initiative significantly enhances the U.S. Defense 
Representative's capability to notify, in an emergency, several 
Department of Defense organizations in Saudi Arabia. Seven hundred non-
combatants in the U.S. Military Training Mission, the Ordnance Program 
Division, the Defense Contracting Material Command, and the Office of 
the Program Manager for the Saudi Arabian National Guard benefit from 
this improved capability.
    Question. What are the top ten force protection priorities for your 
Command in fiscal year 1999? Have these items been fully funded in the 
Services' budget requests? If these items are not fully funded, what 
will be the specific impact on your ability to protect the forces under 
your command?
    EUCOM Answer. ------.
    CENTCOM Answer. Our force protection priorities are included in my 
Integrated Priority List (IPL). These priorities are reflected under 
tow main areas: ------.

                   Access to Bases in Southwest Asia

    Question. General Zinni, during the recent crisis with Iraq, both 
Saudi Arabia and Turkey made clear that they were unwilling to allow 
U.S. forces to use bases in their countries for offensive missions 
against Iraq. The Committee also understands the U.S. currently is 
working to resolve base access issues with Oman and Kenya. What is the 
status of base access discussions with these countries? Is the level of 
local support for a U.S. military presence in your region declining?
    CENTCOM Answer. Our access agreement with Oman runs through 2000. 
The government of Oman was highly supportive of U.S. Central Command's 
(CENTCOM) requirements in response to Operation DESERT THUNDER, ------. 
Our access agreement with Kenya was renewed last year and runs through 
2000 as well. The relationship between our countries continues to be a 
strong one. They have willingly accepted U.S. military forces in 
support of humanitarian operations in Africa.
    Support for our military presence in the region remains strong. 
Turkey and Saudia Arabia recognize the role played by a strong U.S. 
military presence in the region, and they were supportive in allowing 
that force to be built up. However, they wanted to ensure every 
possible diplomatic solution to the crisis was explored.
    Question. How would you change your force structure if you had 
fewer forward bases to operate from?
    CENTCOM Answer. In dealing with Iraqi sanctions enforcement, 
without access to facilities of the Gulf Cooperation Council states, --
----. Our access to bases during times of crisis will be based on our 
peacetime engagement with our coalition partners in the region. The 
efforts we make in building relations, creating a shared regional 
strategy, and incorporating host nation cultural concerns into our 
operations is essential.
    Question. What steps can be taken to prevent or offset the reduced 
access to forward bases?
    CENTCOM Answer. The key is to not lost access. Efforts at reaching 
a consensus and relationship building will pay great dividends. It is 
critical to engage our coalition partners on a continual basis to 
ensure a shared perspective of the threat to achieve shared regional 
objectives.
    With respect to our dual-containment policy in the region, should 
access be lost or unacceptable restrictions be placed on key bases, and 
alternative force structure would be required to enforce UN resolutions 
or support military operations. ------.

    [Clerk's note.--End of questions submitted by Mr. Young. 
Questions submitted by Mr. Dicks and the answers thereto 
follow:]

                          Weapons Inspections

    Question. UN Secretary General Kofi Annan and Iraqi Prime Minister 
Tariq Aziz signed an accord on February 23 to defuse the crisis over 
weapons inspector access to eight ``presidential sites.'' In the deal, 
which has been endorsed by he U.S., Iraq has pledged unrestricted 
access for the inspectors who are charged with dismantling Iraq's 
biological; chemical and ballistic missiles. Are the weapons inspectors 
being allowed access to all ``sensitive sites'' at this point?
    CENTCOM Answer. The 23 February Memorandum of Understanding (MOU) 
stated Iraq would allow access to all presidential sites and access to 
sensitive sites as previously agreed to. Under these agreements, the UN 
Special Commission (UNSCOM) inspectors were allowed access to both 
presidential sites and sensitive sites. Iraq invoked modalities to 
limit the number of inspectors allowed into several sensitive sites, 
and, while not blocking inspectors, lodged several protests to further 
curtail UNSCOM operations at the presidential sites.
    Question. How many ``sensitive sites'' have been visited by UN 
inspectors since the accord was signed?
    CENTCOM Answer. As of mid-April, UN inspectors have visited eight 
Iraqi declared sensitive sites since the Memorandum of Understanding 
was signed. More of these inspections are likely in the future. 
Additionally, UN Special Commission inspectors and UN diplomats visited 
eight Iraqi declared presidential sites.
    Question. Have ``sensitive site'' inspections turned up any 
evidence of WMD production or R&D?
    CENTCOM Answer. The recent inspection of sensitive sites did not 
yield any evidence of Weapons of Mass Destruction or Research and 
Development. However, the chief inspector believed ------.The eight 
presidential sites were declared in advance and no proscribed materials 
were discovered. These initial visits were a baseline inspection only 
and future, short-notice presidential site missions, such as aerial 
overflight, photography, and computer searches, and may lodge even 
stronger protests during follow-on visits.
    Question. Are you concerned that in the months between the time the 
Iraqi government halted UN weapons inspections and the time the accord 
was signed, that critical WMD evidence was relocated away from 
``sensitive sites'' or from other potential inspector sites?
    CENTCOM Answer. The delay certainly allowed Iraq ample opportunity 
to move Weapons of Mass Destruction (WMD) related materials and 
documents. Iraq's tampering with monitoring cameras and removal of 
dual-use equipment from certain locations provided a clear example of 
Iraq's intent to protect key equipment. Until late February 1998, 
Iraq's presidential sites provided locations to conceal prohibited 
materials. The 23 February Kofi Annan/Tariq Aziz agreement probably 
forced Baghdad to relocate materials from the presidential locations to 
other sites, possibly private residences or burial locations.
    Question. If so, do we have good intelligence suggesting where the 
WMD-related material may have been moved?
    CENTCOM Answer. ------.

                              Iraq Outlook

    Question. Are the forces that will remain in the Gulf adequate to 
quickly and decisively strike Iraq if Saddam does not comply with UN 
accords?
    CENTCOM Answer. The forces that will remain in the Gulf are there 
simply to continue OPERATION SOUTHERN WATCH (OSW) and to ensure the 
credible defense of Kuwait. However, ------. Such a strike would cause 
significant damage to Saddam's regime by destroying key security, 
command and control (C2), air defense, and weapons of mass destruction 
(WMD) facilities.
    Question. Is there any military capability you do not have 
available to you at this time that could have value-added in terms of 
meeting our military and strategic objectives in your region?
    CENTCOM Answer. All the currently fielded military technologies 
available are at my disposal.
    Question. What is your judgement of how this will play out? Is a 
military confrontation with Saddam inevitable or is it possible that 
the recent threat of force by the U.S. has convinced the Iraqi 
government to comply with the UN weapons inspection resolutions?
    CENTCOM Answer. I believe that Saddam will continue to test 
coalition resolve. His goal is to get the sanctions lifted, and exploit 
perceived divisions in the coalition.
    I do not believe confrontation with Saddam Hussein is inevitable. 
It is important however, that the U.S. and members of the coalition be 
able to respond effectively should diplomacy fail.
    Question. In your judgement, how long will the current force build-
up have to remain in the Gulf? At what point, assuming Saddam continues 
to comply with UN resolutions, might we be able to start reducing force 
levels in the Central region?
    CENTCOM Answer. I expect the current force structure ------.
    We will continue to size our force structure to reflect the threat. 
I do not want to maintain American forces in the region any longer than 
necessary.
    Question. Would you agree with General Ryan's assessment--that we 
had base access in Saudi Arabia and other areas but that access did not 
necessarily translate into permission to operate our forces from an 
offensive posture?
    CENTCOM Answer. General Ryan ------. We asked eight other things of 
the Saudi Arabian government to include the use of reconnaissance, 
intelligence, surveillance and battle management aircraft based in 
Saudi Arabia. They approved all eight requests.
    Early in this crisis, ------.

                              Base Access

    Question. If this were true, how would we have used ground-based 
tactical aircraft in the most recent scenario?
    CENTCOM Answer. Our plans ------.
    Question. Isn't it true that because of our inability to get basing 
access, the bulk of the air campaign would have had to be performed by 
Naval aircraft deployed on carriers?
    CENTCOM Answer. ------.
    Question. Are you concerned that the assumptions that OSD has made 
on forward basing are somewhat suspect given the recent situation in 
the Gulf?
    CENTCOM Answer. I consider the assumptions contained in our 
regional war plans to be valid. Access to facilities in the region is 
based on a shared perspective of the threat. If our coalition partners 
perceive their national interests to be at stake, access will be 
granted. U.S. interests and national objectives are not always 
identical to those of our coalition partners. The key to ensuring 
access is engaging our coalition partners to build a common perspective 
of the threat to achieve shared regional objectives. Consultations and 
relationship building are the elements to ensuring timely access to 
bases in the region.

                       Strategy of Assassination

    Question. As you know, there have been calls in Congress and in 
some elements of the foreign policy community to pursue an 
assassination attempt against Saddam Hussein. I am not one who agrees 
that this is a reasonable or responsible policy. What is your general 
view of the notion of pursuing an assassination attempt against Saddam?
    CENTCOM Answer. I would not entertain any notion of pursuing an 
assassination attempt against Saddam. Such an effort is contrary to the 
U.S. policy implementing international laws that prohibit 
assassinations. Our obligations to the UN and various international 
treaties oblige us to refrain from using force in this way.
    Question. Are we damaging ourselves from a public-relations 
standpoint in the Arab community by pursuing this line of discussion?
    CENTCOM Answer. Yes.
    Question. Even if we accept that an assassination attempt is sound 
policy, what in your judgment is the likelihood that we could be 
successful in carrying such a policy out?
    CENTCOM Answer. I would not agree with the premise of the question. 
Assassination is contrary to U.S. policy and practice and I would not 
want to speculate further.

                           Saddam's Strength

    Question. There have been conflicting reports over the relative 
strength of Saddam's regime in his country and throughout the middle-
east region. How would you currently characterize Saddam's strength in 
Iraq?
    CENTCOM Answer. I do not believe that time is on Saddam's side, 
provided current sanctions can be maintained. His military faces the 
block obsolescence of many of their weapon systems in the near future. 
His security services maintain a climate of fear, which works to 
prevent overt opposition, but he faces the constant threat of 
assassination. Having said that, ------.
    Question. Is he stronger or weaker than before the coalition build-
up in the Gulf?
    CENTCOM Answer. Iraq's military strength and his ability to 
threaten his neighboring countries has steadily decreased since the end 
of Operation DESERT STORM. This has not changed during the recent 
crisis. The sanctions imposed by the UN have prevented Saddam Hussein 
from modernizing his military. His equipment is getting old and repair 
parts are becoming increasingly hard to get.
    Question. How is Saddam currently perceived in the Arab community? 
Is he viewed in a more sympathetic light since the build-up of 
Coalition forces in the Gulf?
    CENTCOM Answer. I believe that most Arabs recognize that the 
agreement negotiated by Kofi Annan was a retreat by Iraq from an 
untenable position, and that it was made possible by the forces we 
deployed to the region.
    Question. How would you forecast Saddam's long-term viability both 
in Iraq and in the Arab community?
    CENTCOM Answer. Saddam will govern Iraq for the foreseeable future. 
His regime is currently stable, and he is feared and respected. There 
is little internal threat to Saddam's regime. As long as he ------.
    Question. Is U.S. policy in Iraq strengthening or weakening Iraqi 
opposition efforts to overthrow Saddam's regime. Are there changes we 
could or should make in U.S. policy to facilitate or augment those 
efforts?
    CENTCOM Answer. The Iraqi opposition is badly divided and 
fragmented, ------. The opposition based outside the country is not in 
a position to bring effective pressure to bear against the regime and 
internal opposition is difficult given the pervasive control of the 
ruthless security services. I believe that our best course is to work 
to enforce sanctions, and deny the regime the possibility of 
reconstructing its WMD programs. I do not believe that time is on 
Saddam's side as long as sanctions remain in place. We have made clear 
that Iraq would be better off without Saddam, and that his departure is 
the only long-term answer, but we have stopped short of making his 
overthrow an objective of our strategy. I believe that is the right 
approach.

                                  Iran

    Question. In your statement, you mention that Iran remains 
potentially the most dangerous long-term threat to peace and stability 
in the Central Region. I would agree with that. The election last May 
of President Khatami, a moderate, progressive leader by Iranian 
standards, was a positive sign. However, as you know, Iranian 
Presidents have limited power and the real sources of power in that 
country continue to pursue the development of WMD and offensive 
missiles as well as justify terrorism as a means of achieving its 
objectives. In your judgment, what is the significance of the election 
of President Khatemi? Does his rise to power signal a desire by the 
Iranian people for a more progressive, tolerant political system? If 
so, in your judgment, will that translate into action on the part of 
the Iranian government to pursue more progressive, tolerant policies?
    CENTCOM Answer. Iran is at a crossroads and the desire of Iranians 
for change is clear. To what degree and at what rate that desire for 
change results in increased and permanent freedoms remains unknown. 
Indicators of positive change are evident. President Khatami is moving 
forward on his vision of an Islamic Republic that emphasizes economic 
development, social justice, less intervention in citizen's private 
lives, and reduced censorship. Iran's social demographics and economic 
needs will continue to drive reform. Recent events reflect this: press 
reporting is freer than at any time since the revolution, increased 
diplomatic visits, the Presidents' future visit to the UN, and the 
growing rapprochement with the GCC. In addition, we are seeing 
increased professionalism in their navy. Conservative religious leaders 
continue to oppose reforms through institutions controlled by 
conservatives that manipulate the political system, promote the 
development of weapons of mass destruction, as well as support 
terrorist groups.

                       Iranian Missile Production

    Question. There have been a number of reports alleging that the 
Iranian government is engaged in a crash program to field two medium-
range missiles, Shahab-3 and Shahab-4 within the next year or two. The 
missiles could have enough range to hit targets throughout the Middle 
East and a longer-range version may eventually be able to target 
Europe. Recent reports have further alleged that the Russians are 
carrying out secret missile technology transfers to Iran to assist them 
in that effort. How would PAC-3, our most mature Theater Missile 
Defense system in its current configuration, fare against a Shahab-3 or 
Shahab-4 missile?
    CENTCOM Answer. Based on available data, the Patriot Program Office 
has assessed performance capability for the PAC-3 system against these 
threats. ------.
    Question. How would a fully configured PAC-3 fare against that same 
threat?
    CENTCOM Answer. ------.
    Question. What can you tell us about Arrow's capacity to meet the 
Shahab-3 and Shahab-4 threat?
    CENTCOM Answer. ------.

                        Theater Missile Defense

    Question. Can you provide a general assessment of the missile 
threat of would be aggressors in your region at this time?
    CENTCOM Answer. The general trend is the development of longer 
range, higher velocity missiles. Pakistan's recent test launch of a 
medium range ballistic missile (MRBM) confirmed the presence of these 
missiles in the region. ------.
    Other trends are the use of forward, underground or bunkered 
missile facilities, and the general hardening of strategic missile 
infrastructure. Also, countries are acquiring many vehicles from the 
former Soviet Union suitable for use as mobile launchers. Such 
developments will greatly enhance overall missile force mobility and 
operational flexibility. A similar trend is seen in efforts to acquire 
solid missile technology that will significantly reduce the logistical 
requirements and signature of these systems.
    Question. Do you believe we ought to be putting more resources 
behind deploying TMD capability more quickly than currently planned?
    CENTCOM Answer. I feel the forces deployed and systems being 
developed are appropriate to answer the threat we face today and in the 
future. ------. System commonality adds value to our relationship with 
the host nations. The development process must include Foreign Military 
Sales (FMS), training, exercises, system upgrades and operations. 
Seamless interoperability adds flexibility and common ground from which 
to plan and operate. In addition, ------.
    Question. In your judgement, which TMD systems should be considered 
highest priority?
    CENTCOM Answer. The current Theater Missile Defense (TMD) core 
programs, PAC-3, THAAD and Navy Area Defense are most essential to U.S. 
Central Command's (CENTCOM) near-term air and missile defense 
capability. These systems represent the best capability against the 
existing threat in the short term. Additionally, ------. Airborne Laser 
Technology and Aegis Theater-Wide Defense systems will eventually 
provide UPPER TIER defense capabilities. ------. When integrated into a 
robust Command, Control, Communications, Computer, and Intelligence 
(C4I) architecture, these LOWER and UPPER TIER weapons and evolving 
sensors will address CENTCOM's requirement for a near leak-proof 
defense against the evolving TBM threat. However, the near term core 
programs should not be delayed in order to fund long term systems.
    Question. Are there any TMD programs that, in your judgement, are 
underfunded or that ought to be accelerated?
    CENTCOM Answer. Theater Missile Defense programs I identified in 
U.S. Central Command's (CENTCOM) Integrated Priority List (IPL) are 
being addressed adequately, and their progress to operational 
capability is satisfactory.
    Question. General, one of the things you and I have discussed is 
the threat from the Russian-made NOVATOR Missile. Can you give the 
subcommittee an overview on both the capability and availability of 
this missile in the Central region?
    CENTCOM Answer. ------.

                             Swing Strategy

    Question. Would you please discuss the risks placed on your mission 
by the strategy of ``swinging'' high-value assets such as bombers and 
Joint STARS between theaters?
    CENTCOM Answer. Swing, or dual-apportioned, forces are high-
value,low-density forces that are committed to the first of two Major 
Theater Wars (MTWs). The decision to ``swing'' forces will be made by 
the National Command Authorities upon execution of the second of two 
MTWs. ------.

    [Clerk's note.--End of questions submitted by Mr. Dicks.]
                                            Tuesday, March 3, 1998.

      COMMANDER IN CHIEF, UNITED STATES SPECIAL OPERATIONS COMMAND

                               WITNESSES

GENERAL PETER J. SCHOOMAKER, COMMANDER IN CHIEF, UNITED STATES SPECIAL 
    OPERATIONS COMMAND, UNITED STATES ARMY
COMMANDER TIM BOSILJEVAC, UNITED STATES NAVY
MAJOR ERIC WELLER, UNITED STATES AIR FORCE, AIR NATIONAL GUARD
CAPTAIN CURTIS HUBBARD, UNITED STATES ARMY
MAJOR CHRIS BAILEY, UNITED STATES ARMY
SERGANT FIRST CLASS LARRY REIS, UNITED STATES ARMY
CAPTAIN BEAUDETTE, UNITED STATES ARMY

                              Introduction

    Mr. Young. The Committee will come to order.
    This afternoon, the Committee, in closed session, will hear 
testimony from General Peter J. Schoomaker, United States Army, 
Commander is Chief of the U.S. Special Operations Command. 
General Schoomaker has brought with him a number of the troops 
who actually do the missions, who will report firsthand about 
some of the operations they have been involved in since our 
last hearing 2 years ago.
    This is the General's first appearance before the Committee 
as Commander in Chief, although he has been here before and he 
has been involved in the modern era of Special Operations from 
its rebirth in the 1970s. In fact, he was a member of the 
hostage rescue team sent into Iran in April of 1980, which led 
to the creation of the Special Operations Command 10 years ago.
    As the world changes, so does the threat, and many of the 
threats we face require the forces under your command to be 
prepared to respond at a moment's notice. You have mentioned to 
us how may many opportunities that you and your forces have to 
do the things that you do best. We will hear about some of 
those today.
    The Cold War has been replaced by threats from rogue 
nations, terrorism, narcotics trafficking, and the growing 
availability of weapons of mass destruction, all of which are 
in many ways more dangerous and unpredictable. Our special ops 
forces are being called upon more each day to control these 
problems.
    We appreciate the work that all of you do. We recognize the 
delicacy of some of the things that you do and the threat to 
the lives of those conducting these operations. We are very 
proud of what you do, and it is just unfortunate that the 
general public never hears about most of the good things that 
you do for obvious reasons.
    We would like to hear about some of those today, General, 
and we hope that when this hearing is finished that you will 
have an opportunity to, as you visit with your troops, to let 
then know how proud we are of the work that you do.
    Mr. Murtha, I will ask you for any opening statement.
    Mr. Murtha. I have none at this time, Mr. Chairman
    Mr. Young. General, please proceed. Your entire statement 
will be placed in the record along with your biography and you 
may summarize it as you wish, and then I would suspect we would 
have quite a few questions for you and the gentlemen that you 
have with you.

                Summary Statement of General Schoomaker

    General Schoomaker. Thank you very much, Mr. Chairman. Mr. 
Chairman, distinguished members of the Committee, I am honored 
to appear before you today on behalf of the 46,000 soldiers, 
sailors and airmen of the U.S. Special Operations Command. As I 
mentioned to year earlier, the last time I was in this room, I 
was sitting in this chair right there with General Lindsay, as 
a matter of fact, when he came up here for his first testimony 
and I was one of these young guys here. So that is 10 years 
ago.

                     USSOCOM--STATE OF THE COMMAND

    Time and again this past year, members of our special 
operations forces, SOF, performed superbly in a variety of 
challenges around the world. Success was due in large part to 
the strong support of Congress, and the Administration and the 
American people. But more importantly, we succeeded because of 
quality people, outstanding leadership, and the ability to 
adopt and persevere in an environment characterized by change 
and uncertainty.
    SOF units, both under my command here in the United States 
and those assigned to the geographic Commanders in Chief, are 
trained and ready, capable of fulfilling all of our assigned 
missions. Our tempo of operations is high. This past year we 
deployed SOF teams to 144 countries, conducted 17 actual crisis 
response operations around the world, completed 224 Joint 
Combined Exercises for Training in JCETS, 98 countries, 
conducted 194 counter drug missions in 20-plus locations, 
andconducted humanitarian demining missions in 11 countries.

                        USSOCOM--BUDGET REQUEST

    I might point out that we conducted all of these missions 
for less than 1.4 percent of the entire DoD budget and 
personnel. Actually, USSOCOM's discretionary spending is less 
than one percent of the DoD budget, when military pay, which is 
budgeted by the services, is removed from the equation.
    While this makes SOF a pretty good bang for the buck for 
the American taxpayer, this relatively small amount of 
discretionary funds leads us leverage to other sources of 
funding to do our SOF missions. Our leveraging efforts have 
paid big dividends in mission areas, such as humanitarian 
demining, the African Crisis Response Initiative, and the 
counter drug programs, all 3 of which you will hear about 
during our operator vignettes that will take place here in just 
a few moments.
    SOF plays a major role in all three efforts and that 
participation, to a large extent, is funded by sources other 
than Major Force Program-11. One area in which we have not been 
as successful in the leveraging of other sources of funding is 
base operations support. The USSOCOM budget does not provide 
base operations support for SOF. As budgets across the 
department of Defense have become tighter, USSOCOM has come 
under pressure to pay for enlist this kind of support without a 
corresponding major increase in program funds. Base operations 
funds directly affect the readiness of all of our service 
members, and I would urge the committee to support the 
Department's request for full funding.
    Our high tempo of operations requires us to manage 
carefully, but the morale of the force is high because our men 
and women are fully engaged in the types of missions for which 
they volunteered and were trained. As with the other unified 
commands, USSOCOM provides an operational environment, 
characterized by accelerating geopolitical change, rapid 
technological advancement, evolving threats, strained resources 
and potential new roles. These factors require innovative 
thinking and new ways to shape change if we are to provide the 
widest array of options in protecting America's interests. The 
truth is, business as usual will not provide the capabilities 
we need to deal with the transactional and asymmetrical threats 
of tomorrow.
    We realize that USSOCOM must embrace and institutionalize 
the process of change in a disciplined manner, which will allow 
us to remain the most capable and relevant special operation 
force in existence. Consequently, our organization, force 
structure, platforms, equipment and missions must and will 
continuously evolve to meet the needs of the Nation and seize 
the opportunities brought about by change.

                                SUMMARY

    Finally, I can think of no more valuable partner for our 
special operations forces than Congress. We truly value your 
leadership, advice and assistance, as we prepare now to meet 
the many difficult challenges ahead. As I mentioned, we in fact 
are a creature of Congress in terms of creation in USSOCOM, 
which we appreciate.
    [The statement of General Schoomaker follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                          DEPLOYMENT VIGNETTES

    General Schoomaker. Thank you Mr. Chairman, for the 
opportunity to make these brief remarks. Accompanying me today 
are operators from our components who will briefly describe 
deployments they have participated in during the past year. 
These are representative of the types of activities in USSOCOM 
is involved in every day. The first operator who will speak to 
you is Commander Tim Bosiljevac. Tim is a Navy SEAL who 
recently participated in counter drug operations in Colombia.
    [Clerk's note.--The Committee was unable to print the 
photographs described in the following vignettes.]

                    COLOMBIA COUNTER DRUG OPERATION

    Commander Bosiljevac. Good afternoon, Mr. Chairman. I 
appreciate this opportunity today, and although I am sitting in 
this chair, in 10 years I do not expect to be sitting in that 
chair. Nonetheless this is a novel opportunity as a Navy SEAL 
to get out of my wet suit and put on dry clothes, and I 
appreciate that very much.
    I am from Emporia, Kansas,and I can assure you that is a 
pretty good drop zone for parachuting, pretty flat and devoid 
of trees. I have a Bachelor of Science Degree in political 
science, a Master of Arts in history, and I have about 20 years 
experience in the military, most of that in maritime special 
operations and also counterterrorism and rescue.
    Some of the experiences I have had are the: Achille Lauro 
ship hijacking, Operation JUST CAUSE in Panama, and operations 
in Somalia. I would like to brief you this afternoon on another 
experience I had just this last year when I commanded a 10-man 
SEAL unit on a counternarcotics joint planning assistance team 
JPAT, to the country of Colombia. We do many things all around 
the world. A lot of our operations deal with training and 
training with foreign forces in an exercise environment. JPATs 
are a little bit different. JPATs are few and far between, but 
in JPATs we actually go forward into operational bases out in 
the sticks of many of these countries and we train and assist 
and advise forces which are actually conducting combat 
operations, in this case, against narco terrorists.
    We conduct in Southern Command about 8 of these JPATs per 
year in the country of Colombia, 6 of those being accomplished 
by Army Special Forces and another 2 by Navy SEALs. The one I 
am going to talk to you about occurred in late spring of 1997.
    To give you a little bit of background, sir, in October 
1996 we conducted one of these JPATS in San Jose del Guaviare. 
It was highly successful. At the end of the 4-week JPAT, 
approximately a half million dollars worth of coca paste and 
precursor chemicals was captured and destroyed. The U.S. 
Southern Command and the military in Bogota desired to 
replicate that success. They set us up for our 1997 JPAT in a 
Colombian air base in the southern part of Colombia, Tres 
Esquinas. This is much like the Cajun country of Colombia. 
Highly rough terrain, only one road in and out of the base. 
Everything else, as you can see by these photographs, moves 
pretty much by river.
    When we conduct these operations, these JPATs, we go down 
and train and live with them on a daily basis in these forward 
base areas with these forces and we assist them in planning 
operations. But we do not leave those bases and conduct the 
operations with the forces. We had 4 weeks to conduct this 
mission, this JPAT. The first 2 weeks we dedicated mainly to 
training the force. These were forces that already had very 
good soldiering skills. We hopefully enhanced them a little bit 
more. A couple of photos we highlight some of that training. 
This is combat medical training, sir, and this is prisoner 
handling techniques.
    During the first 2 weeks, we also dedicated a certain 
amount of the force in assisting, planning, and targeting for 
missions that they would conduct during the final 2 weeks of 
our stay.
    While the Colombians had very good human intelligence, our 
forces provided a little bit of technical assistance through 
our experience. We had personnel stationed in a 4 base in 
Panama, Naval Special Warfare Unit-8, adjacent to Howard Air 
Force Base. Those personnel would ride aboard U.S. Navy P-3 
aircraft conducting primarily surveillance and air interdiction 
of counternarcotics in missions over Colombia over many hours. 
As a secondary mission our personnel will direct aircraft over 
areas of interest in order to research targeting and extraction 
information.
    Once the aircraft landed back in Panama, those digital 
photographs taken by our personnel on board would be converted 
into data files. Those would be sent via satellite 
communications link to our forward base at Tres Esquinas where 
we would bring them up on laptop computers. We would review 
that information, those photographs, with the host nation 
leadership and assist them in planning, the detailed planning 
of these operations.
    Now, during our 4 weeks in Tres Esquinas, the host nation 
conducted 4 combat raids, and as you can see here, sir, in each 
case, coca fields were found, labs were found, coca paste was 
found, seized and all destroyed. We had very good success down 
there. During our 4 weeks, we estimated approximately $280,000 
worth of coca paste, precursor chemicals, and equipment was 
found and destroyed.
    So, although we provided good technical assistance, we also 
felt a large part of our success when combined with the 
technological assistance that we gave them, was the importance 
of our physically being out there, sharing conditions with them 
in these forward camps, being able to work with them every day, 
providing a very strong working relationship and rapport with 
them, sir. I will be followed by Major Eric Weller.

                        BOSNIA EC-130 OPERATION

    Mr. Young. Thank you for an excellent presentation.
    Major Weller. Sir, my name is Major Eric Weller. I come 
from Boiling Springs, Pennsylvania. I graduated from 
Shippensburg State University with a degree in criminology. I 
have had 17 years military experience as a guardsman. I fly 
with the 193rd Special Operations Wing out of Harrisburg, 
Pennsylvania. We fly six EC-130 aircraft. They are unique 
aircraft. Our primary mission, sir, is psychological operations 
or broadcasting radio and TV programs, and a secondary mission 
of jamming operations.
    While with this unit, I have had the opportunity to deploy 
during the invasion of Grenada, Panama, desert shield-desert 
storm, Sea signal in Haiti, and the operation I would like to 
talk to you about today, JOINT GUARD in Bosnia.
    Back in the August 1997 time frame, it was determined that 
one of the Serbian factions had pretty much taken over control 
of the Serbian media. They were broadcasting anti-SFOR or 
stabilization force propaganda which pretty much put the SFOR 
ground forces in harm's way.
    Also during that time, they had pretty much taken over, or 
had not parlayed the equity within the other Serbianfactions in 
regards to the upcoming elections in the October, November time frame. 
That faction was in the Pale area, by the way, held by Mr. Vladimir 
Karanovich.
    Anyway, General Shinseki from SFOR asked our unit to come 
over, give capabilities briefings, let them know what we could 
do, and figure out how we could work ourselves in the media 
compliance plan, called the Bosanova plan. This plan was about 
a 5 or 6-year plan. The first pillar was basically peaceful 
interdiction ultimately working up to destruction of radio and 
TV stations. In that plan, we again supplemented the 4th 
Psychological Operations Group with radio and TV broadcasts and 
we were also called upon to stand alert for additional command 
and control type jamming and radio and TV type jamming.
    Upon receiving our execution order from the Chairman of the 
Joint Chiefs, we were told to do something that we normally 
don't do, which was open up the deployment to the worldwide 
media. Consequently, our deployment was broadcast on CNN 
International and every other major news organization that you 
can think of. They followed our planes across the pond into 
Brindisi, where we bedded down with the other Air Force Special 
Operations Command or AFSOC forces.
    While in theater, we did fly some radio and TV missions and 
also stood alert for potential jamming missions. After the 
elections, it was determined that things had quieted down 
enough that we were able to redeploy.
    One of the things, though, about the deployment I wanted to 
point out was that it in itself was a PSYOPS campaign. By the 
time we had gotten into theater, it was determined that the 
Pale Serbs had pretty much come into compliance with the Dayton 
Peace Accords.
    On our redeployment, the other thing I wanted to point out, 
was that we were still held on a 96-hour string, which means 
that we have 96 hours to get back in the theater if we are 
needed. While in theater we flew about 55 missions, 
approximately 5 hours each, logging approximately 250 hours on 
our aircraft.
    Sir, that concludes my portion of the briefing. I will be 
followed by Captain Hubbard.
    Mr. Young. Thank you very much.

                            NAMIBIA DEMINING

    Captain Hubbard. Good afternoon, Mr. Chairman.
    My name is Captain Curtis Hubbard. I am originally from 
Boone, North Carolina, which by the way Mr. Hefner knows where 
it is, although he is not here today. I graduated from the 
University of Miami with a degree in music education, which 
usually gets a roaring response from most of the generals in my 
chain of command. I graduated from there and went to officer 
basic course at Fort Sill as an artillery man and eventually 
spent time in the 82nd Airborne Division for artillery before 
coming to Special Forces. I have been on the team almost 2 
years, I speak some French, and I have done 4 OCONUS 
deployments to Africa. I would like to talk about the most 
recent 2 I have done, which are both demining related.
    Demining Operations started in 1995 for my unit, but it has 
been going on concurrently throughout the whole world through 
the special operations, specifically the Middle East, Africa, 
Europe, Asia, and I would like to deal specifically with 
southern Africa because that is where my battalion, our area of 
responsibility is. We are currently in Mozambique, Rwanda, and 
this summer we will be going to Zimbabwe for the first time.
    In our demining program, the most important thing for one 
to remember is that it is a ``train the trainer'' program, 
meaning that we go over and we teach the Namibians to teach 
Namibians, and that supports our end-state, which is a self-
sustaining, in place demining program, which means we can leave 
it, work ourselves out of a job and go home and we know that 
the work is still being done. I selected pictures today that 
hopefully represent this with the Americans in the background 
teaching the instructors, who then again are teaching the 
soldiers how to do this.
    Namibia specifically has a unique mine problem. As I said, 
we went there first in 1995 and we went again this year in 
September, and we just went back again. I got home about 2 
weeks ago from the most recent mission. We have trained two 
companies, we call them conventional deminers, which is a 
standard probing, and that is using mine detectors. Namibia has 
a unique mine situation after their guerrilla war 8 years ago. 
The South Africans, had mines along the power lines coming 
south from the border of Angola. That was the main power for 
all of southern Namibia.
    What happened after the war, was they scooped all of these 
mines up and put them in piles around the pylons, these high 
tension power lines. So instead of a 1-dimensional mine problem 
you now have a 3-dimensional mine problem. So the guys at Fort 
Belvoir helped us out and developed something called a berm 
processor, which looks like a potato-picker but works like a 
flour sifter. That is the only way I can describe it. It takes 
up about the size of the square in the middle of this room. It 
scoops out the dirt, the dirt falls through, exposing the mines 
on top of the ground. Our last mission was integrating this 
with the conventional mine field clearing operations.
    Namibia is about \9/10\ complete with their conventional 
mine fields and we are expecting about 2 years from now they 
should be completely done. Ambassador Ward is supporting a 
program for a regional demining school in the area, which will 
bring the whole southern region of Africa together in a 
demining school, and hopefully will reduce some of us going 
over there all the time.
    There are many obvious, and some not so obvious, demining 
benefits for us. The obvious ones are we are saving lives, 
returning the land to civilians, and just generally helping 
spread U.S. influence throughout the region. Some of the less 
obvious that deal with ODA commanders and their teams directly, 
is that we are a force multiplier on the ground. The way we are 
really helpful is by knowing the country and its people, and 
the only way to get to know them, and you can't learn that from 
books, you have to be in country with the people, working with 
them, as much out of 365 days out of the year as you can. The 
demining program has helped with that significantly because we 
are in there a lot more, working with the soldiers.
    There are other reasons, though--not so obvious reasons, 
and that is we are there to help out in contingency or crisis 
situations. For example, the C-141 that took me on the 
September demining mission was involved in a tragic midair 
collision with a German passenger--well, it was a military 
passenger--plane. So I got a change of mission within the first 
48 hours on the ground of conducting search and rescue 
operations at that point. So we were able to establish the 
first communications link back to the United States as well as 
our command in Europe, and help out in thatsituation. We had 
people in the air looking for sites, looking for survivors, and we were 
also on the boats picking up the debris. So we were able to react to 
things very quickly and be helpful.
    In conclusion, I would like to say this is a worthwhile SOF 
mission and we will have lasting results in southern Africa, as 
well as the country that was close to my heart, Namibia. Thank 
you, Mr. Chairman.
    Mr. Young. Captain Hubbard, thank you very much.

                    NAMIBIA PSYCHOLOGICAL OPERATIONS

    Major Bailey. Good afternoon, Mr. Chairman. My name is 
Major Chris Bailey and I am the executive officer for the Third 
Psychological Operations battalion. I have a Bachelor's Degree 
in engineering from Idaho State University and a Master in 
International Relations from Troy State. I am strongly familiar 
with the French language. I currently hail from Goldsboro, 
North Carolina. I have experience with psychological operations 
for 10 years now, 10 out of the 13 years that I have been on 
active duty, and some of the assignments that I have been 
involved are Operation JUST CAUSE, Operations Desert Shield and 
Desert Storm, Operation PROVIDE REFUGE out in the Republic of 
the Marshall Islands; recently Operations JOINT ENDEAVOR and 
JOINT GUARD, and I just completed a command tour where I was 
responsible for providing psychological operations support to 
Haiti, as well as demining and mining awareness programs in 
Central America.
    In 1995, Psychological Operations went to Namibia to 
reinforce the information side of the Special Forces program 
that Captain Hubbard was just talking about. The objective was 
to work with the Namibian government to provide a national 
campaign of information to advise and assist the local 
population in identifying, avoiding and reporting mine problems 
throughout their northern areas. We have also got an unexploded 
ordinance, which Captain Hubbard did not mention, which I 
believe is going to be a more long-term issue, but I believe in 
the long run the 2-year program that he discussed regarding 
Ambassador Ward's program is going to pretty much solve that.
    In 1995 we went over there and we conducted the program and 
we used the Namibian Administration of Information and 
Broadcasting to assist us with the dissemination part of that 
program. Right over here to my left I have a few products that 
were actually produced during that time frame. The national 
theme and national logo that they used is ``don't touch it, 
report it,'' and then of course you have this Namibian triangle 
with a small kid saying, avoid it. This was actually used on 
several of the promotional products that were bought during 
that time frame. Baseball caps, T-shirts, soccer balls, things 
that were actually issued to the children as a constant 
reminder to not touch and avoid.
    Additionally, we used a poster that we set up in the local 
population centers, post offices, police stations, as well as 
schools, and this actually gives you photographs of ordnance 
and what not to touch and also some mines.
    Over here we have an insert that was used in the national 
press, The Namibian, which is their multi-lingual newspaper 
that covers Africans, Oshiuambo and English, which goes 
throughout the country as a constant reminder. Furthermore, the 
PSYOP team, on the ground at that time prepared public service 
announcements, all of which are currently running today, 
television and radio broadcasts, which leads us to our mission 
this last summer.
    They had an ongoing program and it had some effect, but it 
lost momentum, so the objective of our program this last summer 
was to reenergize that program and work the self-sustaining 
piece that again Captain Hubbard mentioned where we get them 
back on their feet and give them the tools to continue.
    We started our program with a 2-week block of instruction. 
I had a Reserve psychological operations broadcast specialist 
with me, I had a civilian technical cultural analyst with me, I 
had two PSYOP soldiers with me, and myself, and we worked with 
The Ministries of Information and broadcasting, the Ministries 
of Defense, and the National Police Force, and trained them on 
computer graphics techniques using up-to-date computer graphics 
software and peripherals, and then we moved on from there into 
media integration and planning.
    We also worked a 2-year straw man plan with the National 
Demining Committee that when we left was fairly complete. They 
were still on the table working that out with the committee as 
well as Ambassador Ward and the host nation country team.
    During that same time I was working product procurement. We 
procured $195,000 worth of promotional products using State 
Department demining money, similar to what we had purchased in 
the last event. The purchase, though a one-time purchase, would 
apply to products that were developed as a result of the 
training that we provided, so the students that we taught would 
actually produce new logos and new symbols. I have a T-shirt 
here that was actually one of these products. I couldn't bring 
everything, but everything from rulers to baseball caps to 
pencils, to soccer balls, shorts, things that would have 
lasting value and be seen over a broad expanse were produced. 
And then they would be distributed using that 2-year plan 
instead of a 1-time shotgun blast.
    Sir, in conclusion, I would like to say that this has been 
a very successful program. I have been excited about the amount 
of energy that the embassy has put into this. The nation has a 
commitment and the national ministries have a commitment to 
this, and I really have enjoyed working the program, and I 
appreciate the opportunity to brief you this afternoon.
    Mr. Young. Major, thank you very much. We appreciate you 
being here.
    Major Bailey. I will be followed by Sergeant First Class 
Reis.

                         SENEGAL-ACRI OPERATION

    Sergeant Reis. Good afternoon, Mr. Chairman.
    My name is Sergeant First Class Larry Reis, and I was born 
and raised in Santa Maria, California. I have been in the 
military now for approximately 10 years, during which I served 
at the First Cavalry Division out of Fort Hood, Texas, the 82nd 
Airborne Division in which I participated in Operation Desert 
Shield and Desert Storm, and for the past 4 years I have been 
assigned to the Special Forces.
    During that time I was deployed to Haiti for Operation 
restore, uphold and maintain democracy. I have also conducted 
training in France, Mali and Senegal. I am a static-line 
jumpmaster and also completed the survival escape, resistance 
and envade, better known as the SERE course. In am Operations 
Intelligence qualified, and I have a good working knowledge of 
the French language.
    My team and I deployed to Senegal as part of the African 
Crisis Response Initiative, or better known as ACRI, on 20 
July, 1997. Upon arriving in Senegal, we set up our operational 
base and began the preparation process of theSenegalese forces. 
During the preparation process of an 800-man Sengalese battalion, we 
issued each soldier nonlethal individual equipment consisting of boots, 
uniforms, canteens and various other field equipment. Organizational 
equipment was also issued at this time, consisting primarily of 
communications and mine detection equipment.
    As depicted by this picture here, sir, we also had a U.S. 
Army optometrist conduct eye examinations and issue eyeglasses 
as needed, and necessary vaccinations were also conducted at 
this time. With the conclusion of the preparation process of 
the Senegalese forces, we moved into the training portion of 
our mission, which was actually broken down into 4 phases, 
phase 1 being the basic U.N. task phase.
    The basic U.N. task phase emphasized tasks that every U.N. 
soldier should know, and some of those tasks were the 
organization and the operation of the United Nations, 
peacekeeping principles, and the code of conduct of U.N. 
personnel.
    During this time we also took the time to go ahead 
evaluated the Senegalese tactics to enable us to identify 
future training requirements by assessing their strengths and 
their weaknesses, which moves us into phase 2, which was the 
small unit tactics phase, sir. This phase, what emphasized 
force protection measures, measures to protect themselves and 
other measures to protect the other folks.
    Then we moved into phase 3 of our operation known as the 
Peacekeeping Operation phase. The peacekeeping operation phase 
emphasized responsibilities while in a peacekeeping mission 
posture. Some of the tasks conducted were things such as the 
organization and the operation of a checkpoint, securing a 
route, convoy security, the moving of dislocated civilians, and 
also the identifying and processing of detained personnel.
    At the end of each of these tasks, a practical exercise was 
conducted to determine the soldiers' ability to conduct each of 
these tasks. If they were not capable of conducting it, we 
would retrain them and they would keep going until they did 
pass it.
    Then we moved into phase 4 which was known as the training 
exercise phase, a situation which is depicted by these two 
pictures here. I would like to point out also, the equipment 
that we were given, this picture here is a soldier setting up 
for a situational training exercise. He is using actual 
equipment that we had provided him, such as the computer, 2-
programmable hand-held Motorola radios that we gave him to use 
for command and control, and this picture shows him actually 
running the operations that we were giving him at that time, 
sir.
    Now, a situational training exercise was conducted on the 
operation to give the Senegalese a realistic, practical 
exercise to learn by. It was just like a training environment. 
We gave them a situation to deal with and they dealt with them, 
and we were there to help them and assist them in any way 
possible.
    After that we moved into a field training exercise. This 
exercise was conducted to give the Senegalese a chance to plan 
and train for tasks that we taught them. And after that, we 
gave the Senegalese task force commander a mission tasking 
statement which enabled him to train and conduct a simulated 
peacekeeping mission unilaterally, with minimal assistance from 
United States forces.
    At the conclusion of the FTX we moved into the critique 
portion. We critiqued the Senegalese performance during the FTX 
and pointed out their strengths and weaknesses. The Senegalese 
were deemed capable of conducting such operations by receiving 
a 70 percent go in all operations that they conducted.
    We then held a graduation ceremony and redeployed to Fort 
Bragg on 25 September, 1997. I would like to point out that I 
am redeploying back over to Senegal in 7 days to conduct the 
second portion of the ACRI concept, which is the sustainment 
phase for the Senegalese forces.
    This concludes my portion of the brief and I will be 
followed by Captain Beaudette.
    Mr. Young. Sergeant, thank you very much.
    General Schoomaker. I would point out that by giving them 
the eyeglasses improved their shooting.

                         SIERRA LEONE OPERATION

    Captain Beaudette. Good afternoon, Mr. Chairman.
    I am Captain Beaudette, currently assigned as the assistant 
operation officer for Third Special Forces Group based at Fort 
Bragg. My hometown is Canton, Connecticut. I have been in 
Special Forces for the past 3 years now, 2 years of which I 
served as a commander on an operational detachment. I am a 
native French speaker. I have had the opportunity to travel 
within approximately 12 countries within our area of 
responsibility.
    Two recent operations I have been involved with, sir, are 
joint task force Nobel Obelisk in which we assisted in the 
noncombatant evacuation of the U.S. embassy and staff, along 
with the approximately 2,500 American citizens and third 
country nationals. The second operation is Operation firm 
response which was the following week, where we assisted again 
in the noncombatant evacuation of the U.S. embassy and staff. 
It was primarily a French-run operation, and I served as the 
member of the EUCOM survey and assessment team and again had 
the opportunity to work as a liaison to the French Foreign 
Legion since they had two regiments on the ground.
    The photos here depict joint task force Nobel Obelisk. We 
had been conducting joint, combined and exchange training in 
the country of Sierra-Leone for approximately 4 weeks, when on 
Sunday morning our compound erupted in gunfire. We were 
conducting our morning physical training. Immediate actions 
were taken to establish a defensive perimeter, and we gained 
contact with our higher headquarters based out of Europe and 
also our group headquarters at Fort Bragg.
    We tried to establish contact with the embassy and staff as 
quickly as possible, which difficult, in that it was a Sunday 
morning and the embassy personnel again were caught at the 
residential compounds and were isolated from the chancellary 
building.
    In the second photo, Ms. Ann Wright, was the deputy chief 
of mission. The ambassador had left for home leave the week 
prior.
    Some of the tasks which we accomplished in support of the 
operation were the conduct of initial planning for the 
evacuation. We had the ability to conduct advanced 
reconnaissance of the NEO site itself, the landing zones, and 
we moved the embassy staff and personnel down to the actual NEO 
location. In addition, we provided security at the 2 
residential compounds while we were there. Both compounds had 
been broken into the first night prior to ourarrival from our 
training location. We also had the opportunity to go down to the 
chancellery and recover 2 young Marine guards who had been isolated 
from the rest of the embassy staff. This photo here depicts the team 
prior to our departure from the actual NEO location.
    The main role, I should say, of our detachment in the 
operations was real-time tactical communications ultimately 
between the embassy and higher headquarters, both back in 
Washington, as well as our higher headquarters back in Germany, 
and that due to the fact that they were caught at the 
residential area, they didn't have the appropriate 
communications gear, but we were able to provide that.
    The last photo depicts a detachment getting ready to 
conduct a special reconnaissance mission, back ashore from the 
USS KEARSARGE. We were initially tasked to evacuate 175 people 
from Freetown, and that number ballooned to 2,500 because of 
the mission requirements.
    At the conclusion of the exercise, the operational 
detachment went back ashore in Senegal. The team and I had to 
go back to Europe and debrief the commander of SOCEUR, and that 
afternoon I again had the opportunity to redeploy to 
Brazzaville, Congo and assist in Operation firm response, 
another similar type operation, this time managed by the 
French.
    Sir, this concludes the vignettes.
    Mr. Young. Captain, thank you very much.
    I wanted to repeat what I had said earlier. It is just 
really too bad that each of you and your teams and your 
services and the country doesn't get much recognition for all 
of the good things that you are doing in many, many different 
parts of the world. For those of us who know about it, just 
understand that we are very, very proud of each of you and the 
good work that you do.
    If you have any quick questions for the operators who have 
testified, we will do that first, and then we will go to a 
round of 5-minute questions. The reason we are going to have to 
adhere strictly to the time, because then we want to go to a 
higher level of classification, to discuss some other 
activities and special operations that we can't at this level 
of classification.
    So let's just----
    Mr. Murtha. Mr. Chairman, I want to know how it is that a 
Marine, 2 Marines, when there were 2 out there isolated and you 
happened to rescue those 2 Marines?
    Captain Beaudette. Sir, they were caught conducting shift 
change. The coup actually erupted downtown in Freetown and one 
Marine had come to relieve his buddy.
    Mr. Murtha. Two of them. How many enemy were there? I mean 
two was plenty to take care of.
    Mr. Dicks. Do the Marines speak French?
    Mr. Young. All right. Mr. Hobson.
    Mr. Hobson. I have one question to the last briefer here.
    It is very interesting, the fact that you went over to do 
one mission and while were you there, you had to do another 
mission. Do you feel--I am sure you are going to say yes to 
this, but your training was not as a crew to do the mission 
that you wound up doing. So do you feel you were actually 
prepared for that, and are your crews, your teams trained in 
that some of your mission could change and you have to become 
proactive, because all the rest of them you were in a special 
mission. This one switched on you all of a sudden.
    Captain Beaudette. Yes sir. The primary purpose of the 
Joint Combined Exchange Training or one of the purposes, is our 
training as well as that of the host nation. That being the 
case, we bring along all of the equipment which we would 
require to conduct any type of operation. It is an excellent 
opportunity for us to get within our assigned area of 
responsibility, and for the team members to practice language, 
the cross-cultural communication that is so important to us, as 
well as to employ some of our weapons systems, practice some of 
the communications means which we use during the operation. So 
in the 4 weeks prior, we had ample time and opportunity to 
train on these types of systems, the JCET being just a small 
piece of what we do. So, yes, sir, I will answer that I felt 
that we were--that we were prepared, that we had brought the 
appropriate amount of equipment, as well as the appropriate 
amount and types of ammunition in order to be successful in any 
type of mission, and I think that--you know, I was very proud 
of my soldiers that it somewhat exemplified or illustrated the 
flexibility which they have to go from a training-specific 
mission to a contingency operation.
    Mr. Hobson. Thank you. That is very interesting.
    General Schoomaker. Mr. Hobson, if I could just add, the 
most important thing that we have in Special Operations is our 
people. There is no question about it. We talk about training 
for certainty and educating for uncertainty, and that is what 
we feel makes us so relevant today and what is the most 
important piece that we are going to have to be relevant 
tomorrow. Of the 17 crises that we responded to this year, we 
were in place in 8 of those doing something else at the time 
that the crises erupted and were able to do the kinds of things 
that he depicted there.

                             RESERVE FORCES

    Mr. Dicks. I was interested, didn't one of the soldiers say 
that they were in the reserves?
    Major Weller. Yes, sir.
    Mr. Dicks. The Guard, National Guard.
    I would just like to ask you, how is it for guardsmen in 
the Special Forces? How do you fit in? How is your rating?
    Major Weller. We think it is great. Special Operations 
takes care of us. We get the appropriate training that we need. 
Each guardsman in the flying business is afforded 48 flying 
training periods per year. We have more than enough flying 
time. And as I have mentioned, we are deployed all over the 
world, so I mean we feel that we are right up to snuff with the 
active duty from our side.
    Mr. Dicks. What percentage of the Special Forces are Guard 
and Reserve?
    General Schoomaker. I probably should answer that. Thirty 
percent of USSOCOM, 30 percent of the 46,000 that we have are 
Reserve component, 65 percent are on active duty, and then 5 
percent are civilian. So it is a very important piece of our 
force. And as I had mentioned to you before, for instance in 
Bosnia, today we have nearly 800 people actually in Bosnia-
Herzegovina right now as we speak and about 500 of those are 
from the Reserve components.
    Mr. Dicks. I just wanted to raise that point because you 
know at a time when we are having difficulties, I think the 
Special Forces are a real example of total force operating 
together, using guardsman.
    Mr. Young. A follow-up on that. What does that do toyour 
civilian career and your ability to make a living?
    Major Weller. I work full-time for the unit right now, sir. 
I just started working for the unit about a year ago. Prior to 
that, I worked as a civil servant for the Department of the 
Army and the Department of the Navy. So I didn't have any 
problem at all getting off from work.
    Mr. Young. What about others who are reservists or 
guardsmen. Are you aware of problems that these extra 
deployments would have with their civilian activity?
    Major Weller. Well, sir, we rarely have any problems. We 
are in close contact with their employers. The employers show, 
you know, a very high sense of patriotism. We are in constant 
touch with them explaining to them in general what we are doing 
and how their support actually supports the Government of the 
United States.
    Mr. Young. Any other questions for the briefers?
    Mr. Sabo. Maybe this fits for what you have in mind for the 
second round.
    Mr. Young. We are going to give you 5 minutes for the 
second round.

                           DEMINING MISSIONS

    Mr. Sabo. What percentage of your time is spent on mine 
clearing and why mine clearing is assigned the responsibility 
of Special Forces?
    General Schoomaker. We ran 11 demining missions this year. 
The primary reason why we run them is because we are provided 
money out of the State Department for humanitarian demining 
that allows us to leverage that money and take the teams that 
would be going into those areas for their normal missions and 
allows us to preserve our own O&M money to do other things. So 
we see it as an ability to leverage, putting our people in 
there, doing the kinds of things that Special Forces do. 
Special Forces are trainers, whether we are in an 
Unconventional Warfare (UW) environment, where we are raising 
and training guerilla forces or whether we are in a foreign 
internal defense environment where we are helping host nation 
forces develop democratic ideals within their military, or 
teaching professionalism to their NCO corps. These are the very 
same skills that we are doing here.
    So what we are doing is we are leveraging; in this resource 
constrained environment we have other means of getting in and 
doing useful things. And we think it is a pretty smart way to 
do business. I might say that there are 3 programs that we are 
doing this in. The humanitarian demining is one of them, the 
counter drug program where we are using MFP 11 money to do 
counter drug types of training missions, and then there is the 
ACRI, which again, is a State Department program. It puts our 
Special Forces operators into their target countries, gives 
them cultural awareness, gives them knowledge of the local 
surroundings, and improves their language capabilities as they 
deal with the people, and so that is really what it is about.
    Mr. Young. Okay. Are there other quick questions for this 
part of the hearing?

                           EMPLOYER'S SUPPORT

    Mr. Nethercutt. Just one quick question, Mr. Chairman.
    Gentlemen, I have a question regarding the civilian 
employers of Guard and Reserve members. Do you sense that the 
employers who are supporting the Guard and Reserve part of the 
Special Forces are tolerant with these deployments, or are they 
impatient? Is there something we should do relative to meeting 
their needs so that they can help you all meet yours?
    General Schoomaker. Do you want to answer any part of that? 
Because I have an opinion on it, and you can answer it.
    Major Weller. Again, like I said before, sir, we are in 
close contact with the employers. Their commander personnally 
calls and writes them letters, explains again how their support 
to us helps us support Special Operations.
    General Schoomaker. My response would be there is no 
standard answer. There are fits and starts, but I think in 
general we are extremely well supported. We have to make sure 
that we communicate to the employers and that we do things that 
make them feel good about their employees doing it.
    Now, what we are doing, for instance, with the PSRC, the 
Presidential Selective Reserve Callup, that is for 270 days, we 
are asking somebody to leave their employment. Of course, this 
is--when you go to PSRC, this is not voluntary, so it throws 
certain things in there that help tell the story to the 
employer. It is not like the employee is volunteering to leave 
work to go off to Africa, but it is something that we need to 
continue to work.
    I will tell you, with 30 percent of our force in the Guard 
and Reserve, this is a very, very important piece of this 
force. What is unique about USSOCOM, when Congress initiated 
USSOCOM--USSOCOM is the only place that the Guard and Reserve, 
or actually the Reserves, are assigned to me. This is different 
than anywhere else. Of course, the Guard is assigned to the 
governor until federalized, but when they are federalized they 
come to me. So it is a very unique relationship found nowhere 
else.
    I have to tell you that if it wasn't for our Reserve 
components, we would not be able to fulfill our civil affairs 
mission, for instance, where we are using real people that run 
fire stations, policemen, lawyers, and judges. You can't 
maintain those skills on active duty. That is why 24 of our 25 
civil affairs battalions are in the Reserve component, and it 
is necessary for us to maintain that.
    Mr. Nethercutt. My sense is that we need to be careful 
about not having the employers lose faith. They can only do 
without employees for so long, so I think there is a need to be 
sensitive to their needs.
    General Schoomaker. The rule is we will never go back to 
the same person twice for the same contingency.
    Mr. Nethercutt. I see.
    Mr. Young. Mr. Cunningham.

           SURVIVAL, ESCAPE, RESIST AND EVADE (SERE) TRAINING

    Mr. Cunningham. Thank you. Mr. Chairman.
    In the SERE school, 9 days of SERE can become very 
realistic, cold. I had a my jaw cracked in SERE school in 
Warner Springs. But have you had to make any changes with women 
in the military going through SERE school as far as any 
specific training?
    Captain Hubbard. I know I had a female in my class. There 
are certain things that they remove them, from not like lesser 
training, but what I am saying there are certain times when 
they were issuing their pajamas or something like that. 
Obviously, all the guys in one group get their pajamas issued.
    Mr. Cunningham. I am talking about specific training or 
maybe problems that they would enter versus, you know, a male 
that was taken prisoner or special ops.
    Captain Hubbard. That is exactly the same; exactly thesame.
    Mr. Cunningham. Exactly the same, okay.
    It is interesting that all of you speak French. They have a 
socialist-communist government over there in France. You may 
need that more than you really know.
    One of the other things that I found that was interesting 
was that in your broadcast in Bosnia, I come from a different 
mind. The Serbians, if you don't know history, fought with the 
United States as an ally, the Muslims fought with Nazi Germany 
during that time period. But was any of your radio broadcast--
maybe this is not the place to do it. We may have to wait until 
the later session, but maybe you can answer it later, 
General.------.
    Mr. Young. Maybe you might want to pursue that when we go 
into a different level of classification.

                    FISCAL YEAR 1999 BUDGET REQUEST

    Mr. Cunningham. Yes, sir. I say I will delay that.
    Mr. Young. Okay. Any other quick questions for this part of 
the hearing? If not, we will go into the regular 5-minute 
section, and I am going to use about 2 minutes of my 5 minutes 
right away, because I have to ask this question.
    General, your budget is handled differently than the other 
services. Your budget request for fiscal year 1999 is 
$506,260,000.
    General Schoomaker. That is for procurement, I believe.
    Mr. Young. That is $130,879,000 below the 1998 appropriated 
level for the same procurement. Two years ago your predecessor 
said that an appropriate level of procurement funding would be 
at $700 million per year to ensure the fielding of critically 
needed weapons systems. Now we are $130 million below that, 
just below last year's level. Where do we stand? Are we going 
to be able to do what you have to do?
    General Schoomaker. We are doing what we have to do. Of 
course my predecessor is still my boss, you know, General 
Shelton, so obviously he is exactly right. Actually, I think 
there are two answers to this. One of them is there have been 
some things that work in 1999, and DIRCM is a good example, 
what is it $60 million that we have had to push. That is the 
joint program that we have with the U.K. on the IR 
countermeasures that they are going to go on SOF airplanes. 
There are some things like that that we have moved. But I think 
that the thing that we have to look at is what we are 
leveraging off of other services. So our big programs like the 
CV-22 and ASDS are being managed by the Services, and in the 
case of the CV-22, 85 percent of the cost is being borne by the 
Navy and the Air Force. So in fact, we are reaping the directed 
benefit of an additional $2 to $500 million, depending on which 
year you look at across the FYDP; it goes on top of what you 
are talking about.
    So I think obviously we could use more money very well. But 
the truth of the matter is, right now we are putting about 20 
to 24 percent away into modernization and I think that is about 
right in terms of percentage.
    Mr. Young. If you had your druthers, though, would you go 
to the $700 million?
    General Schoomaker. Well, of course.
    Mr. Young. If you had the $700 million, what would you be 
procuring that you are not going to be able to procure with 
this budget?
    General Schoomaker. Well, I think there are several things, 
and I probably ought to provide you something for the record, 
you know, with specifics in it if it would be okay.
    Mr. Young. Also, you might indicate if any of your programs 
that are ongoing, if you are having to slip any of them in 
order to stay within this budget.
    General Schoomaker. We are slipping more out of necessity 
because of the program as opposed to the slipping as a result 
of the financial problem. But I can provide you with a long 
list of things that you know, given an unlimited pile of money 
that we would pursue, and quite frankly, I think, you know, 
maybe some of this ought to go to a later piece of the session 
here, but there are some things we are calling flagship 
capabilities, many of which are advanced technology that we 
certainly would be pursuing, would pursue with more money.

                         UNFUNDED REQUIREMENTS

    Mr. Young. General, in previous years, we have had extra 
money over and above the President's budget request. This year, 
unless some miracle happens, we are not going to have any extra 
money, but we will squeeze as much as we can to do the best we 
can to provide what you need, because we understand the 
importance of your missions.
    I have a lot more questions. I am going to give you some in 
writing and ask you to respond, but to try to stay within the 
time constraints and get to the next part of our hearing.
    [The information follows:]

    The following chart displays USSOCOM's unfunded requirements (UFR) 
for Fiscal Year 1999. Dollars are shown in millions.

----------------------------------------------------------------------------------------------------------------
                Priority and UFR                        O&M            Proc            RDT&E           Total
----------------------------------------------------------------------------------------------------------------
1  COUNTERPROLIFERATION/WMD.....................           $7.65           $5.09           $7.81          $20.55
2  ADVANCED SEAL DELIVERY SYSTEM................  ..............  ..............            9.70            9.70
3  SAP..........................................  ..............  ..............            1.07            1.07
4  SPEAR-BALCS..................................  ..............            4.30            0.50            4.80
5  LANGUAGE TRAINING............................            1.60  ..............  ..............            1.60
6  MH-47E.......................................  ..............           41.50  ..............           41.50
7  SPECIAL RECONNAISSANCE.......................  ..............  ..............           25.00           25.00
8  SILENT SHIELD................................  ..............            5.00  ..............            5.00
9  M4A1 MODS....................................  ..............            2.47  ..............            2.47
10  RAMS........................................  ..............            6.00  ..............            6.00
11  AC-130 LOW LIGHT LEVEL TV...................  ..............            2.36  ..............            2.36
12  SYMPATHETIC DETONATOR.......................  ..............  ..............            2.00            2.00
 
      Total.....................................           $9.25          $66.72          $46.08         $122.05
----------------------------------------------------------------------------------------------------------------

    Mr. Young. Mr. Murtha.

                          RULES OF ENGAGEMENT

    Mr. Murtha. Any problems in these deployments with your 
rules of engagement?
    General Schoomaker. I would say no. Let me just ask, are 
there any problems from what you have experienced? No.
    I will tell you, in the past we have had problems, and the 
problems are very conservative kinds of attitudes in terms of 
what level of risk we should take. I will tell you now that for 
special operators to do their job we must accept some risk, and 
we are not going to be able to go out and engage at the level 
that we are and make the difference that we are making if we 
are doing it from a foxhole peering out through a slit. So if 
you take a look at where we are in places like Sri Lanka where 
there is a significant threat, in places like Bosnia where we 
have Joint Commission Observers, JCOs, little teams living in 
the villages, basically unarmed, living amongst the factions, 
we cannot be effective without that level.
    And quite frankly we fared very well. You remember from 
Haiti we had one Special Forces soldier shot. You might 
remember we had a JCO here in the last year that was stabbed up 
in Bosnia. But on the whole we have done pretty well because we 
train to the rigid awareness, you know force protection, threat 
awareness, situational awareness kinds of things, and then we 
back that up with rules of engagement that allow us to defend 
ourself and to take whatever action is necessary to preserve 
the force.

                      SOF FORCES SELECTION PROCESS

    Mr. Murtha. How do you select the members of the Special 
Forces?
    General Schoomaker. Each piece of our special operation 
force has a different kind of selection program. I can talk to 
some of the compartmented areas later if you're interested, but 
Special Forces and SEALs, for instance, are good examples. The 
SEALs have their Basic Underwater Demolition School (BUDS) out 
in Coronado. They have a very high attrition rate in that. I 
would say, 70 to 80 percent.
    Here, we've got it; 70 percent.
    Mr. Murtha. 70, 80 percent per year?
    General Schoomaker. Attrition, 30 percent pass out of 
each----
    Mr. Murtha. I see, in the school itself.
    General Schoomaker. This is for the Navy SEALs, and BUDS, 
30 percent pass. They go from there into more advanced training 
where 80 percent of that 30 percent pass.
    So what we're really saying is from the original population 
I guess that would be 24 percent. In the Army Special Forces 
now you're dealing with a little more mature soldier because 
you're bringing NCO's across now that have already had some 
time under their belt in the Army. Through the Special Forces 
assessment selection 45 percent pass muster through that 
assessment and selection 80 percent of those pass the 
qualification.
    Mr. Murtha. Well, what I'm asking though, the initial 
selection process, are they all volunteers?
    General Schoomaker. All volunteer. Our entire force is all 
volunteer; there's nobody that's not.
    Mr. Murtha. And anybody can apply or you look for language 
specialists, demolition specialists and so forth, just depends 
on what you need, and then you take the volunteers that fit 
that criteria; is that the idea?
    General Schoomaker. Obviously we're looking for people with 
special skills and characteristics, but in general what we're 
looking for are volunteers that say, yes, I want to be a SEAL, 
I want to be a Special Forces Soldier, I want to be a Ranger, 
and then they go through the process, and what we are looking 
for are those people that are trainable. So it's intelligence 
assessment, a psychological assessment, a physical assessment, 
and then a socialization assessment where we determine whether 
or not they are trainable, and once they pass through that 
assessment selection they then go through the training, and of 
course there is some attrition, but there's a much higher 
success rate there. But when they graduate out the other end in 
Special Forces for instance, they must have a basic language 
skill.
    And so there is a 2-year investment in these folks just to 
get them basically qualified to start being an effective member 
of a team.

                             SOF RETENTION

    Mr. Murtha. Can you see any difference in the last 10 years 
in the number of people that are reinlisting in special 
operations?
    General Schoomaker. I don't know about the last 10 years, 
but I can tell you that in our special operations forces in 
general our retention in the enlisted ranks leads all of the 
services. We do very well there.
    Now we have some anecdotal problems, you know the SEAL 
lieutenants for instance we're having some problem retaining 
them in the numbers that----
    Mr. Murtha. What I'm driving at is the rate or tempo of 
operations hasn't made any difference. I keep looking for 
weaknesses that are going to come about because people have 
been deployed so much, and Bosnia, another possible story. Have 
special operations people been divorced four times, been 
divorced three times and married four times. But you're able to 
retain them. The deployment or tempo of operation has not made 
a difference in your ability to retain.
    General Schoomaker. It has made a difference for some 
people, but in general what it has done is made a difference in 
a positive way. The people who join special operations want to 
do things, and one of the most common things I get from the 
SEALs is you know we're not killing enough people, you know 
we're not going out and doing those kinds of things, we're 
doing too much, some of what you've heard here, ``handing out 
the cup cake kinds of things,'' and that's not what people come 
in to be a SEAL for.
    Special Forces, it's the same thing. I've explained that 
obviously we're teachers, but we're also warriors, and so these 
people, the very best people we get, are coming in here to do 
the kinds of things that they think Special Forces should do.
    So in general it's a positive trend. In the Reserves, I can 
promise you that we looked very hard at what the impact of 
these deployments to Bosnia were, and the good news is that our 
retention is pretty good as a result of people that are 
actually coming to the reserve units that are being used.
    So I hope that's not kind of talking out both sides of my 
mouth. I think that we're on a positive trend there with some, 
like I said, anecdotal problems, some isolated kinds of 
problems.
    The important thing is that these assessment selection 
programs are very important, and one of the things that is most 
important is we have got to make sure that we're also getting 
people that have the right kind of values, the core values, and 
so we look very hard.

                           SOMALIA REVISITED

    Mr. Murtha. One of the most courageous acts I've seen was 
in Somalia where your commander took full responsibility, gave 
me a handwritten letter to give to the President, and he said I 
didn't need more tanks, I didn't need more this, I take full 
responsibility. His career was gone because of that, but I was 
really impressed by the fact that he took the responsibility 
for what happened. I've always been impressed by that.
    General Schoomaker. I know who it is you're talking about, 
and he's a very good friend of mine, and that's the kind of 
person he is. And I will tell you that in the business we're in 
you've got to understand the psychology of a fist fight. You 
know this is not something that you're going to be able to do 
from the sidelines, and so we are going to run in the future 
into heaven casualties if we're doing our job.
    Mr. Young. Mr. Lewis.
    Mr. Lewis. Mr. Chairman, I do not want to have my lack of 
questions at this point reflected any lack of interest in the 
work of these gentleman. The work of our special operations 
forces is very important, and insofar as I'm concerned 
significant to the national defense as any we have. I need to 
go to another session however, and so I yield back my time.
    Mr. Young. Mr. Sabo? Mr. Nethercutt?

                             SEAL RETENTION

    Mr. Nethercutt. Thanks, Mr. Chairman. Quickly, General, I'm 
interested in your comments about SEAL qualified lieutenants. 
Your statement indicates that you have a significant retention 
problem. To what you do you attribute that? What are you doing 
to make sure you do retain these people in the future?
    General Schoomaker. Well, first of all, we're very 
concerned about it and we're working it very hard. We are 
running, not only engaging RAND Corporation and running of a 
very indepth study of the whole thing, but we're also our own 
internal OPTEMPO survey and should have the results of that in 
April. So we are looking at it.
    As I travel, and I mentioned to somebody here I only spent 
2 days at home last months you know because I'm trying to get 
around to everybody. I asked these people this and the answers 
are all over the board. Everybody says, you know, it's not 
money yet. We need the money, but money is not going to solve 
the problem. The problem that we need to make sure we address 
is they've got to be doing meaningful things; that's what they 
come in for.
    Unfortunately, part of the problem is there that are some 
people that come in with no intention, I mean of staying. They 
come in because they want to be a SEAL and they want to do it 
for 4, 5 years, and then they want to go back to Harvard 
Business School and they want to be successful, and they want 
to be able to put SEAL on their resume. And you know that's a 
fact. And there are others that quite frankly--you know the 
OPTEMPO effect.
    So it's all over the place. We're taking it very seriously, 
and we're working on it.

                       YEAR 2000 COMPUTER PROBLEM

    Mr. Nethercutt. Let me just ask you a little different 
subject but it also addresses to your readiness, the year 2000 
computer problem. To what extent are you addressing that in 
your command and what are the consequences if we're not ready? 
I assume we will be ready.
    General Schoomaker. We are going to be ready on that. We're 
taking it very seriously. We're putting about $11 million 
against it this year. We are very dependent upon technology, as 
you know, and I'll tell you that in our special operations 
helicopters for instance there are more line of computer code 
in those than there are in the space shuttle. It's the most 
advanced systems that are flying right now, and they're very 
dependent upon making sure that we do solve these kinds of 
problems.
    So we're working at it very hard.
    Mr. Nethercutt. Do you have plans to conduct some exercises 
that will test your preparedness or readiness for the Y2K 
problem?
    General Schoomaker. We are doing some of that, but I've 
heard the notion that we need a major exercise to kind of sort 
this out. The fact of the matter is we're not ready yet to do 
that because we're fixing the problems. But I think at some 
point in time it makes some sense to run, and of course we run 
a lot of this simulation and CPX kinds of things and that's 
basically what we have to do.
    So I'm generally supportive, but now is not the time. It's 
too early.
    Mr. Nethercutt. You feel confident you'll be ready.
    General Schoomaker. I'm told, you know I'm into this pretty 
heavy because I really do believe it's our future, but I am 
told that we have confidence that we're going to do all right.
    Now we are also very dependent on some much bigger systems 
out there, I don't really know how well we're doing here in the 
main frame, in the big architecture. But in our business I can 
tell you that we are moving pretty smartly on this.
    Mr. Nethercutt. Have you a target date for the change over, 
or is that decided yet?
    General Schoomaker. I don't know the answer to that 
question, and I'd have to----
    Mr. Nethercutt. All right, sir.
    General Schoomaker. I'd be glad to look into it and give it 
to you on the record.
    Mr. Nethercutt. I think the Committee might appreciate 
having some timetable expectation if there is one. It would be 
helpful to us to have a sense that you know when it's going to 
be operational.
    General Schoomaker. All right sir.
    [The information follows:]

    The United States Special Operations Command's (USSOCOM) 
target date to have our mission critical information technology 
(IT) systems Year 2000 compliant is March 1999. As IT systems 
are certified, we intend to systematically integrate them into 
the USSOCOM enterprise. The time remaining until December 31, 
1999, will allow us to continue to test USSOCOM's mission 
critical IT systems against our support systems and be prepared 
for ``hiccups'' or any possible system failure.

                      DEPLOYMENT IMPACTS ON FAMILY

    Mr. Nethercutt. Just one final question if I may with 
regard to the soldiers here today. Are your families all right 
with your service and, you know, everything all right basically 
on the home front as far as you all are concerned. Do you see 
anything in the--among your colleagues or your fellow soldiers 
that give you concern about the family side of your service?
    Commander Bosiljevac. I've been married 23 years, sir, and 
I'm blessed, I've got a good family. But there are daily 
problems that you have to deal with. I'm in a command position 
right now, 230-man unit, and you definitely have to take care 
of family problems up front. You have to be very--you have to 
pay particular attention to details on that side just as much 
as your regular responsibilities.
    Major Bailey. Last year I was deployed 262 days, sir. My 
wife had full access to the checking account, and she was 
thrilled.
    Mr. Nethercutt. That's good testimony, sir. Thank you. That 
says a lot. Thank you all very much for your service and your 
testimony.
    Mr. Young. Mr. Visclosky.

                        SOF SUBMARINE PLATFORMS

    Mr. Visclosky. Thank you Mr. Chairman.
    General, does the Special Operations Command intend to 
replace the King Kamehameha?
    Should I withdraw my question?
    General Schoomaker. No, let me see how I can answer.
    The Kamehameha's has been extended, the service life has 
been extended. We are in the throes right now of looking at a 
couple of alternatives on whether the Los Angeles class boats 
are going to do the job, you know what other kinds of 
alternatives we're going to come up with.
    So I probably would need to give you a better answer than 
that and get the right people to look at it, but I think right 
now--in fact I was just on the Kamehameha here two weeks ago, 
and it's in good shape, and it is being well used. But I don't 
think it's affordable, to be honest with you.
    Mr. Visclosky. That ship.
    General Schoomaker. No, no, to replace it. You know, unless 
we come up with--there are some options that we have that may 
make it affordable, you know in terms of what we do, but it's a 
concern for us in terms of getting into something you know 
that--of that magnitude.
    Mr. Visclosky. You are going to have four excess Tridents 
soon--is that one of the options you're looking at?
    General Schoomaker. One of the options is Trident.
    Mr. Visclosky. Would that potentially be affordable for 
you?
    Mr. Schoomaker. Well, the problem is we've got to work very 
hard. It may look nice up front but when it comes time to 
refuel that thing it may be a different story, and so we really 
need to be careful about what piece of this we get into.
    But I had a brief conversation with Jay Johnson, Admiral 
Johnson, on this, and of course he's looking very carefully at 
it.
    There are some other problems too, and that is in the arms 
limitations treaties and things in terms of what he can keep 
and how all this is going to work. So it's not a simple 
problem.

                     ADVANCED SEAL DELIVERY SYSTEM

    Mr. Visclosky. From my perspective you have a serious 
problem as far as getting people in, getting people out and the 
affordability of any system you design.
    So I think all of us would want to be helpful on that.
    General Schoomaker. I will be glad to look into it and give 
you more detail on that, but of course you know another piece 
of this equation is how many ASDSs we're going to buy.
    Mr. Visclosky. I appreciate what you do for a living, and 
Commander, I'm dying to know what nationality you are.
    Commander Bosiljevac. Croatian and Polish, sir.
    [The information follows:]

    As far as the numbers of Trident, this would be more appropriately 
answered by the Chief of Naval Operations, Admiral Johnson. However, as 
far as an option we are looking at, as long as the Trident is 
available, the answer is yes. The Trident submarine could replace 
existing submarine capabilities that are reaching the end of service 
life.
    The Trident provides a very high end capability for special 
operations forces (SOF). Its capability for enhanced support to SOF far 
exceeds any current or planned SSN capability for SOF. The ability to 
host 66 personnel for 90 days, with the personnel having dedicated 
berthing, mission planning areas, and exercise equipment supersedes any 
current converted SSN. This allows SOF to maintain a clandestine 
presence near a crisis point for a longer period than they can aboard a 
smaller attack submarine. Wet tube storage will provide a means for the 
storage of various equipment that will be accessible to divers locking 
out of the Dry Deck Shelter or 9-man lock-out chamber. Communications 
suite will be compatible with Very Low Frequency, Low Frequency, High 
Frequency, and Satellite Communications. The strike missile system in 
particular may be able to provide on-call, high volume, weapon delivery 
capability to SOF operations. This type of platform has broad 
applications for SOF. After refueling, the Trident serves as a long-
term investment for the Navy and USSOCOM due to its expected 20-year 
life after the conversion.
    The costs associated with converting two Tridents for Strike/SOF's 
use is approximately $977 million. The Navy has stated that the USSOCOM 
fair share of the conversion would be about $160 million. This amount 
exceeds any other previously funded SOF submarine conversion costs. 
USSOCOM's current Total Obligation Authority (TOA) would not afford the 
opportunity to achieve this 21st Century capability.

    Mr. Young. Mr. Cunningham.

                       REMARKS OF MR. CUNNINGHAM

    Mr. Cunningham. General, are you any relation to Steve 
Shoemaker with the Blue Angels?
    General Schoomaker. No, I'm not.
    Mr. Cunningham. Not at all. Okay, thank you.
    First of all--Navy guy, I understand.
    You know I'd like to tell you that, like the Chairman said, 
and it's not just words, I think you know that we're proud of 
each and every one of you and that we may joke about football 
or Air force or other things, but everybody on both sides of 
the aisle in this body is in full support of you and want to 
try and help you do, you know, the things that you need to do 
and finance you, which in my opinion is way below what it 
should be. It saddens us, but just think in your own mind how 
many of you thought about the difficulties that you have gone 
through whether it's the family, the OPTEMPO, the family 
separation, the lack of equipment, the things that--I know when 
I was in the service I thought of getting out sometimes, and 
quite often the benefits of staying in, the family and the 
security kept me in, but as those things erode that's what this 
Committee is trying to help, and our hands are tied a little 
bit. There's many of us feel that the emergency supplemental 
bill cannot be taken out of DOD. When you got a budget as low 
as 1950, you just can't survive and keep doing the things. I 
came here about 7 years ago, and the testimony before our 
Committee, I was previously on the authorization side, was the 
military nearing a hollow force. I don't know what it takes to 
get there after 7 years of continual cuts and increase in 
OPTEMPO and everything, but I understand where you have to come 
from, General. But we're trying to help as much as we can, and 
I think one of the things since the--I think the President said 
he wants an emergency supplemental to help that's not taken out 
of DOD. I don't know where he's going to pay for it, but we 
support that.
    I differ a little bit from my good friend, Jack Murtha, who 
is my very good friend, maybe not differ but maybe a difference 
of opinion. I don't think in Somalia that you can change from a 
humanitarian mission to going after General Aideed and at the 
same time draw down your forces so weak and make yourself 
vulnerable to the potential enemy and then deny armor on 3 
different occasions that they didn't need armor or that it was 
the General's--I'm not saying that Jack thought it was the 
General's fault. I think he's very supportive of that. But I 
think there was a lot of extenuating circumstances there in 
which this government put your troops in that I hope we never 
have to do from putting--in another administration, putting 
Marines in a place and allow them to be shelled on the coast 
without being able to attack. I mean it's both sides of the 
aisle on this thing.
    But we're proud of you, and we'll do everything we can to 
help you, and I want to congratulate the young men and the 
young women under your command. Thank you.
    General Schoomaker. Thank you very much.
    Mr. Young. The Committee will recess now and reconvene 
shortly in an executive session with the witness. This part of 
the hearing is adjourned.
    [Clerk's note.--Questions submitted by Mr. Young and the 
answers thereto follow:]

                            Personnel Tempo

    Question. Personnel tempo is defined as the time an individual is 
deployed from home port or station. What is the average monthly or 
annual deployment time, by component, of SOF personnel?
    Answer. Each of the Services have a slightly different 
interpretation and definition of personnel tempo which prompted USSOCOM 
to clarify the definition in order to bring continuity to the reporting 
of its components. USSOCOM defines a Deployed Duty Day (DDY) as any 
continuous 24-hour period during which one is conducting official 
duties requiring them to remain over night away from their permanent 
domicile. A DDY does not include garrison duty, leave, unauthorized 
absences, or medical Temporary Duty (TDY). Within this uniform context, 
USSOCOM's Fiscal Year 1997 component annual average personnel tempo is:
    Air Force Special Operations Command: 63 DDY per year.
    U.S. Army Special Operations Command: 79 DDY per year.
    Navy Special Warfare Command: 105 DDY per year.
    Question. How has this increased with more and more deployments in 
support of ``military operations other than war''?
    Answer. The annual deployment time by component, calculated in man-
years for fiscal year (FY) 1997 is

----------------------------------------------------------------------------------------------------------------
                  SOF Component                        Army            Navy            USAF            Total
----------------------------------------------------------------------------------------------------------------
Operations......................................            1281             539             596            2416
Training........................................            1344             492             354            2190
Other...........................................              96              25              24             145
                                                 ---------------------------------------------------------------
      Total man-years...........................            2721            1056             974            4751
----------------------------------------------------------------------------------------------------------------

    Total SOF Deployments are relatively constant, with only a 3.0 
percent increase between FY 1996 and FY 1997. FY 1996 was 4,613 man-
years and FY 1997 was 4,751 man-years.
    While the total deployments remain relatively constant--the 
specific activities change with requirements. For example, when the 3rd 
Special Forces Group was committed to operations in Haiti, they 
canceled participation in Joint Chiefs of Staff Exercises and Joint 
Combined Exchange Training. Similar changes have occurred in support of 
Bosnia.
    Question. What are the skill speciality areas in each service that 
are experiencing the high personnel tempo rates?
    Answer. Below are the Fiscal Year 1997 top five personnel skills 
experiencing high personnel tempo rates from each special operations 
component.

------------------------------------------------------------------------
                   Code                              Description
------------------------------------------------------------------------
                      Naval Special Warfare Command
 
849X......................................  SEAL Team Corpsman
5326......................................  SEAL Team Enlisted
1130......................................  SEAL Team Officer
5323......................................  SEAL Enlisted, Special
                                             Delivery Vehicle
1130......................................  SEAL Officer, Special
                                             Delivery Vehicle
 
                  Air Force Special Operations Command
 
X1T2X1....................................  Pararescue (Special Tactics
                                             Teams)
J1C2X1....................................  Combat Controller (Special
                                             Tactics Teams)
011S3E....................................  MC-130P Pilot
011S3B....................................  MH-60G Pilot
012S4J....................................  MC-130E Navigator
 
              United States Army Special Operations Command
 
39B.......................................  PSYOPS Officer
39C.......................................  Civil Affairs Officer
18D.......................................  SF Medic
25R.......................................  Visual Equip OP/Maint
18C.......................................  SF Engineer
------------------------------------------------------------------------

    Question. What actions have you pursued to reduce personnel tempo 
rates?
    Answer. We are working with the geographic CINCs and Services to 
reduce the OPTEMPO of our Navy SEALs and Air Force Special Tactics 
Teams. Recently, we managed to decrease the SEAL requirement in the 
Pacific by about 20 percent, and an initiative is now underway in the 
Southern Command to provide similar relief. The Special Tactics Teams' 
OPTEMPO problems are being alleviated by increasing recruiting efforts 
and by shifting some of their non-SOF functions and activities to the 
Air force. The Air Force is experiencing aircrew shortages and USSOCOM 
is linked to both the problem and the Air Force's solution.
    The solution for high tempo of our Civil Affairs (CA) units has 
already been demonstrated in Haiti and Bosnia. Access to our reserve 
component CA units will reduce active component OPTEMPO to a reasonable 
level. Since the reserve units have oft-needed expertise that is not 
found in the active force, access to these reserve forces becomes even 
more critical. Programming additional active forces is not the answer, 
in my estimation, because our younger active component officers and 
NCOs cannot replicate the skills and experience of the long-serving 
reservists.
    The Presidential Selective Reserve Call-up (PSRC) plays a critical 
role in accessing our reserve component assets, especially CA and 
Psychological Operations (PSYOP) units. This has proven important in 
Haiti and is essential to the conduct of CA activities in Bosnia. PSRC 
not only takes the pressure off the active component OPTEMPO, but also 
recognizes the value of the reservists' contribution and the U.S. 
government's commitment to the operation at hand. Finally, it relieves 
the pressure of civilian re-employment concerns once the deployment has 
concluded.
    That said, however, we must also guard against the equal threat of 
such heavy utilization of reserve forces that we affect the civilian 
occupations of our people. Our concern with over-utilizing the reserves 
is tempered by the fact that we currently have exhausted our allocation 
of the FY97 Temporary Tour of Active Duty accounts, the dollars needed 
to pay reservists salaries and allowances during those deployments. 
This of course puts pressure back on the active force.
    These readiness issues have the highest visibility in USSOCOM to 
ensure we do not ``break the force.''
    Question. Have you increased the use of Reserve component 
personnel? What capabilities, or skill specialties are in the Reserve 
components that cannot be found in the active forces?
    Answer. The United States Special Operations Command continues to 
rely heavily on the Reserve components, in particular the Army Reserve 
Civil Affairs (CA) units and to a lesser extent the Army Reserve 
Psychological Operations Units. The active component has limited assets 
available in these unique units with 97 percent of CA units and 85 
percent of Psychological Operations Units residing in the United States 
Army Reserve. The majority of the CA structure is in the Reserve 
Component because many of the skills needed to accomplish their 
missions are derived primarily from the Reservists' civilian employment 
and expertise. I would be infeasible to try to train or maintain these 
skills in the active component. Further, the Air National Guard and Air 
Reserve maintain high personnel tempo. The Commando SOLO aircraft 
provides a unique capability found only in the Air National Guard.
    Question. What percent of your commitments last year were in 
support of ``military operations other than war'' rather than part of 
your normal operations?
    Answer. Fiscal year 1997 saw support of ``military operations other 
than war'' at 50 percent of our total man-day deployments. Operations 
were all operational deployments and include JOINT GUARD, NORTHERN 
WATCH, SOUTHERN WATCH, DESERT THUNDER, Joint Task Force (JTF)-SWA, SAFE 
BORDER, JTF-BRAVO. JTF-Full Accounting, US Support Group Haiti, 
Humanitarian Demining missions, Counter Drug missions, Naval Special 
Warfare personnel afloat, Noncombatant Evacuation Operations, and 
humanitarian missions (Kenya Assessment, C-141 SAR, etc.). Training 
utilized 47 percent of SOF deployment man-days. Training includes Joint 
Chiefs of Staff Exercises, Joint and Combined Exercises and Training, 
unit training, and individual training/schools. ``Other'' was 3 percent 
of SOF deployment man-days. Other deployments include conferences, 
command visits, and predeployment site surveys.
    Question. Of your worldwide deployments last year, what was the 
peak number of personnel, countries, and missions supported with SOF 
forces?
    Answer. During fiscal year 1997, the peak week for SOF deployments 
was 6,780 personnel deployed to 85 countries, while conducting 520 
missions.

                            Personnel Issues

    Question. What is your fiscal year 1999 budget request and funded 
end strength for SOF personnel? How does this compare to fiscal year 
1998?
    Answer. The fiscal year 1999 SOF end strength is budgeted for 
46,134 military and civilians, compared to 46,107 in fiscal year 1998. 
This minor difference is due to programmed increases in support of our 
Advanced SEAL Delivery System.
    Question. Please give the Committee an overview of the size of your 
forces. What is the mix of active, Reserve, and civilian end strength, 
and what percent do they represent of your total force? Have your 
forces remained relatively stable?
    Answer. Fiscal year 1999's SOF end strength is 46,134 military and 
civilian. Of this number, 64 percent are active military, 30 percent 
are Reserve and National Guard, and the remaining 6 percent are 
civilian. This resources HQ USSOCOM, six theater Special Operations 
Commands, the three Service components and the Joint Special Operations 
Command. Over the past several years, SOF force structure and end 
strength has remained relatively stable. Adjustments have primarily 
been made to accommodate fielding of modernized equipment such as the 
MK-V Special Operations Craft and Patrol Coastal ships.
    Question. At what percent are SOF units resourced for personnel and 
equipment? Are you experiencing any manpower shortages in either active 
duty or Reserve units?
    Answer. Resourcing for personnel and equipment in special 
operations units is programmed and budgeted at 100 percent of 
authorizations. The one exception to this is the Reserve Civil Affairs 
(CA) which are resourced at 90 percent of required personnel. This is a 
legacy from the original cross-walk of funding from the Army. However, 
resourcing at 90 percent has not proven to be a significant detriment 
to operational capability, as additional regional CINC Civil Affairs 
support teams have been resourced in the Reserves.
    Generally, SOF enjoy high retention rates, both officer and 
enlisted, in comparison to Service averages. Where SOF was below the 
Service average, it was often due to the small number of SOF personnel 
in a category which skews the percentage rate either high or low. 
However, we are experiencing shortfalls in some Navy and Air Force 
specialties. An increase in resignations of Navy SEAL lieutenants has 
compounded a mid-grade officer shortage first identified in fiscal year 
1996.
    Recruiting shortfalls in the Air Force Combat Controller and 
Pararescue career fields aggravates the current low inventory in these 
specialties. The low inventory contributes to high deployment rates, 
which in turn affects retention.
    The Services and USSOCOM are working aggressively to address these 
issues.
    USSOCOM units are adequately resourced with equipment overall. 
There are some impacts being noticed by our AFSOC component due to Air 
Force, Joint Staff, and OSD on these issues. We are making progress in 
fielding our SOF unique equipment systems and are working within the 
budget resource constraints that have been provided. Difficult trade-
off decisions have been made as we move toward the 21st Century.
    Question. SOCOM identifies and coordinates with the military 
Services on special pay initiatives. Is there any new pay initiatives 
for SOF forces in the military personnel budgets for fiscal year 1999? 
Provide for the record a list of your common special and incentive pays 
(i.e., selective reenlistment bonus, aviation continuation pay, 
hazardous duty incentive pay) and the amount budgeted for each in 
fiscal year 1999 for SOF forces.
    Answer. There are no new pay initiatives for SOF forces in the 
military personnel budgets for fiscal year 1999.
    The common special pays for SOF are: selective reenlistment bonus; 
special duty assignment pay; hazardous duty incentive pays for 
parachute; dive, and demolition; foreign language proficiency; hostile 
fire/imminent danger; and aviation continuation pay.
    During the annual budget preparation, USSOCOM and the Services use 
Service-developed aggregate pay factors to program/budget for military 
personnel (MILPERS). The pay factor includes basic pay, allowances, 
special pays, etc. Although USSOCOM uses its Major Force Program (MFP)-
11 total obligation authority to POM for MILPERS, the Services are 
responsible for MILPERS budgeting. Military pay is not appropriated in 
MFP-11; it is appropriated directly to the Services without a specific 
MFP or budget activity identity. Once appropriated by Congress, the 
Services control and execute MILPERS including special pays for USSOCOM 
personnel.
    Question. Do you have any unfunded shortfalls related to your 
fiscal year 1999 personnel request?
    Answer. For fiscal year 1999, there were no unfunded personnel 
requirement shortfalls. Any additional personnel requirements 
determined to be valid in fiscal year 1999 were funded internally to 
USSOCOM. However, with the continued increase in the operational and 
personnel tempo, personnel requirement could increase in the future.
    Question. Are you experiencing any recruiting and retention 
problems? What is the average retention rate of officers and enlisted, 
by Service?
    Answer. Generally, Special Operations Forces (SOF) enjoy high 
retention rates, for both officer and enlisted, in comparison to 
Service averages. Where SOF was below the Service average, often it was 
due to the small number of SOF personnel in a category which may skew 
the percentage rate either high or low.
    We are experiencing some shortfalls in several Service 
specialities. A significant increase in resignation of Navy SEAL 
Lieutenants compounds a mid-grade officer shortage identified in Fiscal 
Year 1996. Retention of junior officers must be returned to previous 
levels if we are to rebuild required inventories of more senior 
officers.
    Recruiting shortfalls in the Air Force Combat Controller and 
Pararescue career fields aggravates the current low inventory in these 
specialities. The low inventory contributes to high deployment rates, 
which in turn affects retention.
    The Services and USSOCOM are working aggressively to address both 
issues.

                    Assessment and Selection Process

    Question. The assessment and selection process for Special 
Operations Forces is among the most thorough and exhaustive of any 
military organization in the world. Can you give us a brief synopsis of 
the assessment and selection process for each type of specialty the 
Command has?
    Answer. Army Special Forces soldiers are recruited from both 
officers and enlisted members serving in the Army. The Special Forces 
Assessment and Selection (SFAS) course is 23 days. After successful 
completion of SFAS, personnel then attend the Special Forces 
Qualification Course (SFOC), which takes between 48-85 weeks to 
complete, depending on the specialty.
    Navy members may enter the SEAL training pipeline by direct 
accession or lateral transfer from the fleet. Enlisted recruits and 
lateral transfers may attend a one week Basic Underwater Demolition/
SEAL (BUD/S) screening course at the Recruit Training Center Great 
Lakes, Michigan. Once accepted for attendance at BUD/S, members may 
receive 4-6 weeks of physical fitness training and indoctrination prior 
to commencing the actual BUD/S course. Officers and enlisted attend the 
same six month BUD/S course and three weeks of Basic Airborne Training. 
Additional rate training may be provided depending on the members 
source rating.
    Air Force members enter Combat Control Team (CCT) or Pararescue 
(PJ) training by direct accession or from cross-training from other Air 
Force career areas. Upon successful completion of a 10-week 
indoctrination course, an additional 45-62 weeks of training is 
provided depending on the specialty.
    Question. What are the attrition rates for each specialty?
    Answer. Approximately 45 percent of those who attend the Army's 
Special Forces Assessment and Selection course pass and continue on to 
the Special Forces Qualification course (SFQC). Of those who continue 
with SFQC, approximately 80 percent pass and are assigned to Special 
Forces units.
    Navy Basic Underwater Demolition/SEAL (BUD/S) attribution currently 
averages 70 percent.
    Air Force Combat Controller/Pararescue attrition currently averages 
85 percent from the indoctrination course. However, those who complete 
the course have a 95 percent success rate through the remainder of the 
training.
    Question. How are those troops who do not make it through the 
process treated when they are returned to their regular units?
    Answer. Special Operations Forces (SOF) training is recognized by 
the Services to be extremely demanding. Personnel who are unable to 
complete initial SOF training are reassigned by their Service without 
negative impact on their career.
    Question. Once a special operations force member makes it through 
the process, how long will he remain with the Special Operations unit 
to which he is assigned?
    Answer. Special Operations Forces (SOF) personnel remain assigned 
to SOF units for the remainder of their career. Tour lengths for 
individual assignments vary from 3-5 years.

            Civil Affairs and Psychological Operations Units

    Question. The active and Reserve Civil Affairs and Psychological 
(PSYOP) Operations units support contingency operations, JCS exercises, 
combat training center developments, disaster relief efforts and 
humanitarian programs. Most of these units reside largely in the 
Reserve Components. General, what are your active and Reserve and 
strength numbers for the Civil Affairs and PSYOP units, by Service?
    Answer. The Civil Affairs and PSYOP units are all in Army Special 
Operations Command, with the exception of the 193rd Special Operations 
Wing (SOW) and the 193rd Special Operations Squadron (SOS), which are 
in the Air National Guard. The 193rd SOW and 193rd SOS are manned at 
825 personnel and are also considered PSYOP units. Army Civil Affairs 
consist of 1 active battalion of 208 personnel and 3 Reserve Commands 
having 9 Brigades and 24 Battalions consisting of 4,928 personnel. Army 
PSYOP consists of 1 active PSYOP Group and 5 active Battalions with 
1,144 personnel. Reserve PSYOP consists of 2 Groups and 8 Battalions 
with 2,582 personnel.
    Question. Given the nature of their business, Civil Affairs and 
PSYOP units might be required to be in country for months prior to, 
during or after some military action. What is the average number of 
days active duty units are deployed during the year? What is the 
personnel tempo for the Reserve units? Do you consider this personnel 
tempo excessive? If so, what actions are you taking to solve this 
problem?
    Answer. USSOCOM has only one active duty Civil Affairs (CA) 
Battalion and one Psychological Operations (PSYOP) Group. Personnel 
from the 96th CA Battalion were deployed on average 93 days each during 
Fiscal Year (FY) 1997. Personnel from the 4th PSYOP Group were deployed 
on average 75 days each during FY 1997. The personnel tempo for the 
Reserves is not tracked by this command. Further it is difficult to 
quantify Reserve tempo because their availability should not be assumed 
and their use should be exercised judiciously. This personnel tempo, 
while high, is not considered excessive for the active forces as it 
does not exceed the USSOCOM threshold of 180 deployed duty days per 
year, nor the Global Military Force Policy on Low Density/High Demand 
thresholds.
    Question. If Civil Affairs and PSYOP units are in high demand for 
contingencies and other deployments, do you believe a redesign of the 
active/Reserve forces capabilities is needed? Are the capabilities of 
the active and Reserve units mixed correctly? How does Special 
Operations Command determine its needs in these areas?
    Answer. The organizational designs of both the Reserve Civil 
Affairs (CA) and PSYOP units are based on the operational capabilities 
the units are required to have during peace and war. The high demands 
for the units for contingencies and other deployments has minimal to no 
effect on required capabilities. Both unit types are continuously 
reviewed to determine exactly what capabilities they require. Most 
recently, PSYOP units have been redesigned to more readily capture the 
capabilities of Reserve and active personnel. Additionally, CA has been 
reorganized and reapportioned by the U.S. Army Special Operations 
Command based on the new Unified Command Plan. Future PSYOP redesigns 
will most likely be based on technological advances. Based on the 
DESERT STORM/DESERT SHIELD experience and peacetime engagement 
activities since, the active and Reserve unit mix and capabilities 
inherent in each appears to be about right for both Civil Affairs and 
PSYOP. The need for these types of units is determined through the 
USSOCOM Strategic Planning Process, which is capabilities based and 
examines force requirements generated by wargaming scenarios provided 
by defense planners.
    Question. Is standing up more units in the active forces an option 
to help relieve personnel tempo or adjust to changing priorities? How 
many years does it take to stand up a new unit and get the personnel 
trained?
    Answer. The standing up of more active units could only relieve the 
personnel tempo if personnel could be recruited and trained in 
sufficient quantities to fill these new units. Indications are, though, 
that this may not be possible considering the recruiting base is 
shrinking as the Services draw down. Also, some units are based on 
platforms and there are no additional platforms to stand up additional 
units. Further, specialty skills like those in civil affairs can only 
be found in the Reserves. The bottom line is that the mix between 
active and Reserve units provides the capabilities required and without 
a significant shift in the fiscal and personnel environment, standing 
up additional active units may not be possible. The time required to 
stand up a new unit varies depending on the type of unit, equipment 
required, and the level and type of training required. This time ranges 
from two years for a Civil Affairs active unit to four or five years 
for a Special Forces Group or Special Operations Aviation Squadron. SOF 
units cannot be rapidly assembled due to their complex training and 
specialized equipment requirements.
    Question. Given the continued operations in Bosnia, are you 
concerned about active and Reserve unit rotations and our ability to 
meet the mission requirements without having to call the same units 
twice?
    Answer. We are concerned about Civil Affairs (CA) and Psychological 
Operations (PSYOP) personnel in Army Reserve units if the force 
structure requirements for the low-density, high-demand personnel in 
these units are not reduced for the SFOR forward operating force. 
Currently, in accordance with draft Statement of Requirements (SOR) 11, 
SFOR is proposing a reduction of the U.S. PSYOP commitment to 
approximately 54 soldiers and the CA commitment to approximately 79. We 
think we can sustain this level of commitment with existing Contingency 
Operation Temporary Tour of Active Duty (COTTAD) authority that allows 
volunteers to serve repetitive tours. All of our CA and PSYOP units 
have mobilized personnel for deployment to Bosnia. Current SFOR 
estimates on the active component side is for a Special Forces company 
that we can sustain barring any other unforeseen contingency by 
rotation of forces.
    Question. If the Presidential Selected Reserve Call-up (PSRC) does 
not allow the Department to activate Reservists for a second 270 day 
tour for the Bosnia operation, do you have enough Reserve component 
assets to meet your projected requirements?
    Answer. Under current Statement of Requirements (SOR) levels, 
USSOCOM can support a sixth CA rotation with no significant problems. 
Beginning with a seventh rotation, some specific rank or skill 
requirements may become difficult to fill. Currently, the draft SOR 11 
will significantly reduce SOF CA requirements. If implemented, this 
will extend the number of rotations that can be supported under PSRC.

               Operating TEMPO (OPTEMPO) and Deployments

    Question. Special Operations Forces (SOF) deployments have 
increased at a dramatic pace since the Command was established 10 years 
ago. Can you give us a brief synopsis of major SOCOM deployments over 
the past two years, and what is the forecast for fiscal year 1999?
    Answer. During fiscal year 1996, SOF personnel supported operation 
UPHOLD DEMOCRACY (Haiti), Operation PACIFIC HAVEN (Guam), Operation 
SOUTHERN WATCH (Iraq), Operation ABLE SENTRY (Macedonia), Operation 
JOINT GUARD (Bosnia-Herzegovina), Operation NORTHERN WATCH/PROVIDE 
COMFORT (Northern Iraq), and Operation SAFE BORDER (Peru, Ecuador).
    During fiscal year 1997, SOF supported 17 operations. Specific 
details follow:
    1. Operation FIRM RESPONSE (Congo).------
    2. Operation NOBEL OBELISK (Sierra Leone). ------ initially 
deployed to Camp Benguema Training Center, Sierra Leone, for a Joint 
and Combined Exchange Training (JCET) (leadership) with host nation 
military personnel. During the period ---- instituted communications 
with SOCEUR & American Embassy, Freetown, established security at the 
embassy, planned and coordinated for a Non-combatant Evacuation 
Operation (NEO), conducted reconnaissance of potential hazardous 
landing zones, received the evacuation force, and provided security for 
the ambassador.
    3. Operation GUARDIAN ASSISTANCE (Rwanda). Beginning 14 November 
1996, the ------ deployed to the Great Lakes Region of Eastern Zaire in 
support of a multinational humanitarian intervention force to 
facilitate the delivery of humanitarian aid by civilian relief 
organizations and the voluntary repatriation of refugees or displaced 
persons from Zaire to Rwanda. CA and PSYOPS were instrumental in 
convincing the Rwandan refugees to return home and the AC-130 gunship 
was invaluable in locating and counting the numerous groups of refugees 
for the Combined Joint Task Force Commander (14 November through 14 
December 1996).
    4. Operation SILVER WAKE (Albania). ------ was originally in 
Albania to provide Military Liaison Team support to host nation 
military in order to develop and coordinate military-to-military 
contacts to encourage the democratic orientation of the Albanian 
military and defense establishments. When the security situation began 
to deteriorate in Albania, he reported to American Embassy Tirana and 
offered his assistance. ------ reviewed and assisted with the update of 
the Embassy Emergency Action Plan, confirmed the surveys of evacuation 
helicopter landing zones, marked the landing zones for the initial 
arrival of the evacuation force and acted as the ambassador's military 
advisor throughout the crisis. Throughout the evening and early morning 
hours of 12-13 March 97 continuous gunfire rocked the capital city of 
Tirana, Albania. The situation became critical when mobs raided and 
looted the country's noncommissioned officer's academy of weapons and 
ammunition less than a kilometer from the American Residential 
Compound. The Ambassador requested and received permission to conduct 
an ordered evacuation of all Americans from the country of Albania on 
13 Mar 97.
    5. Operation ASSURED LIFT (Liberia). A ------ personnel deployed 
French speaking Liaison Coordination Elements (LCE) to forward 
operating locations at Bamako, Mali, Abidjan, Ivory Coast, Accra, 
Ghana, and Roberts International Airport, Liberia. Each LCE coordinated 
and supported the marshaling, on-load and offload of host nation 
military personnel. These LCE assisted host nation militaries in Ghana, 
Mali, and Cote D'Ivore in rapidly moving critical military forces to 
Monrovia, Liberia, to reinforce ECOMG (Economic Community of West 
African States cease-fire Monitoring Group). In response to an outbreak 
of intense factional fighting in and around Monrovia, Liberia, during 
14 February to 7 March 1997, the U.S. agreed to provide immediate 
assistance in strengthening ECOMOG security around Monrovia.
    6. Operation HIGH FLIGHT (Namibia). On 13 September 1996, an U.S. 
Air Force C-141 and a German Air Force TU-154 collided and crashed off 
the coast of Namibia. Due to limited personnel and communications 
capability American Embassy Windhoek requested the assistance of ODA 
392, 3rd SFG, that had deployed to conduct training and provide 
logistics assistance in support of Namibian humanitarian demining 
operations. The SOF demining team, led by Captain Hubbard, played a key 
role in getting the information flowing and supporting the deployment 
of JTF HIGH FLIGHT. Additionally, SOCEUR deployed two MC-130 aircraft 
from 352nd SOG and a command element within hours of the reported loss 
to provide initial command of the Search and Rescue (SAR) JTF and begin 
personnel recovery operations.
    7. Operation NORTHERN WATCH (Northern Iraq). The ------ supported 
the U.S. effort in support of this operation to provide Combat SAR 
(CSAR) and helicopter refueling support from Turkey for the United 
Nations' sponsored No-Fly-Zone over Northern Iraq. For the period ----
-- SOF air assisted with the ongoing Operation NORTHERN WATCH at 
Incirlik Air Base, Turkey, due to lack ofsufficient, available, and 
capable convention air assets to perform the CSAR mission over Northern 
Iraq.
    8. Operation JOINT GUARD (Bosnia-Herzegovina). The ------ provided 
special operations, CA, and PSYOP in support of NATO stabilization 
Force to deter hostilities and promote a stable environment in Bosnia-
Herzegovina from 20 December 1996 to present in Bosnia-Herzegovina, 
Croatia, Italy, and Germany.
    9. Operation ABLE SENTRY (Macedonia). The ------ have provided 
smaller rotational elements attached to conventional forces in support 
of the United Nations mission in Skopje, Macedonia.
    10. Operation BEVEL EDGE (Cambodia). A Special Operations Command-
Pacific (COMSOCPAC) led JTF deployed to an intermediate staging base at 
Utapao, Thailand, 8-21 July 1997 to prepare to conduct a NEO of 
American citizens in Phnom Penh, Cambodia. The NEO did not take place 
as the situation stabilized. Participating units under ------ .
    11. Operation SOUTHERN WATCH (IRAQ). ------ with aircrews and 
maintenance support packages to Al Kharj, Saudi Arabia, on 4 October 
1996 at the conclusion of Operation Desert Strike expanding the no-fly 
zone. The ------ provided 24 hour refueling to HH60G helicopters 
supporting the CSAR mission for aircraft enforcing the no-fly zone over 
Iraq during the periods ------.
    12. Operation SOUTHERN WATCH (IRAQ). The ------ provide individual 
augmentation to CJTF Southwest Asia (SWA) in Saudi Arabia. ------ These 
billets are tasked as 179-day recurring rotations. As a result of the 
Khobar Towers bombing, and on the recommendation of the ``Downing 
Report,'' U.S. Central Command (USCENTCOM) requested individual 
augmentation to CJTF SWA staff to effectively plan, coordinate, and 
implement force protection initiatives in the USCENTCOM area of 
operations.
    13. Operation MARATHON PACIFIC (GTMO & Wake Island). USSOCOM 
deployed CA and PSYOP personnel in support of a CINC U.S. Atlantic 
Command (CINCUSACOM) mission to provide humanitarian assistance to 
Chinese migrants intercepted off the United States Eastern coast. The 
package consisted of ------.
    14. Operation PACIFIC HAVEN (Guam). ------ personnel provided 
support to the JTF at Anderson AFB, Guam, to conduct humanitarian 
assistance operations to receive, shelter, process, and provide care 
and security for Kurdish Foreign Service Nationals (KFSN) and their 
families during the period 20 September 1996--30 April 1997.
    15. Operation SAFE BORDER (Peru and Ecuador). The ------ when 
Brazil assumed control of the support requirement. The 7th SFG deploys 
personnel on a six month rotational basis to verify adherence to the 
cease-fire agreement between Ecuador and Peru to include strict 
observance of the Demilitarized Zone established in August 1995.
    16. Operation UPHOLD DEMOCRACY (Haiti). USSOCOM deployed a total of 
------ soldiers to Haiti during fiscal year 1997 in support of USACOM's 
and then Southern Command's (after 1 June 1997) ongoing efforts to help 
Haiti reestablish its infrastructure.
    17. USSOCOM, at the request of the Commander-in-Chief of the U.S. 
European Command (USCINCEUR) and at the direction of the Secretary of 
Defense, has provided U.S.-based SOF in support of military operations 
in the Bosnia Theater of Operations. These operations support the 
Dayton Peace Accords (DPA) and are conducted under the authorization of 
the Secretary of Defense, who currently retains the disclosure 
authority for all release of information to the above question. 
Respectfully request that queries on this subject be referred to the 
Office of the Secretary of Defense.
    The following operations do not have an established end date and 
SOF support may continue into fiscal year 1999: ABLE SENTRY 
(Macedonia), SOUTHERN WATCH (Iraq), and SAFE BORDER (Peru and Ecuador).
    Question. What percentage of the time are SOCOM forces deployed on 
training and on missions?
    Answer. During fiscal year 1997, SOF were deployed 50 percent of 
the time on Operations (i.e. JOINT GUARD, NORTHERN WATCH, SOUTHERN 
WATCH, DESERT THUNDER, Joint Task Force (JTF)-SWA, SAFE BORDER, JTF-
BRAVO, JTF-Full Accounting, US Support Group Haiti, Humanitarian 
Demining missions, Counter Drug missions, Naval Special Warfare 
personnel afloat, Noncombatant Evacuation Operations, and humanitarian 
missions (Kenya Assessment, C-141 SAR); 47 percent on training (i.e JCS 
Exercises, JCETs, unit training, and individual training or schools); 
and 3 percent on other deployments to include conferences, command 
visits, and predeployment site surveys.
    Question. How do mission deployment levels impact training and 
readiness?
    Answer. The morale and retention of special operations forces has 
remained high despite our consistently high OPTEMPO. We believe this is 
because the troops are conducting significant missions, making a 
difference to the Nation and they're proud to be involved. However, 
USSOCOM has taken the initiative to ensure a ready force for the future 
by studying the effects of high tempo on our forces. One initiative is 
a PERSTEMPO Impact Survey to be completed in April 1998. This will 
focus on special operations forces (SOF) morale, families, professional 
development, training, retention, and personnel readiness. Another is a 
Joint Medic Review study, initiated as a way to address growing 
retention concerns about our SOF medics. A life-cycle approach was used 
to compare each SOF medical specialty from initial recruitment to final 
attrition. Both Army Special Forces Medics and Air Force Pararescuemen 
had shortages in operating strength caused by increases in 
authorizations not matched by increases in recruiting. The National 
Defense Research Institute/RAND has also been tasked to conduct a SOF 
recruiting study with particular emphasis on improving minority 
representation of SOF units. Emphasis upon recruiting is a multi-year 
effort, given the extensive training required and resulting long lead-
time.
    SOF is committed to remain ahead of potential problems caused by 
the high employment rate of our troops. By developing a baseline for 
future comparisons, determining how high PERSTEMPO affects the soldier 
and how this may manifest itself (morale, retention, etc.), SOF can 
develop innovative thinking and new ways to shape change.
    Question. Are there Special Forces units which are deployed more 
frequently than is prudent?
    Answer. Some of our units are deployed more frequently than we 
believe is prudent for the long-term health of the organization. The 
Special Tactics Squadrons, the Special Operations Squadrons from the 
Air Force Special Operations Command, Naval Special Warfare SEAL, SEAL 
Delivery Vehicle Teams and Patrol Coastal Ships, and the Army Civil 
Affairs and Psychological Operations units routinely experience 
significantly high unit tempo over the quarterly reporting period. 
These units have experienced high tempo on the bounds of prudent usage 
and USSOCOM has taken steps to document, analyze and temper the 
situation.

            Civil Affairs and Psychological Operations Unit

    Question. There are no funds in the fiscal year 1998 appropriations 
bill nor the fiscal 1999 budget for U.S. Forces to remain in Bosnia 
beyond the June 1998 pull out date. What is the current complement of 
Special Operations Forces in Bosnia and will they remain beyond June 
1998?
    Answer. On 20 March 1998, there are ------ conducting the Special 
Operations Force mission in support of OPERATION JOINT GUARD. 
Accordingly, ------ conducting direct support of the mission from 
Brindisi, Italy, and the remaining personnel at the various 
headquarters at SHAPE, Special Operations Command Europe, Croatia and 
Hungary. An actual breakout of he force package is as follows: ------. 
We are currently planning for a Follow-on Force mission and have 
included our force package figures in the NATO Statement of Requirement 
(SOR 11). The other Contributing Nations are reviewing this document 
and we expect to make the final adjustments to the force figures during 
the 7-8 April 1998 Force Generation Conference. Based on the 
commitments from the other nations, the U.S. SOF contribution should be 
------.

           Bosnia Implementation Force (IFOR) Cost Estimates

    Question. What are the additional costs required for them to stay 
in Bosnia? Will these funds be in the supplemental request?
    Answer. USSOCOM estimates it will cost $8.7 million for the fourth 
quarter of fiscal year 1998 for SOF to remain in Bosnia. This would 
bring the total estimate for fiscal year 1998 to $34.4 million. The 
Overseas Contingency Operations Transfer Fund (OCOTF) covers $28.5 
million of that amount. This leaves a shortfall of $5.9 million, which 
is included in the contingency supplemental submission.
    In addition to the costs to remain in Bosnia, USSOCOM estimates a 
fiscal year 1998 cost of $1.6 million or Operation Deliberate Guard. 
This cost estimate is covered in the DoD contingency supplemental 
submission.
    Question. Since many of the Special Operation Forces currently in 
Bosnia are Reservists, what will be the impact of continuing the 
Special Operation missions there?
    Answer. USSOCOM can continue to support operations in Bosnia with 
Reserve Component personnel without any adverse impact, providing 
certain adjustments are effected. These adjustments include: decreasing 
the Civil Affairs (CA) and PSYOP requirements as currently planned in 
Statement of Requirements 11, extension of Presidential Selective 
Reserve Call-up (PSRC) authority beyond 30 June 98, and use of 
Contingency Operation Temporary Tour of Active Duty (COTTAD) authority 
to deploy volunteers on second tours.
    Question. Would the Special Operations Command be able to support 
an extension of the current Presidential Selective Reserve Call-up for 
the Bosnia mission?
    Answer. Yes. In fact, the continued support of Civil Affairs and 
Psychological Operations units to Bosnia is heavily dependent on the 
extension of the Presidential Selective Reserve Call-up (PSRC) 
authority. USSOCOM can support a sixth rotation with no significant 
problems. Beginning with a seventh rotation, some specific rank or 
skill requirements may become difficult to fill.
    Question. Will reserve units who have been tasked to provide 
personnel in the past be required to provide the same personnel for an 
extension of the mission?
    Answer. No. Presidential Selective Reserve Call-up (PSRC) rules 
prohibit a soldier from being mobilized for the same operation for more 
than 270 days. Technically, a soldier could be mobilized for 180 days 
and return for an additional 90 days. However, legal review of this 
rule has indicated that Congressional intent was not to have soldiers 
return for a second tour. A soldier could, however, volunteer to return 
to the same operation under Contingency Operation Temporary Tour of 
Active Duty (COTTAD) authority for a maximum of 170 days.

                     USSOCOM Modernization Programs

    Question. Your budget request for procurement for fiscal year 1999 
is $506.260 million, $130.879 million below the 1998 appropriated 
level. Two years ago, General Henry Shelton, then Commander in Chief, 
United States Special Operations Command, and now Chairman of the Joint 
Chiefs of Staff, testified that ``An appropriate level of procurement 
funding would be at $700 million per year to ensure the fielding for 
critically needed weapon systems.'' Is the procurement request for 
fiscal year 1999 adequate to ensure the fielding of critically needed 
weapons systems?
    Answer. Within our severe fiscal constraints, we have been able to 
establish a program that, while minimal, will keep key programs on 
track. We are also seeking opportunities to leverage other technologies 
to augment our minimal procurement program.
    Question. What programs originally funded in fiscal year 1999 are 
now funded in later years?
    Answer. There are three programs which fit this category. These 
programs include: the Directional Infrared Countermeasures (DIRCM), 
where $60 million in procurement moved to Fiscal Year 2000 (FY00), the 
Patrol Coastal Forward Looking Infrared Radar (PC FLIR), where $8 
million procurement moved to FY00, and, the Advanced Seal Delivery 
System (ASDS), where $44.8 million (Procurement and Operations & 
Maintenance) where reprogrammed to Research, Development, Test and 
Evaluation (RDT&E).
    Question. Why have they slipped?
    Answer. For the Directional Infrared Countermeasures (DIRCM), 
testing has slipped approximately nine months. This slip is the result 
of a development slip. For the Patrol Coastal Forward Looking Infrared 
Radar (PC FLIR), the slippage is due to resource constraints. The 
Advanced Seal Delivery System (ASDA) funding was recolored due to cost 
and schedule slip of the prototype ASDS.
    Question. Are there additional costs to the program because of 
these delays?
    Answer. For Directional Infrared Countermeasures (DIRCM) and the 
Patrol Coastal Forward Looking Infrared Radar (PC FLIR) there are no 
additional costs associated with the delays. For the Advanced Seal 
Delivery System (ASDS), there are costs associated with the delays. 
$44.8 million of procurement and Operations and Maintenance were 
realigned to Research, Development, Test and Evaluation in fiscal year 
1999. This impacts the quantity of ASDS that can be procured.
    Question. Do you have shortfalls relating to your 1999 procurement 
request?
    Answer. Yes. The following items related to procurement are on our 
fiscal year 1999 unfunded requirement (UFR) list.

                        [In millions of dollars]

        Priority and UFR                              Procurement amount
1  Counterproliferation........................................... $5.09
4  SPEAR-BALCS....................................................   4.3
6  MH-47E Helicopter..............................................  41.5
8  Silent Shield..................................................     5
9  M4A1 Carbine Modifications.....................................  2.47
10  Remote Activating Munitions System............................     6
11  AC-130 Low Light Level TV.....................................  2.36

                             CV-22 Aircraft

    Question. The Special Operations variant of the V-22 is the CV-22 
which will provide long-range infiltration, exfiltration, and resupply 
missions for SOF forces. It fulfills a critical USSOCOM capability 
shortfall. What is the cost to the Special Operations Command for 
developing the CV-22?
    Answer. The CV-22 will cost USSOCOM $3.8 million in fiscal year 
1999. The majority of development costs for the CV-22 are funded by the 
Department of the Navy. The Navy is developing the baseline MV-22 
aircraft for the United States Marine Corps (USMC) and the initial CV-
22 modifications. USSOCOM is funding a follow-on pre-planned product 
improvement (P3I) that incorporates CV-22 capability not available in 
the baseline aircraft development program. The P3I program includes the 
integration of a defensive infrared countermeasures capability, 
additional flare & chaff dispensers, the AVR-2A laster warning 
receiver, and other modifications. USSOCOM CV-22 Research, Development, 
Test and Evaluation (RDT&E) funding is programmed to begin in fiscal 
year 2000 (FY00).
    USSOCOM is funding the procurement of the Special Operations Forces 
(SOF) unique equipment on the CV-22 (about 15 percent of the total 
aircraft procurement cost) and the United States Air Force (USAF) is 
funding the procurement of the common MV-22 aircraft and components 
(about 85 percent).
    Question. What capabilities will it have that the V-22 will not?
    Answer. The CV-22 will have four significant additional 
capabilities: the electronic warfare Suite of Integrated Radio 
Frequency Countermeasures (SIRFC) being developed by the Army for the 
Apache Longbow; the Multi-mission Advanced Tactical Terminal (MATT), 
which provides near real-time offboard sensor information for improved 
situational awareness and threat avoidance; the terrain following/
terrain avoidance APQ-174D radar; and additional fuel tanks for 
extended range. There are also other avionics improvements, such as 
improved functionality for the digital map and survivor tracking.
    Question. What defensive capabilities will it have?
    Answer. The CV-22 will have extensive defensive capabilities. The 
Suite of Integrated Radio Frequency Countermeasures (SIRFC) integrates 
on-board and off-board sensor information to display current threat 
status and provides electronic jamming capability. Chaff and flares are 
available in multiple dispensers both fore and aft on the aircraft. An 
infrared countermeasures capability will be added as part of the Pre-
planned Product Improvement (P3I) to defeat infrared missiles.
    Question. Will the CV-22 be able to transport any of your current 
land transportation vehicles?
    Answer. The CV-22 can only transport motorcycles and modified All-
Terrain Vehicles that are in the current SOF inventory. USSOCOM plans 
to procure Light Strike Vehicles in conjunction with the United States 
Marine Corps that will fit inside V-22 aircraft.

                     Advanced Seal Delivery System

    Question. The Advanced SEAL Delivery System (ASDS) was originally 
scheduled for Initial Operating Capability (IOC) in 1997. The Navy and 
the contractor have had significant problems meeting its schedule. What 
is the current IOC?
    Answer. The Advanced Seal Delivery System (ASDS) will deliver to 
the Fleet in June 1999. Initial Operational Capability (IOC) is 
scheduled three months after delivery, currently September 1999. After 
delivery to Pearl Harbor, Hawaii, we have scheduled three months of 
operator work-ups with the host submarine (USS Greeneville SSN-772). 
Upon completion of these work-ups, IOC will be achieved.
    Question. What has been the cost growth to the program to date?
    Answer. The total projected Research, Development, Test and 
Evaluation (RDT&E) contract cost of producing the first ASDS is $169 
million. The negotiated cost of the original fiscal year 1994 (FY94) 
contract, prior to redesign and structural modifications, was $62 
million (a difference of $107 million). The Latest Revised Estimate 
(LRE) by the prime contractor to complete the lead ASDS vehicle under 
the rebaselined program is $169.6 million then Year Dollars (TY$). The 
total cost for completion of the lead vehicle (contractor and other 
government costs) is projected to be approximately $218 million (TY$). 
This total includes other costs such as government-furnished equipment, 
engineering support, life cycle support, planning yard support, and the 
hydrodynamic test program that will define the host submarine submerged 
operating envelope.
    Question. Are there sufficient funds in the future years defense 
program (FYDP) to procure the six vessels which are required?
    Answer. The fiscal year 1998-2003 (FY98-03) FYDP currently does not 
contain sufficient funds to acquire total of six ASDS. Presently, 
USSOCOM is evaluating the overall force requirement for ASDS from an 
affordability standpoint.
    Question. How much would have to be added to procure six vessels?
    Answer. A total of $164.2 million would have to be added to the 
program across the future year's defense program (FYDP) to procure all 
six ASDS.
    Question. The hull manufacturer has gone out of business. Are there 
sufficient other hull manufacturers to continue the program?
    Answer. Yes. Northrop-Grumman, the prime contractor for the 
Advanced Seal Delivery System (ASDS), has negotiated a fixed-price 
contract with Electric Boat Division of General Dynamics for the 
follow-on pressure hulls.

                          Information Warfare

    Question. One potential and very serious dilemma we must face is 
that an adversary might disrupt or manipulate our military information 
systems, thereby eliminating one of the best advantages we possess over 
our adversaries. What role is the Special Operations Command playing in 
the Department's efforts to address this threat?
    Answer. USSOCOM is decisively engaged in addressing the 
asymmetrical information warfare threat posed to the United States. I 
have combined our intelligence, communications, automation, and 
information warfare specialists into an Intelligence and Information 
Operations Center. This center pulls together all the elements 
necessary to respond to the information warfare threat. Information 
operations is a Special Operations Forces (SOF) principle mission. For 
several key areas of information operations, such as psychological 
operations and civil affairs, SOF are uniquely suited for this mission. 
Currently, the Defense Information Systems Agency (DISA) and National 
Security Agency (NSA) form the center of gravity for information 
warfare to create solutions for protecting our information systems. 
USSOCOM works with DISA and NSA. This partnership has resulted in five 
vulnerability and penetration testing assistance visits at USSOCOM 
recently, such as EPIC CHALLENGE. USSOCOM also works closely with other 
agencies, such as Central Intelligence Agency, Defense Intelligence 
Agency, National Imagery and Mapping Agency and National Reconnaissance 
Office, and participates in Department working groups on IO. USSOCOM 
initiated a set of Information Conditions (INFOCONs). These INFOCONS 
establish procedures for our internal information systems users and 
system administrators to respond to different levels of threat.
    Question. How vulnerable are your information systems to disruption 
or manipulation?
    Answer. USSOCOM systems continue to evolve to protect them from 
external disruption or manipulation. By employing state-of-the-art 
systems and techniques, such as the Joint Intrusion Device developed by 
Defense Information Systems Agency, we are able to protect our critical 
information and command systems. We have deployed a defense in depth 
concept that allows our systems administration personnel to identify 
and successfully thwart information attacks. On a daily basis, USSOCOM 
systems are probed and attacked. Thus far, our systems have remained 
protected from penetration. Through numerous assistance visits and 
exercises, we have been able to strengthen our defensive posture, train 
our information professionals in recognizing and responding to attacks, 
and develop new techniques against future potential adversaries.
    Question. What steps are you taking to reduce a potential 
adversary's ability to use information warfare?
    Answer. USSOCOM is working closely with other agencies to develop 
new methods and techniques for reducing an adversarie's ability. To do 
this we must protect both the information systems and the information. 
We take every step necessary to protect our mission critical 
information systems from both external adversaries and internal 
threats. The key to this is the redundancy built into our system. This 
capability allows us to retrieve information so that if one source is 
denied us we can continue from another source. By having alternate 
means, we greatly reduce the ability of an adversary to deny us the 
required information. Testing of both primary and alternate systems is 
conducted both in training and exercise scenarios.
    Question. What measures can we take to diminish or eliminate our 
risks?
    Answer. We must not only protect our information systems, but also 
educate the Special Operation Forces warriors using those systems. Our 
networks have been continuously probed and each incident is taken very 
seriously. We have separate systems, so that we can isolate systems 
under attack and perform damage control. A continuous training program 
to ensure systems administrators are technologically current, 
understand possible threats, and verify the functioning of our 
reporting and response systems is another vital defense. At a national 
level we need an integrated effort, both government and the public 
sector. A large portion of our information infrastructure is contracted 
from commercial sources. The Report of the President's Commission on 
Critical Infrastructure Protection (PCCIP), released in October 1997, 
discusses these critical vulnerability and protection issues.
    Question. If the necessary protections are not in place, what are 
the consequences?
    Answer. The consequences of this asymmetrical threat are extremely 
serious. While popular books and magazines highlight total collapses of 
electronic commerce or other industries, more serious to the warfighter 
is the loss of confidence in the information we use to make decisions. 
The information age has improved our ability to see events as they 
unfold--our sensors feed us a constant stream of information--also that 
decision-makers can quickly and accurately respond. Any distrust as to 
the accuracy and validity of the information may cause doubts--doubt 
that can lead to paralysis in our decision-making cycle. A prolonged 
paralysis may lead to a total shutdown of our information systems and 
our ability to maintain dominant battle space knowledge. The timely, 
accurate flow of information is crucial to the success of SOF's ability 
to shape the international environment.

                           Counter-Terrorism

    Question. The terrorist threat is one of the most serious to U.S. 
civilian and military personnel. Special Operations forces provide the 
means to deter or defeat terrorist attacks against u.S. interests 
wherever they may occur. Where are the principle terrorist threats 
located today?
    Answer. USSOCOM is concerned about terrorism on a worldwide basis. 
We are concerned about the terrorism threat to Special Operation Forces 
(SOF) deployments and diplomatic facilities/presence worldwide. We are 
also concerned about the non-governmental pressure that may require us 
to conduct non-combatant evacuation operations. The following countries 
pose a continuing threat based on the presence of representatives of 
State Sponsors of Terrorism (as designated by the U.S. Department of 
State), the presence of terrorist groups, the indication of intentions 
for anti-American activities and/or violence by these groups, the 
existence and usage of centers for terrorist training, and the 
existence of working intelligence and logistic support networks in 
countries that include: ------.
    Question. What role does the Special Operations Command play in our 
overall Counter-terrorism program?
    Answer. ------.
    Question. How do Special Operations forces train to conduct 
counter-terrorism missions?
    Answer. ------.
    Question. Do they train with foreign counterparts?
    Answer. ------.
    Question. In which Countries do they train?
    Answer. ------.
    Question. In his annual report, the Secretary of Defense stated 
that Special Operations forces provided support to the Department of 
Justice for the conduct of four extraditions during 1997 resulting in 
the return of known and suspected terrorists from overseas to U.S. 
Courts for trial. Who were the suspected terrorists which were returned 
and from which countries?
    Answer. ------.
    Question. Have Special Operations Forces been involved in 
assessments of force protection measures for theater commanders to 
ensure that appropriate measures have been taken to protect against 
possible terrorists incidents?
    Answer. SOF expertise in assessing the threat and protecting the 
force is continuously tapped by the Regional Commanders in Chief 
(CINCs). Over the last year SOF has provided force protection 
assessment support to numerous areas including Bosnia, Pakistan, Korea, 
Colombia, and Peru. Our support includes augmentation to CINC level 
assessment teams and the formulation of SOF specific teams. SOF force 
protection assessment methodology concentrates on three main areas: the 
threat--its existence, history, capabilities, intentions, and 
targeting; host nation ability to provide defense to the site (most SOF 
units utilize Host Nation Facilities for billeting and training); and 
the units own Anti-Terrorism and Force Protection plan. Other areas 
surveyed include the flow of timely force protection information, 
structural integrity of the site, and stand-off from public areas. SOF 
will continue to support the Regional CINCs in all aspects of force 
protection for both SOF and conventional forces.

                   Military Operations Other Than War

    Question. There has been a dramatic increase in operations other 
than war since the Special Operations Command was established 10 years 
ago. These operations are a natural extension of the SOF mission. What 
operations other than war have Special Operations Forces been involved 
in for the last two years? Please give us some examples of what your 
forces are doing in places like Bosnia and Southwest Asia.
    Answer. During fiscal year 1996, SOF personnel supported operation 
UPHOLD DEMOCRACY (Haiti), Operation PACIFIC HAVEN (Guam), Operation 
SOUTHERN WATCH (Iraq), Operation ABLE SENTRY (Macedonia), Operation 
JOINT GUARD (Bosnia-Herzegovina), Operation NORTHERN WATCH/PROVIDE 
COMFORT (Northern Iraq), and Operation SAFE BORDER (Peru, Ecuador).
    During fiscal year 1997, SOF supported 17 operations. Specific 
details follow:
    1. Operation FIRM RESPONSE (Congo). ------.
    2. Operation NOBEL OBELISK (Sierra Leone). ------ initially 
deployed to Camp Benguema Training Center, Sierra Leone, for a Joint 
and Combined Exchange Training (JCET) (leadership) with host nation 
military personnel. During the period ------ instituted communications 
with SOCEUR & American Embassy, Freetown, established security at the 
embassy, planned and coordinated for a Non-combatant Evacuation 
Operation (NEO), conducted reconnaissance of potential hazardous 
landing zones, received the evacuation force, and provided security for 
the ambassador.
    3. Operation GUARDIAN ASSISTANCE (Rwanda). Beginning 14 November 
1996, the ------ deployed to the Great Lakes Region of Eastern Zaire in 
support of a multinational umanitarian intervention force to facilitate 
the delivery of humanitarian aid by civilian relief organizations and 
the voluntary repatriation of refugees or displaced persons from Zaire 
to Rwanda. CA and PSYOPS were instrumental in convincing the Rwandan 
refugees to return home and the AC-130 gunship was invaluable in 
locating and counting the numerous groups of refugees for the Combined 
Joint Task Force Commander (14 November through 14 December 1996).
    4. Operation SILVER WAKE (Albania). ------ was originally in 
Albania to provide Military Liaison Team support to host nation 
military in order to develop and coordinate military-to-military 
contacts to encourage the democratic orientation of the Albanian 
military and defense establishments. When the security situation began 
to deteriorate in Albania, he reported to American Embassy Tirana and 
offered his assistance. ------ reviewed and assisted with the update of 
the Embassy Emergency Action Plan, confirmed the surveys of evacuation 
helicopter landing zones, marked the landing zones for the initial 
arrival of the evacuation force and acted as the ambassador's military 
advisor throughout the crisis. Throughout the evening and early morning 
hours of 12-13 March 97 continuous gunfire rocked the capital city of 
Tirana, Albania. The situation became critical when mobs and raided and 
looted the country's noncommissioned officer's academy of weapons and 
ammunition less than a kilometer from the American Residential 
Compound. The Ambassador requested and received permission to conduct 
an ordered evacuation of all Americans from the country of Albania on 
13 Mar 97.
    5. Operation ASSURED LIFT (Liberia). ------ deployed French 
speaking Liaison Coordination Elements (LCE) to forward operating 
locations at Bamako, Mali, Abidjan, Ivory Coast, Accra, Ghana, and 
Roberts International Airport, Liberia. Each LCE coordinated and 
supported the marshaling, on-load and offload of host nation military 
personnel. These LCE assisted host nation militaries in Ghana, Mali, 
and Cote D'Ivore in rapidly moving critical military forces to 
Monrovia, Liberia, to reinforce ECOMOG (Economic Community of West 
African States cease-fire Monitoring Group). In response to an outbreak 
of intense factional fighting in and around Monrovia, Liberia, during 
14 February to 7 March 1997, the U.S. agreed to provide immediate 
assistance in strengthening ECOMOG security around Monrovia.
    6. Operation HIGH FLIGHT (Namibia). On 13 September 1996, an U.S. 
Air Force C-141 and a German Air Force TU-154 collided and crashed off 
the coast of Namibia. Due to limited personnel and communications 
capability American Embassy Windhoek requested the assistance of ODA 
392, 3rd SFG, that had deployed to conduct training and provide 
logistics assistance in support of Namibian humanitarian demining 
operations. The SOF demining team, led by Captain Hubbard, played a key 
role in getting the information flowing and supporting the deployment 
of JTF HIGH FLIGHT. Additionally, SOCEUR deployed two MC-130 aircraft 
from 352nd SOG and a command element within hours of the reported loss 
to provide initial command of the Search and Rescue (SAR) JTF and begin 
personnel recovery operations.
    7. Operation NORTHERN WATCH (Northern Iraq). ------ supported the 
U.S. effort in support of this operation to provide Combat SAR (CSAR) 
and helicopter refueling support from Turkey forthe United Nation's 
sponsored No-Fly-Zone over Northern Iraq. For the period ------ SOF air 
assisted with the ongoing Operation NORTHERN WATCH at Incirlik Air 
Base, Turkey, due to lack of sufficient, available, and capable 
conventional air assets to perform the CSAR mission over Northern Iraq.
    8. Operation JOINT GUARD (Bosnia-Herzegovina). The ------ provided 
special operations, CA and PSYOP in support of NATO Stabilization Force 
to deter hostilities and promote a stable environment in Bosnia--
Herzegovina from 20 December 1996 to present in Bosnia-Herzegovina, 
Croatia, Italy, and Germany.
    9. Operation ABLE SENTRY (Macedonia). The ------ maintained a four 
man team while PSYOP and Special Forces Battalions have provided 
smaller rotational elements attache to conventional forces in support 
of the United Nations mission in Skopje, Macedonia.
    10. Operation BEVEL EDGE (Cambodia). A special operations Command-
Pacific (COMSOCPAC) led JTF deployed to an intermediate a staging base 
at Utapao, Thailand, 8-21 July 1997 to prepare to conduct a NEO of 
American citizens in Phnom Penh, Cambodia. The NEO did not take place 
as the situation stabilized. Participating units under ------.
    11. Operation SOUTHERN WATCH (IRAQ). The ------ with aircrews and 
maintenance support packages to Al Kharj, Saudi Arabia, on 4 October 
1996 at the conclusion of Operation Desert Strike expanding the no-fly 
zone. The ------ provided 24 hours refueling to HH60G helicopters 
supporting the CSAR mission for aircraft enforcing the no-fly zone over 
Iraq during the periods ------ .
    12. Operation SOUTHERN WATCH (IRAQ). The ------ . These billets are 
tasked as 179-day recurring rotations. As a result of the Khobar Towers 
bombing, and on the recommendation of the ``Downing Report,'' U.S. 
Central Command (USCENTCOM) requested individuals augmentation to CJTP 
SWA Staff to effectively plan, coordinates, and implement force 
protection initiatives in the USCENTCOM area of operations.
    13. Operations MARATHON PACIFIC (GTMO & Wake Island). USSOCOM 
deployed CA and PSYOP personnel in support of a CINC U.S. Atlantic 
Command (CINCUSACOM) mission to provide humanitarian assistance to 
Chinese migrants intercepted off the United States Eastern coast. The 
package consisted of ------ .
    14. Operation PACIFIC HAVEN (Guam). The ------ personnel provided 
support to the JTF at Anderson AFB, Guam, to conduct humanitarian 
assistance operations to receive, shelter, process, and provide care 
and security for Kurdish Foreign Service National (KFSN) and their 
families during the period 20 September 1996--30 April 1997.
    15. Operation SAFE BORDER (Peru and Ecuador). The ------ when 
Brazil assumed control of the support requirement. The 7th SFG deploys 
personnel on a six month rotational basis to verify adherence to the 
ceases-fire agreement between Ecuador and Peru to include strict 
observances of the Demilitarized Zone established in August 1995.
    16. Operation UPHOLD DEMOCRACY (Haiti) USSOCOM deployed a total of 
------ soldiers to Haiti during fiscal year 1997) ongoing efforts to 
help Haiti reestablish it's infrastructure.
    17. USSOCOM, at the request of the Commander-in-Chief of the U.S. 
European Command (USCINCEUR) and at the direction of the Secretary of 
Defense, has provided U.S.-based SOF in support of military operations 
in the Bosnia Theater of Operations. These operations support the 
Dayton Peace Accords (DPA) and are conducted under the authorization of 
the Secretary of Defense, who currently retains the disclosure 
authority for all release of information to the above question. 
Respectfully request that queries on this subject be referred to the 
Office of the Secretary of Defense.
    During fiscal year 1997, SOF also participated in the following 
OOTW missions: Counter Drug missions in 21 countries; humanitarian 
demining training missions in 11 countries; and African Crisis Response 
Initiative (ACRI) training missions in 7 countries.
    Question. What has the increased cost to the budget for these 
operations?
    Answer. Many special operations missions and collateral activities 
inherently fall into the category of military operations other than 
war. The fiscal year 1999 USSOCOM budget contains funding for our 
participation in scheduled deployments and training for psychological, 
civil affairs, counter drug, demining, humanitarian assistance and 
foreign internal defense missions. The increased cost to USSOCOM is 
related to our participation in contingency operations other than war. 
USSOCOM spent $36.8 million for contingency operations in fiscal 1997. 
In fiscal year 1998 we estimate spending a total of $55.0 million, and 
in fiscal year 1999 we estimate a total of $49.8 million will be 
expended for contingency operations.
    Question. Have these missions affected training and readiness?
    Answer. Military operations other than war over extended time 
periods subject units to a variety of conditions often dictated by the 
host country, geography, weather, and facilities. Training is often 
restricted in regard to availability of ranges, operating times, flight 
restrictions, and training infrastructure. Additionally, the geography 
and weather can significantly affect training opportunities 
particularly when coupled with political constraints. Once training has 
been curtailed, readiness follows. Training is resumed upon rotation of 
the units/personnel involved, but is limited in effectiveness if the 
deployments are extensive. The effect upon unit readiness is heightened 
when the unit is also considered Low Density. In this respect most SOF 
units/personnel are considered Low Density/High Demand under the 
Department's Global Military Force Policy (GMFP). Readiness is impacted 
once the units exceed their Steady State limitations as defined in the 
GMFP.
    The readiness of USSOCOM active component units is high and the 
overall readiness of the force is stable; on par with historical 
levels. Reserve component unit readiness is comparable with the 
Services, and making slow, but continual improvement. Our biggest 
challenge lies in recruiting and maintaining a trained force. There are 
some isolated equipment shortages. The greatest threat to current 
readiness in Fiscal year 1998 is a shortage of qualified and trained 
personnel. We can expect degradations in readiness if we are unable to 
mitigate personnel shortfalls through various initiatives in the coming 
year.
    Overall, USSOCOM forces are ready to execute the National Military 
Strategy. The risk of two Major Regional Contingencies (MRC) remains 
moderate to high. The impact of contingency operations increases the 
two-MRC risk due to stress on our scarce assets, lost training 
opportunities, and concerns about our ability to rapidly disengage and 
reconstitute forces needed to support the MRCs. Continued readiness 
depends on the resourcing of several training and recruiting 
initiatives, and significantly reducing isolated parts and equipment 
shortfalls.
    Question. What measures has U.S. Special Operations Command taken 
to integrate capabilities and training for operations other than war 
into the fiscal year 1999 budget request?
    Answer. Military operations other than war (OOTW) encompass a wide 
range of activities where the military instrument of national power is 
used for purposes other than the large-scale combat operations usually 
associated with war. With this in mind, a good percentage of special 
operations missions and collateral activities inherently fall into this 
category and must be budgeted for and trained to during exercises and 
deployments. Special operations missions and collateral activities in 
this category include: PSYOP, foreign internal defense (FID), CA, 
coalition support, counterdrug (CD) activities, countermine activities, 
humanitarian assistance, and security assistance.
    USSOCOM employs several means to ensure SOF are trained and ready 
across this spectrum of missions. USSOCOM Service components conduct 
Service-unique individual, collective, and sustainment training; 
support institutional training; and participate in readiness exercises 
for units required to perform these missions. SOF assigned to theater 
CINC Special Operations Commands participate in joint combined exchange 
training and Chairman-directed exercises specifically tailored to train 
joint mission essential tasks in these areas. Operationally, ``train-
the-trainer'' deployments of special operations forces in support of 
demining, CD, and FID operations also serve to further refine skills 
applicable to the military OOTW environment. Headquarters USSOCOM 
budgets for special operations capabilities and training in these 
activities but also receives funding from the Departments of Defense 
and State.
    The fiscal year 1999 budget estimate for special operations 
educational institution activities is $101 million. This equates to 
fifteen percent of USSOCOM's O&M support budget. Institutional training 
for military OOTW is accomplished at the United States John F. Kennedy 
Special Warfare Center and School at Fort Bragg, North Carolina, and 
the Air Force Special Operations School at Hurlburt Field, Florida. 
These schools provide training across a variety of topics. Courses 
offered include, but are not limited to: regional studies, CA, PSYOP, 
FID, and civil-military strategy. During the qualification phase of 
training, Special Forces soldiers train to military occupational 
specialties that directly contribute to skills required in the military 
OOTW environment. These military occupational specialties include 
engineering, medical, and communications career fields, with all 
Special Forces soldiers receiving language training.
    The fiscal year 1999 budget estimate for special operations 
participation in Chairman-directed exercises is $14.6 million, with 
resources being provided by the Department of Defense. SOF 
participation in Chairman-directed exercisesis hosted by the theater-
Commanders in Chief with SOF accomplishing training across a large 
spectrum of special operations missions. There are 235 Chairman-
directed exercises programmed for fiscal year 1999. Of these, SOF are 
scheduled to participate in 85, with mission essential task training in 
CA, PSYOP, and FID slated for 53 of these exercises (62 percent).
    The fiscal year 1999 budget estimate for Joint Combined Exchange 
Training (JCET) is approximately $17 million in MFP-11 funds. JCET 
trains SOF in a variety of mission essential tasks while improving 
language proficiency, cultural awareness/immersion, and 
interoperability with coalition forces. The preponderance of resources 
is provided to United States Army Special Operations Command forces (71 
percent). JCETs are split between all theaters with Special Operations 
Command Europe, Pacific, and South taking the greatest share of these 
resources (24 percent, 33 percent, and 25 percent respectively).
    An excellent example of a FID ``train-the-trainer'' program is the 
African Crises Response Initiative (ACRI). This State Department funded 
program provides SOF who work within Africa to create highly effective, 
rapid-deployable peacekeeping units, which can operate jointly in the 
event of humanitarian crisis or a traditional peacekeeping operation. 
The fiscal year 1999 State Department budget estimate for the ACRI is 
$20 million dollars.
    Two other examples of special operations activities which pertain 
to the military OOTW environment are demining and CD operations. The 
demining activities of SOF are also based on a ``train-the-trainer'' 
concept and focus on training host nation forces to conduct demining 
operations. The fiscal year 1999 demining budget is estimated at $25 
million with resources primarily provided by the State Department. In 
the area of counterdrug operations, the special operations forces 
mission is to provide support to regional combatant commanders and 
other United States' government agencies to support assigned 
counterdrug missions, within statutory limits and as approved by the 
Secretary of Defense. The fiscal year 1999 budget for counterdrug 
operations is approximately $23 million with the majority of funding 
provided by DOD Drug Enforcement Policy and Support programs.
    In summary, SOF's missions frequently occur in the OOTW 
environment. SOF's training and capabilities are well focused in this 
area for fiscal year 1999. In conjunction with Chairman-provided 
resources and State Department funds, the USSOCOM has integrate 
adequate capabilities and training for OOTW into the fiscal year 1999 
budget request. Given the current pace of special operations 
participation in these activities, it is probable that special 
operations forces will maintain this requirement well into the future.

                       Year 2000 Computer Problem

    Question. One of the problems that we face as we enter the next 
century is older computers that are only programmed to remember the 
last two digits in a year. Thus they remember `1997' as simply `97'. 
The year 2000, however, will be saved as `00', the same as the year 
1900. This can lead to calculation errors and system failures. How 
serious is this problem for your Command? What would be the impact if 
your Mission Critical Systems were not corrected by the year 2000?
    Answer. We have identified 37 mission critical systems, 73 internal 
applications, 13 devices, and over 700 commercial off the shelf and 
government off the shelf hardware and software products that are 
subject to malfunction or failure as a result of the year 2000 problem. 
I am confident USSOCOM will continue to be able to perform its primary 
mission, but potentially at a significantly degraded level. Our 
deployed forces may be denied automated command, control, 
communications, intelligence, positioning, and imagery that we rely on 
during strategic and tactical operations. The SOF warrior, because of 
the nature of the mission, is probably one of the most demanding users 
of information technology. My forces are capable of adjusting to these 
changes when required, but at a cost of increased risk of detection, 
and decreased mission effectiveness.
    Question. Do you know of any plans to conduct Joint Chiefs of Staff 
Exercises next year with the clocks turned forward to identify any 
uncorrected year 2000 computer problems? Do you believe this would be a 
valuable test to see if the warfighting automation systems will be 
ready for the year 2000?
    Answer. Yes, the Joint Warrior Interoperability Demonstration 
(JWID) exercise and other proposed Joint exercises will assess our 
Information Technology systems for year 2000 compliance. A joint 
exercise to ``test run'' our mission critical systems is a good way to 
see exactly whether our mission critical systems are ready for the year 
2000 and beyond. However, we must also ensure safeguards are in place 
so we can recover our systems if we do discover problems. In an 
exercise test environment we can isolate those systems that experience 
interrupted operational failures or experience any slow corruption of 
data as a result of year 2000 related issues. This type of exercise may 
save a lot of time, effort, and money.
    Question. Have you begun developing contingency plans in case your 
Mission Critical Systems are not year 2000 compliant?
    Answer. Yes. Contingency planning to conduct daily operations in 
the event of an emergency are standard practices within USSOCOM. Each 
program manager has the responsibility to ensure their systems are 
assessed for potential failures, to identify points of risk, and 
document remedial strategies in the system contingency plan. Every 
functional center within USSOCOM has the responsibility to develop 
contingency plans depicting how they will conduct their day to day 
operations without the mission critical system to support them if those 
systems were to fail. We are also incorporating specific year 2000 
related risk assessments and contingency plans to mitigate the 
consequences of data processing failures on our mission critical 
systems. These contingency plans will ensure USSOCOM is mission-capable 
through the millennium change.
    Question. Overall, are you confident that this problem will be 
solved before the year 2000?
    Answer. Yes, I am confident we will solve this problem for our 
mission critical systems before the year 2000. However, we must not 
fool ourselves by thinking there will not be some system ``hiccups.'' 
We can certify each system and application individually and 
systematically integrate these systems during implementation. But once 
all these systems start to interface, there may be some areas we will 
have to go back and fix. We are planning for these hiccups and are 
developing plans to have computer emergency response teams (CERT) 
available to assist those systems and personnel that experience any 
malfunctions.

                          Counterproliferation

    Question. In May 1995, the Secretary of Defense directed the 
CINCSOC ``to assume the responsibility for organizing, training, 
equipping, and otherwise preparing U.S. special operations forces to 
conduct operations in support of U.S. government counterproliferation 
objectives.''--General Schoomaker, what type of forces and capabilities 
do you have to carry out the counterproliferation mission?
    Answer. The boundaries of counterproliferation of Weapons of Mass 
Destruction (WMD) are still not completely defined. Asymmetrical 
threats in the form of WMD can come from terrorists groups, rogue 
elements and transnational groups, as well as nation states. ------.
    Question. DOD Directive 2060.2, subject: Department of Defense 
Counterproliferation Implementation, dated July 9, 1996, states that 
accomplishment of the counterproliferation mission ``may require 
coordination with other U.S. Government Agencies.''--Which agencies 
have you worked with? What type of support do you need from these 
agencies?
    Answer. The conduct of operations in support of U.S. Government 
Counterproliferation objectives is by definition, an Interagency 
process. USSOCOM has developed close working relationships and 
coordinated efforts with: ------.
    The FBI is Lead Federal Agency (LFA) for domestic WMD incidents. 
USSOCOM serves in a supporting role during domestic response to WMD 
incidents on US soil. ------. (Approval for USSOCOM involvement on US 
soil rests with the President, based on the joint recommendation of the 
SECDEF and the Attorney General.) ------. State Department is the Lead 
Federal Agency (LFA) for OCONUS WMD incidents. As such the conduct of 
SOF operations in support of U.S. Government CP objectives, OCONUS, are 
conducted in support of and in coordination with the State Department.
    USSOCOM requires intelligence support from a variety of agencies to 
include the ------.
    We have trained extensively within the interagency in an effort to 
increase the level of comfort with the complex relationships developed.
    Question. Is the intelligence community able to provide you with 
timely intelligence support?
    Answer. Timeliness and quality of intelligence has always been an 
operational challenge. This challenge becomes even more critical 
considering the complexity of counterproliferation (CP) issues.
    The greatest CP intelligence challenge is the inability of the 
national intelligence community to meet Special Operations Forces (SOF) 
level of detail requirements. ------.
    Human intelligence (HUMINT) provides the fine-grain intelligence 
required to support SOF. ------. USSOCOM has just recently identified 
detailed HUMINT collection requirements which will increase the focus 
on CP. Of all the intelligence disciplines, HUMINT has the least 
capability to surge during crisis periods. Consequently, the necessary 
long term HUMINT relationships must be previously established to ensure 
mission success. Additionally, HUMINT reporting timeliness are 
historically longer than for the other intelligence disciplines.
    Imagery intelligence (IMINT) support generally is good, however the 
current constellation limitations and competing requirements, 
especially during crises, mitigate against the near full-time coverage 
necessary to meet SOF CP collection needs. ------.
    Additionally, denial and deception procedures by proliferators 
frequently make coverage which is available of limited value.
    Developing measurement and signature intelligence (MASINT) may 
significantly improve CP intelligence collection in a few years. 
Timeliness of MASINT data analysis and dissemination is another area 
that requires improvement. Space-based MASINT provides the standoff, 
but is not yet capable of meeting USSOCOM's biological and chemical 
weapons-related requirements. USSOCOM, and the Department and 
intelligence community, has developed an initiative to improve 
USSOCOM's Special Reconnaissance Capabilities (SRC) against ``hard 
target'' requirements. The DOD-wide initiative, with USSOCOM as 
Executive Agent, will focus on specific sensors and related 
technologies to improve SOF SRC and augment traditional intelligence 
collection means.
    Question. Do you have adequate resources to accomplish your 
counterproliferation mission?
    Answer. SOF offer carefully measured, surgical counterproliferation 
(CP) options not available elsewhere and represent an alternative whose 
use can ------. USSOCOM continues its efforts to meet the ever-
increasing threat of weapons of mass destruction (WMD) by pursuing a 
robust, interagency program to enhance its capabilities. Where 
possible, we leverage resources from existing programs, and collaborate 
with others' mutually beneficial programs. An example of this is our 
work with ------.
    Projected resources are adequate to accomplish a reduced set of 
near-term objectives. For instance, depending on the structural make-up 
of a ------. The boundaries of CP of WMD are still not completely 
defined. We are pursuing several avenues within CP to insure we are 
prepared, when called upon, to deter, detect and monitor, or interdict 
WMD and their associated technologies and equipment, regardless of the 
environment or situation. Key in this effort are our initiatives in the 
area of CP Explosive Ordnance Disposal (CP EOD). These skills allow our 
operators to detect, disable or render ineffective a variety of 
weaponized WMD to include improvised devices. We also continue to 
improve our counterforce capabilities in HDBT and maritime 
interdiction.
    Additionally, ------ responsibilities to continue in the future. 
All of these efforts and capabilities are extremely resource intensive. 
Even so, it is necessary to continually upgrade and refine our efforts 
in order to maintain capabilities commensurate with the escalating 
challenges.
    Our unfinanced requirements list provides details concerning the 
amount of additional resources required to increase USSOCOM CP 
capabilities. A total of $20.55 million has been identified as a fiscal 
year 1999 shortfall.
    Question. Do you know what role the National Guard plays in the 
implementation of DOD counterproliferation activities and programs? Has 
there been coordination between you and the National Guard Bureau on 
counterproliferation matters?
    Answer. ------.
    Question. Is the intelligence community able to provide you with 
timely intelligence support?
    Answer. ------.
    Question. Do you have adequate resources to accomplish your 
counterproliferation mission?
    Answer. ------.
    Question. General Schoomaker, the current crisis in Iraq has 
highlighted how difficult it is to target and destroy weapons of mass 
destruction (WMD) facilities by air strikes alone. If not very soon, 
then undoubtedly someday in the near future, possibly somewhere other 
than in Iraq, we are going to find ourselves in a situation where we 
need to go in and destroy, not just seriously diminish a WMD production 
facility on the ground. What does SOCOM need to insure that when that 
day comes we are as ready as we can possibly be?
    Answer. The United States Special Operations Command continues its 
efforts to meet the ever-increasing threat of weapons of mass 
destruction (WMD) by pursuing a robust program to enhance its 
capabilities. ------. Where possible, we leverage off of existing 
programs, and collaborate with other agencies' and commands' mutually 
beneficial programs. ------.
    Maintaining this capability commensurate with the increasing threat 
is the challenge. Projected resources are adequate to accomplish a 
reduced set of near-term objectives. ------. The maintenance of all of 
these efforts and capabilities is extremely resource intensive and ----
--.

                             Bosnia Mission

    Question. General Schoomaker, what is the current role of special 
operations forces in Bosnia? How many SOF personnel are deployed in 
support of the Bosnia operation?
    Answer. The SOF mission for Operations JOINT ENDEAVOR/JOINT GUARD 
has been to conduct special operations, civil affairs (CA) and 
psychological operations (PSYOP) in support of the North Atlantic 
Treaty Organization Stabilization Force, formerly Implementation Force, 
to deter hostilities and promote a stable environment in Bosnia-
Herzegovina. This has been accomplished by attaching SOF forces to 
designated North Atlantic Treaty Organization and non-North Atlantic 
Treaty Organization units. ------. This Special Operation Force 
presence has proven to improve coordination, minimize 
misunderstandings, and save lives.
    Civil Affairs/Civil Military Cooperation Center provides the 
Stabilization Force with the capability to conduct Civil Military 
Operations in support of Supreme Allied Commander Europe's 
implementation of the peace agreement. The Civil Military Operations 
Center promotes cooperation between the civilian population and various 
agencies and national governments. Civil Affairs personnel work to 
leverage capabilities of Non-governmental Organizations, International 
Organizations, national governments. They facilitate parallel unified 
civilian effort in support of the North Atlantic Treaty Organization 
peace plan for regional stabilization and are prepared to respond to 
humanitarian, public safety, and public health contingencies. ------.
    Question. I understand that special mission units (SMUs) have been 
deployed to Bosnia for highly sensitive and risky operations. Can you 
tell us what these operations are? What is the chain of command in 
authorizing such operations?
    Answer. USSOCOM, at the request of the Commander-in-Chief of the 
U.S. European Command (USCINCEUR) and at the direction of the Secretary 
of Defense, has provided U.S.-based SOF in support of military 
operations in the Bosnia Theater of Operations. These operations 
support the Dayton Peace Accords (DPA) and are conducted under the 
authorization of the Secretary of Defense, who currently retains the 
disclosure authority for all release of information to the above 
question. Respectfully request that queries on this subject be referred 
to this Office of the Secretary of Defense.

    [Clerk's note.--End of questions submitted by Mr. Young.]
                                          Wednesday, March 4, 1998.

COMMANDER IN CHIEF, UNITED STATES PACIFIC COMMAND AND COMMANDER, UNITED 
                          STATES FORCES, KOREA

                               WITNESSES

ADMIRAL JOSEPH W. PRUEHER, COMMANDER IN CHIEF, UNITED STATES PACIFIC 
    COMMAND, U.S. NAVY
GENERAL JOHN H. TILELLI, JR., COMMANDER, UNITED STATES FORCES KOREA, 
    U.S. ARMY

                              Introduction

    Mr. Young. The Committee will come to order.
    Pursuant to a vote in the Committee last week, this hearing 
is closed so that we might have the opportunity to discuss any 
classified material that any of us would like to discuss.
    Today we are very happy to welcome Admiral Joseph Prueher, 
Commander in Chief, U.S. Pacific Command, and General John 
Tilelli, Commander in Chief, United Nations Command, Republic 
of Korea and the U.S. Combined Forces Command and U.S. Forces, 
Korea.
    It is good to see you both again and to have you visit with 
the Committee. We enjoyed our previous visits and look forward 
to an exciting hearing today.
    We understand the area of your responsibility. We know how 
extensive it is, including 50 percent of the earth's surface 
and 60 percent of the world's population; and, from a military 
perspective, it includes five of the seven U.S. mutual defense 
treaties and seven of the world's largest armed forces. That is 
a bunch. You do such a good job at it. We are really proud of 
what you do and what the people that work under you do.
    In that region, we maintain a continuous presence of 
approximately 100,000 military personnel performing missions 
ranging from assisting in humanitarian demining to guarding the 
dangerous intra-Korean border.
    Some of the issues that we would like to hear about today, 
and we will be asking questions about, include the current 
situation in North Korea; the economic problems in South Korea 
and Japan and how they affect those nations' ability to 
maintain their security commitments; the recent change of 
government in South Korea; and the continued military 
modernization being undertaken by China.
    Your prepared statements will be placed in the record, and 
please summarize them in any way that you wish. As you might 
expect, there will be a lot of questions then from the members 
who are extremely interested in what you do and how you do it.
    Mr. Murtha.

                         Remarks of Mr. Murtha

    Mr. Murtha. Let me just welcome two of the finest officers 
in the Naval and Army service, and we appreciate you coming.
    I just made a trip--the Chairman went one way and I went 
the other way--to Korea and the Pacific, and I am always 
impressed about how far it is out there and what a large area 
of responsibility you have and the tensions that exist. But I 
was also impressed by the quality of the troops and the morale 
and how well things were going. So I appreciate when you have 
to come back here. It is a long way home.
    Admiral Prueher. Thank you, sir.
    Mr. Young. Admiral Prueher, we will hear from you first, I 
understand, and then we will go to General Tilelli.

                  Summary Statement of Admiral Prueher

    Admiral Prueher. All right, sir. Thank you very much.
    You have covered our region, but it is an honor to be here 
before the Committee, and we thank you for the opportunity to 
represent the men and women of the Pacific Command.
    What I would like to do today is give a quick update on our 
assessment of the security position in the Asian Pacific. 
Because of the economic crisis in Asia, I would like to talk a 
little bit about the logic train for our activities and what we 
are doing, the issues ahead, some of our priorities, and then 
spend a little time talking about readiness.
    I would like to point out one example of what we are doing 
that I think will make things coalesce a bit.

                        STRATEGY IN THE PACIFIC

    Our strategy in the Pacific is important because of what is 
going on economically. It is based on two premises. The first 
of those is trying to work the economic part, the political 
part and the military part in concert to try to work and 
advance them at the same pace and not get one too far ahead of 
the other. It works out well that way, and we work it hard that 
way.
    The other premise is the fact that security, especially 
military security, underlies the stable conditions which allow 
the economies to work. Madeleine Albright talked about how the 
economic system rests on political order, which in turn depends 
on military security, which is the same way of saying that. So 
we are in a region that is at peace but not conflict-free, and 
military security is what we are trying to provide for our 
Nation and the region.
    You have heard Secretary Cohen talk about ``shape, respond 
and prepare'' from the QDR. We translate it in our theater and 
into preventive defense, crisis response and, in addition, the 
ability to fight and win a major conflict which, if it should 
occur, would most likely be in General Tilelli's theater in 
Korea.

                       FORCES IN PACIFIC COMMAND

    Now each of these things requires credible military forces 
which can respond in a quick way, and this is what we do. This 
is the essence of what we do. These ready, forward-deployed, 
properly positioned forces are what we are about.
    I would like to tip my hat to the 300,000 men and women in 
the Pacific Command and upon whose shoulders I ride. I couldn't 
do anything, and none of us could, without them. They are just 
excellent. They really are. I hope when you come out there you 
will see them and be very proud of them like we are.

                         AREA OF RESPONSIBILITY

    The focus of our effort. What are the big pieces we are 
focused on here for the future? I am going to talk about five 
of them.
    The first is Japan, preserving our pivotal security 
relationship in the Pacific. It is a strong one. Things are 
working well with Japan. It is not trouble-free, but the 
biggest things we are working right now, one is Okinawa issues 
and the other is the defense guidelines where Japan is trying 
to determine their role in security in the Pacific.
    The second, and a big issue that is talked about 
everywhere, is that of China. What are we doing with China? It 
is the backdrop for all of our discussions. I will save more 
for Q's and A's, but, basically, we are building a very healthy 
military-to-military relationship with China in the context of 
our overall relationship. It is moving at a slow rate, but that 
is the way it should be moving, at a slow rate, as we build 
some understanding and build confidence.
    My thoughts as to what we are doing with China is we are 
trying to lay foundations for the future of the relationship. 
We have talked with the senior PLA leadership and, China's 
President; and what we are doing is we are building this so we 
can accommodate both differences as well as things on which we 
agree without having the whole thing fall apart all the time. 
So that is number two.
    Number three is India. India is a very large country, the 
largest democracy in the world, the second largest population. 
We expect it to exceed China's population in the next century. 
Quite frankly, we don't do a lot militarily with India. It is a 
modest mil-to-mil relationship, and we are building that. It is 
not urgent, but it is important for the future, and we are 
trying not to take our eye off the ball in South Asia.
    The fourth one from the PACCOM point of view, is we are 
trying to help create the conditions for General Tilelli in 
which he can work to create a noncataclysmic resolution on the 
Korean peninsula. As you all well know, Korea is the only 
nation to which the United States has one of our four-stars 
assigned full-time, which is tremendously important to us. 
General Tilelli in his three hats and his staff do a great job 
there, and he will cover Korea in some detail.
    The fifth item that we are concerned about is the impact of 
the economic or the financial crisis in East Asia on the 
security relationships. I would like to make the point that 
this economic crisis is, in fact, a security crisis, if we 
don't handle it well. It is important because there are some 
opportunities associated with this crisis as well, and I point 
out the Chinese word for crisis incorporates two characters--
one is danger, the other is opportunity--and that is exactly 
where we are with this economic crisis that exists in East Asia 
right now.

                                THAILAND

    I said I would give an example of our preventive defense 
that we are doing with the other nations. I would like to use 
Thailand as that example. Thailand is a treaty ally. They have 
been steadfast since the Vietnam days. They have been on our 
side. They have allowed us to base there. We have fought side 
by side. They have allowed us to stage our aircraft going to 
the Persian Gulf, going to the Arabian Gulf through Thailand 
despite some outside pressure, and they have been a strong U.N. 
player throughout. They are a good friend of the United States, 
and they look to us. They are going through a period of both 
political and economic instability that is one of the worst in 
East Asia and Southeast Asia.
    About 4 or 5 months ago, there was a situation where the 
government--Prime Minister Chavalit was falling, and there was 
some corruption. The military leaders there and the military--
the head of the Royal Thai Armed Forces is a general named 
Mongon Ampornpisit, and he is a friend of ours, and he is also 
an IMET graduate. He and General Chetta, who is the head of the 
Army were under a lot of pressure to take over the government, 
to run it, to stop the democratic processes. And Mongon and 
Chetta, together, really held Thailand together through that 
period. They stood fast behind the government and behind the 
democratic process.
    Now, they have had an election. They have elected a new 
prime minister. They are swallowing the IMF pill and hope that 
it is the right prescription. But they are working it hard, and 
the level of pain in Thailand is such that the senior military 
people, for example, are taking a 20 percent pay cut. It is a 
shared burden in Thailand, but they are somewhat cheerfully all 
going about this, because they believe that the IMF is the 
right medicine and that they will get back on the beam.
    It is a tribute, I think, to what militaries do in a 
democracy. It is what we have been trying to work on in this 
region and in other regions of the world, too, to build 
democracies. It is a strong democracy with a responsible 
military. The notion or the idea that their senior military 
people trained with the United States, that they are inculcated 
with our ideals, is very important, and I think it is a tribute 
to them, and it will be important for the long-haul.

                               READINESS

    I would like to shift now to talk a little bit about 
readiness. Readiness is something we all discuss at some 
length. We all have anecdotes, I have a lot of them, and I am 
sure each of you do as you travel around the region. But I 
would like to define readiness for a geographic CINC. 
Fundamentally, for a military commander, it is having the right 
forces at the right place at the right time and prepared to 
fight the right war.
    Now, under that umbrella, we look at six different things. 
The first is qualified personnel. The second is combat capable 
equipment. The third is the appropriate level of maintenance 
and spares. The fourth is training of these people to use the 
equipment. The fifth is tactics, which is different from 
training. It is with sophisticated tactics that our people--
that we can capitalize on both the equipment and the people's 
capabilities. The sixth point that we look at very carefully is 
the ability to move these forces, the hardware and the support 
equipment, to the right place, to be able to lift it to be at 
the right place at the right time.
    Those are the issues that we have, and that is what we look 
at and what we mean at the CINCs level when we talk about 
readiness. We measure each of these things, each of these six.
    But in the conversations with readiness, people talk about 
it at three separate levels, tactical, operational and 
strategic. Where we get the anecdotes is at the tactical or the 
individual unit level. So we look at readiness at those levels: 
Can the airplane fly? Can the ship get underway? Can the tank 
run and shoot? Those are the types of things we look at for 
readiness.
    The next level up of aggregation, from that or the tactical 
level, is the operational level where we aggregate units into 
carrier battle groups or divisions or joint task forces, and 
then we look at an aggregate level of readiness there with 
additional command and control parts to it.
    Then, when we get up to the CINCs level, we aggregate it 
even farther to the strategic level where we pull all of those 
things together, and then we look at the ability to move it 
from one place to another and to be able to work. So it is a 
hierarchy of things.
    So sometimes what we will say, what I will tell you later, 
is that the PACOM forces are ready. But that does not mean that 
they are not individuals or units that don't have deficiencies, 
they do. But, overall, the units are ready; and that is that 
hierarchy that we are talking about. Overall, our forces are 
ready. We are ready at the large level to do our mission.
    Now, can we do it as quickly as we might like? Can we do it 
on time? Right now, the answer is not as quickly as we would 
like. General Tilelli will tell you more about that.
    We have a carrier battle group gone out of the western 
Pacific that is in the Gulf. Now, what we could do if the 
situation warranted, we could bring another carrier battle 
group from the West Coast of the United States and have it 
there. We could bring other forces, but we have done what we 
consider to be prudent risk in this, and we have brought some 
other forces in, but not a lot, to accommodate the situation in 
Korea. Because, in our assessment, the likelihood of a conflict 
is not high right now. But we need to look at that 
continuously.
    Our readiness management systems, the acronyms are SORTS 
and JMRR, these systems, I would give them a grade of about a 
C. They are not very good. It is a hard thing to do, to measure 
these gradations of readiness. But we are working on the 
systems, the joint staff is working on the systems, OSD is, as 
are we, to get a better handle on measuring readiness and 
making it more predictive.
    We can discuss much more of this if you would like in 
questions and answers, but the bottom line about readiness is 
that this is the context in which we discuss it. Our forces are 
ready. There is some risk involved, and General Tilelli will 
talk about that more, but because of time delay right now, 
should something happen in Korea, we incur some additional 
risk, and we think it is acceptable to take at this point.

                                SUMMARY

    So I would like to conclude, Mr. Chairman, with a thanks to 
your Committee for you all, for your travel into AOR. I hope 
that more people will do it more. Thank you very much for your 
support for what we do. It is great to work with you and for 
you with our mission. Thank you.
    Mr. Young. Admiral, thank you very much. As Mr. Murtha and 
I have both said, we are very proud of the work that you all do 
and the way that you keep our interests protected in your part 
of the world.
    [The statement of Admiral Prueher follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Young. General Tilelli, we are happy to have you back 
again, sir, and we will be glad to hear from you at this time. 
Then we will be prepared to bombard you with very in-depth and 
interesting questions.

                  Summary Statement of General Tilelli

    General Tilelli. Thank you, Mr. Chairman, distinguished 
Committee members. It is again my distinct honor to be here and 
represent the men and women who serve in Korea.
    Let me start by thanking you for the continued support of 
our forces. As Mr. Murtha saw when he was in Korea, there is 
absolute progress as a function of the support that you have 
given us in the last 5 years as far as quality of life of the 
men and women who are serving there. Soldiers, sailors, airmen 
and Marines and civilians of the United States forces 
absolutely benefit from your support. You enable me and us in 
the United States to achieve our theater mission of deterring 
aggression. We have done that successfully, maintaining 
readiness, and that is the key to the next element which is, if 
there is conflict, to be prepared to fight and win, and, 
hopefully, we will not have to do that.
    To accomplish our mission, my strategy is clear: One, 
strong forward presence. They are the forces that are in place, 
the 37,000 forces that are in the Republic of Korea and those 
in the Pacific that feed the theater very quickly; secondly, a 
very vibrant exercise program; and, thirdly, the tenets of 
power projection. If we can't get the forces there on time, we 
take additional risk and we suffer additional losses.

                          NORTH KOREAN THREAT

    So in my mind's eye, we focus a lot on the economic turmoil 
and the economic turbulence in the Asian area. We focus on the 
food shortage in North Korea. But I must say, there is still a 
significant military threat north of the demilitarized zone. 
The massive military machine of the DPRK and the North Korean 
regime is real and has not gone away. They continue to muddle 
through, despite past predictions of imminent collapse and 
their desperate situation. In the South it is very 
disconcerting when we see the contrast of military operations 
and a very large military on one hand and the humanitarian 
support that is provided in terms of food on the other hand.
    While we are all touched by this human suffering brought 
about by the breakdown in their economic system, we also look 
across the DMZ at an enemy that is fully prepared. The North's 
winter training cycles of the last 2 years have been robust and 
very active; and, right now, they are engaged in the final 
stages of their winter training cycle.
    Chemical weapons and other theater ballistic missile 
research and development continue unabated. These actions are 
indicative of a nation that is willing to sacrifice everything, 
to include its general population, to maintain its trump card, 
which is a significant military; and that military is a viable 
instrument of its national power and may be the only one it has 
left.
    Many intelligent people have predicted, through evaluation, 
that the situation in the North is dire and the Kim regime is 
destined to collapse in the near future. I will not predict a 
collapse in the North, because I believe the regime is much 
more resilient than we sometimes give it credit for. I will say 
the possibility of collapse in itself is also troubling in that 
it also causes us challenges, not only for the United States 
but for the Republic of Korea.

                   ANTIPERSONNEL LANDMINES MORATORIUM

    One of the issues that I feel it is important that I 
address to you as a part of my ability to meet the threat in 
the event of conflict is the moratorium on antipersonnel land 
mines. As you know, the President and the Department of Defense 
have a plan to replace these weapons between now and 2006, and 
I support the plan and have been involved in devising that plan 
with the Chairman and the Joint Staff.
    However, the fiscal year 1996 Foreign Operations 
Appropriations Act places a prohibition on the use of land 
mines, other than along the demilitarized zone, beginning in 
February of 1999. Under this moratorium, I will not be allowed 
to use remotely placed, self-destructing SMART mines to help 
block penetrations and shape the battlefield. By remotely 
emplaced, I mean air or artillery delivered, other than along 
the demilitarized zones.
    These systems are a critical component of my overall 
campaign plan. They are technologically advanced, reliable and 
not responsible for the humanitarian crisis that we say the 
indiscriminate use of older mines causes.
    I submit to you that until we can find a suitable 
alternative in accordance with the President and the Department 
of Defense's directive, I ask that you look at or relook at 
that legislation, which would synchronize with the 2006 
administration policy on use of antipersonnel land mines.

                  ALLIANCE WITH THE REPUBLIC OF KOREA

    The cornerstone of our ability to defend and deal with 
contingencies is the strength of the Republic of Korea, ROK, 
and U.S. alliance, and many of you have seen that. It is a 
strong, vibrant and evolving alliance. It is a model, as far as 
I am concerned, for other alliances around the world. But, as 
you know, this is a time of unprecedented change in the 
Republic of Korea; and I will address those issues during 
question and answer period, Mr. Chairman.
    First, we as Americans should take pride in the emergence 
of the Republic of Korea as a full-fledged democracy. The 
recent inauguration of Kim Dae Jung marked the first time that 
an opposition party assumed leadership through a civilian-to-
civilian transfer.
    We in the Combined Forces Command, at the same time, 
continue to be committed to being prepared and ready. In the 
Combined Forces Command it has been my great privilege to 
command a unique and outstanding military organization. It is a 
organization that epitomizes the Goldwater-Nichols reforms. We 
are joint and combined every day, and we support all of the 
tenets of Goldwater-Nichols.
    The duration of our involvement in Korea causes many not 
serving there to think that the status quo in Korea remains, 
but this is far from the truth. We face a threat that has a 
very large conventional force and also possesses asymmetric 
threats--namely, Special Operation forces and chemical weapons 
and the missiles to deliver them. But, at the same time, we 
have a modernized, well-trained force that stands ready on 
freedom's frontier.

                               RESOURCES

    While the resources are strained, I would be less than 
candid if I said we had everything we needed. The ROK and the 
U.S. governments support the Command sufficiently to ensure 
that we are capable of deterring aggression and to fight and 
win if the North miscalculates and attacks. In short, my 
current operations and maintenance funding is adequate to 
accomplish the operational mission. But I accept some risks, as 
my current fiscal year 1998 funding levels maintain operational 
and unit readiness. On the other hand, in order to meet these 
standards, I accept shortages in my base operations, which 
directly accounts for quality of life of my service members.
    The fiscal year 1999 profile projections of my OPTEMPO and 
operational readiness are at levels where I still can maintain 
adequate levels of readiness where I am comfortable; but, at 
the same time, we still are strained in the base operations 
areas.

                         QUALITY OF LIFE ISSUES

    Transitioning to that issue, let me talk about quality of 
life of the service members, their families, the few families 
we have in country and the civilians of the command. I consider 
it critical not only for their welfare but also for their 
ability to accomplish our mission.
    First, again, I express our appreciation for your Military 
Construction, MILCON, support. That has helped, and it will 
continue to help. But, as we address the issue, we must keep in 
mind that these outstanding young men and women--and they are 
outstanding, the quality of our troops. The men and women who 
serve has not changed. These are the people who would bear the 
burden of combat and who wake up each day to the reality that 
one of the most threatening situations in the world is just 
outside their doors. They perform their mission every day, 
their Personnel Tempo, which in my lingo means they are away 
from home for 365 days, since they are on a short tour and 
hardship tour in Korea. They serve on this hardship tour 
admirably and with great character and courage. They are still 
the best our country has, and they deserve our best support.
    We are making progress. I have said that. The return of 
MILCON funding after the hiatus, the last 4 years in MILCON 
funding is making a difference, as is the Korean host nation 
funding support. However, the problems are not solved.
    The infrastructure is overdue for a major recapitalization 
and overhaul, and it will take us years to meet the Department 
of Defense standard. And I am not looking to meet that standard 
immediately. I am trying to get my troops into what I call 
adequate quality of life. But I still have a significant number 
of personnel living in inadequate facilities that many of you 
have seen during your visits to theater.
    I ask that we build on the progress that you and your ROK 
counterparts have made, and I want to assure you that I will do 
my best to spend those resources most effectively and 
efficiently and will not waste those resources and I will put 
them on bases and camps that have the greatest long-term 
utility.

                                SUMMARY

    In closing, I submit to you that this is a time when we 
must remain stalwart beside our allies, and the turmoil of the 
economic situation must not be allowed to grow into a security 
situation. Security, in fact, has been the greatest asset that 
the Republic of Korea has had over the last 40-plus years in 
the tremendous economic growth that it had success in up until 
the recent turmoil.
    During this time of turbulence, we have the opportunity to 
reinforce our position as the honest broker in the region. The 
next few years will prove pivotal in the security environment 
in the Republic of Korea and potentially in Northeast Asia. The 
agreed framework to dismantle the nuclear program in the North 
appears to be working. The four-party talks are just beginning. 
These are positive signs, and we think we are moving in the 
right direction. However, the time line for resolution is still 
debatable.
    For the foreseeable future, we must remain vigilant and 
strong; and, for the long term, we must remain engaged. Because 
the area is too important for us not to be engaged. Your 
support is vitally important to me.
    Again, I thank you for that; and I am prepared to answer 
your questions or the questions that you raised, Mr. Chairman, 
or any others.
    Mr. Young. General, thank you very much. I think all of us 
would agree that, since we know something about our operation, 
that you are not wasting the money over there. You are getting 
a lot for the dollar that is made available to you.
    [The statement of General Tilelli follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                  STRAIN FROM OPERATIONAL COMMITMENTS

    Mr. Young. I want to ask a general question of both of you.
    As we support the indefinite extension of the NATO mission 
in Bosnia, or whatever that operation might be and for however 
long it might last, and the deployment of U.S. forces to the 
Persian Gulf, that are obviously going to be there longer than 
some of us expected--and General Tilelli, I read some comments 
that you had made about the fact that you lost the carrier 
battle group, and I think the Air Force is tying to make up for 
that vacancy by assigning some additional F-15s there--how long 
can we continue? General, you used the word ``strain.'' How 
long are you going to be able to continue this strain without 
breaking something really bad?
    General Tilelli. That is a very difficult question to 
answer. I mean, the fact that we are in a strained resource 
environment down at the unit level or at the component level 
and the commanders are in an environment where they are always 
balancing the Operational Tempo, which equates to readiness, 
and the base operations, which equates to quality of life, and 
the priority always goes to the Operation OPTEMPO to keep that 
readiness high, or must go to Operation OPTEMPO in my mind, 
especially to Korea. So the consequence is you are not doing 
some of the infrastructure repair and maintenance that you 
should be doing to not only recapitalize but to maintain your 
facilities so you don't have water main breaks and electric 
outages, et cetera, et cetera.
    So, over time, you don't know how long it is going to take 
for that piece of the puzzle to break, where you really have to 
put in a larger investment than you want to, than you would 
have had to if you had continued to support it all along.
    So that is the strain at the Operation and Maintenance 
dollar level that I talked about, and base operations is the 
short end at this point.
    Mr. Young. What about in the overall Pacific region that 
you have responsibility for? You have to be feeling the strain 
in places other than Korea.
    Admiral Prueher. Yes, sir, we are. The strain comes in--
just an example, we have some of our assets out of the Pacific 
theater that are involved in Europe as we do global sourcing. 
We will have aircraft--an aircraft squadron will deploy to 
either Incirlik, for Operation Northern Watch or to Southern 
Watch. That occurs from time to time.
    Right now, from a naval point of view, there are 60 ships 
in the Gulf, in the Arabian Gulf. There are 17 coalition ships, 
43 U.S. ships, of which 24 are out of the Pacific Command. Now, 
this is--some of this is normal because CENTCOM doesn't own 
assets of their own, so we expect to do that some.
    But the strain comes in increased deployment time. It comes 
also in terms of opportunity costs. With the Independence 
carrier battle group, the fact that they are there in the Gulf, 
they would be underway probably anyway. But they are not doing 
work for us in our theater of being proximate to Korea should 
they be needed or doing exercises with other nations that we--
or training and interoperability training that we would be 
getting in our theater. So it is an opportunity cost. We have 
had to cancel several events that they could not participate 
in.
    We have the electronic support aircraft, the EA-6Bs, that 
would normally be stationed in Iwakuni in support of General 
Tilelli for contingencies are not there. They are both at 
Aviano, and they are also at Southern Watch. They are 
distributed there.
    How long can this go on? That is a tough question. Because 
if--I think--if the nation needs it, if we are at war, some of 
these, the 6-month deployment cycles and things like that can 
go away. But for now--this seems to be almost a routine--we are 
incorporating it in our routine operations. So the Chief, Naval 
Operations-CNO has said, talking about ships in the Gulf, that 
we could support that indefinitely, as long as we are willing 
to pay the cost in the Mediterranean or in the Pacific Command. 
For us, a maritime theater, the cost is high. It is a gradual 
erosion of our interaction with other countries. We could not 
respond to a crisis as easily.
    The last time in the China-Taiwan Straits 2 years ago we 
were able to respond in 3 days with a carrier battle group that 
happened to be coming out of Manila. Now, the soonest we could 
respond would be 14 days to a similar type crisis should one 
arise.
    So I can't really give you a time line on how long we can 
stand the strain, but we are eroding our base of preventive 
medicine that we are dealing with in the Pacific.

             TWO SIMULTANEOUS MAJOR REGIONAL CONTINGENCIES

    Mr. Young. And if we had two Major Regional Contingencies, 
MRCs, simultaneously, we would be in deep trouble, wouldn't we?
    Admiral Prueher. We would be heavily strained. We could--I 
still think, General Tilelli and I have talked, we could still 
do it, but, again, the risk factor would go up; and, as General 
Tilelli has pointed out, the time lag to do the second MRC 
would cause increased loss of life.
    General Tilelli. Mr. Chairman, if I could just interject, I 
think the key as we think about two Major Theater Wars--MTWs, 
it really is, in my view, is not associated with winning or 
losing. I think we win. If you are the second MTW, you win. The 
issue becomes the time it takes to get the forces that the 
second MTW needs there. Therefore, airlift and sealift are very 
important for our national security and national military 
strategy.
    Secondarily, when we talk about time, especially in the 
Korean theater without the flow in a timely way, I am taking 
greater numbers of casualties. That is, in a real sense, as you 
raise the risk you mitigate that with time and casualties, and 
that is the only way you can do that. That is the only 
opportunity you have. And not a good solution, by the way, none 
that I like.
    Mr. Young. So the cost would be higher?
    Admiral Prueher. Yes, sir.
    Mr. Young. Especially in terms of loss of life?
    Admiral Prueher. Yes, sir.

                              SPARE PARTS

    Mr. Young. You mentioned infrastructure overhaul, and I 
think we understand what you are talking about there as far as 
your infrastructure, but what about your ability to fight, your 
spare parts? Is your equipment usable today?
    I know when we sit in this room we are often told that it 
is not that big a problem, but if you go out into the field and 
you visit people that are actually operational, they will tell 
you, we have airplanes sitting over here that we have taken 
parts from and some of the parts we get from the depots don't 
work when they get here. From the field viewpoint, the 
Committee has increased funding for spare parts almost every 
year in recent years, and we want to make that problem go away, 
but it seems like the more we spend the more the problem still 
exists.
    So from the standpoint of those of you in the field, what 
is happening with spare parts, the cannibalization of airplanes 
or any other types of equipment?
    General Tilelli. Mr. Chairman, let me talk about the 
Republic of Korea. I am indeed fortunate because I am a high-
priority area, so the consequence is I have very high readiness 
rates and very high readiness rates and very high personnel 
rates. And I know that not only from reports but by talking to 
commanders at all levels. And I think when Mr. Murtha was there 
recently he saw that the kids in the field they train hard, are 
ready to fight, and maintain good readiness.
    The parts flow to me seems, in my theater, both for the 
preponderant forces which are Army and Air Force's, seems to be 
on track with no great time lags from request to delivery or 
ship time. So I am in a relatively good position for those 
areas that you talk about.
    Admiral Prueher. In my comments about readiness we talked 
about the tactical or the unit level, the operational level and 
then the strategic level; and I think most of the people you 
talk to in this room are thinking about the strategic level and 
some of the other things that we can do. When you go out and 
you talk to people that are turning wrenches and replacing 
parts and working on things, flying airplanes or ships or 
tanks, they see the problem in a different way. I would----
    Someone just mentioned over lunchtime, it is sort of like 
the unemployment rate. We have the lowest unemployment rate, 
but if you happen to ask somebody that is standing in the line, 
you get a different answer than you do from the statistician.
    So what we have with the parts issue, there are forward-
deployed units not only in Korea but the forward-deployed ones 
in the area at pretty peak readiness. They don't have major 
problems forward for that.
    On the turnarounds, as people are back in the United 
States, I think if you asked Admiral Gahman from Atlantic 
Command, ACOM, he would have a little bit of a different 
answer. Because they are the people that are on the turnaround 
that are not forward deployed, and they have a problem.
    We have been pulling to try and get some data. I will give 
a percentage on cannibalization rates which you all understand. 
If you have to take a part out of an airplane or tank and put 
it in another one instead of taking it off a shelf, you are 
cannibalizing it. It requires extra maintenance actions, 
timing, money, all of those things.
    In PACAF, our Pacific Air Forces, the cannibalization rate 
in 1995 was 6.6 percent, which is about right for--actually, 
you would like it to be very low. This year, in 1997, it was 
15.9 percent cannibalization rate. So we have had two and a 
half times thes previous rate. It is a parametric indicator of 
the parts problem that we are talking about in PACAF, and we 
are trying hard to put together the actual data and not to try 
to skew the data to make a case but just find out how bad is 
this problem.
    Mr. Young. Well, the reason I raise this issue is because I 
have talked with a lot of officers who have the responsibility 
to keep airplanes flying, for example.
    While Mr. Murtha had his group in Korea, I had another 
group in the Gulf area. And at the Prince Sultan Air Base I was 
told that their overall records look pretty good on the 
availability of airplanes for flight, but that the way they 
kept from having hangar queens, that when they got to about the 
25th day of one plane being down because they took parts, they 
took parts from airplane B to put back into airplane A so that 
airplane A didn't get on the cannibalization list as a hangar 
queen. And the 30 days began to run on airplane B. So when the 
25th day on airplane B came up, they robbed another airplane. 
So their overall records look good, but they were just 
constantly changing parts.
    Admiral Prueher. Yes, sir. Our measuring system is probably 
not quite right if we are driving that kind of activity.
    Mr. Young. We will keep trying to get the spare parts there 
on time so they don't have to do that.
    Admiral Prueher. Yes, sir.
    Mr. Young. Mr. Murtha.
    Mr. Murtha. About 12 years ago when another gentleman from 
Florida was Chairman of the Committee, after a presentation by 
one of the four-stars I called Admiral Crowe and I said, it is 
the worst presentation I have ever seen in my life, and I am 
embarrassed. The guy didn't answer a question.
    You may remember it, Bill. It was one of the worst we ever 
heard.
    Well, last year after the presentation, I called General 
Shalikashvili and I said, that it was one of the best 
presentations. Admiral Prueher made one of the finest, 
sophisticated, comprehensive presentations I have ever heard to 
this Committee, and I reiterate that today. I appreciate your 
comprehensive knowledge of such a large area and what you bring 
to this Committee.
    I will say about General Tilelli, I never got a more 
straightforward--I mean, he gets up in the morning and he 
works, and he makes sure that we work. We had a delightful 
visit, but he made sure that I saw what I needed to see so I 
can come back and report to the Chairman and the Committee the 
deficiencies and, at the same time, the progress that has been 
made in Korea.
    So I really don't have any questions. I just have nothing 
but compliments for both of you and the fine work that you are 
doing out there.
    Admiral Peueher. Thank you, sir.
    Mr. Young. Mr. Lewis.

             INTERNATIONAL MILITARY EDUCATION AND TRAINING

    Mr. Lewis. Thank you, Mr. Chairman.
    Admiral, General, we very much appreciate you being here 
and the effort that is required to travel back for this 
hearing.
    Admiral, in outlining the region quickly at the beginning 
of your remarks, you talked about both China and some military 
circumstances, India, what we know and don't know about their 
military condition. International Military Education and 
Training--IMET was mentioned when you referred to a General in 
Thailand earlier. I am not sure whether we have IMET programs 
that affect either of those other two countries, China or 
India. Do we have?
    Admiral Prueher. We do not have one with China. We have a 
small program with India under $500,000 per year.
    Mr. Lewis. The reason I am asking this question is that I 
remember the days when we were focusing upon problems in Latin 
America I spent a good deal of energy looking at the role of 
IMET and the impact it had upon attitudes of their officer 
corps and how we saw the values of IMET in dealing with other 
countries over time.
    It seems to me that that kind of exposure and training of 
military leaders from countries like India and China are pretty 
critical items for consideration. If we don't have one with 
India, which is going to be the largest country in the world, 
if it is not already. They are not doing the kind of population 
control China is doing and clearly are spending a large amount 
of their budget in the volatility, vis-a-vis Pakistan.
    Admiral Prueher. Right.
    Mr. Lewis. Why don't we pursue these programs?
    Admiral Prueher. Well, the IMET programs with China is 
something, as we move along with China, it is a little delicate 
to push them too fast.
    Mr. Lewis. Of course.
    Admiral Prueher. So we are working at a lot of 
intersections outside the IMET program with China.
    We have an increasingly robust relationship with China, 
though it does not include getting them to our defense 
universities or at Leavenworth or places like that that the 
IMET program would bring. That is downstream in our process. We 
just aren't there yet.
    Mr. Lewis. Well, in connection with that specifically, I 
have spent a good deal of time looking at China; and one of the 
items that continues to come into my imagination is that we 
really need to be thinking about 2025 every bit as much as 
1999. Developing economic relations, university relations, 
political relations, et cetera, the more of the personalized 
kind of exposure we have to young officer corps, it is just 
invaluable; and I would hope that we would really be talking 
that through.
    Admiral Prueher. Mr. Lewis, I couldn't agree more. In the 
last year we have come a long way with China, less far with 
India. But the meeting with President Jiang Zemin, Chi Hoatian 
their defense minister, and coming soon to the United States 
will be General Zhang Warnian, who is their senior PLA General, 
and a variety of others--Fu Quanyou, who is their chairman 
equivalent. We have been working back and forth with them this 
last year. In fact, in the travelogue world, I was in China in 
December and January.
    We are working it really hard. We have agreed at the level 
of their most senior leadership that we do need to have these 
interactions, and they should not just be amongst us because we 
will be gone shortly, and we are pushing it down. There are 
several initiatives going on. We are not to the IMET stage yet.
    We have the Asia Pacific Center, which is in Honolulu, 
where we have invited the Chinese to come. They have not yet 
accepted that, but they will.
    I would like to take the opportunity to comment about IMET 
with Indonesia, which we talked about last year here. The 
example I gave with General Mongkon in Thailand--and this may 
be a little bit off the track of your interests--but the point 
we made with General Mongkon on the fact that he is an IMET 
graduate, in Indonesia we have not had an IMET program for the 
last 6 years, and we have issues with Indonesia on human rights 
and things like that. My view is that this is exactly the wrong 
tack to take, to cut them off from exposure to our processes, 
as opposed to that we should try to get their leadership into 
our processes.

                          RELATIONS WITH INDIA

    Mr. Lewis. Admiral, let's discuss India for a moment. I 
know that we don't have a lot of in-depth communication with 
their military that we should. I mean, after all, their officer 
corps doesn't just speak English, the British were there for 
200 years, and there is a lot of potential problems--not just a 
Pakistan-India relationship.
    Currently, economically, our exchange relative to software 
people is incredible. There is not any doubt that there are 
several natural avenues, but I wonder if we don't have 
preconceived notions that are cutting off avenues of 
communications. I think we really need to be developing a good 
relationship. Because they are a huge force, and they could be 
a dangerous force.
    Admiral Prueher. We are. Ambassador Chandra, India's 
ambassador to the U.S., was just at our headquarters last week; 
and we made a visit to India to try to set this up last year. 
They are--after watching what we have been doing with China, 
India is now energized a little bit to open up some more, 
because they were, you know, a Soviet Cold War partner. So that 
is sort of the baggage that we are working with right now.
    Mr. Lewis. Probably our baggage as much as theirs.
    Admiral Prueher. That is right. Exactly. I have some 
anecdotes that I won't take up the Committee's time with, but 
we are working that.
    And General Reimer is going to India. We will go along 
because they are in our Area of Responsibility--AOR. We will 
try to get the same type of setup going where we start to work 
these interactions. But it has been dormant for a while, and 
just in the last year we have been getting it off the ground.
    Mr. Lewis. When is General Reimer going?
    Admiral Prueher. I believe in the fall or the spring.
    Mr. Lewis. Why don't you let me know?
    Admiral Prueher. I will. I will get back to you on that.

                   ANTIPERSONNEL LANDMINE MORATORIUM

    Mr. Lewis. General Tilelli, you were talking about a couple 
of things that captured my imagination when you talked about 
the battlefield and remotely placed landmines and legislation 
impacting you ability to shape the battlefield and then you 
talked about special forces across the line that have 
deliverable weapons of mass destruction, all of that raised a 
number of concerns.
    When that language went forward relative to landmines, was 
there not some consultation with people like yourself relative 
to these possible impacts?
    General Tilelli. Sir, in fiscal year 1996, when that 
legislation went forward, it was a fiscal year 1996 Foreign 
Operations Appropriation Act. I can't answer who consultation 
occurred with. Now, certainly, since then, all of us have been 
consulted and collaborated with by both the Department of 
Defense and the Chairman and the joint staffs.
    Mr. Lewis. Foreign Operations is an Appropriations 
subcommittee, and its language or its impact is limited to a 
year at a time, I think. Is that language just being renewed 
every year?
    General Tilelli. This moratorium goes into effect in 
February of 1999. So I think for the use of remotely emplaced, 
Anti-Personnel Landmines--APL, I think that carried forward.
    Mr. Lewis. I wonder if staff would help me examine that. 
Normally, our language lasts for a year and doesn't go forward. 
I am just curious about it.
    General Tilelli. It is a reintroduction on a year-by-year 
basis.

                         ASIAN FINANCIAL CRISIS

    Mr. Lewis. On a year-by-year basis in foreign ops. Well 
then, we do have to look at that very carefully. You have 
authorization language in foreign ops that affects a 
battlefield, for God's sakes, and that is a significant item. 
We ought to at least examine it.
    If I could shift back for a moment, I understand that the 
suicides have quadrupled in Thailand in recent months; and it 
has been suggested that that is a reflection--people jumping 
out of windows, kind of like Wall Street in 1930--that is a 
reflection of the economic condition there.
    Can you give me a feeling for what kinds of instability 
that you see as a direct result of economic crises that could 
bring us to the point of having to exercise ourselves in a 
confrontational sense in some way?
    Admiral Prueher. Well, I was in Thailand last week, in 
Bangkok, and I had the opportunity to meet with the Prime 
Minister Chuan and the Foreign Minister Surin and then the 
General that I mentioned, General Mongkon, who I always see 
when I go there. I had not heard the figure about suicides.
    In Thailand itself, I think the people there are very 
concerned about the city-poor; the poor people in the 
countryside will be okay. Their standard of living is modest, 
and it is slightly more modest, but they will have food, 
clothing and shelter. So the situation in Thailand I think is--
they have hard times ahead, but it is stable.
    Now, is the question region-wide?
    Mr. Lewis. It really is region-wide. I was thinking earlier 
on about the Chinese devaluation potential.
     Admiral Prueher. Right. The Chinese have said they will 
not devalue, so that is--hopefully, they won't get pressed into 
doing that.
    The types of security issues that we see there are, with 
the economic instability, primarily in South Korea, Indonesia 
and Thailand, but the currency or banking crisis has occurred, 
and that happened very quickly. Now it is transitioning into a 
trade crisis as they try to export their way out of 
devaluation. And the growth rates and the optimism that was 
there is not there now. So what we have is economic 
instability. The worst is in Indonesia.
    When I talked earlier about the confluence of military, 
economic and political, what we are trying to do is show--and 
that was the nature of my trip to Thailand, Singapore and to 
Manila--is to show that the U.S. presence, Secretary Cohen's 
statement of we are there in good times and bad, is that we are 
there to buttress the military security piece so that that does 
not exacerbate the economic insecurity.
    So this is what we are working on. There are all sorts of 
shaping, sizing, scoping, adjusting, timing of things that we 
are doing to work with the nations so that they can grapple 
with this economic correction, which they need to go through. I 
mean, there were a lot of bad loans and overoptimism, a 
nonsustainable growth rate.
    Mr. Lewis. Thank you, Admiral.
    Thank you very much, Mr. Chairman.
    Mr. Young. Mr. Dicks.

             TWO SIMULTANEOUS MAJOR REGIONAL CONTINGENCIES

    Mr. Dicks. I want to go back to this issue that was raised, 
General Tilelli, in your memo that was leaked inside the Air 
Force.
    In a memo sent this week to the Pentagon, the Commander-in-
Chief of U.S. Forces Korea warned that, with the threatened 
action in Iraq and the attendant diversion of forces from Korea 
to back it up, his ability to defeat a limited warning attack 
by North Korea is at risk. The concerns expressed by General 
John Tilelli cast doubt on the Defense Department's ability to 
carry out the national military strategy of the last 5 years to 
fight and win in two major theaters of war at once.
    Do you believe our strategy of swinging high-value assets 
between theaters is realistic in scenarios involving little or 
no warning?
    General Tilelli. I think it is realistic, but it is very 
difficult, and at the same time----
    Mr. Dicks. How can it be both?
    General Tilelli. No, you can swing forces. The issue 
becomes--and if you are talking the two MTW scenario, if you 
are using or apportioning the same forces, the second MTW is 
going to have to wait for those forces to be swung. So the 
consequence of that is you elevate the risk, and the risk 
elevation may equate to a number of things. It may equate to 
the kind of things it takes to be successful in defending, the 
amount of terrain that you lose that you are defending if you 
are the second MTW, the length of time it takes for you to be 
able to go on the offense, and the number of casualties that, 
in fact, you will take while awaiting the forces that you 
absolutely need to accomplish one or more of the phases of your 
campaign plan.
    Mr. Murtha. There is one other thing too, if the gentleman 
will yield, sustainment is the big problem, sustaining the 
forces is the big problem in this whole scenario.
    General Tilelli. And there are some high value items such 
as PGM, Precision-Guided Munitions, that truly, the second MTW 
will not have as many as they might need. So it truly is--you 
elevate the risk in a very candid way, in my assessment. What 
you are seeing there is not a--not to be flippant, but that 
falls in the category, sir, of not believing everything you 
read. I never sent a memo to the Chairman that said much of 
that. That was a staff assessment from one staff to the other, 
which was a very appropriate assessment, by the way. And that 
was--and a very appropriate assessment, because it is the staff 
responsibility and commander's responsibility to share 
assessments.
    But the fact is, in my very candid opinion and we have done 
this, we have done it in a number of ways, if I am the second 
major theater of war, I believe I will win, and I believe I 
will achieve the objectives if Korea is the second MTW.
    Mr. Dicks. But it will be as lot tougher. You will take a 
lot more causalities.
    General Tilelli. That is exactly how you mitigate, you 
mitigate a lack of resources by the time it takes, the 
harshness of the fight, and the number of casualties. And I 
mean it would be frivolous of me to say that or for Admiral 
Prueher to say that if you take resources from me today that I 
require to fight, then it is less risk than it was when I had 
those resources. It absolutely increases the risk.
    Mr. Dicks. I don't know how this got into the public 
domain, but I think it is very useful for the people up here on 
Capitol Hill who have the ultimate responsibility under the 
Constitution to know that, we are going to swing assets from 
one area of the world to another area, and still be as 
effective militarily.
    Let me go on and read a little bit more of what this says. 
Despite these stopgap measures, Tilelli says that during the 
first phase of a battle, the denial phase, the absence of 
ammunition sustainment ships places our abilities to sustain 
defensive forces at very high risk, according to the document. 
The combined shortfalls in Patriot, Army tactical missile 
systems, Hellfire and TOW missiles and 120 millimeter main gun 
tank rounds will severely impact our ability to defend Seoul. 
He warns that if our forces are diverted from the Pacific 
Theater to support the operation in Iraq, military flexible 
deterrent options using in-theater assets will be reduced. 
Relying on out-of-theater forces to support the deterrence 
posture would entail delays of personnel and equipment, 
compromising his position.
    And then it goes on to say that the memo, however, is far 
from those who are using the Quadrennial Defense Review--QDR 
plan of fighting 2 major theaters of warfare, Iraq and North 
Korea, in most planning documents is impossible to support 
under the defense budgets over the last decade. The military 
argues that a primary enabler of the plan is the ability to 
swing high value assets like bombers and JSTARS aircraft 
between theaters as they are needed. Tilelli's memo points to 
the Achilles heel of the plan. It only works when there is 
adequate warning of an attack. Because Korea is so far removed 
from the majority of U.S. forces in a limited warning scenario, 
if assets are not in theater, precious days could be lost in 
answering an attack with overwhelming force.

                               B-2 BOMBER

    Now, I think that is very helpful. This gentleman has been 
concerned about the adequacy of our bomber force. I happen to 
think that bringing assets from outside of the theater, if they 
are long-range bombers that can drop these precision-guided 
munitions, would be very useful in a no-warning scenario. And 
even in the QDR where they did everything they could possible 
to say we don't need B-2s, they had to admit that in the early 
warning, in a surprise attack or a no-warning attack, the most 
effective system you would have would be long-range bombers.
    Now, if you don't have all of these other things that are 
mentioned in this memo--I mean it certainly seems to me that 
having a bomber force that could come from outside of the 
theater in support would be of some use, especially if they can 
get there in a matter of hours, and especially if you don't 
have your aircraft carrier there. Admiral?
    Admiral Prueher. May I address it, Congressman Dicks, in 
part because my responsibility in this case is to support 
General Tilelli and to provide him the assets that he needs to 
fight. Not in this case, but period.
    Mr. Dicks. You mentioned in your statement we are short in 
6 areas, 6 substantive areas.
    Admiral Prueher. Right. And there are a couple of things 
that bear--General Tilelli, when assets have gone and then 
light in the theater, for example, EW aircraft, that is another 
scarcity, but the--what he has increased is the Intel 
surveillance and the reconnaissance effort so he gets a longer 
lead time, so we can have as much lead time as we can get to 
move assets into the theater.
    The other thing on the logistic sustainment ships is we 
have been using----
    Mr. Dicks. You know, it is one thing that is so easily 
said, Admiral, but remember what happened in the Gulf War. We 
had 2 days of operational warning and we really didn't act, 
because we didn't think Saddam was going to do it. I mean it is 
one thing to have indications; it is another thing to take 
decisive steps. Sometimes you can't get the National Command 
Authority's attention. In that case they couldn't get the 
deputies' group together to have a meeting. So they didn't make 
a decision, and all of these things didn't flow. So I mean you 
know, it is one thing to say we are going to have indications 
and warnings, it is another thing to be able to act on them.
    Admiral Prueher. I am trying to work my way around to sort 
of supporting your position.
    Mr. Dicks. Well, let me give you one more opportunity.
    Admiral Prueher. The other issue on sustainment ships that 
we talked about, sustainment ships, we are using, we have 14 
sustainment ships in the Gulf right now, and they have been 
used as a U.S. presence indicator in the Gulf for quite a 
while, and some of these are ones that would normally be in our 
theater where we have made a conscious decision, though General 
Tilelli and I argues against it, but to keep them there because 
that was the highest and best use of those ships during this 
time period. So that is another part, and they are quite a long 
steaming distance from Korea.
    Lift is a critical component for us, it is one of those 6 
items on our list. Both strategic airlift and sealift are vital 
in our area where the distances are so large. The point about 
bombers, we have also, in addition to moving the squadron of F-
15s into Korea to partly account for the lack of aircraft 
carriers, we have also flown some B-52 missions to targets in 
South Korea, and just to exercise that.
    So your point about bombers and the condition where we find 
ourselves is certainly, it is a valid point. We could use them 
in this type of condition.
    If I could just finish with one point. The reason we are 
where we are right now is, in talking with General Hugh Shelton 
and talking with the Secretary of Defense, the situation where 
we find ourselves is our assessment is the likelihood of 
conflict in Korea is very low right now. The likelihood of 
conflict in our area is low. We have kept some assets there, 
but it is--we are squirming because we have to look very 
carefully right now because we do have so many assets in The 
Gulf.
    Mr. Dicks. Admiral.
    General Tilelli. The other thing I mentioned, sir, and you 
know this because you have heard the war plan brief, in a real 
sense, the preponderance of the force that fights in Korea 
comes from off the peninsula.
    Mr. Dicks. Right.
    General Tilelli. So the longer it takes for that force to 
close, the longer it is going to take me to initially defend 
and then go on the offensive against the North, and the 
consequence of that will be, or potentially will be, a loss of 
some of the key and decisive terrain that we hope to keep, and 
certainly more casualties.

                            CHEMICAL WEAPONS

    Mr. Dicks. ------.
    [Clerk's note.--The classified discussion was removed.]
    Mr. Young. Mr. Hobson.

         JOINT SURVEILLANCE TARGET ATTACK RADAR SYSTEM (JSTARS)

    Mr. Hobson. Thank you, Mr. Chairman.
    Gentlemen, as I sit here, I get awful nervous when you 
start talking about B-52s and C-141s, those things. I don't 
think we have enough C-17s to do all this stuff. The sealift is 
old and a lot of them not there. It is a real--I knew Norm was 
going to get around to the B-2 before he got done.
    Mr. Dicks. It took me a long time to set it up.
    Mr. Hobson. I know, but that is a long-term problem that I 
don't see a lot of planning for.
    I just have one question I would like to ask you, General. 
The National Defense Panel has two formal reports and in 
testimony before the Congress has questioned the Quadrennial 
Defense Review's reduction in the number of JSTARS and further 
stated that 13 JSTARS is not enough. Would you please discuss 
the importance of JSTARS to your theater and indicate how many 
are needed to support your operation?
    General Tilelli. Sir, first, we had the first JSTARS 
deployment to Korea in the October-November time frame during 
an exercise. One, we learned as much from JSTARS as it learned 
from us in the operational tactics, techniques and procedures, 
plus the wiring from air to ground. So that was very 
successful. We had a second deployment that occurred here 
during the winter training cycle and subsequent to that, the 
JSTARS has been redeployed. So JSTARS, as a function of the 
terrain and the compartmentalization and the heavy movement of 
vehicles from north to south, as a battle management platform 
and as a platform, that gives me indicators of moving targets 
is very important to the Republic of Korea fight.
    To quantify the number required for the Republic of Korea 
and the single orbit which would give me coverage of about 24 
hours a day, I think the number is 5, and I would have to 
provide you that for the record, but that is just for my area 
of operations, and it is also for my area of operations without 
any backup. So in my view JSTARS is one of those elements, and 
I briefed Congressman Murtha when he was there, JSTARS is one 
of those elements that is critical to my fight if we ever go to 
conflict.
    Mr. Hobson. Did you want to comment, Admiral?
    Admiral Prueher. On the JSTARS issue in the theater?
    Mr. Hobson. Yes.
    Admiral Prueher. Well, there are a lot of potential areas 
that, for example, if things started going awry, well, it could 
be anywhere, but say we wanted to look at a variety of things, 
it could be forest fires or whatever in Indonesia, JSTARS could 
be a type of platform that could work there. We will need I 
think at some time over the South China Sea the ability to put 
a platform; a surveillance and a management platform there 
would be a very handy thing to have. But Korea is the main spot 
in our theater.
    Mr. Hobson. I guess my point is that I think the 13 number 
may not be enough. We may need to look at that, because there 
are a lot of things we have to look at, but that may be one and 
we need to find out the relative, I guess, priority of that as 
we look out.
    Admiral Prueher. And there are a number of things going on 
now in surveillance. One of the key things that General Tilelli 
mentioned about JSTARS is that what it was not originally 
intended to do, I don't think, is the battle management aspect 
of it. There are other platforms that can look and see the 
types of movement that JSTARS can pick up and the battle 
management piece is very important. But there are other, 
Umanned Aeriel Vehicles--UAVs and things like that that we 
might use just for the data collection piece.
    Mr. Hobson. Thank you, gentlemen.
    Mr. Young. Mr. Visclosky.

                            INDIA'S MILITARY

    Mr. Visclosky. Thank you, Mr. Chairman.
    Admiral, in your testimony you indicated that India and the 
Indian military is focused inwardly at the current time. From 
the Indian government's point of view, from the military's 
point of view, what is their role today, the Indian military 
role?
    Admiral Prueher. They have--India-Pakistan, there is a 
steady low-level conflict going on in the Siachen Glacier, one 
of the strangest wars in the world, but it continues.
    Mr. Visclosky. So they actually are engaged?
    Admiral Prueher. They are engaged. Periodically there is a 
helicopter that gets shot down from one side or the other, and 
there is a level of activity that goes on all the time there on 
the Indian-Pakistan border. It is near Jammu and Kashmir.
    Primarily the Indian military orients, the Army orients 
toward border protection, as does their air force. They are not 
thinking about a power projection force. Their Chief of Naval 
Operations--CNO, Admiral Bagwat, is trying to build a more 
powerful Navy thatwill have the ability to be dominant in the 
Indian Ocean, which they probably will do.
    They do not work jointly, as we do. The services in India 
don't work together at all. Also, in our country, we breathe 
India-Pakistan almost always in the same breath. My take and 
most people's take from visiting India is they look much more 
to the east to China for both the long-term threat and also to 
the east, to Southeast Asia, for the long-term economic trade 
that they would have.
    Mr. Visclosky. Are there occasional hostilities between the 
Chinese and the Indians?
    Admiral Prueher. There are low-level border disputes and 
they have largely not had--they haven't had clashes that I know 
of lately, but the border is contested along there in the 
mountains.
    Mr. Visclosky. Do they serve a domestic political role as 
well?
    Admiral Prueher. They do. But someone pointed out earlier 
that India has gone through 4 weeks of elections and they have 
600 million people vote and they have had some demonstrations, 
but largely it has been peaceful in India. But they do use 
their military for internal security, the Army.

            DEFENSE AGAINST CHEMICAL AND BIOLOGICAL ATTACKS

    Mr. Visclosky. You also had mentioned in your testimony 
that in conjunction with U.S. Forces, Korea, the U.S. Pacific 
Command has generated a list of near-term fixes to close the 
gap in our capability to defend against chemical and biological 
attacks.
    Is that in your budget request?
    Admiral Prueher. There are some in the budget request. 
Well, the Services' budget requests, we--that comes via the 
services and yes, it is. There is chemical equipment and 
antichemical equipment in the budgets, in the service's budget 
requests. Our requests were for near-term fixes.
    Mr. Visclosky. Are you fully funded for at least the near 
term fixes in your request to the Committee, or is there a 
shortfall?
    Admiral Prueher. I will have to provide the answer on 
whether we are fully funded or not. I know some of those things 
are fairly simple, like plastic sheeting and stuff like that. I 
will have to find out whether we are fully funded. I will get 
that answer to you, sir.
    Mr. Visclosky. Okay, I am just concerned if we are talking 
about near-term fixes and we are not even fully funded to 
protect your people in the near term, that certainly I think 
causes all of us some concern here.
    Admiral Prueher. Well, that has been a steady effort, and I 
know U.S. Forces, Korea has gotten the antichemical suits for 
our troops and are getting the new ones, but there are some 
other odds and ends of things that I will have to find out the 
answer for you.
    Mr. Visclosky. General, perhaps I should ask you also.
    General Tilelli. Sir, from the standpoint of the U.S. 
forces, the individual protective gear, we are getting that as 
scheduled. We are also activating a chemical decontamination 
outfit with 5 companies that will provide us greater 
decontamination capability for some of our large facilities.
    Some of the--we are also, as we speak, they are starting to 
distribute, they begin the Army, some of the new individual 
protective gear. On the ROK side, the Republic of Korea side, 
as we fight this thing, I have to be concerned with them, and 
they have greater problems with their forces in the rear than 
their forces that are engaged initially.
    Some of the areas that we are working on that require fixes 
that we don't quite understand are protection and 
decontamination of large areas. For example, our ADOPS and our 
seaports. And also, one of the things that we have just done 
and are doing and have been funded to do is to field the gear 
for the mission essential personnel who work in ports, drive 
trucks, and the Korean service corps, who also provide us 
logistic support in the rear.
    So we have gotten a lot of near-term fixes, some we don't 
understand how to fix yet, and some of the collective 
protective systems we are still assessing. But there has been 
an emphasis. The money that the Department of Defense has 
received has been parceled out to the field. I think parceled 
out in priority.

             ENVIRONMENTAL CLEAN-UP OF U.S. BASES IN JAPAN

    Mr. Visclosky. Okay. As far as some of the environmental 
cleanup of U.S. bases in Japan, is there a controversy or 
outstanding question as to who will pick up the cost, the U.S. 
or the Japanese government?
    Admiral Prueher. There is not a controversy. On the base 
cleanup, there is a legal position where the agreement we 
signed, we are not legally bound to pay for base cleanup. As an 
environmental steward, we claim to be an environmental example 
in the world or try to be an environmental example. This is 
under discussion because we need to do a responsible thing, and 
we are working with the lawyers on who does provide base 
cleanup. I would not describe it as a controversy, but it is a 
discussion topic.
    Mr. Young. Will the gentleman yield?
    Mr. Visclosky. I am happy to yield.
    Mr. Young. Admiral and General, Speaker Gingrich and 
Minority Leader Gephardt have asked me to take a substantial 
group to Bosnia tomorrow, and in 1 minute I have a meeting with 
those folks and some people with the State Department. So I am 
going to excuse myself. Mr. Lewis will preside.
    But I want to thank you very much for an exceptional 
hearing this afternoon and the way you just responded to us 
openly and honestly and directly, and we appreciate that very 
much. Thank you for yielding, Mr. Visclosky.
    Mr. Visclosky. Thank you, Mr. Chairman.
    In conclusion on that, is that an open question as to how 
the cleanup will be made?
    Admiral Prueher. That is correct. It is not an open 
question legally, from a legal standpoint, but it is one we 
want to discuss to make sure we are doing the right thing with 
it on the base cleanup.
    Mr. Visclosky. Thank you very much.
    Admiral Prueher. With respect to chemical defense 
requirements I was told we had the information and all the 
near-term things are fully funded.
    Mr. Visclosky. Okay, good, good.
    Admiral Prueher. Thank you, sir.
    Mr. Visclosky. Okay. Thank you.

                             BURDENSHARING

    Mr. Lewis. Mr. Nethercutt, do you have questions?
    Mr. Nethercutt. Gentlemen, welcome. I am delighted to have 
you here and thank you for your service and for your testimony 
here today.
    Both of you testified briefly on the Asian crisis and the 
economic situation there. My question is whether you feel the 
Asian currently problems are going to have an impact on the 
burden-sharing obligations of Japan and Korea, and if so, if 
our budget request for fiscal year 1999 adequate to meet any 
deficiency there might be? What is your assessment of that?
    Admiral Prueher. I can take the Japan part, and I think it 
would be better if General Tilelli took the Korean part.
    In Japan, they are slightly different. In Japan the 
services are provided by labor contracts, and it is in yen, so 
the real issue is purchasing power. So the devaluation will not 
impact our--the host Nation's support for us. There are 
pressures on it, but the Japanese have said they will pay it. 
The other thing is if the amount they are going to pay is above 
the 75 percent level that we look for, but it is a nonproblem. 
If you look at the track of dollar value over the last 3 years, 
the dollar value of that support has decreased, but the 
purchasing power has increased, and we have the same amount of 
support that we had before. That part is not a problem in 
Japan.
    Mr. Nethercutt. You expect no pressure on us as a result of 
any of that?
    Admiral Prueher. I don't expect pressure on us. In fact, 
Secretary Cohen has made the point with them that this is not 
just money, this is a strategic issue for us. Now, I don't 
think he is talking just strategic with the committees.
    Mr. Nethercutt. I understand.
    General Tilelli. Sir, from the ROK, Republic of Korea side, 
we are in a unique situation. First, Secretary Cohen made the 
same comments, that burden-sharing is a strategic issue and it 
is an international agreement and promise that the Republic of 
Korea must keep. The Minister of National Defense of the 
Republic of Korea and the President have stated openly and 
publicly that they would keep their promise of purchasing power 
associated with the burdensharing agreement for fiscal year 
1998.
    The unique situation we are in is this is the last year of 
the burdensharing agreement, and we go into new negotiations 
this year which I think will be tougher, but again, I believe 
that the ROK government is keenly aware of how important 
burdensharing is not only to the U.S. forces, but to the U.S. 
people in general, and will deal in good faith as we look at 
fiscal year 1999 and out.
    So it is my current view now, in the absence of any facts 
for 1999 and out, to say that I think we can at least be 
optimistic that we will be at about the same level or a little 
bit better in purchasing power, but not--we will not attain the 
goals that have been set by the Congress and we will not attain 
the goals that have been set by Japan.
    We are, I think, number 2 as far as burdensharing in the 
Republic of Korea, but number 2 doesn't reach number 1 at this 
point.

            KOREAN PENINSULA ENERGY DEVELOPMENT ORGANIZATION

    Mr. Nethercutt. What about the Korean Peninsula Energy 
Development Organization--KEDO? They are going to fund 
construction of 2 light water reactors in the north. Will the 
Asian currency problem impact that at all?
    General Tilelli. Kim da Jung, the President inaugurated 
last Thursday, has stated that KEDO is very important and that 
the Korean will keep their commitment to KEDO.
    Now, the fact is that most of KEDO is paid for in won, so 
the devaluation of the won does not have a great impact on 
their ability to pay. At the same time, there have been some 
initiatives by the Korean government to try to get some 
additional help in paying that, but it is really a--and I won't 
say long-term issue, it is amid-term issue rather than an 
immediate issue, because it is progressive payments rather than 
a $5 billion or $5.7 million payment. It is on a continuum 
rather than this year, next year or the year after.
    So it is my belief that they understand it is in their best 
interests that KEDO go forward and that they will do their best 
to keep it up the way they said they would.
    Admiral Prueher. There are--on KEDO there are a number of 
contributors to it, some of which are symbolic amongst the 
Southeast Asian nations, but one very substantial contributoris 
Singapore, and again we were just there last Sunday, and they intend to 
continue with their contributions, so the crisis isn't expected to 
unfold.
    General Tilelli. If I could just interject, it is also very 
important that we continue to send a heavy oil commitment that 
we have made for the KEDO environment, so there is no, no seam 
that North Korea might exploit.

                     FOOD SHORTAGES IN NORTH KOREA

    Mr. Nethercutt. What about their food shortage problems in 
the north? Recent reports say they were running out, they have 
a couples of weeks left, I guess. How do you assess that 
relative to their military posture as well? What is your sense 
of it?
    General Tilelli. Let me try to answer that, and I say try 
because it is a very opaque society. It is very difficult to 
get hard and fast information on whether we are looking at 
progressive malnutrition, pockets of starvation, or what 
exactly is the circumstances.
    We know that the general population is not getting the 
amount of food that they have had in the past. We knew when we 
assessed last year that sometime in early spring that they 
would run out of the food as a function of their poor harvest 
last year. We at the same time know that their military is 
getting more than their fair share of constrained resources. As 
we look at the winter training cycle that is going on right 
now, it is a relatively robust winter training cycle. At the 
same time, the country or the regime is saying, we will run out 
of food in 2 weeks. They have a very active winter training 
cycle with lots of forces out in the field.
    So we are getting contrary information, to be quite frank. 
I would assess that the truth lies somewhere between 2 weeks 
and the late spring where they are going to start having food 
shortages, but that is truly a wild assessment on my part 
rather than based on much fact.
    We know that the World Food Program has assessed that they 
need far more this year from the humanitarian standpoint than 
they needed last year, almost double. I think $378 million 
worth this year. And many countries have subscribed to help in 
the humanitarian effort.
    Admiral Prueher. An interesting point is to contrast the 
apparent direness of the food shortage with the most robust 
winter training cycle that they have had in 3 years that is 
going on as we speak.
    Mr. Nethercutt. Is there a redirection of that food aid to 
the military?
    General Tilelli. That is difficult to track in a real sense 
because of the opaqueness of the society, Congressman. As you 
look at it, you have different sources of food. One is the 
indigenous growth. The second is a food aid that they get from 
China that doesn't count against the humanitarian food aid, and 
the third tranche, if you will, is the food aid. So to say that 
this great--this pocket of rice or corn is going to the 
military versus another I think is very, very difficult. But we 
do know for a fact that their military is getting a higher 
quantity of food in total number of grams per day than is the 
civilian population at large.
    Mr. Nethercutt. Assuming that it is a 2-week supply, would 
the international, humanitarian organizations be able to meet 
this expected shortfall?
    General Tilelli. I don't know how quickly it could kick in, 
to be frank with you, sir.
    Mr. Nethercutt. I see.
    Admiral Prueher. The International Food Organization has 
never failed to answer the bell if they felt it was really 
getting that short. I think there is very little thought that 
it is actually a 2-week supply.
    Mr. Nethercutt. Thank you very much, both of you.
    Thank you, Mr. Chairman.

                      FREQUENCY SPECTRUM PROBLEMS

    Mr. Lewis. Thank you, Mr. Nethercutt.
    On the point you were just talking about, my staff just 
pulled up an item that is very interesting showing that the GDP 
of North Korea at $21 billion in a country the size of 
Mississippi, and the GDP of South Korea is $647 billion, the 
size of Indiana, and yet North Korea spends 23 percent on 
defense, the other spends 3.3 percent. That is interesting.
    In our briefing book there is a very important, but 
sensitive question I would appreciate your responding to. 
According to the U.S. Army, there is a conflict between the 
frequencies used by Patriot missile systems and those used by 
South Korean government and commercial activities. How does 
this conflict limit our ability to train or operate the Patriot 
system?
    General Tilelli. During peacetime we work our way through 
it. I think the frequency spectrum issue is a greater issue 
than in the Republic of Korea. The issue in the Republic of 
Korea is instead of having the bands of frequency associated 
with just the civilian or military, it is an integrated band of 
civilian and military. So the consequence is that as you 
increase the number of civilian requirements and you start 
peeling away that band width for civilian requirements like 
digital telephones, you start running into conflict.
    We have been able to work through the peacetime requirement 
in the Republic of Korea. It does become an issueas we look at 
band width requirements with a large number of forces flowing and we 
are working with the ministry of communications to resolve some of 
those wartime issues.
    On the other hand, Mr. Chairman, I would say that the 
frequency spectrum problem in my view is a problem not only 
associated with the Republic of Korea, but we have the same 
issues right here in the United States of America as we sell 
off band width that was previously sole-use military that is 
now sold to commercial enterprises. Admiral Prueher was talking 
a little bit about that today.
    Admiral Prueher. The overall frequency spectrum issue is 
one that as we have had bandwidth that has been exclusively 
military, for military use, weapons systems, communications, 
things like that. We are seeing now in various nations--and I 
think it is occurring in our Congress too--there is, in order 
to make money, people are selling off bandwidths, so that now, 
for example, an additional exercise cost, if we go to 
Australia, they want to charge for bandwidth, to use that part 
of the frequency spectrum, or else it is closed because they 
have already sold it. This is the issue that occurs in Korea, 
but it also occurs worldwide; our military bandwidth just 
shrinks and shrinks.
    Mr. Lewis. Well what does it do relative to your ability to 
operate the Patriot system?
    General Tilelli. Well, you are either blocked out or get 
interfered with. We have been able to work through the 
Armistice issue with the ROK government, so during Armistice 
and our Patriots are up every day, it is not a matter that they 
are waiting to be up, they are up every day, because we are not 
in a peacetime environment, we are in an Armistice environment 
where we have to keep our 50 percent Patriots up. They are 
operating and they are okay, but it does become a larger issue 
when you start to flow forces for conflict.
    Mr. Lewis. Admiral, you suggest that being in Australia you 
might have a problem in the region and a problem in relation to 
the same thing. This is a serious business. Even if there is a 
cost factor involved, we ought to know about that, but we sure 
can't ignore them.
    Admiral Prueher. No, that's right, and it is not just our 
theater, this is a worldwide issue.
    Mr. Lewis. That's right. You indicated that it was being 
discussed earlier. Is it being discussed at the highest level 
and are we seeking a solution?
    Admiral Prueher. Absolutely, absolutely. Well, our military 
solution is don't sell off our bandwidths, but it is a 
congressional national group above the military that is 
discussing this. I think there are people in Congress working 
it.
    Mr. Lewis. It is pretty obvious that the people who are 
most interested in the questions that swirl around the selling 
of bandwidths could care less in terms of their priorities 
about some difficulties, and yet this is pretty fundamental. I 
would hope that the SECDEF is talking about this with somebody 
at the highest level.
    Admiral Prueher. Yes, sir, he is, he is.
    General Tilelli. The other thing, Mr. Chairman, I think we 
have to give a little bit of clarity to it. This is not only a 
Patriot issue, this is an issue of anything that requires a 
frequency spectrum to operate to include all of our 
communications. So it is an issue that we have taken up with 
the Joint Staff. Both the Chairman and the Secretary are aware 
of this one.
    Mr. Lewis. Well, I would hope that somebody where those 
high level discussions are taking place will keep our staff 
informed so that we know when we need to get involved to help. 
I would think that maybe the Intelligence community would know 
a little bit about this. This is a pretty significant potential 
problem.
    Admiral Prueher. We will make sure that occurs, sir.

                        CHINESE-INDIAN RELATIONS

    Mr. Lewis. Okay. Thank you.
    Earlier we were talking about China and India's military, 
and you referred just as an aside to the former India-Soviet 
relation.
    What are the relations at a military level between China 
and India at this point? There is a huge border and a lot of 
sensitive territorial considerations, and so forth. I am also 
interested in the relationship between India and Russia as 
well, but I am more interested in the India-China question.
    Admiral Prueher. It is not, it is not a friendly 
relationship, but they have a dialogue that goes on, and 
basically, it is a counter proliferation issue for us, as we 
tend to watch Pakistan and look at the India-Pakistan issue. 
China tends to align somewhat with India to stand off in that 
regard.
    So they don't have a military-to-military relationship; 
they have border discussions and they have political 
discussions back and forth.
    Mr. Lewis. They ought to be communicating in depth with 
each other.
    Admiral Prueher. Yes, sir. One of the things that we have 
been working with China on is to tell the senior leadership 
that they need to talk to the other nations in the region as 
well as us and tell them what they are up to. This is not easy 
for them to do. They are not accustomed to doing that. So 
everybody wonders, there is uncertainty as to what China is an 
when there is uncertainty people think the worst, and the worst 
might be true, but it might not too. So they are, in fact, 
opening up.
    China has had a summit with us, with Japan and with Russia 
in a 3-month period. They are trying to stabilize their 
borders, and they are traveling around a lot, and if you track 
the people that go to Beijing, or are there, there are people 
beating down the door, usually commercial ones, but also 
increasingly defense ones. Japan and China, which is an 
important relationship, Chi Hoatian just went to Japan and now 
Natsukawa in Japan is going to go visit the chairman 
counterpart, who is Fu Quanyou in China, sorry, but you know, 
Hashimoto visited China, that is starting to work, it is 
starting to work. They are having a dialogue.
    Mr. Lewis. It has been a long time since I have spent any 
significant amount of time in India, I have never been to China 
personally, but in the mid-1960s there was almost a love fest 
going on between India and China at the highest level and 
growing warmth of relationship, in spite of obvious problems 
and difficulties. Over time, that has changed very 
significantly. They are serious competitors in any number of 
ways and I can't help but worry about that competitive 
circumstance. It would help helpful if the military was 
communicating in some depth.
    Admiral Prueher. Yes, sir.

                         ASIAN FINANCIAL CRISIS

    Mr. Lewis. You started to talk a little bit about Indonesia 
and Thailand and the trade war implications of their trying to 
trade their way out of economic difficulties. Could you expand 
on your perspective?
    Admiral Prueher. Yes, sir. I will launch into my economist 
mode, which is very treacherous.
    Mr. Lewis. You are dealing with generals and economists, so 
go ahead.
    Admiral Prueher. That's right. As I said before, I think 
the currency or banking crisis occurred and created a real 
vacuum for capital in the East Asian region. It caused the 
devaluation, which was worse in Indonesia, Thailand and South 
Korea. Their tendency with the devaluation, their only way out 
of it is to export cheeper goods, which they are starting to 
do. They come on our market, a good deal for our consumers, but 
it increases our trade deficit, creates a problem in that 
regard.
    Our biggest worry right now in the long haul is Indonesia 
because there is so much that we don't know. The other part is 
Indonesia is a big country, the 4th largest nation in the world 
in terms of population. It is a very complex society. It has 
over 17,000 islands, 2,500 of them are inhabited, but it is a 
hard place to govern. It has a volatile population, ------ and 
they also have had a devaluation of the rupiah of about 300 
percent, versus the dollar and they have had fires, they have 
all sorts of pressures on them for political instability. The 
ABRI, the military there has been a force for stability, it is 
different than ours. They have what is called Dwi Fungsi, I 
think we talked about it last year, but they have a political 
function as well, this is a traditional-by-design feature.
    The burning question right now with the political 
instability with Suharto, and Former Vice President Mondale 
just made a trip there to try to look at the economics, but the 
succession issue for Suharto is prominent in the region. ----
--. Our burning question is can ABRI, will they and can they 
maintain stability like the Thai military was able to do in 
Thailand,can they bring that off in Indonesia. I really, I 
really don't know the answer to that question, but we are in touch with 
General Wiranto, who is the head of their military, a very good man, 
but there is a lot we don't know right now.
    So Indonesia is a big question mark in our area and the 
biggest source of instability. Again, we are working it 
economically, and politically. Stape Ray is as capable an 
ambassador as the United States has anywhere, so we are working 
all of those frames in Indonesia, sir.
    Mr. Lewis. Thank you. Mr. Cunningham.

                       NUCLEAR CARRIERS IN JAPAN

    Mr. Cunningham. Joe, I will still meet you at 15,000 feet.
    I have a little advantage, in I worked for Admiral Brown on 
the 7th fleet staff and was basically responsible for the 
defense in TEAM SPIRIT, Cobra Gold, Tanget Flash and the rest, 
and what I would like to do is ask some questions to see the 
delta between then and now and maybe what some of the 
differences are.
    I know when we had negotiations with Japan, one of my 
interests was that we are going to go to an all nuclear carrier 
force,. We have closed our bases in the Philippines and are 
trying to work out an agreement with them. Now our closest 
place is Guam, which in looking at it in TEAM SPIRIT, it takes 
a long time to get forces there. Are we going to have a problem 
with Japan in the future with nuclear carriers like we have 
them support us there? We had Midway and we had others. But is 
that going to be a problem which could affect, you know, the 
defense of Korea if it comes up?
    Admiral Prueher. We think not. INDEPENDENCE leaves this 
summer from Japan and is replaced again by KITTY   HAWK. ----
--. There will surely be demonstrations and things like that, 
but the government of Japan, at least the LDP, the current 
government, thinks it will be a nonproblem.

              IMPACT OF FINANCIAL CRISIS ON CONTINGENCIES

    Mr. Cunningham. Do you foresee, either one of you, with the 
crisis of the devaluation of the dollar in Asia, any support 
from our allies if we do get into conflict? We have limited 
dollars available, and it is harder to fund our armed forces. 
Have any of the countries suggested that they may have a 
problem supporting us if something happens in Korea or China or 
the other problem areas?
    Admiral Prueher. They have not suggested that, but they are 
very cash poor right now, and--one, we don't really think we 
are at a time in the near future where we are going to get into 
a foray in either Korea or China. We hope not, so the subject 
hasn't come up too much, and we are tapering back on a number 
of exercises and rescoping a bunch of things to accommodate the 
fact that they are very cash poor right now. I had mentioned 
earlier before you get here in Thailand the situation is such 
that they are taking pay cuts and in a variety of things in 
their military in order to do their piece of trying to deal 
with the economic crisis.

                    ADEQUACY OF FORCES AND SUPPLIES

    Mr. Cunningham. I know Mr. Murtha has expressed concern 
with us, and I apologize for being late, I was up on the floor, 
and I don't know if the question of Bosnia and Iraq drawing 
assets away came up, one of the problems we had even when we 
were fully loaded, when you went to other portions of the 
world, for example, the number of AMRAAMS needed to meet your 
commitments weren't there, the number of SPARROWS, the number 
of sorties and the flight time. Is that going to be affected? I 
know the Army's tanks, they are only going to redo about a 
third of them, and your next issue of a new weapons system 
isn't until like 2020, and I can imagine the drawdown that that 
would have, especially in Korea in that terrain where there is 
so much required.
    Do you see a potential hollow force scenario with all of 
our commitments ongoing and our equipment problems that we 
have, and are we having to cross-deck in the Navy? I know that 
the Army is having some problems with retention just like the 
other services. Do you see a real problem coming up with that 
if we don't change direction a little bit?
    Admiral Prueher. I think both of us can comment on that. We 
are all very nervous about it. We have talked about the 
readiness issue. The idea of enough sustainment ammunition is 
one factor, and right now I would say in our theater we are--we 
have sent the INDEPENDENCE battle group to the Gulf, so we are 
thin, and also the sustainment ships are there. If we get a 
sense of higher urgency, we need to start getting some of that 
stuff back and start flowing some assets from the continental 
U.S. That is sort of the near-term piece. I think we can answer 
the near-term bell.
    All of us with gray hair have been through the 1970s and 
the hollow force part. That is not where we are right now. 
However, we also are nervous about the trend lines of our--not 
our forward deployed forces, which are fine, but the forces 
back home, the follow-on forces or the first-to-flow forces are 
having a harder time than they were with parts and supplies, 
and we are tracking that and we are concerned about it. 
However, the data, in order to make informed expenditures to 
correct the problems, the data are hard to come by to say just 
exactly where we----
    Mr. Cunningham. Do you have enough AMRAAMS and AIM-9s and 
these kinds of things?
    Admiral Prueher. We have enough in theater. We do.
    Mr. Cunningham. If something would break out, and I knowone 
of the big problems we had when I worked in coordination, the commander 
was always upset at the Navy because he could only have excess sorties, 
and if you want to commit naval power in an engagement like that, the 
excess sorties are defined as only those sorties not required to defend 
the boat. That would be limited if your ammunition is limited.
    General Tilelli. We have done far better than that in our 
integrated tasking order. We now have sorted out with the fleet 
commander a number of sorties that he would absolutely provide 
day-by-day. The issue become with the void of not having the 
carrier in the Pacific right now, it is just a shortage of 
aircraft. About 35-plus aircraft shortage, a function of the 
carrier being gone, plus our electronic warfare aircraft, our 
EA-6Bs
    Mr. Cunningham. Yes, sir. I also understand the problems of 
going north of Cheju-do even though we have them there. But the 
logistics, once you change the logistics going the other way, I 
can't imagine doing a TEAM SPIRIT. It would be a nightmare just 
trying to get the bottoms in the holes and the different things 
there if we had a conflict elsewhere.
    Admiral Prueher. We have gradually, over the last year or 
so, because of what has been going on in the Gulf and the 
relative tranquility in the Pacific, our command authorities, 
we have shifted some sustainability assets and propositioning 
ships that have remained in the Gulf and we reevaluate every 6 
months whether they should come back or not.

                           RESERVE COMPONENTS

    Mr. Cunningham. General, do we still use--I know when we 
were actively working the exercises, we used a lot of the 
reserves, and I know that it had been difficult to do those 
exercises without the support of those reserves, and in many 
cases they have been drawn down as well. What about the 
effectiveness, both for exercise and/or real components? And 
again, just a reserve component. If we are other places, not 
just Bosnia, not just Iraq, but let's just say Iraq goes away 
and you have forces in Bosnia, you are still nervous because of 
the requirements, I would imagine. But the reserve forces, are 
they adequate to supply you with the additional people that you 
need?
    General Tilelli. Well, certainly the reserve component is 
fully integrated into my war fighting campaign plan. So the 
consequence of that is that we not only train with them, they 
know who they are and when they would come on the flow. During 
Armistice time, we have reserve individuals and units taking 
part in not only exercises, but also in working on the 
peninsula for us of all services. So I think the reserve 
component is fully integrated into the Korean scenario, if you 
will.

                         EMERGENCY SUPPLEMENTAL

    If I can digress one moment, one of the things that no one 
has asked or we haven't talked about, anyway, one of the pieces 
about Bosnia and Southwest Asia that is very important to us, 
because again, we are dealing with a top line, and that is the 
emergency supplemental and the approval of that to pay for the 
fiscal year 1998, because as you are dealing with a top line, 
if you don't get that supplemental, the money is going to come 
out of somewhere and where it is going to come out of are the 
forces and the operations and maintenance dollars that we have 
which are tight right now. So that is another variable of the 
whole issue here that we had discussed, but money is real also 
when it comes in the context of as you get closer to the end of 
the year, when you cancel a training opportunity or cancel an 
event, it is an event missed that denigrates readiness.
    Mr. Cunningham. I think that has been universal among all 
of the services, the supplemental, and I would say that none of 
us want to take it out of defense; I don't think we can take it 
out of defense. But if you look at the President's budget, it 
doesn't give you much wiggle room to find dollars elsewhere. I 
can find dollars elsewhere, I can tell you exactly where I 
would take them from, but we might have a problem with a vote 
on the floor with that.

                            F-18E/F AIRCRAFT

    The last thing I would like to cover, Mr. Chairman, is the 
F-18E/F, with the extended range, I don't even know if you are 
still having intercepts exercises or what, but I know the F-
18E/F, and this is kind of a pitch, General, that coming back 
on a boat, when you only have one pass at the deck and you are 
with pitching decks and minimum visibility and you know that 
you go into water, you are going in dressed in a survival suit 
and you are probably not going to make it back to the boat, but 
it gives you 3,000, 4,000 pounds more fuel, and several looks 
at that deck. It is going to mean survival for them, time over 
target for what your requirements are. The reason I ask you is 
those excess sorties, if you have an airplane that can sit up 
there for a longer time, it is just going to enhance it, and 
many of us are very supportive of that with the Air Force F-22 
with its stealth requirements, and I just think it is a total 
package.
    Thank you, Mr. Chairman.
    Mr. Lewis. Thank you very much.
    Mr. Murtha, for whatever closing comments he may have.
    Mr. Murtha. Chairman Lewis reminded me of something about 
your predecessor, General Tilelli, and I want you to know, 
Admiral Prueher, we are glad, we feel comfortable, now that we 
have General Tilelli over there.
    Admiral Prueher. I had mentioned to General Tilelli my 
first hearing with General Luck he brought a shovel in here and 
I thought what is this? What is going on with this?
    Mr. Young. We have gone through most of the priority 
questions. If you gentlemen would assist us with responses for 
the record, that would be very helpful. In the meantime, we 
appreciate very much you being here. We know you don't just 
have a tough schedule, but serious responsibilities. It is 
great to be with you. With that, we will adjourn the hearing. 
Thank you.
    [Clerk's note.--Questions submitted by Mr. Young and the 
answers thereto follow:]

                      Priorities and Deficiencies

    Question. Do you feel the interests and needs of the Pacific 
Command have been adequately addressed in the fiscal year 1999 budget 
request?
    Answer. The President's Budget adequately meets the needs of 
Pacific Command. It provides sufficient support of training, exercises, 
supplies and other essentials to accomplish our mission. Given the 
level of available resources, and barring additional unforeseen 
contingency operation costs, the fiscal year 1999 budget strikes an 
appropriate balance in spending toward current and future defense 
requirements. It also provides an adequate quality of life for most of 
our uniformed personnel and their families throughout the Pacific. 
Exceptions exist in high cost areas and where facilities have 
deteriorated. Increased support will be needed in the future, 
especially for real property maintenance and improvement.
    Question. What is your assessment of the major shortfalls in: 
personnel, training, equipment and maintenance for those units under 
your day-to-day command as well as those that would be assigned to you 
in a wartime situation?
    Answer. U.S. Pacific Command forward deployed forces are ready, but 
we do have some concern in each of these areas.
    Pacific Command components have some significant personnel 
shortages. Pacific Fleet is short 1900 personnel in key technical 
ratings, and finds it necessary to ``crossdeck'' sailors in some 
specialties to fully man deploying ships. Pacific Air Forces are 
experiencing Air Force-wide pilot manning problems. Other components 
and sub-unified commands also have shortages in a variety of skills. 
Efforts are underway to fill these requirements where possible. For 
example, the Department of the Army is undertaking recruiting and 
assignment initiatives to eliminate most of the theater's shortage in 
infantry.
    Training in U.S. Pacific Command is in generally good shape, 
especially among forward-based and deployed forces. However, without 
supplemental reimbursement for costs incurred in contingency 
operations, training will be substantially curtailed during the fourth 
quarter of this fiscal year due to lack of funds. Further, Pacific 
Fleet has insufficient funds to send desired numbers of sailors to 
professional development training courses that improve their abilities 
to perform at sea.
    Funding shortfalls are also affecting readiness due to parts 
shortages and deferred maintenance, especially among aviation units. 
Pacific Fleet has had to direct redistribution of many parts from Naval 
Air Stations to deployed units. As a result, the readiness of Pacific 
Fleet's non-deployed aircraft has declined significantly over the past 
two years which has severely constrained flight training and lowered 
morale of affected personnel. Similarly, Pacific Air Forces have 
consumed substantial percentages of their contingency stocks of spare 
parts and have had to cannibalize parts from some aircraft. The present 
cannibalization rate for F-16s has approximately doubled from some 
aircraft. The present cannibalization rate for F-16s has approximately 
doubled from a rate of 6.6% in fiscal year 1995.
    Pacific Command components are maintaining high readiness of 
forward-based and deployed forces, but at the expense of other units. 
The readiness of West Coast naval forces is illustrative. They deploy 
at historically normal levels of readiness, but are attaining 
proficiency much later in their pre-deployment training than in past 
years.
    Additional forces that would be assigned to U.S. Pacific Command in 
wartime are experiencing similar problems.

                             Top Priorities

    Question. What are the top ten items on your most recent integrated 
priority list?
    Answer. I intentionally did not rank the 26 items on my most recent 
Integrated Priority List (FY00-05 IPL). These items are all critical 
and the difference in importance between them was not significant 
enough to adopt a rank-ordered list. USCINCPAC's fiscal year 2000-05 
Integrated Priority List is provided below: ------.

                         Changes in Priorities

    Question. How do your top ten priorities differ from last year and 
why?
    Answer. ------.

                      Priorities and Deficiencies

    Question. In your view, are present levels of investment funding 
contained in the department's future year defense plan sufficient to 
address the long-term recapitalization requirements of today's forces?
    Answer. Yes. The President's fiscal year 1999 budget request 
includes $48.7 billion for procurement. Procurement is projected to 
reach $61.3 billion in fiscal year 2001, achieving the $60 billion goal 
previously set by the Clinton Administration. This higher modernization 
spending is essential to the future readiness and battlefield 
superiority of U.S. forces. The fiscal year 1999 budget begins 
implementation of the Quadrennial Defense Review (QDR) plan for 
transforming U.S. defense strategy and military forces. The QDR 
provides a sound direction for long-term modernization. It also strikes 
an appropriate balance between near-term modernization. It also strikes 
an appropriate balance between near-term requirements and the need for 
improved future capabilities. However, if savings projected in the 
President's Budget from the Defense Reform Initiative, including the 
reductions in infrastructure, are not achieved, recapitalization and 
modernization will require additional funding.

                         Asian Economic Crisis

    Question. We are all well aware of the current economic problems 
plaguing the Asian region. Once robust economies remain fragile, the 
debt crisis is not solved, currencies are being devalued, stock markets 
are performing poorly and liquidity problems are crippling regional 
trade. Admiral Prueher, as theater commander of the region that 
includes these troubled economies, what difficulties or threats are 
posed to the Pacific Command as a result of the current situation? In 
your answer please discuss the impact of the crisis on the following: 
pending foreign military sales; the ability of Pacific Rim nations to 
participate in joint training exercises; and the force modernization 
programs of regional allies.
    Answer. The immediate threat posed to Pacific Command is that the 
current financial crisis could progress into a security crisis. We have 
already seen civil disturbances within Indonesia. Relations between 
Indonesia and its neighbors are being effectively managed as the region 
handles the economic refugees. The economic outlook has improved 
slightly. Indonesia remains vulnerable to a resurgence of rioting and 
civil disturbances as shortages of food and fuel grip the country. We 
are watching this situation closely and are conducting appropriate 
planning to protect U.S. interests should a crisis arise.
    Over a long term, reduced ability to provide for self-defense and 
the potential for regional friction increases the importance of 
sustaining U.S. military presence and engagement programs. Our analysis 
of the impact of the Asian financial crisis has focused primarily on 
the hardest hit countries: Thailand, Malaysia, Indonesia, the 
Philippines, and South Korea. The financial crisis has caused each of 
the countries to delay or curtail force modernization programs. To 
date, Thailand is the only one of these countries to request the 
termination of a major foreign military sale program, the purchase of 
F/A-18 aircraft. Participation in combined training continues, but at a 
somewhat reduced scale. No joint training exercises have been canceled 
but we have worked with each nation to tailor bilateral exercises and 
exchanges to meet their needs. USCINCPAC is working closely with each 
country to ensure we remain engaged and emerge from this crisis with an 
even closer relationship.
    Question. Do you perceive any linkage between overall levels of 
military cooperation in the theater and U.S. support for the IMF 
package?
    Answer. I do not perceive a direct linkage. Military cooperation is 
driven primarily by the realities of financial austerity and not by 
negotiations for IMF funding. My recent visits to countries in the 
region indicate defense establishments recognize the short-term need 
for IMF programs and the importance of structural reforms for long-term 
prosperity. Across the board, the militaries recognize the original 
source of their economic problems lies in government and financial 
institutions and solutions will come from those quarters. This 
professional willingness to ``stay in the barracks'' and take the IMF 
medicine represents a positive trend in regional political development, 
and reinforces investor confidence in Asia's long-term growth 
potential. Regional military leaders realize erosion in international 
support to the crisis--such as withdrawal of IMF programs--places 
regional growth and stability at risk.
    Question. What is your perception of ``man in the street'' 
attitudes in the region with regard to U.S. roles and responsibilities 
in the resolution of the crisis?
    Answer. The economic success of the Asia-Pacific region in the 
1980's and 1990's brought increasing prosperity to the populations of 
these countries. Increased prosperity raised expectations, but it did 
not always increase understanding of the complicated nature of 
financial markets, the global trading system, exchange rates, etc. The 
suddenness and severity of the economic downturn in the region caught 
the ``man in the street'' by surprise and found him struggling to 
understand what was happening to his standard of living and future 
prospects. Initially, some blamed Western financial systems and the 
U.S. for their difficulties. For the most part, Asian leaders have 
acted responsibly to address the financial crisis in their respective 
countries. Editorial opinion and public opinion have generally been 
less nationalistic than expected. People throughout Asia look to the 
U.S. in their nationalistic than expected. People throughout Asia look 
to the U.S. in their time of trouble for the leadership and forward 
presence that have helped bring peace and stability to the region for 
the past 50 years.

                          North Korean Threat

    Question. General Tilelli, what is your current estimate of the 
threat posed by North Korea? In your answer please discuss the North 
Korea weapons of mass destruction program, the readiness and morale of 
forces, the status of conventional arms modernization, and support 
provided to international terrorist activities?
    Answer. Considering the massive military forces, enormous 
quantities of artillery, rocket systems, tanks, Surface to Surface 
Missiles (SSMs), chemical weapons, special operations forces, and other 
key components of military might, we assess North Korea has built and 
maintains the capability to inflict enormous destruction on the South 
through large-scale combat operations. However, viewing readiness as 
both a state of preparation and ability to conduct full scale joint 
operations in a coherent, effective, and sustained fashion, we assess 
that North Korean forces are deficient to a degree. This deficiency is 
primarily due to the ------. The primary cause of the reduced training 
tempo has been a shortage of fuel and other materials and conservation 
measures applied throughout the 1990s. ------. Although overwhelming 
economic problems are severely limiting the pace of improvements to 
readiness, we believe the force remains capable of conducting 
unsophisticated corps and below movements, limited operations, and 
integrating low levels of air and naval support with ground activity.
    The most significant force modernization trend has been the gradual 
shift, since the early 1980s, of military combat power toward the 
forward area. Of specific concern is the continuing forward deployment 
of long-range artillery and multiple rocket launcher (MRL) systems to 
underground facilities and hardened sites within 15 kilometers of the 
Demilitarized Zone. Operational exploitation forces and front line 
corps with supporting artillery are positioned so far forward now that 
they could launch an attack with very limited warning. ------. North 
Korea has conducted its own terrorist attacks executed by trained 
agents of the regime. The most recent incident was the 1987 bombing of 
Korean Air Lines Flight 858 in which all 115 on board were killed. The 
North formally renounced international terrorism in the early 1990s. 
Although the North will continue to provide military weaponry and 
associated training to military forces of consumer nations, it does not 
directly support international terrorism. Any terrorist activity in 
which it engages will likely be carried out by its own agents. At this 
time, it would be counter-productive for the North to carry out any 
terrorist activity as it would be detrimental to their efforts to 
garner international support to help solve their current economic and 
food crisis.
    In summary despite continuing economic problems and the resultant 
negative impact on its military readiness, North Korea still retains an 
adequate capability to inflict tremendous damage on the ROK through 
large-scale combat operations. Although capable of conducting terrorist 
attacks, any reporting linking them to international terrorism would be 
contrary to their national goals in gaining international aid.

         1994 Agreed Framework on North Korea's Nuclear Program

    Question. Update the Committee as to the status of efforts to 
implement the terms of the 1994 agreed framework to dismantle North 
Korea's nuclear program.
    Answer. The Democratic People's Republic of Korea's (DPRK) 
graphite-moderate nuclear reactors and related facilities remain 
frozen. The International Atomic Energy Agency (IAEA) has maintained a 
continuous presence at the Yongbyon nuclear facility and has continued 
with inspection activities related to verifying and monitoring the 
freeze in the DPRK according to the terms of the Agreed Framework. The 
U.S. and the DPRK are continuing to cooperate in safely storing the 
DPRK spent nuclear fuel. Canning of the 8,000 spent fuel rods is nearly 
complete. The canned fuel rods have been placed under IAEA seals and 
surveillance. Work continues on cleaning, and storing loose rods and 
rod fragments from the spent fuel basin.
    Groundbreaking for the construction of the Light Water Reactors 
(LWRs) took place on 19 August 1997. The Republic of Korea (ROK) is 
supplying most of the personnel involved in the initial construction at 
the reactor site. The installation in 1997 of mail and phone links 
between the LWR site and the ROK represents the first such direct ties 
between the North and South since the Korean War. Continued 
construction is jeopardized by the failure of the U.S., ROK, and Japan 
to reach funding commitments.
    Heavy fuel oil (HFO) deliveries remain a persistent challenge, and 
it is complicated by the result of lower-than-anticipated contributions 
from the international community and higher-than anticipated oil and 
shipping costs. Korean peninsula Energy Development Organization (KEDO) 
has a $47 million debt. If the debt is not retired soon, it may effect 
future funding and/or HFO deliveries.
    The LWR project has not reached sufficient progress to trigger the 
DPRK's requirement to come into full compliance with its safeguards 
agreement with the IAEA. ``When a significant portion of the LWR 
project is completed, but before delivery of key nuclear components,'' 
the DPRK is to permit the IAEA to verify the accuracy and completeness 
of DPRK's initial report on all nuclear material in the DPRK. 
Differences between the two sides remain.

                            Four Party Talks

    Question. What is your assessment of the North Korean willingness 
to fully engage in the four-way talks to bring about a permanent 
settlement on the peninsula?
    Answer. The Democratic Peoples Republic of Korea (DPRK) does not 
appear willing to engage in the Four Party Talks on terms compatible to 
the U.S. and the Republic of Korea (ROK) at this time. The DPRK's 
insistence on negotiating U.S. troop withdrawals was expected and 
remains an obstacle. The DPRK has also expressed a fundamentally 
different view of any eventual peace treaty, insisting on a U.S.-DPRK 
treaty which excludes the ROK as a party. The DPRK wants some of the 
benefits that the Four Party Talks offer (direct talks with the U.S. 
and food aid), but it has been unwilling to take incremental measures 
to reduce tension between the opposing military forces. Additionally, 
there is no indication that the DPRK is prepared to recognize the ROK's 
right to coexist. Whatever progress is achieved, it will be a long-term 
and complicated process.

                              South Korea

    Question. The South Koreans have recently elected a new government 
headed by former dissident Kim Dae Jung. This represents the first time 
that an opposition party in South Korea has assumed leadership through 
a civilian to civilian transfer of power. General Tilelli, how do you 
characterize the new administrations commitment to the ROK-US alliance?
    Answer. On numerous occasions President Kim has publicly stated his 
strong commitment to the Republic of Korea-U.S. alliance. Throughout 
his career he has consistently supported United States Forces Korea 
(USFK), and at graduation ceremonies at service academies this year he 
affirmed the need for USFK presence even after unification.
    Question. Have you had the opportunity to develop a strong 
relationship with President Kim Dae Jung?
    Answer. I have met with the President several times. I think we 
have a good relationship. I look forward to working with him in the 
future.
    Question. Do you foresee any change in the military to military 
relationship with the South Koreans?
    Answer. Change is a normal consequence of any relationship, but the 
changes I see ahead are positive and relate to force improvements, 
enhanced integrated training, and technological development that will 
further strengthen our military partnership.

                         Chinese Military Power

    Question. Admiral Prueher, can you please discuss the power 
projection capabilities of China's armed forces. In particular, could 
they effectively move against Taiwan or the Spratly Islands if the U.S. 
didn't intervene?
    Answer. China has limited naval power projection capability and is 
incapable of effectively conducting a full-scale amphibious invasion of 
Taiwan or supporting a long-term occupation of the Spratly Islands. Its 
capability is limited by significant deficiencies in technology, 
training, tactics, and personnel throughout all Chinese armed forces, 
accentuated by the lack of military air and sea lift capacity. 
Operations against Taiwan's lightly defended coastal islands are within 
the PLA's capability. These islands along the PRC's coast are 
vulnerable to Chinese artillery, short-range ballistic missiles, and 
air strikes.
    The PRC's predominant power projection capability lies in its 
ballistic missile force. These missiles include the CSS-5 (range: 
1800km/972nm) and CSS-2 (range: 2800km/1512nm) intermediate-range 
missiles, and CSS-6 (range: 600km/324nm) short-range ballistic missile. 
China's short-range ballistic missiles are currently assessed to be 
targeted solely against Taiwan. Beijing is making quantitative and 
qualitative upgrades to its missile force, and is developing new types 
of missiles that will improve its targeting capabilities in the region. 
Additionally, China's ICBM force of CSS-4 missiles (range: 13,000km/
7,019nm) can strike Alaska, Hawaii, and most of the Continental U.S. 
However, its primary nuclear mission is deterrence and retaliation if 
attacked.
    Question. What is the status of China's modernization program? How 
is it being viewed in the region? How does that affect U.S. interests?
    Answer. I would like to answer your questions in reverse order. At 
the present time we do not see China as a threat to U.S. security 
interests nor do we want China to view the United States as a threat. 
China shares our mutual interests and concerns for a stable, peaceful 
world. Their primary interests at this time are internal...how to feed, 
clothe, shelter and provide jobs and energy to 1.3 billion people. 
Nonetheless, China is a legitimate nuclear power and has a limited 
ability to threaten portions of the United States. However, their 
ballistic missiles are primarily a deterrent force as their stated 
nuclear policy is ``no first use.'' In the conventional realm, the PRC 
does not have the capability to project power much beyond its borders.
    Leaders in the region view China through different lens and worry 
about their intentions. However, the Chinese are borrowing a chapter 
from our book on engagement and have embarked upon a program of high 
level diplomatic and military visits, and port calls. The Chinese 
leadership is clearly making greater efforts through confidence-
building measures to allay regional concerns.
    China's modernization is focused on air and maritime power 
projection capabilities and ballistic missile improvements. The Chinese 
Air Force has purchased some high performance Su-27/FLANKER 
interceptors from Russia and is building more advanced versions of its 
indigenous fighters. They are also developing the F-10 fighter (F-16 C/
D equivalent). The Chinese Navy has received three Russian KILO 
submarines and is building limited numbers of newer, more capable 
surface combatants and submarines. China continues to modernize its 
ballistic missile force, focusing on improved accuracy, mobility, and 
reliability. China's military modernization program has yet to 
adequately address shortfalls in command, control, communications, 
intelligence, logistics, maintenance and training.
    Many have expressed concerns about capabilities and intentions, 
especially as China's forces modernize. We believe it will be 15-20 
years before China is capable of projecting power with the ability to 
challenge the United States conventionally and that is only if they 
make all the right choices and investments.
    Question. Has there been any change in the last year in China's 
export of weapons? What are they selling and whom are they selling it 
to?
    Answer. ------.
    --Iran took delivery in 1997 of over $310 million in equipment, 
including FT-7 trainer aircraft, ballistic missile technology, and air 
defense command and control equipment. China pledged to stop selling 
anti-ship cruise missiles and production technology to Iran. However, 
Chinese companies probably will continue to provide production 
technology.
    --Burma took delivery of $210 million of equipment in 1997 
including fighter aircraft, tanks, armored infantry fighting vehicles 
and field artillery. Deliveries continue into 1998.
    --Military deliveries to Pakistan fell from $434 million in 1993 to 
$60 million in 1997 and included LY-60 naval surface-to-air missiles. 
The decline is not a long-term trend as relations remains strong. China 
provides assistance to Pakistan's ballistic missile program and both 
cooperate on main battle tank and trainer aircraft developments. 
Additionally, Islamabad plans on buying a large number of FC-1 fighter 
aircraft from China.
    --China made a major $186 million sale of a battalion of 155mm 
self-propelled artillery to Kuwait in late 1997. Kuwait's purchase was 
a reward for Chinese diplomatic acquiescence in Desert Storm and to 
elicit backing in the UN on Iraq issues. ------.
    Question. Admiral Prueher, in last year's testimony, you referred 
to Hong Kong as ``a harbinger of China's ability to integrate into the 
global community as a responsible player''. Based on what you have seen 
so far, what is your reaction to China's behavior?
    Answer. I am encouraged so far by China's adherence to the ``One 
Country, Two Systems'' policy enacted to handle the Hong Kong 
reversion. While the relationship is still very young, the Beijing and 
Hong Kong Special Autonomous Region (SAR) governments seem to have 
agreed to a legitimate delineation of powers beneficial to Hong Kong's 
special status. As an example, Beijing recently decided to retain the 
head of the New China News Agency (NCNA) as the senior representative 
of the central government in the SAR, vice posting an official envoy. 
This announcement speaks well for Chief Executive Tung Chee-hwa and 
leaves him as the senior government official in the SAR.
    There will surely be growing pains associated with this new 
relationship, to include perhaps over-reactions or ultra-conservative 
policies issued by the HK and SAR government itself. As Hong Kong and 
Beijing become more comfortable working with each other, I expect we 
will see less self-imposed restrictions from the SAR legislature.
    U.S. Pacific Command's relations with Hong Kong have continued 
virtually unabated since the reversion. Seventh Fleet continues to 
conduct periodic port calls to the SAR with no Beijing interference. 
This past December, USPACOM and U.S. Coast Guard forces joined in the 
annual Hong Kong Search and Rescue Exercise. U.S. forces have 
participated in this event for the past 26 years. Being a Hong Kong-
hosted event, the People's Liberation Army was also invited to 
participate but chose to observe only. This is a demonstration of 
Beijing's sincerity in upholding the delineation of responsibilities 
agreed to under the ``One Country, Two Systems'' formula.

                         Chinese Misperceptions

    Question. A recent report from the Defense Department's Office of 
Net Assessment warns that ``China's leadership holds a number of 
dangerous misperceptions that may well cause serious political friction 
or even military conflict with the United States.'' Admiral Prueher, do 
you agree with the report that China's leadership holds dangerous 
misperceptions about the United States?
    Answer. Several ``dangerous misperceptions'' noted by the Office of 
Net Assessment are well-documented by the Intelligence Community. While 
some Chinese military writers portray the United States as militarily 
weak, most military officers of the People's Liberation Army (PLA) hold 
the U.S. defense establishment in high regard.
    Some senior Chinese Community Party and military leaders believe 
the United States wants to prevent the rise of a more powerful China 
and that the world is transitioning to a multipolar one in which the 
U.S. would gradually lose its status as the sole superpower. These 
concerns have not prevented Beijing from fostering closer political and 
defense ties with Washington in pursuit of its strategic agenda. The 
Chinese hope that dialogue will reduce the potential for conflict 
between the United States and China as Beijing's power and influence 
grow.
    Another ``misperception'' noted in the report, overestimating U.S. 
military weakness, is somewhat overstated. The capabilities 
demonstrated by the U.S.-led coalition during Desert Storm demonstrated 
to Beijing that its military would be deficient against an adversary 
with precision-guided weapons, cruise missiles, and stealth aircraft. 
The Persian Gulf War and the Taiwan Straight crisis in 1996 underscored 
the need to improve the PLA's ability to win ``local wars under high-
technology conditions'' and provided impetus for ongoing military 
modernization program.
    Question. A Washington Post article on this story notes that the 
Chinese apparently consider you, Admiral Prueher, to be the individual 
they prefer to deal with and have allowed you ``unparalleled access to 
Chinese defense establishments.'' Is this accurate? If so, who do you 
believe the Chinese are more comfortable dealing with you and how has 
this improved relationship assisted you in your mission?
    Answer. I do not agree with the characterization of my access as 
``unparalleled.'' China has extended increased openness and access to 
all senior U.S. military leaders as the political atmosphere between 
our nations has improved. The Chinese place great importance in 
personal relationships. Personal ties among senior military leaders 
throughout the theater help to prevent misunderstandings and can be 
especially useful in crises. By contrast, during the Taiwan Straits 
crisis in March 1996, we have no basis upon which to open discussions 
about intentions with Chinese military leaders.
    Access to senior Chinese leaders enables USCINCPAC to build trust, 
confidence, and transparency in this relationship. Continued dialogue 
is important in promoting and advancing U.S. security interests 
including: regional security cooperation; arms control and 
nonproliferation of weapons of mass destruction; environmental 
security; and a peaceful resolution of the Taiwan issue. Our principal 
objective is to maintain regional peace and stability. China will play 
a major role in this mutual interest.
    Question. Do you believe the access you are getting to China's 
military is commensurate with the access that we are giving to their 
military leadership?
    Answer. A major objective of our military-to-military program with 
China is to increase their transparency. We see transparency as a key 
component of regional stability by increasing trust through awareness. 
Transparency is necessary to quell tensions and distrust throughout he 
region of China's modernization efforts.
    With transparency the goal, there are two ways to structure 
military-to-military programs with the People's Liberation Army (PLA)--
using strict reciprocity or rough parity. Strict reciprocity measures 
the degree of transparency in terms of what is received versus shown. 
Strict reciprocity guarantees a poor outcome. Strict reciprocity is 
seen in Beijing as demanding, to which the Chinese leadership cannot 
comply and expect to survive the reaction within their party. In many 
cases, the Chinese are unable to show similar facilities or 
capabilities. Demanding reciprocity builds walls in front of our 
ultimate transparency goal.
    Rough parity, however, focuses on the effort. Progress is defined 
as seeing something new. The trend is the key and U.S. efforts should 
be to increase the pace of transparency. My experience indicates the 
``rough parity'' approach is more successful in achieving transparency 
than ``strict reciprocity.''
    Transparency--not reciprocity--is the objective we seek. 
Transparency can only be achieved at China's pace. There are many 
examples that show proponents of rough parity have seen increased 
transparency, as if the PLA seems to base a visitor's access on their 
stance. Supporting the rough parity approach in our military-to-
military contacts will foster greater transparency in the future.
    Question. What steps do you recommend to reduce the risk of 
friction or conflict between the U.S. and China that could occur due to 
misperceptions?
    Answer. Continuous engagement is key to reducing the likelihood of 
conflict. Two nations whose militaries are comfortable with each other 
have an inherent mechanism to reduce the potential for misperceptions. 
Communication is essential, mutual understanding is the outcome, and 
trust is the ultimate goal. I have stressed with every Chinese leader I 
have met, military and civilian, the need to establish and maintain our 
lines of communication. I have also requested these lines be used not 
only for discussing the easy topics on which we already agree, but to 
bring up the harder issues where our points of view diverge.
    Tlhe U.S.-PRC military relationship is approaching the point at 
which disagreements can be aired without concern for the effect on the 
overall relationship. This must continue. My December 1997 trip into 
China pushed this message with encouraging success. Through a multi-
faceted program of seminars, confidence-building measures and senior-
level discussions, I proposed establishing a framework by which mutual 
understanding was effected at all levels. Through our efforts and those 
of OSD, the 1998 contact program reaches more of the PLA and deeper 
into their ranks than any year previous.
    The Military Maritime Consultative Agreement (MMCA) provides the 
formal framework missing in the U.S.-PRC relationship to reduce the 
chance of miscalculation when our naval and/or air operations occur in 
close proximity. This agreement was signed by Secretary Cohen and 
Minister Chi in January and provides for Annual Meetings, Working 
Groups and Special Meetings to discuss anything that increases safety 
and decreases the risk of an incident between our two forces. Pacific 
Command is the designated Executive Agent for implementation of this 
agreement. Our first annual meeting is scheduled for July in Beijing.

                    India's Elections/Military Power

    Question. Admiral Prueher, India has just completed Parliamentary 
elections that have been marred by violence and are expected to produce 
a divided government. Do you have any concerns about this election or 
how it might affect India's defense policy or internal stability?
    Answer. India elections typically result in sporadic violence, 
since appeals to caste, religion, and ethnicity by politicians often 
inflame tensions. This year's polling generally was viewed as free and 
fair, with less violence than previous elections.
    The Bharatiya Janata Party (BJP) leads an unwieldy, 13-party 
coalition government that will be consumed with maintaining its fragile 
majority, a condition which mitigates against it embarking on drastic 
policy shifts. BJP campaign rhetoric called for openly declaring 
nuclear weapons, strengthening the military, and accelerating ballistic 
missile development and deployment. This should not be dismissed 
outright as merely electioneering propaganda, but ideological 
differences within the BJP, the need to get agreement from coalition 
partners, and domestic program priorities make it unlikely we will see 
any significant changes in these areas soon.
    BJP domestic policies are unlikely to threaten India's internal 
stability. In a bid to calm non-Hindu minorities, Prime Minister 
Vajpayee has stressed his government will not pursue programs inimical 
to India's many diverse communities.
    The BJP government wants to establish solid and enduring ties to 
the U.S. We look forward to working with the government to promote 
continued progress in our bilateral defense relations.
    Question. What are the implications of the religious, cultural, and 
other divisions within India for its long-term stability?
    Answer. India contends with many internal challenges that result 
from enduring poverty, the inequities of caste, underdevelopment, poor 
access to education, and endemic corruption. Despite such enormous 
handicaps, the country manifests a remarkable resilience, best 
demonstrated by its unwavering commitment to democracy. More devolution 
of power from New Delhi to the states is the current trend. This is a 
healthy development and does not suggest India's long-term stability is 
threatened. In fact, just the opposite may result as regional and local 
authorities gain power to influence decisions. Additionally, support 
for continued economic liberalization exists across all major political 
parties in India, and these reforms will help alleviate poverty and 
improve living standards for all.
    India's tolerance of diversity is one of its greatest historical 
characteristics. Appeals to religious, cultural, and ethnic sentiments 
by politicians, tribal leaders, and caste chieftains can provoke sudden 
communal violence, but not lasting anarchy. Flare-ups, while remarkably 
violent, usually are localized and short-lived. India's daily level of 
violence is simply a result of tension that exists when diverse 
communities live in close quarters under conditions of poverty and 
scarcity. It does not suggest in any way that the country is 
fragmenting.

                               Indonesia

    Question. Are you concerned about the response of The People's 
Republic of China--PRC to the prospect of Indonesians rioting against 
or otherwise maltreating the ethnic Chinese minority in Indonesia?
    Answer. The PRC regards the treatment of Indonesia's ethnic Chinese 
citizens as an internal matter for the Indonesian authorities. 
Beijing's only comment on the recent unrest has been to express the 
view that the rioting against the ethnic Chinese is a temporary 
phenomenon. The PRC prefers to be a positive influence. For example, 
its recent announcement to provide $3 million in aid to Indonesia was 
made without mention of anti-Chinese unrest. The PRC will not comment 
further unless there is a significant escalation in the violence, and 
Beijing perceives the Indonesian authorities are not responding 
adequately to stem the violence. In this event, PRC actions would be 
limited to public statements against the violence and/or demarches to 
the Indonesian Government.
    In contrast, Beijing has publicly expressed concern for the safety 
of its 1,000-2,000 PRC citizens in Indonesia and has stated that the 
PRC Embassy in Jakarta is prepared to provide assistance to PRC 
citizens during the current instability. The need for assistance will 
not be great since many PRC citizens have departed Indonesia already. 
Should the violence escalate, the number of PRC citizens remaining in 
Indonesia will be quite small.
    Question. What if any, are the security implications of not 
supporting the International Monetary Fund--IMF package proposed for 
Indonesia?
    Answer. As a non-economist, I am not qualified to judge the merits 
of the IMF package in its entirety. However, even with IMF support, the 
situation is serious but will become even more dire without support. 
Indonesia's economic security is significant to U.S. strategic 
interests and to regional stability. Instability in Indonesia can 
spread to the larger region.
    We are witnessing a growing potential for security problems 
resulting from the harshest economic environment Indonesia has faced in 
thirty years. These problems include immigration, potential for 
expanded piracy, civil unrest and food security.
    Immigration of Indonesians to Malaysia and deportations from 
Malaysia and Singapore are continuing. Illegal immigrations are 
complicating diplomatic and security relations between Indonesia, 
Malaysia and Singapore, and could affect relations with Australia. 
Immigration of refugees add to the traditional problem of high seas 
piracy, which together increase the cost of commerce and stall economic 
recovery. Although civil unrest in Indonesia has been largely confined 
to university campuses, it has strong potential to grow. Reports 
indicate that labor and Islamic organizations are evaluating ways to 
join the students' moreover, unrest has an explosive ethnic factor to 
it. Indonesia's ethnic Chinese have historically been a target during 
periods of economic duress.
    On top of these issues, Indonesia faces a potential major food 
shortage. The devaluation of the rupiah increased four-fold the cost of 
imported foodstuffs, and the country's worst drought in a century has 
stunted annual food production. Recurring food shortages present the 
possibility of a major international humanitarian and/or disaster 
relief mission sometime in the future. International promises of food 
relief have been linked to continued IMF program implementation.
    We can not overstate Indonesia's strategic importance to U.S. 
interests in the Asia-Pacific, nor the combined impact the above 
security problems could have on the region's stability. With the 
world's fourth largest population and a location astride Asia's 
dominant shipping lanes linking Asia and the Arabian Gulf, events in 
Indonesia affect the entire East Asian region. Clearly, Indonesia is an 
example of a strategic and pivotal country where political stability, 
economic prosperity, and regional security intertwine. Prolonged 
economic hardship will have wide ranging security implications.
    Question. What have been the effects and implications of U.S. 
restrictions on arms transfer to Indonesia? Is the bilateral U.S.-
Indonesian military relationship suffering as a result?
    Answer. Foreign Military Sales (FMS) and the International Military 
Education and Training program (IMET) are major tools the U.S. has in 
shaping military-to-military relations with any country's armed forces. 
These avenues represent our best opportunity to shape and influence 
behavior, doctrine, and interoperability--Indonesia is no exception. 
U.S. restrictions on arms transfer and IMET limit our ability to fully 
engage and influence the Indonesian Armed Forces (ABRI). It is in U.S. 
interests to have a comprehensive security relationship with Indonesia 
without these restrictions.
    Restrictions force Indonesia to look elsewhere to modernize its 
armed forces and to train its leaders. The F-16 sale is just one 
example. Even though Congress authorized Expanded IMET (E-IMET) in 
1996, Indonesia refrained from taking advantage of the excellent 
opportunity to train in the U.S. On a positive note, the new ABRI 
Commander, General Wiranto, is seriously considering using E-IMET this 
year because of the value he places on training with the U.S. military.
    A stable and friendly Indonesia is strategically important to the 
United States. As the dominant country in Southeast Asia, it has 
enormous influence within the Association of Southeast Asian Nations 
(ASEAN) and the ASEAN Regional Forum. Within Indonesia, the ABRI is the 
most important national institution. Restricting our military-to-
military relationship limits our opportunity to advance our interests 
and to promote democratic values among the ABRI.

                    U.S.-Philippines Military Accord

    Question. The Committee understands that the U.S. and the 
Philippines have recently concluded an agreement that would allow for 
the resumption of joint military exercises. When is the agreement 
scheduled to go into effect?
    Answer. The Visiting Forces Agreement will go into effect upon 
ratification by the Philippine Senate. We expect the Philippine Senate 
will consider the agreement during their next legislative session in 
July 1998. We are optimistic that they will ratify it. No further 
action is required on behalf of the U.S. Government, although some 
entry procedures for DoD personnel remain to be clarified with the 
Government of the Philippines. Until the agreement goes into effect 
only visits/exchange involving twenty or less U.S. personnel will 
occur.
    Question. What are the legal protections for U.S. troops in the new 
agreement?
    Answer. The Visiting Forces Agreement (VFA) covers DoD military and 
civilian personnel visiting the Philippines on official business. The 
agreement provides substantial legal protections for covered U.S. 
personnel. The agreement will ease the entry and exit procedures as 
well as tax liability for our personnel on official business. 
Furthermore, in the important area of criminal jurisdiction, the 
Government of the Philippines agrees to automatically waive their 
primary right to criminal jurisdictional upon U.S. request in cases of 
particular importance to the Philippine government. The U.S. will 
exercise criminal jurisdiction over offenses committed between U.S. 
personnel. Equally important, the agreement allows the U.S. military to 
determine if an offense was committed during the performance of 
official duties, and then exercise jurisdiction over such offenses. 
Finally, custody of U.S. personnel resides with the U.S. military upon 
our request.

                Philippiines Status of Forces Agreement

    Question. What type of joint exercises and activities do you 
foresee as a result of this agreement?
    Answer. Once the Philippine Senate ratifies the Visiting Forces 
Agreement (VFA) we plan to resume medium-scale exercises in support of 
the U.S.-Philippine Mutual Defense Treaty as well as U.S. Naval port 
visits.
    The U.S.-Philippine exercise program is designed to reinforce the 
treaty by mutual defense cooperation. It consists of bilateral training 
and modest field exercises in staff planning, small unit tactics, use 
of weapons and special operations. Since 1996 these activities have 
been limited to 20 U.S. personnel per event, due to the absence of a 
status of forces agreement (SOFA). Following ratification of the VFA we 
plan to conduct a schedule of events similar to that conducted prior to 
the lapse in SOFA, by expanding existing training events (conducted 3-6 
times per year and involving less than 100 U.S. personnel) and resuming 
annual BALIKATAN field exercises (involving approximately 400 U.S. 
personnel). Additionally, we plan to resume port visits to the 
Philippines of up to 30 ships per year.

                      U.S.-Japan Security Alliance

    Question. Can you please update the Committee on the most recent 
changes to the `Guidelines for U.S.-Japan Defense Cooperation'? In 
particular, how does it expand Japan's role in an Asian conflict? How 
does the new arrangement effect your operations? What has been the 
reaction in the region to this new agreement?
    Answer. The September 1997 issuance of the revised ``Guidelines for 
U.S.-Japan Defense Cooperation'' was designed to re-orient the U.S.-
Japan Security relationship from a Cold War focus to one that allows 
both countries to meet the regional and international challenges of the 
21st Century. Both countries are in the process of implementing the 
Guidelines. For Japan, this involves preparing legislation to change 
their laws to allow greater participation in peacekeeping, humanitarian 
assistance/disaster relief, and maritime intercept operations. Japan 
has also emphasized improving provisions of the existing Acquisition 
and Cross-Servicing Agreement (ACSA) in order to meet the challenges of 
both peacetime and contingency operations, particularly in terms of 
rear area support to U.S. forces. Finally, the U.S. and Japan have 
established a Bilateral Planning Committee, an effort that will allow 
for bilateral contingency planning.
    Except for provisions regarding the defense of Japan, the 
Guidelines are not intended to commit the Japan Self Defense Force 
(JSDF) to actual combat in an Asian conflict. What they will do is 
allow for critical Japanese support, primarily in rear area support and 
in activities adjacent to a combat area. Efforts such as maritime 
interdiction, search and rescue, patrolling, and minesweeping will 
complement U.S. effort by allowing our forces to focus more on direct 
combat operations. These new arrangements, once fully implemented, have 
the potential to significantly reduce the operational and logistics 
challenges we currently face in the region.
    Understandably, there has been some regional concern over 
perceptions of a rearmed Japan. We have reassured governments in the 
region that the Guidelines are not aimed at any specific country and 
are not a guise for Japanese rearmament.

                        U.S. Marines in Okinawa

    Question. The Special Action Committee on Okinawa (SACO) was 
established in 1995 to reduce the burden of the U.S. military presence 
on the people of Okinawa. As part of this process, the United States is 
to return Marine Corps Air Station (MCAS) Futenma to Japan after Japan 
provides a suitable replacement facility that meets U.S. operational 
requirements. The replacement is to be a sea-based facility with an 
availability date of about 7 to 10 years at a cost of $4 billion. 
Admiral, what is the status to the SACO process and what is the 
likelihood of the U.S. maintaining its military presence at Okinawa? 
Why is a U.S. military presence at Okinawa important? If the U.S. is 
forced to leave Okinawa, what are the basing alternatives?
    Answer. I am satisfied with the overall progress that has been 
accomplished in implementing SACO. In three of the four categories: 
SOFA, Training and Operational Procedures, and Noise Reduction 
Initiatives, there has been either completion or significant progress. 
The fourth category of land return has proved to be the most difficult 
with progress in only one of eleven issues. This is primarily due to 
the Government of Japan'-GOJ's continuing difficulty in resolving 
Futenma's relocation.
    There are no plans to change our current military posture on 
Okinawa. Along with other forces in the region, the physical presence 
of our forces on Okinawa underscores our commitment to the defense of 
Japan. Additionally, Okinawa's location and facilities provide our 
forward forces a unique power projection capability vital to our 
Pacific Military Strategy.
    Okinawa's superb strategic location, exceptional facilities, and 
the Government of Japan's generous funding support cannot be replicated 
elsewhere. Should the strategic situation in the Pacific change, we 
will evaluate the strategic environment and make the appropriate 
decision at that time, together with our Japanese allies.
    Question. What is the status of the sea-based facility? According 
to the GAO, maintenance funding responsibility between the U.S. and 
Japan for the sea-based facility remains uncertain. Current 
arrangements call for Japan to provide bases, while the United States 
pays for the maintenance of these facilities. GOA and DoD have 
estimated that the annual maintenance costs for the sea-based facility 
could be $200 million. In contrast, the average annual maintenance cost 
of the MCAS at Futenma is $2.8 million. Have the Japanese offered to 
pay the maintenance costs for the sea-based facility?
    Answer. U.S.-Japanese negotiations to develop a replacement for 
Futenma Air Station are on hold while the Government of Japan-GOJ 
continues its effort to obtain the support of the Okinawa prefectural 
government for the proposed sea-based facility--SBF. To date, the GOJ 
has been unable to convince Okinawa's Governor Ota to reconsider his 
opposition to the SBF. We believe there will be little change on this 
issue through the summer as Okinawa enters a busy local election period 
that culminates with a gubernational election in November.
    The estimated maintenance costs associated with the SBF are of 
great concern to us. I must point out, though, the facility has not 
been designed yet and therefore an accurate estimate of maintenance 
costs is speculative at best. In my view, imposing these costs on us 
would not meet Japan's commitment to fund replacement of Futenma's 
capabilities. DoD has raised this issue with the GOJ, but preliminary 
discussions have been inconclusive. However, the GOJ indicated a 
willingness to negotiate these costs once they have resolved the larger 
issue of the SBF in Okinawa.
    Question. If Japan declines to assume the operations and 
maintenance costs of the sea-based facility, what are our options?
    Answer. First of all I want to emphasize my confidence in our 
ability to resolve this issue with the Government of Japan. Our current 
position is that the Japanese must assume these costs, as we simply 
cannot afford the estimated maintenance costs of this type of facility. 
If this issue remains unresolved we may have to exercise our option of 
informing the Government of Japan that the proposed sea-based facility 
is not acceptable to the U.S., and that we will maintain the status quo 
by remaining at Futenma.
    Question. Shouldn't an agreement be reached on this issue before 
construction of the facility begins?
    Answer. Yes. There should be an agreement on responsibility for 
maintenance costs in place prior to the beginning of any construction 
for this facility.

             Foreign Currency Fluctuation and Burdensharing

    Question. The Department of Defense recently announced that it 
would base Korean burdensharing calculations on outdated foreign 
currency exchange rates used during initial formulation of the DOD 
budget request; before the recent fall in the value of Pacific Rim 
currencies. This change will result in the U.S. foregoing a windfall in 
burdensharing of roughly $260 million. Gentlemen, under what authority 
has DOD revised its burdensharing calculations with Korea?
    Answer. The legal authority to negotiate, conclude, and revise 
defense cost-sharing agreements derives from the President's 
constitutional authority to conduct foreign relations, and as Commander 
in Chief, under Article II of the Constitution, as exercised by the 
Secretary of State and Secretary of Defense respectively, and from the 
U.S.--Korea Mutual Defense Treaty. In addition, the Congress added in 
1993 section 2350j to title 10 of the U.S. Code to authorize the 
Secretary of Defense, after consultation with the Secretary of State, 
to accept cash contributions from any country or regional organization. 
This provision relating to ``burdensharing'' authorizes such 
contributions to be available to pay costs related to compensation for 
Department of Defense (DOD) local national employees, military 
construction projects, and DOD supplies and services.
    When United States Forces, Korea (USFK) budgeted for fiscal year 
1998, it used a fixed ratio that was determined by the Under Secretary 
of Defense (Comptroller) of 907.6 won to the dollar to calculate the 
dollar value of its won-based expenses. If the Republic of Korea (ROK) 
were required to make most of its 1998 cost-sharing contribution in 
dollars, as required by the 1995-1998 U.S.-ROK Special Measures 
Agreement (SMA), the Defense Department would realize a significant 
windfall in paying these won-based expenses because of the dramatic 
depreciation of the Korean won. To prevent this windfall, the State and 
Defense Departments and the ROK are discussing an adjustment to the SMA 
that would require the ROK to satisfy the same amount of DOD won-based 
expenses, but in won instead of dollars. Under the amended payment 
arrangement, the government of the Republic of Korea will provide a 
value, in purchasing power terms, equal to that originally envisioned 
in the SMA's provisions for the cost-sharing contribution of the 
Government of the Republic of Korea. In this way, the Department of 
Defense will neither suffer a financial penalty nor realize a profit 
from the Korean economic crisis.
    Question. Are there other instances of such a change in policy?
    Answer. Revising the 1996 multi-year Special Measures Agreement 
(SMA) between the Republic of Korea and the United States was not a 
policy-driven process. Last year's Asian financial market crisis took 
its toll on the Korean economy. This crisis, which halved the value of 
the Korean won relative to the dollar, had major cost-sharing 
implications. The Secretary of Defense was determined to find a way to 
preserve the value of our agreement while taking into account the 
impact of the financial crisis on the value of the won. This cost-
sharing issue has not affected our strong security relationship with 
the Republic of Korea, which remains central to the stability of the 
Korean Peninsula and Northeast Asia. The Department is aware of no 
other instances of amending cost-sharing arrangements.
    Question. Have any U.S. allies offered to make similar currency 
related concession during past downturns of the dollar?
    Answer. The Department is aware of no other instances whereby U.S. 
allies supporting forward-deployed forces (in the Gulf Cooperation 
Council, NATO, and East Asia Pacific regions) made adjustments to cost-
sharing arrangement.
    In the East Asia Pacific area of responsibility, Japan's cost-
sharing contributions, as outlined in the current Special Measures 
Agreement between the United States and Japan, are made in Japanese 
yen, not U.S. dollars.
    Question. Does the decline in Asian currencies provide the U.S. an 
opportunity to repair and upgrade our facilities in Asia at a lower 
cost?
    Answer. The current won devaluation provides limited savings to the 
U.S. taxpayer for the repair and upgrade of facilities in Korea. 
Inflation, higher construction bids, and the services' corresponding 
funding cuts offset these as shown below:
    --A 10% local inflation rate.
    --A 40% increase in local fuel costs.
    --A 50% increase in the cost of construction materials.
    --A volatile fluctuation of the Won has raised the risk of 
contractors, resulting in higher bids.
    --A reduced base in contractors bidding. (This reduction caused by 
the high number of construction contractors who have gone into 
receivership).
    Cost for renovating a 3-story concrete block building to the DOD 
1+1 standard in September 96 was $1.38 million and the Government 
estimate for a similar project in FY98 is $1.8 million. On the other 
hand, cost of a 2-story metal skin barracks renovation averaged 
$504,000 in Fiscal Year 97, but is expected to drop to $450,000 in 
fiscal Year 98 despite local inflation.
    United States Forces Korea (USFK) does not realize any significant 
economic gain as a result of the current Asian economic situation. In 
general, USFK maintains the same level of purchasing power for all Won 
based contracts, since all disbursements are obligated at the Office of 
the Secretary of Defense established budget (exchange) rate. Therefore, 
any savings are returned to the Department of Defense Foreign Currency 
Fluctuation Account and never realized by USFK.
    Question. What are your priorities for repairs and upgrades and how 
has the expected cost of those projects changed over the last year?
    Answer. Our priorities for repairs and upgrades have not changed. 
They are barracks, war fighting operational facilities, and 
infrastructure upgrades. Repair and upgrade costs have decreased, 
though insignificantly, in some areas of work, while increased in 
others. The won devaluation has been offset by increased construction 
and fuel costs, and higher construction bids due to risks in the 
current contracting environment that creates an uncertain future. 
Furthermore, service component funding cuts based on won devaluation 
eliminates any real gain in the number of repair and upgrade projects.

                       Year 2000 Computer Problem

    Question. One of the problems that we face as we enter the next 
century is older computers that are only programmed to remember the 
last two digits in a year. Thus they remember `1997' as simply `97'. 
The year 2000, however will be saved as `00', the same as the year 
1900. This can lead to calculation errors and systems failures. How 
serious is the problem for your Command? What would be the impact if 
your Mission Critical Systems were not corrected by the year 2000?
    Answer. This issue is receiving urgent attention throughout U.S. 
Pacific Command. All components and functional areas are affected. Our 
emphasis is not only on information management but also to ensure that 
our logistical, medical, base infrastructure and weapons systems are 
ready for the transition.
    Pacific Command Headquarters has one unique mission critical 
command and control system that is affected. Fixes to this system will 
be completed by December 98. We also have three other unique systems, 
but these are non-mission critical C4 systems. They will be fixed by 
March 99.
    The services are responsible for fixing and testing the majority of 
the theater's affected systems. I established a command-wide working 
group to serve as a focal point to coordinate component, service and 
Pacific Command efforts.
    The impact of not correcting Year 2000 problems is significant, but 
cannot be fully determined at this time. The potential ranges from loss 
of training value due to confusion in an exercise to temporary 
interruptions of command and control that could result in life-
threatening mishaps. We will continue to work aggressively with the 
Joint Staff, our components, the services, the Defense Information 
Systems Agency and system providers to implement fixes, and to prepare 
contingency plans where appropriate.
    Question. Do you know of any plans to conduct JCS Exercises next 
year with `the clocks turned forward; to identify any uncorrected year 
2000 computer problems? Do you believe this would be a valuable test to 
see if your critical computer systems will be ready for the year 2000?
    Answer. The Joint Staff and the Secretary of Defense's staff are 
assessing the feasibility of an integrated exercise to test systems for 
these problems sometime in 1999. A broad test would be of value only as 
corrective actions near completion. Resources to address the Year 2000 
issue are scarce. Individual systems are tested after software fixes 
are made. A premature major exercise could divert some of the resources 
and effort away from working-in-progress needed to correct Year 2000 
problems.
    Question. Have you begun developing contingency plans in case your 
Mission Critical Systems are ot year 2000 compliant?
    Anwer. Yes. In addition to making appropriate fixes to our systems, 
we are developing contingency plans for our headquarters' systems. 
Pacific Command's components are also preparing contingency plans based 
on guidance from their respective services. We are working closely with 
the Joint Staff and Defense agencies as they coordinate and integrate 
this effort.

        Combating Terrorism Readiness Initiatives Fund (CBTRIF)

    Question. With Congressional support the Chairman of the Joint 
Chiefs of Staff established the Combating Terrorism Readiness 
Initiative Fund. How much did PACOM receive from this fund in fiscal 
year 1997 and what were the funds used for?
    Answer. In fiscal year 1997, Pacific Command received $4.82 million 
(including $2.49 million for U.S. Forces Korea) from this fund. We used 
the funds to reduce the risks of terrorist attack, based on priorities 
established following theater-wide vulnerability assessments. Most of 
the money was spent to enhance physical security systems in forward 
locations.
    The largest fiscal year 1997 expenditures were:

 
 
 
Pacific Fleet....................      625,000  Portable metal detectors
                                                 and X-ray scanners for
                                                 aircraft carriers
Marine Forces pacific............      309,000  Metal detectors, sensor
                                                 lights, mobile
                                                 communications systems,
                                                 military working dogs
                                                 for III Marine
                                                 Expeditionary Force
                                                 (MEF)
  ...............................      120,000  Information security
                                                 system for I MEF
U.S. Forces Korea................      320,000  Perimeter wall of
                                                 Yongsan Army Garrison
  ...............................       55,000  Security monitoring
                                                 system for Yongsan Army
                                                 Garrison
Headquarters, Pacific Command....      100,000  Computer and video
                                                 training equipment for
                                                 headquarters and
                                                 component command
 

    Question. How much has PACOM requested from the fund for fiscal 
year 1998?
    Answer. To date, Pacific Command has requested $6.44 million in 
CBTRIF funds for fiscal year 1998 (including $3.56 million for U.S. 
Forces Korea). Of the $6.44 million, the Joint Staff has approved $1.77 
million, disapproved $75 thousand, and is still considering the 
remainder. We are also reviewing additional requests from Pacific 
Command component commanders totaling $3.66 million. We are working 
closely with the Joint Staff to expedite their consideration.
    Approved fiscal year 1998 requests include:

 
 
 
Pacific Fleet....................     $498,500  Construct a barrier wall
                                                 and window treatment
                                                 for Bachelor Enlisted
                                                 Quarters, Atsugi, Japan
  ...............................      178,000  Vehicle barricade
                                                 systems for housing
                                                 areas in Combined Fleet
                                                 Activity, Sasebo, Japan
  ...............................      306,000  Vehicle barricade
                                                 systems for gates to
                                                 Combined Fleet
                                                 Activity, Sasebo, Japan
  ...............................       80,000  Access and egress
                                                 control system for HQ,
                                                 Commander Naval Forces
                                                 Korea
Marine Forces Pacific............      480,000  Expanded explosive
                                                 detector for III Marine
                                                 Expeditionary Forces
 

                            Force Protection

    Question. What are the top ten force protection priorities for 
PACOM in fiscal year 1999? Have these items been fully funded in the 
services' budget requests? If these items are not fully funded, what 
will be the specific impact on your ability to protect the forces under 
your command?
    Answer. Pacific Command establishes theater force protection 
priorities in concert with its components following vulnerability 
assessments. Services fund requirements based on availability of funds. 
Unfunded requirements represent some risk and are candidates for future 
funding. With some particular exceptions, the probability of attack 
upon U.S. personnel or facilities is low throughout the Pacific 
Theater. The top ten priorities on Pacific Command's fiscal year 1999 
Force Protection Integrated Priority List are:

------------------------------------------------------------------------
                                     Funding status     Funded required
------------------------------------------------------------------------
1. Manpower for Installation       Fully.............             $95.30
 Security (Pacific Fleet).
2. Antiterrorism Personnel.......  Partial...........      $2.26 million
                                                           $4.04 million
Impact: Commands' development and
 implementation of comprehensive
 antiterrorism programs will not
 progress as rapidly as desired.
 Installation security forces are
 not to be fully manned
3. Installation Vulnerability      Partial...........      $297 thousand
 Assessments.                                              $391 thousand
Impact: Pacific Command and U.S.
 Army Pacific assessment programs
 are only partially funded.
 Pacific Command's Antiterrorism
 Division will be unable to
 conduct independent assessments
 of Defense Attache and Security
 Assistance Offices throughout
 the theater as required by DOD
 guidance. U.S. Army Pacific will
 be unable to assess three of
 nine vulnerability assessments
 at installations in Japan
4. Antiterrorism/Force Protection  Partial...........      $274 thousand
 Training.                                                 $525 thousand
Impact: Antiterrorism programs in
 Pacific Command will be
 developed and implemented at a
 slower pace than planned.
 Components may not have
 sufficient instructors to
 conduct required training. Unit
 Force Protection Officers may be
 inadequately trained to execute
 their responsibilities and
 duties
5. Pipeline/Fuel Tank Farm         Unfunded..........      $800 thousand
 Protection (U.S. Army Pacific).
Impact: This pipeline provides
 overland bulk distribution of
 petroleum, oils and lubricants
 for U.S. forces on Okinawa.
 Without the physical security
 upgrades to augment Japanese
 contract security guards, the
 pipeline is at some risk
6. Barriers (Pacific Air Forces).  Unfunded..........      $170 thousand
 
Impact: Degrades ability of
 security forces to control
 vehicle access to critical areas
 and facilities
7. Physical Security improvements  Unfunded..........      $780 thousand
 (Marine Forces Pacific).
Impact: Camp Butler Okinawa will
 be unable to procure equipment
 and physical security upgrades.
 Equipment includes expanded
 explosive detection systems,
 metal detectors, portable
 concrete barriers and riot gear
8. Electronic Security System      Fully.............      $1.11 million
 (Pacific Fleet).
9. Restricted Area Lighting for    Unfunded..........      $840 thousand
 Bases (Pacific Air Forces).
Impact: Existing restricted area
 and airfield lighting fails to
 meet security requirements at
 Elemndorf, Kunsan and Misawa
 Airbases
10. Physical security upgrades to  Unfunded..........      $450 thousand
 three Ammunition Storage
 facilities in Japan (U.S. Army
 Pacific).
Impact: Warfighting supplies are
 at greater risk to terrorist
 acts
------------------------------------------------------------------------

                            Joint Exercises

    Question. In the Quadrennial Defense Review the Department of 
Defense announced plans to reduce the number of man-days required for 
joint exercises by 15% in order to reduce high PERSTEMPO rates. Has 
PACOM experienced a reduction in its JCS exercises? If so, has this had 
a noticeable effect on your PERSTEMPO rates?
    Answer. USPACOM has reduced its joint exercise man-days to comply 
with the Quadrennial Defense Review (QDR) mandate. We have reduced man-
days primarily by reducing exercise length and number of participants, 
rather than reducing the number of exercises.
    Joint exercises account for about five percent of USPACOM 
PERSTEMPO, so the reduction is expected to reduce overall theater 
PERSTEMPO by only one to two percent.
    Question. How do you determine that the right mix of exercises is 
being conducted?
    Answer. The U.S. Pacific Command Joint Exercise Program is designed 
to train U.S., allied and friendly forces in essential skills necessary 
to conduct military options ranging from Humanitarian Assistance/
Disaster Relief (HA/DR) to Major Theater War (MTW). Our exercises are 
designed to train USPACOM and JTF staffs in conducting joint and 
multinational operations, enhance joint interoperability among service 
components, and integrate the supporting CINCs and interagency 
organizations. Regional engagement and presence, essential elements of 
our national and theater engagement strategies, are byproducts of these 
exercises.
    The Joint Mission Essential Task List provides the full array of 
military task where we must be proficient. Each exercise is designed to 
accomplish a certain number of training objectives, which are derived 
from these tasks. By comparing exercise training objectives with 
required tasks, Pacific Command can assess whether its exercise program 
is meeting theater training objectives.
    The Chairman's Joint Training System also governs the structure of 
the exercise program. This requirements-based training ensures mission 
requirements are balanced with scarce resources. It forces us to 
analyze the tasks, identify the appropriate training audience, and set 
the training frequencies.
    Question. What portion of the exercises that you conduct is 
primarily to train U.S. forces for their wartime mission and what 
portion is for regional engagement?
    Answer. Pacific Command's Joint Exercise Program consists of 18 to 
20 exercises annually. All but two of these exercises are conducted 
primarily as training for wartime missions. Where possible, we also 
incorporate regional engagement objectives into exercises. For example, 
the purpose of annual COBRA GOLD exercises in Thailand is to prepare 
Pacific Command's joint forces to fight in a Southeast Asian 
environment in support of treaty obligations. This exercise also 
promotes interoperability with the military forces of a key treaty 
ally. Additionally, when opportunities permit during the exercise, some 
U.S. forces conduct small civic and humanitarian projects resulting in 
additional training that also directly supports a regional engagement 
objectives.

                                POW/MIAS

    Question. The Committee understands that there are currently 2,097 
Americans unaccounted for in southeast Asia and that Joint Task Force-
Full Accounting has been working hard to address this issue. Could you 
please summarize the results of their work over the last years?
    Answer. In Fiscal Year 1997 Joint Task Force-Full Accounting (JTF-
FA) conducted 11 joint field activities (JFAs) in Southeast Asia (5 in 
both Vietnam and Laos and 1 in Cambodia).
    JTF-FA investigated 235 cases (163 Vietnam, 55 in Lass, and 17 in 
Cambodia) and excavated 49 sites (34 in Vietnam, 12 in Laos, and 3 in 
Cambodia).
    These efforts resulted in the repatriation of 31 remains believed 
to be those of unaccounted-for Americans. During 1997, the remains of 
35 Americans were officially identified. JTF-FA also responded to 484 
next-of-kin requests and forwarded 905 reports to next-of-kin via the 
Services' casualty affairs offices.
    Thus far in 1998, JTF-FA has investigated 66 cases (49 in Vietnam, 
13 in Laos, and 4 in Cambodia) and excavated 19 sites (7 in Vietnam, 8 
in Laos, and 4 in Cambodia).
    Additionally, 21 remains have been repatriated and 9 remains 
identified as previously unaccounted-for Americans.
    Currently, 2,090 Americans are still unaccounted for.
    Question. Has the Vietnam government been cooperative during these 
investigations?
    Answer. The Vietnamese government has continued to cooperate well 
with the Joint Task Force-Full Accounting (JTF-FA) during these 
investigations. The Vietnamese have improved their advance work in 
preparation for joint field activities (JFAs), provided better access 
to military sensitive areas, and approved the extension of JFAs to 
allow teams to complete excavations. The field teams are also receiving 
better cooperation at the provincial level. Vietnamese citizens 
continue to come forward individually, often providing information 
critical to the success of individual investigations and recoveries. 
The Vietnamese government continues to support trilateral 
investigations as evidence by the 21 Vietnamese witnesses that have 
supported investigations in Laos.
    Based on a U.S. request, the Vietnamese are focusing their efforts 
on conducting more unilateral investigations. During 1997, JTF-FA 
adjusted the schedule of JFAs to permit Vietnam and Laos to concentrate 
on unilateral investigations. During two specified unilateral periods, 
the Vietnamese conducted 56 investigations relating to losses involving 
unaccounted-for Americans. During the 50th JFA (21 April--23 May 1998), 
the Vietnamese will field one additional team to conduct unilateral 
investigations. This is the first time the Vietnamese will have 
conducted unilateral investigations concurrently with joint teams 
during a major field activity. The unilateral investigations have 
resulted in the development of new leads for joint investigations.
    Question. Do you have any news from the current investigation going 
on now in Vietnam?
    Answer. Joint Task Force-Full Accounting's (JTF-FA) 49th joint 
field activity (JFA) concluded a series of investigations and remains 
recovery operations in Vietnam on 21 March 1998. JTF-FA team, 
consisting of 112 U.S. personnel, investigated 49 cases and excavated 7 
sites.
    On 28-29 March 1998, a joint forensic team examined eleven remains 
recovered or received during the 49th JFA, retaining five sets for 
further examination at the U.S. Army Central Identification Laboratory 
in Hawaii.
    The operation was very successful with investigation and recovery 
teams operating throughout the entire country off Vietnam. The 
Vietnamese advance work was excellent: key witnesses were made 
available, and land compensation issues were resolved prior to the 
arrival of the field teams.

    [Clerk's note.--End of questions submitted by Mr. Young.]
                                          Thursday, March 19, 1998.

 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                              ----------                              


               HIGH MOBILITY MULTIPURPOSE WHEELED VEHICLE

                                WITNESS

HON. TIM ROEMER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF INDIANA

                              Introduction

    Mr. Young. The Committee will come to order.
    This morning, the Committee will hear testimony from 
Members of Congress and from witnesses outside of the Congress. 
The Committee has basically completed the hearing process for 
the fiscal year 1999 period. We have heard from all the service 
secretaries and the chiefs of each service. All of the regional 
commanders in chiefs have appeared.
    Yesterday, we had a hearing on the quality of life from the 
perspectives of the Sergeant Majors of the Army and Marine 
Corps, the Chief Petty Officer of the Navy and Chief Master 
Sergeant of the Air Force.
    We also conducted a hearing on readiness yesterday with the 
vice chiefs of each service and the assistant commandant of the 
Marine Corps, and now we are going to hear from Members of 
Congress who do not serve on this subcommittee and those of you 
who represent organizations and institutions who support our 
men and women in uniform.
    Many of you here today have testified before, but for those 
who are here for the first time, let me explain how we proceed. 
Each of your prepared statements will appear totally in the 
published hearing volume, and we ask that you summarize your 
testimony in 5 minutes or less, inasmuch as we have over 40 
witnesses scheduled to appear today.
    That may seem like a short period of time, but it is 
consistent with the 5-minute rule the Committee works under. 
Throughout the year, through all of our hearings, each Member 
of this Committee has to express his thoughts and ask questions 
in 5-minute intervals or less. Many members will be coming in 
and out today because they are working in other subcommittees 
on the supplemental appropriations bill. So while they are not 
here at the moment, you will see most of them sometime during 
the hearing.
    Before we get started, I just wanted to relate some 
personal experiences we had during the last year visiting our 
troops in the field. Some of us have been to Bosnia as many as 
three times in the last 6 months, traveled throughout Southwest 
Asia, visiting our troops in Saudi Arabia, Bahrain, Kuwait, 
checking on force protection measures that have been put into 
place since the Khobar Towers bombing. Mr. Murtha has led a 
group to Korea.
    So between the two of us and all of our members, we have 
covered most of the major hot spots in the world, and we have 
gotten to see firsthand what we have been told about in this 
room.
    What we find are well-trained, highly motivated, dedicated 
men and women who are proud of their Country and who welcome 
the opportunity to make a contribution to our national 
security.
    I bring this up only because many of you in this room have 
devoted a great deal of time and effort to making sure our 
troops have what they need in the way of equipment, training, 
to make sure their quality of life is what it should be and to 
ensure that their families are taken care of during the time 
they are deployed so far away from home.
    Things aren't perfect yet, but we are not done yet. So 
together all of us and each of the Members of this Committee 
will continue to work to do the best we can for these 
outstanding men and women who go in harm's way for our Country.
    Now I would like to recognize a very distinguished Member 
of Congress, Mr. Tim Roemer, from Indiana, who stays in close 
touch with the Chairman and the Members of this Committee on 
issues of vital concern to our national security effort.
    Congressman Roemer, we are happy to recognize you, sir.

                    Statement of Congressman Roemer

    Mr. Roemer. Thank you, Mr. Chairman; and I want to ask 
unanimous consent for my entire statement to be entered into 
the record.
    Mr. Young. Without objection, that will be done.
    Mr. Roemer. I just want to speak from the heart to you for 
a couple of minutes and then answer any questions you might 
have.
    First of all, on behalf of the 558,000 people that I 
represent and roughly 1,260 workers that work in the three 
plants making the two-and-a-half-ton truck, the HMMWV and the 
Sea Snake Supersonic Missile, we want to express our thanks to 
you and the Committee for your help in bolstering our defense 
efforts in this country and improving the quality of life for 
our military personnel and in maintaining good, high-paying 
jobs for people in this country.
    If not for your help and your dedication, Mr. Chairman, and 
the people on this Committee, we might be in some trouble back 
home in Indiana.
    I am here to talk to you about three different programs and 
thank you for your help and continue to seek out your support, 
three important programs for the national security of this 
country.
    First of all, you mentioned that many members here on this 
Committee have traveled to Bosnia. You probably saw the HMMWV, 
which is made in Mishawaka, Indiana, over there.
    Last year, three soldiers in Bosnia walked away unharmed, 
unhurt after their HMMWV ran over a 14-pound antitank land 
mine. Now, that was an uparmored HMMWV. It is working 
beautifully. There are no complaints from the Army. The Army 
continually comes before Congress and does not ask for enough 
money to fund this program, even though it is working 
beautifully.
    We have to come before your Committee and ask for a plus-
up, which we are asking again today, based upon the performance 
of the HMMWV, the safety of the HMMWV and the need and the 
requirement of the HMMWV throughout the world for the safety of 
our troops, as evidenced from that latest example in Bosnia.
    Secondly, when we talk about not only performance of the 
HMMWV but efficiency, we make and remanufacture a two-and-a-
half-ton truck back in South Bend, Indiana. The two-and-a-half-
ton truck actually remanufactures 20-year-old trucks.
    There is nothing sexy about this program, Mr. Chairman. I 
wish I was in here to talk about an F-22 or something that I 
had a big diagram of. These trucks keep our men and women safe. 
They deliver personnel and supplies to our troops in the field. 
We saved operations and support--O&S $500 million 
remanufacturing these trucks; and I know you are looking for 
savings in this tight budget as well, too.
    This is a very, very effective and efficient program, 
making something that our troops need, and I would ask your 
support on that program.
    Thirdly, I ask your support for a program that has worked 
well in the past. Allied Signal is the only U.S. supplier of 
supersonic sea skimming targets. Interestingly enough, we are 
competing with the Navy, with Russian-made missiles.
    Now, I have had brief conversations and long conversations 
with you about this before, but for us to have competition with 
Russian-made missiles when the Russians could be making the MA-
31, selling it to Iraq or Iran or in the Middle East or to 
North Korea, we subsidize then the Russians making those 
missiles that go to other unfriendly countries that may be 
aimed at our personnel. That is one concern I have.
    Secondly, if Allied Signal doesn't stay in this business 
and we lose our industrial base and we don't have a U.S. 
supplier in this field, that is a big concern.
    Thirdly, Mr. Chairman, I know you are very, very sensitive 
to this, we have 150 U.S. taxpayers that have made this missile 
that are very, very dedicated to the safety and the security of 
this Country. I don't think 150 people should be thrown out of 
jobs when I know the Russian Duma, if they had their votes, 
they would vote, I am sure, within Russia, to buy the MA-31 and 
not to buy our Sea Snake or Vandal Missile. I think we should 
do the same thing here; employ our people to get a good system.
    If we want to reverse gear and get access to the MA-31 for 
reasons of knowing what might be coming at us, I certainly 
understand putting some money forward on that concern; but not 
to put out a U.S. supplier and not to hurt our industrial base.
    Finally, Mr. Chairman, I say to you, in all due respect, I 
want to help you make sure that not only these kinds of 
programs are supported within the budget but the quality of 
life for our personnel is supported within this budget; that 
our personnel have good quality child care; that our personnel 
live in good quality housing; and that our personnel in the 
military forces not be forced to be on food stamps. And if that 
takes bipartisan efforts to get you a little bit more money, I 
am supportive of that and would look forward to working with 
you on that.
    Mr. Young. Congressman, thank you very much.
    As you know, the Committee has--thanks to much of your 
persuasive effort and the work of Mr. Hobson, who we appointed 
as a special subcommittee of the subcommittee to deal with the 
truck issues, we have raised the budget request substantially 
in the last couple of years for the remanufacturing and the 
purchase of the new vehicles. We recognize, and most of our 
witnesses that have been here this year have told us, without 
question, they need trucks. They need their trucks repaired; 
and, without the trucks, they can't function.
    So we appreciate your support and thank you very much for 
being here.
    Mr. Roemer. Thank you, Mr. Chairman.
    Mr. Young. As you and I have discussed many times, we don't 
have the extra money in our budget this year that we have had 
in previous years. We are working on that. We are attempting to 
get leadership and the membership to give us a little more 
realistic budget number, so we will count on your help for 
that.
    Mr. Roemer. Well, Mr. Chairman, I just want to say my 
personal thanks to Mr. Hobson, who has been such a champion on 
the HMMWV and the two-and-a-half-ton truck as well, too, as 
other Members of this Committee have been.
    I heard Mr. Cunningham on the radio this morning on the C-
SPAN radio program talking about his strong fighting for 
adequate defense dollars; and if we can get that money for 
roads and bridges in this country for better security 
internally, certainly we can fight for our troops overseas.
    I thank you again for all your help on these programs.
    Mr. Young. Thank you for being here this morning, Tim.
    Mr. Roemer. Thank you.
    [The statement of Congressman Roemer follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

    DYSTROPHIC EPIDERMOLYSIS BULLOSA RESEARCH ASSOCIATION OF AMERICA


                               WITNESSES

MIRIAM FEDER, EXECUTIVE DIRECTOR, DYSTROPHIC EPIDER-MOLYSIS BULLOSA 
    RESEARCH ASSOCIATION OF AMERICA
MARY BETH SHERIDAN, PARENT

                              Introduction

    Mr. Young. Next I would like to recognize Miriam Feder, 
Executive Director of the Dystrophic Epidermolysis Bullosa 
Research Association; and Mary Beth Sheridan and her husband, 
who are parents of a child with this disease; and would like to 
welcome you now. Your entire statements will be placed in the 
record, and we would ask that you would summarize them this 
morning.
    Thank you for being here.
    Incidentally, Mrs. Sheridan and her husband and daughter 
are from the Tampa Bay area, which I have the privilege of 
representing; and we are happy to have you all here.

                       Statement of Mrs. Sheridan

    Mrs. Sheridan. Thank you for having us here.
    Mr. Chairman and the Members of the Subcommittee, thank you 
for inviting me to appear before your committee. My name is 
Mary Beth Sheridan. I live in Tampa, Florida; and my little 
angel is Samantha.
    My pregnancy was the most wonderful experience in my life. 
I loved being pregnant. Going through the delivery was 
frightening, as I am sure it is for all new moms. When the 
doctor pulled my baby from my womb, she had no skin on her left 
hand. As the nurses and doctors touched and looked, huge 
blisters formed all over my child before their eyes. I 
recognized fear in their eyes and I was awake, as I was awake 
for the delivery.
    I will never forget the terror I felt when I realized that 
these professionals did not know what was happening to my baby.
    After a painful and emotional 6 weeks of waiting, worrying 
and suffering, my husband and I discovered that our beautiful 
baby was born with a dreadful genetic disorder called 
Epidermolysis Bullosa, otherwise known as EB.
    At a national EB registry in Chapel Hill, Samantha was 
diagnosed with Recessive Dystrophc EB. We were somewhat 
relieved, because the first diagnosis was the lethal form of 
Junctional EB.
    The pain and suffering that our baby endured we could not 
believe possible. We could not conceive just how hard everyday 
life would be for our beautiful daughter, Samantha. We learned 
that the genetic disorder that Samantha was born with was 
excruciatingly painful. The slightest touch to her skin causes 
painful blisters to form which have to be burst and drained to 
prevent infection. Often the skin heals slowly, and she has 
open wounds to deal with. She lost her fingernails and toenails 
at about 3 months of age.
    Her body is wounded and blistered from head to toe. She 
couldn't even wear the softest of clothes until she was 5 
months old. Some days she can't eat because her mouth and her 
throat are so full of blisters her throat is so narrow that she 
can't even swallow milk. Managing her diet is very challenging, 
because proper nutrition is important for her immune system in 
order to fight off constant infection, which is so common for 
these children.
    As an infant, we can only lift our baby by the buttocks 
with a sheepskin cushioning her underneath. Can you imagine 
what it is like not to be able to cuddle or to hold to your 
breast your own child or grandchild? We will always have to be 
careful because our touch can cause severe blistering or even 
denude our child's skin.
    Now Samantha is three, and there are days she can't walk 
because her little feet are so badly blistered that we have to 
carefully carry her. She isn't able to run and play with the 
other children, and it is hard for a 3-year-old to understand 
her limitations. She wants so desperately to be like the other 
children.
    The painful burning and itching from healing and the 
blistering is unbearable for our little girl. Her skin itches 
so badly that she just tears it off sometimes. There seems to 
be no relief from medication or creams. We have to bathe and 
bandage her every day, which sometimes takes 2 to 4 hours. This 
is also a painful procedure as the water burns her open wounds 
and the bandages stick to her skin.
    There are so many aspects of this horrific disease that it 
can only be described as just sad; and, as a mother, I just 
want somebody to find a cure. There are many terrible nights 
that Samantha doesn't sleep but cries in pain. And, for me, my 
greatest challenge is just getting through the day.
    Samantha is beautiful, bright and adds joy to our life with 
her sense of humor, her courage and her spirit. And I know God 
has given her these gifts, and we appreciate them.
    If only one child on this earth was affected by this 
disease, EB, in my opinion, it would be too many. The reality 
is that over 100,000 Americans suffer from EB, and there are 
too many children who endure the suffering as my child does.
    I ask you for your support of EB research, to help all the 
children suffering today so they can reach their potential as 
healthy, productive Americans.
    Thank you so much for having us today.
    Mr. Young. Mrs. Sheridan, thank you very much for being 
here.
    As you know, this disease causes wounds similar to the 
wounds caused by certain types of chemicals, and so we have 
funded a modest program through the Department of Defense to 
study the causes and to see if we can help find a cure for this 
disease or prevention for the disease.
    We appreciate your being here. We understand the suffering 
that all of you go through, and especially Samantha; and we 
just pray for the day that we can find a way to stop this 
terrible disease.
    Mrs. Sheridan. Thank you.
    Mr. Young. Thank you very much for being here today.
    Mrs. Sheridan. Thank you.
    [The statement of Mrs. Sheridan follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Young. Now, Ms. Feder, were you going to make a 
statement?

                         Statement of Ms. Feder

    Ms. Feder. Yes, I will summarize.
    I am the Executive Director of DebRA, and I want the 
Committee and Mr. Chairman to know the appreciation for this 
opportunity to appear before the House Appropriations 
Subcommittee on National Security and ask for your continued 
support for the DOD research initiative in EB.
    As you know, over 100,000 Americans and their families are 
very grateful that in fiscal year 1998 the DOD Appropriations 
Act included $1 million for the study of wound treatment using 
EB as a model.
    As you know, EB is a group of skin diseases characterized 
by fragility and easy blistering of the skin and other 
epithelia including the eyes and the airways. The blisters 
often lead to infection and cause premature death. In its most 
severe form, the blisters lead to chronic, unremitting wound 
healing which results in extensive scarring of the affected 
area.
    Extraordinary answers have recently been made in our 
knowledge of the structure and function of the skin, and EB has 
been the centerpiece of skin disease research and appears to be 
the most appropriate for gene therapy. We are looking forward 
to trial within the next 5 years.
    How could EB research benefit the Army? Well, the wounds 
caused by EB closely resemble the wounds caused by chemical 
weapons, chemical vesicants. EB represents the natural model to 
study the cause and consequences of blistering caused by 
vesicants, trauma and other conditions relevant to military 
medicine.
    Dr. Robert Burgeson of Harvard was awarded a $625,000 grant 
by the Army, and he is presently investigating enhanced models 
for skin regeneration and wound healing. Dr. Burgeson's work 
shows great promise for EB and for the treatment of blistering 
caused by exposure to chemical weapons.
    In normal skin, the basement membranes are composed of 
independent but associated networks of type IV collagen and 
laminins. Laminin 5 is essential to basement membrane stability 
and the key bridging molecule that bonds the necessary 
components of the skin. In EB, type IV collagens and laminins, 
including subunits of laminin 5, are mutated; and the basement 
membrane changes in the skin in sulfur mustard-induced 
vesication mimics those of the Junctional form of EB.
    Sulfur mustard gas causes denuding of the skin and slows 
wound healing. In addition to being toxic to the most common 
cell in the skin, sulfur mustard causes separation of the 
epithelium from the underlying basement membrane zone, from the 
underneath part of the skin to the most important part of the 
functioning part of our skin. The phenotype observed is 
strikingly similar to that observed in patients with specific 
forms of EB.
    The ability of sulfur mustard to crosslink these laminins 
has already been documented. Many scientific aspects still have 
to be investigated, but the studies clearly indicate that the 
basement membrane molecules can be alkylated by sulfur mustard. 
Alkylation means that the proteins in these cells are actually 
changed to misfire, not to function with the sulfur mustard.
    Dr. Burgeson and his colleagues are conducting studies on 
mice with laminin 5 genetically enhanced grafts on wound 
surfaces. The animal studies strongly suggest a potential of 
benefit of laminin 5 when applied to extensively burned 
patients. In collaboration with Japanese scientists, an amount 
of laminin 5 was made available for human tests. In the cases 
tried so far, the pretreated, the genetically treated grafts, 
showed favorable results.
    We believe that the DOD's research initiative in EB will 
foster a better understanding of wound healing, the impact of 
vesicants on the skin, eyes and airways and on the behavior of 
healthy skin. EB serves as a natural model for skin 
regeneration.
    An additional $1 million in DOD-sponsored EB research could 
be used to provide answers to the following problems: improving 
our understanding of the molecular genetics of blistering; 
increasing our knowledge of the role of collagen in blistering; 
developing more successful treatments, such as gene therapy; 
and perfecting the novel technologies for gene delivery, and 
this is what we really have to be working on, which will affect 
all gene delivery systems.
    Once again, thank you for this opportunity to speak today; 
and we hope that you share in our optimism about this important 
initiative and urge your continuing funding in fiscal year 
1999. Thank you.
    Mr. Young. I want to thank both of you for being here 
today. The Committee will do the very best it can with the 
limited resources; and I would say, again, that our budget 
numbers do not give us much room for adding any money over the 
President's budget this year. But we will do the very best we 
can. We understand the problems and thank you both for being 
here.
    Mrs. Sheridan. Thank you.
    Ms. Feder. Thank you.
    [The statement of Ms. Feder follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

                   ROCHESTER INSTITUTE OF TECHNOLOGY


                               WITNESSES

HON. LOUISE SLAUGHTER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW YORK
NATHAN ROBFOGEL, VICE PRESIDENT FOR UNIVERSITY RELATIONS, ROCHESTER 
    INSTITUTE OF TECHNOLOGY
NABIL NASR, PROFESSOR OF ENGINEERING, ROCHESTER INSTITUTE OF 
    TECHNOLOGY; DIRECTOR, NATIONAL CENTER FOR REMANUFACTURING AND 
    RESOURCE RECOVERY

                              Introduction

    Mr. Young. Next I would like to introduce a very 
distinguished member of the Rules Committee, Congresswoman 
Louise Slaughter of New York. She is here to introduce our next 
witness.
    Louise, we are very, very happy to have you here this 
morning. Usually, I am sitting at the table talking to you at 
the Rules Committee. Now we are happy to have you here at our 
Committee.

                  Statement of Congresswoman Slaughter

    Mrs. Slaughter. Well, I certainly appreciate your letting 
me come this morning; and Mr. Skeen and Mr. Hobson, Mr. 
Cunningham, it is a pleasure to be here with you this morning.
    You may or may not remember, but last year we came here 
with a proposal to try to do something about remanufacturing; 
and you were very gracious and did give us $2 million for that 
project. We promised you that, if you did, we would be good 
stewards of it; and we are here to tell you this morning that 
we have been. So I am very pleased, but I thank you most 
profoundly for taking that chance on us last year and including 
us in the budget.
    I would like to introduce this morning Mr. Nathan Robfogel 
and Dr. Nabil Nasr, who is the head of the National Center for 
Remanufacturing and Resource Recovery.
    Mr. Robfogel is the Vice President for University Relations 
at the Rochester Institute of Technology; and Mr. Robfogel will 
describe for you in a moment the commitment that RIT is making 
in this particular field and the outlines of the cooperative 
research program with the Office of Naval Research, which is 
going really well.
    Dr. Nasr and his fellow research scientists at RIT have 
been in close contact with officials of the Office of Naval 
Research since the enactment of last year's appropriations 
bill. They are making great progress in developing research 
that will benefit the Department of Defense.
    Dr. Nasr is the leading scientist in the field of 
remanufacturing in the Nation and can answer any detailed 
questions the subcommittee might have about the research 
program.
    I was particularly encouraged to learn that the Office of 
Naval Research has indicated that it is planning to introduce 
RIT to the manufacturing technology officials in each of the 
military services. There appears to be strong recognition 
within the Department of Defense that learning how to better 
apply the process of remanufacturing to defense systems is 
critical under our present budgetary conditions; and we are 
very much aware of that, Mr. Chairman.
    We often hear the Members of the Congress and the Pentagon 
talking about the affordability of new systems. RIT is prepared 
to help the military services to better maintain and advance 
the systems that they already have and can't afford to replace 
with an expensive new system.
    RIT wants to continue its cooperative research program 
through the Office of Naval Research in fiscal year 1999 in the 
amount of $2 million, and I am hopeful that the subcommittee 
will look favorably on this request and include this amount in 
the fiscal year 1999 National Security Appropriations bill.
    Thank you most kindly, Mr. Chairman; and may I introduce 
Mr. Robfogel?
    Mr. Young. Thank you very much.
    [The statement of Congresswoman Slaughter follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    1Mr. Young. We want to welcome all of you here and state 
that the statements, your entire statements, will be placed in 
the record; and we would ask that you condense and summarize 
them to about 5 minutes or less if you can. We have a very long 
list of witnesses today.

                       Statement of Mr. Robfogel

    Mr. Robfogel. Thank you very much, Mr. Chairman.
    I am Nathan Robfogel, Vice President for University 
Relations at RIT. I am here today with Dr. Nasr, who is a 
Professor of Engineering at the University and who is the 
Director of our National Center for Remanufacturing and 
Resource Recovery.
    Mr. Chairman, before I begin, I would first like to thank 
Congresswoman Slaughter for her introduction and her strong 
support of RIT; in particular, our manufacturing technology and 
our remanufacturing research program. She has been a great 
champion for all of our efforts and the efforts to help U.S. 
manufacturers.
    I would also like to join Congresswoman Slaughter in 
thanking you and the subcommittee for your inclusion of $2 
million in last year's National Security Appropriations bill 
for our cooperative remanufacturing research program with the 
Office of Naval Research.
    Mr. Chairman, understanding the extreme time constraints 
that you are under, I would like to just summarize our 
testimony and refer you and the subcommittee to our formal 
written testimony for further details.
    First, as Congresswoman Slaughter has said, RIT is fully 
committed as a University in helping our Nation's manufacturing 
industry compete in a global marketplace. We have built a 
157,000 square foot state-of-the-art manufacturing research and 
education facility, and that is the only one of its kind in our 
Nation. Our engineering, imaging and other colleges work 
collaboratively with industry to solve manufacturing problems 
with this facility.
    Several years ago, RIT researchers, led by my colleague, 
Dr. Nasr, began looking into methods and practices of 
remanufacturing--the process of taking a used product, 
disassembling it, refurbishing its parts and remanufacturing it 
into like-new condition.
    Recently, RIT has become the national leader in 
remanufacturing research and education. We have established, 
under Dr. Nasr's leadership, the National Center for 
Remanufacturing and Resource Recovery and are currently working 
with the Argonne National Laboratory and the Department of 
Energy, the Office of Naval Research, Environmental Protection 
Agency, and a number of major U.S. manufacturing companies such 
as Kodak, Xerox and Detroit Diesel.
    Our work with Detroit Diesel, which remanufactures engines 
for the Marine Corps Light Armored Vehicle, make it clear to 
this old Marine and to the rest of us that the military and its 
defense contractors would benefit greatly from a comprehensive 
applied research program in manufacturing.
    Mr. Chairman, the Department of Defense is, in fact, the 
world's largest remanufacturer. Some examples of the weapons 
systems currently remanufactured--and I will just list a few: 
the B-52 Bomber, the Bradley Fighting Vehicle, the Marine Corps 
Light Armored Vehicle, the AV-8B Attack Aircraft, the SH-60F 
ASW and the Phalanx Close-in Weapons System.
    Why is the remanufacturing of these systems so important to 
the Pentagon? For the following reasons, Mr. Chairman:
    First, remanufacturing saves significant costs involved in 
design and production of new systems.
    Secondly, remanufacturing allows the insertion of new 
technology faster and more efficiently than new systems.
    Remanufacturing does not require the same amount of 
resources needed for manufacturing of new systems, thereby 
resulting in significant cost savings.
    And, finally, remanufacturing of existing systems can be 
done much closer or in some cases at point of use, thereby 
resulting in significant cost savings.
    Mr. Chairman, ONR is very interested in what we have to 
offer to the Navy manufacturing technology program and, in 
fact, has indicated that they want to introduce our program to 
the other military services.
    Mr. Chairman, our research project with ONR funded in last 
year's bill will focus on enhancing the Navy's ability to 
transfer remanufacturing know-how and technologies within and 
outside of its facilities to fully exploit the benefits of 
remanufacturing.
    In year two of the project, which will utilize fiscal year 
1999 dollars we are requesting today, the RIT project team will 
collect detailed information on remanufacturing activities, 
capabilities and technologies from DOD depots. The information 
will be assembled into a searchable computerized clearinghouse. 
The data will be analyzed in order to develop broad 
recommendations for improvement of remanufacturing practices.
    Mr. Chairman, Dr. Nasr and the National Center have 
developed a multiyear plan of research cooperation and support 
of ONR remanufacturing priorities. I am submitting with the 
testimony a copy of the detailed proposal that we have 
submitted to ONR relating to the use of fiscal year 1998 
funding and a program for subsequent years.
    In fiscal year 1999, RIT is requesting that the 
subcommittee include another $2 million appropriation in ONR to 
fund year two of this very vital program.
    Thank you, Mr. Chairman, for allowing us this opportunity 
to testify. My colleague, Dr. Nasr, has all the answers, if you 
have some questions; and I will back him up as sufficiently as 
my credentials would permit me to.
    Thank you for your time.
    Mr. Young. Well, I would like to say that most--the biggest 
question we would have for him is, how can we get the extra 
money to take care of all of these programs that we are talking 
about today?
    And I would like to respond that the Committee is well 
aware of the success of many of the remanufacturing programs, 
and we understand we do get a lot for the dollar invested 
there, and we appreciate your calling that to our attention 
today.
    And, Representative Slaughter, thank you very much for 
bringing them.
    Mrs. Slaughter. Mr. Chairman, thank you for your 
graciousness. We appreciate your listening to us this morning. 
You are very kind to have us in. Thank you.
    Mr. Young. For your constituents, I would tell them that 
you are a very important one to listen to.
    As a member of the Rules Committee, she plays a major role 
in the legislative process here in the House.
    Mrs. Slaughter. You are always a pleasure to work with.
    Mr. Young. Thank you.
    Mrs. Slaughter. You were saying----
    Mr. Cunningham. He is okay for a Marine.
    Mr. Young. General Krulak told us there are no old Marines.
    Mrs. Slaughter. Absolutely no old Marines at all.
    Mr. Young. Thank you very much. We appreciate you being 
here this morning. Thank you.
    Mrs. Slaughter. Thank you.
    [The statement of Mr. Robfogel follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

     NATIONAL COALITION FOR OSTEOPOROSIS AND RELATED BONE DISEASES


                               WITNESSES

SANDRA RAYMOND, EXECUTIVE DIRECTOR, NATIONAL OSTEO- POROSIS FOUNDATION 
    (NOF)
COMMANDER CHARLES SCOTT, U.S. NAVY

                              Introduction

    Mr. Young. I would like to welcome next Sandra Raymond, the 
Executive Director of the National Coalition for Osteoporosis 
and Related Bone Diseases.
    She is accompanied by Commander Charles Scott and his son 
Nick. Commander Scott suffers from multiple myeloma, which is a 
cancer of the bone marrow.
    Ms. Raymond, your prepared statement will appear in the 
permanent record; and we would ask that you summarize it at 
this time.

                        Statement of Ms. Raymond

    Ms. Raymond. Thank you very much, Mr. Chairman.
    I will summarize my testimony. But I do want to say that 
Commander Scott is here today, and his personal story, I think, 
really lays out the real cost of bone disease to the military.
    On behalf of myself and the Coalition, I want to sincerely 
thank you, Mr. Chairman, and your colleagues on the committee 
for the $10 million you appropriated for bone disease research 
in the fiscal year 1997 DOD budget. This money has been put to 
good use, and it is worth every appropriated dollar.
    The DOD received 88 proposals, out of which they were only 
able to fund 12 outstanding proposals; and those projects are 
enumerated in our testimony that you have received today.
    This is not an extension of the NIH research program, 
because the DOD bone disease research program aims to enhance 
military readiness by improving the bone health of young men 
and women who are in the military.
    The research addresses the important issue of stress 
fractures, which are among the most frequent injuries that take 
men and women off duty in the Army. According to the Army, the 
minimum time away from significant duty for a male or female 
soldier who develops a stress fracture is 6 to 8 weeks. Stress 
fractures are very slow to heal, and full recovery takes as 
long as 12 weeks.
    You know, most of us think of stress fractures--that stress 
failures heal and that the integrity of bone is maintained, but 
that is not true. If a stress fracture goes untreated and if it 
occurs in the same bone, you can have a full fracture; and that 
full fracture may cause complete disability. It may cause 
costly surgery and rehabilitation. And it is very, very costly 
to the military.
    An estimated 10 to 15 percent of women recruits experience 
stress fractures during this 8 weeks of basic training. With an 
increased number of women in the military, these stress 
fractures can only increase.
    One training intervention research project, which was 
conducted among 22,000 recruits in the U.S. Marine Corps in San 
Diego, showed that as much as $4.5 million could have been 
saved by reducing stress fractures. So the DOD research program 
is addressing these problems.
    For example, one project will examine oral contraceptives 
in bone health in female runners. Another will investigate 
treatments which increase the rates of healing stress 
fractures.
    There are many other projects which are being conducted 
under the DOD research program. It may be that what we learn 
from DOD research will greatly contribute to bringing bone 
diseases under control. Because osteoporosis and other related 
bone diseases, such as Paget's disease, Osteogenesis Imperfecta 
and multiple myeloma, are serious threats to the public health. 
These diseases cause loss of independence, they cause 
disability, they cause death, and they are extremely costly to 
the medical system in the United States and to the military.
    By discovering how we can build peak bone mass in military 
recruits we will not only build a strong Nation in terms of 
defense but also we are going to be able to extend our life and 
extend and withstand the stresses of an extended life span. We 
are today urging you to appropriate a modest $20 million in 
appropriations for bone disease research in fiscal year 1999.
    [The statement of Ms. Raymond follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Ms. Raymond. Commander Scott.

                      Statement of Commander Scott

    Commander Scott. Gentlemen, as you heard, my name is 
Commander Charles Scott. I am a Naval aviator, experimental 
test pilot, aeronautical engineer and Persian Gulf veteran.
    In December, 1996, after suffering a broken back, I was 
diagnosed with multiple myeloma, which is a complex cancer of 
the bone marrow that invades and destroys bone. As a result of 
this disease, I have severe osteoporosis.
    Each year, 14,000 new cases of myeloma are diagnosed. The 
occurrence of myeloma has increased dramatically in the past 
decade. The average life expectancy from the time of diagnosis 
is three-and-a-half years, and there is no cure for this 
disease.
    I demonstrate the tangible cost of bone disease to the 
military. The Navy has paid over $9 million to train me in the 
highly technical fields in which I am qualified. This 
investment by the taxpayers of this country is in jeopardy due 
to my bone disease and cancer.
    We are asking for $20 million for bone disease research. If 
the research resulting from the Department of Defense Bone 
Health and Military Medical Readiness Research Program could 
help me recover my health and put me back into a flying status, 
nearly one half of the amount we are requesting from you today 
could be recovered.
    By understanding the mechanisms of bone destruction in 
myeloma, we can learn how the dynamic equilibrium of bone 
damage and bone healing actually works.
    In myeloma patients, bone damage is dramatically increased 
but, more importantly, bone repair is almost completely 
blocked. Myeloma bone disease cripples 50,000 Americans in the 
prime of their lives. All Americans will benefit from increased 
knowledge of what can make bones heal and become stronger. 
Research focusing on the reduction of tumor burden, causative 
factors and better treatments will benefit everyone suffering 
the debilitating effects of bone disease and myeloma.
    Reduction in military readiness, our ability to fight and 
win wars, runs the gamut from the new recruit who fails to 
complete basic training on time due to a bone fracture to the 
seasoned veteran like me whose career is cut short by a 
debilitating bone disease.
    Thank you.
    Mr. Young. We want to thank you very much for being here 
and for your statements.
    Mr. Cunningham is our in-house expert on Naval aviation, 
having been, I believe, the first ace in the Vietnam War. He 
has a little knowledge about this problem, and I have asked him 
to comment on this.
    Mr. Cunningham. Well, I was also a former coach at a high 
school and college level.
    You know, the Speaker of the House has insisted that we 
increase funding for medical research at National Institute of 
Health--NIH.
    Another area that I would encourage you to look at, 
although you have your particular problem, but especially in 
fractures and stress fractures, sports medicine has got a vast 
knowledge. I mean, they're professionals, it is in their best 
interest to look at, A, how to prevent it, the diet, and also, 
if you have a stress failure, how to fix that, and I would turn 
you in that direction.
    The third thing I would mention is, with the limited budget 
which is as low as the 1950s, procurement has been cut 70 
percent. We can't buy parts smart. We can't do the things that 
actually save money. Because you need an airplane to go to 
Bosnia--we have got in some cases only one airplane in the 
squadron because we don't have parts to go forward. And we are 
fighting this battle, and I support it and understand what your 
problem is.
    But I also would like you to know the Chairman's problem 
that we are having, and we can't do the smart things because of 
a limited budget. But we are sympathetic, and we will see what 
you can do. And God bless you being a Navy fighter pilot.
    Commander Scott. Coming from a procurement background, I 
certainly understand and appreciate the constraints.
    Mr. Cunningham. Thank you.
    Mr. Young. We thank you very much, and we certainly 
understand the problem. Believe me, we could find a lot of ways 
to spend a lot more money on medical research. This Committee 
has taken the lead in a lot of medical research programs, 
including the establishment of a bone marrow registry for 
transplants. I understand that you had a transplant.
    Commander Scott. Yes, sir.
    Mr. Young. But yours was anatologist, as I understand.
    Commander Scott. Yes.
    Mr. Young. So this Committee has taken a strong lead on 
medical issues, and we appreciate your being here to back us 
up.
    As Mr. Cunningham said and as I have said, money is going 
to be really tight this year. All I can say is, we will do the 
best we can.
    Commander Scott. Thank you.
    Ms. Raymond. Thank you.
    Mr. Young. Thank you again for being here.
                              ----------                              

                                          Thursday, March 19, 1998.

                        BRAIN INJURY ASSOCIATION


                                WITNESS

MARTIN B. FOIL, JR., CHAIRMAN OF THE BOARD, BRAIN INJURY ASSOCIATION

                              Introduction

    Mr. Young. I would like to recognize now Mr. Martin Foil, 
who is the voluntary Chairman of the Brain Injury Association.
    The Members will remember, he is a constituent and good 
friend of Congressman Hefner, who normally introduces him with 
a very nice introduction. But Congressman Hefner is not able to 
be here this morning, and I probably won't be able to do as 
good a job.
    But we appreciate all the time that you volunteer, Mr. 
Foil, for this very important matter; and your statement will 
be placed in the record, and I would ask that you summarize it 
for us.

                         Statement of Mr. Foil

    Mr. Foil. Thank you, Chairman Young, and good morning, and 
all the members of the National Security Subcommittee. Thank 
you.
    We are sorry that Bill is not here this morning. We are 
well aware that he is retiring, and all of his constituents are 
going to miss him, and we who come before you will miss him as 
well. He has been a good friend to the Brain Injury Association 
and to our cause.
    My name is Martin Foil, and I come before you as a father 
of Philip Foil, a young man with a severe brain injury. I do 
serve as a voluntary Chairman of the Brain Injury Association. 
I am also the Chairman and Chief Executive Officer of Tuscarora 
Yarns in Mt. Pleasant, North Carolina.
    I receive no compensation from the Association or from the 
programs I am testifying about here today. Rather, I contribute 
considerable sums of my own money to the Brain Injury 
Association to help improve the lives of persons with brain 
injury. I am here, Mr. Chairman, simply because I do care about 
the 9 million Americans living with brain injury and their 
families.
    The Defense and Veterans Head Injury Program, or DVHIP, and 
the Violence and Brain Injury Project are collaborative efforts 
among the DOD and the Veterans Affairs and the Brain Injury 
Association.
    Together, we not only serve Active duty military personnel 
but we are an important resource to veterans and civilian 
populations as well. Over 7,000 military people a year suffer 
brain injury in peacetime.
    Our programs, therefore, are exemplar cases of dual-use 
funding; and I am pleased to report to you, Mr. Chairman, that 
our collaborative efforts continue to pay off. We do this by 
increasing the return to work rate of military personnel and 
improving the efficiency of the medical services provided. By 
doing this, DOD realizes significant cost savings.
    We have also had many accomplishments this year, including 
expanding of our Patient Registry Treatment and Referral 
Network.
    Our Brain Resource Center, developed by our Association, is 
now available in over 60 locations across the country, 
including select DOD and Veterans' Administration--VA hospitals 
as well as civilian facilities.
    Our toll-free help line continues to receive at least 
15,000 calls a year helping military personnel and civilians 
with brain injury and their caregivers.
    We have increased our prevention and educational programs 
to include something we call the brain building basics. This is 
a violence, prevention and brain injury awareness program for 
low literacy adults, including incarcerated populations.
    Our HeadSmart Schools Program is now being used in 21 
States, over 106 schools, 141,000 children, of whom 36,000 are 
children of the military. We have schools in 12 military 
installations.
    Through the Brain Injury Association, we are embarking on 
research of neurobehavioral problems following brain injury 
that will help to return military personnel to work. Included 
in this kind of research are FMRI studies to evaluate outcomes 
and concussions in sports.
    Brain injury is, however, a silent epidemic; and, as such, 
it is the single largest killer and the cause of disability 
among our young people. We need to learn more about the brain, 
and we need to do more to prevent brain injury.
    Our efforts continue to help our Nation's military 
readiness by helping service members get appropriate care and 
return to work. We need your support, Mr. Chairman, for $8.5 
million in funding so that the DVHIP and VBIP and the Brain 
Injury Association can carry on this unique partnership. This 
has been a very successful program, and we are proud of our 
association together.
    I am happy, Mr. Chairman, to answer any questions. Thank 
you and God bless you for allowing me here again this year.
    Mr. Young. Mr. Foil, thank you very much. We appreciate 
that.
    I wanted to mention that the University of Florida has a 
very aggressive brain injury program, and we do help with that.
    I would also tell you that the Chairman of this 
Subcommittee will miss Mr. Hefner as much as his constituents. 
He has been a good friend and a very good Member of this 
Committee.
    Mr. Foil. He is a fine man, and we all will miss him.
    Mr. Young. We appreciate you being here. Thank you very 
much.
    Mr. Foil. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Foil follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

                     THE FLEET RESERVE ASSOCIATION


                                WITNESS

MASTER CHIEF JOE BARNES, USN (RET.), DIRECTOR, LEGISLATIVE PROGRAMS, 
    THE FLEET RESERVE ASSOCIATION

                              Introduction

    Mr. Young. Next I would like to welcome Master Chief Joe 
Barnes, who is the Director of Legislative Programs for the 
Fleet Reserve Association. Chief Barnes represents 160,000 
enlisted sea service personnel who are serving or have served 
in the Navy, Marine Corps and Coast Guard.
    Master Chief, your prepared statement will be made a part 
of the Committee's permanent record, in that statement, which 
we have read, it says, military readiness is now at code 
yellow. You also warn of the pending damage to the Nation's 
defense establishment if the fiscal year 1999 defense budget is 
approved in its present form.
    I will say amen to that. We recognize the serious 
shortfalls in many areas in the President's budget. 
Unfortunately, his top number is the same as the top number 
that we are dealing with. So we are going to have to work 
around that the best we can. But we appreciate your being here, 
and we would like to recognize you to summarize your statement.

                    Statement of Master Chief Barnes

    Master Chief Barnes. Thank you, Mr. Chairman. Distinguished 
Members of the Subcommittee, thank you for the opportunity to 
present the Fleet Reserve Association's--FRA--priorities 
regarding personnel issues for 1999.
    I also wish to express appreciation to you and members of 
the subcommittee for your strong support of the men and women 
serving in our uniformed services. Thanks to your efforts, they 
have seen significant quality of life improvements.
    Our country and its uniformed services face many 
challenges, not the least of which is turmoil in distant parts 
of the world that threatens our national interests. Inadequate 
defense funds, insufficient manpower, declining recruiting and 
retention rates, widening pay comparability, crumbling 
infrastructure and disenfranchised older retirees add to these 
challenges.
    These and other issues are addressed in our complete 
statement, and in the interest of time I will focus only on 
several key points.
    Compared to 1989, DOD funding in fiscal year 1999 will have 
dropped approximately $40 billion. This dramatic reduction 
helped to balance the budget, generate a projected surplus and 
free up money for other government programs. Notable is an 
increase by next year of over $208 billion compared to 1989 in 
Department of Health and Human Services funding.
    Keeping in mind the challenges discussed above, it seems 
those most deserving of consideration in the reallocation of 
government spending are the men and women who are now sharing 
the sacrifices and hardships of serving in the Armed Forces.
    In addition to these major challenges, additional personnel 
cuts are planned, not because the workload has decreased but 
because money saved from the personnel account is sorely needed 
for procurement and modernization.
    OPTEMPO has significantly increased and reduced manpower 
levels have led to longer deployments as well as family 
problems, instability, stress and falling retention rates.
    Next year's mission demands will be greater than in 1998, 
and the Navy can ill afford to lose 18,000 more personnel as 
recommended in the QDR, and the Marine Corps should not be 
mandated to further reduce manpower below the pre-1998 levels.
    Annual military pay raises always trail 15 months behind 
the applicable employment cost index data, and each year the 
pay gap grows wider and now stands at 13.5 percent.
    FRA again draws your attention to the decline in pay 
ratios. Prior to the all-volunteer force, the ratio between 
senior enlisted personnel and new recruits was 4.6 to 1 and now 
it is 2.6 to 1, indicating nearly a 44 percent decline.
    Hopefully, Congress hasn't forgotten the need in 1981 to 
raise the pay of its senior enlisted members. At that time, 
many were voting with their feet. FRA urges larger pay 
adjustments to narrow the pay gap in accordance with the latest 
full ECI data immediately prior to the effective date of the 
pay raise and a gradual pay increase for senior enlisted 
personnel to bring it to a level commensurate with their 
leadership roles.
    Regarding health care, improvements are needed in the 
TRICARE program; along with enactment of full Medicare 
subvention; a broader mail order pharmaceutical drug program; 
and, finally, a major priority is a test program to the Federal 
Employees Health Benefit Program option for older 
beneficiaries.
    Confusion over the three military retirement plans is a 
concern for uniformed service members pondering career 
decisions. Second and third term enlistees are discovering that 
the retirement program they may look forward to provides 
significantly less financially than the previous two programs, 
yet they must pay the same amount for health care for 
themselves and their families.
    FRA believes Congress should repeal the 1986 Military 
Retirement Reform Act.
    Mr. Chairman, FRA shipmates appreciate your untiring 
commitment and support of personnel now serving and those who 
have served in the past. Thank you very much.
    Mr. Young. Master Chief Barnes, thank you very much. We 
always appreciate your excellent testimony; and, as you know, 
we work with you to do the best we can to make good things 
happen; and we thank you for being here this morning.
    Master Chief Barnes. Thank you, Mr. Chairman.
    [The statement of Master Chief Barnes follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

                         FORT ATKINSON CEMETERY


                                WITNESS

HON. DOUG BEREUTER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEBRASKA

                              Introduction

    Mr. Young. I would like to recognize now one of our 
distinguished colleagues from the great State of Nebraska, 
Congressman Doug Bereuter. Doug serves on the Banking and 
Financial Services Committee and the International Relations 
Committee, where he chairs the Asia and Pacific Subcommittee 
and, in his usual aggressive way, does an excellent job there.
    Congressman, your prepared statement will be placed in the 
record; and we would ask that you summarize it.

                   Statement of Congressman Bereuter

    Mr. Bereuter. Thank you very much, Mr. Chairman and Mr. 
Cunningham and members of the Committee. I appreciate you 
seeing me at this point. Because of an emergency, Chairman 
Gilman will not be able to handle the next bill; and I will 
have to do that.
    I would want to bring to your attention a request for a 
quarter million dollars. I know you don't often deal in a 
request of that size.
    In summarizing, let me tell you this. The first fort west 
of the Missouri River in the United States is located in my 
district. It was eventually called Fort Atkinson. The first 
winter the troops were located there shortly after Lewis and 
Clark had gone up the river and had met the Indians for the 
first time at what is called Council Bluff.
    The Missouri cantonment, over 200 troops died the first 
winter. As far as I know, it is the largest area of unmarked 
American military graves in the United States. Today, we don't 
know exactly where these officers and men are buried.
    There are other civilians that were buried as well, not on 
the fort but an area north of it. I am sorry to tell you that 
that area is cultivated today. It is farmed. We have had 
difficulty getting access.
    We need to use ground-sensing radar to find out exactly 
where it is. We can take it down to within a 15- to 20-acre 
site, and what I am asking for is site planning money; if 
necessary, leasing; and preparation for memorializing these 
graves of these 200-plus soldiers of what was the most--it was 
actually the largest military establishment in the United 
States at one time.
    It is adjacent to a State historical park which is called 
Fort Atkinson, named after an early Army officer that helped 
explore the Missouri River territory and Nebraska territory and 
Dakota territory. It is my expectation, once we locate these 
graves with the assistance of the appropriate component of the 
U.S. military, that we would arrange to have land purchased; 
and I would think it would be the preference of the Federal 
Government to transfer the land to the State historical park.
    But I do think that proper recognition and memorialization 
of these 200-plus American servicemen from the 1820 to 1827 era 
is appropriate. And that is my request, a very unusual one; and 
I think it is probably the first request I have ever made 
before this Committee. It has nothing to do with my Asia and 
Pacific Committee assignment.
    I would be happy to answer any questions you might have.
    Mr. Cunningham. I don't really have any questions for the 
issue. I understand the issue, and I know the Chairman is 
trying to wade through the priorities on it. A lot of our 
foundation is on history.
    When you say transfer of land you are actually asking for 
money. I am not quite clear on the reasoning behind, the 
expanse of money required if we transfer the land to bring up 
these 200 or more.
    Mr. Bereuter. I don't think it is appropriate to move the 
graves. What we are asking for now is investigation money. Part 
of that equipment is in the hands of the Smithsonian 
Institution. Part of it is in the hands of the Army, the DOD. 
We would like to find out precisely where these graves are, as 
much as possible after this century and a half, and prepare a 
site plan and memorialization of it.
    We think it is--because of the noncooperation of the 
landowner, it is going to be necessary to lease the ground for 
a period of 3 to 6 months for that purpose. Then it would be my 
expectation to either go to the State of Nebraska or the 
Department of Interior Appropriations Subcommittee, Ralph 
Regula's subcommittee, and request an additional 10, 15, 20 
acres, whatever it might be, to add to Fort Atkinson.
    I don't think the Federal Government would expect to 
establish a Federal cemetery and would not want the property to 
be under its control. So I would think it is logical at some 
subsequent action, when we determine exactly where these graves 
are and what kind of markers should be placed there and what 
kind of visitation arrangements to the site should be there, 
then I would think we would go for the additional purchase.
    Or what the landowners would prefer is a land swap. I don't 
know if that can be arranged.
    I will tell you one thing more. This will be the site of 
one of the three most important ceremony--festivity sites in 
the Lewis and Clark expedition. In 2004, this is where the--one 
of three sites will be for the Lewis and Clark expedition 
bicentennial. It happens to be----
    Mr. Cunningham. Has there been any attempt for a foundation 
to be set up for--a funding foundation, private?
    Mr. Bereuter. No. But I think probably the acquisition can 
be handled by the Nebraska Game and Parks Foundation.
    The problem is, we need at this point the expertise of the 
military; and we think it is appropriate that they help find 
those graves of American military men from that era.
    Mr. Cunningham. Thank you, Mr. Bereuter.
    Mr. Bereuter. Thank you very much.
    [The statement of Congressman Bereuter follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

 NON COMMISSIONED OFFICERS ASSOCIATION OF THE UNITED STATES OF AMERICA


                                WITNESS

SERGEANT MAJOR MICHAEL F. OUELLETTE, USA (RET.), DIRECTOR OF 
    LEGISLATIVE AFFAIRS, NON COMMISSIONED OFFICERS ASSOCIATION OF THE 
    UNITED STATES OF AMERICA

                              Introduction

    Mr. Cunningham. Our next witness from the Non Commissioned 
Officers Association is Sergeant Major Michael Ouellette. I 
look forward to your testimony, Sergeant Major.

                 Statement of Sergeant Major Ouellette

    Sergeant Major Ouellette. Good morning, Mr. Cunningham, and 
thank you very much. On behalf of the Non Commissioned Officers 
Association--NCOA, it is always nice to be given an opportunity 
to appear before this subcommittee; and I, on behalf of NCOA, I 
would like to thank all the members, especially the Chairman 
who I thank constantly, for the efforts in past years to assist 
military people and retirees.
    I would tell you that we are--we still need help in those 
areas, but we would be far off the pace if it had not been for 
the efforts over the years to protect COLAs for retirees, to 
provide pay raises, money for pay raises for the special 
deployment pays and all of those items that come up to improve 
the welfare of military men and retirees and, of course, 
promote recruiting and retention.
    Mr. Cunningham, I would just like to summarize. We have 
submitted our statement.
    I think there are a lot of issues. I don't think that this 
Committee in 1 year is going to solve all of the problems. I do 
think, though, that there should be a real attempt to try to 
bring military pay up to par, as Mr. Barnes talked about.
    I think the best way to start that, though, within reason, 
is just to assure full employment cost index pay raises every 
year. We came close to doing that last year; and, at the very 
end, that provision fell out of the authorization bill.
    So in the area of health care, Mr. Cunningham, you hear 
that all the time. The problems--and there are many problems 
with health care. Are we going to--do you have the money to fix 
all of the areas during the course of any one year? The Non 
Commissioned Officers association sure doesn't think so. But we 
do think that probably selecting one thing and maybe 
prescription--opening the mail order prescription drug program 
to all retirees would be a major step forward.
    That is the way this Committee has progressed over the 
years. You haven't solved all the problems every year, but you 
keep nipping at it.
    On behalf of NCOA and our President, Chuck Jackson, Mr. 
Cunningham, we--and the staff of the subcommittee, we certainly 
appreciate all the things that you have done and look forward 
to those things that you are able to do within the budgetary 
restraints during--for the fiscal year 1999 program.
    Mr. Cunningham. Thank you, Sergeant Major.
    I think it is pretty much a bipartisan issue on taking care 
of our veterans, and you know we look forward to--the 
subvention bill was written by the veterans in my district and 
submitted, and it took a long time.
    I would tell you that J.C. Watts, Mr. Thornberry and myself 
have a health care bill that I would like NCOA to take a look 
at. I think it will save dollars in the long run and will 
greatly benefit our military--the Chairman heard testimony of 
all the service chiefs before, and one of the big things for 
retention was loss of their benefits and they could do better 
on the outside. So I know the Chairman is very concerned about 
that, and we thank you for your testimony.
    Sergeant Major Ouellette. All right, Mr. Cunningham. Thank 
you very much.
    Mr. Chairman, thank you very much for all you have done.
    Mr. Young. Thank you. I am sorry that I missed your 
testimony, but I just got the second vote that Mr. Cunningham 
is going to have to go get now. Voting does interfere with our 
Committee work.
    Sergeant Major Ouellette. All right. Thank you, Mr. 
Chairman.
    Mr. Young. We always appreciate you being here. We always 
appreciate the support you give us when it is time to take this 
bill to the floor and to the Committee.
    Sergeant Major Ouellette. Likewise, Mr. Chairman.
    Mr. Young. Thank you, sir.
    [The statement of Sergeant Major Ouellette follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

              AMERICAN FEDERATION OF GOVERNMENT EMPLOYEES


                                WITNESS

ROCKY MORRILL, PRESIDENT, LOCAL #1156, MECHANICSBURG, PENNSYLVANIA, 
    AMERICAN FEDERATION OF GOVERNMENT EMPLOYEES, AFL-CIO

                              Introduction

    Mr. Young. I would like to recognize next Mr. Rocky 
Morrill, President of the American Federation of Government 
Employees, Local 1156, from Mechanicsburg, Pennsylvania.
    As a representative of 300,000 employees of the Department 
of Defense, we are interested in what you have to say about 
things of importance to them.

                        Statement of Mr. Morrill

    Mr. Morrill. Thank you, Mr. Chairman and subcommittee 
members. I appreciate the opportunity to speak before you.
    I am president of the American Federation of Government 
Employees, Local 1156, at Mechanicsburg, Pennsylvania. The 
American Federation of Government Employees represents more 
than 600,000 Federal employees serving worldwide, including 
300,000 employees at DOD.
    I would like to begin my testimony by thanking the 
subcommittee for this opportunity to testify on National 
Security Appropriations.
    While there are many important issues affecting DOD 
employees which this subcommittee will consider, I will limit 
my statement today to what I consider to be the most important 
issue, the use of in-house personnel ceilings by DOD officials 
to contract out work, often at higher cost because of the 
absence of public/private competition.
    DOD, the Department the American people rely on to 
safeguard their future, is experiencing in-house staff 
shortages. On March 16th, 1995, the personnel directors of the 
four branches of the Armed Forces told the Senate Armed 
Services Personnel Subcommittee that civilian personnel 
ceilings, not workload, cost or readiness concerns are forcing 
them to send work to contractors that could have been performed 
more cheaply in-house.
    Also in March, 1995, GAO reported that the personnel 
ceilings set by OMB frequently have the effect of encouraging 
agencies to contract out regardless of the results of cost, 
policy or high-risk studies. And the DOD Inspector General 
noted in a 1995 report the goal of downsizing the Federal 
workforce is widely perceived as placing DOD in a position of 
having to contract for services regardless of what is more 
desirable and cost-effective.
    Moreover, I have attached to my testimony three internal 
documents which suggest that DOD managers are instructing 
subordinates to manage by personnel ceilings and then contract 
out the work.
    The second document imposes a not-to-be-exceeded ceiling 
and insists that work performed by employees under the GS-12 
level be contracted out.
    We shouldn't be surprised that much contracting out 
occurring because of personnel ceilings is wasteful. After all, 
there is no public/private competition. Federal employees 
aren't given opportunities to compete in such situations, 
simply because there aren't enough of them to do the work.
    Clearly, DOD should be required to manage by budgets. If it 
has work to do and money is authorized and appropriated to do 
that work, then the DOD should be able to use Federal employees 
if in-house performance is to the benefit of the warfighters 
and the taxpayers.
    We all know that the DOD civilian workforce is going to get 
smaller. We all know that there is going to be contracting out. 
But DOD should not be imposing arbitrary personnel ceilings and 
foreclosing the option of the in-house performance of important 
work, especially if contractors are less efficient, even if not 
always successful.
    At my own base, we have the base communications office, 
already streamlined, has implemented cost-savings incentives 
and has saved the government documented savings of $500,000 
that continues through each fiscal year. Additionally, this 
timely organization has backlogged projects that have the 
potential for significantly larger savings. No contractor will 
duplicate or exceed the efficiencies or economies demonstrated 
by this organization.
    I present the documentation of the director of this base 
communications office that goes into further detail.
    We appreciate the Committee's efforts to prevent DOD from 
managing by personnel ceilings by the inclusion of prohibitions 
in recent defense appropriations bills, and we urge that a 
similar prohibition be included in this year's funding measure.
    Thank you for the opportunity to testify. I would be happy 
to answer any questions.
    Mr. Young. Well, thank you very much for being here, and we 
appreciate the opportunity to work with you on this issue. We 
recognize the importance of the civilian workers in the 
Department of Defense and the important role that they play. 
Thank you for being here today.
    Mr. Morrill. Thank you, sir.
    [The statement of Mr. Morrill follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

                  NATIONAL MILITARY FAMILY ASSOCIATION


                                WITNESS

SYDNEY T. HICKEY, ASSOCIATE DIRECTOR, GOVERNMENT RELATIONS, THE 
    NATIONAL MILITARY FAMILY ASSOCIATION

                              Introduction

    Mr. Young. I would like next to recognize Mrs. Sydney 
Hickey, Associate Director of Government Relations of the 
National Military Family Association. Mrs. Hickey is no 
stranger to this Committee. She and her organization do a 
really great job of standing up for the families of the men and 
women who serve our great Nation. And I might also say they 
publish a great newsletter which I find very informative.
    Mrs. Hickey, we are very happy to have you back again. Your 
entire statement will be placed in the record, and I would ask 
that you summarize it for us.

                        Statement of Ms. Hickey

    Ms. Hickey. Thank you very much, Mr. Chairman; and thank 
you for letting NMFA again express its views. In grateful 
recognition of your kind remarks, I will be less than 2 
minutes.
    We would like to reiterate again the gratitude of military 
families for the concern shown by the members of this 
Committee.
    We have eight main items in our written testimony, which I 
will simply list:
    A continued stress placed upon the force and their families 
by long workdays and weeks, as well as the frequent 
deployments;
    Two, the distress of families that their leaders continue 
to voice little concern about compensation programs that 
decrease their buying power and appear more concerned about 
cutting costs than the family's quality of life;
    Three, the privatization or outsourcing of vital family 
service functions and the fear that such contracts will go the 
way of the new parent support program contract;
    The implementation of the family housing privatization 
initiatives without full consideration of the effects on 
military families and the surrounding civilian communities. Our 
fear here is that this Subcommittee may be asked to fund the 
full impact aid program rather than simply the supplemental.
    The viability of the military community upon which we have 
historically depended for our support under privatization and 
outsourcing;
    The continuing problems with our health care system years 
after the initial implementation of TRICARE, and the fact that 
we still do not have a solution for our over-65s;
    A plea for the Committee's assistance in ascertaining if 
military families everywhere are paying the lion's share of the 
reduced provider payments under TRICARE Prime, as the exhibit 
included in our testimony shows;
    And, finally, our deep concern that policies and actions 
that produce negative experiences for the family, military 
family, of today will have a profound and equally negative 
effect on the military force of the future.
    Thank you, Mr. Chairman.
    Mr. Young. Thank you very much for your testimony.
    Thank you for being here, and you know that we always look 
forward to working with you and receiving your newsletter to 
keep up to date on what you are doing.
    Ms. Hickey. Thank you very much, sir.
    [The statement of Ms. Hickey follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

                NATIONAL MILITARY AND VETERANS ALLIANCE


                                WITNESS

COLONEL CHARLES C. PARTRIDGE, U.S. ARMY (RET.), NATIONAL MILITARY AND 
    VETERANS ALLIANCE

                              Introduction

    Mr. Young. I would like now to welcome Colonel Charles 
Partridge in his capacity as spokesman for the National 
Military and Veterans Alliance. Colonel Partridge is also the 
legislative counsel for another important group, the National 
Association for Uniformed Services. The Alliance represents 15 
military and veterans organizations with 3.5 million members.
    We appreciate the support that your organization has always 
given us when we try to do the best we can for our Nation's 
security. Your prepared statement is an excellent summary of 
where you think we stand with regard to military health care, 
and I might say this Subcommittee has spent considerable time 
this year on the subject of military health and health care for 
the families, some of the problems that have evolved, and we 
look forward to hearing from you, sir.

                     Statement of Colonel Partridge

    Colonel Partridge. Thank you, Mr. Chairman; and we want to 
thank you for all you have done over the years in military 
health care. Just year after year after year, you and this 
subcommittee have stood up. If it hadn't been for you, military 
health care would have been underfunded in the past years by 
almost three-quarters of a billion dollars; and we really 
appreciate your help there.
    As you know, we have supported the Department of Defense in 
establishing the TRICARE program; and we worked hard to help 
them with that. We worked hard with them on the Medicare 
subvention issue, which Mr. Cunningham mentioned earlier was 
drafted years ago from a man in his district; and we would like 
to see, of course, Medicare subvention expanded just as rapidly 
and quickly as possible.
    We are also concerned, as I know you are, with the deep and 
continuing cuts in the end strength, particularly medical end 
strength, where it is down by about 30 to 35 percent. Military 
hospitals are being closed as part of the BRAC--Base 
Realignment and Closure--business, which we understand. That is 
necessary.
    What has concerned us is that, with all of these reductions 
and cuts going on in the medical system, the Department of 
Defense has not come up with a plan that would take care of all 
of their beneficiaries. We know that the TRICARE program with 
subvention will take care of a large number, and we know that 
increasing coordination with the VA, between DOD and VA, is 
going to help.
    Even with all of that, though, there are people that are 
falling through the cracks, particularly Medicare-eligible 
retirees. And we--that is why we are proposing the Federal 
Employees Health Benefits plan. And our--what we need is a plan 
that works, that is a proven program, we know it works, and we 
believe that it would cover some 30 percent of military 
retirees over 65 who now have no other option. The other 70 
percent would get their care somewhere else.
    And we would--we understand there is an additional 
legislative proposal in the works that would--that could begin 
this program next year. We understand that the current bills 
that are being considered would not begin for several years, 
and we would like to see these older retirees getting this 
benefit in the next year. Then, as the Department develops 
their own alternatives, they can opt out of that into something 
else. But, for now, we would like to see something started next 
year, start them enrolling next year even if it is on a modest 
scale.
    Thank you very much, Mr. Chairman.
    Mr. Young. Colonel, thank you very much. You know of our 
commitment to making these things happen.
    Colonel Partridge. Yes, sir.
    Mr. Young. Also, I might tell you that a recent hearing we 
had with the Surgeons General I had discovered several 
recruiting posters that weren't all that old that promised, for 
those who spend enough time to retire in uniform, that they 
would have health care for life.
    Colonel Partridge. Yes, sir.
    Mr. Young. Many have said that that was not the case, but 
we found these old recruiting posters, and we are doing the 
best we can to keep faith with the people who believed that 
when they signed up.
    Thank you for being here today, sir.
    Colonel Partridge. Thank you, sir.
    [The statement of Colonel Partridge follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

                       DISABLED MILITARY RETIREES


                                WITNESS

EDITH G. SMITH, CITIZEN ADVOCATE FOR DISABLED MILITARY RETIREES

                              Introduction

    Mr. Young. I would like to invite Mrs. Edith Smith to come 
to the witness table now. Mrs. Smith is a long-time friend of 
this Committee and has been a tireless advocate for our 
Nation's disabled military retirees, and she has spent a lot of 
time with the Members of the Committee in this great effort.
    Mrs. Smith, we are always happy to hear from you. Your 
entire statement will be in the record, and we would ask that 
you summarize it.

                        Statement of Mrs. Smith

    Mrs. Smith. Thank you very much, Mr. Chairman.
    I am Edith Smith, the wife of a disabled retired Marine, 
who is very grateful to you, Mr. Young, and to Mr. Murtha and 
to the members of this subcommittee for rising up and leading 
the fight to protect the disabled military retiree by restoring 
their earned CHAMPUS benefit as second payer to Medicare in 
1991.
    Members of this subcommittee may remember the courageous 
testimony of your constituent Terry Cox that led to the 
immediate implementation of your legislation by the Department 
of Defense in 1992. The weak link, however, in your legislation 
is with DOD in its implementation of this dual-coverage 
benefit. For more than 6 years, DOD has not accomplished a data 
match with--the Health Care Financing Activity--HCFA for your 
legislation. The data match is required to identify and notify 
Medicare-eligible beneficiaries under age 65 of their change in 
eligibility for CHAMPUS.
    I am here today to plead for understanding and relief for 
any retirees under 65 who have not been informed of the unique 
requirement to enroll in Medicare B in order to remain in their 
CHAMPUS benefit, which is now known as TRICARE.
    I would like to describe the crisis faced by these disabled 
retirees with two real-life examples of young retirees who 
believed they were covered by CHAMPUS until age 65, as are all 
other military retirees.
    One is a disabled retiree from Michigan, afflicted with 
Huntington's disease. He learned of the Part B requirement 
after the enrollment period had closed, 4 days too late. His 
request for equitable relief was denied, and he was tragically 
left without outpatient insurance for the next 15 months.
    Two weeks ago, he was diagnosed with recurrence of cancer. 
Had his CHAMPUS coverage not been taken away, would he have 
gone to the doctor earlier? Would his cancer have been detected 
sooner?
    Another disabled military retiree signed up for TRICARE 
Prime at Madigan Army Hospital, uninformed by the military of 
his need to buy Part B. He died; and his widow suffered a 
recoupment attempt by TRICARE of nearly $200,000 last year, not 
once but twice in the same year, simply because this couple did 
not know about the Medicare B requirement.
    As DOD expands its managed care subvention demonstrations 
and programs such as TRICARE senior, the disabled appear to 
have been cherry-picked and left basically alone to fend for 
themselves.
    If DOD cannot coordinate one data match with HCFA in 25 
years for the Active duty family members who are disabled, how 
can they coordinate eight data systems for Medicare over-65s to 
begin the TRICARE senior demonstration by 1 July?
    For 10 years, Medicare eligibles have received a DEERS 
letter of notification, detailing the switch from CHAMPUS to 
Medicare at age 65. But this doesn't happen for the disabled 
under 65s. Mr. Chairman, these disabled beneficiaries deserve 
this important notification letter as well.
    DEERS is now working on the data match, but it will not be 
completed in time for the disabled retirees to enroll in Part B 
by this year's closing date of March 31st.
    Disabled beneficiaries not currently enrolled in Part B 
will find themselves at risk of ruin emotionally, physically 
and financially, because they will have no outpatient insurance 
until July 1st, 1999, unless Congress presses DOD to take 
protective measures regarding equitable relief waivers.
    If eligibility requirements for TRICARE were equal to those 
for the Federal Employees Health Benefits Program--FEHBP, these 
gaps in medical coverage for the disabled would not exist. 
Disabled Federal civilian retirees enrolled in FEHBP have a 
voluntary choice to purchase Medicare B but the disabled 
military retired beneficiaries do not.
    My husband and I are concerned that military personnel are 
viewed as second-class citizens by our employer, the Federal 
Government. Military professionals have earned a legitimate 
employer-provided health benefit such as FEHBP, which the 
Congress provides to Federal civilian retirees.
    Mr. Chairman, I have submitted my full statement for the 
record; and I appreciate the opportunity to speak this morning. 
If you have any questions, I would be happy to answer them.
    Mr. Young. Ms. Smith, we are always happy to hear from you. 
I still remember the help you gave us when the Andy Cox case 
was before us.
    Mrs. Smith. Yes. I mentioned Terry and talked to her last 
night, and she asked that I relay her best wishes to you and 
their appreciation as well for what you have done.
    Mr. Young. And she, Mrs. Cox, appeared in one of our 
hearings.
    Mrs. Smith. That is right.
    Mr. Young. I am sure you know that.
    Mrs. Smith. Yes.
    Mr. Young. And made a very good presentation.
    Thank you very much for being here today. We appreciate all 
the good work that you do.
    Mrs. Smith. Thank you very much.
    Mr. Cunningham. Let me say, Mrs. Smith, also, I am a 
military retiree, and I don't consider you a second-class 
citizen.
    Mrs. Smith. Thank you.
    Mr. Cunningham. I am one.
    Mrs. Smith. Maybe we can work on this for the data match.
    [The statement of Mrs. Smith follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

                    THE RETIRED ENLISTED ASSOCIATION


                                WITNESS

CHIEF MASTER SERGEANT MARK H. OLANOFF, USAF (RET.), LEGISLATIVE 
    DIRECTOR, THE RETIRED ENLISTED ASSOCIATION

                              Introduction

    Mr. Young. Our next witness is retired Chief Master 
Sergeant Mark Olanoff, who is the Legislative Director for the 
Retired Enlisted Association.
    Chief, we are glad to have you here. You represent more 
than 100,000 members and auxiliary of the Retired Enlisted 
Association, and we are particularly interested in your views 
on health care for military retirees since 61 percent of your 
members are over the age of 65.
    We will place your entire statement in the record and ask 
that you summarize it at this point.

                     Statement of Sergeant Olanoff

    Sergeant Olanoff. Thank you very much, Mr. Chairman.
    First, I would like to let you know that, you know, I have 
not testified here before, but I have read a lot about what you 
have done personally and what this Committee has done for 
military retirees, especially the ones that are the majority of 
my membership; and we deeply appreciate what you do.
    Although my statement discusses many issues, I will focus 
my summary remarks on retired military health care.
    We are not here to ask you for a new weapons system. We are 
here to reclaim our employer-sponsored health care. Our 
solutions include a combination of TRICARE, DOD and VA 
subvention, and the option of the Federal Employee Health Plan 
that you, your staffers and every other Federal employee has; 
and we state that it should be unequivocal for any military 
retiree, regardless of their age.
    Mr. Chairman, I am going to refer to some attachments that 
I have put into the record, so I will have to do a little bit 
of reading. I just want to remind you, and you mentioned it 
already, about the promise. Most of the information that I have 
seen since I have been here, up until 1993 the United States 
Army was still publishing that poster that guaranteed the 
health care for life, and I can tell you----
    Mr. Young. That was the date on the one that I found.
    Sergeant Olanoff. Yes, sir. And just so you are aware of 
it, you know that, prior to 1956, this country had the 
equivalent of lifetime health care for military retirees 
because the law that was passed in 1956 actually took it away 
from us, because it created space-available health care. 
Unfortunately, this message was distorted over a period of 
time, and many of my members today still believe that that 
promise was made and it was guaranteed.
    I have a couple items that I am going to add that I have 
not put into the record, and I will put them in the record. My 
letter says that I have a week to do that. This information, I 
just received.
    Mr. Young. That is fine. We will be happy to include any 
items that you want in the record.
    Sergeant Olanoff. Thank you, sir.
    The Acting Secretary of DOD Health Affairs, Mr. 
Christoferson, testified before the Senate Committee on March 
the 11th; and he reiterated the DOD's commitment to health care 
for our over-65 people. However, there is one question and fact 
that I want to bring up that was answered that you probably 
have not seen this, but Senator Kempthorne's Committee asked 
him about what their position is on FEHBP and how would they 
implement it?
    His answer was that the Department has consistently opposed 
proposals to offer FEHBP because of the high cost and its 
potential effect on medical readiness; and in parenthesis he 
says, if substantial numbers of beneficiaries were no longer 
seen within the military health system.
    Well, sir, the first thing I can say to that is that I 
receive many phone calls, and I am sure your staff does, that 
these people are being turned away. So we don't see how this is 
going to have any an impact on military readiness.
    And I state in the attachments that I have given to you 
from the General Accounting Office--GAO their--the numbers 
don't match up. For example, the GAO stated there is 1.2 
million of our people. They also state in another report that 
Medicare subvention will only help 75,000 people, and they also 
go on to say that DOD is currently taking care of approximately 
300,000 of our people. So when you subtract 300,000 from 1.2 
million, that leaves 900,000 left; and I am here to tell you 
that if I could get you to put a law into this appropriations 
bill that eliminated the words ``space available'' and all 
those 900,000 people started coming back, I do not think the 
Department of Defense could take care of all of those people.
    There is also some testimony that has come out of the 
authorizing committee which, unfortunately, we were unable to 
participate in, concerning that enlisted personnel do not want 
to pay for health care. Well, sir, I have some data which I 
recently received since we are a member of the military 
coalition, that is not--that I have not attached but I will 
attach, of a survey that was done in 1996 of all the members of 
the military coalition. That survey indicates that 66 percent 
of all enlisted personnel have some type of Medicare 
supplement. They are paying money for health care somehow.
    And out of those 66 percent, based on the survey in which 
the individuals were asked, how much are you paying for health 
care specifically--and if these numbers are needed we can 
provide them--but the chart that I have that was produced by 
the military coalition indicates that of the Medicare-eligible 
retirees over 65, 32 and a half percent of these people would 
benefit with FEHBP because the costs that they are currently 
paying equals what FEHBP would cost, or more.
    So I hope we can dispel the myth that enlisted personnel do 
not pay for their health care when it is not provided, because 
I think they do.
    The last thing I would like to discuss with you, sir, is 
some congressional language and mandates that were given to the 
Department of Defense.
    In fiscal year 1997, the national--the fiscal year 1997 
Defense Authorization Act instructed the Department of Defense 
to conduct a study of FEHBP and cost available--and costs. In 
last year's conference report from the authorizers, they 
directed the Secretary to come up with a plan to expand TRICARE 
by March the 1st, 1998.
    There was also a sense of the Congress resolution that was 
put in by Senator Cleland which says, we owe these people 
health care even though it is not in the law, and we have an 
obligation to take care of these people. And he says, we need 
to do that within 2 years of the date that this was signed.
    Finally, your Committee, based on your leadership, put in a 
request, two requests. The first one was you directed them to 
prepare a plan by March the 1st, 1998, to fully implement 
subvention which, unfortunately, has not started because of 
some administrative things, but we do believe that subvention 
will work. And you directed them to come up with a plan so it 
could be completed quicker. And, finally, you put a requirement 
to them to submit a legislative proposal for FEHBP for a 
demonstration project.
    I am sure that you are aware, sir, that there are currently 
48 Senators and 189 House Members who have signed on to the 
legislation that has been pushed by us and other military 
associations. I can only say that, in my opinion, it appears to 
me that all of these mandates that have come out from these 
reports, I have not seen any of these reports and I don't think 
you have seen any of these reports, and I believe it is now 
time to stop the rhetoric, the report language, the sense of 
the Congress, and come up with a plan and oversee and make sure 
that that agency does come up with a plan. Because our people 
truly have believed in that promise, and I was also told that 
promise in 1967 when I enlisted in the military.
    So we would like to thank you for the time here, and 
anything that you can do to help us we would really appreciate 
it.
    Mr. Young. Well, I appreciate your testimony; and for your 
first time here I would like to say you made a very impressive 
statement to the Committee.
    As I mentioned, we have had numerous meetings with the 
medical folks at the Secretary of Defense's office, as well as 
the Surgeons General, trying to keep the pressure on to have 
them comply with the directions we put in the appropriations 
bill last year.
    I know you understand that we are not the authorizers, so 
we are not supposed to deal with the basic law, but sometimes 
we get around that with language in the appropriations bill.
    Sergeant Olanoff. Yes.
    Mr. Young. And my last comment is, as a father of a young 
man who is enlisted in the United States military, I understand 
what you are saying about the fact that they do pay. In fact, I 
get a bill every once in a while from him wanting a little bit 
of supplement to his rather low salary.
    Mr. Cunningham is wanting to make a comment on this issue 
as well.
    Mr. Cunningham. I thank you. And I also would like you to 
take a look at this bill that does exactly what you want on 
FEHBP. It deals with TRICARE and the eligibility for it. Even 
this--it seems like we just spot each year little changes and 
what we want is a seamless system for our veterans, and I would 
appreciate if you would take a look at this.
    We are going to submit this thing. We think it is far 
better than the current legislation that is already in, and we 
are asking for different retiree groups to take a look at it. 
If you don't like it, don't support it.
    But I would also say the very first subvention bill came in 
2 years before I was a Member of Congress. I was asked to pick 
it up by the veterans and pushed it through. A lot of that is 
OSD, because they wouldn't implement it. But some of it is 
politics, on just the ability to get selected as a ``pilot'' 
site it--which hospital got it.
    I know I was involved in that. We slowed down the process. 
We are going to speed it up and we want to thank you for your 
testimony.
    Sergeant Olanoff. Thank you very much, Mr. Cunningham.
    Thank you, Mr. Chairman.
    Mr. Young. Mr. Bonilla wanted to make a comment as well, 
sir.
    Mr. Bonilla. I thank the Chairman.
    I just want to reiterate, I happen to represent an area 
with a high retiree population. I have got a wonderful 
community called Air Force Village II in my congressional 
district. I hear about these problems all the time, and it is 
frankly a very sad situation where we have military retirees 
nowadays that have to wait 6 months sometimes to get an 
appointment. When they get there, they have to wait 6 to 9 
hours, and they wonder where--where is the commitment that was 
made to them when they put 30 years in for our country? And it 
is a sad situation.
    So all the points you are making are taken to heart; and, 
rest assured, there are a lot of us that, if you followed any 
of the testimony we have had in this Subcommittee in recent 
days and weeks, you know that a lot of us are on your side on 
this issue.
    I would ask one quick question, Mr. Chairman.
    Mr. Young. Yes.
    Mr. Bonilla. I have a question about those participating in 
Medicare Part B, because there is a problem with them 
participating in the subvention program. Can you comment on 
that just briefly, please?
    Sergeant Olanoff. The only comment, sir, is that there 
are--I think Virginia Torres probably knows the number--I think 
it is about 7 percent of the people did not enroll in Medicare 
Part B because at the time they were advised that, because all 
of these military facilities were available, that you would 
waste your money by paying Medicare Part B.
    So there are a few of our members that would be affected 
that, if they are not in Medicare Part B right now, they would 
not be eligible to apply for the test of Medicare subvention.
    Mr. Bonilla. Well, keep tooting the horn for us out there; 
and, rest assured, there are a lot of us that are listening to 
this problem.
    Sergeant Olanoff. Mr. Bonilla, I didn't see you walk in. We 
know you are a cosponsor, and there are many in this 
Subcommittee that are, and hopefully we will get some help, and 
we will get these problems solved.
    Mr. Bonilla. Thank you.
    Thank you, Mr. Chairman.
    [The statement of Sergeant Olanoff follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

           UNIVERSITY OF MEDICINE AND DENTISTRY OF NEW JERSEY


                               WITNESSES

HON. DONALD M. PAYNE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW JERSEY
RUSS MOLLOY, DIRECTOR OF GOVERNMENT RELATIONS, UNIVERSITY OF MEDICINE 
    AND DENTISTRY OF NEW JERSEY
BETTY GALLO, CANCER INSTITUTE OF NEW JERSEY

                              Introduction

    Mr. Young. Our next witness is going to be introduced by a 
very distinguished colleague of ours. I would like to invite 
Congressman Donald Payne of the great State of New Jersey to 
come to the witness table and introduce his guests.

                     Statement of Congressman Payne

    Mr. Payne. Thank you very much, Chairman Young. It is not 
often I have the opportunity to come before this august group, 
but it is certainly a privilege and to Mr. Cunningham, Mr. 
Bonilla.
    I would like to take a few moments this morning to 
introduce two very special people from my State of New Jersey, 
Mr. Russ Molloy, who is the Director of Government Relations at 
the University of Medicine and Dentistry of New Jersey, which 
is headquartered in my district; and Ms. Betty Gallo, with the 
Cancer Institute of New Jersey.
    UMDNJ, which is our State medical school, is unique because 
New Jersey is probably one of the only States that has simply 
one medical school and, therefore, it does a tremendous amount 
of coordinating. Although we have two or three outlets, it is 
one school; and, therefore, we believe that we are able to do 
more with the allocations that we have because we don't have 
competing medical schools; and so for that I am very proud.
    Mr. Molloy is here to tell us about the International 
Center for Public Health, a strategic initiative to create a 
world-class infectious disease research and treatment complex 
at the University Heights Science Park in Newark, which is also 
being developed.
    Accompanying him, Mr. Molloy, is a good friend of mine, Ms. 
Betty Gallo, who is the wife of the late Congressman Dean 
Gallo. Dean Gallo and I served in county government many years 
ago, before he came to Washington, preceding me by several 
terms, but we worked closely together when we were in county 
government with youth organizations. YMCA, he was very fond of. 
We became very good friends. On different sides of the aisle, 
but we had many more things in common.
    So it is my pleasure to introduce Ms. Betty Gallo.
    Dean was diagnosed in February of 1992 with prostate cancer 
in the advanced stage and sadly passed away in November of 
1994.
    Ms. Gallo is a national advocate for prostate cancer and is 
currently on the staff of the Cancer Institute of New Jersey, 
which received the NCI designation as a comprehensive clinic 
cancer center just last year.
    So, Mr. Chairman, once again, I appreciate the opportunity 
to appear before you and to introduce the witnesses to speak 
about this very crucial issue of importance to New Jersey. 
Thank you.
    Mr. Young. Don, thank you very much.
    We welcome both of you; and, as Congressman Payne has said, 
I think everybody in the past loved Dean Gallo. He was a very 
special person.
    Mrs. Gallo. Thank you.
    Mr. Young. We sorely miss him. We are happy to hear from 
both of you this morning. Whoever would like to go first, go 
forth.

                        Statement of Mr. Molloy

    Mr. Molloy. Thank you, Mr. Chairman.
    Yes, I would like to personally express the University's 
thanks to Congressman Payne. He has been a wonderful friend to 
the University and to the State of New Jersey, and we 
appreciate his attendance today.
    I would like to briefly give you a background about two 
priority projects that the University of Medicine and Dentistry 
is pursuing that really relate specifically to the national 
security of the United States.
    Just a bit of background on UMDNJ. The University, as 
Congressman Payne just noted, is the largest public health 
sciences university in the United States. We have three medical 
schools, all within our umbrella. We are the only institution 
that has that; and, therefore, we don't have that competitive 
nature of having schools fight against each other.
    We also have schools of dentistry, nursing, health-related 
professions and biomedical sciences. We also happen to have, in 
Congressman Payne's district, one of the largest acute care 
hospitals in the State of New Jersey. We are affiliated with 
three core teaching hospitals, the largest behavioral health 
care delivery system in the State of New Jersey, and we are 
affiliated with well over 100 academic and health care 
institutions statewide. So we are clearly--we are a State 
agency. We are a public entity, and we are statewide in nature 
and operation.
    Initially, let me just touch base on the International 
Center for Public Health. I testified last year before this 
Committee that we were moving forward; and there has been some 
truly dramatic changes in this project, both positive and 
negative.
    On the negative side, I think--I don't have to tell this 
committee about the problems of infectious disease. It is on 
the front page of every paper almost weekly now. Clearly, this 
issue about what happens to national--international security 
forces with infectious disease is becoming a very prevalent 
discussion topic. The deployment of U.S. troops to new 
geographic areas within the increasingly global economy have 
contributed to this resurgence in infectious microbes.
    Rapid and repeated exposure to these types of diseases can 
arise in any part of the world, and it is a reality for both 
military personnel and to the common U.S. citizen. By the year 
2000, well over 400 million people will engage in international 
travel and the issue of connection with infectious disease and 
its spread arises therefrom.
    New Jersey is unique because we are surrounded by eight 
international seaports and airports, so our access to the 
international field is enormous. We, therefore, propose the 
creation of an International Center for Public Health as a 
direct response to this looming crisis.
    Within the University Heights Science Park, which is this 
50-acre development project that Congressman Payne mentioned 
earlier, it is a linkage between four academic institutions 
within the City of Newark and private partners, including the 
major corporations, Prudential, Bell Atlantic, and public 
service electric and gas. They have tied together this proposal 
to link three core tenents into a single anchor facility.
    It is the International Center for Public Health, which 
combines the Public Health Research Institute of New York, 
which will be relocating from Manhattan into New Jersey; the 
New Jersey Medical School, our medical school; National 
Tuberculosis Center at the University--it is one of three model 
TB centers in the country that are funded by the CDC--and our 
Medical School's Department of Microbiology and Molecular 
Genetics.
    What we are doing is bringing together these three core 
tenents to create a nexus, a connection that allows this 
research to really expand.
    Each of these groups have already gotten millions upon 
millions of dollars in support for their research, both from 
public and private sources; and we seek your support to pull 
together and finalize this project.
    Since I appeared last year, in October, a memorandum of 
understanding was signed by the State of New Jersey and the 
partners in this project; and the State has committed $60 
million towards the overall cost of $78 million in both loan 
and grant funds towards the development of this institution.
    The State recognizes the enormous value and potential this 
facility has; and we are appearing before you today, as I did 
last year, to try to complete this project.
    The secondary, if I may--Mrs. Gallo has already been 
introduced to the Committee. Just to give you an overview of 
what we are attempting to do.
    The Cancer Institute of New Jersey, as Congressman Payne 
mentioned, is the only NCI-designated clinical cancer facility 
in the State of New Jersey. As we have discussed earlier, with 
the International Center for Public Health, the key is to put 
together the right experts to deal with the particular problem.
    Prostate cancer, you will hear, I believe, later on from 
the National Coalition on Prostate Cancer, is clearly an 
enormous problem. Mrs. Gallo lost her husband to it. If anybody 
is rediagnosed, if you get a recurrence of prostate cancer, it 
is always fatal. What we are attempting to do is to bring 
together a unique consortium of extraordinarily talented 
individuals to go forward to create the Gallo Prostate Cancer 
Institute, which is designed to do something quite dramatic. It 
is designed to actually cure prostate cancer.
    The Cancer Institute itself has been concentrating on 
efforts to develop new ways to treat this devastating disease. 
Currently, patients are enrolled in five different clinical 
trials for advanced prostate cancer. And since we have the NCI 
designation, anyone with a recurrent disease can immediately be 
brought in to these advanced therapies and we can basically do 
experimental therapies right now.
    We are bringing in a series of focus groups so that we can 
bring together the basic scientists looking at the core of the 
problem, along with clinicians and physician-researchers so 
they can work together and collaborate, which is now becoming 
the catchword for all future research in this area. We have to 
get enough people together to focus on this problem.
    The Gallo Prostate Cancer Institute will be incorporated 
into the Cancer Institute of New Jersey's statewide network so 
that we have immediate statewide presence with all of our 
affiliated hospitals with the Cancer Institute so that citizens 
within the State and within the metropolitan region can 
immediately access these goals--these new therapies and new 
treatments.
    We have already recruited investigators from sister 
research institutes in the region in New Jersey to study this 
issue. Clearly, we are--the issue about its impact not only on 
the male population in general but on the African American 
population is a critical component of this research. New Jersey 
stands as a unique facility to try to address this issue 
specifically.
    With the establishment of the Gallo Prostate Cancer 
Institute, collaborative research such as the projects that I 
have just mentioned will be expanded. We can then also 
effectively recruit all of the national and international 
recognized scientists to focus on this research.
    We expect to raise substantial private funds and public 
funds through corporate and other resources, and we also ask 
your support to secure whatever funds we can to facilitate the 
establishment of this critically important resource.
    This Committee is renowned for its efforts in biomedical 
research; and we, on behalf of the University, want to thank 
you for your efforts in the past. You have already taken major 
steps in prostate cancer, and we encourage you to continue that 
support.
    I want to thank you for the time.
    Mr. Young. Thank you very much. We appreciate your 
testimony. You know this Committee has invested substantial 
sums in addition to the other funding provided by other 
Committees, so we understand the seriousness of the problem.
    Mrs. Gallo, did you want to make a statement?

                        Statement of Mrs. Gallo

    Mrs. Gallo. The only statement I would like to say, Mr. 
Chairman, is I appreciate the time to come here today; and I 
just want to let you know that I am very committed to this, 
because of Dean dying from prostate cancer.
    You were not aware that when he was diagnosed in February 
of 1992, he was in the advanced stages. His PSA, which is--
normally 1 to 4 is a normal PSA; his was 883. It was already 
into his bones. His prognosis was 3 to 6 months at that time. 
But being that we had the National Institutes of Health here in 
Washington, he was able to go there and get a protocol called 
Seromon which helped prolong his life for two and a half years 
with a good quality of life.
    That is why it is so important that with the--when an NCI 
designate such as the Cancer Institute is able to get 
information on clinical trials and, again, with our affiliates 
kind of give them out to each of the communities so they--
people can stay in their communities but still have access to 
these clinical trials through the Cancer Institute.
    This Gallo Center would be in memory of Dean in the sense 
that he did die of prostate cancer as a few colleagues here in 
Congress already have, and I just feel that it is a real great 
thing for what Dean had stood for and being able to help the 
people in the State of New Jersey, who he so much cared about. 
I am kind of trying to continue on his work.
    Again, I just thank you.
    Mr. Young. Well, thank you very much.
    Congressman Payne, thank you for bringing the witnesses to 
us today. We appreciate it.
    Mr. Payne. Thank you, sir.
    Mr. Molloy. Thank you, sir.
    [The statement of Mr. Molloy follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

           RESERVE OFFICERS ASSOCIATION OF THE UNITED STATES


                                WITNESS

MAJOR GENERAL ROGER W. SANDLER, AUS (RET.), EXECUTIVE DIRECTOR, RESERVE 
    OFFICERS ASSOCIATION OF THE UNITED STATES

                              Introduction

    Mr. Young. I would like to welcome back to the Committee 
for another appearance General Roger Sandler, who is the 
Executive Director of the Reserve Officers Association.
    General, your statements are always very comprehensive; and 
your entire statement will be placed in the record.
    You point out that more than 106,000 Reservists were 
deployed to Southwest Asia during Desert Shield and Desert 
Storm. This last week, Mr. Bonilla and I had the privilege of 
visiting with a number of Army Reservists at Camp McGovern, 
just outside of Brcko in Bosnia; and I would have to tell you 
that they are shoulder to shoulder with their Active duty 
counterparts. You can't tell them apart. They are all doing a 
really good job. Many of them would rather be back home, but 
they understand the importance of what they are doing. So we 
are happy to hear from you today.
    One of the things they talked to us about, while we were 
there, was the Ready Reserve Mobilization Income Insurance 
Program and the problems that exist there. We think we fixed 
that in the supplemental, which this Subcommittee reported out 
of here last Thursday.
    So we are happy to hear from you at this time, sir. It is 
always good to have you back.

                      Statement of General Sandler

    General Sandler. Thank you, Mr. Chairman. Mr. Cunningham, 
Mr. Bonilla. Thank you very much.
    We at the Reserve Officers Association certainly appreciate 
what this committee has done, what you have done personally, 
over the years in support of the Reserve components.
    Let me just perhaps amend what I was going to say earlier 
and just talk about the fact that I was also in Bosnia 
recently, and that very subject was broached to me. The people 
are only getting 5 percent of what they had originally 
contracted for in the mobilization income insurance.
    Now I realize we are putting forth a supplemental to 
perhaps make up the difference so they will get 100 percent of 
the benefit that is owed, but I would also tell you that they 
are telling me that they would like to see that insurance 
program reinstated in some fashion. Of course, we understand 
that there was a problem in the manner in which it was designed 
and the manner in which it was implemented, but perhaps we 
could figure out some way in which we can do the same kind of a 
program but with a more intellectual approach to how it is 
implemented.
    Let me just move on that, since the Gulf war, some 
245,000--in which some 245,000 Reserve component personnel were 
involuntarily mobilized, only 160,000, as you indicated, had 
gone to the Gulf but considerably more were mobilized. There 
has been a continuing levy on the demands of our Reservists in 
northern Iraq, Haiti and in Bosnia.
    It is our firm belief that the seamless integration of 
which you just spoke of Reserve and Active components is at 
least apparent in the operational contingencies; and, as a 
result, the ROA feels that there needs to be a continued 
recognition of the increased need to fund mission training in 
modernization.
    There have been approximately 17,000 Reservists of all 
components mobilized for the Bosnia contingency. This shows no 
sign of abating in the near future. There are inhibitors to 
saving money, by not having enough contingency money available 
to support extending Reservists on Active duty after they have 
completed their 270-day statutory tour. We have many Reservists 
who have indicated an interest in extending; but, because of a 
lack of funding, they have not been able to do that. What that 
really means is that we spend more money mobilizing a new 
individual to take that person's place and paying the 
transportation for the individual to come home and another bit 
of transportation for a new person to go into theater and 
thereby also interrupting the continuity of effort.
    If we have got people who are willing to stay, then we 
ought to consider figuring out ways to fund that.
    I was on that trip to EUCOM, U.S./European Command, and 
that short trip to both Hungary and Bosnia. I discovered that, 
while I was there, that only the Air Force has made a sincere 
attempt in providing this contingency type money so that they 
could fly missions, in many cases--most cases, as a matter of 
fact--with volunteers. And it really is important, in my 
judgment, in the judgment of the leadership in EUCOM, that the 
other services, particularly the Army but also the Navy, Mr. 
Cunningham, that they also would come up with some way of--in 
which they could fence money to pay for contingency operations.
    We recommend that the Army and the Navy receive an increase 
in their share of the DOD budget. I realize there is a lid on 
the amount of the DOD budget, but they ought to get a larger 
share. The Army itself has only had about 24 percent of the 
budget for--almost historically, and they just need to figure 
out a way, and perhaps this Committee could help direct their 
efforts in that regard. If they want to use Reserve forces for 
these contingencies, they need to have a pool of money to do 
that.
    Our feeling is that the Air Force has done a wonderful job, 
and money ought not come from the Air Force to fund the Army or 
the Navy. It ought to come perhaps from DOD overhead in various 
and sundry headquarters around the world.
    I will just touch again on the mobilization insurance 
program. These folks are getting the 5 percent. They are 
getting along just fine. You know, they realize that there is a 
problem, but they do indicate very strongly to their 
leadership, which was transmitted to me and also personally to 
me by the individual soldiers with whom I spoke, that they 
would like to see that reinstated.
    So I would like this Committee to give strong consideration 
to figuring out a way, and we would be delighted to work with 
you on that, a way in which mobilization income insurance could 
be reinstated.
    My final comment, Mr. Chairman, is on the equipping and 
training of the forces. As you know, long-term investment is 
being sacrificed in order to maintain short-term readiness. We 
need both. The Reserve components need to have sufficient money 
to train the force. The Navy Reserve, in particular, has 
reduced their annual training to 12 days in order to shift 
funding to other requirements. They have also allowed a greater 
number of exemptions from their annual training for the purpose 
of saving and shifting money.
    Fifteen percent of the officers in the Naval Reserve and as 
many as 25 percent of the enlisted Naval personnel will not 
perform any annual training. The statutory annual training days 
are 14. Yet DOD has been given the authority to reduce that in 
the event that they have been requested by the service. In this 
case, the Navy did request it and were granted the authority to 
reduce it to 12. They are the only service that is training 
their people with 12 days annual training and allowing so many 
exemptions from annual training.
    We would also recommend that section 1301(a), Title 31, 
U.S. Code--and I will provide that to you in a written form--be 
broadened to allow reimbursement to the Reserve personnel 
accounts without reprogramming. This was done on a very limited 
basis previously. We would like to see it broadened so that the 
contingency ops that are being supported by the Reserve 
components could be reimbursed. This would assist in recouping 
money back in those accounts.
    Finally, this year, DOD--this is the year that DOD has been 
waiting for, the year that their procurement lists were 
expected to cover the needs of the Reserve components as well. 
Well, they don't.
    We request that you review the requirements in our 
statement for the record and fund those high-priority items 
listed. We believe that the $1.363 billion requested by DOD 
falls short by at least a half a billion dollars.
    Whatever amount is authorized, we recommend that the money 
be allocated to miscellaneous accounts rather than line items 
so that the services have the greatest amount of flexibility.
    Mr. Chairman, again, I thank you very much for your 
personal attention. Members of the Committee, thank you so 
much. If you have any questions, I would be delighted to answer 
them.
    Mr. Young. General, thank you very much for being here.
    The Members of this Committee recognize that we are being 
forced to do more with less. We are wearing out troops. We are 
wearing out equipment. We are not making that long-term 
investment that you suggested. This Committee is trying to do 
something about it that, but we are being hindered this year by 
the lack of room in the budget.
    General Sandler. Right.
    Mr. Young. We are really going to have to get down to brass 
tacks and work hard to do the things that have to be done.
    General Sandler. Yes, sir.
    Mr. Young. We appreciate your testimony today.
    General Sandler. Yes, sir.
    Mr. Cunningham. General, I know that all the groups come in 
here, but I have extreme hope. I look at the future and the 
direction we are going--and this is not political, but a 
balanced budget that gives us low interest rates, I mean, that 
gives you more money in your pockets and the people that you 
are talking about and the contingencies, when we--I think every 
group in here, we could give them the dollars, but when you 
have got to take out $16 billion for the extension in Somalia, 
Haiti and Bosnia, and we are looking at staying in Bosnia, 
which is going to be more, that is what really puts a clamp on 
us. Because you only get about one of four dollars back, even 
in a supplemental.
    General Sandler. Right.
    Mr. Cunningham. But I have extreme hope in the direction we 
are going, and I think it is going to get better, and we will 
do everything in a bipartisan way in this Committee to make 
sure that that happens, sir.
    General Sandler. Yes, sir.
    Mr. Young. General, again, thank you very much for being 
here with us. We always appreciate your testimony, sir.
    General Sandler. Thank you.
    [The statement of General Sandler follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

                         THE MILITARY COALITION


                                WITNESS

COMMANDER VIRGINIA TORSCH, MSC, USNR, ASSISTANT DIRECTOR, GOVERNMENT 
    RELATIONS, THE RETIRED OFFICERS ASSOCIATION ON BEHALF OF THE 
    MILITARY COALITION

                              Introduction

    Mr. Young. Now I would like to welcome Commander Virginia 
Torsch of the Military Coalition. The Coalition consists of 25 
military and veterans organizations, representing approximately 
5 million members of the uniformed services, officers and 
enlisted, Active, Reserve, veterans and retired, plus families 
and survivors.
    The Coalition does an excellent job of informing this 
Committee of the collective thinking of the organizations; and 
on those occasions that we need help with getting our 
legislation supported throughout the Congress, the Coalition 
has always been very helpful; and we appreciate that very much.
    Commander, welcome to you. Your entire statement is 
included in the record, and we would like to have you summarize 
it.

                     Statement of Commander Torsch

    Commander Torsch. Okay. Thank you very much, sir.
    I would like to express my deepest appreciation to you and 
your distinguished members of this Subcommittee for holding 
these important hearings and for allowing us to present our 
concerns. In fact, I think Mark Olanoff stole much of my 
thunder, but I will reiterate--probably much of what he said 
you will hear again in my statement.
    We are particularly grateful for your leadership in 
directing DOD to submit a test to allow the Medicare-eligible 
uniformed services beneficiaries to enroll in the Federal 
Employees Health Benefits Program.
    I want to point out that we are very committed to making 
TRICARE a better health care plan. I have detailed extensively 
some of the problems with that program in my written testimony, 
so I won't go over those; but I do want to say that I want to 
thank this committee for being instrumental in ensuring that 
many of these problems have been resolved or at least 
ameliorated. We would like to express our deepest appreciation 
for your Committee's role in working with and trying to fix 
TRICARE, make it a better plan.
    I also want to say that one of the most critical steps 
towards restoring equity in the health care benefit for older 
retirees was taken last year, with the enactment of legislation 
for the Medicare subvention test and the Balanced Budget Act of 
1997.
    Again, the Coalition deeply appreciates the subcommittee's 
leadership in getting this very important legislation enacted, 
and we are optimistic that the test will prove that subvention 
is a win/win provision for all concerned. However, we do have a 
major concern that many subvention supporters believe 
subvention is the solution. This is not the case at all. In 
fact, when you look at TRICARE Senior, even if it is expanded 
nationwide, when combined with DOD's level of effort, it will 
only benefit about 30 to 40 percent of the Medicare-eligible 
population.
    Thus, to honor the lifetime health care commitment that 
many have already previously testified to and which we in the 
Coalition believe is a firm commitment to retirees, we believe 
an additional option must be provided to the have-nots and the 
lock-outs and that is to offer these beneficiaries the option 
of enrolling in the Federal Employees Health Benefits Program.
    We realize that the principal argument being made currently 
against FEHBP 65 is its price tag, both to DOD and to the 
beneficiary. We took--the concern of the high cost to the 
beneficiary was one that the Coalition took a good hard look at 
and before we concluded that it would be a viable option for 
beneficiaries, we conducted a health care cost survey in 1996. 
That survey revealed that 32 percent of enlisted retirees who 
are 65 and older and 41 percent of officers are already paying 
substantially higher costs in supplemental care, and they would 
be economically better off with FEHBP than under their current 
health care coverage. That represents a significant population 
who would benefit from FEHBP.
    While the Coalition would prefer to have FEHBP 65 enacted 
nationwide, we recognize that a limited test may be necessary 
to take the guesswork out of the real cost of this option. For 
this reason, we strongly urge this committee to pass at least a 
test of FEHBP 65 along the lines spelled out in the current 
House Bill 1766.
    This bipartisan bill, which now has 190 cosponsors in the 
House, and its Senate companion bill S. 1344 has 37 cosponsors, 
would authorize a demonstration of FEHBP 65 in two geographic 
areas, one including a TRICARE primary with military treatment 
facilities and another area without such facilities; and it 
would include no more than 25,000 Medicare-eligible service 
beneficiaries in each area.
    Based on the participation rate, we believe accurate data 
could be derived to predict the cost of extending the program 
nationwide; and I want to point out that this test initiative 
has been scored by CBO as only costing $68 million each year. 
The demonstration proposed by H.R. 1766 is consistent with your 
committee's guidance in the fiscal year 1998 Defense 
Appropriations Act, which directed DOD to submit FEHBP test 
legislation to Congress this year.
    We believe this should not be too problematic for DOD since 
last year, in a report to Congress, Dr. Martin, who was then 
Acting Assistant Secretary of Defense for Health Affairs, 
indicated DOD would support a limited test of FEHBP 65 in non-
Prime areas. The Coalition is anxiously awaiting DOD's proposal 
but is concerned that DOD is dragging its feet in developing 
the plan.
    Timing is critical because the Office of Personnel 
Management has indicated to us that even with FEHPB 65 
legislation enacted this summer, enrollment for the 
demonstration could not begin until November, 1999, with 
implementation in January, 2000. It would be a travesty if the 
test slipped beyond that date.
    It is truly ironic that, despite their many sacrifices, 
retired service members lose their military health insurance at 
age 65. Please keep in mind that those hit hardest by Congress' 
and DOD's actions are the retirees who fought in World War II, 
Korea and Vietnam and then won the Cold War. The latter victory 
alone is saving the government many, many billion dollars in 
reduced defense spending every year. These retirees have 
already paid the premiums for equal coverage, not just in money 
but in services sacrificed, including many who paid the 
ultimate sacrifice.
    Mr. Chairman, the Coalition respectfully requests and 
strongly recommends that this Committee include funding to 
conduct a demonstration of FEHBP 65 in its markup of the 
Defense Appropriations bill.
    I thank you, again, for the opportunity to address this 
Subcommittee; and this concludes my testimony.
    Mr. Young. Commander, thank you very much; and we, I say 
again, do appreciate the position of the Coalition and the help 
that you have always given us. We recognize the difficult 
problem of getting DOD to move sometimes, but we are not the 
authorizing committees, but we are trying to use the pressure 
that we can to develop a test plan.
    Commander Torsch. We much appreciate that, sir.
    Mr. Young. Thank you again for being here.
    Commander Torsch. Thank you.
    [The statement of Commander Torsch follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

                    NATIONAL BREAST CANCER COALITION


                                WITNESS

FRANCES M. VISCO, PRESIDENT, NATIONAL BREAST CANCER COALITION

                              Introduction

    Mr. Young. I would like to introduce next Ms. Fran Visco, 
who is President of the National Breast Cancer Coalition.
    The Coalition represents 400 member organizations and more 
than 40,000 individual women, their families and friends. She 
and the Coalition have been very instrumental in making sure 
that this Committee and our colleagues in the Senate are well 
aware of the needs here, and we appreciate that very much. We 
have been able to add substantial money over the President's 
budget for this effort for breast cancer research.
    This year, the money is going to be very difficult to come 
by. I have to warn everybody of that, because we don't have the 
budget room that we had in previous years. But, anyway, Fran, 
we are always glad to see you.
    Ms. Visco. Thank you.
    Mr. Young. We are always glad to hear you. It is always 
nice to know that you are out there in the hallway during our 
markup to give us the support that we need to get this job 
done.

                         Statement of Ms. Visco

    Ms. Visco. Thank you, Mr. Chairman. Thank you, Mr. 
Cunningham.
    I want to come here today just to bring you up-to-date on 
the program and to, again, offer my thanks to you, to the 
Committee, for your ongoing support of this incredible program 
and to pledge that we will work with you in any way necessary 
to make certain that we have significant funding to continue.
    I am here once again as a breast cancer survivor and on 
behalf of the 2.6 million women living in this country with 
breast cancer and in memory of the more than a quarter of a 
million women who have died of breast cancer since this program 
began. We truly believe, and we know that you agree with us, 
that this program has brought about hope and has brought about 
scientific discoveries that means that those numbers will 
significantly change in the future.
    Over the past year, this program once again has made 
history. Last fall, the Era of Hope, Department of Defense 
breast cancer research meeting occurred here in Washington, 
D.C. For the first time ever, a major biomedical research 
program, funded with taxpayer dollars, issued a report to the 
Nation on what happened with those dollars.
    It was an unbelievable meeting. It was unbelievable not 
just because it was the first-ever report to the Nation but 
also because it was unique in that it was really a 
collaboration in partnership between women with breast cancer 
and the scientific community. I want to tell you some of what I 
heard at that meeting.
    New researchers came up to me to tell me that, because of 
this program, they think about their research differently. It 
has changed the way they do their medical research.
    Established scientists came up to me and said, why aren't 
all of our programs run like this?
    Very recently, an extremely well-known, internationally 
well-known breast cancer scientist said to me, you--meaning 
this program and the activists--have changed the way we think. 
You have brought us out of our ivory towers; you have changed 
our world.
    This program has brought about not just more money for 
breast cancer research, it hasn't just brought in new people to 
the field, but it has changed the way scientists are doing 
their research. And that has ramifications not just for me, for 
a woman with breast cancer, but for all women, all women in the 
military, all women everywhere, and all men also, because these 
scientists focus on other areas. This program has set a model.
    I also want to point out to you that, over the past year, 
the Institute of Medicine of the National Academy of Sciences 
has issued a report. They evaluated this program, and they gave 
it a four-star rating. They said the program is unbelievable 
and must continue.
    I want to thank you not just for continuing to fund the 
program but also for respecting the integrity of the program. I 
know that, working together, we have had a difficult time at 
times protecting this program and recognizing this importance 
of peer review and recognizing the unusual, incredible system 
we have set up. You have really been a leader in making certain 
that that system remains, and that is the system that has 
captured the imagination of the scientific community and of 
activists, and that is the system that has brought about 
incredible results.
    I don't think I need to take up much more of your time. You 
know how important this program is and how successful it is, 
and you know that you will hear from us and that we will 
continue to work with you to make certain this program 
continues.
    But I do want to bring you one report, and it is just an 
example of many. Very soon, there is a therapy that will be 
submitted to the Food and Drug Administration for approval, and 
that therapy will probably be made available to millions of 
women in this country. It will be a very new, unusual, first 
biologic for breast cancer treatment. That therapy is here 
because the scientists who came up with the initial discovery 
got funding from the Department of Defense Breast Cancer 
Research Program when no one else would fund him.
    That is a specific, concrete example of what we have done. 
And I have told you that the change in the scientific community 
is another example of what we have done.
    I want to thank you for working with us to bring all of 
this about. Thank you very much.
    Mr. Young. Well, Fran, we really appreciate you and the 
good work that you do; and I hope that you know that and 
believe that.
    Ms. Visco. Yes.
    Mr. Young. This is a very important crusade that we are all 
on. It is very threatening to many, many, many women in our 
country.
    Ms. Visco. Yes, I know you know that.
    Mr. Young. It is always good to see you. Thank you for 
being here again.
    Ms. Visco. Thank you.
    Mr. Young. We look forward to seeing you in the hallway 
during markup time.
    Ms. Visco. Thanks.
    [The statement of Ms. Visco follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

               AMERICAN ASSOCIATION OF NURSE ANESTHETISTS


                                WITNESS

RON VAN NEST, CRNA, ASSISTANT DIRECTOR, NURSE ANESTHESIA PROGRAM, 
    GEORGETOWN UNIVERSITY, AMERICAN ASSOCIATION OF NURSE ANESTHETISTS

                              Introduction

    Mr. Young. I would like to now welcome Ron Van Nest, the 
Assistant Director of the Nurse Anesthesia Program at 
Georgetown University. Mr. Van Nest represents 27,000 certified 
anesthetists in the United States, including 600 in the 
military services.
    Mr. Van Nest, your prepared statement will appear in the 
record; and we would like you to summarize it in your oral 
testimony.

                       Statement of Mr. Van Nest

    Mr. Van Nest. Thank you, Mr. Chairman.
    Mr. Young. Incidentally, I understand you have some of your 
students with you today; and I wanted to make the room aware of 
that.
    Mr. Van Nest. Yes, sir. Thank you very much for your 
patience in them coming in.
    Mr. Chairman, thank you for the opportunity to testify 
before this Committee today. My name is Ronald Van Nest, and I 
am a certified registered nurse anesthetist, a CRNA.
    I served in the United States Navy for 30 years, and I was 
a member of the American Association of Nurse Anesthetists 
Federal Services Committee for the last 3 of those years. At 
that time, I also held the position of Nurse Anesthesia 
Consultant to the Navy Surgeon General. I am retired from the 
Navy Nurse Corps and currently am an instructor in a Nurse 
Anesthesia Program at a local university, as you mentioned, 
Georgetown; and my students, as you mentioned, are here to 
cheer me on, I hope.
    I am testifying today on behalf of the American Association 
of Nurse Anesthetists, the AANA, which represents more than 
27,000 CRNAs, including 600 that serve in the Armed Forces.
    My testimony here today will touch on the status of CNRAs 
in the military and how effective utilization of those CRNAs 
could result in considerable cost savings for the Department of 
Defense, without any sacrifice in quality.
    First, I would like to thank this Committee for its 
continued support of the efforts of the Department of Defense 
to recruit and retain qualified nurse anesthetists. The AANA 
particularly thanks this Committee for your support of special 
pay programs for CRNAs and strongly recommends their 
continuation as an important recruitment and retention tool to 
ensure that our Federal services can meet their medical 
mission.
    CRNAs save the Department of Defense a considerable amount 
of money, without any sacrifice in quality of care. Nurse 
anesthetists, while providing the same services as physician 
anesthesiologists, are far less costly for the services to 
educate and retain. Data indicates that as many as 10 highly 
qualified CRNAs may be educated for the cost of training one 
anesthesiologist.
    It is true that cost effectiveness means nothing if the 
quality is not there, but let me stress that numerous studies 
have shown that there is no significant difference in outcomes 
between the two providers. Both providers receive similar 
training in anesthesia. One started that training as a 
physician, the other as a nurse.
    The services also spend far less in bonus money for CRNAs 
as compared to anesthesiologists. Anesthesiologists receive far 
more types and amounts of bonus money. If a nurse anesthetist 
and a physician start in the anesthesia training at the same 
time, in 8 years the nurse anesthetist will have received 
$69,000 in special pays, while the anesthesiologist will have 
received a quarter of a million dollars. The Department of 
Defense could provide even more cost-effective care with more 
appropriate utilization of its anesthesia providers.
    The three services are currently operating at most medical 
treatment facilities with approximately two CRNAs for every one 
anesthesiologist. But isn't it ironic that during World War II, 
when nurse anesthesia training was little more than 4 months, 
and mostly on-the-job training at that, that their ratio was 17 
CRNAs to one anesthesiologist? Compare that to today when 
anesthesia is far safer, with sophisticated technology and 
computerized monitors and alarms.
    With nurse anesthetists educated at the Master's Degree 
level, we find that CRNAs are being supervised and at ratios of 
2 to 1 and in some cases even one to one.
    On many military operational missions today, it is a CRNA 
that is deployed with combat units or aboard aircraft carriers 
as the sole anesthesia provider with anesthesiologist present. 
I personally served as the sole anesthesia provider for a 
population of 5,000 at our base in Keflavik, Iceland, for 2 
years; and I also served as a sole anesthesia provider on an 
aircraft carrier for 4 months. If such practice models are 
acceptable in some settings, then there is no reason they 
should not be acceptable in urban military treatment 
facilities.
    I would recommend that this Committee direct the Department 
of Defense to utilize their anesthesia providers in the most 
cost-effective manner, prohibiting strict ratio requirements 
for urban facilities that only drive up the cost and do nothing 
to enhance the quality of care.
    In conclusion, AANA thanks this Committee again for its 
support of military nurse anesthetists through the incentive 
special pay and board certification pay. AANA believes that 
more appropriate utilization of CRNAs in the military is of 
critical concern and is an area that could be examined for 
increased cost savings.
    I thank the Committee members for their consideration on 
these issues, and I will be happy to answer any of your 
questions.
    Mr. Young. Mr. Van Nest, thank you very much for being here 
with us today.
    We certainly understand--those of us who have gone through 
some more serious surgeries understand the importance of what 
it is that you do, and we appreciate your being here today. 
Thank you very much.
    Mr. Van Nest. Thank you, sir.
    Mr. Cunningham. And let me just say about the last witness, 
the only thing I disagree with, it shouldn't be just civilian. 
The nurse's role should be expanded in a lot of other areas 
besides just the one that he mentioned. Thank you.
    [The statement of Mr. Van Nest follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

                          NEW YORK UNIVERSITY


                                WITNESS

DR. PHILIP FURMANSKI, DEAN, FACULTY OF ARTS AND SCIENCE, CHAIRMAN AND 
    PROFESSOR, DEPARTMENT OF BIOLOGY, NEW YORK UNIVERSITY

                              Introduction

    Mr. Cunningham. Next we will hear from Dr. Philip 
Furmanski, Dean, Faculty of Arts and Science, New York 
University. We welcome your testimony, Doctor.

                       Statement of Mr. Furmanski

    Mr. Furmanski. Thank you, Mr. Cunningham.
    My name is Philip Furmanski, and I am speaking on behalf of 
New York University as Dean of its Faculty of Arts and Science.
    I appreciate very much this opportunity to discuss with you 
an initiative which addresses national goals for enlisting 
university-based scientific research to catalyze technologic 
innovation and strengthen national defense and military 
preparedness. Our project will advance national security 
interests through enhanced scientific understanding of brain 
development and activity.
    We believe that a national investment into research on the 
mind and brain will repay itself many times over. To put my 
remarks into a larger context, I would like to thank this 
committee for its recognition that broad-based university 
research over the years has been one of the cornerstones of our 
national security efforts.
    Research support provided by the Department of Defense has 
been crucial to advancing new discoveries on campus with 
important military and civilian applications.
    For example, by its investment in research into computers, 
communications and networking technology, the Department has 
spurred the development of an entire civilian industry 
generating millions of jobs and billions of tax dollars.
    I would like today to present to you another possible 
investment by the Department into research that will push the 
frontiers of understanding of how the brain develops and 
functions and how we can enhance our ability to learn, think, 
remember and work as productive members of society.
    At NYU, we are undertaking to do this by establishing a 
Center for Cognition, Learning, Emotion and Memory Studies. 
This Center will not only carry out research but will also act 
to help train the next generation of interdisciplinary brain 
scientists. Research in this Center will substantially expand 
what we know about the neurodynamics of learning and memory; 
the brain's perception, its acquisition and storage of 
information; the neurobiology of fear and its impact on 
learning and performance; and information processing in the 
brain and, by extension, in computers and other machines.
    These studies will have enormous applications in the 
training and performance of military personnel and for the 
development of new technologies.
    As one example, our research has implications for 
instruction, including those in the military, in the classroom, 
as well as in hands-on use of sophisticated machinery and 
weaponry. The more we know about how peopleprocess and retain 
information, the better we can design such training programs and target 
them to individuals with different levels of preparedness.
    Our research can identify different learning styles and 
suggest how instruction can accommodate those styles and how 
learning technologies and simulated learning environments can 
be harnessed to improve motivation and increase retention and 
memory.
    Second, our neurological research on emotion has 
implications for improving performance under the high-stress 
conditions that characterize military operations. Our research 
in the neurobiology of fear is examining the brain systems that 
malfunction, for example, in anxiety phobias, panic attacks and 
post-traumatic stress disorders. These studies will help us 
understand the source of fear and other emotions, how they are 
triggered by circumstance, why they are hard to control, and of 
the greatest practical importance, how emotions can 
incapacitate, undermine attentiveness and weaken memory. 
Ultimately, our research will generate clues for preventing and 
treating emotional disorders on a very broad and wide scale.
    Finally, our vision psychologists and computer vision 
researchers are working together to investigate intelligence 
and information processing in neural systems and in their 
machine analogues in the computer data imaging, processing and 
retrieval areas.
    These kinds of studies have far-reaching implications, 
first, for our understanding in improving the human capacity to 
perceive and respond to visual cues; and, second, for 
developing computer technologies to process and monitor large 
displays of information which obviously have implications in 
the military and in civilian areas as well.
    To establish this interdisciplinary Center, NYU is seeking 
support to expand research programs, attract investigators from 
the disparate disciplines that are required and provide the 
technical resources necessary to create a premier, world-class 
scientific enterprise.
    As you know, traditional funding sources cannot underwrite 
the establishment of a cross-disciplinary area of scientific 
study, particularly one that includes research and teaching and 
reaches across the fields so disparate as computer science, 
cognitive science, biomedicine, psychology and education.
    New York University is well positioned to create and 
operate this major national cross-disciplinary research and 
training center. The largest private university in the United 
States, with over 49,000 students and 13 schools, NYU has 
outstanding researchers and well-established strengths in 
neurobiology, cognitive science, neuromagnetism, behavioral 
science, mathematics, computer science, educational psychology 
and the like. With these strengths, NYU will create a 
distinctive center that will produce a new understanding of the 
brain and new ways of using that knowledge to meet our national 
goals.
    Our faculty are already widely recognized for their 
research on memory, learning and motivation. NYU is 
internationally known for its studies in vision, a key input to 
learning; and NYU is the leader in new studies on the 
neurobiology of emotion and its connections to learning, memory 
and perception.
    Parenthetically, I should say that much of this work has 
been featured very prominently in media venues such as the New 
York Times, Time Magazine and the networks.
    As we complete what has been called the Decade of the 
Brain, NYU, through this new center, is poised for leadership 
in accomplishing the aims of this important initiative and the 
goals central to this Committee's priorities.
    NYU is in a special position among universities to bring 
these strengths in so many very different disciplines together 
to attack these crucial issues and then to disseminate the 
results for the benefit of the American people.
    I know, Mr. Cunningham, that many members of this Committee 
have played a leading role in supporting brain research and 
related issues concerning education, their application to 
children, as well as those aspects that relate to the military; 
and, for that, I would like to express my very deep 
appreciation, both as a university administrator and as a 
scientist myself.
    Mr. Cunningham, this concludes my testimony. I thank you 
for the opportunity to appear before you today.
    Mr. Cunningham. Thank you, Doctor. You need to have me 
testify before your hospital and your university. This tape has 
some 36 Surface-to-Air Missiles--SAMS fired at me while engaged 
with 22 MiGs. Fear has an advantage by forcing the mind to 
work, but uncontrolled fear makes you vulnerable.
    Those studies are very worthwhile, and I thank you for your 
testimony.
    Mr. Furmanski. Thank you very much. Thank you.
    Mr. Cunningham. I just got this tape the day before 
yesterday, and it makes the hair on my neck stand up.
    Mr. Furmanski. I imagine so.
    [The statement of Mr. Furmanski follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

                   NATIONAL PROSTATE CANCER COALITION


                                WITNESS

JAY H. HEDLUND, PRESIDENT AND CEO, THE NATIONAL PROSTATE CANCER 
    COALITION

                              Introduction

    Mr. Cunningham. Our next witness, the National Prostate 
Cancer Coalition, Jay Hedlund, President. Mr. Hedlund.

                        Statement of Mr. Hedlund

    Mr. Hedlund. Mr. Cunningham, thank you for the opportunity 
to be here today.
    I am Jay Hedlund, President of the National Prostate Cancer 
Coalition, a nationwide grass-roots advocacy organization 
dedicated to the mission of ending prostate cancer as a serious 
health concern for men and their families.
    In addition to individual survivors, family members, 
researchers, medical professionals, the National Prostate 
Cancer Coalition members include the American Cancer Society, 
the American Foundation of Urologic Disease, CaP CURE, national 
survivor support groups like US TOO International, Man to Man 
and PAACT, and numerous State and local survivor groups.
    A fundamental objective of the Coalition is to increase 
Federal funding for prostate cancer research commensurate with 
the terrible impact of this deadly disease.
    I am pleased to have the opportunity to provide testimony 
in support of the prostate cancer research programs conducted 
by the U.S. Army Medical Research and Materiel Command at Ft. 
Detrick and the U.S. Army Center for Prostate Disease Research 
at Walter Reed Army Medical Center. And on behalf of the more 
than one million American men who are living with their 
diagnosis of prostate cancer, and their families, I want to 
thank this Committee for the terrific leadership that it has 
given to the effort to fund basic and clinical research into 
prostate cancer.
    The commitment of this Committee to fund prostate cancer 
research has given important new momentum to the drive to find 
a cure for this epidemic, which we firmly believe research can 
and will do.
    I know that prostate cancer has touched this institution 
and the Appropriations Committee. Former members Silvio Conte 
and George O'Brien died of prostate cancer, Dean Gallo as well. 
His wife Betty, who appeared before you earlier today, is a 
member of the National Prostate Cancer Coalition Board and a 
tireless advocate for prostate cancer research.
    Fortunately, a number of other members of the institution 
on the House and Senate side who have been touched by the 
disease have had much better outcomes from their treatment, and 
that is what we want to see for many more Americans as well.
    We urge the Committee to substantially increase the 
commitment they have made to prostate cancer in the last 2 
years, in fiscal 1997 and 1998, with the establishment of the 
new program at Ft. Detrick.
    Prostate cancer has been left behind for too long to the 
terrible impact on millions of Americans. Annually, more 
Americans are diagnosed with prostate cancer than with any 
other nonskin cancer. Last year, 209,000 Americans were 
diagnosed with prostate cancer; and 41,800 American men died of 
prostate cancer. Prostate cancer is the second leading cause of 
cancer death among American men, just behind lung cancer. 
African Americans have the highest prostate cancer incident 
rates in the world, and their mortality rates are double that 
of Caucasian men.
    Mr. Chairman, Mr. Cunningham, prostate cancer comprises 
more than 15 percent of all nonskin cancer cases that are 
diagnosed but receives less than 4 percent of the Federal 
research funds, cancer research funds.
    I would like to make three brief points regarding the DOD's 
involvement with prostate cancer research, particularly to 
focus on the peer review program at Ft. Detrick, although we 
strongly support the terrific program that is run by Colonel 
David McLeod at Walter Reed as well.
    First, the appropriation of $45 million each year in fiscal 
years 1997 and 1998, through the work of this subcommittee, 
although relatively modest, served to increase by more than 50 
percent the total Federal commitment to prostate cancer 
research. This has come at a critical time when momentum has 
been building in the----
    Mr. Cunningham. I am sorry to interrupt you, but if you 
could hold, I have got 1 minute to make this vote.
    Mr. Hedlund. Okay. I don't want you to miss that vote.
    Mr. Cunningham. The Chairman is not back yet. He will let 
you continue.
    Mr. Hedlund. I would be glad to. Don't miss a vote, 
absolutely.
    Mr. Cunningham. All right.
    Mr. Young. Mr. Hedlund, why don't you go ahead and proceed.
    Mr. Hedlund. Okay, Mr. Chairman. Thank you.
    I won't go over the earlier part of my testimony, but I 
wanted to express the regards of our Chairman, Bob Samuels, 
from the Tampa Bay area, who you know and who is very 
appreciative of the leadership that you and this Committee have 
given to prostate cancer.
    I wanted to make three points regarding the DOD's 
involvement in prostate cancer, particularly focusing on the 
new peer review program at Ft. Detrick, although in no way--I 
very much want to stress how important we think the quality 
work is that is being done by Colonel David McLeod over at 
Walter Reed as well and don't want to neglect that program.
    But, first, the appropriation of $45 million both in fiscal 
years 1997 and 1998 through the work of this subcommittee, 
although relatively modest, served to increase by more than 50 
percent the total Federal research commitment to prostate 
cancer.
    This has come at a critical time when important research 
funded by outside organizations, like CaP CURE, the American 
Cancer Society, the American Foundation of Urologic Disease and 
others, as well as research at the National Institutes of 
Health, have built important momentum in the area of prostate 
cancer research. That momentum, we believe, must be sustained 
by the commitment of significant public resources if we are 
going to achieve the needed breakthroughs in diagnosis, 
treatment, cure and prevention of prostate cancer.
    This Committee has also given important leadership in the 
effort to accelerate the time period from appropriation to 
distribution of research money to scientists. With the help of 
this Committee, the Ft. Detrick program has expedited the 
fiscal year 1997 schedule by several months and will award 
initial grants, we understand, in the next 4 to 6 weeks. They 
will use some of the fiscal year 1998 appropriations to fund 
grant proposals received in the fiscal year 1997 cycle and will 
cut in half the time taken from the fiscal year 1997 cycle for 
the schedule--for the--between the receipt in appropriations 
and distribution of scientists for the fiscal year 1999 money.
    We think that both General Blanck and Colonel Rich and 
their colleagues have been very responsive in this regard in 
accelerating the program without sacrificing quality of 
performance.
    Second, we believe--the NPCC believes that the highly 
focused, goal-directed program of basic and clinical research 
into prostate cancer was very much needed, and that the peer 
review program at Ft. Detrick in its first year has proven that 
it will make a substantial contribution to fight to find a 
cure.
    I was just very struck by the terrific testimony that Fran 
Visco gave earlier of the terrific progress that has been made 
in the breast cancer program up at Ft. Detrick, and we see that 
this program is being built in the model of that program and 
can have the same kind of substantial impact that that program 
has had.
    The broad agency announcement that they issued really drew 
in a large number of quality proposals. It gives evidence that 
the program will attract new researchers into the field. Their 
streamlined approach at getting research dollars into the field 
will enable them to nimbly build on some of the breakthroughs 
and some of the exciting research areas that are coming. We 
believe that, with a continuing commitment of resources, that 
they will make a substantial contribution in the comprehensive 
research fight against prostate cancer.
    Finally, we believe that they are positioned well to add 
significantly to what is going on in prostate cancer research. 
About a year, a year and a half ago, the National Prostate 
Cancer Coalition gathered scientists and researchers to develop 
an agenda of prostate cancer research; and they identified more 
than $250 million of worthwhile prostate cancer research 
projects that were going unfunded in 1997 simply due to lack of 
public or private funds. We believe that the peer review 
program at Ft. Detrick is really going to--has a promise of 
filling a tremendous research need that exists in the prostate 
cancer world to help us find a cure.
    In sum, the Ft. Detrick program has attracted quality 
proposals, has only been able to fund a fraction of those 
through the fiscal year 1997 appropriation. It is structured in 
a way that will be attractive to the most innovative 
researchers who are making exciting progress in finding 
breakthroughs for prostate cancer. We believe that Colonel Rich 
has built a strong and promising program that deserves a 
substantial increase in its appropriation for fiscal year 1999; 
and, along with the program that Colonel McLeod has at Walter 
Reed, we strongly urge this Committee to do whatever it can to 
substantially increase its commitment to prostate cancer for 
fiscal year 1999.
    Saying that, I fundamentally want to thank the leadership 
of this Committee for giving great hope and tangible benefits 
to the millions of Americans whose lives are touched by 
prostate cancer.
    Mr. Young. Thank you very much for your statement, sir. We 
appreciate your being here today. You know of our concern about 
the issues that you have mentioned.
    Mr. Hedlund. Thank you very much.
    [The statement of Mr. Hedlund follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

                          UNIVERSITY OF MIAMI


                                WITNESS

CYRUS M. JOLLIVETTE, VICE PRESIDENT FOR GOVERNMENT RELATIONS, 
    UNIVERSITY OF MIAMI

                              Introduction

    Mr. Young. I would like to introduce next Mr. Cyrus 
Jollivette, who is the Vice President of Government Relations 
at the University of Miami.
    In his prepared statement, Cyrus requests funding for 
several projects, including the Navy's Atlantic test range and 
oceanographic research vessel and the University's high-
priority Cancer Prevention, Control and Treatment Initiatives.
    Cyrus, that statement becomes a part of our record; and we 
would like you to proceed with your oral testimony.

                      Statement of Mr. Jollivette

    Mr. Jollivette. Thank you, Mr. Chairman.
    Mr. Young. It is always good to see you.
    Mr. Jollivette. It is good to see you too, Mr. Chairman. 
Mr. Cunningham, also.
    Thank you very much for allowing me to appear before you 
today on behalf of my colleagues at the University of Miami.
    As you indicated, Mr. Chairman, we have included in our 
earlier statement a request for support of four initiatives 
that come within the purview of this Committee: first, the 
South Florida Ocean Measurements Center in coordination with 
the Navy, Florida Atlantic University and NOVA university; 
next, support for a request that is coming from the University 
of Southern Mississippi for a new fishery, oceanography 
research ship for research programs in the Southeast, 
Mississippi and Texas; continuation of funding for the North-
South Center; and, finally, support for the University of 
Miami's Cancer Prevention, Control and Treatment Initiatives.
    I would like to talk about the Ocean Measurements Center 
first and the unique partnership that exists between academic 
scientists from three Florida universities and the Navy, which 
provides the opportunity to meet the significant need for 
science and technology development efforts in the near shore 
environment.
    The Navy test range in Florida is a unique location in that 
it is the nearest approach of the continental shelf to the 
shore along the entire Atlantic seaboard. Our scientists and 
ocean engineers are increasing their understanding of the near 
shore acoustic environment and pursuing development of AUV 
sonar and other related technologies.
    We ask that you provide $2.75 million to continue this 
private program in fiscal year 1999. My colleagues and I are 
convinced that this consistently funded, long-term partnership 
provides the best benefit to the Navy and the scientific 
community.
    Second, we respectfully urge you to fund the proposal put 
forward by the Institute of Marine Scientists at the University 
of Southern Mississippi for the construction of a Class III 
research ship for the southeastern U.S., Mississippi and Texas. 
A Class III ship, as you know, is approximately 190 feet in 
length. We agree that a new fisher-oceanography research ship, 
with the capability to conduct complex, interdisciplinary 
research in the shallow water regions of the Gulf Coast and the 
Intra-America Sea, is vital to support our academic research 
programs.
    The existing Southeast Consortium for Oceanographic 
Research, known as SECOR, would operate the ship as a part of 
the UNOLS fleet; and UNOLS does support this arrangement that 
provides dock-side facilities in Texas and Florida and 
coordinates instrumentation use and marine technician support 
among the SECOR members. SECOR members now include three of the 
ship-operations institutions in the Southeast and the Gulf, the 
University of Miami, the University of Texas and Texas A&M. The 
University of Southern Mississippi will be added very soon.
    My colleagues and I believe strongly that only through 
resource sharing can we effectively manage costly ship 
operations. Support of this project will benefit all academic 
institutions in the southeastern U.S. and the Gulf of Mexico.
    Now, about the North-South Center at the University of 
Miami. Its mission is to promote better relations and to serve 
as a catalyst for change among the United States, Canada and 
the nations of Latin America and the Caribbean. Our goal is to 
find viable solutions to the problems confronting the nations 
of the Western Hemisphere.
    In the last decade, the North-South Center has been engaged 
in promoting and sponsoring research and dialogue on inter-
American security issues. Among other issues, the Center has 
conducted an extensive research program on drug trafficking in 
the hemisphere, studied and promoted dialogue on the crisis in 
Cuba, Panama and Haiti and has engaged in research in civil 
military relations, conflict resolution and security 
cooperation.
    The relocation of the U.S. Southern Command to Miami has 
afforded an enhanced role for the North-South Center in 
security issues. My colleagues have figured prominently in 
discussions of the future of civil-military relations in the 
hemisphere. Our Center is committed to advancing the state of 
security cooperation in the Americas. It serves as a bridge 
between government officials, dedicated to enhancing regional 
security, and academic and other civil society experts who have 
devoted their professional lives to analyzing the hemisphere's 
critical security issues.
    Finally, Mr. Chairman, let me turn to health matters and 
the University's focus on cancer. The disease does not spare 
anyone based upon age, sex, ethnic background or socioeconomic 
status. We know that basic research will eventually lead to the 
causes and hopefully cures of this dreaded disease. However, 
research already has given us the tools for prevention and 
early detection that will reduce the suffering until cures can 
be found.
    My colleagues at the University School of Medicine seek to 
apply these tools in a variety of settings for prevention, 
control and treatment, especially in multiethnic, diverse 
minority populations.
    This translational approach to biomedical research, that 
is, applying the basic scientific knowledge we have already 
gained to populations in clinical settings, is a key component 
of our research at the University of Miami. By applying this 
knowledge, we can reduce the morbidity, mortality and improve 
the quality of life for all. We are convinced our special 
expertise in this area, in pediatric cancer, in breast cancer, 
in prostate cancer and other areas referred to will greatly 
assist the Department of Defense.
    Again, Mr. Chairman, I thank you for the opportunity to 
appear today. My colleagues and I hope it won't be difficult 
for you to fund these initiatives in what is a difficult budget 
year.
    Thank you.
    Mr. Young. Thank you very much. We always appreciate the 
dialogue that we have with you and the good work that is done 
at the university.
    Mr. Jollivette. Thank you very much. We appreciate your 
confidence and support.
    [The statement of Mr. Jollivette follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                          Thursday, March 19, 1998.

                LOVELACE RESPIRATORY RESEARCH INSTITUTE


                                WITNESS

JOE L. MAUDERLY, SENIOR SCIENTIST AND DIRECTOR OF EXTERNAL AFFAIRS, THE 
    LOVELACE RESPIRATORY RESEARCH INSTITUTE

                              Introduction

    Mr. Young. I would like to now welcome Dr. Joe Mauderly of 
the Lovelace Respiratory Research Institute from Albuquerque, 
New Mexico. The Institute currently performs some work for the 
Air Force and the Army, as well as a number of other Federal 
agencies.
    Doctor, your entire statement will be placed in the record; 
and I would ask that you summarize it at this point.

                       Statement of Mr. Mauderly

    Mr. Mauderly. Thank you, Mr. Chairman.
    I would like to discuss how our Institute can meet some 
important existing needs of the Department of Defense, as well 
as our support in the past.
    Lovelace is an independent, nonprofit institute in 
Albuquerque, New Mexico, conducting research on respiratory 
disease and risk from inhaled toxic materials in the workplace 
and the environment. Lovelace also leases the privatized 
government-owned inhalation toxicology research facility on 
Kirkland Air Force Base in Albuquerque, which is the Nation's 
best-equipped facility for studies of inhaled materials.
    Lovelace has a track record of supporting the Department of 
Defense. It produced much of the information that placed the 
health risk of nuclear weapons production and deployment in 
their proper context and by virtue of that helped to win the 
Cold War.
    Lovelace is working to place our understanding of illnesses 
potentially related to Gulf War activities on a stronger 
scientific basis than it often has been in the past.
    Together with Sandia National Laboratories, we are 
developing methods for the remote detection of airborne 
biological agents. We are working with another company on a new 
plasma technology for destroying chemical and biological agents 
without air contamination, which has been an important problem. 
We are also determining the toxicity of depleted uranium 
fragments from armor-piercing munitions.
    Now Lovelace proposes to work with the Department to meet 
its research needs in four specific areas that I would like to 
discuss briefly.
    The first is establishing a cooperative agreement for 
conducting toxicological research. It is becoming increasingly 
apparent to both Lovelace and the Army in particular, also 
other services, that the Institute is well-matched to a number 
of current research needs, a spectrum of needs, particularly in 
the toxicology area. Lovelace seeks a cooperative agreement 
with the Department to facilitate the conduct of this work in a 
cost-effective manner.
    The second area is using the National Environmental 
Respiratory Center to address the Department's concern for the 
inhalation of multiple air contaminants. Now the health risks 
of breathing multiple air contaminants and pollutant mixtures 
is a difficult issue that until now has received very little 
attention. The Department needs to understand these risks from 
inhaling mixtures of air contaminants, from sequential 
exposures to various air contaminants and from combinations of 
occupational exposures and nonoccupational exposures such as 
cigarette smoke.
    The National Environmental Respiratory Center is being 
established this year at Lovelace by EPA to address the health 
risk of mixtures and combined exposures to inhaled materials. 
Lovelace proposes that the Department participate in this 
activity to meet information needs specific to its issues, as 
well as the environmental issues of concern to EPA.
    The third area is in the reduction of chemical and 
biological threats. The development of new technologies to 
reduce these important threats requires multidisciplinary 
research. Better detection and countermeasures will require 
integrated research involving electronics, chemistry, aerosols, 
lung injury and infectious disease.
    Now, no single institution is expert in all of these 
fields. However, together, Lovelace, Sandia National 
Laboratories and the University of New Mexico are expert in all 
of these areas; and they propose to work together to develop 
new ways to deal with these threats. The focus of this work 
would be on remote detection of airborne agents, personnel 
protection, threat neutralization and treatment of affected 
individuals.
    The final area is improved treatment of disabling 
respiratory diseases. As you have heard this morning, the 
Department has military employees and civilian workers with 
many kinds of disabling diseases, including lung diseases. 
Those destructive respiratory diseases, such as severe 
emphysema, have been thought to be incurable; and treatment 
consists just largely of trying to maintain quality of life for 
the patients.
    Other diseases, such as lung cancer, are possible to cure 
in some instances but are usually fatal; and more than twice as 
many women will die of lung cancer this year as breast cancer; 
more than twice as many men will die of lung cancer this year 
than prostate cancer.
    Together with its Senior Fellows that it supports in other 
institutions, Lovelace is now making breakthroughs in the 
treatment and cure of these intractable diseases. A remarkable 
example is the work of Lovelace Fellows Drs. Don and Gloria 
Massaro at Georgetown University Medical School, who have now 
produced results suggesting that emphysema might actually be 
reversed by treatment with analogues of Vitamin A; and this has 
been done in animals at this time.
    Another example of our work is to deliver anti-cancer drugs 
directly to the lung and airway surfaces by inhalation, a route 
that has not yet been used. Supporting research aimed at 
treating and potentially curing disabling respiratory disease 
is well within the scope of the Department's health concerns.
    I thank you again for the opportunity to present this 
information.
    Mr. Young. Doctor, thank you very much.
    I know that Mr. Skeen will be pleased to read your 
testimony. He is very interested in the work in Albuquerque and 
all of New Mexico. Thank you for being here.
    Mr. Mauderly. Thank you.
    [The statement of Mr. Mauderly follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

                         JOSLIN DIABETES CENTER


                                WITNESS

KENNETH E. QUICKEL, JR., M.D., PRESIDENT, JOSLIN DIABETES CENTER

                              Introduction

    Mr. Young. Mr. Nethercutt, Dr. Quickel is our next witness.
    Mr. Nethercutt. The Committee welcomes Dr. Kenneth Quickel, 
President of the Joslin Diabetes Center of Boston, 
Massachusetts. His center participates in a joint VA/DOD 
diabetes research project.
    I am certainly well aware of what you do, Doctor, and 
certainly welcome you here today. I have a special interest in 
diabetes and have been delighted to have a chance to work with 
you. Your prepared statement will be made a part of the record, 
and we are happy to have you summarize your testimony at this 
time.

                        Statement of Dr. Quickel

    Dr. Quickel. Thank you, Mr. Nethercutt. I want to record 
our sincere thanks to the chairman and the entire Committee and 
especially to you for your support of a fairly unique 
partnership that we are endeavoring to establish with the 
Department of Defense and the VA system, with your help.
    The Joslin demonstration project will Institute some pilot 
programs for the detection of diabetes, the prevention of it 
and the care of people with diabetes in two regions, first in 
Hawaii through the Tripler Army Medical Center and the second 
in Boston's VA hospitals.
    The project has a very strong emphasis on telemedicine and 
computer-based care of individuals with diabetes, and these 
strategies fit very well with the military's and VA's 
distributed systems, which depend on those technologies. So 
there is a unique and excellent marriage between what we can 
bring to the table and what they need, and their patient base.
    We at Joslin want to thank you and the Committee for your 
support.
    I have two objectives today. The first is to give you a 
little brief status report on the status of the project and the 
second is to focus on next year's funding of the project.
    There are two objectives in the project. The first is a 
screening for diabetes among Department of Defense and VA 
personnel and patients, and the second is to implement 
strategies to improve diabetes care in the Department of 
Defense and the VA system in New England and Hawaii.
    We have now reached an understanding, with the excellent 
support of personnel that we have come to know in the 
Department of Defense and the VA system, concerning how to 
establish a work plan, how to put the systems in place as we 
had intended over this coming year.
    By September, we will have completed a phase 1 setup and 
validation stage and a phase 2 implementation of the broad 
program in the VA hospitals in New England. We are well along 
the way to accomplishing that now.
    By September, we also will have completed the phase 1 setup 
and validation at Tripler and be prepared to implement 
subsequently there. And also by September, we will have 
accessed--deployed equipment and staffing in three remote sites 
selected throughout New England, which will then feed into the 
VA system. And later we will do the same thing in Hawaii and in 
the Pacific.
    In year 2, what we intend to do is to accomplish several 
objectives. The first is to begin actually providing care to 
people with diabetes that feed into those two regions, the VA 
and the military, in Boston and in Honolulu. The second is to 
begin to screen for diabetes broadly throughout those regions, 
using some unique strategies that we have developed. And the 
third is that over that period of time we will endeavor to 
improve the metabolic control of individuals throughout the 
regions that we serve. Subsequently, of course, we hope to 
spread beyond that.
    Mr. Nethercutt. Doctor, let me interrupt you, if you would, 
and ask you, what are the techniques----
    Dr. Quickel. Sure.
    Mr. Nethercutt [continuing]. Very briefly, of screening 
that you have developed?
    Dr. Quickel. Well, the first technique is the use of a 
light source to actually shine into the pupil of the eye, and 
by measuring refraction of light that uniquely occurs in people 
with diabetes, you can actually screen for the presence of 
diabetes without drawing blood. It is a totally unique 
strategy. And the advantage of that is that you can do it in 
large numbers of people. You can do it in a drugstore. You can 
do it extremely simply without having to handle bloods and draw 
bloods.
    The second strategy is to image--to obtain a digital image 
of the back of the eye so we can screen for the leading cause 
of blindness in diabetes. And the third strategy is a computer-
based method of instructing individuals with diabetes how to 
care for themselves and provide support for their care. So you 
can create a broad program to do all of those things.
    Mr. Nethercutt. Is the eye screening, example number one, 
available today? Or is that something you will be developing 
over the next few years?
    Dr. Quickel. It is live and working today. And we are 
presently, as I speak, transmitting images from Chinatown in 
Boston to our center across on the other side of town. What we 
want to do is to take it out to broader areas, because we think 
it is a strategy that is ideally adapted to telemedicine across 
the Pacific or throughout New England or in any other widely 
dispersed area.
    Mr. Nethercutt. That's great. Forgive me for interrupting. 
I appreciate having that for the record.
    Dr. Quickel. That is all right.
    To date, we have spent about $1.5 million on this phase of 
the project and have not yet been able to free up the 
appropriated funds from the Department of Defense. And this has 
been a particular challenge for a tax exempt organization and 
for me, who has to face a board periodically and justify those 
expenditures.
    We were not, frankly, aware that at each stage as the money 
came out it would get a little bit peeled off to support the 
development activities of other agencies. And as a result we 
will, over the next 2 years, probably have made unexpected 
assessments within the Department of Defense and the VA system 
of about $2 million, that will not actually pay for the system 
to go into place.
    The $4 million budget we submitted last year is probably 
going to result in about $3 million of funding for the project 
and it was fairly bare bones. With the support of the 
Department of Defense and especially the Army, we are 
submitting a request for next year of $6.4 million in order to 
be able to cover those unanticipated losses and be able to 
accomplish the goals that I have outlined here today.
    Once again, I think we have a wonderful opportunity for a 
unique partnership between what essentially is a private 
research institution and a large Federal agency that marries 
what we can do and what they need uniquely, and if we can do it 
well perhaps we can benefit people even beyond the Department 
of Defense.
    Thank you very much for allowing us to testify.
    Mr. Nethercutt. Well, thank you very much for your 
testimony. And Joslin does wonderful work and I certainly thank 
you for your dedication to this project and also your work to 
help improve human health. Thank you very much.
    Dr. Quickel. Thank you.
    [The statement of Dr. Quickel follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

     FEDERATION OF BEHAVIORAL, PSYCHOLOGICAL AND COGNITIVE SCIENCES


                                WITNESS

DAVID JOHNSON, PH.D., EXECUTIVE DIRECTOR, FEDERATION OF BEHAVIORAL, 
    PSYCHOLOGICAL AND COGNITIVE SCIENCES

                              Introduction

    Mr. Nethercutt. Our next witness is Dr. David Johnson, 
Executive Director of the Federation of Behavioral, 
Psychological and Cognitive Sciences. Dr. Johnson's group 
represents 17 scientific societies and some 150 university 
graduate departments.
    Your prepared statement will appear in the record, sir, and 
you may summarize it at this time. Thanks for being here.

                        Statement of Dr. Johnson

    Dr. Johnson. Thank you, Mr. Nethercutt.
    Normally when I speak to the Subcommittee about--when I 
speak before this Subcommittee, I am coming to talk about the 
basic or 6.1 behavioral research budget. But I am going to 
spend most of my time today on a proposed cut to applied and 
advanced development or 6.2 and 6.3 research, and I am going to 
talk about that because those cuts would destroy the behavioral 
research program at the Air Force.
    Most applied and advanced development work on manpower, 
personnel and training is managed by the Armstrong Lab at 
Brooks Air Force Base in San Antonio. Behavioral research and 
development--R&D there is funded this year at $11 million. The 
1999 budget request would reduce funding to $3 million. That 
will kill the program.
    If 6.2 and 6.3, that is, the development of research into 
products, goes by the wayside, the 6.1 program will quickly 
follow suit since it will be left as the front end of a 
pipeline that doesn't lead anywhere.
    If the Air Force abandons human performance research, what 
will it lose? It will lose its ability to adapt personnel to 
new skill requirements; to maintain readiness in the face of an 
increasingly diverse personnel pool; to maintain strength and 
quality while continuing to downsize; to incorporate usability 
planning into new system designs; and to meet the increasing 
demand for distributed training. It will even lose its ability 
to adapt its personnel to the changing nature of warfare. That 
is really pretty fundamental and it is a lot to lose.
    The handicap this R&D faces under the current pressure to 
cut research is that the service it provides is to the whole 
Air Force, indeed in many cases to the whole of the Armed 
Services. That means in practicality that no one owns it in the 
way that each major command knows in detail what hardware 
development it must have.
    In contrast, the commands understand the importance of 
behavioral research only when something goes wrong. For 
example, the military, NASA and the FAA are partners in a 
massive modernization of air traffic control terminals. Human 
factors were not taken adequately into account in the early 
planning of the terminals with the result that air traffic 
controllers found they couldn't use the new terminals. That has 
prompted costly retrofits that could have been avoided if human 
factors research knowledge had been incorporated in the initial 
design.
    We are strongly urging this Committee to stop the 
devastation of the Air Force manpower, personnel and training 
R&D program. We ask this Committee to recommend explicitly a 
funding level of $11 million for the behavioral research 
programs of the Armstrong Lab. We ask you, in addition, to 
support the administration's request for $12.567 million for 
6.1 behavioral research at the Air Force.
    Let me turn briefly to the behavioral research budgets of 
the Army and the Navy. Both of these budgets are also under 
stress. And I want to thank this Committee for its role last 
year in saving the Army Research Institute--ARI. Congress 
appropriated $21 million for those programs for fiscal 1998. 
Unfortunately, to date I understand ARI has received only $13 
million of this appropriation, and that is severely impacting 
the flow of research. The request for next year, $16.7 million, 
is a large cut from the appropriated fiscal year 1998 amount. 
We ask the Committee to maintain ARI at $21 million, its 
appropriated fiscal year 1998 level.
    We also ask that the Committee support the administration 
request of $49.69 million for the 6.1, 6.2 and 6.3 behavioral 
and bioengineering programs at the Office of Naval Research.
    In closing, however, it is important to mention that ONR, 
ARI and AFOSR budgets have been severely impacted by 
withholding of significant amounts of funds to help pay for 
unbudgeted nonresearch costs such as the cost of supporting our 
current efforts in the Persian Gulf. Those unanticipated cuts, 
amounting to 15 percent in the current fiscal year for 
behavioral research at ONR, wreak havoc with research programs. 
We hope that the Committee will continue working to improve our 
means of responding to unplanned costly events like the Persian 
Gulf and Bosnia.
    Thank you for the opportunity to testify.
    Mr. Nethercutt. Thank you very much Doctor. We will do the 
best we can and we appreciate you being here to testify.
    Dr. Johnson. Thank you.
    [The statement of Dr. Johnson follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

                   AMERICAN PSYCHOLOGICAL ASSOCIATION


                                WITNESS

WILLIAM STRICKLAND, PH.D., AMERICAN PSYCHOLOGICAL ASSOCIATION

                              Introduction

    Mr. Nethercutt. The Committee now welcomes Dr. William 
Strickland of the American Psychological Association. Dr. 
Strickland is also a graduate of the Air Force Academy. I was 
particularly interested in the portion of your prepared 
statement, Doctor, which points out that the Air Force loses a 
fighter squadron a year through accidents, 80 percent of which 
involve human error.
    You also say this happens not because we don't have the 
world's best pilots but because we have allowed hardware and 
software to get too far ahead of human ware.
    We all know the next generation systems are going to be 
even more challenging than those we fly now, so we are 
interested in your views on where we go in the future. So I am 
happy to tell you your prepared statement will be made a part 
of the record and you may summarize it as best you can.

                      Statement of Dr. Strickland

    Dr. Strickland. Thank you, Mr. Nethercutt.
    Mr. Nethercutt. Yes, sir.
    Dr. Strickland. As you say, I am representing today the 
American Psychological Association, a professional and 
scientific organization of 155,000 people, many of whom conduct 
behavioral research relevant to the military.
    This statement addresses two main issues, the continuing 
need to invest in psychological research in the Department of 
Defense and the particular need to sustain support for the 
human systems programs in the Air Force.
    Our military is facing a host of new challenges. Our forces 
are downsizing, women are playing an increasingly prominent 
role and constant deployments have become a way of life. Modern 
weapons systems and the availability of information technology 
have dramatically changed the way our forces fight. What hasn't 
changed is that success still depends on people, at every level 
in every unit.
    Behavioral research answers questions at the heart of 
military operations. Who should be recruited? How should they 
be selected and assigned? What job should they be trained for? 
How should they be trained? How can they maintain their skills? 
What should the human system interface look like? How should 
systems be operated for maximum efficiency, effectiveness and 
safety?
    Answering these questions requires serious investment in 
behavioral research, and currently that investment is 
appalling. Personnel and training costs account for one-third 
of DOD's total budget, yet DOD invests less than 1 percent of 
its science and technology budget in personnel and training 
research. For every $4 we spend on equipment, we spend a dollar 
in R&D to make it better. For every $4 we spend on people, we 
invest less than 3 cents to do the same task.
    APA supports the DOD request for $12.6 million for Air 
Force basic behavioral research. We are very concerned, 
however, about the significant cuts you just heard about that 
are proposed for behavioral 6.2 and 6.3 R&D at Brooks Air Force 
Base. The FY 99 request would reduce the development side of 
behavioral R&D from $11 million to $3 million. Product 
development in the behavioral research pipeline will be 
eliminated.
    What does the Air Force get for its modest current 
investment? The answer is, essential tools that will allow the 
Air Force to operate effectively with fewer people, with 
changing and complex technical jobs in a rapidly changing 
environment.
    Answers to tomorrow's critical questions, who should be 
trained? Where? When? How? Who has the skills? Who could 
develop the skills to do totally new kinds of jobs? Which 
recruits have the aptitude for cooperative work?
    The customer for this R&D is the Air Force of tomorrow. The 
people in that future Air Force are not the voices you hear in 
the clamor over short-term budget decisions, but Congress must 
ensure that their voice is heard.
    APA urges the Committee to include specific language in the 
FY 1999 appropriation that would restore $9.84 million to the 
6.2 and 6.3 funding at Brooks Air Force Base. This would only 
maintain programs at their 1997 level.
    APA is also grateful for this subcommittee's leadership in 
restoring funds to the Armored Research Institute in FY 98. 
Last year's proposed cut would have crippled ARI's research. 
Once again, we ask for your help. Despite ARI's strong record 
in funding research essential to the training and performance 
of Army personnel, the Institute's funding continues to erode. 
The 1999 request is $16 million, a substantial cut from the 
currently appropriated $21.4 million. We urge the subcommittee 
to continue support for ARI.
    ARI conducts behavioral research on such topics as 
recruiting, including minority recruiting, personnel testing 
and evaluation, training and retraining, and leadership. While 
the Army seeks to cope with downsizing, to solve problems of 
sexual harassment and to establish workplaces that bring out 
the best from a diverse workplace, studies done for the Army by 
scientists who understand how the Army works will be critical 
in helping the Army to plan and execute change.
    I refer the Committee to the APA statement for our 
association's complete recommendations.
    In closing, please remember that behavioral research can 
continue to provide the foundation for tremendous savings 
through increased personnel efficiency and productivity. 
Increasingly sophisticated weapons systems place more, not 
fewer, demands on human operators. We must ensure that military 
personnel are at least as well prepared as their machines to 
meet the future. This requires a sustained investment in human 
oriented research.
    Thank you, sir.
    Mr. Nethercutt. Thank you very much, sir, for being here 
today and we appreciate your testimony.
    Dr. Strickland. Thank you.
    [The statement of Dr. Strickland follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

    AMERICAN ACADEMY OF OTOLARYNGOLOGY--HEAD AND NECK SURGERY, INC.


                                WITNESS

JOHN R. WILLIAMS, DIRECTOR, CONGRESSIONAL RELATIONS, AMERICAN ACADEMY 
    OF OTOLARYNGOLOGY--HEAD AND NECK SURGERY, INC.

                              Introduction

    Mr. Nethercutt. The Committee now welcomes John Williams of 
the American Academy of Otolaryngology--Head and Neck Surgery.
    The academy and the physicians who belong to it are 
dedicated to the care and treatment of patients with disorders 
of the ears, noses and throat and related structures of the 
head and neck. Your prepared statement will be made a part of 
the official record of the Committee, sir.
    Your statement represents an interesting perspective on 
tobacco availability in the military, as well as skin cancer, 
ultraviolet--UV radiation and noise reduction. Mr. Williams, we 
are glad to have you here.

                       Statement of Mr. Williams

    Mr. Williams. Once again, my name is John Williams. I am 
Director of Congressional Relations here for the American 
Academy of Otolaryngology--Head and Neck Surgery. I am here 
today in place of Dr. Michael Maves, Executive Vice President 
of the academy, who was unable to be here due to a family 
illness.
    As you mentioned, the American academy of Otolaryngology--
Head and Neck Surgery is the largest medical society of 
physicians with over 10,000 members dedicated to the care and 
treatment of patients with disorders of the ears, nose, throat 
and related structures of the head and neck. We are more 
commonly referred to as ENT physicians.
    We have testified before the Committee over the last 
several years about some matters that I am going to discuss in 
this testimony, and deeply appreciate the courtesy with which 
the Committee has reviewed our views.
    Today I would like to briefly reiterate three of these 
issues of importance to our membership. The first is tobacco 
use in the military. The American Academy has been opposed to 
tobacco for many decades. We are the physicians who, again, 
care for most of the patients with cancer of the head and neck 
and we see the harmful effects of tobacco use among our 
patients every day.
    All over the news, you see reports of tobacco companies 
finally admitting to the adverse effect of tobacco users. We 
also know that there can be a significant impact on 
individuals, especially children, who happen to be in the 
vicinity of toxic smoke from tobacco products used by others.
    We are pleased to see that the Department of Defense 
announced a policy ban of smoking in all DOD work facilities 
worldwide. This far-reaching initiative makes DOD workplaces 
free from harmful secondhand smoke as well, thus, will improve 
the overall health of military personnel. We do know, however, 
that many military--many in the military have substituted 
tobacco smoking with smokeless tobacco to avoid disciplinary 
actions where smoking itself is prohibited.
    Smokeless tobacco is also a very serious medical--has very 
serious medical effects upon the oral cavity. Even with all the 
scientific information we now have about negative impacts of 
smoking and secondhand smoke on individuals, we find that the 
tobacco use is still indirectly encouraged by the military 
through the subsidized sale of tobacco products at military 
commissaries and PXs where cigarettes and other tobacco 
products can be bought at a much lower price than otherwise 
would be charged outside.
    The academy has expressed its concern that the DOD would 
likely not ban the sale of tobacco products in the commissary 
system. However, we strongly support the concept of bringing 
tobacco prices at least to the parity where civilian prices 
would help cut down on its use.
    The next of that is--the next issue of importance to our 
membership is the--is that of skin cancer and UV radiation. 
Three years ago, the American Academy indicated its strong 
support for environmental--indicated its strong support to the 
Environmental Protection Agency and the National Weather 
Service in developing a nationwide UV index to alert members to 
the public dangers of excessive radiation to the sun and 
potentially resulting in skin cancers, especially to the head 
and neck and other immune systems.
    Our academy members deal with medical problems of the head 
and neck where many of these skin cancers occur. We urge that 
this Committee consider how it might participate with the 
Department of Defense in ensuring that all personnel and their 
families are educated in this regard.
    One excellent instrument of this education is the UV index, 
widely made available by the National Weather Service and 
private weather reporting companies.
    Finally, Mr. Chairman, let me talk about the issue of noise 
reduction. Our academy has long been concerned about the effect 
of excessive noise in the structures of the ear, particularly 
those noises which are extremely excessive. We know that noise 
is a necessary part frequently of--part frequently of daily 
military life, particularly so in wartime. Nevertheless, we 
believe that many of the noise effects in military personnel 
can be reduced by appropriate noise reducing and prevention 
activities.
    Finally, I would just like to thank you for your time and 
be happy to answer any questions that you may have.
    Mr. Nethercutt. Thank you very much for being here, Mr. 
Williams. We appreciate having your testimony today.
    [The statement of Mr. Williams follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

                     RESEARCH SOCIETY ON ALCOHOLISM


                                WITNESS

DR. MICHAEL CHARNESS, CHIEF OF NEUROLOGY, BROCKTON/WEST ROXBURY VA 
    MEDICAL CENTER AND ASSOCIATE PROFESSOR OF NEUROLOGY AT HARVARD 
    MEDICAL SCHOOL

                              Introduction

    Mr. Nethercutt. Our next witness is Dr. Michael Charness 
representing the Research Society on Alcoholism. Dr. Charness 
makes the point in his written statement that heavy drinking in 
the military is 40 percent more prevalent than in the civilian 
sector and that as a result there is a 24.5 percent 
productivity loss in the E-1 to E-3 pay grades.
    We are interested in your views on this subject, sir, and 
we are happy to say your prepared statement will be made a part 
of the record. We welcome you today and please summarize your 
testimony.

                       Statement of Dr. Charness

    Dr. Charness. Thank you very much. I am Chief of Neurology 
at the Brockton/West Roxbury VA Medical Center and am also 
associated with Harvard Medical School. I conduct basic 
research on how alcohol changes the function of brain cells, 
and I also care for alcoholics whose drinking has damaged their 
brains and their muscles and nerves. I appreciate very much the 
opportunity to appear here before you today on behalf of the 
Research Society on Alcoholism.
    We are a professional research society whose 1,200 members 
conduct most of the basic clinical and psychosocial research on 
alcoholism and alcohol abuse that is conducted in this country. 
I am here to discuss drinking in the military, which I believe 
is a serious problem that compromises the defense of the 
Nation.
    One in 10 Americans will suffer from alcoholism or alcohol 
abuse. The cost to this country is $100 billion annually. 
Alcohol is a factor in 50 percent of all homicides, 40 percent 
of all motor vehicle fatalities, 30 percent of all suicides and 
30 percent of all accidental deaths.
    In the military, the costs of alcohol abuse and alcoholism 
are likely to be enormous. Nearly 1 in 5 military personnel 
engages in heavy drinking, a rate which is almost double that 
of the civilian population.
    In 1990, 23 percent of deaths in the United States Air 
Force were related to alcohol. There is a human face attached 
to each of these statistics. As physicians, we see men, women 
and children who are paralyzed in car accidents caused by drunk 
drivers. We see accomplished men and women who will never 
remember another new experience because drinking has damaged 
their brains. We see frightened and abused children who grow up 
in homes with abusive alcoholic parents.
    Many talented and dedicated people in the Department of 
Defense are working hard to reduce drinking in the military, 
but current prevention and treatment programs are simply not 
good enough.
    Only research halts the promise of change. Alcohol research 
is presently conducted primarily at the National Institute of 
Alcohol Abuse and Alcoholism and within the Department of 
Veterans Affairs. This effort is severely underfunded in 
proportion to the magnitude of the problem and, moreover, 
neither NIAAA nor the VA focus their research efforts on 
prevention and treatment issues that are specific to the needs 
of the military.
    While the high rates of use and abuse of alcohol in the 
military are alarming, the good news is that we are poised at a 
time of unprecedented opportunities in research. For the first 
time, scientists have identified discrete regions of the human 
genome that contribute to the inheritance of alcoholism. Two 
new medications, Naltrexone and Acamprosate have proven 
effective in reducing drinking and are undergoing large-scale 
clinical trials. The development of more effective drug 
therapies for alcoholism awaits an improved understanding of 
how alcohol affects brain function.
    Alcohol research has now reached a critical juncture and 
the scientific opportunities are numerous. With the support of 
this subcommittee and the Congress, we believe that we can 
achieve significant advances in alcohol research that will 
reduce heavy drinking in the military.
    Research society on alcoholism urges the Department of 
Defense to take the lead on initiating what the Department of 
Veterans Affairs calls a new broad cooperative research program 
on alcoholism. We also urge that the Department of Defense 
establish with NIAAA research programs on the epidemiology, 
causes, prevention and treatment of alcoholism.
    This request balances the morbidity, mortality and huge 
economic costs of heavy drinking in the military with the 
abundance of research opportunities for improving the 
prevention and treatment of alcohol abuse and alcoholism. I 
thank you.
    Mr. Nethercutt. Let me ask you, Doctor, to what extent do 
you get information from the National Institutes of Health on 
the issue of alcoholism?
    Dr. Charness. NIAAA is very helpful. They have a program of 
public education that involves sending out information to 
virtually all the physicians in the country.
    Mr. Nethercutt. Do you rely on that aspect of NIH or that 
Institute?
    Dr. Charness. I think that the treatment committee in 
particular does. As a researcher, I get it from the horse's 
mouth.
    Mr. Nethercutt. I understand. Thank you, sir, very much.
    Dr. Charness. Thank you.
    [The statement of Dr. Charness follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

           AMERICAN SOCIETY OF TROPICAL MEDICINE AND HYGIENE


                                WITNESS

PHILIP K. RUSSELL, M.D., PROFESSOR OF INTERNATIONAL HEALTH, SCHOOL OF 
    HYGIENE AND PUBLIC HEALTH, JOHNS HOPKINS UNIVERSITY

                              Introduction

    Mr. Nethercutt. The Committee will now hear from Dr. Phil 
Russell of Johns Hopkins University, representing the American 
Society of Tropical Medicine and Hygiene.
    As Dr. Russell points out in his written statement, U.S. 
soldiers will continue to be deployed in regions of the world 
where the threats of infectious disease exist. That written 
statement that you have prepared will be made a part of the 
record, Dr. Russell, and you may summarize it at this time. 
Welcome.

                        Statement of Dr. Russell

    Dr. Russell. Thank you, Mr. Nethercutt. It is my privilege 
to present the testimony on behalf of the American Society of 
Tropical Medicine and Hygiene. In order to emphasize the 
written testimony, I would like to focus on three points. The 
first you mentioned is the emerging infectious disease issue.
    The Nation as a whole is beginning to recognize the growing 
problems and increasing threat of emerging infectious diseases. 
Social and behavioral changes, environmental changes and 
microbial evolution are all contributing to an increasing risk 
to our entire population and most especially to the military. 
Deployed military forces, because of the nature of military 
operations, have throughout history been at especially high 
risk to infectious diseases.
    In response, military medical research programs have been 
specifically directed at protecting the armed forces through 
development of vaccines, drugs and other preventive measures. 
Although there have been notable successes and great advances 
in military preventive medicine in recent years, the threat 
remains and the threat continues to change and increase as 
disease producing organisms evolve and as the environment in 
which these organisms produce disease continues to change.
    The current epidemics of dengue, cholera, Rift Valley fever 
and malaria now ongoing in several tropical countries would all 
be extremely serious hazards if military deployment in those 
areas were necessary. The threat is increasing, yet the Army 
and Navy medical research organizations have had to deal with 
severe restrictions in both personnel and budget in recent 
years. I urge the Committee to look at this and to reverse this 
downward trend.
    The second issue I would like to address is the value of 
military medical research structure in drug and vaccine 
development. Military scientists have been world leaders in 
several areas of tropical medicine for many years, and they 
continue to do very high quality and important research. The 
exciting development with a new malaria vaccine which has 
protected volunteers and is moving into field trials is an 
outstanding example. However, there are several potential new 
products that are not advancing or are moving ahead very slowly 
because of lack of funds and shortage of scientific personnel.
    The third area I would like to call to your attention is 
the network of overseas medical research laboratories operated 
by the Army and the Navy.
    These are extremely valuable medical research, public 
health and military assets. They provide unparalleled 
opportunities for training of military and civilian scientists 
in tropical medical research and for that reason are highly 
valued by the civilian academic community, as well as the 
military scientists. They provide excellent opportunities for 
collaboration between military and academic scientists in 
research as well as in training of junior scientists.
    These laboratories can potentially provide an outstanding 
surveillance network to monitor emerging infectious disease 
problems in critical parts of the world. They have done so at 
many times in the past and have provided medical experts with 
up-to-date knowledge and research capability needed to address 
epidemics in civilian populations in their region. The recent 
examples include dengue epidemics in Peru and RVF epidemics in 
east Africa. Additional funding is urgently needed to enable 
these laboratories to achieve their potential for dealing with 
the emerging infectious disease threat.
    Perhaps the greatest and most obvious value of these 
laboratories is their capacity to conduct field trials of drugs 
and vaccines. Anti-malarial drugs, hepatitis A and Japanese 
encephalitis vaccines are examples of products which have been 
licensed in the country on the basis of trials done by these 
laboratories at the overseas sites.
    As we move forward with new vaccines for dengue, malaria, 
diarrheal diseases and hopefully HIV, the value of these 
laboratories as a basis for field trials will become even 
greater. They need and they deserve additional support.
    In conclusion, I want to thank the Committee for their past 
support for these programs and on behalf of the society request 
your continued support of DOD infectious disease research 
programs. This is critically important given the resurgent and 
emerging infectious disease threats which exist today. We are 
pleased that the administration's request does not cut current 
funding levels but we see that there are still many unmet needs 
and opportunities, and failure to act will result in health 
care cost increases downstream and threaten the effectiveness 
of future troop deployments.
    Thank you for your consideration of our request, sir.
    Mr. Nethercutt. Thank you for making the request. I would 
just ask, are these emerging infectious diseases--generally 
fatal or are they only debilitating?
    Dr. Russell. Both. Dengue, for example, is just a very 
serious disease with little threat of death to military 
populations. Rift Valley fever and malaria, on the other hand, 
are potentially fatal.
    Mr. Nethercutt. Sure. I understand. Well, thank you very 
much for your testimony.
    [The statement of Dr. Russell follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

                  ASSOCIATION OF AMERICAN UNIVERSITIES


                                WITNESS

GENE D. BLOCK, VICE PROVOST FOR RESEARCH, UNIVERSITY OF VIRGINIA

                              Introduction

    Mr. Nethercutt. Our next witness is Gene Block, Vice 
Provost for Research at the University of Virginia. He is 
appearing today on behalf of the Association of American 
Universities, in support of DOD University research.
    Your prepared statement notes, sir, that DOD basic research 
funding has been used several times in the last few years to 
provide offsets for unrelated new expenditures in supplemental 
appropriations bills.
    As you may know, we marked up a supplemental bill to pay 
for Bosnia and our support forces in the Persian Gulf last week 
right here in this Committee without offsets.
    So I encourage your association to let others in the 
Congress know of your views because there are many members who 
believe we should offset that supplemental. And you are right, 
we may have to use R&D funding as an offset.
    Your prepared statement will appear in the record of the 
Committee, and we are delighted to have you summarize it at 
this time.

                         Statement of Mr. Block

    Mr. Block. Thank you very much. As you mentioned, my name 
is Gene Block. I am the Vice Provost for the University of 
Virginia for Research, and I am also the Director of the 
National Science Foundation Center for Biological Timing. In 
addition, my academic background is in neurobiology. I am 
specifically interested in biological clocks and I am partially 
funded by a grant from the Air Force Office of Scientific 
Research.
    I am testifying today on behalf of the Association of 
American Universities, representing 62 premier research 
universities in the United States and Canada, and the National 
Association of State Universities and Land Grant Colleges, 
representing 195 public institutions of higher education across 
the United States.
    I have provided you with a copy of my written testimony, 
and I will not read that. I will just highlight some of the 
important issues.
    Let me emphasize verbally how important I believe it is for 
your Subcommittee to provide adequate funding this year for 
basic and applied research at the Department of Defense. As you 
know, basic and applied research are funded under program 
elements 6.1 and 6.2 in the research, development, testing and 
evaluation section of the Department of Defense appropriation.
    The Army, the Navy, the Air Force and defense-wide account 
under the Office of the Secretary all receive separate 
appropriations for these programs. Universities play the 
largest role in basic defense research, receiving more than 60 
percent of this funding. That is program element 6.1. They also 
receive substantial funding for applied defense research and 
advanced technology development, program 6.2 and 6.3 
respectively.
    The department's budget request would provide a total of 
$1.11 billion for defense 6.1 programs in FY 99, including 
programs funded under the Office of the Secretary of the 
Defense as well as the Navy, Army and Air Force research 
programs.
    This represents an increase of 6.6 percent over the final 
funding levels of FY 98. According to the defense--the 
department's RTD&E programs report, applied research would 
receive a total of $3.02 billion, an increase of .8 percent 
over FY 98. I believe these budget projections represent a 
realistic and appropriate estimate of what will be needed to 
carry out a vigorous research program in the coming year, and I 
hope you will approve them for the FY 99 appropriation.
    As you are aware, many crucial defense technologies have 
emerged from fundamental research conducted on American 
University campuses. Among these are radar, nuclear power, 
digital computers, semiconductor electronics, lasers, 
fiberoptics, night vision, inertial guidance, a global 
positioning system, stealth and other advanced materials, 
computer networking. As you remember, Advanced Research 
Projects Agency Net--ARPANet was actually the forerunner of our 
current Internet and computer-based visualization systems for 
training and planning and for conducting operations.
    With future threats to the national security so uncertain, 
maintaining technological superiority will require a strong and 
continuing research effort. The Armed Forces today must not 
only be ready to fight in conventional regional wars such as 
the Gulf War but must be ready to undertake peacekeeping 
missions in hostile situations and defend against 
unconventional threats such as terrorism, biological and 
chemical agents and computer sabotage.
    Supporting university research benefits DOD in many ways. 
It produces important advances in knowledge. It helps keep top 
scientists and engineers involved in defense research. Not 
least, the students who get hands-on research training and 
become highly qualified scientists and engineers of the future 
will go on to work in academia, industry and Federal 
laboratories.
    DOD is the third largest Federal funder of university 
research after the National Institutes of Health, and the 
National Science Foundation. The funds are awarded under 
competitive merit review procedures to assure high quality. 
Nearly 350 universities and colleges sponsor DOD research and 
development.
    Unfortunately, last year, the science and technology budget 
of DOD hit a 35-year low after adjusting for inflation. Basic 
research is down by $350 million in just the lasts 5 years. 
While the University of Virginia has actually seen an increase 
in DOD funding in the past year, I am concerned that other 
colleagues in the scientific community will find resources 
drying up for promising areas of inquiry.
    In particular, I'm concerned about the effect that 
shrinking funding will have on those disciplines that are most 
heavily funded by the department since other sources of support 
may not easily be found to keep these disciplines healthy.
    At this point I would just like to speak very briefly about 
some projects funded through DOD support at the University of 
Virginia. We received $10 million in defense, Department of 
Defense grants and contracts between July 1, 1996 and June 30 
1997. These funds supported 69 projects. DOD funds provide 
critical support for broad areas of fundamental research at our 
university. The results of this research are paying important 
dividends for the government and the public as well, and I'd 
like to just very briefly mention 3 areas to show you the 
diversity and the interesting research going on.
    One is in the area of biological timing research. A grant 
from the Air Force office of scientific research supports 
studies on the ability of the biological clock to adjust to 
changes in time cycles associated with transmeridian flights 
such as experienced by military flights across time zones or 
even in rotating shift work scheduling. The research performed 
in my laboratory and the laboratory of Dr. Michael Menaker 
employs state of the art continuous monitoring of electrical 
neural signals from the biological clock. This allows us to 
give insights into the functioning of the biological clock, and 
this should help us eventually be able to reduce fatigue during 
extended military operations, improve safety and productivity 
in the civilian work force. So this is work going on, 
biological work being supported by the Air Force.
    The Office of Naval Research supports engineering research 
on directed vapor deposition of thermal barrier coatings. The 
hot section combustor components of today's high performance 
aircraft engines operate close to the melting point of the 
materials of which they are made. Professor Haydn Wadley at the 
University of Virginia Department of Material Science has 
invented and patented a revolutionary new technology for 
coating these components with thin, thermally plated ceramics. 
These coatings can be applied with a new technology at one-
tenth the cost of competing technologies. By engineering their 
composition and structure the coatings can be twice as 
effective as the existing coatings that are being used. This 
will dramatically increase the thrust and fuel efficiency of 
engines that exploit them. As a result, military aircraft from 
the F-22 to the Global Hawk would be able to extend their 
mission duration and range.
    And finally I even have a little sample here, the third 
example of research going on at UVA, this is supported by 
Defense Advanced Research Projects Agency--DARPA. These are 
smart air jell sensors for biological agent detection. Arguably 
the greatest threat posed to the security of our nation's 
citizens is from the biological attack by a terrorist group. 
The ease of biological agents synthesis and the relatively 
simple technologies needed for the dispersal in urban 
environments and their near absence of effective methods of 
rapid detection create a real risk for biological agents. 
Professors Norris and Brinizer of the University of Virginia 
Mechanical, Air, Space and Nuclear Engineering Departments, in 
conjunction with the Pacific Sierra Research Corporation, are 
developing a smart biological censor that exploits the unique 
internal structure of aerojels. Aerojels are novel ultraporous 
polymer materials that contain enormous concentrations of 
interlinked pores. The minute pores can be engineered to match 
the size and shape of molecules of biological warfare agents. 
When attached to micro unmanned air vehicles the aerogel 
sensors have the capacity to continuously monitor the 
atmosphere, thereby providing an alert to potential biohazards. 
This technology will have tremendous nonmilitary applications 
as well.
    What I wanted to point out is the tremendous diversity of 
the types of research supported by DOD and the importance that 
this plays actually in the university research program.
    I want to thank you again for the opportunity to testify, 
and I'd be happy to answer questions.
    Mr. Nethercutt. I want to say thank you very much, sir, for 
being here. We appreciate your testimony. We'll do the best we 
can on your request.
    [The statement of Mr. Block follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

                    OVARIAN CANCER NATIONAL ALLIANCE


                                WITNESS

ANN KOLKER, EXECUTIVE DIRECTOR, OVARIAN CANCER NATIONAL ALLIANCE

                              Introduction

    Mr. Nethercutt. The Committee is happy to welcome our next 
witness, Ann Kolker. Ms. Kolker is the Executive Director of 
the Ovarian Cancer National Alliance. The Ovarian Cancer 
National Alliance is a young organization and was founded just 
last summer by Ms. Kolker.
    Ms. Kolker. Among others.
    Mr. Nethercutt. Among others. Because this Committee is 
interested in the health of women in our military, we provided 
$10 million in last year's appropriation for research for this 
deadly disease that effects 1 in 55 women. Your prepared 
statement is an excellent summary of the issues regarding the 
ovarian cancer research. It will be made part of the record of 
the Committee, and we're delighted to have you summarize it as 
you wish.

                        Statement of Ms. Kolker

    Ms. Kolker. Thank you very much and thank you for providing 
the opportunity to testify, and a special thank you to Chairman 
Young and also to Representative Murtha for including and last 
year increasing critically needed funds for the ovarian cancer 
research in the congressional special interest research 
program.
    I'm Ann Kolker, a founder, one of many and now the 
Executive Director of the Ovarian Cancer National Alliance. As 
Congressman Nethercutt noted, the alliance is a new 
organization formed last summer. It's the creation of leaders 
from the growing number of ovarian cancer groups across the 
country. These groups united to establish an umbrella group, 
the alliance, in order to have a coordinated effort that will 
put ovarian cancer policy, education, research issues squarely 
on our national agenda. Our statement today marks our first 
public appearance on Capitol Hill.
    I also serve as a consumer representative on the 
Integration Panel of the DOD ovarian cancer research program 
and, as members of this Committee are aware, this program is 
still in its first funding cycle. So there is no track record 
yet for it as there is for the breast cancer research program. 
We look to the success of that effort, described earlier today 
by Fran Visco, to inform the expansion of the ovarian cancer 
program.
    On behalf of the alliance, I have a straightforward 
message. Ovarian cancer research has been drastically 
underfunded to date and it's urgent that policy makers expand 
resources devoted to this disease. The goal must be to increase 
in a significant way the ovarian cancer survival rate, which is 
so poor that this disease has the unwelcome distinction of 
being the deadliest of the female cancers.
    Ovarian cancer is truly life threatening. More than 50 
percent of the women who have it die within 5 years of 
diagnosis, and that's because in at least 70 percent of the 
cases women aren't diagnosed until the cancer has reached an 
advanced stage when it is often too late to cure. But when 
women are diagnosed in the first stage, which unfortunately 
occurs in less than 1 quarter of cases, the survival rate is 
over 90 percent. I was fortunate to be diagnosed in this stage.
    As is the case with many other cancers, a key to improved 
survival is early detection, and for ovarian cancer a critical 
component of early detection is a better understanding of key 
scientific aspects of the disease. This will happen only if 
research is increased substantially.
    The creation of the ovarian cancer research program several 
years ago and last year's expanded appropriations of $10 
million were important steps in that direction. Today we ask 
you to consider a significant funding increase and broadening 
the requirements for potential applicants who are now, as 
you're aware, restricted to comprehensive cancer centers. 
Increasing funding for research will go a long way toward 
helping improve the poor survival rate.
    Knowledge about key aspects of ovarian cancer is so limited 
that diagnostic tools are too often imprecise and there is no 
simple reliable screening mechanism. We need a screening tool 
that is as simple and as successful as the pap smear is for 
cervical cancer, the mammogram is for breast cancer and the PSA 
is for prostate cancer. Even with their limitations, these 
tests have dramatically improved early detection and spared 
many people with cervical, breast and prostate cancer the early 
death sentence that so many women with ovarian cancer face.
    Thus, for the alliance the development of a screening tool 
that is affordable, reliable and easy to administer is a top 
priority. This lifesaving tool will only be found when more 
research dedicated explicitly to ovarian cancer is available, 
and we hope that this committee will--the funds that this 
Committee makes available will play an important role in 
ultimately producing that tool.
    However, until that tool is available early detection of 
ovarian cancer will continue to elude too many women and their 
families. Thousands and thousands of women will needlessly 
continue to die, and it's our strong hope that the research 
funded through this important program will ultimately yield a 
screening instrument. 183,000-plus women who currently live 
with ovarian cancer, our sisters, our daughters, our 
granddaughters and millions of at-risk women around the country 
and all of our families and loved ones look to your support for 
increasing the resources dedicated to this lethal disease.
    Thank you very much.
    Mr. Young. Ms. Kolker, thank you very much.
    Several of us on this Committee have had personal 
experiences with this terrible disease and understand the 
importance. Thank you very much for----
    Ms. Kolker. I'm sorry to hear that, and I hope that the 
money that comes from this Committee will help those, as well 
as the many women who are associated with the alliance.
    Mr. Young. Thank you for a very impressive statement.
    [The statement of Ms. Kolker follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

                   JOINT POLICY BOARD FOR MATHEMATICS


                                WITNESS

JAMES CROWLEY, EXECUTIVE DIRECTOR, SOCIETY FOR INDUSTRIAL AND APPLIED 
    MATHEMATICS

                              Introduction

    Mr. Young. We would like to welcome now Mr. James Crowley, 
who was the Executive Director of the Society for Industrial 
and Applied Mathematics, located in Philadelphia. Mr. Crowley 
is here today representing the Joint Policy Board for 
Mathematics, a collaborative effort of three professional 
societies, SIAM, the American Mathematical Society and the 
Mathematical Association of America. Mr. Crowley is a former 
Air Force officer and chief scientist at the Air Force Systems 
Command at Andrews Air Force Base.
    Mr. Crowley your statement will be placed in the record in 
its entirety, and we would ask that you summarize it at this 
time.

                        Statement of Mr. Crowley

    Mr. Crowley. Thank you, Mr. Chairman, for this opportunity 
to comment on the fiscal year 1999 appropriations for DOD. 
Today I'd like to address DOD's investment in basic research, 
or 6.1 as it's known to DOD.
    As I noted in my written statement and as you noted just 
before, I served 22 years as an Air Force officer and so I'm 
familiar with the importance of basic research to the defense 
mission. I've seen firsthand how the results of basic research 
were incorporated into defense technologies and systems for the 
ultimate benefit of our defense forces, the American taxpayers 
and our national security. I'm very concerned though, Mr. 
Chairman, that the buying power of DOD support for basic 
research has dropped dramatically in recent years, by 18 
percent since 1994, and I included a chart in my written 
statement that shows this. Moreover, these funding levels are 
well below historical levels of investment and defense basic 
research. Those past investments played a critical role in 
enabling today's DOD to meet the Nation's defense needs through 
superior and cost effective military technologies which are 
even more important with the constrained operational budgets 
today.
    The reduced budgets have had a staggering effect on DOD 
research agencies' ability to maintain the strength of their 
programs. In the mathematical and computational sciences, for 
example, the scope of promising research that DOD has 
identified as relevant to its mission have been curtailed and 
whole thrusts of research have had to have been eliminated in 
some programs. The opportunities lost are not insignificant.
    Mr. Chairman, the funding erosion of DOD's basic research 
programs must be stemmed if we are going to achieve our 
national security objectives into the future. We urge the 
subcommittee to begin restoring the buying power of defense 
basic research by fully funding DOD's request for basic 
research. We must start reversing the downward funding trend, 
and enacting the relatively modest proposed increase for fiscal 
year 1999 would be a crucial first step.
    Let me say a few words about what basic research means to 
DOD. You are no doubt aware of the importance of long term 
fundamental research. I would also point out that some of the 
research supported through the 6.1 account is not as long term 
as you might think. In many cases university researchers have 
been brought in for special expertise to help solve real-time 
scientific and technical challenges, and this raises a critical 
point. By engaging the Nation's research universities and 
defense-related problems, DOD ensures itself access not only to 
today's researchers and the latest discoveries, but also to 
graduate students whose involvement in defense-related research 
areas helps guarantee the production of mathematicians, 
scientists and engineers who can contribute to meeting defense 
needs in the future, to tackling the long term research 
problems and being available to DOD to call on for more 
immediate ones.
    Let me illustrate my remarks about DOD's investment in 
basic research and its contributions to the national defense 
with a few examples. You are no doubt familiar with the rapid 
advances in computer hardware. Computer speed doubles every 
1\1/2\ years. Equally important is the fact that new and 
improved mathematical algorithms, which are the basis of all 
computer software, also contribute to this remarkable trend. In 
fact, the computer hardware would be useless without equally 
sophisticated advances in mathematical modeling and algorithm 
development.
    Let me cite a couple of cases in which DOD support has 
facilitated breakthroughs in this area. Research in the past 25 
years, much of it funded by DOD, led to the development of 
mathematical techniques underlying computer programs that can 
easily manipulate geometric objects. The techniques form the 
basis for modern CAD/CAM packages to make rapid prototyping and 
computer aided design possible. These tools are used by defense 
contractors to cut the development time and cost for new 
aircraft and other major DOD purchases.
    And in addition, simulation based upon mathematical models 
is becoming an important component of design. For example, 
mathematics can be used to model or predict how radar waves 
behave when scattered off of surfaces such as aircraft bodies. 
Advances in the developments of computational algorithms that 
design the testing of stealth technology in simulation; that 
is, on computers, before any actual development begins.
    More recently, a DOD initiative and modeling simulation and 
control of fabrication processes for thin films promises to 
deliver new, more reliable and economical processing techniques 
for these thin films, which are critically important for new 
and advanced electronic components for such examples as high 
performance microwave filters for wireless and aerospace 
communications. These thin films are not easy to manufacture 
and the computational model and simulation will be critical to 
obtain the uniformity that is necessary to obtain the device 
properties.
    I have chosen just a few examples, but clearly research in 
mathematics, algorithms, computing and all other areas of 
science for that matter have played and will continue to play a 
critical role in new technologies ranging from smart weapons to 
advanced aircraft design.
    This concludes my testimony. I appreciate the opportunity 
to talk to you about the impact of defense basic research, but 
let me also thank you for taking the time to speak last year at 
the DOD Demonstration Day, which was entitled ``Basic Research 
in the National Defense,'' sponsored by the Association of 
American Universities. I hope you're able to join us again at 
this year's event that's going to be held on April 29.
    Again thank you, Mr. Chairman, and I would be pleased to 
answer any questions you might have.
    Mr. Young. Mr. Crowley, thank you very much, and your 
statement is very thorough and we appreciate that, and we thank 
you for being here today and we believe in basic research. We 
would like to get a little basic research into how to get more 
money to pay for some of these programs that we've heard about 
today that are not included in the President's budget. So what 
I can tell you is we'll do the best we can.
    Thank you very much sir.
    [The statement of Mr. Crowley follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

                 CHILDREN'S HOSPITAL AND HEALTH CENTER


                                WITNESS

JANE WEISENBERG, DIRECTOR OF AMBULATORY SERVICES, CHILDREN'S HOSPITAL 
    AND HEALTH CENTER, SAN DIEGO, CALIFORNIA

                              Introduction

    Mr. Young. I'd like to welcome Jane Weisenberg, Director of 
Ambulatory Services in San Diego, California. Ms. Weisenberg 
has appeared before the Committee in support of the new parents 
support program which is operating at 29 army installations 
worldwide as well as several Navy installations and is intended 
to help prevent child abuse, something that we're all certainly 
supportive about and concerned about. We're happy to hear from 
you today, and your statement has been placed in the record and 
you may summarize it as you wish.

                      Statement of Ms. Weisenberg

    Ms. Weisenberg. Thank you, Mr. Chairperson, and other 
Members of the Committee.
    I have to say I really do appreciate the stamina that you 
all have to listen to all of our testimonies, and I got a 
flavor of that since I did get to appear last. The written 
testimony was submitted by Blair Sadler, the CEO and President 
of Children's Hospital. He really wanted to be here today, but 
he was detained with emergency business in San Diego. So he 
asked me to represent him and I have to say I'm truly honored 
to be here.
    I thank you for being supportive of the new parent support 
program over the last years. My testimony today is applicable 
to the Marine Corps New Parent Support Program in terms of you 
have helped over 11,000 military families since your support in 
1993.
    I would also like to welcome you all if you're interested 
in seeing firsthand the new parent support program we are 
operating on all Marine Corps installations worldwide, 
including the newest site at Miramar.
    There continues to be a critical need for family support 
programs for military personnel. Last year I attended an event 
celebrating the 222nd birthday of the Marine Corps. A videotape 
was shown where General Krulak described the essence of the 
Marine Corps. He used the Battle of Bella Wood as the pivotal, 
essential and defining moment of the reputation of the Marine 
Corps. He portrayed the spirit of honor, courage and commitment 
as fierce, independent and unconditionally committed to 
victory. I was moved by his presentation where bayonets were 
drawn and men died in battle. Then I sat back in my chair and I 
thought how challenging it is to reconcile the fighting spirit 
of the Marine Corps with the nurturing, caring and loving that 
is needed to sustain a family relationship and raise a child.
    There are risk factors related to military life where 
parenting starts at a young age. There is physical isolation 
and some remote locations, there is separation from family and 
friends, there is unknown resources and support systems in 
unfamiliar communities, there is frequent moves, there is 
difficulty in stretching a paycheck to meet the housing and 
other expenses, there is the uncertainty of peace and war. The 
new parent support program addresses these issues with the 
overall goal of strengthening military families and preventing 
family violence through the use of home visitation by nurses 
and social workers and prevention activities such as Daddy's 
Baby Boot Camp.
    The program makes a difference in peoples' lives. Consider 
a staff sergeant with his young wife who is five months 
pregnant, anemic, thin, unhealthy, 2 children, a son 4 years 
old who is moderately autistic, a son 19 months old. The wife 
feels overwhelmed by the care of an autistic child. They have 
recently transferred to their new location. The husband states 
the wife's housekeeping skills are poor and beginning to become 
a problem for him. He goes to the family services for 
counseling and is referred to the new parent support program. 
The problems identified are that a 19-month-old child is 
nonverbal, the household was not using speech with the 
children, they were all communicating by sign language, there's 
financial difficulties that do not allow the mother to get her 
eyes cared for so she may not get glasses, therefore she's 
unable to get a driver's license in a new State and is unable 
to drive. The mother was not on the women-infant children 
supplemental food program and neither were the 2 children.
    A home visitor, a trained social worker, went to the home, 
did an assessment of this family situation. Some of the 
interventions included having the Lions Club pay for glasses 
for mom which resulted in her being able to take a driver's 
test and have access to transportation, both mom and children 
were put on WIC, and mom is no longer anemic, she's getting 
appropriate prenatal care, and her pregnancy is progressing 
smoothly. A speech therapist goes into the home twice a week. 
The household has become more verbal and speech has improved 
for both of the children. The Child Abuse Prevention 
Association provided the family with gift certificates to buy 
clothing in their thrift shop, the home visitor worked with mom 
and dad around their own organizational skills so they could 
develop a family routine. They also have the family apply and 
receive Social Security for the autistic child. The family is 
using the money to provide opportunities to enhance the child's 
skills and development. They also are now enrolled in a food 
share program. The day-to-day stressors are under control, and 
thanks to the early intervention this family can now be 
prevented from having more serious consequences of their 
situation. It's really your support that made a difference in 
the life of this family and many, many others.
    The need continues for programs aimed at assisting military 
families. Programs such as the new parent support program on 
all Marine Corps installations plays an important role in 
military readiness by insuring the stability of military 
families. Congress has generously provided support for the 
Marine Corps' new parent support program and in light of this 
subcommittee's previous support for new parent support and 
other family advocacy initiatives, we request funding of $5.6 
million to continue this program into the FY '99--through the 
FY '99 appropriations bill.
    Thank you, Mr. Chairman, and other members of the Committee 
for your support.
    Mr. Young. Ms. Weisenberg, I have a quick question for you.
    If a reservist or a guardsman is called for active duty, 
are they eligible for this program?
    Ms. Weisenberg. All active duty military are eligible. They 
usually receive services by first going to the family service 
center on that installation. They can also be referred by 
community agencies or self-referrals.
    Mr. Young. I visited just last week in Bosnia with a 
reservist from my district who had been called up and his wife 
is expecting momentarily their third child, and he's going to 
be in Bosnia while she's in St. Petersburg having the baby.
    Ms. Weisenberg. So she's not near a Marine Corps 
installation.
    Mr. Young. No, and he's not in the Marine Corps, he's in 
the Army.
    Ms. Weisenberg. He is and she's not. That is an interesting 
situation.
    Mr. Young. And the closest we have is MacDill Air Force 
Base but that's a joint command there.
    Ms. Weisenberg. I think that's a very interesting 
situation. I'd be happy to follow up and see what happens in 
that type of situation, but that's a perfect example where the 
husband in this case is off in Bosnia and the wife is the one 
that needs assistance.
    Mr. Young. Well, thank you very much for being here today, 
we appreciate your support of the program and your willingness 
to travel all the way from San Diego to be here to visit with 
us today, and again I apologize for you being at the end of the 
line.
    Ms. Weisenberg. I have to say it was a very interesting 
morning and a good use of my time. Thank you.
    Mr. Young. Thank you very much.
    That I think is the end of our witness list. The Committee 
is adjourned until the call of the chair.
    [The statement of Ms. Weisenberg follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 1999

                              ----------                              

                                           Tuesday, March 17, 1998.

  COMMANDER IN CHIEF, UNITED STATES CENTRAL COMMAND AND COMMANDER IN 
                 CHIEF, UNITED STATES EUROPEAN COMMAND

                               WITNESSES

GENERAL ANTHONY C. ZINNI, COMMANDER IN CHIEF, UNITED STATES CENTRAL 
    COMMAND, U.S. MARINE CORPS
GENERAL WESLEY K. CLARK, COMMANDER IN CHIEF, UNITED STATES EUROPEAN 
    COMMAND, U.S. ARMY

                              Introduction

    Mr. Young. The Committee will come to order. This afternoon 
we are very happy to welcome General Wesley Clark, Commander in 
Chief of the United States European Command, and General 
Anthony Zinni, Commander in Chief of the United States Central 
Command.
    We thought we would take the opportunity to have both of 
you appear before the Committee together inasmuch as you have 
done this before. Your respective commands are continuous, your 
geographical responsibilities are immense and growing, and 
between the two of you, you seem to own most of the pressing 
operational problems faced by the U.S. forces today.
    General Clark, you are leading our forces deployed in the 
Balkans as they help to create a self-sustaining peace in that 
region. We are proud of the achievements of the troops under 
your command to date, and a number of us visited with you and 
your troops just this past week, and we cannot tell you how 
impressed we were with the conduct and accomplishments of those 
soldiers. But we do have questions and concerns about the 
purpose of what seems to be an indefinite presence in Bosnia. 
You are also dealing with the not inconsequential matter of 
NATO expansion and the committee is interested in what this 
development means to you as the regional CINC.
    General Zinni, you need to worry about backing up American 
diplomacy in the Persian Gulf and the long-term containment of 
a brutal and oppressive Iraqi regime. As we sit here today, you 
are leading a significant force in the Gulf that may have to 
act if Saddam Hussein does not comply with the latest U.N. 
agreement concerning their weapons of mass destruction program. 
We are also proud of what your troops have accomplished today 
and as we visited with you and some of your troops in October 
in the region, and again very, very proud of the way they 
conduct themselves and the accomplishments and what you have 
been able to do there.
    In addition to issues dealing with your respective 
commands, some of the key questions the Committee would like to 
address are:
    Are the resources at your disposal for each of your 
contingencies sufficient?
    What would be the impact to your commands of not having a 
timely disposition of the fiscal year 1998 emergency 
supplemental or even having to offset it as some have 
suggested?
    And what are the effects on the readiness and morale of 
forces under your command as you face near constant deployments 
in your operating areas?
    The hearing is closed this afternoon and so we are looking 
forward to a very candid discussion today with you on these 
issues. After you briefly summarize your statements, which will 
be placed in their entirety in the record, we will then proceed 
to questioning.
    Now I would like to yield to Mr. Murtha.

                         Remarks of Mr. Murtha

    Mr. Murtha. Let met add my welcome to these two 
distinguished gentleman and say to General Zinni, the Chief of 
the Egyptian Armed Forces was very complimentary about your 
work.
    Of course, General Clark, the Secretary of Defense has 
commented a number of times. I understand you are pushing to 
try to get an expansion into Macedonia, more forces in 
Macedonia, and I like that idea. I was the one that recommended 
we put troops there in the first place, because I felt we 
needed a buffer there, we needed to show them we are serious 
about what is going on over there. So I look forward to hearing 
your testimony.
    One other thing I will add. I remember during the Beirut 
crisis what a difficult thing it was to coordinate that little 
area there because it is so close to each other's area of 
responsibility. So I know how important it is. I think the 
Chairman is absolutely right in having both of you in, because 
there is close responsibility and such a need for coordination 
between the two commands.
    Mr. Young. Okay, General Clark, we will start with you, 
sir. As I said, your entire statement will be placed in the 
record, and then you should get geared up for some good 
questions.

                   Summary Statement of General Clark

    General Clark. Thank you, Mr. Chairman, I would like to 
thank you and the members of this Committee for your great 
support of all of our service members and their families in our 
command in Europe. I would also like to thank you for the 
opportunity to testify before you today and describe the 
contributions of the command to our affairs and interests in 
Europe, Africa and the Middle East.
    It is a time of historic opportunity and challenge in 
Europe. The threat of massive attack across the inter-German 
border has been replaced by a plethora of other problems, 
including the proliferation of weapons of mass destruction, 
terrorism, organized crime, drug trafficking, environmental 
degradation, refugee migration, and, most importantly, the 
instability in the region fueled by ethnic and regional 
conflict.


                        EUROPEAN COMMAND THREATS


    We believe we have to deal with these concerns and we have 
to deal with them early, before they become more serious 
problems. So the strategy that the U.S. European Command is 
pursuing today is a strategy focused on shaping the 
international environment to address these more ambiguous 
challenges and to prevent conflicts before they arise.
    We also recognize we have to be ready to respond quickly 
with appropriate force to deal with the conflict and to defeat 
an aggressor. Maintaining our readiness ensures we canrespond 
with sufficient trained and ready forces for any future operation, and 
our superb forces are engaged today in Bosnia, Africa, and in support 
of current operations in CENTCOM.

                            BOSNIA OPERATION

    In Bosnia-Herzegovina, we believe our efforts are 
continuing to show the progressive markers of success, thanks 
to the great work of our soldiers and the support of our 
allies. I visit our troops in Bosnia and assess the situation 
on the ground personally several times each month. I was there 
last Thursday. Troop morale was good. The situation in Brcko 
was well in hand, and I think we are making progress.
    The progress, of course, is necessary, but the progress 
also requires continued military presence. Our forces there are 
deterring renewed conflict, they are helping maintain a secure 
environment, and they are supporting the implementation of the 
accords, to the point that we can achieve a self-sustaining 
normalization.
    Planning is well under way for our part of the follow-on 
force. Of course, funding for that force is a key part of what 
we will be discussing today.

                             NATO EXPANSION

    NATO remains the foundation for our engagement in Europe. 
Poland, Hungary and the Czech Republic are eagerly awaiting 
parliamentary ratification of their succession into this great 
organization. I visited each country in the last month, met 
with their leadership, many of their top units. They have 
waited many, many years for this historic moment and this great 
opportunity to join the West. Their troops are surprisingly 
effective. Their leaders are committed. They want to dedicate 
the resources, they want to join us, and I believe they will 
make significant and meaningful contributions to the alliance.

                            PERSONNEL ISSUES

    For the men and women in our command, the missions 
continue, operational tempo is high, and I think all the people 
in the United States should be very proud of the work of our 
service members and their families over there. They are keeping 
their readiness sharp in the face of a lot of challenges.
    Force protection is our highest priority, Mr. Chairman, 
because our most precious resource is the soldiers, sailors, 
airmen, marines, civilian employees and their families, but we 
also have to be concerned about quality of life, because that 
directly impacts our readiness, our retention. It impacts 
family life, morale, and our mission accomplishment.
    Our biggest quality-of-life problem is the deplorable 
conditions of our barracks and housing in Europe. We have got 
some 11,000 family quarters that were built in the early 1950s 
that have never been renovated. Everything from electrical 
problems to sewage leaks and other things are coming out as a 
consequence. This is a problem associated with the shortage of 
construction and major repair funds. That is compounded by an 
even more critical shortage of real property maintenance funds.
    We really need the supplemental funding and we need an 
offset supplemental. If we don't have this, we will be forced 
to divert money from already inadequate operations and 
maintenance accounts to cover the shortfall.

                                SUMMARY

    Today, U.S. European Command is smaller, leaner and 
probably more heavily tasked than at any time in our history. I 
think our men and women are up to the challenge. They are doing 
a great job, but we do need resources. We need the current 
force structure and we need sufficient operations 
infrastructure and quality-of-life funding to meet our urgent 
needs. With the continued help and leadership of this 
committee, we will get the job done over there.
    Again, thank you very much for the opportunity to be here, 
and I look forward to answering your questions.
    [The statement of General Clark follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Young. General Clark, thank you very much. Let me turn 
now to General Zinni. Then we will get to the questions.

                   Summary Statement of General Zinni

    General Zinni. Thank you, Mr. Chairman. Just a brief 
opening statement. First I thought I would give a brief wrap-up 
of the situation as it stands today. I think everyone knows 
that UNSCOM is inspecting. We have had an intrusive inspection, 
and their normal routine inspections are ongoing. We monitor 
those very closely. So far we have seen cooperation. I think it 
is going to take a test of time to ensure that we do have the 
compliance and cooperation that is desired. Until we are 
assured of that, the current force levels should remain in 
place. ------. I would say that these troops have come to me in 
a fine state of readiness, with high morale. I have no assigned 
forces, so I draw on CINCs like General Clark and the other 
CINCs that are my force providers. I do know they pay a big 
cost to keep these forces out in the Gulf and to keep our 
interests protected.
    I am keenly aware, through my service components, of those 
costs. I am very appreciative of the fact that thesupplemental 
has been voted out of your subcommittees, and I back up General Clark's 
statements that this is critical for us to be able to keep going.
    I would also like to mention very briefly something that 
may have been misunderstood, and that is the support we have 
had from our allies in the Gulf. I think a lot of focus and 
misrepresentation was maybe misleading in giving the impression 
that they were not supportive. ------.
    Thank you, Mr. Chairman.
    [The statement of General Zinni follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Young. General, thank you very much. Excuse me just one 
second.
    I would like to recognize Mr. Livingston, the Chairman of 
the Appropriations Committee.

                      SUPPLEMENTAL BUDGET REQUEST

    Mr. Livingston. Thank you, Mr. Chairman. I will be brief.
    Gentleman, I apologize for just bouncing in and out. You 
all are in charge of some very, very significant problems 
facing this Country, and as Chairman of the Appropriations 
Committee, I just want to tell you we want to work with you to 
try to get through these immediate problems that you are 
facing, at least give you the money and the wherewithal that 
you need to do it. We are going to be, with the help of the 
Chairman here, launching the path for our supplemental, and it 
is my great hope that we will get it through the Congress with 
as little controversy and fanfare as possible. But we want you 
and the troops that you lead and represent to have the 
wherewithal that they need to do the job that we are so proud 
of.
    Thank you. Thank you, Mr. Chairman.
    Mr. Young. General Zinni, as you mentioned, this 
subcommittee has reported out a supplemental without offsets. 
That is the first time in a number of years we have done that. 
We hope we are going to be able to maintain this position 
through the consideration by the full committee and by the 
House and by the full Congress, because we all recognize the 
serious problems that we are causing by offsetting these 
extensive contingencies from the regular budgets of the 
services.
    So we keep our fingers crossed that we can maintain the 
position that the subcommittee took on last week.
    Now, because we have such important visitors, I know all 
the members have a lot of questions, I don't want to run out of 
time before we get to Mr. Cunningham again like we have done 
the past several times, so we are going to adhere strictly to 
the 5-minute rule and get a chance to go around the table a 
couple of times if we do that.
    I would like to yield now, since I have had a chance to 
visit with both of you in your areas of responsibility and more 
recently in personal conversations, I will yield my time to Mr. 
Lewis for 5 minutes.

                      SITUATION IN THE GULF REGION

    Mr. Lewis. Thank you very much, Mr. Chairman. General Clark 
and General Zinni, thank you very much for making the effort to 
get here. We know the difficulty that you are facing these 
days, and we appreciate this effort.
    General Zinni, you have been quoted as saying that it is 
only a matter of time until Saddam Hussein breaks the latest 
agreement with the United Nations. Can you elaborate more on 
that view for the Committee?
    General Zinni. Sir, I think if you look back from the end 
of the Gulf War until now, ------. I think as long as sanctions 
and the pressure are on, he is not going to be happy with that, 
and we will see a return to that pattern shortly.

                   U.S. FORCES READINESS IN THE GULF

    Mr. Lewis. General, in view of that, how long can you hold 
the present force in the Gulf together at readiness rates 
significant to conduct air strikes should they become 
necessary?
    General Zinni. ------. We have proven that we can get 
there. I was extremely proud about how the flow of forces went. 
Again, I attribute this to my supporting CINCs that have 
provided the forces and CINCs like Transportation Command. ----
--.

                         IRAQI THREAT ASSESMENT

    Mr. Lewis. General, update the Committee as to the status 
of the threat posed by the Iraqi regime, and in your answer 
would you include the following: the Iraqi weapons of mass 
destruction program; the state of conventional force 
modernization; and recent activities in support of 
international terrorism.
    General Zinni. Sir, I will take the conventional forces 
first. I think Saddam Hussein would have modernized his forces 
by now had he been allowed to do so without the sanctions. He 
is running some equipment that is getting a little old. ------.
    Mr. Lewis. Well, if the UNSCOM mission was to fail and we 
did nothing, how long would it take the Iraqis to fully 
reconstitute the WMD development program?
    General Zinni. Sir, I would say if they were left with no 
monitoring and no inspection. ------.
    Mr. Lewis. Okay. I yield back, Mr. Chairman.
    Mr. Young. Thank you, Mr. Lewis. Mr. Murtha.

                          DEPLOYMENT OF FORCES

    Mr. Murtha. Do we have any problem with coordination of 
deployment? I know when we had a problem in Zaire, the troops 
had to land in the Congo because of some problems of 
coordination. Are there any problems like that of coordination, 
we deploy our troops? It is a very small deployment, but it 
always worried me that there was a problem of coordination 
there. Do we have any kind of problem like that now?
    General Clark. We have no problem that I know of, 
Congressman, but before any deployment, we have got to be sure 
that we have the permission of the countries that we have to 
overfly, the countries we have to stage in, and there are 
varying degrees of diplomatic sensitivity with every one of 
these deployments. So every on is a case in itself.
    Mr. Murtha. Wouldn't we get the deployment for the troops 
on the airplanes out and movement out before we landed?
    General Clark. Absolutely.
    Mr. Murtha. Yet in this case, we thought we were going to 
Zaire and we landed in the Congo.
    General Clark. I can't address that issue. Those troops 
were down there before I was the commander, and they didn't 
stay very long. I just don't have the information on that.
    Mr. Murtha. So at any rate, you don't know of any 
coordination problems there actually are now?
    General Clark. No, I don't. In fact, I tell you our 
coordination for our European allies for work in Africa is 
better now than it ever has been.

                                 KOSOVO

    Mr. Murtha. Let me mention two other things, not questions. 
One, I know you and I differ on these war criminals, but I have 
a great concern about being aggressive with the war criminals. 
I think it has worked out very well the way it is working now.
    But my caution--and the Chairman and myself and Mr. 
Livingston and Mr. Obey met with the national security team, 
and we told them the same thing. Our concern is what happened 
in Somalia and the danger of being aggressive and reaction and 
the vulnerability of our troops in a place like Brcko. So I 
just always feel it is necessary to caution you, as I did 
General Joulwan before you took over, about my concern about 
it.
    The other was Kosovo. We have had a long concern about 
Kosovo. For 2 or 3 years we expected that place to flare up, 
and it hasn't until just recently. How serious is the problem 
in Kosovo and what do you see happening there?
    General Clark. I think the problem in Kosovo is very 
serious. I see it getting progressively worse because, over 
time, the opinion among the Albanians has been progressively 
radicalized. Their opposition to Serbian dominance has been 
strengthened. They are building support networks in Western 
Europe. Those Albanians and that support is now returning. They 
have also contacted Iran for support. At the same time, Russian 
diplomacy is now strongly in support of Milosevic. So we are 
heading toward a much more difficult period in Kosovo.

                          BALKAN WAR CRIMINALS

    With respect to the war criminals, Congressman, I hope you 
don't believe everything you read in the press about me on that 
subject. Sometimes my friend Bob Gelbard gets carried away 
about this. We have done nothing there that we haven't 
thoroughly looked at very carefully, worked through all of the 
possible outcomes, measured the risk, made sure we were totally 
capable of handling not only the action but the consequences, 
and we have seen the payoff from the very limited actions we 
have taken. We now have people talking to us and wanting to 
surrender because they know that they are in danger.
    We are casting a big, big shadow over there. There is one 
thing those people in Bosnia understand, and the rest of that 
region of the world; they understand force and they understand 
the United States and they respect us, and they are a little 
bit afraid of us. We sure want to keep them that way.
    Mr. Murtha. There is no question in my mind without the 
deployment of the United States, leadership of the United 
States forces and deployment of our forces, this fighting would 
still be going on. It has been an impressive success up to this 
point. I just am always concerned we will go too far because of 
our enthusiasm in trying to get rid of these war criminals. All 
of us deplore it, but we are just worried that we could have 
some casualties, unnecessarily, if we go too far, too fast.
    General Clark. Yes, sir, I understand.
    Mr. Young. Mr. Skeen.
    Mr. Skeen. I yield my time.
    Mr. Young. Mr. Hefner.

                            SANCTIONS UPDATE

    Mr. Hefner. Thank you, Mr. Chairman. The sanctions. I think 
that is probably what Saddam would like to have, the sanctions 
lifted, and we are fighting a battle on PR for sanctions as far 
as the people go. But it seems what you are telling us is that 
as long as the sanctions stay in place, even prohibiting him 
from modernizing his forces and what have you, even though he 
is probably using the money that he is allowed to sell oil for 
his own agenda, but the people are suffering. Do we need to 
keep the sanctions?
    General Zinni. Sir, if I could answer that in two parts. 
First, if he used the Oil for Food program properly--and there 
is a lot of propaganda value for him contending that the 
bureaucracy set up deliberately is done sothe food won't get to 
the people, when actually he is the cause--if he used that properly, he 
would be able to care for his people.
    In terms of the sanctions, if the sanctions were lifted, --
----.
    Mr. Hefner. Well, one other question. When we were on the 
borderline of doing a strike against Iraq, at the last moment 
they reached an agreement. Were you fairly well satisfied that 
the targets that you had targeted would have been effective? I 
don't know the magnitude of what it would have been, but do you 
feel like it would have been effective in putting some, in down 
home talk, some ``hurt'' on Saddam Hussein if you did a strike?
    General Zinni. Yes, sir. Our mission was twofold. One was 
to diminish his ability to threaten his neighbors. So obviously 
those kinds of forces that we can identify, see, target, that 
would present those kinds of opportunity for him, Republican 
Guards, others, we can obviously target and diminish 
significantly. ------.

                             INFRASTRUCTURE

    Mr. Hefner. One other question about Bosnia. I have been 
real impressed by the job we have been able to do there, and we 
don't see the carnage every night on television about children. 
But is one of the keys to making this an ongoing successful 
operation is investment in infrastructure? We asked that 
question here the other day: when you make investments in 
infrastructure; where people can have jobs. Is that a big part 
of the success?
    General Clark. Yes, sir, it is. It is a very big part of 
the success.
    Mr. Hefner. How is it coming?
    General Clark. It is coming, I would say on a scale of zero 
to 10, it is about a 4. The reason it is not better is twofold. 
First, because there is still a lot of corruption in the 
political systems, particularly in the Federation side, between 
the Bosnians and the Croats. There has been an awful lot of 
funds diverted into private party coffers that could have gone 
to infrastructure funding. Secondly, because some countries 
haven't ponied up their full share of the infrastructure 
funding.
    So we are making headway. One of the key challenges, 
though, that we are going to be facing is to bring refugees 
home. They have to have jobs. To have jobs there has got to be 
the investment in the basic power industry. You have to get 
that restarted. They have to open up lines of communication. 
That means roads and bridges have got to be put in. And it is 
going to take a lot of international civilian effort to do 
that. These aren't things the United States Armed Forces can 
do.
    Mr. Hefner. I thank you, gentleman. Thank you, Mr. 
Chairman.
    Mr. Young. Mr. Nethercutt. Mr. Nethercutt just recently 
returned from the region, General Clark. He had a chance to 
visit with you there at SFOR headquarters.

                       EFFECTIVENESS OF SANCTIONS

    Mr. Nethercutt. Thank you, Mr. Chairman. Welcome, General.
    General Zinni, I have heard you talk about sanctions with 
regard to Iraq, and I know we have seen reports that the oil is 
coming out of that country and perhaps money is coming back in 
surreptitiously. I am wondering to what extent you feel we have 
the ability to tighten sanctions, and, if so, what should we 
do? To what extent is the oil smuggling helping the 
modernization effort of Saddam Hussein?
    General Zinni. ------.

                             IRANIAN POLICY

    Mr. Nethercutt. With regard to Iran and President Khatemi 
reaching out and appearing to be a moderate and seeking some 
measure of peace or relationship with the United States, to 
what extent do you see that as a pretext for their continuing 
modernization efforts? Do you see an inconsistency there that 
you can talk about here?
    General Zinni. I believe there are two leadership factions 
in Iran now. ------.
    Mr. Nethercutt. Are you worried about their military 
capability at this point?
    General Zinni. ------.

                     THE DANGERS OF FUNDAMENTALISM

    Mr. Young. Mr. Cunningham.
    Mr. Cunningham. Thank you, Mr. Chairman. It is good that I 
have got both of you here representing Europe and theIraq-Iran 
area, because my major concern is the fundamentalists movements all 
over the planet. I feel that in many cases, the Mujahedin and Hamas 
from Iran, Iraq, and Afghanistan have moved into Bosnia, and with the 
United States, the continuation of us arming and training the Muslims, 
I feel if we pulled out today there would be conflict, whether it is 
Kosovo or somewhere else; but if we stay, with an increasing movement 
of Izetbegovic and Silajdzic toward Iran, Iraq, and Afghanistan, that 
when we do pull out, and if we keep arming, then we are inviting 
disaster even more so in the future, because then it is going to be the 
fundamentalists that they go after. And we are not talking just Muslim, 
we are talking hard-core, well trained, experienced individuals that 
are infiltrating the whole area in great numbers.
    Do you agree with that?
    General Clark. I would say this, Congressman, that we are 
not going to prevent Islamic arms reaching Bosnia by stopping 
our Train and Equip program. We put our Train and Equip program 
in place. I don't have anything to do with it in my current 
position, by the way, but it was put in place as matter of U.S. 
national policy, because we wanted to drive out Iranian and 
Fundamentalist influence, and at the same time provide a basis 
for a sure answer and confidence among both Bosnian and Bosnian 
and Croat populace living in the Federation that they would no 
longer be subjected to Serb long-range artillery attacks that 
we were defenseless against. That is why Train and Equip was 
put in. I think it is serving that purpose.
    But to further reduce Iranian and Fundamentalist influence, 
we have to take a different tactic. We have got to identify 
those people that are there, we have got to confront them, and 
we have got to get them out. There were actions under way to do 
that. A number of them have left. We haven't broken all of the 
ties with the leadership, clearly. We know Izetbegovic and 
Solidavich continue to go back there, they are receiving a lot 
of money from not only Iran, but countries like Qatar, and they 
are still connected.
    Now, we are not going to see real light at the end of the 
tunnel in Bosnia until we get a new generation of leadership in 
there, and that includes a new generation of leadership there 
among the Muslim group, people that are committed to 
implementing the Dayton agreements and implementing a multi-
ethnic Bosnia.
    Mr. Cunningham. I guess my real question is, do you think 
it is a danger for us to continue dumping our arms in there and 
training, that when we do pull out, then this is going to be 
like a wave coming back at the surge?
    General Clark. No, sir, I do not think it is a danger. I 
think it would be a mistake for us to stop the Train and Equip 
program. I think we want to follow through with that and use 
that as its leverage to build a democratic force and a western-
oriented force inside the Federation and take other measures to 
diminish the Fundamentalist influence.

                       INTELLIGENCE CAPABILITIES

    Mr. Cunningham. Okay. Do you have a pretty good, in both 
Iraq and Bosnia, pretty good coordination with our intelligence 
services? We had CIA brief us. Do you work pretty candidly with 
those agents and do they have enough forces in the country?
    General Zinni. Yes, sir. Obviously we have a representative 
in our headquarters. All the intelligence agencies are tied in 
with us and tied together. We feel we have a good picture. I 
would like to see more HUMINT Intelligence on the ground in 
both places. I think that is where we are woefully inadequate 
in both countries, Iran and Iraq.
    Mr. Cunningham. Do you have any compartmentalization 
problems, where you are getting the different conflicts, we had 
problems, we couldn't find out where it was, where it was 
coming from, the information? Are you getting pretty well-
versed information?
    General Zinni. Yes, sir. As a matter of fact, I have been 
to CIA headquarters several times and received briefings I felt 
were more than adequate. Additionally, some degree of 
compartmentalization of intelligence is required to protect 
human and technical sources.
    General Clark. I think we are doing very well in Bosnia. --
----. General Shinseki gets it on the ground in Bosnia, I get 
it in my headquarters in Belgium, and I think it is a very good 
connection.
    Mr. Cunningham. I don't know, do I have a minute, or is 
that it? That is it.
    Mr. Young. You are going to get a second chance, though. 
Mr. Visclosky.

                 U.S. BASING RIGHTS IN THE MIDDLE EAST

    Mr. Visclosky. Thank you, Mr. Chairman. General Zinni, as 
far as the basing in Saudi Arabia and Turkey, apparently as far 
as a strike against Iraq, we would not be allowed to base 
planes and personnel in those countries. Is there any progress 
being made as far as the basing issue?
    General Zinni. ------.

                                 TURKEY

    Mr. Visclosky. What about Turkey?
    General Clark. With respect to Turkey, in the EUCOM AOR, we 
have an operation flying from there, operation Northern Watch. 
The Turks accommodated an expansion of that program so we could 
keep roughly 12 hours a day in the skies to deny the no-fly 
zone north of the 36th parallel. They gave strong indications 
they didn't want to support strikes down there; on the other 
hand, they have been cooperative in many other areas. We have 
multiple interconnections and dialogues going on with Turkey. 
We didn't need to launch strikes from Turkey to support General 
Zinni's program. Had we done so and had we put the pressure on, 
we might well have gotten the answer we wanted.
    Mr. Visclosky. For both gentlemen, is that a change? Is 
there a subtle change going on? Is that a deterioration of what 
their position may have been, even if it is 1 out of 8 or 9 
maybe in the end we could have, is that a deterioration, or has 
that been constant?
    General Zinni. ------.
    General Clark. If I could answer with respect to Turkey,I 
think we should be very concerned about our relationship with Turkey. I 
think Turkey is a country that is on the brink of descending into chaos 
right now. They are trying to cope with the increasing growth of 
fundamentalism. They have been excluded from the European Union because 
of their non-democratic constitution, and frankly because of the 
prejudices of a number of European countries against their workers. 
They are feeling isolated and beset, including under attack from us 
because of their human rights policies, and they are having a very hard 
time coping right now. There are those who are more familiar than I 
with the situation in Iran in the early 1970s, who see overtones of the 
same destabilizing constellation of forces that converged in Iraq. They 
see them moving toward Turkey now.

                     COMPOSITION OF FORCE STRUCTURE

    Mr. Visclosky. Would either of you believe that we should 
be looking at restructuring some of our forces because of, at 
least in the case of Turkey now, these developments? Is there 
something we should be looking ahead to as far as a change in 
the force structure?
    General Clark. With respect to Turkey, I don't see it as a 
force structure issue, I see it as an issue for American 
diplomacy and our ability to persuade our NATO allies that the 
European Union has a vital interest in Turkey as well, and has 
to avoid the tendency to draw Europe's southeastern boundary 
along the perimeter of the Greek islands off Turkey's Aegean 
coast. I think it is a matter for diplomacy at this stage, and 
there is only a limited amount we can do, even with military 
dialogue, and nothing with force structure.
    General Zinni. Sir, I feel in our region we have kept the 
force posture very flexible. ------. We have Operation Southern 
Watch running out of several countries there, but we view that 
only in terms of as long as sanctions are on and that 
particular sanction is maintained. We have tried not to get 
many fixed installations and we have tried to spread the wealth 
and our presence out there. I think I would recommend we 
continue that kind of flexibility. ------.

                     LENGTH OF CURRENT DEPLOYMENTS

    Mr. Young. Generals, as we proceed with this supplemental, 
we are going to get hit with a lot of questions from a lot of 
Members who think we should not be facing down Saddam, who 
think we should not be in Bosnia, and they are concerned about 
what we might be thinking about doing in Kosovo.
    My general question is going to be what do you see in the 
future. How long are we going to be deployed in your respective 
regions? The question becomes fairly important to me after our 
visit last week, General Clark. We had a very interesting 
session in Brcko. After having seen all of the stability in the 
country because of your forces there, but in Brcko the Dayton 
agreement had not been implemented, and now there has been an 
announcement it will be put off until 1999. Our delegation had 
an interesting experience. We had a version of a town meeting 
in Brcko with a group of folks that represented different 
organization, and they were Muslims and Serbs.
    It started off in a very friendly way and people were 
smiling and we were exchanging questions and answers. But 10 or 
15 minutes into the session, our guests were standing and 
shaking their fists at each other and shouting. I am not sure 
what they were saying, but it was loud.
    In view of this tension that existed there, are we going to 
have difficulty ever establishing a situation where they are 
going to get along without the presence of our troops there?
    The same thing, General Zinni, in your region. We watched 
Saddam cheating and then retreating, and then cheating and then 
retreating. We deployed and then we withdraw.
    Both of you, just tell us what you see in the future as to 
our presence, because we are going to get bombarded with those 
kinds of questions when this supplemental gets on the floor.

                                 BOSNIA

    General Clark. I can't comment on the specifics of your 
town hall meeting there, Mr. Chairman, because I don't know 
exactly who was there. I was in Brcko on Thursday with the 
Secretary General and we met the three mayors, and it was a 
much different atmosphere. But a lot of the inter-ethnic strife 
in Bosnia at least is contrived. It is contrived by political 
forces who profit from ethnic division and tension, and who 
exploit the people there to serve their own personal interests 
and political gain and financial aggrandizement. We know that.
    We have seen new leadership come to the fore in the 
Republic of Sprska. As we see new leadership in the Federation, 
I think we are going to see a different attitude on the part of 
the people there. Many of the people in Brcko are refugees from 
Sarajevo. They have been invited to return now to Sarajevo. 
President Izetbegovic has become increasingly more 
accommodating on the refugee return issue, and I think that is 
going to diffuse tensions also.
    On the other hand, we shouldn't underestimate the 
importance of Brcko symbolically. This was the last peace not 
resolved at Dayton. It was the tie breaker that got us the 
Dayton agreement. The agreement had collapsed until Milosevic 
agreed to arbitration. We were never able to agree on what 
Brcko consisted of. We couldn't draw a map on it. It is going 
to be hotly contested. We couldn't have a decision made with 
the new government because that would have undercut them 
entirely in their efforts.
    We shall be looking at what to do in the November-December 
time frame. But again and again when I go to Bosnia, I am 
impressed by the fact when you talk to people, they just want 
to get on with their lives. These people have had enough of 
conflict, they have had enough of division, and let alone they 
will go back to their homes and reestablish their relationships 
and businesses and other things, and we will have peace in 
there.
    So I don't see this as an endless commitment. I see it as 
rather something we have got to work the process here, we have 
got to get the balance of forces right, and then we have got to 
let the good aspects of human nature take over, which they will 
in that region.
    General Zinni. Sir, two-thirds of the world's oil is in my 
part of the world, plus a large percentage of the natural gas 
and other energy sources. ------ and General Clark also has the 
other partof the Caspian Basin, the Caucasus, with equal 
amounts of energy.
    Access to this region is going to be critical to us in the 
future, to the markets and to the energy sources. The transit 
through this region, the Suez Canal, Strait of Hormuz, the Bab 
al-Mandab, these are narrow straits that we require freedom of 
navigation through, and overflight of. Instability in this 
region, as was mentioned by Mr. Cunningham, can spread 
throughout the world. It isn't confined to any kind of 
religious or ethnic problems that blow up. It seems to scatter 
to the winds, be it terrorism, fundamentalism or whatever. ----
--. Just the general instability in this region that can spread 
is a concern. The number of border, ethnic, and religious 
disputes, along with fights over water which will be the fuel 
of war in the future, more so than oil in this region, do not 
look good. So I see the important of this region for us to be 
great for a long time to come.
    Mr. Young. General Zinni, I think maybe I wasn't specific 
enough in my question as it related to you. I was actually 
talking about the increased deployments that we have seen just 
in the recent weeks. I certainly agree with what you said about 
the importance of our presence in that region, but I wonder 
about the increased force.
    General Zinni. ------.
    Mr. Young. Mr. Murtha.
    Mr. Murtha. No further questions.
    Mr. Young. Mr. Lewis.

                              IRAN UPDATE

    Mr. Lewis. Thank you, Mr. Chairman. General Clark, not a 
question, but your general description of the region and 
comments regarding Turkey especially have piqued my interest 
and I think the Committee should focus in a special way on 
those problems.
    But, General Zinni, you too pointing to just how vital this 
region is to us, economically and otherwise, causes me to want 
to extend some of the questions of Mr. Nethercutt relative to 
Iran. Last May, a relatively moderate government theoretically 
was elected, and yet you say the hardliners are still in 
control.
    What is your assessment of the intentions of the new regime 
and do you believe that we have any genuine--do we have a 
change to improve relations with Iranians?
    General Zinni. ------.
    Mr. Lewis. Knowing where our friends and opportunities are 
has always been difficult in the region, the need for Intel, 
especially HUMINT, is good comments as well.
    Would you update the Committee on the current status of 
Iran's efforts to first acquire weapons of mass destruction and 
offensive missile capability and further support of terrorist 
activities?
    General Zinni. ------.
    Mr. Lewis. Finally, General Zinni, given the slight changes 
in the environment in Iran, has there been a change in the 
military-to-military relationships with that country?
    General Zinni. ------.
    Mr. Lewis. Thank you.
    Mr. Young. Mr. Hefner.

                            BOSNIA ECONOMICS

    Mr. Hefner. Thank you, Mr. Chairman. I just have a brief 
comment or question. As I am listening to your explanations, it 
would seem to me that the overriding key--you talked about the 
town hall meetings where the people are shouting at each other, 
if they have jobs and their kids are going to school and there 
is some peaceful existence--is how much of a part of this whole 
conflict is economics?
    General Clark. It wasn't the major part initially, but it 
is going to be probably the major part in restoring harmony in 
the country. If we had the job opportunities right now, we 
could bring the refugees home, we being the international 
community, not SFOR but the international community could bring 
these refugees home much more quickly. As it is when you fly 
over communities there, you see that 5 out of 6 factories are 
shut down. In Brcko, for example, really the only industry 
going in Brcko is the alcoholic beverage industry and the bars 
at night, because the river ports are not open, there is no 
commerce allowed by President Tudjman into Croatia if you are a 
Serb.
    This has been a real problem for them. The electric power 
industry doesn't work, or the water works, so they don't get 
water flowing through the tap a lot of the time. They need a 
lot of investment. They need jobs, and this is what is going to 
really bring this country back.
    Mr. Hefner. Thank you, Mr. Chairman.
    Mr. Young. Mr. Skeen.

                          LANDMINES IN BOSNIA

    Mr. Skeen. Thank you, Mr. Chairman. General Zinni and 
General Clark, this may seem like a very small problem, but how 
heavy is the land mine situation in Bosnia and Kosovo and 
Serbia?
    General Clark. There are a lot of land mines in Bosnia. I 
can't address the situation in Serbia. There are some there, no 
doubt, along the border with Macedonia, but they are not widely 
scattered yet because there hasn't been open fighting. In 
Bosnia there are several million land mines which are still 
there.
    We have a demining process that is under way. We require 
each of the former warring factions to demine a particular set 
of acreage each month. If they don't, they don't get to train 
their armed forces. We are also providing demining training for 
them. There is also a U.N. effort to do this. But it is going 
to take many years to get the mines out.
    Really the farmers have discovered the effective way to get 
the mines out. They send a herd of goats or sheep across the 
countryside, and after that is repeated a few times, that is 
the way they know it is safe to walk in the fields.
    Mr. Skeen. I read it feels like that is an insult to the 
herd.
    General Clark. I can understand that, sir.
    Mr. Skeen. But it is an ongoing problem and I know it has 
been a big problem. The reason I ask is because we have a 
development going on in my particular district to locate mines, 
both plastic and metal and so forth.
    General Clark. I think it is very important we do that. It 
needs to be funded and encouraged and we need to get those 
developments in place over there.
    Mr. Skeen. Sheep, if we could export ours over there, we 
would sure like to have the address.
    General Clark. Well, there are not enough sheep to do the 
job. It is not reliable. But I comment on that because when I 
was in Brcko Thursday, I looked out from the Humvee as we were 
driving by and we watched a herd of sheep being driven across 
this minefield where we will not walk. And so that is the way 
it is being done on the ground, hands on, by the local people.
    Mr. Skeen. Thank you very much for that answer to that 
great problem.
    Mr. Young. Mr. Nethercutt.

                             NATO EXPANSION

    Mr. Nethercutt. Thank you, Mr. Chairman.
    General Clark, the expansion of NATO is something that is 
under consideration in the Senate and we may get some of that 
over here with regard to the funding requirements.
    The administration has indicated that the total cost of 
expansion for NATO members will be $1.5 billion. There is some 
suggestion that perhaps that may be low. What is your sense of 
that? How much do you expect the expansion of NATO to cost? Is 
the $1.5 billion a good figure or what are you able to say at 
this point?
    General Clark. I think, first of all, I have to tell you my 
headquarters, my NATO headquarters did this study, so I stand 
by the $1.5 billion figure as a preliminary estimate.
    I have asked for an additional program to be added that 
would add to the cost of expansion. I would like to be able to 
affirm their interoperability readiness. That means a computer-
assisted exercise simulation program similar to what we use for 
the United States Armed Forces that we could put in place for 
these Polish, Hungarian, and Czech forces to come in. That is a 
marginal increment to the bill. But by and large, it is going 
to be in the $1.5 billion range.
    That is the common funding that all the existing NATO 
members and the new members will share. Of course, they have 
several billion dollars of additional expenses of their own. We 
have gone through the NATO force goals process with them. I 
visited their Presidents and their Defense Ministers. They have 
assured me they are going to pay their billings, they are going 
to scope the resourcing up so they can be effective 
contributors to security so there will be costs, but I think 
for the common infrastructure funding, the $1.5 billion cost is 
a good cost.
    I will tell you also that we are in a dispute with our 
European allies who believe that the $1.5 billion should be 
absorbed by the ongoing infrastructure budget rather than be an 
incremental to the existing budget. I don't know how that is 
going to come out. It could be we don't pay anything extra for 
these countries. That is certainly the way the French would 
like it.
    Mr. Nethercutt. General Zinni, on a more personal issue for 
me, we have a constituent by the name of Don Hutchings who was 
kidnapped in Kashmir in 1995. For the record, I don't expect 
you to know this at this point, wondering if you have heard 
anything. A group called Al Faran captured him, he is an 
American citizen, and we are worried that we don't know where 
he is. I don't know if you know anything more. If you do, sir, 
for the record I would appreciate you submitting it, or if you 
have something now, that would be great.
    General Zinni. I am aware of the case, sir. I have no new 
information, but I will check with the Pakistanis to see if 
they have any insights.
    Mr. Nethercutt. Thank you so much. Thank you, Mr. Chairman.
    Mr. Young. Mr. Visclosky.

                                DEMINING

    Mr. Visclosky. Thank you, Mr. Chairman.
    General Clark, just to get back to mining for one second, I 
had asked the Secretary of Defense last week about whether 
people are actively still laying mines in Bosnia. He indicated 
he did not believe that that was the case, he had no 
information. You are closer to this, and I am not looking to 
try to trap him, but you are closer to the situation. Do you 
have a sense that that may be happening?
    General Clark. We don't see that going on. I can't swear 
that nobody has ever laid one, but in general it is not going 
on.

                         U.S. BASING IN EUROPE

    Mr. Visclosky. Okay. General Clark, on the European basing, 
with the drawdown and the situation you face, any sense as to 
whether or not the Europeans want your footprint to grow larger 
again or smaller than it is today? Do you have any basing 
situations that need to be addressed one way or the other?
    General Clark. Well, we are adjusting some of our basing. 
For example, we are going to try to improve our in-transit 
capabilities to support deployments through the theater, so we 
are looking to get to move out of, for example, Rhein Main Air 
Base and get an expansion of one of our other bases there that 
can handle a better load 24 hours a day. But in general, the 
Poles, Hungarians and Czechs, of course, would be very happy if 
we based forward in their countries.
    We are under considerable pressure to keep open the 
facility in Hungary that we have right now. When I was in 
Poland they were hinting around about how much they would like 
to have a NATO headquarters in Poland, and that means a U.S. 
presence in Poland. We don't have any intention of doing that. 
I think we are solid where we are right now.
    What we need to do is concentrate on our infrastructure 
money as best we can on improving the quality of life of our 
single service members and their families in this region. It 
would take an extra $275 million per year between now and 2010 
to meet the standards that the Department of Defense has given 
us for our family housing in this theater. No money was 
invested for 6 years at all by any of the services in Europe in 
family housing. This was because we thought the payment in kind 
program, which was going to give the German reimbursement as we 
turned over facilities, was going to cover it. We thought we 
could invest all of our money into the infrastructure 
installations we were going to keep back in the United States 
and we simply didn't step up and take care of our people in 
Europe. So we are woefully underfunded historically for 
infrastructure in family quarters and troop billets in the 
EUCOM AOR.
    Mr. Visclosky. Is the $275 million you mentioned over and 
above any budget allocation you currently have?
    General Clark. It is.
    Mr. Visclosky. That would be through the year 2010, to get 
current in that year?
    General Clark. That is right.
    Mr. Visclosky. I appreciate your comments. Thank you, Mr. 
Chairman.
    Mr. Young. General, are we talking about the need for new 
construction or real property maintenance on existing housing, 
or both?
    General Clark. There are enough SETS; it is the question of 
how it could be most economically done. In general the way it 
is preferred to be done, is as a whole neighborhood renewal 
program, where you take the buildings down. Most of buildings 
over there are stairwell-type living, so you are living three 
or four floors high, two families on a stairwell, and you have 
to take the whole building down. You have to start with the 
plumbing and electrical wiring which has not been fixed. You 
probably add a little bit of space on the outside so they have 
got a second or half-bath addition to the apartments, and this 
is between $100,000 and $200,000 per dwelling on average. 
Construction costs over there run 40 percent higher than they 
do in the United States, as you know. In general, we would be 
talking about the existing buildings and then really working 
them over.
    Mr. Young. Mr. Cunningham.

            CHINESE INVOLVEMENT WITH IRAN/IRAQ WMD PROGRAMS

    Mr. Cunningham. Thank you, Mr. Chairman.
    Generals, there is a straight dichotomy in Iran and Iraq, 
they are bitter enemies, but yet they help each other from time 
to time, especially with the Fundamentalist groups.
    We had reports of different countries, i.e., China, of 
shipping in chemical and biological weapons and nuclear 
materials. We are talking about sanctions out, but coming 
across the border, is there much still coming in to boost up 
their capability?
    General Zinni. ------.
    Mr. Cunningham. The reason I ask, it was reported that 
COSCO, Chinese shipping, was stopped with chemical and 
biological weapons and nuclear components heading for Iran, 
which much of it would end up in Iraq. I didn't know if 
intelligence helped you with that at all.
    You are both talking about the economics, but if you look 
at Northern Ireland, you look at Russia, you look at the Middle 
East, Bosnia, all of those, I think if the economy was good 
there like it was in the United States, we wouldn't have 
anywhere near the problem. The problem we have is there is not 
enough money in all the world to help one of those, let alone 
all.
    We go in investing, I grant you can break out your 
checkbook and pay for it if you want, but we deal in $16 
billion, looking at an extension of Somalia aid and Bosnia 
through the current time, which you are well aware of comes out 
of O&M, and the additional forecast costs $35 billion, and you 
have OPTEMPO that is high, you have 1970s equipment. These are 
all nice things we do to pay for these, but how do we plan on 
paying for these? Do you have any ideas, without cutting more 
military?
    I am just trying to give you an idea of what we have to 
look at every day, because the President could have just raised 
his budget authority on his budget and we would not have an 
emergency supplemental. In my opinion, he didn't want to 
identify politically the domestic cuts it would take to change 
that budget. He wants Congress to do it or break the budget. It 
is going to be difficult to pay for all this, though.

                        EUROPEAN ECONOMIC STATUS

    General Clark. Congressman, I think in some respect you are 
into a ``pay me now'' or ``pay me later'' situation here. The 
things we are doing over there are cost effective in the long 
term, I believe, in terms of preventing conflict and in terms 
of extending American influence.
    If we look at the situation in Europe today, for example, 
where we have got 50 percent of our direct U.S. investment and 
30 percent of our exports and 3 million U.S. jobs, stability 
there is very, very important to us. A twitch, a problem in 
Europe, compounds itself many times over in terms of its impact 
at home on our GDP, on our welfare. So I think that the several 
billion dollars that we are putting forth to support the 
mission on Bosnia could be justified on economic grounds alone.
    I would say though with respect to the jobs problem there, 
of course, it is clear that the United States Government is not 
going to finance the recovery of those economies. Those people 
have to recover themselves. What we need to do is give them the 
opportunity to do so. I am convinced they will.
    Mr. Cunningham. I agree. I worked on a farm once, and I was 
going to make a Persian cat and a Siamese cat friends. I had 
them on each side of me. I brought them together and they 
started fighting, and I brought them closer, and they got 
tense; I got them that far apart, and I didn't have a shirt on, 
I ended up in a bloody mess.
    I don't think in my lifetime we are going to see the Middle 
East or in Bosnia a real peace. I think we have got to keep 
working that way, just like we are in Russia. But for us to 
continue making investments, with the old equipment we have and 
the retention rate, and just looking at the military side of 
it, and then to stay in a balanced budget--the reason our 
economy is doing well in my opinion now economically, to bust 
that and to make those kinds of investments, you say it may be 
``pay me later'' or ``pay me now,'' but I see it as a disaster 
all the way if we stay there a long time.
    And I do disagree on the issue of continuing arming the 
Muslims. There we are adding claws to one side where the other 
has had its claws pulled, and when we pull out, the claws are 
going to come out and we are going to end up back in there.

                           GULF BURDENSHARING

    General Zinni. Sir, I would just say the reliance on Middle 
East oil is growing. This country's reliance is growing. In a 
few years it could be up as high as 25 percent. More 
importantly to us, and it affects the global economy, countries 
like Japan and areas like Western Europe, it is growing 
significantly higher. If the access to that energy is lost or 
controlled by a hegemony in an area that is completely chaotic 
or instability reigns, it would be disastrous for the world's 
economy and ours too. It is a case of pay me now or pay me 
later.
    I would say one thing at this point. There is burdensharing 
out there. ------.
    Mr. Cunningham. Wasn't it just in the hundreds of thousands 
of dollars in the case of Saudi Arabia?
    General Zinni. Hundreds of millions. Contributory 
negligence.
    Mr. Cunningham. We are paying billions. There is a little 
delta there. ------.
    Mr. Young. Generals, we appreciate your being here and we 
appreciate all of the responses to our questions. I wonder if 
either or both of you have anything you would like to say that 
we forgot to ask about?
    General Clark. Well, I would like to thank the Committee 
for the very astute questions. I do feel that in Europe, we are 
at a very important juncture, and it is a question of whether 
the United States is going to continue to present American 
leadership in this part of the world and derive the benefits 
that come from that leadership, or whether we are going to halt 
right here and give those who, for whatever reason, view 
themselves as our competitors and adversaries the chance to 
exploit that halt at this time.
    Obviously I certainly am a strong proponent of American 
leadership. I believe that people in the region respect us and 
need us, and I think it is in our own self-interests, economic 
as well, that we continue to develop our influence and enhance 
our ability to affect events in that part of the world.
    So I just underscore my appreciation for the support of the 
Committee on the supplemental and wish you the best as you try 
to get this to the floor, Mr. Chairman. I think it is very 
important to our country.
    General Zinni. Two short points, Mr. Chairman. I arrived in 
the Gulf as Kofi Anan was leaving after having arranged the 
diplomatic agreement with Iraq. Everywhere I went, I was 
congratulated immediately, a hand was outstretched, and they 
felt this was a victory for the United States. Diplomacy was 
impossible without American resolve and American might behind 
it. That wasn't lost on any of the leaders in the region, and 
they clearly saw it as a direct win for us.
    I would also say that following that, if that wasn't good 
enough to make me feel pretty proud, I visited all our 
soldiers, sailors, airmen, marines, coast guardsmen and 
civilians that work out there, and were on the edge ready to go 
into action, and I couldn't have been prouder.
    So for all those young people that make up our Armed 
Forces, I would just say that they are the ones that pulled 
this off without a shot being fired.
    Mr. Young. Well, I hope that both of you will express to 
your troops as you visit with them that the members of this 
Committee admire the job that they do. We understand the 
sacrifice that they have to make to do these jobs, and we 
understand the important answer, as they do, of the mission 
that they are sent to.
    If you extend that message for us, we would appreciate it 
because we are very, very proud of them.
    This Committee stands very strong in support of all of our 
soldiers, sailors, airmen, marines, coast guardsmen, merchant 
marines, everybody involved in the effort.
    We appreciate your being available to visit with the 
Committee this afternoon. I know you have extremely important 
responsibilities in other parts of the world. Thank you again 
for coming. God bless you. The Committee is adjourned until 10 
o'clock tomorrow when we will have the senior enlisted 
personnel of each of the services and we will talk about 
quality of life issues.
    [Clerk's note.--Questions submitted by Mr. Young and the 
answers thereto follow:]

                           Command Operations

    Question. In addition to issues dealing with your respective 
commands, some of the key questions the Committee would like to address 
are: Are the resources at your disposal for each of your contingencies 
sufficient?
    EUCOM Answer. Under current law, combatant commanders such as 
USCINCEUR are not tasked to provide the resources necessary for 
contingency operations. Rather, combatant commanders issue mission 
directives to subordinate units to participate in particular 
operations, and these subordinate units then draw upon their parent 
Services for resources to accomplish these missions.
    Contingency planning within the Joint Operations Planning and 
Execution System involves the combatant commander's headquarters staff 
working closely with the Service component commanders' staffs. This 
cooperation results in plans which recognize the fiscal constraints 
within which each Service must work. Should resource constraints cause 
operational restrictions, this would be manifested as military risk in 
the proposed course of action. I would then either accept that risk, or 
request of the Secretary of Defense the additional resources necessary 
to conduct the operation in a manner which had acceptable risks.
    Fortunately, our components have received assurances from their 
parent Services that everything will be done to provide full after-the-
fact reimbursement for validated contingency obligations, pending 
receipt of the supplemental appropriation. Service commitment to 
contingency requirements has ensured adequate support for all mission 
safety, force protection and quality of life requirements. This support 
takes visual form as well: the best cold weather clothing; up-armored 
vehicles to reduce potential loss of life and limb in mined areas; and 
doctors and medical staffs with the latest deployable technology. You 
and the American people, both in spirit and dollars, show the soldiers 
the ultimate support that you care about them and their families' 
welfare. Good morale makes ``life in the mud'' tolerable, service to 
the Nation enduring and assures mission success. To date, we have the 
ability to fund additional expenses through the third quarter of this 
fiscal year before we must receive additional contingency funding.
    CENTCOM Answer. Yes. Each of the Services has allocated sufficient 
resources to support the various contingencies in Central Command's 
Area of Responsibility.
    Question. What would be the impact to your commands of not having a 
timely disposition of the fiscal year 1998 emergency supplemental or 
even having to offset it as some have suggested?
    EUCOM Answer. The supplemental appropriation is critical to our 
ability to continue funding contingency operations within the area of 
responsibility. Our baseline budgets cannot support both mandatory 
mission readiness training requirements and contingency support. The 
primary impact of not having timely disposition would be the 
combination of decreased levels of quality of like support to the 
deployed force and a deferral of important training and quality of life 
initiatives back at the home station. Both of these impacts would cause 
uncertainty among the force as to the commitment of our government to 
their mission and to the welfare of their family members at home.
    Every USEUCOM service component estimates its total contingency 
operations will cost more than has been distributed to date, leaving a 
significant shortfall should the supplemental appropriation not be 
forthcoming. At our current pace, we will have to start canceling 
training events in the third and fourth quarters to ensure adequate 
cash flow to continue contingency support. Cancellation of training 
events will degrade readiness.
    Finally, any offsets to our current annual funding program at this 
late time in the fiscal year would have an out of proportion effect. 
Most base support functions are fixed costs that will have been 
obligated going into the fourth quarter. The only flexibility left at 
that point in the year is through decrements to the training program. 
Fourth quarter decrements will cause serious readiness problems 
throughout the force.
    CENTCOM Answer. Quick approval of the emergency supplemental 
appropriation for this fiscal year is essential. Without the additional 
funding, the services will shortly begin using funds that had been 
allocated for training in the third and fourth quarters. The end result 
will be a decrease in readiness for forces not just in the U.S., but 
overseas as well.
    Question. What are the effects on the readiness and morale of 
forces under your command as you face near constant deployments in your 
operating areas?
    EUCOM Answer. ------.
    Morale. From an equal opportunity standpoint, the morale within 
Bosnia and the United States Forces in Europe remains positive. Senior 
leaders continue to focus on accomplishment of real world missions that 
are making a difference in the lives of people in a troubled region. 
Focused training, caring for soldiers and the provision of the highest 
standard quality of life are positively impacting each soldier, sailor, 
airman and marine in the USEUCOM AOR. Equally important is support for 
military equal opportunity programs by reinforcing the zero tolerance 
for discrimination and sexual harassment policy. We firmly believe that 
a positive equal opportunity environment directly corresponds to 
positive morale for the men and women assigned to Europe. The morale of 
our troops is continually assessed through aggressive climate 
assessment programs. The process entails both a qualitative and 
quantitative assessment of various factors which positively impact 
morale within the European command. Another insight into morale is 
retention. We believe retention is another indicator of morale. In 
EUCOM, our retention program performs well against service goals. 
USAREUR exceeded re-enlistment objectives for both first-termers and 
mid-careerists for all four quarters of FY-97. USAFE exceeded re-
enlistment objectives for all re-enlistment categories. USAFE re-
enlisted 69.8 percent of first-termers against a goal of 55 percent; 89 
percent of second-termers against a goal of 75 percent and 95.8 percent 
career airmen against a goal of 95 percent. NAVEUR re-enlisted 31 
percent of eligible first-termers against an objective of 38 percent. 
NAVEUR exceeded objectives for mid-termers, re-enlisting 77 percent 
against a goal of 54 percent, and careerists, re-enlisting 82 percent 
against a goal of 62 percent.
    Leadership continues to make strides towards improving quality of 
life in theater, particularly for deployed personnel. Spirits are high 
as we continue to execute the national security strategy through a 
series of regional engagement activities. Our servicemen and women in 
Bosnia understand the importance of their mission to regional stability 
and are focused for success. The Morale, Welfare, and Recreation 
structure continues to improve Quality of Life of deployed personnel. 
Commercial telephone service has made it much easier for them to keep 
in touch with their ``home bases.'' They enjoy modern aerobics/fitness 
equipment, reading rooms, TV/VCR rooms, and opportunities for weekly 
religious events. There is also an established special circuit for 
professional entertainment/USO shows. The Army and Air Force Exchange 
provides direct operating exchanges, food, alternations and barber 
services. These initiatives have provided outlets for members to spend 
time relaxing, getting/staying fit, and fulfilling spiritual needs. 
Along with force protection, Quality of Life remains at the top of 
USCINCEUR's Priority List.
    Adequate funding for quality of life facilities, services and 
programs for military and civilian personnel and their families in the 
European Theater continues to be USECOM's top resourcing priority. 
Given the numerous contingency operations tasked to USAREUR, resourcing 
QOL programs is critical to mission readiness and a significant part of 
a total integrated mission support package. Efficiency savings and 
reprogramming will not provide for continual upgrade of equipment or 
the programs necessary to sustain program vitality. Within USAFE, the 
Air Force Central NAF construction program is healthy again, and we 
envision no problems in meeting the demand for facility projects in 
USAFE. However, we are concerned about the poor funding outlook for APF 
projects. Because of the limited dollars made available to USAFE, no 
MWR projects are within MILCON Total Obligated Authority (TOA) beyond 
FY-97. USAFE is continuing its Funding Opportunities for Communities in 
USAFE (FOCUS) Program in FY-98. This program was a success in FYs 96 
and 97 because it allowed QOL programs to compete for mission dollars. 
In FY 97 the USAFE Commander funded dorm furnishings, Armed Forces 
Radio and Television Service (AFRTS) 97 connection costs, library 
automation, equipment and furnishings, Command Development Center 
playgrounds, Airmen Leadership Schools and completion of remaining 
postal upgrades.
    CENTCOM Answer. U.S. Central Command (CENTCOM) has no permanently 
assigned forces. The services and other unified commands all provide 
forces, as complete units and as individuals, to our Area of 
Responsibility (AOR). The forces that are being provided to me are in 
an exceptional state of readiness and high morale. This has been 
especially true during the recent crisis with Iraq. I am aware that the 
services and other commanders in chief pay a price in providing CENTCOM 
these forces.
    Commanders are working hard to sustain their readiness as much as 
possible. However, given the realities of the region and wide-ranging 
training requirements that units have, it can be difficult. In 
particular, aircrews conducting Operation SOUTHERN WATCH have limited 
training opportunities, while Army and Marine Corps units operating in 
Kuwait have much greater training opportunities. The brigade from the 
3rd Infantry Division that deployed to Kuwait will soon go through a 
Combat Training Center (CTC) equivalent exercise using equipment they 
drew from prepositioned stocks in that country.
    We are taking steps to keep the morale of deployed forces high. 
Permanent facilities are being constructed at Prince Sultan Air Base 
and local commanders are taking steps to ensure our personnel stay in 
touch with their families.

                             NATO Expansion

    Question. In the next few weeks the Senate will vote on the 
ratification of the ``accession protocol'' to expand the membership of 
NATO. The new member states of NATO are proposed to be Poland, Hungary 
and the Czech Republic. While the costs and strategic logic of the 
expansion have been and will continue to be debated, the Committee has 
some questions concerning the military implications of increasing the 
size of NATO at the present time. General Clark, what are your views on 
the military implications of NATO expansion, as both SACEUR and 
Commander in Chief of the United States European Command?
    EUCOM Answer. From a military perspective, NATO enlargement creates 
the opportunity to combat the greatest threats which we face in Europe 
today: political, economic and military instability. Expanding NATO 
further will greatly enhance and broaden military stability in the 
region. NATO expansion increases our Strategic Depth. As stability 
increases, the potential for US forces to be called upon to fight in 
this theater decreases. Beyond the manpower and equipment increases we 
gain, adding the Czechs, Poles and Hungarians brings in three new 
allies who have already proved themselves as they stood with us in the 
Gulf War, Bosnia and in our most recent crisis with Iraq. I am 
confident that these three nations so painfully aware of the 
consequences of lost freedom will stand firm with us in defense of 
freedom throughout NATO and Europe.
    Question. Any changes in the military mission of NATO as a result 
of expansion?
    EUCOM Answer. The military mission of NATO will not change as a 
result of expansion. NATO always has been and will remain a defensive 
alliance. Alliance policy calls for the maintenance of a military 
capability sufficient to prevent war and to provide for effective 
defense and overall capability to successfully manage crises affecting 
the security of its members. The primary role of Alliance military 
forces remains unchanged: to guarantee the security and territorial 
integrity of member states.
    Question. Your estimate of the costs to EUCOM in particular and the 
US in general resulting from expansion?
    EUCOM Answer. It is best to think of enlargement costs in three 
categories. First is the cost borne by new members for their own 
national security and contributions to the Alliance--this is no cost to 
the US. The second category includes expenses borne by all members to 
enhance their own contributions to the alliance in support of 
accession. As NATO adapts from a static defense to emphasize more 
mobile operational concepts in support of out-of-area contingencies, 
the operational and strategic deployability of forces has to be 
strengthened. Fulfilling existing force goals will fully prepare all 
current members for the strategic requirements of NATO enlargement. 
This second cost can be viewed as the normal modernization expenditures 
that a nation incurs over its defense planning cycles. The third 
category of costs consists of NATO common-funded accounts. These 
include headquarters operating costs, common operations and 
maintenance, and the NATO Security Investment Program (NSIP). Each NATO 
member contributes a percentage to the NATO NSIP budget, and as the 
alliance grows the infrastructure will increase. This is the one area 
that will require additional U.S. funding to support enlargement.
    NATO's estimate of the cost associated for the NSIP budget is $1.5 
billion over a 10-year period. In addition, SHAPE has requested $200 
million to conduct interoperability training over that same period to 
enhance the training standards of all Alliance members--this is totally 
independent of NATO expansion. If the additional funds for 
interoperability training are approved, the total NSIP increase will be 
$1.7 billion. The U.S. share of the costs should be approximately $40 
million per year for 10 years. Additional costs to USEUCOM will be 
negligible.
    Question. Changes necessitated to the NATO command and control 
structure?
    EUCOM Answer. The military implications of enlargement are 
positive. The three prospective new members will contribute a combined 
total of nearly 300,000 troops, over 3,000 tanks, and over 500 fighter 
aircraft. I have visited all three countries in 1998, and can assure 
you their leadership is committed, and their troops are sharp and 
motivated--they are eager to join NATO. All three have contributed 
units to the Implementation and Stabilization Forces in Bosnia, which 
has increased their interoperability for NATO forces. They have been a 
part of over 100 Partnership for Peace (PfP), and bilateral exercises. 
Poland and the Czech Republic also contributed forces to the Gulf War 
Coalition, and Hungary has served as a vital staging area for NATO 
forces in Bosnia. They will make a meaningful, significant, and 
immediate military contribution to the Alliance.
    The Command and Control for the Alliance will remain essentially 
the same under NATO's current Integrated Command Structure. Changes to 
NATO's Command and Control structure are not a result of NATO 
enlargement. While future internal adaptation is possible, it will be 
more a result of NATO's just concluded Long-Term Study, and the 
changing European strategic environment.
    Question. What are your views on additional expansion of NATO in 
the future?
    EUCOM Answer. This is a political not military decision. If the 
political leaders of the alliance propose additional members in the 
future, as SACEUR, I will provide the military advice to the Alliance 
on military requirements of the new members, plus the effects new 
members would have on the overall collective security of NATO.
    Question. Have there been changes in the level and quality of 
military-to-military cooperation with the Russians since the decision 
to expand NATO?
    EUCOM Answer. During calendar years 1997 and 1998 the Russian 
military elected not to actively engage the United States European 
Command via the annual military-to-military contact program executed 
between our two nations. Although USEUCOM nominated between 30-35 mil-
to-mil events for the Russians' consideration each year, the Russians 
only selected two to three events. They subsequently pulled out from at 
least one event during each year. While bilateral mil-to-mil contacts 
with USEUCOM have been minimal, Russian participation in these events 
with other unified combatant commands (e.g., USPACOM and USACOM) has 
ranged from 10-12 events per command per year. The small number of 
events with USEUCOM could possibly be tied to their continuing 
dissatisfaction with NATO enlargement or with the fact that they have 
decided to engage the United States military in Europe under the 
auspices of the NATO Partnership for Peace program. U.S.-Russian 
cooperation within the framework of the NATO IFOR/SFOR operation in 
Bosnia, however, has been positive. In April 1998 we completed a 
comprehensive Marshall Center-hosted conference in Moscow, on NATO-
Russian military cooperation and lessons learned in Bosnia. This was an 
excellent professional military exchange and dialogue-anticipate future 
engagement opportunities evolving between Russian and NATO forces.
    Question. Expansion will mean a quantitative change in NATO's 
collective defense responsibilities: 15 percent more European territory 
and a nearly 400 mile move eastward to the Polish-Belorussian border.
    What new capabilities and equipment are necessary for EUCOM in 
order to participate in the collective defense of the new NATO members?
    EUCOM Answer. ------.
    Question. What exactly is NATO defending against today?
    EUCOM Answer. No large-scale conventional threat to NATO in the 
near term is foreseen. However, the threats and risks to the Alliance 
are varied. The nations of the Alliance are faced with regional 
instability, Islamic extremism, nationalism state-sponsored terrorism, 
proliferation of weapons of mass destruction, organized crime, and 
economic and political instability. The strength of NATO has always 
been based on collective defense. NATO must not become a collective 
security organization. ------.
    Question. What do you believe are appropriate out-of-area 
operations for NATO to undertake in the future?
    EUCOM Answer. The conduct of out-of-area operations would be a 
political, not military, decision made by the North Atlantic Council 
(NAC). Each Alliance member has a Permanent Representative on the NAC. 
All members must agree by consensus to conduct any operations, whether 
they be in or out of theater. As Supreme Allied Commander, I am 
responsible for providing military advice to the NAC, and planning 
possible Allied Command Europe military operations--I would receive 
both guidance and political authority from the NAC. Additionally, SHAPE 
HQ, which is under SACUR's command, has the responsibility for 
identifying the military capabilities, and ensuring the force readiness 
requirements needed to contribute to crisis management, peace support, 
humanitarian aid, and the protection of vital interests of the 
Alliance.

                            Bosnia Operation

    Question. On December 18, 1997, President Clinton announced that he 
had agreed in principle that U.S. forces should participate in a Bosnia 
peacekeeping force after the mandate of the current SFOR expires. 
Decisions made recently by NATO planners have led to the requirement 
for approximately 6900 U.S. military personnel (as opposed to 8500 in 
SFOR) to remain in Bosnia until the achievement of a self-sustaining 
peace in the region. In his certification to Congress that the 
continued presence of U.S. forces, after June 30, 1998 is required, the 
President notes several ``benchmarks'' which must be achieved prior to 
the ultimate withdrawal of forces from the region. They include, the 
establishment of judicial reforms, the dismantling of pre-Dayton 
institutions, the regulation of the media, free market reforms, the 
conduct of free elections, and a whole host of other political, civic 
and economic goals. Does the pursuit of these goals, in fact, 
constitute nation building by U.S. forces?
    EUCOM Answer. U.S. and NATO forces are supporting the civil 
implementation effort in Bosnia by providing a secure environment and 
freedom of movement throughout the country to allow the massive civil 
implementation effort to move forward. In addition, U.S. and NATO civil 
affairs officers liaise with civil implementation organizations. The 
value of having civil affairs officers in close liaison with civil 
implementation organizations is that they often push through 
bureaucratic barriers, thus allowing for a higher rate of progress. 
Finally, U.S. and NATO forces provide assistance to the civil effort by 
providing logistic support and security only when it does not interfere 
with primary mission tasks.
    The tasks cited above are all military tasks which are approved in 
the current NATO plan for the employment of military force in Bosnia.
    Question. How are the troops under your command in Bosnia equipped 
to achieve these ``benchmark'' goals as described in the President's 
certification?
    Answer. U.S. and NATO forces are highly equipped to provide the 
secure environment and freedom of movement necessary for the attainment 
of these ``benchmark'' goals. Without a strong military presence on the 
ground in Bosnia, civil implementation of the Dayton Accord would fail 
since continued competing agendas of the factions would prevent any 
progress. Civil affairs officers are highly trained functional area 
experts who provide a much needed focus to the pursuit of civil, 
economic and political goals. Finally, the most powerful tool that our 
forces have is the respect that they muster from all the parties in 
Bonsia.

                           Violence in Kosovo

    Question. Hostilities have recently flared in the Serbian province 
of Kosovo, where ethnic Albanians constitute 90 percent of the 
population. Serbian government forces have cracked down on Albanian 
separatists and civilians have been killed. Recent statements by 
administration officials suggest that consideration is being given to 
increasing force levels in Macedonia and even possibly deploying to 
Kosovo. General, what contingency planning are you engaged in with 
regard to the situation in Kosovo?
    EUCOM Answer. There is no political guidance to plan for any 
military intervention in Kosovo, nor is there any instruction to either 
the NATO staff or the U.S. European Command Staff to conduct any 
planning for military intervention in Kosovo.
    Question. If troops were deployed in that region, what do you 
understand your mission would be?
    EUCOM Answer. Though NATO and U.S. military staffs are carefully 
monitoring the situation in Kosovo, there is no political guidance to 
intervene in Kosovo with military force. No mission has been defined.
    Question. Would forces be detached from those participating in SFOR 
if deployment to Kosovo was ordered?
    EUCOM Answer. Current NATO planning for the continuing SFOR mission 
does not address deploying forces from the SFOR into the region. The 
United Nations Preventive Deployment (UNPREDEP) in the Former Yugoslav 
Republic of Macedonia does not authorize the use of those forces for 
intervention in Kosovo. The UNPREDEP mandate under Chapter VII of the 
UN Charter and authorized under UN Security Council Resolution 983 of 
31 March 1995 (with subsequent mandate extensions) only establishes a 
monitoring force on the disputed border between the Federal Republic of 
Yugoslavia and the Former Yugoslav Republic of Macedonia.

                                  Iraq

    Question. General Zinni, you are said to be an expert regarding 
Arab ``man in the street'' opinion. What are the present perceptions of 
the Gulf State nations with respect to U.S. policy towards Iraq?
    CENTCOM Answer. I am no expert, but there are concerns in the Arab 
world over the impact of sanctions on the Iraqi people. Arab popular 
opinion tends to connect the effects of sanctions on the Iraqi people 
with the UN and U.S. policies, not Saddam Hussein's failure to comply 
with UN resolutions and look after the needs of his own population. The 
stalled Middle East Peace Process creates the perception of a double 
standard in the implementation of UN Security Council Resolutions. I 
believe most Arabs in the region understand that our military presence 
helps regional stability.

                       Iraq--Potential Airstrikes

    Question. Airstrikes against Iraq were narrowly avoided last month 
after UN Secretary General Kofi Annan persuaded Saddam Hussein to fully 
cooperate in granting access to UN inspectors who are examining the 
Iraqis' Weapons of Mass Destruction program (WMD). According to an 
article in Aviation Week (2/16/98), ``Saudi Arabia has decided not to 
allow U.S. Air Force aircraft stationed there to shift to nearby 
countries such as Kuwait, Bahrain, Oman, or Qatar to carry out attacks 
against Iraq--at least for now.'' The article also stated that 
according to Air Force officials, ``morale among the Saudi-based U.S. 
units has plummeted with the news that after seven years of deployments 
and training, they may be excluded from any future air campaign against 
Iraq.'' General Zinni, are these reports accurate? Under what agreement 
with the U.S. can the Saudis block the transfer of U.S. Air Force 
aircraft out of the country to other bases in the Gulf region? Has any 
headway been made to get the Saudis to reverse their stance on this 
issue since the article was published? What is the state of readiness 
and morale of air personnel based in Saudi Arabia?
    CENTCOM Answer. There is no agreement where the Saudis could block 
the transfer of U.S. aircraft. The Saudis ------. This arrangement is 
consistent with arrangements we have with any government that allows us 
to station combat assets on its soil. We did not plan to relocate any 
of our combat aircraft from Saudi Arabia to any other country in the 
Gulf.
    Saudi Arabia continues to support international efforts to enforce 
UN Security Council Resolutions. During the recent crisis the Saudi 
government provided U.S. forces with all support that U.S. Central 
Command asked for. The friendship between our two countries remains 
strong and I see no reason to readdress our current bi-lateral 
agreements.
    While morale has certainly not plummeted, we acknowledge that it is 
something that needs improvement and we have taken positive steps to do 
so. Our deployed forces conducting Operation SOUTHERN WATCH and DESERT 
THUNDER are living under very austere conditions and in many cases have 
deployed to the region for the second or third time. At Prince Sultan 
Airbase fixed facilities are being built and units should move into 
them by the end of the year. Morale, Welfare, and Recreation (MWR) 
opportunities have been increased and personnel are able to keep in 
touch with families back home through e-mail and free phone calls.
    Our forces in the region realize that their job is an important one 
and train very hard, often under adverse circumstances, to hone their 
combat skills. They take great pride in their capabilities and 
readiness. Furthermore, they realize that often the critical aspect of 
our military capability and readiness is its deterrent value. Our 
troops are ready. They continue to train with their Gulf allies to 
conduct their missions as a part of Operation SOUTHERN WATCH.

                   Budget Priorities and Deficiencies

    Question. Do you feel the interests and needs of your Commands have 
been adequately addressed in the fiscal year 1999 budget request?
    EUCOM Answer. The fiscal year 1999 budget request meets the needs 
of USEUCOM Commands, with a few exceptions. Additional funding of $16.1 
million for engagement activities, $1.125 million for command and 
control communications, and $275 million for family housing and 
barracks renovation is required.
    Additional engagement funding of $16.1 million is required for 
fiscal year 1999. Engagement is the key component of our theater 
strategy toward regional peace and stability. It is a long-term 
investment, the return on which is often difficult to quantify, and if 
successful, may never be fully recognized. Systematic underfunding of 
engagement activities threatens our ability to provide stability.
    --Military liaison teams must be established in the new Unified 
Command Plan-directed countries of Moldova, Georgia and Ukraine ($400 
thousand).
    --Essential USEUCOM Headquarters support to Partnership for Peace 
activities must be funded ($1.1 million).
    --Humanitarian assistance activities in Africa must be funded ($684 
thousand).
    --USEUCOM Headquarters joint exercise participation in Moldova, 
Georgia and Ukraine must be funded ($100 thousand).
    --The George C. Marshall European Center for Security Studies in 
Garmisch-Partenkirchen, Germany, provides defense education to civilian 
and military personnel of the United States, NATO, European nations and 
the New Independent States of the Former Soviet Union. As the OPTEMPO 
in the European theater increases, funding is needed to renovate vacant 
German barracks to provide additional student billets. In addition, a 
larger and state-of-the-art lecture hall is needed to provide visual 
information capabilities for instructors, students, and conference 
attendees. It is essential to raise the quality and quantity of the 
existing infrastructure to a level commensurate with those of 
equivalent DoD and NATO educational institutions. (Student billets: $5 
million; lecture hall and associated communication/electronic 
equipment: $8 million)
    --Force protection improvement requirements at our military liaison 
team locations must be funded ($1.2 million).
    Modifications to the non-strategic nuclear force command and 
control Regency network must be funded to ensure its viability ($1.125 
million).
    Housing construction and maintenance requires an additional $361 
million per year over the next 10 years to eliminate inadequate housing 
throughout USEUCOM. Since the drawdown, there has been near zero 
investment in European infrastructure. USEUCOM is trying to play catch-
up with a steadily failing infrastructure. The situation is aggravated 
by overseas housing funding that does not keep pace with CONUS housing, 
a much higher cost ofconstruction/maintenance, and fair share 
apportions that include ``payment-in-kind'' funds from the host nation 
that never meet projections. USEUCOM full house appropriations 
committee/national security subcommittee supports the Secretary of 
Defense's initiative to eliminate inadequate housing by 2010 and 
requests that funding be provided in steady and consistent amounts to 
support this initiative.
    While not a fiscal year 1999 funding issue, one of USEUCOM's top 
priorities, the Medium Extended Air Defense System (MEADS), needs 
support for future program funding. MEADS is a replacement for HAWK and 
PATRIOT systems and provides NATO a lower-tier, hit-to-kill, point 
defense capability for protecting both NATO territory and forces 
operating out-of-area. MEADS requires \1/3\ of the airlift that an 
equivalent PATRIOT unit requires and unlike Patriot systems, can be 
moved by C-130 aircraft. MEADS is important to USEUCOM because it is an 
active defense, trilateral, Theater Missile Defense initiative between 
the U.S., Germany, and Italy. Additionally, this burden sharing may 
inspire Turkey and Netherlands to become partners, further 
strengthening the alliance and U.S. leadership. MEADS is only funded 
through fiscal year 1999. $1 billion is needed during fiscal years 
2000-2005 to ensure the commitment of our allies to assist in the 
completion of a capability we urgently need.
    CENTCOM Answer. Yes. As the Commander-in-Chief of a Unified 
Command, I submit my requirements to the Joint Staff and Department of 
Defense (DoD) through my Integrated Priority List (IPL). The Fiscal 
Year 1999 budget, as well as the Future Year Defense Program (FYDP) 
supports Central Command's IPL.
    Question. What is your assessment of the major shortfalls in 
personnel, training, equipment and maintenance for those units under 
your day-to-day command as well as those that would be assigned to you 
in a war time situation?
    EUCOM Answer. ------.
    The Services have made great strides capturing readiness for low-
density, high-demand assets. What requires more attention is the 
support force assets that are constantly tapped for continuing 
operations. Military police, transportation units, movement control 
teams, intelligence analysts and headquarters elements are constantly 
on the road or supporting deployments while at home bases, resulting in 
long hours which are difficult to capture. Because low density/high 
demand asset tracking for the Services counts days away from home 
station (temporary duty), we may miss a large portion of the tail in 
the tooth-to-tail element of an operation. These support force assets 
are required by all operations that are experiencing equally high, but 
more difficult to capture, TEMPO rates. We need more accurate ways of 
identifying readiness costs that focus on additional indicators beyond 
just ``a night away from home'' to better capture the readiness impact 
of high TEMPO on the entire force. ------.
    Basing facilities. USEUCOM, a forward-deployed force operating at 
the highest TEMPO of any Unified Command, has less than adequate 
facilities for its troops. 23% of USAREUR's maintenance facilities and 
18% of its operational facilities are substandard for daily operations. 
It would require $3.4 billion to bring operational facilities to 
standard and $450 million for maintenance facilities. 60% of USAREUR's 
28K barracks spaces require renovation to meet Department of Defense 
standards. Finally, 88% of USAREUR's 24K housing units and 70% of 
USAFE's 10.5K housing units require renovation. It is important for 
Congress to support USEUCOM's forward-deployed force with adequate 
facilities--several program budget decisions cut funding in this area 
during the most recent budget cycle. ------.
    5. Wartime Assigned Forces. USEUCOM is not a major theater war 
CINC. The two Ft. Riley brigades designated to deploy with USAREUR's 
divisions to any major theater war are USACOM assets and are monitored 
and tracked by that unified command. Should either brigade not meet the 
criteria for deploying MTW forces, it would fall on USACOM to resolve 
the shortfall. USEUCOM does not have oversight over their readiness 
shortfalls.
    On a day-to-day basis, USEUCOM does use assets from other theaters, 
thereby moderating the TEMPO of ongoing operations. The 2ACR from Ft. 
Polk, LA, for example, is currently in Bosnia supporting peacekeeping 
operations. The reserves also provide forces to make up theater 
shortfalls. In each case, however, the unified command supplying forces 
is responsible for ensuring they are trained and ready to execute 
assigned tasking prior to arrival. USACOM personnel proceeding to or 
returning from Bosnia, for instance, process through Ft. Benning, GA. 
This ensures standardization in preparing troops for the Bosnia 
environment prior to deploying overseas.
    CENTCOM Answer. U.S. Central Command (CENTCOM) has no units 
assigned under our day-to-day command. The forces that have been 
provided to us for operations such as Operation SOUTHERN WATCH and 
Maritime Intercept Operations have deployed to the theater in a high 
state of readiness with all their equipment. The forces that have been 
deployed for Operation DESERT THUNDER have also arrived in a similar 
high state of readiness.
    Question. What are the top ten items on your most recent integrated 
priority list? How do your top ten priorities differ from last year and 
why?
    EUCOM Answer. ------.
    CENTCOM Answer. My Integrated Priority List (IPL) emphasizes 
maintaining and improving capabilities, rather than asking for specific 
systems or programs. Capabilities I am most interested in improving are 
Force Deployment and In-Theater Sustainability, Theater Missile 
Defense, In-Theater Force Application, Force Protection, Intelligence 
Collection, Command and Control, and Joint Readiness.
    Since taking command of U.S. Central Command last year, we have 
conducted a major review of our regional strategy and requirements to 
execute that strategy. At the same time, the Department of Defense 
reorganized the process through which it receives priorities from 
unified commanders. The result was an updated list of priorities that I 
believe accurately reflects our requirements.

                       Year 2000 Computer Problem

    Question. One of the problems that we face as we enter the next 
century is older computers that are only programmed to remember the 
last two digits in a year. Thus they remember ``1997'' as simply 
``97''. The year 2000, however, will be saved as ``00'', the same as 
the year 1900. This can lead to calculation errors and system failures. 
How serious is this problem for your Command? What would be the impact 
if your Mission Critical Systems were not corrected by the year 2000?
    EUCOM Answer. The impact could be very serious. Every mission and 
function that we perform could be impacted, but until the Joint or 
Service program managers tell us how extensive the technical problems 
are, the functional users cannot fully assess the impact.
    The Services have oversight for US European Command Component 
Commands. Each service recently reported that they are on track with 
their respective Service Year 2000 Action Plans (Source: 24-26 March 
1998 Joint Staff Year 2000 Working Group hosted by the Joint Staff J6). 
I am currently polling my component commanders for their assessments to 
be completed in May 1998, but these assessments will be an interactive 
process.
    At the Headquarters we are strictly users, not developers, of joint 
Mission Critical Systems. These systems are the responsibility of 
Service and Agency program managers. We report these systems quarterly 
to the Joint Staff and we have identified our Top 20 priorities for the 
warfighter. We are counting on all fixes to be delivered by the 
December 98 deadline. (Deadline is mandated in the Joint Chiefs of 
Staff Year 2000 Action Plan (March 1998, Version 2.0)). Our job after 
that is to test the fixes and develop contingency plans if the fixes 
are incomplete.
    CENTCOM Answer. This is a large problem being handled within the 
DoD as a team effort headed up by the Office of the Assistant Secretary 
of Defense (Command, Control, Communications, and Intelligence). Each 
DoD Component, including US Central Command, must correct the systems 
they are responsible for. Of the 468 systems we use in US Central 
Command, we are responsible for correcting 17. We are taking action to 
make our 17 systems year 2000 compliant by the end of this year. If any 
systems we use, including our Mission Critical Systems, still have 
problems by the year 2000, we do not expect catastrophic failures. We 
will be able to carry out our mission.
    Question. What testing do you plan to do to ensure that your 
warfighting systems are fully compliant prior to the year 2000?
    EUCOM Answer. All USEUCOM warfighting systems are provided by a 
Service or a joint agency. We will support Service and Agency testing 
efforts fully. Service and Agency-provided systems must be tested and 
fielded to us by Dec 1998 (Source: Joint Chiefs of Staff Year 2000 
Action Plan, March 1998, Version 2.0 and DoD Year 2000 Management Plan, 
April 1997, Version 1.0). For all our systems, we will perform our own 
functional testing after the fixes are delivered.
    We fully support DoD-wide testing. I applaud the Assistant 
Secretary of Defense C3I for marking 1999 to be used as a systems test 
year. Our success in conducting functional testing relies heavily on 
the Services and Agencies completing and fielding system fixes to us by 
the December 1998 deadline (Deadline is mandated in the Joint Chiefs of 
Staff Year 2000 Action Plan (March 1998, Version 2.0)).
    CENTCOM Answer. We will test software we developed by setting the 
clocks ahead and performing off-line operational tests. We will also 
perform software interface tests between and among the other software-
dependent warfighting systems that we use.
    Question. What steps have our coalition partners taken to ensure 
that their warfighting systems are Year 2000 compliant? Are you 
comfortable that our allies will have their systems corrected in time?
    EUCOM Answer. I am not comfortable at this time because I do not 
have a lot of insight into their actions. However, the Joint Staff and 
SHAPE are currently working this issue. The Joint Staff is working with 
the Office of the Secretary of Defense and the State Department to 
gather information on the status of our coalition partners. 
Additionally SHAPE and NATO are accelerating their efforts and have 
recently formed a working group. We rely heavily on our coalition 
partners, who generally have resource constraints and equipment that is 
older and more susceptible to year 2000 problems.
    CENTCOM Answer. We do not know the extent of our coalition 
partners' efforts to identify and correct year 2000 problems with their 
various systems. However, we do not believe they are expending much 
effort in this area. Many of our allies are using American systems 
obtained through an open Foreign Military Sales case. The United States 
has a responsibility to inform the country of any known problems and 
the steps we are taking to resolve those problems.
    Question. Would you consider conducting some of your training 
exercises with ``the clocks turned forward'' to ensure that your 
systems are ready? Do you believe this would be a valuable test to see 
if your critical computer systems will be ready for the year 2000? If 
not, why not?
    EUCOM Answer. Fixes, replacement systems, or workarounds must be in 
place prior to any functional user testing. It would be counter-
productive to test systems that are still being analyzed and revised by 
Service or Joint Agency program managers.
    It is important that we not lose sight of the fact that the 
prerequisite to testing is identifying, fixing and fielding. Most of 
our systems, and certainly our major systems, are under the management 
of a Service Executive Agent or Joint Agency program manager. We, as 
functional users, must validate the fixes they deliver to us.
    We fully support efforts for testing year 2000 fixes, first at the 
program manager's lab, then at the functional user site. Training 
exercises may provide excellent opportunities for user testing in some 
cases, but they are not the only method of test available.
    However, we caution that our exercises should not lose focus on the 
original training objectives. Training objectives should not be 
sacrificed to identify problems that should be found and corrected by 
the responsible Service or Agency for the system. Training exercises 
should only be used to validate delivered fixes.
    Resources to correct the Year 2000 problem are very scarce. We 
encourage any actions that would provide additional resources to the 
Service and Agency efforts to fix the systems we use.
    CENTCOM Answer. Turning the clocks ahead to see what happens during 
an exercise would have limited value. During exercises we use 
operational systems. Thus, turning the clocks ahead during exercises 
could impact real world operations. Alternatively, a carefully designed 
scenario, utilizing systems isolated from the real world, could be 
effectively and safely used to determine if critical systems are ready 
for the year 2000.
    Question. Have you begun developing contingency plans in case your 
Mission Critical Systems are not year 2000 compliant?
    EUCOM Answer. We are primarily users of Service and Joint Systems. 
Contingency plans cannot be developed at our level until we know if 
there is a problem and how great the problem is. To date, no specific 
problems have been published to facilitate our contingency planning but 
each Service has provided guidance to their Components for the 
completion of contingency plans based on the Service-set criteria.
    We are working with the Joint Staff to obtain the Service and 
Agency statements of compliance or definitions of problems we will 
encounter. This data will allow our functional users to develop the 
necessary contingency plans. As specific system problems are provided, 
we will assess them in light of our specific needs and develop 
contingency plans as appropriate.
    CENTCOM Answer. We expect to be year 2000 compliant this year. This 
gives us an additional year to clean up any systems that we may have 
missed. We do not expect any year 2000 related problems to cause 
catastrophic failures.

                             JCS Exercises

    Question. In the Quadrennial Defense Review the Department of 
Defense announced plans to reduce the number of man-days required for 
joint exercises by 15 percent in order to reduce the high PERSTEMPO 
rates. Have either of your Commands experienced a reduction in Joint 
Chiefs of Staff (JCS) exercises?
    EUCOM Answer. Yes. Program management and execution actions 
undertaken since the Quadrennial Defense Review in May 1997 have made 
significant changes (e.g., in 18 percent reduction in the number of 
exercises and more than 25 percent reduction in man-days devoted to 
exercise participation). This reduced level of exercise participation 
is expected to continue to comply with the Chairman's guidance. Actions 
taken include reducing the number, scope, duration, and participation 
levels for specific exercises; combining, merging, and linking 
exercises across USEUCOM and Military Service lines; and placing 
greater emphasis on staff and headquarters exercises, simulations, and 
improved communications and computer technologies to reduce personnel 
demands.
    CENTCOM Answer. Yes, Central Command (CENTCOM) has experienced a 
reduction in JCS exercise. From fiscal year 1996 to 1998, CENTCOM's JCS 
exercise program was reduced from 39 to 37 exercises. In addition, the 
1999 exercise program is being reduced to 34 and the 2000 program to 
32. In total, our JCS exercise program has been reduced by seven 
exercises over a four-year period.
    In order to meet the QDR man-day reduction requirements, CENTCOM 
conducted a comprehensive review of the JCS exercise program to 
identify additional ways to reduce exercise Personnel Tempo 
(PERSTEMPO). Some of the initiatives used to achieve the reduction in 
PERSTEMPO were: increased use of deployed in-theater forces to conduct 
exercises, rescheduling and combining smaller exercises to result in 
more complex Joint exercises, and Command Post Exercises (CPX) 
utilization of model distributive simulation. From 1996 to 2000 we will 
have reduced JCS exercise PERSTEMPO by thirty-two percent.
    Question. If you have experienced a reduction in JCS exercises has 
this had a noticeable effect on your PERSTEMPO rates?
    EUCOM Answer. HQ USEUCOM tabulates individual PERSTEMPO (as opposed 
to numbers of personnel in-theater at a given point) for shore-based 
personnel assigned to USAREUR, USAFE and USNAVEUR. Based on the 
PERSTEMPO statistics reported by EUCOM theater components for October 
1996 through January 1998, we have not experienced a noticeable 
decrease in theater PERSTEMPO. From October, 1996 through January 1997, 
13,120 EUCOM Component personnel returned from participation in an 
exercise. From October 1997 through January 1998, 32,014 returned from 
exercises and field maneuvers.
    On average, from October 1996 through January 1998, 13 percent of 
EUCOM's assigned personnel were deployed or TDY at all times. Apart 
from those participating in Operation Joint Guard, PERSTEMPO drops only 
during the winter holiday season (December-February).
    At this point, we can tabulate individual PERSTEMPO with confidence 
only for EUCOM Component personnel. While a high OPTEMPO may produce a 
high PERSTEMO for individuals involved in those operations, that 
PERSTEMPO ``calculation'' accounts for about 70 percent-75 percent of 
the ``day away'' from home station reported by EUCOM components.
    CENTCOM Answer. Since we are a command with no assigned forces, 
Central Command (CENTCOM) must rely on the Services to calculate and 
track Operational and Personnel Tempo (OPSTEMPO/PERSTEMPO) rates. We do 
not have visibility of all the deployments for units and individuals 
during an entire year. However, we are sensitive to the PERSTEMPO 
currently experienced in the force and clearly our operational and 
exercise requirements affect the OPSTEMPO/PERSTEMPO. Consequently, we 
are committed to helping reduce OPSTEMPO/PERSTEMPO. In fiscal year 1997 
we reduced our exercise program by 11 exercises which resulted in a 
savings of 160,800 man-days.
    Question. How do you determine that the right mix of exercise is 
being conducted?
    EUCOM Answer. USEUCOM is guided in the exercises we conduct based 
on deficiencies we identify in our after-action reports and the needs 
of the theater as delineated in Theater Security Planning System. We 
combine these two elements with input from the Service components to 
craft an exercise program that is geared to enhanced readiness and 
interoperability.
    CENTCOM Answer. Each year I receive an assessment brief from my 
Component Commanders that provide their assessment of their warfighting 
abilities. This assessment provides my staff with detailed information 
on what areas of the respective Components warfighting abilities are 
trained and which areas require additional training. My staff then 
plans and coordinates exercises designed to fulfill the Component 
requirements, Central Command's ``Theater Engagement Plan,'' and Host 
Nation requirements. These include: battlestaff exercises, warfighting 
functional exercises, Joint Task Force/Combined Task Force exercises, 
sub-regional multi-lateral exercises, or country specific bilateral 
exercises that best support the Component Commander's training 
requirements.
    Question. What portion of the exercises that you conduct are 
primarily to train US forces for their wartime mission and what portion 
is for regional engagement?
    EUCOM Answer. USECOM schedules Joint Chiefs of Staff exercises to 
meet training needs, enhance joint interoperability, support readiness 
and refine interoperability with allies and partners. In the course of 
conducting these exercises we meet engagement strategies but do not 
schedule exercises for engagement purposes.
    CENTCOM Answer. Our JCS exercise program at U.S. Central Command 
from FY95 to FY00 totals 183 exercises, of which 50 are primarily for 
regional engagement and 133 are designed to train U.S. forces in their 
wartime missions.

             Combating Terrorism Readiness Initiative Fund

    Question. With congressional support, the Chairman of the Joint 
Chiefs of Staff established the Combating Terrorism Readiness 
Initiative Fund. How much did your Command receive from this fund in 
fiscal year 1997 and what were the funds used for?
    EUCOM Answer. USEUCOM received $1.86 million in Combating Terrorism 
Readiness Initiative Fund funding for fiscal year 1997.
    $200,000 funded Close Circuit Television Upgrades for Headquarters, 
U.S. Navy Europe, United Kingdom.
    $618,000 funded the following three projects for Headquarters, U.S. 
Navy Europe, United Kingdom: (1) Special Project R12-94 (hardening of 
Headquarters, U.S. Navy Europe) ($600,000); (2) the purchase of one (1) 
X-Ray Machine for the post office ($10,000); and (3) a contract to 
update as-built drawings for the alarm system ($8,000) of Headquarters, 
U.S. Navy Europe building.
    $158,000 funded the following three projects at Naval Air Station 
Sigonella: (1) an upgrade to the intrusion detection system ($72,000) 
for the base; (2) a repair of the electronic security system for 
protection of the flightline perimeter ($36,000); and (3) the purchase 
of three (3) Explosive Ordnance Disposal response backpacks containing 
Explosive Ordnance Disposal tools.
    $98,000 funded communication upgrades for Naval Support Activity 
NAPLES Security Department, Italy.
    $790,000 funded the construction of two Pass and Identification 
facilities at the Capodochino Compound, NSA Naples, Italy.
    In addition, in fiscal year 1997, Headquarters U.S. European 
Command received $777,000 in force protection funding; U.S. Army Europe 
received $5,500,000; U.S. Air Force received $3,400,000; and U.S. Navy 
Europe received $351,000.
    CENTCOM Answer. U.S. Central Command (CENTCOM) received $948,000 in 
fiscal year 1997 to establish and support initial operating costs of 
the Joint Rear Area Coordinator (JRAC).
    The Joint Rear Area Coordinator is my overall coordinating 
authority for force protection within the CENTCOM Area of 
Responsibility (AOR). The primary mission of the JRAC is to conduct 
risk assessments of Department of Defense units and personnel and to 
determine their vulnerability to terrorist attack. The JRAC is 
responsible for ensuring force protection measures are adequate for the 
security of all forces assigned.
    A portion of the $948,000 was used to purchase furnishings and 
equipment for the new JRAC offices, as well as some specialized 
equipment used to conduct vulnerability assessments. The remainder of 
the funding, was spent on travel--first, to allow JRAC personnel to 
attend antiterrorism training, then for them to conduct vulnerability 
assessments in theater.
    Question. How much has your Command requested from the fund this 
year, fiscal year 1998?
    EUCOM Answer. Currently, Headquarters US European Command (HQ 
USEUCOM) is processing 37 projects totaling $3,387,000. Project 
submissions cover such force protection items as communications 
equipment, X-Ray machines, hand-held explosive detectors, vehicle 
barriers, and minor construction.
    In addition, in fiscal year 1998, HQ USEUCOM received $848,000 in 
force protection funding; U.S. Army Europe received $18,881,000; U.S. 
Air Force Europe received $1,704,000; and U.S. Navy Europe received 
approximately $6,500,000. Force Protection funds are included in base 
operations funding. Also as a result of Program Budget Decision 098R, 
Department of the Army was directed to fund $1,300,000 in U.S. Army 
force protection requirements, and the Department of the Navy was 
directed to fund $300,000 in U.S. Navy Europe force protection 
requirements.
    CENTCOM Answer. In fiscal year 1998 we have requested and received 
$1,193,838 from the combating terrorism initiative fund. The funds were 
used to buy vehicle-mounted VHF radios, pagers, and upgrade existing 
radios for personnel stationed in Saudi Arabia.
    This initiative significantly enhances the U.S. Defense 
Representative's capability to notify, in an emergency, several 
Department of Defense organizations in Saudi Arabia. Seven hundred non-
combatants in the U.S. Military Training Mission, the Ordnance Program 
Division, the Defense Contracting Material Command, and the Office of 
the Program Manager for the Saudi Arabian National Guard benefit from 
this improved capability.
    Question. What are the top ten force protection priorities for your 
Command in fiscal year 1999? Have these items been fully funded in the 
Services' budget requests? If these items are not fully funded, what 
will be the specific impact on your ability to protect the forces under 
your command?
    EUCOM Answer. ------.
    CENTCOM Answer. Our force protection priorities are included in my 
Integrated Priority List (IPL). These priorities are reflected under 
tow main areas: ------.

                   Access to Bases in Southwest Asia

    Question. General Zinni, during the recent crisis with Iraq, both 
Saudi Arabia and Turkey made clear that they were unwilling to allow 
U.S. forces to use bases in their countries for offensive missions 
against Iraq. The Committee also understands the U.S. currently is 
working to resolve base access issues with Oman and Kenya. What is the 
status of base access discussions with these countries? Is the level of 
local support for a U.S. military presence in your region declining?
    CENTCOM Answer. Our access agreement with Oman runs through 2000. 
The government of Oman was highly supportive of U.S. Central Command's 
(CENTCOM) requirements in response to Operation DESERT THUNDER, ------. 
Our access agreement with Kenya was renewed last year and runs through 
2000 as well. The relationship between our countries continues to be a 
strong one. They have willingly accepted U.S. military forces in 
support of humanitarian operations in Africa.
    Support for our military presence in the region remains strong. 
Turkey and Saudia Arabia recognize the role played by a strong U.S. 
military presence in the region, and they were supportive in allowing 
that force to be built up. However, they wanted to ensure every 
possible diplomatic solution to the crisis was explored.
    Question. How would you change your force structure if you had 
fewer forward bases to operate from?
    CENTCOM Answer. In dealing with Iraqi sanctions enforcement, 
without access to facilities of the Gulf Cooperation Council states, --
----. Our access to bases during times of crisis will be based on our 
peacetime engagement with our coalition partners in the region. The 
efforts we make in building relations, creating a shared regional 
strategy, and incorporating host nation cultural concerns into our 
operations is essential.
    Question. What steps can be taken to prevent or offset the reduced 
access to forward bases?
    CENTCOM Answer. The key is to not lost access. Efforts at reaching 
a consensus and relationship building will pay great dividends. It is 
critical to engage our coalition partners on a continual basis to 
ensure a shared perspective of the threat to achieve shared regional 
objectives.
    With respect to our dual-containment policy in the region, should 
access be lost or unacceptable restrictions be placed on key bases, and 
alternative force structure would be required to enforce UN resolutions 
or support military operations. ------.

    [Clerk's note.--End of questions submitted by Mr. Young. 
Questions submitted by Mr. Dicks and the answers thereto 
follow:]

                          Weapons Inspections

    Question. UN Secretary General Kofi Annan and Iraqi Prime Minister 
Tariq Aziz signed an accord on February 23 to defuse the crisis over 
weapons inspector access to eight ``presidential sites.'' In the deal, 
which has been endorsed by he U.S., Iraq has pledged unrestricted 
access for the inspectors who are charged with dismantling Iraq's 
biological; chemical and ballistic missiles. Are the weapons inspectors 
being allowed access to all ``sensitive sites'' at this point?
    CENTCOM Answer. The 23 February Memorandum of Understanding (MOU) 
stated Iraq would allow access to all presidential sites and access to 
sensitive sites as previously agreed to. Under these agreements, the UN 
Special Commission (UNSCOM) inspectors were allowed access to both 
presidential sites and sensitive sites. Iraq invoked modalities to 
limit the number of inspectors allowed into several sensitive sites, 
and, while not blocking inspectors, lodged several protests to further 
curtail UNSCOM operations at the presidential sites.
    Question. How many ``sensitive sites'' have been visited by UN 
inspectors since the accord was signed?
    CENTCOM Answer. As of mid-April, UN inspectors have visited eight 
Iraqi declared sensitive sites since the Memorandum of Understanding 
was signed. More of these inspections are likely in the future. 
Additionally, UN Special Commission inspectors and UN diplomats visited 
eight Iraqi declared presidential sites.
    Question. Have ``sensitive site'' inspections turned up any 
evidence of WMD production or R&D?
    CENTCOM Answer. The recent inspection of sensitive sites did not 
yield any evidence of Weapons of Mass Destruction or Research and 
Development. However, the chief inspector believed ------.The eight 
presidential sites were declared in advance and no proscribed materials 
were discovered. These initial visits were a baseline inspection only 
and future, short-notice presidential site missions, such as aerial 
overflight, photography, and computer searches, and may lodge even 
stronger protests during follow-on visits.
    Question. Are you concerned that in the months between the time the 
Iraqi government halted UN weapons inspections and the time the accord 
was signed, that critical WMD evidence was relocated away from 
``sensitive sites'' or from other potential inspector sites?
    CENTCOM Answer. The delay certainly allowed Iraq ample opportunity 
to move Weapons of Mass Destruction (WMD) related materials and 
documents. Iraq's tampering with monitoring cameras and removal of 
dual-use equipment from certain locations provided a clear example of 
Iraq's intent to protect key equipment. Until late February 1998, 
Iraq's presidential sites provided locations to conceal prohibited 
materials. The 23 February Kofi Annan/Tariq Aziz agreement probably 
forced Baghdad to relocate materials from the presidential locations to 
other sites, possibly private residences or burial locations.
    Question. If so, do we have good intelligence suggesting where the 
WMD-related material may have been moved?
    CENTCOM Answer. ------.

                              Iraq Outlook

    Question. Are the forces that will remain in the Gulf adequate to 
quickly and decisively strike Iraq if Saddam does not comply with UN 
accords?
    CENTCOM Answer. The forces that will remain in the Gulf are there 
simply to continue OPERATION SOUTHERN WATCH (OSW) and to ensure the 
credible defense of Kuwait. However, ------. Such a strike would cause 
significant damage to Saddam's regime by destroying key security, 
command and control (C2), air defense, and weapons of mass destruction 
(WMD) facilities.
    Question. Is there any military capability you do not have 
available to you at this time that could have value-added in terms of 
meeting our military and strategic objectives in your region?
    CENTCOM Answer. All the currently fielded military technologies 
available are at my disposal.
    Question. What is your judgement of how this will play out? Is a 
military confrontation with Saddam inevitable or is it possible that 
the recent threat of force by the U.S. has convinced the Iraqi 
government to comply with the UN weapons inspection resolutions?
    CENTCOM Answer. I believe that Saddam will continue to test 
coalition resolve. His goal is to get the sanctions lifted, and exploit 
perceived divisions in the coalition.
    I do not believe confrontation with Saddam Hussein is inevitable. 
It is important however, that the U.S. and members of the coalition be 
able to respond effectively should diplomacy fail.
    Question. In your judgement, how long will the current force build-
up have to remain in the Gulf? At what point, assuming Saddam continues 
to comply with UN resolutions, might we be able to start reducing force 
levels in the Central region?
    CENTCOM Answer. I expect the current force structure ------.
    We will continue to size our force structure to reflect the threat. 
I do not want to maintain American forces in the region any longer than 
necessary.
    Question. Would you agree with General Ryan's assessment--that we 
had base access in Saudi Arabia and other areas but that access did not 
necessarily translate into permission to operate our forces from an 
offensive posture?
    CENTCOM Answer. General Ryan ------. We asked eight other things of 
the Saudi Arabian government to include the use of reconnaissance, 
intelligence, surveillance and battle management aircraft based in 
Saudi Arabia. They approved all eight requests.
    Early in this crisis, ------.

                              Base Access

    Question. If this were true, how would we have used ground-based 
tactical aircraft in the most recent scenario?
    CENTCOM Answer. Our plans ------.
    Question. Isn't it true that because of our inability to get basing 
access, the bulk of the air campaign would have had to be performed by 
Naval aircraft deployed on carriers?
    CENTCOM Answer. ------.
    Question. Are you concerned that the assumptions that OSD has made 
on forward basing are somewhat suspect given the recent situation in 
the Gulf?
    CENTCOM Answer. I consider the assumptions contained in our 
regional war plans to be valid. Access to facilities in the region is 
based on a shared perspective of the threat. If our coalition partners 
perceive their national interests to be at stake, access will be 
granted. U.S. interests and national objectives are not always 
identical to those of our coalition partners. The key to ensuring 
access is engaging our coalition partners to build a common perspective 
of the threat to achieve shared regional objectives. Consultations and 
relationship building are the elements to ensuring timely access to 
bases in the region.

                       Strategy of Assassination

    Question. As you know, there have been calls in Congress and in 
some elements of the foreign policy community to pursue an 
assassination attempt against Saddam Hussein. I am not one who agrees 
that this is a reasonable or responsible policy. What is your general 
view of the notion of pursuing an assassination attempt against Saddam?
    CENTCOM Answer. I would not entertain any notion of pursuing an 
assassination attempt against Saddam. Such an effort is contrary to the 
U.S. policy implementing international laws that prohibit 
assassinations. Our obligations to the UN and various international 
treaties oblige us to refrain from using force in this way.
    Question. Are we damaging ourselves from a public-relations 
standpoint in the Arab community by pursuing this line of discussion?
    CENTCOM Answer. Yes.
    Question. Even if we accept that an assassination attempt is sound 
policy, what in your judgment is the likelihood that we could be 
successful in carrying such a policy out?
    CENTCOM Answer. I would not agree with the premise of the question. 
Assassination is contrary to U.S. policy and practice and I would not 
want to speculate further.

                           Saddam's Strength

    Question. There have been conflicting reports over the relative 
strength of Saddam's regime in his country and throughout the middle-
east region. How would you currently characterize Saddam's strength in 
Iraq?
    CENTCOM Answer. I do not believe that time is on Saddam's side, 
provided current sanctions can be maintained. His military faces the 
block obsolescence of many of their weapon systems in the near future. 
His security services maintain a climate of fear, which works to 
prevent overt opposition, but he faces the constant threat of 
assassination. Having said that, ------.
    Question. Is he stronger or weaker than before the coalition build-
up in the Gulf?
    CENTCOM Answer. Iraq's military strength and his ability to 
threaten his neighboring countries has steadily decreased since the end 
of Operation DESERT STORM. This has not changed during the recent 
crisis. The sanctions imposed by the UN have prevented Saddam Hussein 
from modernizing his military. His equipment is getting old and repair 
parts are becoming increasingly hard to get.
    Question. How is Saddam currently perceived in the Arab community? 
Is he viewed in a more sympathetic light since the build-up of 
Coalition forces in the Gulf?
    CENTCOM Answer. I believe that most Arabs recognize that the 
agreement negotiated by Kofi Annan was a retreat by Iraq from an 
untenable position, and that it was made possible by the forces we 
deployed to the region.
    Question. How would you forecast Saddam's long-term viability both 
in Iraq and in the Arab community?
    CENTCOM Answer. Saddam will govern Iraq for the foreseeable future. 
His regime is currently stable, and he is feared and respected. There 
is little internal threat to Saddam's regime. As long as he ------.
    Question. Is U.S. policy in Iraq strengthening or weakening Iraqi 
opposition efforts to overthrow Saddam's regime. Are there changes we 
could or should make in U.S. policy to facilitate or augment those 
efforts?
    CENTCOM Answer. The Iraqi opposition is badly divided and 
fragmented, ------. The opposition based outside the country is not in 
a position to bring effective pressure to bear against the regime and 
internal opposition is difficult given the pervasive control of the 
ruthless security services. I believe that our best course is to work 
to enforce sanctions, and deny the regime the possibility of 
reconstructing its WMD programs. I do not believe that time is on 
Saddam's side as long as sanctions remain in place. We have made clear 
that Iraq would be better off without Saddam, and that his departure is 
the only long-term answer, but we have stopped short of making his 
overthrow an objective of our strategy. I believe that is the right 
approach.

                                  Iran

    Question. In your statement, you mention that Iran remains 
potentially the most dangerous long-term threat to peace and stability 
in the Central Region. I would agree with that. The election last May 
of President Khatami, a moderate, progressive leader by Iranian 
standards, was a positive sign. However, as you know, Iranian 
Presidents have limited power and the real sources of power in that 
country continue to pursue the development of WMD and offensive 
missiles as well as justify terrorism as a means of achieving its 
objectives. In your judgment, what is the significance of the election 
of President Khatemi? Does his rise to power signal a desire by the 
Iranian people for a more progressive, tolerant political system? If 
so, in your judgment, will that translate into action on the part of 
the Iranian government to pursue more progressive, tolerant policies?
    CENTCOM Answer. Iran is at a crossroads and the desire of Iranians 
for change is clear. To what degree and at what rate that desire for 
change results in increased and permanent freedoms remains unknown. 
Indicators of positive change are evident. President Khatami is moving 
forward on his vision of an Islamic Republic that emphasizes economic 
development, social justice, less intervention in citizen's private 
lives, and reduced censorship. Iran's social demographics and economic 
needs will continue to drive reform. Recent events reflect this: press 
reporting is freer than at any time since the revolution, increased 
diplomatic visits, the Presidents' future visit to the UN, and the 
growing rapprochement with the GCC. In addition, we are seeing 
increased professionalism in their navy. Conservative religious leaders 
continue to oppose reforms through institutions controlled by 
conservatives that manipulate the political system, promote the 
development of weapons of mass destruction, as well as support 
terrorist groups.

                       Iranian Missile Production

    Question. There have been a number of reports alleging that the 
Iranian government is engaged in a crash program to field two medium-
range missiles, Shahab-3 and Shahab-4 within the next year or two. The 
missiles could have enough range to hit targets throughout the Middle 
East and a longer-range version may eventually be able to target 
Europe. Recent reports have further alleged that the Russians are 
carrying out secret missile technology transfers to Iran to assist them 
in that effort. How would PAC-3, our most mature Theater Missile 
Defense system in its current configuration, fare against a Shahab-3 or 
Shahab-4 missile?
    CENTCOM Answer. Based on available data, the Patriot Program Office 
has assessed performance capability for the PAC-3 system against these 
threats. ------.
    Question. How would a fully configured PAC-3 fare against that same 
threat?
    CENTCOM Answer. ------.
    Question. What can you tell us about Arrow's capacity to meet the 
Shahab-3 and Shahab-4 threat?
    CENTCOM Answer. ------.

                        Theater Missile Defense

    Question. Can you provide a general assessment of the missile 
threat of would be aggressors in your region at this time?
    CENTCOM Answer. The general trend is the development of longer 
range, higher velocity missiles. Pakistan's recent test launch of a 
medium range ballistic missile (MRBM) confirmed the presence of these 
missiles in the region. ------.
    Other trends are the use of forward, underground or bunkered 
missile facilities, and the general hardening of strategic missile 
infrastructure. Also, countries are acquiring many vehicles from the 
former Soviet Union suitable for use as mobile launchers. Such 
developments will greatly enhance overall missile force mobility and 
operational flexibility. A similar trend is seen in efforts to acquire 
solid missile technology that will significantly reduce the logistical 
requirements and signature of these systems.
    Question. Do you believe we ought to be putting more resources 
behind deploying TMD capability more quickly than currently planned?
    CENTCOM Answer. I feel the forces deployed and systems being 
developed are appropriate to answer the threat we face today and in the 
future. ------. System commonality adds value to our relationship with 
the host nations. The development process must include Foreign Military 
Sales (FMS), training, exercises, system upgrades and operations. 
Seamless interoperability adds flexibility and common ground from which 
to plan and operate. In addition, ------.
    Question. In your judgement, which TMD systems should be considered 
highest priority?
    CENTCOM Answer. The current Theater Missile Defense (TMD) core 
programs, PAC-3, THAAD and Navy Area Defense are most essential to U.S. 
Central Command's (CENTCOM) near-term air and missile defense 
capability. These systems represent the best capability against the 
existing threat in the short term. Additionally, ------. Airborne Laser 
Technology and Aegis Theater-Wide Defense systems will eventually 
provide UPPER TIER defense capabilities. ------. When integrated into a 
robust Command, Control, Communications, Computer, and Intelligence 
(C4I) architecture, these LOWER and UPPER TIER weapons and evolving 
sensors will address CENTCOM's requirement for a near leak-proof 
defense against the evolving TBM threat. However, the near term core 
programs should not be delayed in order to fund long term systems.
    Question. Are there any TMD programs that, in your judgement, are 
underfunded or that ought to be accelerated?
    CENTCOM Answer. Theater Missile Defense programs I identified in 
U.S. Central Command's (CENTCOM) Integrated Priority List (IPL) are 
being addressed adequately, and their progress to operational 
capability is satisfactory.
    Question. General, one of the things you and I have discussed is 
the threat from the Russian-made NOVATOR Missile. Can you give the 
subcommittee an overview on both the capability and availability of 
this missile in the Central region?
    CENTCOM Answer. ------.

                             Swing Strategy

    Question. Would you please discuss the risks placed on your mission 
by the strategy of ``swinging'' high-value assets such as bombers and 
Joint STARS between theaters?
    CENTCOM Answer. Swing, or dual-apportioned, forces are high-
value,low-density forces that are committed to the first of two Major 
Theater Wars (MTWs). The decision to ``swing'' forces will be made by 
the National Command Authorities upon execution of the second of two 
MTWs. ------.

    [Clerk's note.--End of questions submitted by Mr. Dicks.]
                                            Tuesday, March 3, 1998.

      COMMANDER IN CHIEF, UNITED STATES SPECIAL OPERATIONS COMMAND

                               WITNESSES

GENERAL PETER J. SCHOOMAKER, COMMANDER IN CHIEF, UNITED STATES SPECIAL 
    OPERATIONS COMMAND, UNITED STATES ARMY
COMMANDER TIM BOSILJEVAC, UNITED STATES NAVY
MAJOR ERIC WELLER, UNITED STATES AIR FORCE, AIR NATIONAL GUARD
CAPTAIN CURTIS HUBBARD, UNITED STATES ARMY
MAJOR CHRIS BAILEY, UNITED STATES ARMY
SERGANT FIRST CLASS LARRY REIS, UNITED STATES ARMY
CAPTAIN BEAUDETTE, UNITED STATES ARMY

                              Introduction

    Mr. Young. The Committee will come to order.
    This afternoon, the Committee, in closed session, will hear 
testimony from General Peter J. Schoomaker, United States Army, 
Commander is Chief of the U.S. Special Operations Command. 
General Schoomaker has brought with him a number of the troops 
who actually do the missions, who will report firsthand about 
some of the operations they have been involved in since our 
last hearing 2 years ago.
    This is the General's first appearance before the Committee 
as Commander in Chief, although he has been here before and he 
has been involved in the modern era of Special Operations from 
its rebirth in the 1970s. In fact, he was a member of the 
hostage rescue team sent into Iran in April of 1980, which led 
to the creation of the Special Operations Command 10 years ago.
    As the world changes, so does the threat, and many of the 
threats we face require the forces under your command to be 
prepared to respond at a moment's notice. You have mentioned to 
us how may many opportunities that you and your forces have to 
do the things that you do best. We will hear about some of 
those today.
    The Cold War has been replaced by threats from rogue 
nations, terrorism, narcotics trafficking, and the growing 
availability of weapons of mass destruction, all of which are 
in many ways more dangerous and unpredictable. Our special ops 
forces are being called upon more each day to control these 
problems.
    We appreciate the work that all of you do. We recognize the 
delicacy of some of the things that you do and the threat to 
the lives of those conducting these operations. We are very 
proud of what you do, and it is just unfortunate that the 
general public never hears about most of the good things that 
you do for obvious reasons.
    We would like to hear about some of those today, General, 
and we hope that when this hearing is finished that you will 
have an opportunity to, as you visit with your troops, to let 
then know how proud we are of the work that you do.
    Mr. Murtha, I will ask you for any opening statement.
    Mr. Murtha. I have none at this time, Mr. Chairman
    Mr. Young. General, please proceed. Your entire statement 
will be placed in the record along with your biography and you 
may summarize it as you wish, and then I would suspect we would 
have quite a few questions for you and the gentlemen that you 
have with you.

                Summary Statement of General Schoomaker

    General Schoomaker. Thank you very much, Mr. Chairman. Mr. 
Chairman, distinguished members of the Committee, I am honored 
to appear before you today on behalf of the 46,000 soldiers, 
sailors and airmen of the U.S. Special Operations Command. As I 
mentioned to year earlier, the last time I was in this room, I 
was sitting in this chair right there with General Lindsay, as 
a matter of fact, when he came up here for his first testimony 
and I was one of these young guys here. So that is 10 years 
ago.

                     USSOCOM--STATE OF THE COMMAND

    Time and again this past year, members of our special 
operations forces, SOF, performed superbly in a variety of 
challenges around the world. Success was due in large part to 
the strong support of Congress, and the Administration and the 
American people. But more importantly, we succeeded because of 
quality people, outstanding leadership, and the ability to 
adopt and persevere in an environment characterized by change 
and uncertainty.
    SOF units, both under my command here in the United States 
and those assigned to the geographic Commanders in Chief, are 
trained and ready, capable of fulfilling all of our assigned 
missions. Our tempo of operations is high. This past year we 
deployed SOF teams to 144 countries, conducted 17 actual crisis 
response operations around the world, completed 224 Joint 
Combined Exercises for Training in JCETS, 98 countries, 
conducted 194 counter drug missions in 20-plus locations, 
andconducted humanitarian demining missions in 11 countries.

                        USSOCOM--BUDGET REQUEST

    I might point out that we conducted all of these missions 
for less than 1.4 percent of the entire DoD budget and 
personnel. Actually, USSOCOM's discretionary spending is less 
than one percent of the DoD budget, when military pay, which is 
budgeted by the services, is removed from the equation.
    While this makes SOF a pretty good bang for the buck for 
the American taxpayer, this relatively small amount of 
discretionary funds leads us leverage to other sources of 
funding to do our SOF missions. Our leveraging efforts have 
paid big dividends in mission areas, such as humanitarian 
demining, the African Crisis Response Initiative, and the 
counter drug programs, all 3 of which you will hear about 
during our operator vignettes that will take place here in just 
a few moments.
    SOF plays a major role in all three efforts and that 
participation, to a large extent, is funded by sources other 
than Major Force Program-11. One area in which we have not been 
as successful in the leveraging of other sources of funding is 
base operations support. The USSOCOM budget does not provide 
base operations support for SOF. As budgets across the 
department of Defense have become tighter, USSOCOM has come 
under pressure to pay for enlist this kind of support without a 
corresponding major increase in program funds. Base operations 
funds directly affect the readiness of all of our service 
members, and I would urge the committee to support the 
Department's request for full funding.
    Our high tempo of operations requires us to manage 
carefully, but the morale of the force is high because our men 
and women are fully engaged in the types of missions for which 
they volunteered and were trained. As with the other unified 
commands, USSOCOM provides an operational environment, 
characterized by accelerating geopolitical change, rapid 
technological advancement, evolving threats, strained resources 
and potential new roles. These factors require innovative 
thinking and new ways to shape change if we are to provide the 
widest array of options in protecting America's interests. The 
truth is, business as usual will not provide the capabilities 
we need to deal with the transactional and asymmetrical threats 
of tomorrow.
    We realize that USSOCOM must embrace and institutionalize 
the process of change in a disciplined manner, which will allow 
us to remain the most capable and relevant special operation 
force in existence. Consequently, our organization, force 
structure, platforms, equipment and missions must and will 
continuously evolve to meet the needs of the Nation and seize 
the opportunities brought about by change.

                                SUMMARY

    Finally, I can think of no more valuable partner for our 
special operations forces than Congress. We truly value your 
leadership, advice and assistance, as we prepare now to meet 
the many difficult challenges ahead. As I mentioned, we in fact 
are a creature of Congress in terms of creation in USSOCOM, 
which we appreciate.
    [The statement of General Schoomaker follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                          DEPLOYMENT VIGNETTES

    General Schoomaker. Thank you Mr. Chairman, for the 
opportunity to make these brief remarks. Accompanying me today 
are operators from our components who will briefly describe 
deployments they have participated in during the past year. 
These are representative of the types of activities in USSOCOM 
is involved in every day. The first operator who will speak to 
you is Commander Tim Bosiljevac. Tim is a Navy SEAL who 
recently participated in counter drug operations in Colombia.
    [Clerk's note.--The Committee was unable to print the 
photographs described in the following vignettes.]

                    COLOMBIA COUNTER DRUG OPERATION

    Commander Bosiljevac. Good afternoon, Mr. Chairman. I 
appreciate this opportunity today, and although I am sitting in 
this chair, in 10 years I do not expect to be sitting in that 
chair. Nonetheless this is a novel opportunity as a Navy SEAL 
to get out of my wet suit and put on dry clothes, and I 
appreciate that very much.
    I am from Emporia, Kansas,and I can assure you that is a 
pretty good drop zone for parachuting, pretty flat and devoid 
of trees. I have a Bachelor of Science Degree in political 
science, a Master of Arts in history, and I have about 20 years 
experience in the military, most of that in maritime special 
operations and also counterterrorism and rescue.
    Some of the experiences I have had are the: Achille Lauro 
ship hijacking, Operation JUST CAUSE in Panama, and operations 
in Somalia. I would like to brief you this afternoon on another 
experience I had just this last year when I commanded a 10-man 
SEAL unit on a counternarcotics joint planning assistance team 
JPAT, to the country of Colombia. We do many things all around 
the world. A lot of our operations deal with training and 
training with foreign forces in an exercise environment. JPATs 
are a little bit different. JPATs are few and far between, but 
in JPATs we actually go forward into operational bases out in 
the sticks of many of these countries and we train and assist 
and advise forces which are actually conducting combat 
operations, in this case, against narco terrorists.
    We conduct in Southern Command about 8 of these JPATs per 
year in the country of Colombia, 6 of those being accomplished 
by Army Special Forces and another 2 by Navy SEALs. The one I 
am going to talk to you about occurred in late spring of 1997.
    To give you a little bit of background, sir, in October 
1996 we conducted one of these JPATS in San Jose del Guaviare. 
It was highly successful. At the end of the 4-week JPAT, 
approximately a half million dollars worth of coca paste and 
precursor chemicals was captured and destroyed. The U.S. 
Southern Command and the military in Bogota desired to 
replicate that success. They set us up for our 1997 JPAT in a 
Colombian air base in the southern part of Colombia, Tres 
Esquinas. This is much like the Cajun country of Colombia. 
Highly rough terrain, only one road in and out of the base. 
Everything else, as you can see by these photographs, moves 
pretty much by river.
    When we conduct these operations, these JPATs, we go down 
and train and live with them on a daily basis in these forward 
base areas with these forces and we assist them in planning 
operations. But we do not leave those bases and conduct the 
operations with the forces. We had 4 weeks to conduct this 
mission, this JPAT. The first 2 weeks we dedicated mainly to 
training the force. These were forces that already had very 
good soldiering skills. We hopefully enhanced them a little bit 
more. A couple of photos we highlight some of that training. 
This is combat medical training, sir, and this is prisoner 
handling techniques.
    During the first 2 weeks, we also dedicated a certain 
amount of the force in assisting, planning, and targeting for 
missions that they would conduct during the final 2 weeks of 
our stay.
    While the Colombians had very good human intelligence, our 
forces provided a little bit of technical assistance through 
our experience. We had personnel stationed in a 4 base in 
Panama, Naval Special Warfare Unit-8, adjacent to Howard Air 
Force Base. Those personnel would ride aboard U.S. Navy P-3 
aircraft conducting primarily surveillance and air interdiction 
of counternarcotics in missions over Colombia over many hours. 
As a secondary mission our personnel will direct aircraft over 
areas of interest in order to research targeting and extraction 
information.
    Once the aircraft landed back in Panama, those digital 
photographs taken by our personnel on board would be converted 
into data files. Those would be sent via satellite 
communications link to our forward base at Tres Esquinas where 
we would bring them up on laptop computers. We would review 
that information, those photographs, with the host nation 
leadership and assist them in planning, the detailed planning 
of these operations.
    Now, during our 4 weeks in Tres Esquinas, the host nation 
conducted 4 combat raids, and as you can see here, sir, in each 
case, coca fields were found, labs were found, coca paste was 
found, seized and all destroyed. We had very good success down 
there. During our 4 weeks, we estimated approximately $280,000 
worth of coca paste, precursor chemicals, and equipment was 
found and destroyed.
    So, although we provided good technical assistance, we also 
felt a large part of our success when combined with the 
technological assistance that we gave them, was the importance 
of our physically being out there, sharing conditions with them 
in these forward camps, being able to work with them every day, 
providing a very strong working relationship and rapport with 
them, sir. I will be followed by Major Eric Weller.

                        BOSNIA EC-130 OPERATION

    Mr. Young. Thank you for an excellent presentation.
    Major Weller. Sir, my name is Major Eric Weller. I come 
from Boiling Springs, Pennsylvania. I graduated from 
Shippensburg State University with a degree in criminology. I 
have had 17 years military experience as a guardsman. I fly 
with the 193rd Special Operations Wing out of Harrisburg, 
Pennsylvania. We fly six EC-130 aircraft. They are unique 
aircraft. Our primary mission, sir, is psychological operations 
or broadcasting radio and TV programs, and a secondary mission 
of jamming operations.
    While with this unit, I have had the opportunity to deploy 
during the invasion of Grenada, Panama, desert shield-desert 
storm, Sea signal in Haiti, and the operation I would like to 
talk to you about today, JOINT GUARD in Bosnia.
    Back in the August 1997 time frame, it was determined that 
one of the Serbian factions had pretty much taken over control 
of the Serbian media. They were broadcasting anti-SFOR or 
stabilization force propaganda which pretty much put the SFOR 
ground forces in harm's way.
    Also during that time, they had pretty much taken over, or 
had not parlayed the equity within the other Serbianfactions in 
regards to the upcoming elections in the October, November time frame. 
That faction was in the Pale area, by the way, held by Mr. Vladimir 
Karanovich.
    Anyway, General Shinseki from SFOR asked our unit to come 
over, give capabilities briefings, let them know what we could 
do, and figure out how we could work ourselves in the media 
compliance plan, called the Bosanova plan. This plan was about 
a 5 or 6-year plan. The first pillar was basically peaceful 
interdiction ultimately working up to destruction of radio and 
TV stations. In that plan, we again supplemented the 4th 
Psychological Operations Group with radio and TV broadcasts and 
we were also called upon to stand alert for additional command 
and control type jamming and radio and TV type jamming.
    Upon receiving our execution order from the Chairman of the 
Joint Chiefs, we were told to do something that we normally 
don't do, which was open up the deployment to the worldwide 
media. Consequently, our deployment was broadcast on CNN 
International and every other major news organization that you 
can think of. They followed our planes across the pond into 
Brindisi, where we bedded down with the other Air Force Special 
Operations Command or AFSOC forces.
    While in theater, we did fly some radio and TV missions and 
also stood alert for potential jamming missions. After the 
elections, it was determined that things had quieted down 
enough that we were able to redeploy.
    One of the things, though, about the deployment I wanted to 
point out was that it in itself was a PSYOPS campaign. By the 
time we had gotten into theater, it was determined that the 
Pale Serbs had pretty much come into compliance with the Dayton 
Peace Accords.
    On our redeployment, the other thing I wanted to point out, 
was that we were still held on a 96-hour string, which means 
that we have 96 hours to get back in the theater if we are 
needed. While in theater we flew about 55 missions, 
approximately 5 hours each, logging approximately 250 hours on 
our aircraft.
    Sir, that concludes my portion of the briefing. I will be 
followed by Captain Hubbard.
    Mr. Young. Thank you very much.

                            NAMIBIA DEMINING

    Captain Hubbard. Good afternoon, Mr. Chairman.
    My name is Captain Curtis Hubbard. I am originally from 
Boone, North Carolina, which by the way Mr. Hefner knows where 
it is, although he is not here today. I graduated from the 
University of Miami with a degree in music education, which 
usually gets a roaring response from most of the generals in my 
chain of command. I graduated from there and went to officer 
basic course at Fort Sill as an artillery man and eventually 
spent time in the 82nd Airborne Division for artillery before 
coming to Special Forces. I have been on the team almost 2 
years, I speak some French, and I have done 4 OCONUS 
deployments to Africa. I would like to talk about the most 
recent 2 I have done, which are both demining related.
    Demining Operations started in 1995 for my unit, but it has 
been going on concurrently throughout the whole world through 
the special operations, specifically the Middle East, Africa, 
Europe, Asia, and I would like to deal specifically with 
southern Africa because that is where my battalion, our area of 
responsibility is. We are currently in Mozambique, Rwanda, and 
this summer we will be going to Zimbabwe for the first time.
    In our demining program, the most important thing for one 
to remember is that it is a ``train the trainer'' program, 
meaning that we go over and we teach the Namibians to teach 
Namibians, and that supports our end-state, which is a self-
sustaining, in place demining program, which means we can leave 
it, work ourselves out of a job and go home and we know that 
the work is still being done. I selected pictures today that 
hopefully represent this with the Americans in the background 
teaching the instructors, who then again are teaching the 
soldiers how to do this.
    Namibia specifically has a unique mine problem. As I said, 
we went there first in 1995 and we went again this year in 
September, and we just went back again. I got home about 2 
weeks ago from the most recent mission. We have trained two 
companies, we call them conventional deminers, which is a 
standard probing, and that is using mine detectors. Namibia has 
a unique mine situation after their guerrilla war 8 years ago. 
The South Africans, had mines along the power lines coming 
south from the border of Angola. That was the main power for 
all of southern Namibia.
    What happened after the war, was they scooped all of these 
mines up and put them in piles around the pylons, these high 
tension power lines. So instead of a 1-dimensional mine problem 
you now have a 3-dimensional mine problem. So the guys at Fort 
Belvoir helped us out and developed something called a berm 
processor, which looks like a potato-picker but works like a 
flour sifter. That is the only way I can describe it. It takes 
up about the size of the square in the middle of this room. It 
scoops out the dirt, the dirt falls through, exposing the mines 
on top of the ground. Our last mission was integrating this 
with the conventional mine field clearing operations.
    Namibia is about \9/10\ complete with their conventional 
mine fields and we are expecting about 2 years from now they 
should be completely done. Ambassador Ward is supporting a 
program for a regional demining school in the area, which will 
bring the whole southern region of Africa together in a 
demining school, and hopefully will reduce some of us going 
over there all the time.
    There are many obvious, and some not so obvious, demining 
benefits for us. The obvious ones are we are saving lives, 
returning the land to civilians, and just generally helping 
spread U.S. influence throughout the region. Some of the less 
obvious that deal with ODA commanders and their teams directly, 
is that we are a force multiplier on the ground. The way we are 
really helpful is by knowing the country and its people, and 
the only way to get to know them, and you can't learn that from 
books, you have to be in country with the people, working with 
them, as much out of 365 days out of the year as you can. The 
demining program has helped with that significantly because we 
are in there a lot more, working with the soldiers.
    There are other reasons, though--not so obvious reasons, 
and that is we are there to help out in contingency or crisis 
situations. For example, the C-141 that took me on the 
September demining mission was involved in a tragic midair 
collision with a German passenger--well, it was a military 
passenger--plane. So I got a change of mission within the first 
48 hours on the ground of conducting search and rescue 
operations at that point. So we were able to establish the 
first communications link back to the United States as well as 
our command in Europe, and help out in thatsituation. We had 
people in the air looking for sites, looking for survivors, and we were 
also on the boats picking up the debris. So we were able to react to 
things very quickly and be helpful.
    In conclusion, I would like to say this is a worthwhile SOF 
mission and we will have lasting results in southern Africa, as 
well as the country that was close to my heart, Namibia. Thank 
you, Mr. Chairman.
    Mr. Young. Captain Hubbard, thank you very much.

                    NAMIBIA PSYCHOLOGICAL OPERATIONS

    Major Bailey. Good afternoon, Mr. Chairman. My name is 
Major Chris Bailey and I am the executive officer for the Third 
Psychological Operations battalion. I have a Bachelor's Degree 
in engineering from Idaho State University and a Master in 
International Relations from Troy State. I am strongly familiar 
with the French language. I currently hail from Goldsboro, 
North Carolina. I have experience with psychological operations 
for 10 years now, 10 out of the 13 years that I have been on 
active duty, and some of the assignments that I have been 
involved are Operation JUST CAUSE, Operations Desert Shield and 
Desert Storm, Operation PROVIDE REFUGE out in the Republic of 
the Marshall Islands; recently Operations JOINT ENDEAVOR and 
JOINT GUARD, and I just completed a command tour where I was 
responsible for providing psychological operations support to 
Haiti, as well as demining and mining awareness programs in 
Central America.
    In 1995, Psychological Operations went to Namibia to 
reinforce the information side of the Special Forces program 
that Captain Hubbard was just talking about. The objective was 
to work with the Namibian government to provide a national 
campaign of information to advise and assist the local 
population in identifying, avoiding and reporting mine problems 
throughout their northern areas. We have also got an unexploded 
ordinance, which Captain Hubbard did not mention, which I 
believe is going to be a more long-term issue, but I believe in 
the long run the 2-year program that he discussed regarding 
Ambassador Ward's program is going to pretty much solve that.
    In 1995 we went over there and we conducted the program and 
we used the Namibian Administration of Information and 
Broadcasting to assist us with the dissemination part of that 
program. Right over here to my left I have a few products that 
were actually produced during that time frame. The national 
theme and national logo that they used is ``don't touch it, 
report it,'' and then of course you have this Namibian triangle 
with a small kid saying, avoid it. This was actually used on 
several of the promotional products that were bought during 
that time frame. Baseball caps, T-shirts, soccer balls, things 
that were actually issued to the children as a constant 
reminder to not touch and avoid.
    Additionally, we used a poster that we set up in the local 
population centers, post offices, police stations, as well as 
schools, and this actually gives you photographs of ordnance 
and what not to touch and also some mines.
    Over here we have an insert that was used in the national 
press, The Namibian, which is their multi-lingual newspaper 
that covers Africans, Oshiuambo and English, which goes 
throughout the country as a constant reminder. Furthermore, the 
PSYOP team, on the ground at that time prepared public service 
announcements, all of which are currently running today, 
television and radio broadcasts, which leads us to our mission 
this last summer.
    They had an ongoing program and it had some effect, but it 
lost momentum, so the objective of our program this last summer 
was to reenergize that program and work the self-sustaining 
piece that again Captain Hubbard mentioned where we get them 
back on their feet and give them the tools to continue.
    We started our program with a 2-week block of instruction. 
I had a Reserve psychological operations broadcast specialist 
with me, I had a civilian technical cultural analyst with me, I 
had two PSYOP soldiers with me, and myself, and we worked with 
The Ministries of Information and broadcasting, the Ministries 
of Defense, and the National Police Force, and trained them on 
computer graphics techniques using up-to-date computer graphics 
software and peripherals, and then we moved on from there into 
media integration and planning.
    We also worked a 2-year straw man plan with the National 
Demining Committee that when we left was fairly complete. They 
were still on the table working that out with the committee as 
well as Ambassador Ward and the host nation country team.
    During that same time I was working product procurement. We 
procured $195,000 worth of promotional products using State 
Department demining money, similar to what we had purchased in 
the last event. The purchase, though a one-time purchase, would 
apply to products that were developed as a result of the 
training that we provided, so the students that we taught would 
actually produce new logos and new symbols. I have a T-shirt 
here that was actually one of these products. I couldn't bring 
everything, but everything from rulers to baseball caps to 
pencils, to soccer balls, shorts, things that would have 
lasting value and be seen over a broad expanse were produced. 
And then they would be distributed using that 2-year plan 
instead of a 1-time shotgun blast.
    Sir, in conclusion, I would like to say that this has been 
a very successful program. I have been excited about the amount 
of energy that the embassy has put into this. The nation has a 
commitment and the national ministries have a commitment to 
this, and I really have enjoyed working the program, and I 
appreciate the opportunity to brief you this afternoon.
    Mr. Young. Major, thank you very much. We appreciate you 
being here.
    Major Bailey. I will be followed by Sergeant First Class 
Reis.

                         SENEGAL-ACRI OPERATION

    Sergeant Reis. Good afternoon, Mr. Chairman.
    My name is Sergeant First Class Larry Reis, and I was born 
and raised in Santa Maria, California. I have been in the 
military now for approximately 10 years, during which I served 
at the First Cavalry Division out of Fort Hood, Texas, the 82nd 
Airborne Division in which I participated in Operation Desert 
Shield and Desert Storm, and for the past 4 years I have been 
assigned to the Special Forces.
    During that time I was deployed to Haiti for Operation 
restore, uphold and maintain democracy. I have also conducted 
training in France, Mali and Senegal. I am a static-line 
jumpmaster and also completed the survival escape, resistance 
and envade, better known as the SERE course. In am Operations 
Intelligence qualified, and I have a good working knowledge of 
the French language.
    My team and I deployed to Senegal as part of the African 
Crisis Response Initiative, or better known as ACRI, on 20 
July, 1997. Upon arriving in Senegal, we set up our operational 
base and began the preparation process of theSenegalese forces. 
During the preparation process of an 800-man Sengalese battalion, we 
issued each soldier nonlethal individual equipment consisting of boots, 
uniforms, canteens and various other field equipment. Organizational 
equipment was also issued at this time, consisting primarily of 
communications and mine detection equipment.
    As depicted by this picture here, sir, we also had a U.S. 
Army optometrist conduct eye examinations and issue eyeglasses 
as needed, and necessary vaccinations were also conducted at 
this time. With the conclusion of the preparation process of 
the Senegalese forces, we moved into the training portion of 
our mission, which was actually broken down into 4 phases, 
phase 1 being the basic U.N. task phase.
    The basic U.N. task phase emphasized tasks that every U.N. 
soldier should know, and some of those tasks were the 
organization and the operation of the United Nations, 
peacekeeping principles, and the code of conduct of U.N. 
personnel.
    During this time we also took the time to go ahead 
evaluated the Senegalese tactics to enable us to identify 
future training requirements by assessing their strengths and 
their weaknesses, which moves us into phase 2, which was the 
small unit tactics phase, sir. This phase, what emphasized 
force protection measures, measures to protect themselves and 
other measures to protect the other folks.
    Then we moved into phase 3 of our operation known as the 
Peacekeeping Operation phase. The peacekeeping operation phase 
emphasized responsibilities while in a peacekeeping mission 
posture. Some of the tasks conducted were things such as the 
organization and the operation of a checkpoint, securing a 
route, convoy security, the moving of dislocated civilians, and 
also the identifying and processing of detained personnel.
    At the end of each of these tasks, a practical exercise was 
conducted to determine the soldiers' ability to conduct each of 
these tasks. If they were not capable of conducting it, we 
would retrain them and they would keep going until they did 
pass it.
    Then we moved into phase 4 which was known as the training 
exercise phase, a situation which is depicted by these two 
pictures here. I would like to point out also, the equipment 
that we were given, this picture here is a soldier setting up 
for a situational training exercise. He is using actual 
equipment that we had provided him, such as the computer, 2-
programmable hand-held Motorola radios that we gave him to use 
for command and control, and this picture shows him actually 
running the operations that we were giving him at that time, 
sir.
    Now, a situational training exercise was conducted on the 
operation to give the Senegalese a realistic, practical 
exercise to learn by. It was just like a training environment. 
We gave them a situation to deal with and they dealt with them, 
and we were there to help them and assist them in any way 
possible.
    After that we moved into a field training exercise. This 
exercise was conducted to give the Senegalese a chance to plan 
and train for tasks that we taught them. And after that, we 
gave the Senegalese task force commander a mission tasking 
statement which enabled him to train and conduct a simulated 
peacekeeping mission unilaterally, with minimal assistance from 
United States forces.
    At the conclusion of the FTX we moved into the critique 
portion. We critiqued the Senegalese performance during the FTX 
and pointed out their strengths and weaknesses. The Senegalese 
were deemed capable of conducting such operations by receiving 
a 70 percent go in all operations that they conducted.
    We then held a graduation ceremony and redeployed to Fort 
Bragg on 25 September, 1997. I would like to point out that I 
am redeploying back over to Senegal in 7 days to conduct the 
second portion of the ACRI concept, which is the sustainment 
phase for the Senegalese forces.
    This concludes my portion of the brief and I will be 
followed by Captain Beaudette.
    Mr. Young. Sergeant, thank you very much.
    General Schoomaker. I would point out that by giving them 
the eyeglasses improved their shooting.

                         SIERRA LEONE OPERATION

    Captain Beaudette. Good afternoon, Mr. Chairman.
    I am Captain Beaudette, currently assigned as the assistant 
operation officer for Third Special Forces Group based at Fort 
Bragg. My hometown is Canton, Connecticut. I have been in 
Special Forces for the past 3 years now, 2 years of which I 
served as a commander on an operational detachment. I am a 
native French speaker. I have had the opportunity to travel 
within approximately 12 countries within our area of 
responsibility.
    Two recent operations I have been involved with, sir, are 
joint task force Nobel Obelisk in which we assisted in the 
noncombatant evacuation of the U.S. embassy and staff, along 
with the approximately 2,500 American citizens and third 
country nationals. The second operation is Operation firm 
response which was the following week, where we assisted again 
in the noncombatant evacuation of the U.S. embassy and staff. 
It was primarily a French-run operation, and I served as the 
member of the EUCOM survey and assessment team and again had 
the opportunity to work as a liaison to the French Foreign 
Legion since they had two regiments on the ground.
    The photos here depict joint task force Nobel Obelisk. We 
had been conducting joint, combined and exchange training in 
the country of Sierra-Leone for approximately 4 weeks, when on 
Sunday morning our compound erupted in gunfire. We were 
conducting our morning physical training. Immediate actions 
were taken to establish a defensive perimeter, and we gained 
contact with our higher headquarters based out of Europe and 
also our group headquarters at Fort Bragg.
    We tried to establish contact with the embassy and staff as 
quickly as possible, which difficult, in that it was a Sunday 
morning and the embassy personnel again were caught at the 
residential compounds and were isolated from the chancellary 
building.
    In the second photo, Ms. Ann Wright, was the deputy chief 
of mission. The ambassador had left for home leave the week 
prior.
    Some of the tasks which we accomplished in support of the 
operation were the conduct of initial planning for the 
evacuation. We had the ability to conduct advanced 
reconnaissance of the NEO site itself, the landing zones, and 
we moved the embassy staff and personnel down to the actual NEO 
location. In addition, we provided security at the 2 
residential compounds while we were there. Both compounds had 
been broken into the first night prior to ourarrival from our 
training location. We also had the opportunity to go down to the 
chancellery and recover 2 young Marine guards who had been isolated 
from the rest of the embassy staff. This photo here depicts the team 
prior to our departure from the actual NEO location.
    The main role, I should say, of our detachment in the 
operations was real-time tactical communications ultimately 
between the embassy and higher headquarters, both back in 
Washington, as well as our higher headquarters back in Germany, 
and that due to the fact that they were caught at the 
residential area, they didn't have the appropriate 
communications gear, but we were able to provide that.
    The last photo depicts a detachment getting ready to 
conduct a special reconnaissance mission, back ashore from the 
USS KEARSARGE. We were initially tasked to evacuate 175 people 
from Freetown, and that number ballooned to 2,500 because of 
the mission requirements.
    At the conclusion of the exercise, the operational 
detachment went back ashore in Senegal. The team and I had to 
go back to Europe and debrief the commander of SOCEUR, and that 
afternoon I again had the opportunity to redeploy to 
Brazzaville, Congo and assist in Operation firm response, 
another similar type operation, this time managed by the 
French.
    Sir, this concludes the vignettes.
    Mr. Young. Captain, thank you very much.
    I wanted to repeat what I had said earlier. It is just 
really too bad that each of you and your teams and your 
services and the country doesn't get much recognition for all 
of the good things that you are doing in many, many different 
parts of the world. For those of us who know about it, just 
understand that we are very, very proud of each of you and the 
good work that you do.
    If you have any quick questions for the operators who have 
testified, we will do that first, and then we will go to a 
round of 5-minute questions. The reason we are going to have to 
adhere strictly to the time, because then we want to go to a 
higher level of classification, to discuss some other 
activities and special operations that we can't at this level 
of classification.
    So let's just----
    Mr. Murtha. Mr. Chairman, I want to know how it is that a 
Marine, 2 Marines, when there were 2 out there isolated and you 
happened to rescue those 2 Marines?
    Captain Beaudette. Sir, they were caught conducting shift 
change. The coup actually erupted downtown in Freetown and one 
Marine had come to relieve his buddy.
    Mr. Murtha. Two of them. How many enemy were there? I mean 
two was plenty to take care of.
    Mr. Dicks. Do the Marines speak French?
    Mr. Young. All right. Mr. Hobson.
    Mr. Hobson. I have one question to the last briefer here.
    It is very interesting, the fact that you went over to do 
one mission and while were you there, you had to do another 
mission. Do you feel--I am sure you are going to say yes to 
this, but your training was not as a crew to do the mission 
that you wound up doing. So do you feel you were actually 
prepared for that, and are your crews, your teams trained in 
that some of your mission could change and you have to become 
proactive, because all the rest of them you were in a special 
mission. This one switched on you all of a sudden.
    Captain Beaudette. Yes sir. The primary purpose of the 
Joint Combined Exchange Training or one of the purposes, is our 
training as well as that of the host nation. That being the 
case, we bring along all of the equipment which we would 
require to conduct any type of operation. It is an excellent 
opportunity for us to get within our assigned area of 
responsibility, and for the team members to practice language, 
the cross-cultural communication that is so important to us, as 
well as to employ some of our weapons systems, practice some of 
the communications means which we use during the operation. So 
in the 4 weeks prior, we had ample time and opportunity to 
train on these types of systems, the JCET being just a small 
piece of what we do. So, yes, sir, I will answer that I felt 
that we were--that we were prepared, that we had brought the 
appropriate amount of equipment, as well as the appropriate 
amount and types of ammunition in order to be successful in any 
type of mission, and I think that--you know, I was very proud 
of my soldiers that it somewhat exemplified or illustrated the 
flexibility which they have to go from a training-specific 
mission to a contingency operation.
    Mr. Hobson. Thank you. That is very interesting.
    General Schoomaker. Mr. Hobson, if I could just add, the 
most important thing that we have in Special Operations is our 
people. There is no question about it. We talk about training 
for certainty and educating for uncertainty, and that is what 
we feel makes us so relevant today and what is the most 
important piece that we are going to have to be relevant 
tomorrow. Of the 17 crises that we responded to this year, we 
were in place in 8 of those doing something else at the time 
that the crises erupted and were able to do the kinds of things 
that he depicted there.

                             RESERVE FORCES

    Mr. Dicks. I was interested, didn't one of the soldiers say 
that they were in the reserves?
    Major Weller. Yes, sir.
    Mr. Dicks. The Guard, National Guard.
    I would just like to ask you, how is it for guardsmen in 
the Special Forces? How do you fit in? How is your rating?
    Major Weller. We think it is great. Special Operations 
takes care of us. We get the appropriate training that we need. 
Each guardsman in the flying business is afforded 48 flying 
training periods per year. We have more than enough flying 
time. And as I have mentioned, we are deployed all over the 
world, so I mean we feel that we are right up to snuff with the 
active duty from our side.
    Mr. Dicks. What percentage of the Special Forces are Guard 
and Reserve?
    General Schoomaker. I probably should answer that. Thirty 
percent of USSOCOM, 30 percent of the 46,000 that we have are 
Reserve component, 65 percent are on active duty, and then 5 
percent are civilian. So it is a very important piece of our 
force. And as I had mentioned to you before, for instance in 
Bosnia, today we have nearly 800 people actually in Bosnia-
Herzegovina right now as we speak and about 500 of those are 
from the Reserve components.
    Mr. Dicks. I just wanted to raise that point because you 
know at a time when we are having difficulties, I think the 
Special Forces are a real example of total force operating 
together, using guardsman.
    Mr. Young. A follow-up on that. What does that do toyour 
civilian career and your ability to make a living?
    Major Weller. I work full-time for the unit right now, sir. 
I just started working for the unit about a year ago. Prior to 
that, I worked as a civil servant for the Department of the 
Army and the Department of the Navy. So I didn't have any 
problem at all getting off from work.
    Mr. Young. What about others who are reservists or 
guardsmen. Are you aware of problems that these extra 
deployments would have with their civilian activity?
    Major Weller. Well, sir, we rarely have any problems. We 
are in close contact with their employers. The employers show, 
you know, a very high sense of patriotism. We are in constant 
touch with them explaining to them in general what we are doing 
and how their support actually supports the Government of the 
United States.
    Mr. Young. Any other questions for the briefers?
    Mr. Sabo. Maybe this fits for what you have in mind for the 
second round.
    Mr. Young. We are going to give you 5 minutes for the 
second round.

                           DEMINING MISSIONS

    Mr. Sabo. What percentage of your time is spent on mine 
clearing and why mine clearing is assigned the responsibility 
of Special Forces?
    General Schoomaker. We ran 11 demining missions this year. 
The primary reason why we run them is because we are provided 
money out of the State Department for humanitarian demining 
that allows us to leverage that money and take the teams that 
would be going into those areas for their normal missions and 
allows us to preserve our own O&M money to do other things. So 
we see it as an ability to leverage, putting our people in 
there, doing the kinds of things that Special Forces do. 
Special Forces are trainers, whether we are in an 
Unconventional Warfare (UW) environment, where we are raising 
and training guerilla forces or whether we are in a foreign 
internal defense environment where we are helping host nation 
forces develop democratic ideals within their military, or 
teaching professionalism to their NCO corps. These are the very 
same skills that we are doing here.
    So what we are doing is we are leveraging; in this resource 
constrained environment we have other means of getting in and 
doing useful things. And we think it is a pretty smart way to 
do business. I might say that there are 3 programs that we are 
doing this in. The humanitarian demining is one of them, the 
counter drug program where we are using MFP 11 money to do 
counter drug types of training missions, and then there is the 
ACRI, which again, is a State Department program. It puts our 
Special Forces operators into their target countries, gives 
them cultural awareness, gives them knowledge of the local 
surroundings, and improves their language capabilities as they 
deal with the people, and so that is really what it is about.
    Mr. Young. Okay. Are there other quick questions for this 
part of the hearing?

                           EMPLOYER'S SUPPORT

    Mr. Nethercutt. Just one quick question, Mr. Chairman.
    Gentlemen, I have a question regarding the civilian 
employers of Guard and Reserve members. Do you sense that the 
employers who are supporting the Guard and Reserve part of the 
Special Forces are tolerant with these deployments, or are they 
impatient? Is there something we should do relative to meeting 
their needs so that they can help you all meet yours?
    General Schoomaker. Do you want to answer any part of that? 
Because I have an opinion on it, and you can answer it.
    Major Weller. Again, like I said before, sir, we are in 
close contact with the employers. Their commander personnally 
calls and writes them letters, explains again how their support 
to us helps us support Special Operations.
    General Schoomaker. My response would be there is no 
standard answer. There are fits and starts, but I think in 
general we are extremely well supported. We have to make sure 
that we communicate to the employers and that we do things that 
make them feel good about their employees doing it.
    Now, what we are doing, for instance, with the PSRC, the 
Presidential Selective Reserve Callup, that is for 270 days, we 
are asking somebody to leave their employment. Of course, this 
is--when you go to PSRC, this is not voluntary, so it throws 
certain things in there that help tell the story to the 
employer. It is not like the employee is volunteering to leave 
work to go off to Africa, but it is something that we need to 
continue to work.
    I will tell you, with 30 percent of our force in the Guard 
and Reserve, this is a very, very important piece of this 
force. What is unique about USSOCOM, when Congress initiated 
USSOCOM--USSOCOM is the only place that the Guard and Reserve, 
or actually the Reserves, are assigned to me. This is different 
than anywhere else. Of course, the Guard is assigned to the 
governor until federalized, but when they are federalized they 
come to me. So it is a very unique relationship found nowhere 
else.
    I have to tell you that if it wasn't for our Reserve 
components, we would not be able to fulfill our civil affairs 
mission, for instance, where we are using real people that run 
fire stations, policemen, lawyers, and judges. You can't 
maintain those skills on active duty. That is why 24 of our 25 
civil affairs battalions are in the Reserve component, and it 
is necessary for us to maintain that.
    Mr. Nethercutt. My sense is that we need to be careful 
about not having the employers lose faith. They can only do 
without employees for so long, so I think there is a need to be 
sensitive to their needs.
    General Schoomaker. The rule is we will never go back to 
the same person twice for the same contingency.
    Mr. Nethercutt. I see.
    Mr. Young. Mr. Cunningham.

           SURVIVAL, ESCAPE, RESIST AND EVADE (SERE) TRAINING

    Mr. Cunningham. Thank you. Mr. Chairman.
    In the SERE school, 9 days of SERE can become very 
realistic, cold. I had a my jaw cracked in SERE school in 
Warner Springs. But have you had to make any changes with women 
in the military going through SERE school as far as any 
specific training?
    Captain Hubbard. I know I had a female in my class. There 
are certain things that they remove them, from not like lesser 
training, but what I am saying there are certain times when 
they were issuing their pajamas or something like that. 
Obviously, all the guys in one group get their pajamas issued.
    Mr. Cunningham. I am talking about specific training or 
maybe problems that they would enter versus, you know, a male 
that was taken prisoner or special ops.
    Captain Hubbard. That is exactly the same; exactly thesame.
    Mr. Cunningham. Exactly the same, okay.
    It is interesting that all of you speak French. They have a 
socialist-communist government over there in France. You may 
need that more than you really know.
    One of the other things that I found that was interesting 
was that in your broadcast in Bosnia, I come from a different 
mind. The Serbians, if you don't know history, fought with the 
United States as an ally, the Muslims fought with Nazi Germany 
during that time period. But was any of your radio broadcast--
maybe this is not the place to do it. We may have to wait until 
the later session, but maybe you can answer it later, 
General.------.
    Mr. Young. Maybe you might want to pursue that when we go 
into a different level of classification.

                    FISCAL YEAR 1999 BUDGET REQUEST

    Mr. Cunningham. Yes, sir. I say I will delay that.
    Mr. Young. Okay. Any other quick questions for this part of 
the hearing? If not, we will go into the regular 5-minute 
section, and I am going to use about 2 minutes of my 5 minutes 
right away, because I have to ask this question.
    General, your budget is handled differently than the other 
services. Your budget request for fiscal year 1999 is 
$506,260,000.
    General Schoomaker. That is for procurement, I believe.
    Mr. Young. That is $130,879,000 below the 1998 appropriated 
level for the same procurement. Two years ago your predecessor 
said that an appropriate level of procurement funding would be 
at $700 million per year to ensure the fielding of critically 
needed weapons systems. Now we are $130 million below that, 
just below last year's level. Where do we stand? Are we going 
to be able to do what you have to do?
    General Schoomaker. We are doing what we have to do. Of 
course my predecessor is still my boss, you know, General 
Shelton, so obviously he is exactly right. Actually, I think 
there are two answers to this. One of them is there have been 
some things that work in 1999, and DIRCM is a good example, 
what is it $60 million that we have had to push. That is the 
joint program that we have with the U.K. on the IR 
countermeasures that they are going to go on SOF airplanes. 
There are some things like that that we have moved. But I think 
that the thing that we have to look at is what we are 
leveraging off of other services. So our big programs like the 
CV-22 and ASDS are being managed by the Services, and in the 
case of the CV-22, 85 percent of the cost is being borne by the 
Navy and the Air Force. So in fact, we are reaping the directed 
benefit of an additional $2 to $500 million, depending on which 
year you look at across the FYDP; it goes on top of what you 
are talking about.
    So I think obviously we could use more money very well. But 
the truth of the matter is, right now we are putting about 20 
to 24 percent away into modernization and I think that is about 
right in terms of percentage.
    Mr. Young. If you had your druthers, though, would you go 
to the $700 million?
    General Schoomaker. Well, of course.
    Mr. Young. If you had the $700 million, what would you be 
procuring that you are not going to be able to procure with 
this budget?
    General Schoomaker. Well, I think there are several things, 
and I probably ought to provide you something for the record, 
you know, with specifics in it if it would be okay.
    Mr. Young. Also, you might indicate if any of your programs 
that are ongoing, if you are having to slip any of them in 
order to stay within this budget.
    General Schoomaker. We are slipping more out of necessity 
because of the program as opposed to the slipping as a result 
of the financial problem. But I can provide you with a long 
list of things that you know, given an unlimited pile of money 
that we would pursue, and quite frankly, I think, you know, 
maybe some of this ought to go to a later piece of the session 
here, but there are some things we are calling flagship 
capabilities, many of which are advanced technology that we 
certainly would be pursuing, would pursue with more money.

                         UNFUNDED REQUIREMENTS

    Mr. Young. General, in previous years, we have had extra 
money over and above the President's budget request. This year, 
unless some miracle happens, we are not going to have any extra 
money, but we will squeeze as much as we can to do the best we 
can to provide what you need, because we understand the 
importance of your missions.
    I have a lot more questions. I am going to give you some in 
writing and ask you to respond, but to try to stay within the 
time constraints and get to the next part of our hearing.
    [The information follows:]

    The following chart displays USSOCOM's unfunded requirements (UFR) 
for Fiscal Year 1999. Dollars are shown in millions.

----------------------------------------------------------------------------------------------------------------
                Priority and UFR                        O&M            Proc            RDT&E           Total
----------------------------------------------------------------------------------------------------------------
1  COUNTERPROLIFERATION/WMD.....................           $7.65           $5.09           $7.81          $20.55
2  ADVANCED SEAL DELIVERY SYSTEM................  ..............  ..............            9.70            9.70
3  SAP..........................................  ..............  ..............            1.07            1.07
4  SPEAR-BALCS..................................  ..............            4.30            0.50            4.80
5  LANGUAGE TRAINING............................            1.60  ..............  ..............            1.60
6  MH-47E.......................................  ..............           41.50  ..............           41.50
7  SPECIAL RECONNAISSANCE.......................  ..............  ..............           25.00           25.00
8  SILENT SHIELD................................  ..............            5.00  ..............            5.00
9  M4A1 MODS....................................  ..............            2.47  ..............            2.47
10  RAMS........................................  ..............            6.00  ..............            6.00
11  AC-130 LOW LIGHT LEVEL TV...................  ..............            2.36  ..............            2.36
12  SYMPATHETIC DETONATOR.......................  ..............  ..............            2.00            2.00
 
      Total.....................................           $9.25          $66.72          $46.08         $122.05
----------------------------------------------------------------------------------------------------------------

    Mr. Young. Mr. Murtha.

                          RULES OF ENGAGEMENT

    Mr. Murtha. Any problems in these deployments with your 
rules of engagement?
    General Schoomaker. I would say no. Let me just ask, are 
there any problems from what you have experienced? No.
    I will tell you, in the past we have had problems, and the 
problems are very conservative kinds of attitudes in terms of 
what level of risk we should take. I will tell you now that for 
special operators to do their job we must accept some risk, and 
we are not going to be able to go out and engage at the level 
that we are and make the difference that we are making if we 
are doing it from a foxhole peering out through a slit. So if 
you take a look at where we are in places like Sri Lanka where 
there is a significant threat, in places like Bosnia where we 
have Joint Commission Observers, JCOs, little teams living in 
the villages, basically unarmed, living amongst the factions, 
we cannot be effective without that level.
    And quite frankly we fared very well. You remember from 
Haiti we had one Special Forces soldier shot. You might 
remember we had a JCO here in the last year that was stabbed up 
in Bosnia. But on the whole we have done pretty well because we 
train to the rigid awareness, you know force protection, threat 
awareness, situational awareness kinds of things, and then we 
back that up with rules of engagement that allow us to defend 
ourself and to take whatever action is necessary to preserve 
the force.

                      SOF FORCES SELECTION PROCESS

    Mr. Murtha. How do you select the members of the Special 
Forces?
    General Schoomaker. Each piece of our special operation 
force has a different kind of selection program. I can talk to 
some of the compartmented areas later if you're interested, but 
Special Forces and SEALs, for instance, are good examples. The 
SEALs have their Basic Underwater Demolition School (BUDS) out 
in Coronado. They have a very high attrition rate in that. I 
would say, 70 to 80 percent.
    Here, we've got it; 70 percent.
    Mr. Murtha. 70, 80 percent per year?
    General Schoomaker. Attrition, 30 percent pass out of 
each----
    Mr. Murtha. I see, in the school itself.
    General Schoomaker. This is for the Navy SEALs, and BUDS, 
30 percent pass. They go from there into more advanced training 
where 80 percent of that 30 percent pass.
    So what we're really saying is from the original population 
I guess that would be 24 percent. In the Army Special Forces 
now you're dealing with a little more mature soldier because 
you're bringing NCO's across now that have already had some 
time under their belt in the Army. Through the Special Forces 
assessment selection 45 percent pass muster through that 
assessment and selection 80 percent of those pass the 
qualification.
    Mr. Murtha. Well, what I'm asking though, the initial 
selection process, are they all volunteers?
    General Schoomaker. All volunteer. Our entire force is all 
volunteer; there's nobody that's not.
    Mr. Murtha. And anybody can apply or you look for language 
specialists, demolition specialists and so forth, just depends 
on what you need, and then you take the volunteers that fit 
that criteria; is that the idea?
    General Schoomaker. Obviously we're looking for people with 
special skills and characteristics, but in general what we're 
looking for are volunteers that say, yes, I want to be a SEAL, 
I want to be a Special Forces Soldier, I want to be a Ranger, 
and then they go through the process, and what we are looking 
for are those people that are trainable. So it's intelligence 
assessment, a psychological assessment, a physical assessment, 
and then a socialization assessment where we determine whether 
or not they are trainable, and once they pass through that 
assessment selection they then go through the training, and of 
course there is some attrition, but there's a much higher 
success rate there. But when they graduate out the other end in 
Special Forces for instance, they must have a basic language 
skill.
    And so there is a 2-year investment in these folks just to 
get them basically qualified to start being an effective member 
of a team.

                             SOF RETENTION

    Mr. Murtha. Can you see any difference in the last 10 years 
in the number of people that are reinlisting in special 
operations?
    General Schoomaker. I don't know about the last 10 years, 
but I can tell you that in our special operations forces in 
general our retention in the enlisted ranks leads all of the 
services. We do very well there.
    Now we have some anecdotal problems, you know the SEAL 
lieutenants for instance we're having some problem retaining 
them in the numbers that----
    Mr. Murtha. What I'm driving at is the rate or tempo of 
operations hasn't made any difference. I keep looking for 
weaknesses that are going to come about because people have 
been deployed so much, and Bosnia, another possible story. Have 
special operations people been divorced four times, been 
divorced three times and married four times. But you're able to 
retain them. The deployment or tempo of operation has not made 
a difference in your ability to retain.
    General Schoomaker. It has made a difference for some 
people, but in general what it has done is made a difference in 
a positive way. The people who join special operations want to 
do things, and one of the most common things I get from the 
SEALs is you know we're not killing enough people, you know 
we're not going out and doing those kinds of things, we're 
doing too much, some of what you've heard here, ``handing out 
the cup cake kinds of things,'' and that's not what people come 
in to be a SEAL for.
    Special Forces, it's the same thing. I've explained that 
obviously we're teachers, but we're also warriors, and so these 
people, the very best people we get, are coming in here to do 
the kinds of things that they think Special Forces should do.
    So in general it's a positive trend. In the Reserves, I can 
promise you that we looked very hard at what the impact of 
these deployments to Bosnia were, and the good news is that our 
retention is pretty good as a result of people that are 
actually coming to the reserve units that are being used.
    So I hope that's not kind of talking out both sides of my 
mouth. I think that we're on a positive trend there with some, 
like I said, anecdotal problems, some isolated kinds of 
problems.
    The important thing is that these assessment selection 
programs are very important, and one of the things that is most 
important is we have got to make sure that we're also getting 
people that have the right kind of values, the core values, and 
so we look very hard.

                           SOMALIA REVISITED

    Mr. Murtha. One of the most courageous acts I've seen was 
in Somalia where your commander took full responsibility, gave 
me a handwritten letter to give to the President, and he said I 
didn't need more tanks, I didn't need more this, I take full 
responsibility. His career was gone because of that, but I was 
really impressed by the fact that he took the responsibility 
for what happened. I've always been impressed by that.
    General Schoomaker. I know who it is you're talking about, 
and he's a very good friend of mine, and that's the kind of 
person he is. And I will tell you that in the business we're in 
you've got to understand the psychology of a fist fight. You 
know this is not something that you're going to be able to do 
from the sidelines, and so we are going to run in the future 
into heaven casualties if we're doing our job.
    Mr. Young. Mr. Lewis.
    Mr. Lewis. Mr. Chairman, I do not want to have my lack of 
questions at this point reflected any lack of interest in the 
work of these gentleman. The work of our special operations 
forces is very important, and insofar as I'm concerned 
significant to the national defense as any we have. I need to 
go to another session however, and so I yield back my time.
    Mr. Young. Mr. Sabo? Mr. Nethercutt?

                             SEAL RETENTION

    Mr. Nethercutt. Thanks, Mr. Chairman. Quickly, General, I'm 
interested in your comments about SEAL qualified lieutenants. 
Your statement indicates that you have a significant retention 
problem. To what you do you attribute that? What are you doing 
to make sure you do retain these people in the future?
    General Schoomaker. Well, first of all, we're very 
concerned about it and we're working it very hard. We are 
running, not only engaging RAND Corporation and running of a 
very indepth study of the whole thing, but we're also our own 
internal OPTEMPO survey and should have the results of that in 
April. So we are looking at it.
    As I travel, and I mentioned to somebody here I only spent 
2 days at home last months you know because I'm trying to get 
around to everybody. I asked these people this and the answers 
are all over the board. Everybody says, you know, it's not 
money yet. We need the money, but money is not going to solve 
the problem. The problem that we need to make sure we address 
is they've got to be doing meaningful things; that's what they 
come in for.
    Unfortunately, part of the problem is there that are some 
people that come in with no intention, I mean of staying. They 
come in because they want to be a SEAL and they want to do it 
for 4, 5 years, and then they want to go back to Harvard 
Business School and they want to be successful, and they want 
to be able to put SEAL on their resume. And you know that's a 
fact. And there are others that quite frankly--you know the 
OPTEMPO effect.
    So it's all over the place. We're taking it very seriously, 
and we're working on it.

                       YEAR 2000 COMPUTER PROBLEM

    Mr. Nethercutt. Let me just ask you a little different 
subject but it also addresses to your readiness, the year 2000 
computer problem. To what extent are you addressing that in 
your command and what are the consequences if we're not ready? 
I assume we will be ready.
    General Schoomaker. We are going to be ready on that. We're 
taking it very seriously. We're putting about $11 million 
against it this year. We are very dependent upon technology, as 
you know, and I'll tell you that in our special operations 
helicopters for instance there are more line of computer code 
in those than there are in the space shuttle. It's the most 
advanced systems that are flying right now, and they're very 
dependent upon making sure that we do solve these kinds of 
problems.
    So we're working at it very hard.
    Mr. Nethercutt. Do you have plans to conduct some exercises 
that will test your preparedness or readiness for the Y2K 
problem?
    General Schoomaker. We are doing some of that, but I've 
heard the notion that we need a major exercise to kind of sort 
this out. The fact of the matter is we're not ready yet to do 
that because we're fixing the problems. But I think at some 
point in time it makes some sense to run, and of course we run 
a lot of this simulation and CPX kinds of things and that's 
basically what we have to do.
    So I'm generally supportive, but now is not the time. It's 
too early.
    Mr. Nethercutt. You feel confident you'll be ready.
    General Schoomaker. I'm told, you know I'm into this pretty 
heavy because I really do believe it's our future, but I am 
told that we have confidence that we're going to do all right.
    Now we are also very dependent on some much bigger systems 
out there, I don't really know how well we're doing here in the 
main frame, in the big architecture. But in our business I can 
tell you that we are moving pretty smartly on this.
    Mr. Nethercutt. Have you a target date for the change over, 
or is that decided yet?
    General Schoomaker. I don't know the answer to that 
question, and I'd have to----
    Mr. Nethercutt. All right, sir.
    General Schoomaker. I'd be glad to look into it and give it 
to you on the record.
    Mr. Nethercutt. I think the Committee might appreciate 
having some timetable expectation if there is one. It would be 
helpful to us to have a sense that you know when it's going to 
be operational.
    General Schoomaker. All right sir.
    [The information follows:]

    The United States Special Operations Command's (USSOCOM) 
target date to have our mission critical information technology 
(IT) systems Year 2000 compliant is March 1999. As IT systems 
are certified, we intend to systematically integrate them into 
the USSOCOM enterprise. The time remaining until December 31, 
1999, will allow us to continue to test USSOCOM's mission 
critical IT systems against our support systems and be prepared 
for ``hiccups'' or any possible system failure.

                      DEPLOYMENT IMPACTS ON FAMILY

    Mr. Nethercutt. Just one final question if I may with 
regard to the soldiers here today. Are your families all right 
with your service and, you know, everything all right basically 
on the home front as far as you all are concerned. Do you see 
anything in the--among your colleagues or your fellow soldiers 
that give you concern about the family side of your service?
    Commander Bosiljevac. I've been married 23 years, sir, and 
I'm blessed, I've got a good family. But there are daily 
problems that you have to deal with. I'm in a command position 
right now, 230-man unit, and you definitely have to take care 
of family problems up front. You have to be very--you have to 
pay particular attention to details on that side just as much 
as your regular responsibilities.
    Major Bailey. Last year I was deployed 262 days, sir. My 
wife had full access to the checking account, and she was 
thrilled.
    Mr. Nethercutt. That's good testimony, sir. Thank you. That 
says a lot. Thank you all very much for your service and your 
testimony.
    Mr. Young. Mr. Visclosky.

                        SOF SUBMARINE PLATFORMS

    Mr. Visclosky. Thank you Mr. Chairman.
    General, does the Special Operations Command intend to 
replace the King Kamehameha?
    Should I withdraw my question?
    General Schoomaker. No, let me see how I can answer.
    The Kamehameha's has been extended, the service life has 
been extended. We are in the throes right now of looking at a 
couple of alternatives on whether the Los Angeles class boats 
are going to do the job, you know what other kinds of 
alternatives we're going to come up with.
    So I probably would need to give you a better answer than 
that and get the right people to look at it, but I think right 
now--in fact I was just on the Kamehameha here two weeks ago, 
and it's in good shape, and it is being well used. But I don't 
think it's affordable, to be honest with you.
    Mr. Visclosky. That ship.
    General Schoomaker. No, no, to replace it. You know, unless 
we come up with--there are some options that we have that may 
make it affordable, you know in terms of what we do, but it's a 
concern for us in terms of getting into something you know 
that--of that magnitude.
    Mr. Visclosky. You are going to have four excess Tridents 
soon--is that one of the options you're looking at?
    General Schoomaker. One of the options is Trident.
    Mr. Visclosky. Would that potentially be affordable for 
you?
    Mr. Schoomaker. Well, the problem is we've got to work very 
hard. It may look nice up front but when it comes time to 
refuel that thing it may be a different story, and so we really 
need to be careful about what piece of this we get into.
    But I had a brief conversation with Jay Johnson, Admiral 
Johnson, on this, and of course he's looking very carefully at 
it.
    There are some other problems too, and that is in the arms 
limitations treaties and things in terms of what he can keep 
and how all this is going to work. So it's not a simple 
problem.

                     ADVANCED SEAL DELIVERY SYSTEM

    Mr. Visclosky. From my perspective you have a serious 
problem as far as getting people in, getting people out and the 
affordability of any system you design.
    So I think all of us would want to be helpful on that.
    General Schoomaker. I will be glad to look into it and give 
you more detail on that, but of course you know another piece 
of this equation is how many ASDSs we're going to buy.
    Mr. Visclosky. I appreciate what you do for a living, and 
Commander, I'm dying to know what nationality you are.
    Commander Bosiljevac. Croatian and Polish, sir.
    [The information follows:]

    As far as the numbers of Trident, this would be more appropriately 
answered by the Chief of Naval Operations, Admiral Johnson. However, as 
far as an option we are looking at, as long as the Trident is 
available, the answer is yes. The Trident submarine could replace 
existing submarine capabilities that are reaching the end of service 
life.
    The Trident provides a very high end capability for special 
operations forces (SOF). Its capability for enhanced support to SOF far 
exceeds any current or planned SSN capability for SOF. The ability to 
host 66 personnel for 90 days, with the personnel having dedicated 
berthing, mission planning areas, and exercise equipment supersedes any 
current converted SSN. This allows SOF to maintain a clandestine 
presence near a crisis point for a longer period than they can aboard a 
smaller attack submarine. Wet tube storage will provide a means for the 
storage of various equipment that will be accessible to divers locking 
out of the Dry Deck Shelter or 9-man lock-out chamber. Communications 
suite will be compatible with Very Low Frequency, Low Frequency, High 
Frequency, and Satellite Communications. The strike missile system in 
particular may be able to provide on-call, high volume, weapon delivery 
capability to SOF operations. This type of platform has broad 
applications for SOF. After refueling, the Trident serves as a long-
term investment for the Navy and USSOCOM due to its expected 20-year 
life after the conversion.
    The costs associated with converting two Tridents for Strike/SOF's 
use is approximately $977 million. The Navy has stated that the USSOCOM 
fair share of the conversion would be about $160 million. This amount 
exceeds any other previously funded SOF submarine conversion costs. 
USSOCOM's current Total Obligation Authority (TOA) would not afford the 
opportunity to achieve this 21st Century capability.

    Mr. Young. Mr. Cunningham.

                       REMARKS OF MR. CUNNINGHAM

    Mr. Cunningham. General, are you any relation to Steve 
Shoemaker with the Blue Angels?
    General Schoomaker. No, I'm not.
    Mr. Cunningham. Not at all. Okay, thank you.
    First of all--Navy guy, I understand.
    You know I'd like to tell you that, like the Chairman said, 
and it's not just words, I think you know that we're proud of 
each and every one of you and that we may joke about football 
or Air force or other things, but everybody on both sides of 
the aisle in this body is in full support of you and want to 
try and help you do, you know, the things that you need to do 
and finance you, which in my opinion is way below what it 
should be. It saddens us, but just think in your own mind how 
many of you thought about the difficulties that you have gone 
through whether it's the family, the OPTEMPO, the family 
separation, the lack of equipment, the things that--I know when 
I was in the service I thought of getting out sometimes, and 
quite often the benefits of staying in, the family and the 
security kept me in, but as those things erode that's what this 
Committee is trying to help, and our hands are tied a little 
bit. There's many of us feel that the emergency supplemental 
bill cannot be taken out of DOD. When you got a budget as low 
as 1950, you just can't survive and keep doing the things. I 
came here about 7 years ago, and the testimony before our 
Committee, I was previously on the authorization side, was the 
military nearing a hollow force. I don't know what it takes to 
get there after 7 years of continual cuts and increase in 
OPTEMPO and everything, but I understand where you have to come 
from, General. But we're trying to help as much as we can, and 
I think one of the things since the--I think the President said 
he wants an emergency supplemental to help that's not taken out 
of DOD. I don't know where he's going to pay for it, but we 
support that.
    I differ a little bit from my good friend, Jack Murtha, who 
is my very good friend, maybe not differ but maybe a difference 
of opinion. I don't think in Somalia that you can change from a 
humanitarian mission to going after General Aideed and at the 
same time draw down your forces so weak and make yourself 
vulnerable to the potential enemy and then deny armor on 3 
different occasions that they didn't need armor or that it was 
the General's--I'm not saying that Jack thought it was the 
General's fault. I think he's very supportive of that. But I 
think there was a lot of extenuating circumstances there in 
which this government put your troops in that I hope we never 
have to do from putting--in another administration, putting 
Marines in a place and allow them to be shelled on the coast 
without being able to attack. I mean it's both sides of the 
aisle on this thing.
    But we're proud of you, and we'll do everything we can to 
help you, and I want to congratulate the young men and the 
young women under your command. Thank you.
    General Schoomaker. Thank you very much.
    Mr. Young. The Committee will recess now and reconvene 
shortly in an executive session with the witness. This part of 
the hearing is adjourned.
    [Clerk's note.--Questions submitted by Mr. Young and the 
answers thereto follow:]

                            Personnel Tempo

    Question. Personnel tempo is defined as the time an individual is 
deployed from home port or station. What is the average monthly or 
annual deployment time, by component, of SOF personnel?
    Answer. Each of the Services have a slightly different 
interpretation and definition of personnel tempo which prompted USSOCOM 
to clarify the definition in order to bring continuity to the reporting 
of its components. USSOCOM defines a Deployed Duty Day (DDY) as any 
continuous 24-hour period during which one is conducting official 
duties requiring them to remain over night away from their permanent 
domicile. A DDY does not include garrison duty, leave, unauthorized 
absences, or medical Temporary Duty (TDY). Within this uniform context, 
USSOCOM's Fiscal Year 1997 component annual average personnel tempo is:
    Air Force Special Operations Command: 63 DDY per year.
    U.S. Army Special Operations Command: 79 DDY per year.
    Navy Special Warfare Command: 105 DDY per year.
    Question. How has this increased with more and more deployments in 
support of ``military operations other than war''?
    Answer. The annual deployment time by component, calculated in man-
years for fiscal year (FY) 1997 is

----------------------------------------------------------------------------------------------------------------
                  SOF Component                        Army            Navy            USAF            Total
----------------------------------------------------------------------------------------------------------------
Operations......................................            1281             539             596            2416
Training........................................            1344             492             354            2190
Other...........................................              96              25              24             145
                                                 ---------------------------------------------------------------
      Total man-years...........................            2721            1056             974            4751
----------------------------------------------------------------------------------------------------------------

    Total SOF Deployments are relatively constant, with only a 3.0 
percent increase between FY 1996 and FY 1997. FY 1996 was 4,613 man-
years and FY 1997 was 4,751 man-years.
    While the total deployments remain relatively constant--the 
specific activities change with requirements. For example, when the 3rd 
Special Forces Group was committed to operations in Haiti, they 
canceled participation in Joint Chiefs of Staff Exercises and Joint 
Combined Exchange Training. Similar changes have occurred in support of 
Bosnia.
    Question. What are the skill speciality areas in each service that 
are experiencing the high personnel tempo rates?
    Answer. Below are the Fiscal Year 1997 top five personnel skills 
experiencing high personnel tempo rates from each special operations 
component.

------------------------------------------------------------------------
                   Code                              Description
------------------------------------------------------------------------
                      Naval Special Warfare Command
 
849X......................................  SEAL Team Corpsman
5326......................................  SEAL Team Enlisted
1130......................................  SEAL Team Officer
5323......................................  SEAL Enlisted, Special
                                             Delivery Vehicle
1130......................................  SEAL Officer, Special
                                             Delivery Vehicle
 
                  Air Force Special Operations Command
 
X1T2X1....................................  Pararescue (Special Tactics
                                             Teams)
J1C2X1....................................  Combat Controller (Special
                                             Tactics Teams)
011S3E....................................  MC-130P Pilot
011S3B....................................  MH-60G Pilot
012S4J....................................  MC-130E Navigator
 
              United States Army Special Operations Command
 
39B.......................................  PSYOPS Officer
39C.......................................  Civil Affairs Officer
18D.......................................  SF Medic
25R.......................................  Visual Equip OP/Maint
18C.......................................  SF Engineer
------------------------------------------------------------------------

    Question. What actions have you pursued to reduce personnel tempo 
rates?
    Answer. We are working with the geographic CINCs and Services to 
reduce the OPTEMPO of our Navy SEALs and Air Force Special Tactics 
Teams. Recently, we managed to decrease the SEAL requirement in the 
Pacific by about 20 percent, and an initiative is now underway in the 
Southern Command to provide similar relief. The Special Tactics Teams' 
OPTEMPO problems are being alleviated by increasing recruiting efforts 
and by shifting some of their non-SOF functions and activities to the 
Air force. The Air Force is experiencing aircrew shortages and USSOCOM 
is linked to both the problem and the Air Force's solution.
    The solution for high tempo of our Civil Affairs (CA) units has 
already been demonstrated in Haiti and Bosnia. Access to our reserve 
component CA units will reduce active component OPTEMPO to a reasonable 
level. Since the reserve units have oft-needed expertise that is not 
found in the active force, access to these reserve forces becomes even 
more critical. Programming additional active forces is not the answer, 
in my estimation, because our younger active component officers and 
NCOs cannot replicate the skills and experience of the long-serving 
reservists.
    The Presidential Selective Reserve Call-up (PSRC) plays a critical 
role in accessing our reserve component assets, especially CA and 
Psychological Operations (PSYOP) units. This has proven important in 
Haiti and is essential to the conduct of CA activities in Bosnia. PSRC 
not only takes the pressure off the active component OPTEMPO, but also 
recognizes the value of the reservists' contribution and the U.S. 
government's commitment to the operation at hand. Finally, it relieves 
the pressure of civilian re-employment concerns once the deployment has 
concluded.
    That said, however, we must also guard against the equal threat of 
such heavy utilization of reserve forces that we affect the civilian 
occupations of our people. Our concern with over-utilizing the reserves 
is tempered by the fact that we currently have exhausted our allocation 
of the FY97 Temporary Tour of Active Duty accounts, the dollars needed 
to pay reservists salaries and allowances during those deployments. 
This of course puts pressure back on the active force.
    These readiness issues have the highest visibility in USSOCOM to 
ensure we do not ``break the force.''
    Question. Have you increased the use of Reserve component 
personnel? What capabilities, or skill specialties are in the Reserve 
components that cannot be found in the active forces?
    Answer. The United States Special Operations Command continues to 
rely heavily on the Reserve components, in particular the Army Reserve 
Civil Affairs (CA) units and to a lesser extent the Army Reserve 
Psychological Operations Units. The active component has limited assets 
available in these unique units with 97 percent of CA units and 85 
percent of Psychological Operations Units residing in the United States 
Army Reserve. The majority of the CA structure is in the Reserve 
Component because many of the skills needed to accomplish their 
missions are derived primarily from the Reservists' civilian employment 
and expertise. I would be infeasible to try to train or maintain these 
skills in the active component. Further, the Air National Guard and Air 
Reserve maintain high personnel tempo. The Commando SOLO aircraft 
provides a unique capability found only in the Air National Guard.
    Question. What percent of your commitments last year were in 
support of ``military operations other than war'' rather than part of 
your normal operations?
    Answer. Fiscal year 1997 saw support of ``military operations other 
than war'' at 50 percent of our total man-day deployments. Operations 
were all operational deployments and include JOINT GUARD, NORTHERN 
WATCH, SOUTHERN WATCH, DESERT THUNDER, Joint Task Force (JTF)-SWA, SAFE 
BORDER, JTF-BRAVO. JTF-Full Accounting, US Support Group Haiti, 
Humanitarian Demining missions, Counter Drug missions, Naval Special 
Warfare personnel afloat, Noncombatant Evacuation Operations, and 
humanitarian missions (Kenya Assessment, C-141 SAR, etc.). Training 
utilized 47 percent of SOF deployment man-days. Training includes Joint 
Chiefs of Staff Exercises, Joint and Combined Exercises and Training, 
unit training, and individual training/schools. ``Other'' was 3 percent 
of SOF deployment man-days. Other deployments include conferences, 
command visits, and predeployment site surveys.
    Question. Of your worldwide deployments last year, what was the 
peak number of personnel, countries, and missions supported with SOF 
forces?
    Answer. During fiscal year 1997, the peak week for SOF deployments 
was 6,780 personnel deployed to 85 countries, while conducting 520 
missions.

                            Personnel Issues

    Question. What is your fiscal year 1999 budget request and funded 
end strength for SOF personnel? How does this compare to fiscal year 
1998?
    Answer. The fiscal year 1999 SOF end strength is budgeted for 
46,134 military and civilians, compared to 46,107 in fiscal year 1998. 
This minor difference is due to programmed increases in support of our 
Advanced SEAL Delivery System.
    Question. Please give the Committee an overview of the size of your 
forces. What is the mix of active, Reserve, and civilian end strength, 
and what percent do they represent of your total force? Have your 
forces remained relatively stable?
    Answer. Fiscal year 1999's SOF end strength is 46,134 military and 
civilian. Of this number, 64 percent are active military, 30 percent 
are Reserve and National Guard, and the remaining 6 percent are 
civilian. This resources HQ USSOCOM, six theater Special Operations 
Commands, the three Service components and the Joint Special Operations 
Command. Over the past several years, SOF force structure and end 
strength has remained relatively stable. Adjustments have primarily 
been made to accommodate fielding of modernized equipment such as the 
MK-V Special Operations Craft and Patrol Coastal ships.
    Question. At what percent are SOF units resourced for personnel and 
equipment? Are you experiencing any manpower shortages in either active 
duty or Reserve units?
    Answer. Resourcing for personnel and equipment in special 
operations units is programmed and budgeted at 100 percent of 
authorizations. The one exception to this is the Reserve Civil Affairs 
(CA) which are resourced at 90 percent of required personnel. This is a 
legacy from the original cross-walk of funding from the Army. However, 
resourcing at 90 percent has not proven to be a significant detriment 
to operational capability, as additional regional CINC Civil Affairs 
support teams have been resourced in the Reserves.
    Generally, SOF enjoy high retention rates, both officer and 
enlisted, in comparison to Service averages. Where SOF was below the 
Service average, it was often due to the small number of SOF personnel 
in a category which skews the percentage rate either high or low. 
However, we are experiencing shortfalls in some Navy and Air Force 
specialties. An increase in resignations of Navy SEAL lieutenants has 
compounded a mid-grade officer shortage first identified in fiscal year 
1996.
    Recruiting shortfalls in the Air Force Combat Controller and 
Pararescue career fields aggravates the current low inventory in these 
specialties. The low inventory contributes to high deployment rates, 
which in turn affects retention.
    The Services and USSOCOM are working aggressively to address these 
issues.
    USSOCOM units are adequately resourced with equipment overall. 
There are some impacts being noticed by our AFSOC component due to Air 
Force, Joint Staff, and OSD on these issues. We are making progress in 
fielding our SOF unique equipment systems and are working within the 
budget resource constraints that have been provided. Difficult trade-
off decisions have been made as we move toward the 21st Century.
    Question. SOCOM identifies and coordinates with the military 
Services on special pay initiatives. Is there any new pay initiatives 
for SOF forces in the military personnel budgets for fiscal year 1999? 
Provide for the record a list of your common special and incentive pays 
(i.e., selective reenlistment bonus, aviation continuation pay, 
hazardous duty incentive pay) and the amount budgeted for each in 
fiscal year 1999 for SOF forces.
    Answer. There are no new pay initiatives for SOF forces in the 
military personnel budgets for fiscal year 1999.
    The common special pays for SOF are: selective reenlistment bonus; 
special duty assignment pay; hazardous duty incentive pays for 
parachute; dive, and demolition; foreign language proficiency; hostile 
fire/imminent danger; and aviation continuation pay.
    During the annual budget preparation, USSOCOM and the Services use 
Service-developed aggregate pay factors to program/budget for military 
personnel (MILPERS). The pay factor includes basic pay, allowances, 
special pays, etc. Although USSOCOM uses its Major Force Program (MFP)-
11 total obligation authority to POM for MILPERS, the Services are 
responsible for MILPERS budgeting. Military pay is not appropriated in 
MFP-11; it is appropriated directly to the Services without a specific 
MFP or budget activity identity. Once appropriated by Congress, the 
Services control and execute MILPERS including special pays for USSOCOM 
personnel.
    Question. Do you have any unfunded shortfalls related to your 
fiscal year 1999 personnel request?
    Answer. For fiscal year 1999, there were no unfunded personnel 
requirement shortfalls. Any additional personnel requirements 
determined to be valid in fiscal year 1999 were funded internally to 
USSOCOM. However, with the continued increase in the operational and 
personnel tempo, personnel requirement could increase in the future.
    Question. Are you experiencing any recruiting and retention 
problems? What is the average retention rate of officers and enlisted, 
by Service?
    Answer. Generally, Special Operations Forces (SOF) enjoy high 
retention rates, for both officer and enlisted, in comparison to 
Service averages. Where SOF was below the Service average, often it was 
due to the small number of SOF personnel in a category which may skew 
the percentage rate either high or low.
    We are experiencing some shortfalls in several Service 
specialities. A significant increase in resignation of Navy SEAL 
Lieutenants compounds a mid-grade officer shortage identified in Fiscal 
Year 1996. Retention of junior officers must be returned to previous 
levels if we are to rebuild required inventories of more senior 
officers.
    Recruiting shortfalls in the Air Force Combat Controller and 
Pararescue career fields aggravates the current low inventory in these 
specialities. The low inventory contributes to high deployment rates, 
which in turn affects retention.
    The Services and USSOCOM are working aggressively to address both 
issues.

                    Assessment and Selection Process

    Question. The assessment and selection process for Special 
Operations Forces is among the most thorough and exhaustive of any 
military organization in the world. Can you give us a brief synopsis of 
the assessment and selection process for each type of specialty the 
Command has?
    Answer. Army Special Forces soldiers are recruited from both 
officers and enlisted members serving in the Army. The Special Forces 
Assessment and Selection (SFAS) course is 23 days. After successful 
completion of SFAS, personnel then attend the Special Forces 
Qualification Course (SFOC), which takes between 48-85 weeks to 
complete, depending on the specialty.
    Navy members may enter the SEAL training pipeline by direct 
accession or lateral transfer from the fleet. Enlisted recruits and 
lateral transfers may attend a one week Basic Underwater Demolition/
SEAL (BUD/S) screening course at the Recruit Training Center Great 
Lakes, Michigan. Once accepted for attendance at BUD/S, members may 
receive 4-6 weeks of physical fitness training and indoctrination prior 
to commencing the actual BUD/S course. Officers and enlisted attend the 
same six month BUD/S course and three weeks of Basic Airborne Training. 
Additional rate training may be provided depending on the members 
source rating.
    Air Force members enter Combat Control Team (CCT) or Pararescue 
(PJ) training by direct accession or from cross-training from other Air 
Force career areas. Upon successful completion of a 10-week 
indoctrination course, an additional 45-62 weeks of training is 
provided depending on the specialty.
    Question. What are the attrition rates for each specialty?
    Answer. Approximately 45 percent of those who attend the Army's 
Special Forces Assessment and Selection course pass and continue on to 
the Special Forces Qualification course (SFQC). Of those who continue 
with SFQC, approximately 80 percent pass and are assigned to Special 
Forces units.
    Navy Basic Underwater Demolition/SEAL (BUD/S) attribution currently 
averages 70 percent.
    Air Force Combat Controller/Pararescue attrition currently averages 
85 percent from the indoctrination course. However, those who complete 
the course have a 95 percent success rate through the remainder of the 
training.
    Question. How are those troops who do not make it through the 
process treated when they are returned to their regular units?
    Answer. Special Operations Forces (SOF) training is recognized by 
the Services to be extremely demanding. Personnel who are unable to 
complete initial SOF training are reassigned by their Service without 
negative impact on their career.
    Question. Once a special operations force member makes it through 
the process, how long will he remain with the Special Operations unit 
to which he is assigned?
    Answer. Special Operations Forces (SOF) personnel remain assigned 
to SOF units for the remainder of their career. Tour lengths for 
individual assignments vary from 3-5 years.

            Civil Affairs and Psychological Operations Units

    Question. The active and Reserve Civil Affairs and Psychological 
(PSYOP) Operations units support contingency operations, JCS exercises, 
combat training center developments, disaster relief efforts and 
humanitarian programs. Most of these units reside largely in the 
Reserve Components. General, what are your active and Reserve and 
strength numbers for the Civil Affairs and PSYOP units, by Service?
    Answer. The Civil Affairs and PSYOP units are all in Army Special 
Operations Command, with the exception of the 193rd Special Operations 
Wing (SOW) and the 193rd Special Operations Squadron (SOS), which are 
in the Air National Guard. The 193rd SOW and 193rd SOS are manned at 
825 personnel and are also considered PSYOP units. Army Civil Affairs 
consist of 1 active battalion of 208 personnel and 3 Reserve Commands 
having 9 Brigades and 24 Battalions consisting of 4,928 personnel. Army 
PSYOP consists of 1 active PSYOP Group and 5 active Battalions with 
1,144 personnel. Reserve PSYOP consists of 2 Groups and 8 Battalions 
with 2,582 personnel.
    Question. Given the nature of their business, Civil Affairs and 
PSYOP units might be required to be in country for months prior to, 
during or after some military action. What is the average number of 
days active duty units are deployed during the year? What is the 
personnel tempo for the Reserve units? Do you consider this personnel 
tempo excessive? If so, what actions are you taking to solve this 
problem?
    Answer. USSOCOM has only one active duty Civil Affairs (CA) 
Battalion and one Psychological Operations (PSYOP) Group. Personnel 
from the 96th CA Battalion were deployed on average 93 days each during 
Fiscal Year (FY) 1997. Personnel from the 4th PSYOP Group were deployed 
on average 75 days each during FY 1997. The personnel tempo for the 
Reserves is not tracked by this command. Further it is difficult to 
quantify Reserve tempo because their availability should not be assumed 
and their use should be exercised judiciously. This personnel tempo, 
while high, is not considered excessive for the active forces as it 
does not exceed the USSOCOM threshold of 180 deployed duty days per 
year, nor the Global Military Force Policy on Low Density/High Demand 
thresholds.
    Question. If Civil Affairs and PSYOP units are in high demand for 
contingencies and other deployments, do you believe a redesign of the 
active/Reserve forces capabilities is needed? Are the capabilities of 
the active and Reserve units mixed correctly? How does Special 
Operations Command determine its needs in these areas?
    Answer. The organizational designs of both the Reserve Civil 
Affairs (CA) and PSYOP units are based on the operational capabilities 
the units are required to have during peace and war. The high demands 
for the units for contingencies and other deployments has minimal to no 
effect on required capabilities. Both unit types are continuously 
reviewed to determine exactly what capabilities they require. Most 
recently, PSYOP units have been redesigned to more readily capture the 
capabilities of Reserve and active personnel. Additionally, CA has been 
reorganized and reapportioned by the U.S. Army Special Operations 
Command based on the new Unified Command Plan. Future PSYOP redesigns 
will most likely be based on technological advances. Based on the 
DESERT STORM/DESERT SHIELD experience and peacetime engagement 
activities since, the active and Reserve unit mix and capabilities 
inherent in each appears to be about right for both Civil Affairs and 
PSYOP. The need for these types of units is determined through the 
USSOCOM Strategic Planning Process, which is capabilities based and 
examines force requirements generated by wargaming scenarios provided 
by defense planners.
    Question. Is standing up more units in the active forces an option 
to help relieve personnel tempo or adjust to changing priorities? How 
many years does it take to stand up a new unit and get the personnel 
trained?
    Answer. The standing up of more active units could only relieve the 
personnel tempo if personnel could be recruited and trained in 
sufficient quantities to fill these new units. Indications are, though, 
that this may not be possible considering the recruiting base is 
shrinking as the Services draw down. Also, some units are based on 
platforms and there are no additional platforms to stand up additional 
units. Further, specialty skills like those in civil affairs can only 
be found in the Reserves. The bottom line is that the mix between 
active and Reserve units provides the capabilities required and without 
a significant shift in the fiscal and personnel environment, standing 
up additional active units may not be possible. The time required to 
stand up a new unit varies depending on the type of unit, equipment 
required, and the level and type of training required. This time ranges 
from two years for a Civil Affairs active unit to four or five years 
for a Special Forces Group or Special Operations Aviation Squadron. SOF 
units cannot be rapidly assembled due to their complex training and 
specialized equipment requirements.
    Question. Given the continued operations in Bosnia, are you 
concerned about active and Reserve unit rotations and our ability to 
meet the mission requirements without having to call the same units 
twice?
    Answer. We are concerned about Civil Affairs (CA) and Psychological 
Operations (PSYOP) personnel in Army Reserve units if the force 
structure requirements for the low-density, high-demand personnel in 
these units are not reduced for the SFOR forward operating force. 
Currently, in accordance with draft Statement of Requirements (SOR) 11, 
SFOR is proposing a reduction of the U.S. PSYOP commitment to 
approximately 54 soldiers and the CA commitment to approximately 79. We 
think we can sustain this level of commitment with existing Contingency 
Operation Temporary Tour of Active Duty (COTTAD) authority that allows 
volunteers to serve repetitive tours. All of our CA and PSYOP units 
have mobilized personnel for deployment to Bosnia. Current SFOR 
estimates on the active component side is for a Special Forces company 
that we can sustain barring any other unforeseen contingency by 
rotation of forces.
    Question. If the Presidential Selected Reserve Call-up (PSRC) does 
not allow the Department to activate Reservists for a second 270 day 
tour for the Bosnia operation, do you have enough Reserve component 
assets to meet your projected requirements?
    Answer. Under current Statement of Requirements (SOR) levels, 
USSOCOM can support a sixth CA rotation with no significant problems. 
Beginning with a seventh rotation, some specific rank or skill 
requirements may become difficult to fill. Currently, the draft SOR 11 
will significantly reduce SOF CA requirements. If implemented, this 
will extend the number of rotations that can be supported under PSRC.

               Operating TEMPO (OPTEMPO) and Deployments

    Question. Special Operations Forces (SOF) deployments have 
increased at a dramatic pace since the Command was established 10 years 
ago. Can you give us a brief synopsis of major SOCOM deployments over 
the past two years, and what is the forecast for fiscal year 1999?
    Answer. During fiscal year 1996, SOF personnel supported operation 
UPHOLD DEMOCRACY (Haiti), Operation PACIFIC HAVEN (Guam), Operation 
SOUTHERN WATCH (Iraq), Operation ABLE SENTRY (Macedonia), Operation 
JOINT GUARD (Bosnia-Herzegovina), Operation NORTHERN WATCH/PROVIDE 
COMFORT (Northern Iraq), and Operation SAFE BORDER (Peru, Ecuador).
    During fiscal year 1997, SOF supported 17 operations. Specific 
details follow:
    1. Operation FIRM RESPONSE (Congo).------
    2. Operation NOBEL OBELISK (Sierra Leone). ------ initially 
deployed to Camp Benguema Training Center, Sierra Leone, for a Joint 
and Combined Exchange Training (JCET) (leadership) with host nation 
military personnel. During the period ---- instituted communications 
with SOCEUR & American Embassy, Freetown, established security at the 
embassy, planned and coordinated for a Non-combatant Evacuation 
Operation (NEO), conducted reconnaissance of potential hazardous 
landing zones, received the evacuation force, and provided security for 
the ambassador.
    3. Operation GUARDIAN ASSISTANCE (Rwanda). Beginning 14 November 
1996, the ------ deployed to the Great Lakes Region of Eastern Zaire in 
support of a multinational humanitarian intervention force to 
facilitate the delivery of humanitarian aid by civilian relief 
organizations and the voluntary repatriation of refugees or displaced 
persons from Zaire to Rwanda. CA and PSYOPS were instrumental in 
convincing the Rwandan refugees to return home and the AC-130 gunship 
was invaluable in locating and counting the numerous groups of refugees 
for the Combined Joint Task Force Commander (14 November through 14 
December 1996).
    4. Operation SILVER WAKE (Albania). ------ was originally in 
Albania to provide Military Liaison Team support to host nation 
military in order to develop and coordinate military-to-military 
contacts to encourage the democratic orientation of the Albanian 
military and defense establishments. When the security situation began 
to deteriorate in Albania, he reported to American Embassy Tirana and 
offered his assistance. ------ reviewed and assisted with the update of 
the Embassy Emergency Action Plan, confirmed the surveys of evacuation 
helicopter landing zones, marked the landing zones for the initial 
arrival of the evacuation force and acted as the ambassador's military 
advisor throughout the crisis. Throughout the evening and early morning 
hours of 12-13 March 97 continuous gunfire rocked the capital city of 
Tirana, Albania. The situation became critical when mobs raided and 
looted the country's noncommissioned officer's academy of weapons and 
ammunition less than a kilometer from the American Residential 
Compound. The Ambassador requested and received permission to conduct 
an ordered evacuation of all Americans from the country of Albania on 
13 Mar 97.
    5. Operation ASSURED LIFT (Liberia). A ------ personnel deployed 
French speaking Liaison Coordination Elements (LCE) to forward 
operating locations at Bamako, Mali, Abidjan, Ivory Coast, Accra, 
Ghana, and Roberts International Airport, Liberia. Each LCE coordinated 
and supported the marshaling, on-load and offload of host nation 
military personnel. These LCE assisted host nation militaries in Ghana, 
Mali, and Cote D'Ivore in rapidly moving critical military forces to 
Monrovia, Liberia, to reinforce ECOMG (Economic Community of West 
African States cease-fire Monitoring Group). In response to an outbreak 
of intense factional fighting in and around Monrovia, Liberia, during 
14 February to 7 March 1997, the U.S. agreed to provide immediate 
assistance in strengthening ECOMOG security around Monrovia.
    6. Operation HIGH FLIGHT (Namibia). On 13 September 1996, an U.S. 
Air Force C-141 and a German Air Force TU-154 collided and crashed off 
the coast of Namibia. Due to limited personnel and communications 
capability American Embassy Windhoek requested the assistance of ODA 
392, 3rd SFG, that had deployed to conduct training and provide 
logistics assistance in support of Namibian humanitarian demining 
operations. The SOF demining team, led by Captain Hubbard, played a key 
role in getting the information flowing and supporting the deployment 
of JTF HIGH FLIGHT. Additionally, SOCEUR deployed two MC-130 aircraft 
from 352nd SOG and a command element within hours of the reported loss 
to provide initial command of the Search and Rescue (SAR) JTF and begin 
personnel recovery operations.
    7. Operation NORTHERN WATCH (Northern Iraq). The ------ supported 
the U.S. effort in support of this operation to provide Combat SAR 
(CSAR) and helicopter refueling support from Turkey for the United 
Nations' sponsored No-Fly-Zone over Northern Iraq. For the period ----
-- SOF air assisted with the ongoing Operation NORTHERN WATCH at 
Incirlik Air Base, Turkey, due to lack ofsufficient, available, and 
capable convention air assets to perform the CSAR mission over Northern 
Iraq.
    8. Operation JOINT GUARD (Bosnia-Herzegovina). The ------ provided 
special operations, CA, and PSYOP in support of NATO stabilization 
Force to deter hostilities and promote a stable environment in Bosnia-
Herzegovina from 20 December 1996 to present in Bosnia-Herzegovina, 
Croatia, Italy, and Germany.
    9. Operation ABLE SENTRY (Macedonia). The ------ have provided 
smaller rotational elements attached to conventional forces in support 
of the United Nations mission in Skopje, Macedonia.
    10. Operation BEVEL EDGE (Cambodia). A Special Operations Command-
Pacific (COMSOCPAC) led JTF deployed to an intermediate staging base at 
Utapao, Thailand, 8-21 July 1997 to prepare to conduct a NEO of 
American citizens in Phnom Penh, Cambodia. The NEO did not take place 
as the situation stabilized. Participating units under ------ .
    11. Operation SOUTHERN WATCH (IRAQ). ------ with aircrews and 
maintenance support packages to Al Kharj, Saudi Arabia, on 4 October 
1996 at the conclusion of Operation Desert Strike expanding the no-fly 
zone. The ------ provided 24 hour refueling to HH60G helicopters 
supporting the CSAR mission for aircraft enforcing the no-fly zone over 
Iraq during the periods ------.
    12. Operation SOUTHERN WATCH (IRAQ). The ------ provide individual 
augmentation to CJTF Southwest Asia (SWA) in Saudi Arabia. ------ These 
billets are tasked as 179-day recurring rotations. As a result of the 
Khobar Towers bombing, and on the recommendation of the ``Downing 
Report,'' U.S. Central Command (USCENTCOM) requested individual 
augmentation to CJTF SWA staff to effectively plan, coordinate, and 
implement force protection initiatives in the USCENTCOM area of 
operations.
    13. Operation MARATHON PACIFIC (GTMO & Wake Island). USSOCOM 
deployed CA and PSYOP personnel in support of a CINC U.S. Atlantic 
Command (CINCUSACOM) mission to provide humanitarian assistance to 
Chinese migrants intercepted off the United States Eastern coast. The 
package consisted of ------.
    14. Operation PACIFIC HAVEN (Guam). ------ personnel provided 
support to the JTF at Anderson AFB, Guam, to conduct humanitarian 
assistance operations to receive, shelter, process, and provide care 
and security for Kurdish Foreign Service Nationals (KFSN) and their 
families during the period 20 September 1996--30 April 1997.
    15. Operation SAFE BORDER (Peru and Ecuador). The ------ when 
Brazil assumed control of the support requirement. The 7th SFG deploys 
personnel on a six month rotational basis to verify adherence to the 
cease-fire agreement between Ecuador and Peru to include strict 
observance of the Demilitarized Zone established in August 1995.
    16. Operation UPHOLD DEMOCRACY (Haiti). USSOCOM deployed a total of 
------ soldiers to Haiti during fiscal year 1997 in support of USACOM's 
and then Southern Command's (after 1 June 1997) ongoing efforts to help 
Haiti reestablish its infrastructure.
    17. USSOCOM, at the request of the Commander-in-Chief of the U.S. 
European Command (USCINCEUR) and at the direction of the Secretary of 
Defense, has provided U.S.-based SOF in support of military operations 
in the Bosnia Theater of Operations. These operations support the 
Dayton Peace Accords (DPA) and are conducted under the authorization of 
the Secretary of Defense, who currently retains the disclosure 
authority for all release of information to the above question. 
Respectfully request that queries on this subject be referred to the 
Office of the Secretary of Defense.
    The following operations do not have an established end date and 
SOF support may continue into fiscal year 1999: ABLE SENTRY 
(Macedonia), SOUTHERN WATCH (Iraq), and SAFE BORDER (Peru and Ecuador).
    Question. What percentage of the time are SOCOM forces deployed on 
training and on missions?
    Answer. During fiscal year 1997, SOF were deployed 50 percent of 
the time on Operations (i.e. JOINT GUARD, NORTHERN WATCH, SOUTHERN 
WATCH, DESERT THUNDER, Joint Task Force (JTF)-SWA, SAFE BORDER, JTF-
BRAVO, JTF-Full Accounting, US Support Group Haiti, Humanitarian 
Demining missions, Counter Drug missions, Naval Special Warfare 
personnel afloat, Noncombatant Evacuation Operations, and humanitarian 
missions (Kenya Assessment, C-141 SAR); 47 percent on training (i.e JCS 
Exercises, JCETs, unit training, and individual training or schools); 
and 3 percent on other deployments to include conferences, command 
visits, and predeployment site surveys.
    Question. How do mission deployment levels impact training and 
readiness?
    Answer. The morale and retention of special operations forces has 
remained high despite our consistently high OPTEMPO. We believe this is 
because the troops are conducting significant missions, making a 
difference to the Nation and they're proud to be involved. However, 
USSOCOM has taken the initiative to ensure a ready force for the future 
by studying the effects of high tempo on our forces. One initiative is 
a PERSTEMPO Impact Survey to be completed in April 1998. This will 
focus on special operations forces (SOF) morale, families, professional 
development, training, retention, and personnel readiness. Another is a 
Joint Medic Review study, initiated as a way to address growing 
retention concerns about our SOF medics. A life-cycle approach was used 
to compare each SOF medical specialty from initial recruitment to final 
attrition. Both Army Special Forces Medics and Air Force Pararescuemen 
had shortages in operating strength caused by increases in 
authorizations not matched by increases in recruiting. The National 
Defense Research Institute/RAND has also been tasked to conduct a SOF 
recruiting study with particular emphasis on improving minority 
representation of SOF units. Emphasis upon recruiting is a multi-year 
effort, given the extensive training required and resulting long lead-
time.
    SOF is committed to remain ahead of potential problems caused by 
the high employment rate of our troops. By developing a baseline for 
future comparisons, determining how high PERSTEMPO affects the soldier 
and how this may manifest itself (morale, retention, etc.), SOF can 
develop innovative thinking and new ways to shape change.
    Question. Are there Special Forces units which are deployed more 
frequently than is prudent?
    Answer. Some of our units are deployed more frequently than we 
believe is prudent for the long-term health of the organization. The 
Special Tactics Squadrons, the Special Operations Squadrons from the 
Air Force Special Operations Command, Naval Special Warfare SEAL, SEAL 
Delivery Vehicle Teams and Patrol Coastal Ships, and the Army Civil 
Affairs and Psychological Operations units routinely experience 
significantly high unit tempo over the quarterly reporting period. 
These units have experienced high tempo on the bounds of prudent usage 
and USSOCOM has taken steps to document, analyze and temper the 
situation.

            Civil Affairs and Psychological Operations Unit

    Question. There are no funds in the fiscal year 1998 appropriations 
bill nor the fiscal 1999 budget for U.S. Forces to remain in Bosnia 
beyond the June 1998 pull out date. What is the current complement of 
Special Operations Forces in Bosnia and will they remain beyond June 
1998?
    Answer. On 20 March 1998, there are ------ conducting the Special 
Operations Force mission in support of OPERATION JOINT GUARD. 
Accordingly, ------ conducting direct support of the mission from 
Brindisi, Italy, and the remaining personnel at the various 
headquarters at SHAPE, Special Operations Command Europe, Croatia and 
Hungary. An actual breakout of he force package is as follows: ------. 
We are currently planning for a Follow-on Force mission and have 
included our force package figures in the NATO Statement of Requirement 
(SOR 11). The other Contributing Nations are reviewing this document 
and we expect to make the final adjustments to the force figures during 
the 7-8 April 1998 Force Generation Conference. Based on the 
commitments from the other nations, the U.S. SOF contribution should be 
------.

           Bosnia Implementation Force (IFOR) Cost Estimates

    Question. What are the additional costs required for them to stay 
in Bosnia? Will these funds be in the supplemental request?
    Answer. USSOCOM estimates it will cost $8.7 million for the fourth 
quarter of fiscal year 1998 for SOF to remain in Bosnia. This would 
bring the total estimate for fiscal year 1998 to $34.4 million. The 
Overseas Contingency Operations Transfer Fund (OCOTF) covers $28.5 
million of that amount. This leaves a shortfall of $5.9 million, which 
is included in the contingency supplemental submission.
    In addition to the costs to remain in Bosnia, USSOCOM estimates a 
fiscal year 1998 cost of $1.6 million or Operation Deliberate Guard. 
This cost estimate is covered in the DoD contingency supplemental 
submission.
    Question. Since many of the Special Operation Forces currently in 
Bosnia are Reservists, what will be the impact of continuing the 
Special Operation missions there?
    Answer. USSOCOM can continue to support operations in Bosnia with 
Reserve Component personnel without any adverse impact, providing 
certain adjustments are effected. These adjustments include: decreasing 
the Civil Affairs (CA) and PSYOP requirements as currently planned in 
Statement of Requirements 11, extension of Presidential Selective 
Reserve Call-up (PSRC) authority beyond 30 June 98, and use of 
Contingency Operation Temporary Tour of Active Duty (COTTAD) authority 
to deploy volunteers on second tours.
    Question. Would the Special Operations Command be able to support 
an extension of the current Presidential Selective Reserve Call-up for 
the Bosnia mission?
    Answer. Yes. In fact, the continued support of Civil Affairs and 
Psychological Operations units to Bosnia is heavily dependent on the 
extension of the Presidential Selective Reserve Call-up (PSRC) 
authority. USSOCOM can support a sixth rotation with no significant 
problems. Beginning with a seventh rotation, some specific rank or 
skill requirements may become difficult to fill.
    Question. Will reserve units who have been tasked to provide 
personnel in the past be required to provide the same personnel for an 
extension of the mission?
    Answer. No. Presidential Selective Reserve Call-up (PSRC) rules 
prohibit a soldier from being mobilized for the same operation for more 
than 270 days. Technically, a soldier could be mobilized for 180 days 
and return for an additional 90 days. However, legal review of this 
rule has indicated that Congressional intent was not to have soldiers 
return for a second tour. A soldier could, however, volunteer to return 
to the same operation under Contingency Operation Temporary Tour of 
Active Duty (COTTAD) authority for a maximum of 170 days.

                     USSOCOM Modernization Programs

    Question. Your budget request for procurement for fiscal year 1999 
is $506.260 million, $130.879 million below the 1998 appropriated 
level. Two years ago, General Henry Shelton, then Commander in Chief, 
United States Special Operations Command, and now Chairman of the Joint 
Chiefs of Staff, testified that ``An appropriate level of procurement 
funding would be at $700 million per year to ensure the fielding for 
critically needed weapon systems.'' Is the procurement request for 
fiscal year 1999 adequate to ensure the fielding of critically needed 
weapons systems?
    Answer. Within our severe fiscal constraints, we have been able to 
establish a program that, while minimal, will keep key programs on 
track. We are also seeking opportunities to leverage other technologies 
to augment our minimal procurement program.
    Question. What programs originally funded in fiscal year 1999 are 
now funded in later years?
    Answer. There are three programs which fit this category. These 
programs include: the Directional Infrared Countermeasures (DIRCM), 
where $60 million in procurement moved to Fiscal Year 2000 (FY00), the 
Patrol Coastal Forward Looking Infrared Radar (PC FLIR), where $8 
million procurement moved to FY00, and, the Advanced Seal Delivery 
System (ASDS), where $44.8 million (Procurement and Operations & 
Maintenance) where reprogrammed to Research, Development, Test and 
Evaluation (RDT&E).
    Question. Why have they slipped?
    Answer. For the Directional Infrared Countermeasures (DIRCM), 
testing has slipped approximately nine months. This slip is the result 
of a development slip. For the Patrol Coastal Forward Looking Infrared 
Radar (PC FLIR), the slippage is due to resource constraints. The 
Advanced Seal Delivery System (ASDA) funding was recolored due to cost 
and schedule slip of the prototype ASDS.
    Question. Are there additional costs to the program because of 
these delays?
    Answer. For Directional Infrared Countermeasures (DIRCM) and the 
Patrol Coastal Forward Looking Infrared Radar (PC FLIR) there are no 
additional costs associated with the delays. For the Advanced Seal 
Delivery System (ASDS), there are costs associated with the delays. 
$44.8 million of procurement and Operations and Maintenance were 
realigned to Research, Development, Test and Evaluation in fiscal year 
1999. This impacts the quantity of ASDS that can be procured.
    Question. Do you have shortfalls relating to your 1999 procurement 
request?
    Answer. Yes. The following items related to procurement are on our 
fiscal year 1999 unfunded requirement (UFR) list.

                        [In millions of dollars]

        Priority and UFR                              Procurement amount
1  Counterproliferation........................................... $5.09
4  SPEAR-BALCS....................................................   4.3
6  MH-47E Helicopter..............................................  41.5
8  Silent Shield..................................................     5
9  M4A1 Carbine Modifications.....................................  2.47
10  Remote Activating Munitions System............................     6
11  AC-130 Low Light Level TV.....................................  2.36

                             CV-22 Aircraft

    Question. The Special Operations variant of the V-22 is the CV-22 
which will provide long-range infiltration, exfiltration, and resupply 
missions for SOF forces. It fulfills a critical USSOCOM capability 
shortfall. What is the cost to the Special Operations Command for 
developing the CV-22?
    Answer. The CV-22 will cost USSOCOM $3.8 million in fiscal year 
1999. The majority of development costs for the CV-22 are funded by the 
Department of the Navy. The Navy is developing the baseline MV-22 
aircraft for the United States Marine Corps (USMC) and the initial CV-
22 modifications. USSOCOM is funding a follow-on pre-planned product 
improvement (P3I) that incorporates CV-22 capability not available in 
the baseline aircraft development program. The P3I program includes the 
integration of a defensive infrared countermeasures capability, 
additional flare & chaff dispensers, the AVR-2A laster warning 
receiver, and other modifications. USSOCOM CV-22 Research, Development, 
Test and Evaluation (RDT&E) funding is programmed to begin in fiscal 
year 2000 (FY00).
    USSOCOM is funding the procurement of the Special Operations Forces 
(SOF) unique equipment on the CV-22 (about 15 percent of the total 
aircraft procurement cost) and the United States Air Force (USAF) is 
funding the procurement of the common MV-22 aircraft and components 
(about 85 percent).
    Question. What capabilities will it have that the V-22 will not?
    Answer. The CV-22 will have four significant additional 
capabilities: the electronic warfare Suite of Integrated Radio 
Frequency Countermeasures (SIRFC) being developed by the Army for the 
Apache Longbow; the Multi-mission Advanced Tactical Terminal (MATT), 
which provides near real-time offboard sensor information for improved 
situational awareness and threat avoidance; the terrain following/
terrain avoidance APQ-174D radar; and additional fuel tanks for 
extended range. There are also other avionics improvements, such as 
improved functionality for the digital map and survivor tracking.
    Question. What defensive capabilities will it have?
    Answer. The CV-22 will have extensive defensive capabilities. The 
Suite of Integrated Radio Frequency Countermeasures (SIRFC) integrates 
on-board and off-board sensor information to display current threat 
status and provides electronic jamming capability. Chaff and flares are 
available in multiple dispensers both fore and aft on the aircraft. An 
infrared countermeasures capability will be added as part of the Pre-
planned Product Improvement (P3I) to defeat infrared missiles.
    Question. Will the CV-22 be able to transport any of your current 
land transportation vehicles?
    Answer. The CV-22 can only transport motorcycles and modified All-
Terrain Vehicles that are in the current SOF inventory. USSOCOM plans 
to procure Light Strike Vehicles in conjunction with the United States 
Marine Corps that will fit inside V-22 aircraft.

                     Advanced Seal Delivery System

    Question. The Advanced SEAL Delivery System (ASDS) was originally 
scheduled for Initial Operating Capability (IOC) in 1997. The Navy and 
the contractor have had significant problems meeting its schedule. What 
is the current IOC?
    Answer. The Advanced Seal Delivery System (ASDS) will deliver to 
the Fleet in June 1999. Initial Operational Capability (IOC) is 
scheduled three months after delivery, currently September 1999. After 
delivery to Pearl Harbor, Hawaii, we have scheduled three months of 
operator work-ups with the host submarine (USS Greeneville SSN-772). 
Upon completion of these work-ups, IOC will be achieved.
    Question. What has been the cost growth to the program to date?
    Answer. The total projected Research, Development, Test and 
Evaluation (RDT&E) contract cost of producing the first ASDS is $169 
million. The negotiated cost of the original fiscal year 1994 (FY94) 
contract, prior to redesign and structural modifications, was $62 
million (a difference of $107 million). The Latest Revised Estimate 
(LRE) by the prime contractor to complete the lead ASDS vehicle under 
the rebaselined program is $169.6 million then Year Dollars (TY$). The 
total cost for completion of the lead vehicle (contractor and other 
government costs) is projected to be approximately $218 million (TY$). 
This total includes other costs such as government-furnished equipment, 
engineering support, life cycle support, planning yard support, and the 
hydrodynamic test program that will define the host submarine submerged 
operating envelope.
    Question. Are there sufficient funds in the future years defense 
program (FYDP) to procure the six vessels which are required?
    Answer. The fiscal year 1998-2003 (FY98-03) FYDP currently does not 
contain sufficient funds to acquire total of six ASDS. Presently, 
USSOCOM is evaluating the overall force requirement for ASDS from an 
affordability standpoint.
    Question. How much would have to be added to procure six vessels?
    Answer. A total of $164.2 million would have to be added to the 
program across the future year's defense program (FYDP) to procure all 
six ASDS.
    Question. The hull manufacturer has gone out of business. Are there 
sufficient other hull manufacturers to continue the program?
    Answer. Yes. Northrop-Grumman, the prime contractor for the 
Advanced Seal Delivery System (ASDS), has negotiated a fixed-price 
contract with Electric Boat Division of General Dynamics for the 
follow-on pressure hulls.

                          Information Warfare

    Question. One potential and very serious dilemma we must face is 
that an adversary might disrupt or manipulate our military information 
systems, thereby eliminating one of the best advantages we possess over 
our adversaries. What role is the Special Operations Command playing in 
the Department's efforts to address this threat?
    Answer. USSOCOM is decisively engaged in addressing the 
asymmetrical information warfare threat posed to the United States. I 
have combined our intelligence, communications, automation, and 
information warfare specialists into an Intelligence and Information 
Operations Center. This center pulls together all the elements 
necessary to respond to the information warfare threat. Information 
operations is a Special Operations Forces (SOF) principle mission. For 
several key areas of information operations, such as psychological 
operations and civil affairs, SOF are uniquely suited for this mission. 
Currently, the Defense Information Systems Agency (DISA) and National 
Security Agency (NSA) form the center of gravity for information 
warfare to create solutions for protecting our information systems. 
USSOCOM works with DISA and NSA. This partnership has resulted in five 
vulnerability and penetration testing assistance visits at USSOCOM 
recently, such as EPIC CHALLENGE. USSOCOM also works closely with other 
agencies, such as Central Intelligence Agency, Defense Intelligence 
Agency, National Imagery and Mapping Agency and National Reconnaissance 
Office, and participates in Department working groups on IO. USSOCOM 
initiated a set of Information Conditions (INFOCONs). These INFOCONS 
establish procedures for our internal information systems users and 
system administrators to respond to different levels of threat.
    Question. How vulnerable are your information systems to disruption 
or manipulation?
    Answer. USSOCOM systems continue to evolve to protect them from 
external disruption or manipulation. By employing state-of-the-art 
systems and techniques, such as the Joint Intrusion Device developed by 
Defense Information Systems Agency, we are able to protect our critical 
information and command systems. We have deployed a defense in depth 
concept that allows our systems administration personnel to identify 
and successfully thwart information attacks. On a daily basis, USSOCOM 
systems are probed and attacked. Thus far, our systems have remained 
protected from penetration. Through numerous assistance visits and 
exercises, we have been able to strengthen our defensive posture, train 
our information professionals in recognizing and responding to attacks, 
and develop new techniques against future potential adversaries.
    Question. What steps are you taking to reduce a potential 
adversary's ability to use information warfare?
    Answer. USSOCOM is working closely with other agencies to develop 
new methods and techniques for reducing an adversarie's ability. To do 
this we must protect both the information systems and the information. 
We take every step necessary to protect our mission critical 
information systems from both external adversaries and internal 
threats. The key to this is the redundancy built into our system. This 
capability allows us to retrieve information so that if one source is 
denied us we can continue from another source. By having alternate 
means, we greatly reduce the ability of an adversary to deny us the 
required information. Testing of both primary and alternate systems is 
conducted both in training and exercise scenarios.
    Question. What measures can we take to diminish or eliminate our 
risks?
    Answer. We must not only protect our information systems, but also 
educate the Special Operation Forces warriors using those systems. Our 
networks have been continuously probed and each incident is taken very 
seriously. We have separate systems, so that we can isolate systems 
under attack and perform damage control. A continuous training program 
to ensure systems administrators are technologically current, 
understand possible threats, and verify the functioning of our 
reporting and response systems is another vital defense. At a national 
level we need an integrated effort, both government and the public 
sector. A large portion of our information infrastructure is contracted 
from commercial sources. The Report of the President's Commission on 
Critical Infrastructure Protection (PCCIP), released in October 1997, 
discusses these critical vulnerability and protection issues.
    Question. If the necessary protections are not in place, what are 
the consequences?
    Answer. The consequences of this asymmetrical threat are extremely 
serious. While popular books and magazines highlight total collapses of 
electronic commerce or other industries, more serious to the warfighter 
is the loss of confidence in the information we use to make decisions. 
The information age has improved our ability to see events as they 
unfold--our sensors feed us a constant stream of information--also that 
decision-makers can quickly and accurately respond. Any distrust as to 
the accuracy and validity of the information may cause doubts--doubt 
that can lead to paralysis in our decision-making cycle. A prolonged 
paralysis may lead to a total shutdown of our information systems and 
our ability to maintain dominant battle space knowledge. The timely, 
accurate flow of information is crucial to the success of SOF's ability 
to shape the international environment.

                           Counter-Terrorism

    Question. The terrorist threat is one of the most serious to U.S. 
civilian and military personnel. Special Operations forces provide the 
means to deter or defeat terrorist attacks against u.S. interests 
wherever they may occur. Where are the principle terrorist threats 
located today?
    Answer. USSOCOM is concerned about terrorism on a worldwide basis. 
We are concerned about the terrorism threat to Special Operation Forces 
(SOF) deployments and diplomatic facilities/presence worldwide. We are 
also concerned about the non-governmental pressure that may require us 
to conduct non-combatant evacuation operations. The following countries 
pose a continuing threat based on the presence of representatives of 
State Sponsors of Terrorism (as designated by the U.S. Department of 
State), the presence of terrorist groups, the indication of intentions 
for anti-American activities and/or violence by these groups, the 
existence and usage of centers for terrorist training, and the 
existence of working intelligence and logistic support networks in 
countries that include: ------.
    Question. What role does the Special Operations Command play in our 
overall Counter-terrorism program?
    Answer. ------.
    Question. How do Special Operations forces train to conduct 
counter-terrorism missions?
    Answer. ------.
    Question. Do they train with foreign counterparts?
    Answer. ------.
    Question. In which Countries do they train?
    Answer. ------.
    Question. In his annual report, the Secretary of Defense stated 
that Special Operations forces provided support to the Department of 
Justice for the conduct of four extraditions during 1997 resulting in 
the return of known and suspected terrorists from overseas to U.S. 
Courts for trial. Who were the suspected terrorists which were returned 
and from which countries?
    Answer. ------.
    Question. Have Special Operations Forces been involved in 
assessments of force protection measures for theater commanders to 
ensure that appropriate measures have been taken to protect against 
possible terrorists incidents?
    Answer. SOF expertise in assessing the threat and protecting the 
force is continuously tapped by the Regional Commanders in Chief 
(CINCs). Over the last year SOF has provided force protection 
assessment support to numerous areas including Bosnia, Pakistan, Korea, 
Colombia, and Peru. Our support includes augmentation to CINC level 
assessment teams and the formulation of SOF specific teams. SOF force 
protection assessment methodology concentrates on three main areas: the 
threat--its existence, history, capabilities, intentions, and 
targeting; host nation ability to provide defense to the site (most SOF 
units utilize Host Nation Facilities for billeting and training); and 
the units own Anti-Terrorism and Force Protection plan. Other areas 
surveyed include the flow of timely force protection information, 
structural integrity of the site, and stand-off from public areas. SOF 
will continue to support the Regional CINCs in all aspects of force 
protection for both SOF and conventional forces.

                   Military Operations Other Than War

    Question. There has been a dramatic increase in operations other 
than war since the Special Operations Command was established 10 years 
ago. These operations are a natural extension of the SOF mission. What 
operations other than war have Special Operations Forces been involved 
in for the last two years? Please give us some examples of what your 
forces are doing in places like Bosnia and Southwest Asia.
    Answer. During fiscal year 1996, SOF personnel supported operation 
UPHOLD DEMOCRACY (Haiti), Operation PACIFIC HAVEN (Guam), Operation 
SOUTHERN WATCH (Iraq), Operation ABLE SENTRY (Macedonia), Operation 
JOINT GUARD (Bosnia-Herzegovina), Operation NORTHERN WATCH/PROVIDE 
COMFORT (Northern Iraq), and Operation SAFE BORDER (Peru, Ecuador).
    During fiscal year 1997, SOF supported 17 operations. Specific 
details follow:
    1. Operation FIRM RESPONSE (Congo). ------.
    2. Operation NOBEL OBELISK (Sierra Leone). ------ initially 
deployed to Camp Benguema Training Center, Sierra Leone, for a Joint 
and Combined Exchange Training (JCET) (leadership) with host nation 
military personnel. During the period ------ instituted communications 
with SOCEUR & American Embassy, Freetown, established security at the 
embassy, planned and coordinated for a Non-combatant Evacuation 
Operation (NEO), conducted reconnaissance of potential hazardous 
landing zones, received the evacuation force, and provided security for 
the ambassador.
    3. Operation GUARDIAN ASSISTANCE (Rwanda). Beginning 14 November 
1996, the ------ deployed to the Great Lakes Region of Eastern Zaire in 
support of a multinational umanitarian intervention force to facilitate 
the delivery of humanitarian aid by civilian relief organizations and 
the voluntary repatriation of refugees or displaced persons from Zaire 
to Rwanda. CA and PSYOPS were instrumental in convincing the Rwandan 
refugees to return home and the AC-130 gunship was invaluable in 
locating and counting the numerous groups of refugees for the Combined 
Joint Task Force Commander (14 November through 14 December 1996).
    4. Operation SILVER WAKE (Albania). ------ was originally in 
Albania to provide Military Liaison Team support to host nation 
military in order to develop and coordinate military-to-military 
contacts to encourage the democratic orientation of the Albanian 
military and defense establishments. When the security situation began 
to deteriorate in Albania, he reported to American Embassy Tirana and 
offered his assistance. ------ reviewed and assisted with the update of 
the Embassy Emergency Action Plan, confirmed the surveys of evacuation 
helicopter landing zones, marked the landing zones for the initial 
arrival of the evacuation force and acted as the ambassador's military 
advisor throughout the crisis. Throughout the evening and early morning 
hours of 12-13 March 97 continuous gunfire rocked the capital city of 
Tirana, Albania. The situation became critical when mobs and raided and 
looted the country's noncommissioned officer's academy of weapons and 
ammunition less than a kilometer from the American Residential 
Compound. The Ambassador requested and received permission to conduct 
an ordered evacuation of all Americans from the country of Albania on 
13 Mar 97.
    5. Operation ASSURED LIFT (Liberia). ------ deployed French 
speaking Liaison Coordination Elements (LCE) to forward operating 
locations at Bamako, Mali, Abidjan, Ivory Coast, Accra, Ghana, and 
Roberts International Airport, Liberia. Each LCE coordinated and 
supported the marshaling, on-load and offload of host nation military 
personnel. These LCE assisted host nation militaries in Ghana, Mali, 
and Cote D'Ivore in rapidly moving critical military forces to 
Monrovia, Liberia, to reinforce ECOMOG (Economic Community of West 
African States cease-fire Monitoring Group). In response to an outbreak 
of intense factional fighting in and around Monrovia, Liberia, during 
14 February to 7 March 1997, the U.S. agreed to provide immediate 
assistance in strengthening ECOMOG security around Monrovia.
    6. Operation HIGH FLIGHT (Namibia). On 13 September 1996, an U.S. 
Air Force C-141 and a German Air Force TU-154 collided and crashed off 
the coast of Namibia. Due to limited personnel and communications 
capability American Embassy Windhoek requested the assistance of ODA 
392, 3rd SFG, that had deployed to conduct training and provide 
logistics assistance in support of Namibian humanitarian demining 
operations. The SOF demining team, led by Captain Hubbard, played a key 
role in getting the information flowing and supporting the deployment 
of JTF HIGH FLIGHT. Additionally, SOCEUR deployed two MC-130 aircraft 
from 352nd SOG and a command element within hours of the reported loss 
to provide initial command of the Search and Rescue (SAR) JTF and begin 
personnel recovery operations.
    7. Operation NORTHERN WATCH (Northern Iraq). ------ supported the 
U.S. effort in support of this operation to provide Combat SAR (CSAR) 
and helicopter refueling support from Turkey forthe United Nation's 
sponsored No-Fly-Zone over Northern Iraq. For the period ------ SOF air 
assisted with the ongoing Operation NORTHERN WATCH at Incirlik Air 
Base, Turkey, due to lack of sufficient, available, and capable 
conventional air assets to perform the CSAR mission over Northern Iraq.
    8. Operation JOINT GUARD (Bosnia-Herzegovina). The ------ provided 
special operations, CA and PSYOP in support of NATO Stabilization Force 
to deter hostilities and promote a stable environment in Bosnia--
Herzegovina from 20 December 1996 to present in Bosnia-Herzegovina, 
Croatia, Italy, and Germany.
    9. Operation ABLE SENTRY (Macedonia). The ------ maintained a four 
man team while PSYOP and Special Forces Battalions have provided 
smaller rotational elements attache to conventional forces in support 
of the United Nations mission in Skopje, Macedonia.
    10. Operation BEVEL EDGE (Cambodia). A special operations Command-
Pacific (COMSOCPAC) led JTF deployed to an intermediate a staging base 
at Utapao, Thailand, 8-21 July 1997 to prepare to conduct a NEO of 
American citizens in Phnom Penh, Cambodia. The NEO did not take place 
as the situation stabilized. Participating units under ------.
    11. Operation SOUTHERN WATCH (IRAQ). The ------ with aircrews and 
maintenance support packages to Al Kharj, Saudi Arabia, on 4 October 
1996 at the conclusion of Operation Desert Strike expanding the no-fly 
zone. The ------ provided 24 hours refueling to HH60G helicopters 
supporting the CSAR mission for aircraft enforcing the no-fly zone over 
Iraq during the periods ------ .
    12. Operation SOUTHERN WATCH (IRAQ). The ------ . These billets are 
tasked as 179-day recurring rotations. As a result of the Khobar Towers 
bombing, and on the recommendation of the ``Downing Report,'' U.S. 
Central Command (USCENTCOM) requested individuals augmentation to CJTP 
SWA Staff to effectively plan, coordinates, and implement force 
protection initiatives in the USCENTCOM area of operations.
    13. Operations MARATHON PACIFIC (GTMO & Wake Island). USSOCOM 
deployed CA and PSYOP personnel in support of a CINC U.S. Atlantic 
Command (CINCUSACOM) mission to provide humanitarian assistance to 
Chinese migrants intercepted off the United States Eastern coast. The 
package consisted of ------ .
    14. Operation PACIFIC HAVEN (Guam). The ------ personnel provided 
support to the JTF at Anderson AFB, Guam, to conduct humanitarian 
assistance operations to receive, shelter, process, and provide care 
and security for Kurdish Foreign Service National (KFSN) and their 
families during the period 20 September 1996--30 April 1997.
    15. Operation SAFE BORDER (Peru and Ecuador). The ------ when 
Brazil assumed control of the support requirement. The 7th SFG deploys 
personnel on a six month rotational basis to verify adherence to the 
ceases-fire agreement between Ecuador and Peru to include strict 
observances of the Demilitarized Zone established in August 1995.
    16. Operation UPHOLD DEMOCRACY (Haiti) USSOCOM deployed a total of 
------ soldiers to Haiti during fiscal year 1997) ongoing efforts to 
help Haiti reestablish it's infrastructure.
    17. USSOCOM, at the request of the Commander-in-Chief of the U.S. 
European Command (USCINCEUR) and at the direction of the Secretary of 
Defense, has provided U.S.-based SOF in support of military operations 
in the Bosnia Theater of Operations. These operations support the 
Dayton Peace Accords (DPA) and are conducted under the authorization of 
the Secretary of Defense, who currently retains the disclosure 
authority for all release of information to the above question. 
Respectfully request that queries on this subject be referred to the 
Office of the Secretary of Defense.
    During fiscal year 1997, SOF also participated in the following 
OOTW missions: Counter Drug missions in 21 countries; humanitarian 
demining training missions in 11 countries; and African Crisis Response 
Initiative (ACRI) training missions in 7 countries.
    Question. What has the increased cost to the budget for these 
operations?
    Answer. Many special operations missions and collateral activities 
inherently fall into the category of military operations other than 
war. The fiscal year 1999 USSOCOM budget contains funding for our 
participation in scheduled deployments and training for psychological, 
civil affairs, counter drug, demining, humanitarian assistance and 
foreign internal defense missions. The increased cost to USSOCOM is 
related to our participation in contingency operations other than war. 
USSOCOM spent $36.8 million for contingency operations in fiscal 1997. 
In fiscal year 1998 we estimate spending a total of $55.0 million, and 
in fiscal year 1999 we estimate a total of $49.8 million will be 
expended for contingency operations.
    Question. Have these missions affected training and readiness?
    Answer. Military operations other than war over extended time 
periods subject units to a variety of conditions often dictated by the 
host country, geography, weather, and facilities. Training is often 
restricted in regard to availability of ranges, operating times, flight 
restrictions, and training infrastructure. Additionally, the geography 
and weather can significantly affect training opportunities 
particularly when coupled with political constraints. Once training has 
been curtailed, readiness follows. Training is resumed upon rotation of 
the units/personnel involved, but is limited in effectiveness if the 
deployments are extensive. The effect upon unit readiness is heightened 
when the unit is also considered Low Density. In this respect most SOF 
units/personnel are considered Low Density/High Demand under the 
Department's Global Military Force Policy (GMFP). Readiness is impacted 
once the units exceed their Steady State limitations as defined in the 
GMFP.
    The readiness of USSOCOM active component units is high and the 
overall readiness of the force is stable; on par with historical 
levels. Reserve component unit readiness is comparable with the 
Services, and making slow, but continual improvement. Our biggest 
challenge lies in recruiting and maintaining a trained force. There are 
some isolated equipment shortages. The greatest threat to current 
readiness in Fiscal year 1998 is a shortage of qualified and trained 
personnel. We can expect degradations in readiness if we are unable to 
mitigate personnel shortfalls through various initiatives in the coming 
year.
    Overall, USSOCOM forces are ready to execute the National Military 
Strategy. The risk of two Major Regional Contingencies (MRC) remains 
moderate to high. The impact of contingency operations increases the 
two-MRC risk due to stress on our scarce assets, lost training 
opportunities, and concerns about our ability to rapidly disengage and 
reconstitute forces needed to support the MRCs. Continued readiness 
depends on the resourcing of several training and recruiting 
initiatives, and significantly reducing isolated parts and equipment 
shortfalls.
    Question. What measures has U.S. Special Operations Command taken 
to integrate capabilities and training for operations other than war 
into the fiscal year 1999 budget request?
    Answer. Military operations other than war (OOTW) encompass a wide 
range of activities where the military instrument of national power is 
used for purposes other than the large-scale combat operations usually 
associated with war. With this in mind, a good percentage of special 
operations missions and collateral activities inherently fall into this 
category and must be budgeted for and trained to during exercises and 
deployments. Special operations missions and collateral activities in 
this category include: PSYOP, foreign internal defense (FID), CA, 
coalition support, counterdrug (CD) activities, countermine activities, 
humanitarian assistance, and security assistance.
    USSOCOM employs several means to ensure SOF are trained and ready 
across this spectrum of missions. USSOCOM Service components conduct 
Service-unique individual, collective, and sustainment training; 
support institutional training; and participate in readiness exercises 
for units required to perform these missions. SOF assigned to theater 
CINC Special Operations Commands participate in joint combined exchange 
training and Chairman-directed exercises specifically tailored to train 
joint mission essential tasks in these areas. Operationally, ``train-
the-trainer'' deployments of special operations forces in support of 
demining, CD, and FID operations also serve to further refine skills 
applicable to the military OOTW environment. Headquarters USSOCOM 
budgets for special operations capabilities and training in these 
activities but also receives funding from the Departments of Defense 
and State.
    The fiscal year 1999 budget estimate for special operations 
educational institution activities is $101 million. This equates to 
fifteen percent of USSOCOM's O&M support budget. Institutional training 
for military OOTW is accomplished at the United States John F. Kennedy 
Special Warfare Center and School at Fort Bragg, North Carolina, and 
the Air Force Special Operations School at Hurlburt Field, Florida. 
These schools provide training across a variety of topics. Courses 
offered include, but are not limited to: regional studies, CA, PSYOP, 
FID, and civil-military strategy. During the qualification phase of 
training, Special Forces soldiers train to military occupational 
specialties that directly contribute to skills required in the military 
OOTW environment. These military occupational specialties include 
engineering, medical, and communications career fields, with all 
Special Forces soldiers receiving language training.
    The fiscal year 1999 budget estimate for special operations 
participation in Chairman-directed exercises is $14.6 million, with 
resources being provided by the Department of Defense. SOF 
participation in Chairman-directed exercisesis hosted by the theater-
Commanders in Chief with SOF accomplishing training across a large 
spectrum of special operations missions. There are 235 Chairman-
directed exercises programmed for fiscal year 1999. Of these, SOF are 
scheduled to participate in 85, with mission essential task training in 
CA, PSYOP, and FID slated for 53 of these exercises (62 percent).
    The fiscal year 1999 budget estimate for Joint Combined Exchange 
Training (JCET) is approximately $17 million in MFP-11 funds. JCET 
trains SOF in a variety of mission essential tasks while improving 
language proficiency, cultural awareness/immersion, and 
interoperability with coalition forces. The preponderance of resources 
is provided to United States Army Special Operations Command forces (71 
percent). JCETs are split between all theaters with Special Operations 
Command Europe, Pacific, and South taking the greatest share of these 
resources (24 percent, 33 percent, and 25 percent respectively).
    An excellent example of a FID ``train-the-trainer'' program is the 
African Crises Response Initiative (ACRI). This State Department funded 
program provides SOF who work within Africa to create highly effective, 
rapid-deployable peacekeeping units, which can operate jointly in the 
event of humanitarian crisis or a traditional peacekeeping operation. 
The fiscal year 1999 State Department budget estimate for the ACRI is 
$20 million dollars.
    Two other examples of special operations activities which pertain 
to the military OOTW environment are demining and CD operations. The 
demining activities of SOF are also based on a ``train-the-trainer'' 
concept and focus on training host nation forces to conduct demining 
operations. The fiscal year 1999 demining budget is estimated at $25 
million with resources primarily provided by the State Department. In 
the area of counterdrug operations, the special operations forces 
mission is to provide support to regional combatant commanders and 
other United States' government agencies to support assigned 
counterdrug missions, within statutory limits and as approved by the 
Secretary of Defense. The fiscal year 1999 budget for counterdrug 
operations is approximately $23 million with the majority of funding 
provided by DOD Drug Enforcement Policy and Support programs.
    In summary, SOF's missions frequently occur in the OOTW 
environment. SOF's training and capabilities are well focused in this 
area for fiscal year 1999. In conjunction with Chairman-provided 
resources and State Department funds, the USSOCOM has integrate 
adequate capabilities and training for OOTW into the fiscal year 1999 
budget request. Given the current pace of special operations 
participation in these activities, it is probable that special 
operations forces will maintain this requirement well into the future.

                       Year 2000 Computer Problem

    Question. One of the problems that we face as we enter the next 
century is older computers that are only programmed to remember the 
last two digits in a year. Thus they remember `1997' as simply `97'. 
The year 2000, however, will be saved as `00', the same as the year 
1900. This can lead to calculation errors and system failures. How 
serious is this problem for your Command? What would be the impact if 
your Mission Critical Systems were not corrected by the year 2000?
    Answer. We have identified 37 mission critical systems, 73 internal 
applications, 13 devices, and over 700 commercial off the shelf and 
government off the shelf hardware and software products that are 
subject to malfunction or failure as a result of the year 2000 problem. 
I am confident USSOCOM will continue to be able to perform its primary 
mission, but potentially at a significantly degraded level. Our 
deployed forces may be denied automated command, control, 
communications, intelligence, positioning, and imagery that we rely on 
during strategic and tactical operations. The SOF warrior, because of 
the nature of the mission, is probably one of the most demanding users 
of information technology. My forces are capable of adjusting to these 
changes when required, but at a cost of increased risk of detection, 
and decreased mission effectiveness.
    Question. Do you know of any plans to conduct Joint Chiefs of Staff 
Exercises next year with the clocks turned forward to identify any 
uncorrected year 2000 computer problems? Do you believe this would be a 
valuable test to see if the warfighting automation systems will be 
ready for the year 2000?
    Answer. Yes, the Joint Warrior Interoperability Demonstration 
(JWID) exercise and other proposed Joint exercises will assess our 
Information Technology systems for year 2000 compliance. A joint 
exercise to ``test run'' our mission critical systems is a good way to 
see exactly whether our mission critical systems are ready for the year 
2000 and beyond. However, we must also ensure safeguards are in place 
so we can recover our systems if we do discover problems. In an 
exercise test environment we can isolate those systems that experience 
interrupted operational failures or experience any slow corruption of 
data as a result of year 2000 related issues. This type of exercise may 
save a lot of time, effort, and money.
    Question. Have you begun developing contingency plans in case your 
Mission Critical Systems are not year 2000 compliant?
    Answer. Yes. Contingency planning to conduct daily operations in 
the event of an emergency are standard practices within USSOCOM. Each 
program manager has the responsibility to ensure their systems are 
assessed for potential failures, to identify points of risk, and 
document remedial strategies in the system contingency plan. Every 
functional center within USSOCOM has the responsibility to develop 
contingency plans depicting how they will conduct their day to day 
operations without the mission critical system to support them if those 
systems were to fail. We are also incorporating specific year 2000 
related risk assessments and contingency plans to mitigate the 
consequences of data processing failures on our mission critical 
systems. These contingency plans will ensure USSOCOM is mission-capable 
through the millennium change.
    Question. Overall, are you confident that this problem will be 
solved before the year 2000?
    Answer. Yes, I am confident we will solve this problem for our 
mission critical systems before the year 2000. However, we must not 
fool ourselves by thinking there will not be some system ``hiccups.'' 
We can certify each system and application individually and 
systematically integrate these systems during implementation. But once 
all these systems start to interface, there may be some areas we will 
have to go back and fix. We are planning for these hiccups and are 
developing plans to have computer emergency response teams (CERT) 
available to assist those systems and personnel that experience any 
malfunctions.

                          Counterproliferation

    Question. In May 1995, the Secretary of Defense directed the 
CINCSOC ``to assume the responsibility for organizing, training, 
equipping, and otherwise preparing U.S. special operations forces to 
conduct operations in support of U.S. government counterproliferation 
objectives.''--General Schoomaker, what type of forces and capabilities 
do you have to carry out the counterproliferation mission?
    Answer. The boundaries of counterproliferation of Weapons of Mass 
Destruction (WMD) are still not completely defined. Asymmetrical 
threats in the form of WMD can come from terrorists groups, rogue 
elements and transnational groups, as well as nation states. ------.
    Question. DOD Directive 2060.2, subject: Department of Defense 
Counterproliferation Implementation, dated July 9, 1996, states that 
accomplishment of the counterproliferation mission ``may require 
coordination with other U.S. Government Agencies.''--Which agencies 
have you worked with? What type of support do you need from these 
agencies?
    Answer. The conduct of operations in support of U.S. Government 
Counterproliferation objectives is by definition, an Interagency 
process. USSOCOM has developed close working relationships and 
coordinated efforts with: ------.
    The FBI is Lead Federal Agency (LFA) for domestic WMD incidents. 
USSOCOM serves in a supporting role during domestic response to WMD 
incidents on US soil. ------. (Approval for USSOCOM involvement on US 
soil rests with the President, based on the joint recommendation of the 
SECDEF and the Attorney General.) ------. State Department is the Lead 
Federal Agency (LFA) for OCONUS WMD incidents. As such the conduct of 
SOF operations in support of U.S. Government CP objectives, OCONUS, are 
conducted in support of and in coordination with the State Department.
    USSOCOM requires intelligence support from a variety of agencies to 
include the ------.
    We have trained extensively within the interagency in an effort to 
increase the level of comfort with the complex relationships developed.
    Question. Is the intelligence community able to provide you with 
timely intelligence support?
    Answer. Timeliness and quality of intelligence has always been an 
operational challenge. This challenge becomes even more critical 
considering the complexity of counterproliferation (CP) issues.
    The greatest CP intelligence challenge is the inability of the 
national intelligence community to meet Special Operations Forces (SOF) 
level of detail requirements. ------.
    Human intelligence (HUMINT) provides the fine-grain intelligence 
required to support SOF. ------. USSOCOM has just recently identified 
detailed HUMINT collection requirements which will increase the focus 
on CP. Of all the intelligence disciplines, HUMINT has the least 
capability to surge during crisis periods. Consequently, the necessary 
long term HUMINT relationships must be previously established to ensure 
mission success. Additionally, HUMINT reporting timeliness are 
historically longer than for the other intelligence disciplines.
    Imagery intelligence (IMINT) support generally is good, however the 
current constellation limitations and competing requirements, 
especially during crises, mitigate against the near full-time coverage 
necessary to meet SOF CP collection needs. ------.
    Additionally, denial and deception procedures by proliferators 
frequently make coverage which is available of limited value.
    Developing measurement and signature intelligence (MASINT) may 
significantly improve CP intelligence collection in a few years. 
Timeliness of MASINT data analysis and dissemination is another area 
that requires improvement. Space-based MASINT provides the standoff, 
but is not yet capable of meeting USSOCOM's biological and chemical 
weapons-related requirements. USSOCOM, and the Department and 
intelligence community, has developed an initiative to improve 
USSOCOM's Special Reconnaissance Capabilities (SRC) against ``hard 
target'' requirements. The DOD-wide initiative, with USSOCOM as 
Executive Agent, will focus on specific sensors and related 
technologies to improve SOF SRC and augment traditional intelligence 
collection means.
    Question. Do you have adequate resources to accomplish your 
counterproliferation mission?
    Answer. SOF offer carefully measured, surgical counterproliferation 
(CP) options not available elsewhere and represent an alternative whose 
use can ------. USSOCOM continues its efforts to meet the ever-
increasing threat of weapons of mass destruction (WMD) by pursuing a 
robust, interagency program to enhance its capabilities. Where 
possible, we leverage resources from existing programs, and collaborate 
with others' mutually beneficial programs. An example of this is our 
work with ------.
    Projected resources are adequate to accomplish a reduced set of 
near-term objectives. For instance, depending on the structural make-up 
of a ------. The boundaries of CP of WMD are still not completely 
defined. We are pursuing several avenues within CP to insure we are 
prepared, when called upon, to deter, detect and monitor, or interdict 
WMD and their associated technologies and equipment, regardless of the 
environment or situation. Key in this effort are our initiatives in the 
area of CP Explosive Ordnance Disposal (CP EOD). These skills allow our 
operators to detect, disable or render ineffective a variety of 
weaponized WMD to include improvised devices. We also continue to 
improve our counterforce capabilities in HDBT and maritime 
interdiction.
    Additionally, ------ responsibilities to continue in the future. 
All of these efforts and capabilities are extremely resource intensive. 
Even so, it is necessary to continually upgrade and refine our efforts 
in order to maintain capabilities commensurate with the escalating 
challenges.
    Our unfinanced requirements list provides details concerning the 
amount of additional resources required to increase USSOCOM CP 
capabilities. A total of $20.55 million has been identified as a fiscal 
year 1999 shortfall.
    Question. Do you know what role the National Guard plays in the 
implementation of DOD counterproliferation activities and programs? Has 
there been coordination between you and the National Guard Bureau on 
counterproliferation matters?
    Answer. ------.
    Question. Is the intelligence community able to provide you with 
timely intelligence support?
    Answer. ------.
    Question. Do you have adequate resources to accomplish your 
counterproliferation mission?
    Answer. ------.
    Question. General Schoomaker, the current crisis in Iraq has 
highlighted how difficult it is to target and destroy weapons of mass 
destruction (WMD) facilities by air strikes alone. If not very soon, 
then undoubtedly someday in the near future, possibly somewhere other 
than in Iraq, we are going to find ourselves in a situation where we 
need to go in and destroy, not just seriously diminish a WMD production 
facility on the ground. What does SOCOM need to insure that when that 
day comes we are as ready as we can possibly be?
    Answer. The United States Special Operations Command continues its 
efforts to meet the ever-increasing threat of weapons of mass 
destruction (WMD) by pursuing a robust program to enhance its 
capabilities. ------. Where possible, we leverage off of existing 
programs, and collaborate with other agencies' and commands' mutually 
beneficial programs. ------.
    Maintaining this capability commensurate with the increasing threat 
is the challenge. Projected resources are adequate to accomplish a 
reduced set of near-term objectives. ------. The maintenance of all of 
these efforts and capabilities is extremely resource intensive and ----
--.

                             Bosnia Mission

    Question. General Schoomaker, what is the current role of special 
operations forces in Bosnia? How many SOF personnel are deployed in 
support of the Bosnia operation?
    Answer. The SOF mission for Operations JOINT ENDEAVOR/JOINT GUARD 
has been to conduct special operations, civil affairs (CA) and 
psychological operations (PSYOP) in support of the North Atlantic 
Treaty Organization Stabilization Force, formerly Implementation Force, 
to deter hostilities and promote a stable environment in Bosnia-
Herzegovina. This has been accomplished by attaching SOF forces to 
designated North Atlantic Treaty Organization and non-North Atlantic 
Treaty Organization units. ------. This Special Operation Force 
presence has proven to improve coordination, minimize 
misunderstandings, and save lives.
    Civil Affairs/Civil Military Cooperation Center provides the 
Stabilization Force with the capability to conduct Civil Military 
Operations in support of Supreme Allied Commander Europe's 
implementation of the peace agreement. The Civil Military Operations 
Center promotes cooperation between the civilian population and various 
agencies and national governments. Civil Affairs personnel work to 
leverage capabilities of Non-governmental Organizations, International 
Organizations, national governments. They facilitate parallel unified 
civilian effort in support of the North Atlantic Treaty Organization 
peace plan for regional stabilization and are prepared to respond to 
humanitarian, public safety, and public health contingencies. ------.
    Question. I understand that special mission units (SMUs) have been 
deployed to Bosnia for highly sensitive and risky operations. Can you 
tell us what these operations are? What is the chain of command in 
authorizing such operations?
    Answer. USSOCOM, at the request of the Commander-in-Chief of the 
U.S. European Command (USCINCEUR) and at the direction of the Secretary 
of Defense, has provided U.S.-based SOF in support of military 
operations in the Bosnia Theater of Operations. These operations 
support the Dayton Peace Accords (DPA) and are conducted under the 
authorization of the Secretary of Defense, who currently retains the 
disclosure authority for all release of information to the above 
question. Respectfully request that queries on this subject be referred 
to this Office of the Secretary of Defense.

    [Clerk's note.--End of questions submitted by Mr. Young.]
                                          Wednesday, March 4, 1998.

COMMANDER IN CHIEF, UNITED STATES PACIFIC COMMAND AND COMMANDER, UNITED 
                          STATES FORCES, KOREA

                               WITNESSES

ADMIRAL JOSEPH W. PRUEHER, COMMANDER IN CHIEF, UNITED STATES PACIFIC 
    COMMAND, U.S. NAVY
GENERAL JOHN H. TILELLI, JR., COMMANDER, UNITED STATES FORCES KOREA, 
    U.S. ARMY

                              Introduction

    Mr. Young. The Committee will come to order.
    Pursuant to a vote in the Committee last week, this hearing 
is closed so that we might have the opportunity to discuss any 
classified material that any of us would like to discuss.
    Today we are very happy to welcome Admiral Joseph Prueher, 
Commander in Chief, U.S. Pacific Command, and General John 
Tilelli, Commander in Chief, United Nations Command, Republic 
of Korea and the U.S. Combined Forces Command and U.S. Forces, 
Korea.
    It is good to see you both again and to have you visit with 
the Committee. We enjoyed our previous visits and look forward 
to an exciting hearing today.
    We understand the area of your responsibility. We know how 
extensive it is, including 50 percent of the earth's surface 
and 60 percent of the world's population; and, from a military 
perspective, it includes five of the seven U.S. mutual defense 
treaties and seven of the world's largest armed forces. That is 
a bunch. You do such a good job at it. We are really proud of 
what you do and what the people that work under you do.
    In that region, we maintain a continuous presence of 
approximately 100,000 military personnel performing missions 
ranging from assisting in humanitarian demining to guarding the 
dangerous intra-Korean border.
    Some of the issues that we would like to hear about today, 
and we will be asking questions about, include the current 
situation in North Korea; the economic problems in South Korea 
and Japan and how they affect those nations' ability to 
maintain their security commitments; the recent change of 
government in South Korea; and the continued military 
modernization being undertaken by China.
    Your prepared statements will be placed in the record, and 
please summarize them in any way that you wish. As you might 
expect, there will be a lot of questions then from the members 
who are extremely interested in what you do and how you do it.
    Mr. Murtha.

                         Remarks of Mr. Murtha

    Mr. Murtha. Let me just welcome two of the finest officers 
in the Naval and Army service, and we appreciate you coming.
    I just made a trip--the Chairman went one way and I went 
the other way--to Korea and the Pacific, and I am always 
impressed about how far it is out there and what a large area 
of responsibility you have and the tensions that exist. But I 
was also impressed by the quality of the troops and the morale 
and how well things were going. So I appreciate when you have 
to come back here. It is a long way home.
    Admiral Prueher. Thank you, sir.
    Mr. Young. Admiral Prueher, we will hear from you first, I 
understand, and then we will go to General Tilelli.

                  Summary Statement of Admiral Prueher

    Admiral Prueher. All right, sir. Thank you very much.
    You have covered our region, but it is an honor to be here 
before the Committee, and we thank you for the opportunity to 
represent the men and women of the Pacific Command.
    What I would like to do today is give a quick update on our 
assessment of the security position in the Asian Pacific. 
Because of the economic crisis in Asia, I would like to talk a 
little bit about the logic train for our activities and what we 
are doing, the issues ahead, some of our priorities, and then 
spend a little time talking about readiness.
    I would like to point out one example of what we are doing 
that I think will make things coalesce a bit.

                        STRATEGY IN THE PACIFIC

    Our strategy in the Pacific is important because of what is 
going on economically. It is based on two premises. The first 
of those is trying to work the economic part, the political 
part and the military part in concert to try to work and 
advance them at the same pace and not get one too far ahead of 
the other. It works out well that way, and we work it hard that 
way.
    The other premise is the fact that security, especially 
military security, underlies the stable conditions which allow 
the economies to work. Madeleine Albright talked about how the 
economic system rests on political order, which in turn depends 
on military security, which is the same way of saying that. So 
we are in a region that is at peace but not conflict-free, and 
military security is what we are trying to provide for our 
Nation and the region.
    You have heard Secretary Cohen talk about ``shape, respond 
and prepare'' from the QDR. We translate it in our theater and 
into preventive defense, crisis response and, in addition, the 
ability to fight and win a major conflict which, if it should 
occur, would most likely be in General Tilelli's theater in 
Korea.

                       FORCES IN PACIFIC COMMAND

    Now each of these things requires credible military forces 
which can respond in a quick way, and this is what we do. This 
is the essence of what we do. These ready, forward-deployed, 
properly positioned forces are what we are about.
    I would like to tip my hat to the 300,000 men and women in 
the Pacific Command and upon whose shoulders I ride. I couldn't 
do anything, and none of us could, without them. They are just 
excellent. They really are. I hope when you come out there you 
will see them and be very proud of them like we are.

                         AREA OF RESPONSIBILITY

    The focus of our effort. What are the big pieces we are 
focused on here for the future? I am going to talk about five 
of them.
    The first is Japan, preserving our pivotal security 
relationship in the Pacific. It is a strong one. Things are 
working well with Japan. It is not trouble-free, but the 
biggest things we are working right now, one is Okinawa issues 
and the other is the defense guidelines where Japan is trying 
to determine their role in security in the Pacific.
    The second, and a big issue that is talked about 
everywhere, is that of China. What are we doing with China? It 
is the backdrop for all of our discussions. I will save more 
for Q's and A's, but, basically, we are building a very healthy 
military-to-military relationship with China in the context of 
our overall relationship. It is moving at a slow rate, but that 
is the way it should be moving, at a slow rate, as we build 
some understanding and build confidence.
    My thoughts as to what we are doing with China is we are 
trying to lay foundations for the future of the relationship. 
We have talked with the senior PLA leadership and, China's 
President; and what we are doing is we are building this so we 
can accommodate both differences as well as things on which we 
agree without having the whole thing fall apart all the time. 
So that is number two.
    Number three is India. India is a very large country, the 
largest democracy in the world, the second largest population. 
We expect it to exceed China's population in the next century. 
Quite frankly, we don't do a lot militarily with India. It is a 
modest mil-to-mil relationship, and we are building that. It is 
not urgent, but it is important for the future, and we are 
trying not to take our eye off the ball in South Asia.
    The fourth one from the PACCOM point of view, is we are 
trying to help create the conditions for General Tilelli in 
which he can work to create a noncataclysmic resolution on the 
Korean peninsula. As you all well know, Korea is the only 
nation to which the United States has one of our four-stars 
assigned full-time, which is tremendously important to us. 
General Tilelli in his three hats and his staff do a great job 
there, and he will cover Korea in some detail.
    The fifth item that we are concerned about is the impact of 
the economic or the financial crisis in East Asia on the 
security relationships. I would like to make the point that 
this economic crisis is, in fact, a security crisis, if we 
don't handle it well. It is important because there are some 
opportunities associated with this crisis as well, and I point 
out the Chinese word for crisis incorporates two characters--
one is danger, the other is opportunity--and that is exactly 
where we are with this economic crisis that exists in East Asia 
right now.

                                THAILAND

    I said I would give an example of our preventive defense 
that we are doing with the other nations. I would like to use 
Thailand as that example. Thailand is a treaty ally. They have 
been steadfast since the Vietnam days. They have been on our 
side. They have allowed us to base there. We have fought side 
by side. They have allowed us to stage our aircraft going to 
the Persian Gulf, going to the Arabian Gulf through Thailand 
despite some outside pressure, and they have been a strong U.N. 
player throughout. They are a good friend of the United States, 
and they look to us. They are going through a period of both 
political and economic instability that is one of the worst in 
East Asia and Southeast Asia.
    About 4 or 5 months ago, there was a situation where the 
government--Prime Minister Chavalit was falling, and there was 
some corruption. The military leaders there and the military--
the head of the Royal Thai Armed Forces is a general named 
Mongon Ampornpisit, and he is a friend of ours, and he is also 
an IMET graduate. He and General Chetta, who is the head of the 
Army were under a lot of pressure to take over the government, 
to run it, to stop the democratic processes. And Mongon and 
Chetta, together, really held Thailand together through that 
period. They stood fast behind the government and behind the 
democratic process.
    Now, they have had an election. They have elected a new 
prime minister. They are swallowing the IMF pill and hope that 
it is the right prescription. But they are working it hard, and 
the level of pain in Thailand is such that the senior military 
people, for example, are taking a 20 percent pay cut. It is a 
shared burden in Thailand, but they are somewhat cheerfully all 
going about this, because they believe that the IMF is the 
right medicine and that they will get back on the beam.
    It is a tribute, I think, to what militaries do in a 
democracy. It is what we have been trying to work on in this 
region and in other regions of the world, too, to build 
democracies. It is a strong democracy with a responsible 
military. The notion or the idea that their senior military 
people trained with the United States, that they are inculcated 
with our ideals, is very important, and I think it is a tribute 
to them, and it will be important for the long-haul.

                               READINESS

    I would like to shift now to talk a little bit about 
readiness. Readiness is something we all discuss at some 
length. We all have anecdotes, I have a lot of them, and I am 
sure each of you do as you travel around the region. But I 
would like to define readiness for a geographic CINC. 
Fundamentally, for a military commander, it is having the right 
forces at the right place at the right time and prepared to 
fight the right war.
    Now, under that umbrella, we look at six different things. 
The first is qualified personnel. The second is combat capable 
equipment. The third is the appropriate level of maintenance 
and spares. The fourth is training of these people to use the 
equipment. The fifth is tactics, which is different from 
training. It is with sophisticated tactics that our people--
that we can capitalize on both the equipment and the people's 
capabilities. The sixth point that we look at very carefully is 
the ability to move these forces, the hardware and the support 
equipment, to the right place, to be able to lift it to be at 
the right place at the right time.
    Those are the issues that we have, and that is what we look 
at and what we mean at the CINCs level when we talk about 
readiness. We measure each of these things, each of these six.
    But in the conversations with readiness, people talk about 
it at three separate levels, tactical, operational and 
strategic. Where we get the anecdotes is at the tactical or the 
individual unit level. So we look at readiness at those levels: 
Can the airplane fly? Can the ship get underway? Can the tank 
run and shoot? Those are the types of things we look at for 
readiness.
    The next level up of aggregation, from that or the tactical 
level, is the operational level where we aggregate units into 
carrier battle groups or divisions or joint task forces, and 
then we look at an aggregate level of readiness there with 
additional command and control parts to it.
    Then, when we get up to the CINCs level, we aggregate it 
even farther to the strategic level where we pull all of those 
things together, and then we look at the ability to move it 
from one place to another and to be able to work. So it is a 
hierarchy of things.
    So sometimes what we will say, what I will tell you later, 
is that the PACOM forces are ready. But that does not mean that 
they are not individuals or units that don't have deficiencies, 
they do. But, overall, the units are ready; and that is that 
hierarchy that we are talking about. Overall, our forces are 
ready. We are ready at the large level to do our mission.
    Now, can we do it as quickly as we might like? Can we do it 
on time? Right now, the answer is not as quickly as we would 
like. General Tilelli will tell you more about that.
    We have a carrier battle group gone out of the western 
Pacific that is in the Gulf. Now, what we could do if the 
situation warranted, we could bring another carrier battle 
group from the West Coast of the United States and have it 
there. We could bring other forces, but we have done what we 
consider to be prudent risk in this, and we have brought some 
other forces in, but not a lot, to accommodate the situation in 
Korea. Because, in our assessment, the likelihood of a conflict 
is not high right now. But we need to look at that 
continuously.
    Our readiness management systems, the acronyms are SORTS 
and JMRR, these systems, I would give them a grade of about a 
C. They are not very good. It is a hard thing to do, to measure 
these gradations of readiness. But we are working on the 
systems, the joint staff is working on the systems, OSD is, as 
are we, to get a better handle on measuring readiness and 
making it more predictive.
    We can discuss much more of this if you would like in 
questions and answers, but the bottom line about readiness is 
that this is the context in which we discuss it. Our forces are 
ready. There is some risk involved, and General Tilelli will 
talk about that more, but because of time delay right now, 
should something happen in Korea, we incur some additional 
risk, and we think it is acceptable to take at this point.

                                SUMMARY

    So I would like to conclude, Mr. Chairman, with a thanks to 
your Committee for you all, for your travel into AOR. I hope 
that more people will do it more. Thank you very much for your 
support for what we do. It is great to work with you and for 
you with our mission. Thank you.
    Mr. Young. Admiral, thank you very much. As Mr. Murtha and 
I have both said, we are very proud of the work that you all do 
and the way that you keep our interests protected in your part 
of the world.
    [The statement of Admiral Prueher follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Young. General Tilelli, we are happy to have you back 
again, sir, and we will be glad to hear from you at this time. 
Then we will be prepared to bombard you with very in-depth and 
interesting questions.

                  Summary Statement of General Tilelli

    General Tilelli. Thank you, Mr. Chairman, distinguished 
Committee members. It is again my distinct honor to be here and 
represent the men and women who serve in Korea.
    Let me start by thanking you for the continued support of 
our forces. As Mr. Murtha saw when he was in Korea, there is 
absolute progress as a function of the support that you have 
given us in the last 5 years as far as quality of life of the 
men and women who are serving there. Soldiers, sailors, airmen 
and Marines and civilians of the United States forces 
absolutely benefit from your support. You enable me and us in 
the United States to achieve our theater mission of deterring 
aggression. We have done that successfully, maintaining 
readiness, and that is the key to the next element which is, if 
there is conflict, to be prepared to fight and win, and, 
hopefully, we will not have to do that.
    To accomplish our mission, my strategy is clear: One, 
strong forward presence. They are the forces that are in place, 
the 37,000 forces that are in the Republic of Korea and those 
in the Pacific that feed the theater very quickly; secondly, a 
very vibrant exercise program; and, thirdly, the tenets of 
power projection. If we can't get the forces there on time, we 
take additional risk and we suffer additional losses.

                          NORTH KOREAN THREAT

    So in my mind's eye, we focus a lot on the economic turmoil 
and the economic turbulence in the Asian area. We focus on the 
food shortage in North Korea. But I must say, there is still a 
significant military threat north of the demilitarized zone. 
The massive military machine of the DPRK and the North Korean 
regime is real and has not gone away. They continue to muddle 
through, despite past predictions of imminent collapse and 
their desperate situation. In the South it is very 
disconcerting when we see the contrast of military operations 
and a very large military on one hand and the humanitarian 
support that is provided in terms of food on the other hand.
    While we are all touched by this human suffering brought 
about by the breakdown in their economic system, we also look 
across the DMZ at an enemy that is fully prepared. The North's 
winter training cycles of the last 2 years have been robust and 
very active; and, right now, they are engaged in the final 
stages of their winter training cycle.
    Chemical weapons and other theater ballistic missile 
research and development continue unabated. These actions are 
indicative of a nation that is willing to sacrifice everything, 
to include its general population, to maintain its trump card, 
which is a significant military; and that military is a viable 
instrument of its national power and may be the only one it has 
left.
    Many intelligent people have predicted, through evaluation, 
that the situation in the North is dire and the Kim regime is 
destined to collapse in the near future. I will not predict a 
collapse in the North, because I believe the regime is much 
more resilient than we sometimes give it credit for. I will say 
the possibility of collapse in itself is also troubling in that 
it also causes us challenges, not only for the United States 
but for the Republic of Korea.

                   ANTIPERSONNEL LANDMINES MORATORIUM

    One of the issues that I feel it is important that I 
address to you as a part of my ability to meet the threat in 
the event of conflict is the moratorium on antipersonnel land 
mines. As you know, the President and the Department of Defense 
have a plan to replace these weapons between now and 2006, and 
I support the plan and have been involved in devising that plan 
with the Chairman and the Joint Staff.
    However, the fiscal year 1996 Foreign Operations 
Appropriations Act places a prohibition on the use of land 
mines, other than along the demilitarized zone, beginning in 
February of 1999. Under this moratorium, I will not be allowed 
to use remotely placed, self-destructing SMART mines to help 
block penetrations and shape the battlefield. By remotely 
emplaced, I mean air or artillery delivered, other than along 
the demilitarized zones.
    These systems are a critical component of my overall 
campaign plan. They are technologically advanced, reliable and 
not responsible for the humanitarian crisis that we say the 
indiscriminate use of older mines causes.
    I submit to you that until we can find a suitable 
alternative in accordance with the President and the Department 
of Defense's directive, I ask that you look at or relook at 
that legislation, which would synchronize with the 2006 
administration policy on use of antipersonnel land mines.

                  ALLIANCE WITH THE REPUBLIC OF KOREA

    The cornerstone of our ability to defend and deal with 
contingencies is the strength of the Republic of Korea, ROK, 
and U.S. alliance, and many of you have seen that. It is a 
strong, vibrant and evolving alliance. It is a model, as far as 
I am concerned, for other alliances around the world. But, as 
you know, this is a time of unprecedented change in the 
Republic of Korea; and I will address those issues during 
question and answer period, Mr. Chairman.
    First, we as Americans should take pride in the emergence 
of the Republic of Korea as a full-fledged democracy. The 
recent inauguration of Kim Dae Jung marked the first time that 
an opposition party assumed leadership through a civilian-to-
civilian transfer.
    We in the Combined Forces Command, at the same time, 
continue to be committed to being prepared and ready. In the 
Combined Forces Command it has been my great privilege to 
command a unique and outstanding military organization. It is a 
organization that epitomizes the Goldwater-Nichols reforms. We 
are joint and combined every day, and we support all of the 
tenets of Goldwater-Nichols.
    The duration of our involvement in Korea causes many not 
serving there to think that the status quo in Korea remains, 
but this is far from the truth. We face a threat that has a 
very large conventional force and also possesses asymmetric 
threats--namely, Special Operation forces and chemical weapons 
and the missiles to deliver them. But, at the same time, we 
have a modernized, well-trained force that stands ready on 
freedom's frontier.

                               RESOURCES

    While the resources are strained, I would be less than 
candid if I said we had everything we needed. The ROK and the 
U.S. governments support the Command sufficiently to ensure 
that we are capable of deterring aggression and to fight and 
win if the North miscalculates and attacks. In short, my 
current operations and maintenance funding is adequate to 
accomplish the operational mission. But I accept some risks, as 
my current fiscal year 1998 funding levels maintain operational 
and unit readiness. On the other hand, in order to meet these 
standards, I accept shortages in my base operations, which 
directly accounts for quality of life of my service members.
    The fiscal year 1999 profile projections of my OPTEMPO and 
operational readiness are at levels where I still can maintain 
adequate levels of readiness where I am comfortable; but, at 
the same time, we still are strained in the base operations 
areas.

                         QUALITY OF LIFE ISSUES

    Transitioning to that issue, let me talk about quality of 
life of the service members, their families, the few families 
we have in country and the civilians of the command. I consider 
it critical not only for their welfare but also for their 
ability to accomplish our mission.
    First, again, I express our appreciation for your Military 
Construction, MILCON, support. That has helped, and it will 
continue to help. But, as we address the issue, we must keep in 
mind that these outstanding young men and women--and they are 
outstanding, the quality of our troops. The men and women who 
serve has not changed. These are the people who would bear the 
burden of combat and who wake up each day to the reality that 
one of the most threatening situations in the world is just 
outside their doors. They perform their mission every day, 
their Personnel Tempo, which in my lingo means they are away 
from home for 365 days, since they are on a short tour and 
hardship tour in Korea. They serve on this hardship tour 
admirably and with great character and courage. They are still 
the best our country has, and they deserve our best support.
    We are making progress. I have said that. The return of 
MILCON funding after the hiatus, the last 4 years in MILCON 
funding is making a difference, as is the Korean host nation 
funding support. However, the problems are not solved.
    The infrastructure is overdue for a major recapitalization 
and overhaul, and it will take us years to meet the Department 
of Defense standard. And I am not looking to meet that standard 
immediately. I am trying to get my troops into what I call 
adequate quality of life. But I still have a significant number 
of personnel living in inadequate facilities that many of you 
have seen during your visits to theater.
    I ask that we build on the progress that you and your ROK 
counterparts have made, and I want to assure you that I will do 
my best to spend those resources most effectively and 
efficiently and will not waste those resources and I will put 
them on bases and camps that have the greatest long-term 
utility.

                                SUMMARY

    In closing, I submit to you that this is a time when we 
must remain stalwart beside our allies, and the turmoil of the 
economic situation must not be allowed to grow into a security 
situation. Security, in fact, has been the greatest asset that 
the Republic of Korea has had over the last 40-plus years in 
the tremendous economic growth that it had success in up until 
the recent turmoil.
    During this time of turbulence, we have the opportunity to 
reinforce our position as the honest broker in the region. The 
next few years will prove pivotal in the security environment 
in the Republic of Korea and potentially in Northeast Asia. The 
agreed framework to dismantle the nuclear program in the North 
appears to be working. The four-party talks are just beginning. 
These are positive signs, and we think we are moving in the 
right direction. However, the time line for resolution is still 
debatable.
    For the foreseeable future, we must remain vigilant and 
strong; and, for the long term, we must remain engaged. Because 
the area is too important for us not to be engaged. Your 
support is vitally important to me.
    Again, I thank you for that; and I am prepared to answer 
your questions or the questions that you raised, Mr. Chairman, 
or any others.
    Mr. Young. General, thank you very much. I think all of us 
would agree that, since we know something about our operation, 
that you are not wasting the money over there. You are getting 
a lot for the dollar that is made available to you.
    [The statement of General Tilelli follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                  STRAIN FROM OPERATIONAL COMMITMENTS

    Mr. Young. I want to ask a general question of both of you.
    As we support the indefinite extension of the NATO mission 
in Bosnia, or whatever that operation might be and for however 
long it might last, and the deployment of U.S. forces to the 
Persian Gulf, that are obviously going to be there longer than 
some of us expected--and General Tilelli, I read some comments 
that you had made about the fact that you lost the carrier 
battle group, and I think the Air Force is tying to make up for 
that vacancy by assigning some additional F-15s there--how long 
can we continue? General, you used the word ``strain.'' How 
long are you going to be able to continue this strain without 
breaking something really bad?
    General Tilelli. That is a very difficult question to 
answer. I mean, the fact that we are in a strained resource 
environment down at the unit level or at the component level 
and the commanders are in an environment where they are always 
balancing the Operational Tempo, which equates to readiness, 
and the base operations, which equates to quality of life, and 
the priority always goes to the Operation OPTEMPO to keep that 
readiness high, or must go to Operation OPTEMPO in my mind, 
especially to Korea. So the consequence is you are not doing 
some of the infrastructure repair and maintenance that you 
should be doing to not only recapitalize but to maintain your 
facilities so you don't have water main breaks and electric 
outages, et cetera, et cetera.
    So, over time, you don't know how long it is going to take 
for that piece of the puzzle to break, where you really have to 
put in a larger investment than you want to, than you would 
have had to if you had continued to support it all along.
    So that is the strain at the Operation and Maintenance 
dollar level that I talked about, and base operations is the 
short end at this point.
    Mr. Young. What about in the overall Pacific region that 
you have responsibility for? You have to be feeling the strain 
in places other than Korea.
    Admiral Prueher. Yes, sir, we are. The strain comes in--
just an example, we have some of our assets out of the Pacific 
theater that are involved in Europe as we do global sourcing. 
We will have aircraft--an aircraft squadron will deploy to 
either Incirlik, for Operation Northern Watch or to Southern 
Watch. That occurs from time to time.
    Right now, from a naval point of view, there are 60 ships 
in the Gulf, in the Arabian Gulf. There are 17 coalition ships, 
43 U.S. ships, of which 24 are out of the Pacific Command. Now, 
this is--some of this is normal because CENTCOM doesn't own 
assets of their own, so we expect to do that some.
    But the strain comes in increased deployment time. It comes 
also in terms of opportunity costs. With the Independence 
carrier battle group, the fact that they are there in the Gulf, 
they would be underway probably anyway. But they are not doing 
work for us in our theater of being proximate to Korea should 
they be needed or doing exercises with other nations that we--
or training and interoperability training that we would be 
getting in our theater. So it is an opportunity cost. We have 
had to cancel several events that they could not participate 
in.
    We have the electronic support aircraft, the EA-6Bs, that 
would normally be stationed in Iwakuni in support of General 
Tilelli for contingencies are not there. They are both at 
Aviano, and they are also at Southern Watch. They are 
distributed there.
    How long can this go on? That is a tough question. Because 
if--I think--if the nation needs it, if we are at war, some of 
these, the 6-month deployment cycles and things like that can 
go away. But for now--this seems to be almost a routine--we are 
incorporating it in our routine operations. So the Chief, Naval 
Operations-CNO has said, talking about ships in the Gulf, that 
we could support that indefinitely, as long as we are willing 
to pay the cost in the Mediterranean or in the Pacific Command. 
For us, a maritime theater, the cost is high. It is a gradual 
erosion of our interaction with other countries. We could not 
respond to a crisis as easily.
    The last time in the China-Taiwan Straits 2 years ago we 
were able to respond in 3 days with a carrier battle group that 
happened to be coming out of Manila. Now, the soonest we could 
respond would be 14 days to a similar type crisis should one 
arise.
    So I can't really give you a time line on how long we can 
stand the strain, but we are eroding our base of preventive 
medicine that we are dealing with in the Pacific.

             TWO SIMULTANEOUS MAJOR REGIONAL CONTINGENCIES

    Mr. Young. And if we had two Major Regional Contingencies, 
MRCs, simultaneously, we would be in deep trouble, wouldn't we?
    Admiral Prueher. We would be heavily strained. We could--I 
still think, General Tilelli and I have talked, we could still 
do it, but, again, the risk factor would go up; and, as General 
Tilelli has pointed out, the time lag to do the second MRC 
would cause increased loss of life.
    General Tilelli. Mr. Chairman, if I could just interject, I 
think the key as we think about two Major Theater Wars--MTWs, 
it really is, in my view, is not associated with winning or 
losing. I think we win. If you are the second MTW, you win. The 
issue becomes the time it takes to get the forces that the 
second MTW needs there. Therefore, airlift and sealift are very 
important for our national security and national military 
strategy.
    Secondarily, when we talk about time, especially in the 
Korean theater without the flow in a timely way, I am taking 
greater numbers of casualties. That is, in a real sense, as you 
raise the risk you mitigate that with time and casualties, and 
that is the only way you can do that. That is the only 
opportunity you have. And not a good solution, by the way, none 
that I like.
    Mr. Young. So the cost would be higher?
    Admiral Prueher. Yes, sir.
    Mr. Young. Especially in terms of loss of life?
    Admiral Prueher. Yes, sir.

                              SPARE PARTS

    Mr. Young. You mentioned infrastructure overhaul, and I 
think we understand what you are talking about there as far as 
your infrastructure, but what about your ability to fight, your 
spare parts? Is your equipment usable today?
    I know when we sit in this room we are often told that it 
is not that big a problem, but if you go out into the field and 
you visit people that are actually operational, they will tell 
you, we have airplanes sitting over here that we have taken 
parts from and some of the parts we get from the depots don't 
work when they get here. From the field viewpoint, the 
Committee has increased funding for spare parts almost every 
year in recent years, and we want to make that problem go away, 
but it seems like the more we spend the more the problem still 
exists.
    So from the standpoint of those of you in the field, what 
is happening with spare parts, the cannibalization of airplanes 
or any other types of equipment?
    General Tilelli. Mr. Chairman, let me talk about the 
Republic of Korea. I am indeed fortunate because I am a high-
priority area, so the consequence is I have very high readiness 
rates and very high readiness rates and very high personnel 
rates. And I know that not only from reports but by talking to 
commanders at all levels. And I think when Mr. Murtha was there 
recently he saw that the kids in the field they train hard, are 
ready to fight, and maintain good readiness.
    The parts flow to me seems, in my theater, both for the 
preponderant forces which are Army and Air Force's, seems to be 
on track with no great time lags from request to delivery or 
ship time. So I am in a relatively good position for those 
areas that you talk about.
    Admiral Prueher. In my comments about readiness we talked 
about the tactical or the unit level, the operational level and 
then the strategic level; and I think most of the people you 
talk to in this room are thinking about the strategic level and 
some of the other things that we can do. When you go out and 
you talk to people that are turning wrenches and replacing 
parts and working on things, flying airplanes or ships or 
tanks, they see the problem in a different way. I would----
    Someone just mentioned over lunchtime, it is sort of like 
the unemployment rate. We have the lowest unemployment rate, 
but if you happen to ask somebody that is standing in the line, 
you get a different answer than you do from the statistician.
    So what we have with the parts issue, there are forward-
deployed units not only in Korea but the forward-deployed ones 
in the area at pretty peak readiness. They don't have major 
problems forward for that.
    On the turnarounds, as people are back in the United 
States, I think if you asked Admiral Gahman from Atlantic 
Command, ACOM, he would have a little bit of a different 
answer. Because they are the people that are on the turnaround 
that are not forward deployed, and they have a problem.
    We have been pulling to try and get some data. I will give 
a percentage on cannibalization rates which you all understand. 
If you have to take a part out of an airplane or tank and put 
it in another one instead of taking it off a shelf, you are 
cannibalizing it. It requires extra maintenance actions, 
timing, money, all of those things.
    In PACAF, our Pacific Air Forces, the cannibalization rate 
in 1995 was 6.6 percent, which is about right for--actually, 
you would like it to be very low. This year, in 1997, it was 
15.9 percent cannibalization rate. So we have had two and a 
half times thes previous rate. It is a parametric indicator of 
the parts problem that we are talking about in PACAF, and we 
are trying hard to put together the actual data and not to try 
to skew the data to make a case but just find out how bad is 
this problem.
    Mr. Young. Well, the reason I raise this issue is because I 
have talked with a lot of officers who have the responsibility 
to keep airplanes flying, for example.
    While Mr. Murtha had his group in Korea, I had another 
group in the Gulf area. And at the Prince Sultan Air Base I was 
told that their overall records look pretty good on the 
availability of airplanes for flight, but that the way they 
kept from having hangar queens, that when they got to about the 
25th day of one plane being down because they took parts, they 
took parts from airplane B to put back into airplane A so that 
airplane A didn't get on the cannibalization list as a hangar 
queen. And the 30 days began to run on airplane B. So when the 
25th day on airplane B came up, they robbed another airplane. 
So their overall records look good, but they were just 
constantly changing parts.
    Admiral Prueher. Yes, sir. Our measuring system is probably 
not quite right if we are driving that kind of activity.
    Mr. Young. We will keep trying to get the spare parts there 
on time so they don't have to do that.
    Admiral Prueher. Yes, sir.
    Mr. Young. Mr. Murtha.
    Mr. Murtha. About 12 years ago when another gentleman from 
Florida was Chairman of the Committee, after a presentation by 
one of the four-stars I called Admiral Crowe and I said, it is 
the worst presentation I have ever seen in my life, and I am 
embarrassed. The guy didn't answer a question.
    You may remember it, Bill. It was one of the worst we ever 
heard.
    Well, last year after the presentation, I called General 
Shalikashvili and I said, that it was one of the best 
presentations. Admiral Prueher made one of the finest, 
sophisticated, comprehensive presentations I have ever heard to 
this Committee, and I reiterate that today. I appreciate your 
comprehensive knowledge of such a large area and what you bring 
to this Committee.
    I will say about General Tilelli, I never got a more 
straightforward--I mean, he gets up in the morning and he 
works, and he makes sure that we work. We had a delightful 
visit, but he made sure that I saw what I needed to see so I 
can come back and report to the Chairman and the Committee the 
deficiencies and, at the same time, the progress that has been 
made in Korea.
    So I really don't have any questions. I just have nothing 
but compliments for both of you and the fine work that you are 
doing out there.
    Admiral Peueher. Thank you, sir.
    Mr. Young. Mr. Lewis.

             INTERNATIONAL MILITARY EDUCATION AND TRAINING

    Mr. Lewis. Thank you, Mr. Chairman.
    Admiral, General, we very much appreciate you being here 
and the effort that is required to travel back for this 
hearing.
    Admiral, in outlining the region quickly at the beginning 
of your remarks, you talked about both China and some military 
circumstances, India, what we know and don't know about their 
military condition. International Military Education and 
Training--IMET was mentioned when you referred to a General in 
Thailand earlier. I am not sure whether we have IMET programs 
that affect either of those other two countries, China or 
India. Do we have?
    Admiral Prueher. We do not have one with China. We have a 
small program with India under $500,000 per year.
    Mr. Lewis. The reason I am asking this question is that I 
remember the days when we were focusing upon problems in Latin 
America I spent a good deal of energy looking at the role of 
IMET and the impact it had upon attitudes of their officer 
corps and how we saw the values of IMET in dealing with other 
countries over time.
    It seems to me that that kind of exposure and training of 
military leaders from countries like India and China are pretty 
critical items for consideration. If we don't have one with 
India, which is going to be the largest country in the world, 
if it is not already. They are not doing the kind of population 
control China is doing and clearly are spending a large amount 
of their budget in the volatility, vis-a-vis Pakistan.
    Admiral Prueher. Right.
    Mr. Lewis. Why don't we pursue these programs?
    Admiral Prueher. Well, the IMET programs with China is 
something, as we move along with China, it is a little delicate 
to push them too fast.
    Mr. Lewis. Of course.
    Admiral Prueher. So we are working at a lot of 
intersections outside the IMET program with China.
    We have an increasingly robust relationship with China, 
though it does not include getting them to our defense 
universities or at Leavenworth or places like that that the 
IMET program would bring. That is downstream in our process. We 
just aren't there yet.
    Mr. Lewis. Well, in connection with that specifically, I 
have spent a good deal of time looking at China; and one of the 
items that continues to come into my imagination is that we 
really need to be thinking about 2025 every bit as much as 
1999. Developing economic relations, university relations, 
political relations, et cetera, the more of the personalized 
kind of exposure we have to young officer corps, it is just 
invaluable; and I would hope that we would really be talking 
that through.
    Admiral Prueher. Mr. Lewis, I couldn't agree more. In the 
last year we have come a long way with China, less far with 
India. But the meeting with President Jiang Zemin, Chi Hoatian 
their defense minister, and coming soon to the United States 
will be General Zhang Warnian, who is their senior PLA General, 
and a variety of others--Fu Quanyou, who is their chairman 
equivalent. We have been working back and forth with them this 
last year. In fact, in the travelogue world, I was in China in 
December and January.
    We are working it really hard. We have agreed at the level 
of their most senior leadership that we do need to have these 
interactions, and they should not just be amongst us because we 
will be gone shortly, and we are pushing it down. There are 
several initiatives going on. We are not to the IMET stage yet.
    We have the Asia Pacific Center, which is in Honolulu, 
where we have invited the Chinese to come. They have not yet 
accepted that, but they will.
    I would like to take the opportunity to comment about IMET 
with Indonesia, which we talked about last year here. The 
example I gave with General Mongkon in Thailand--and this may 
be a little bit off the track of your interests--but the point 
we made with General Mongkon on the fact that he is an IMET 
graduate, in Indonesia we have not had an IMET program for the 
last 6 years, and we have issues with Indonesia on human rights 
and things like that. My view is that this is exactly the wrong 
tack to take, to cut them off from exposure to our processes, 
as opposed to that we should try to get their leadership into 
our processes.

                          RELATIONS WITH INDIA

    Mr. Lewis. Admiral, let's discuss India for a moment. I 
know that we don't have a lot of in-depth communication with 
their military that we should. I mean, after all, their officer 
corps doesn't just speak English, the British were there for 
200 years, and there is a lot of potential problems--not just a 
Pakistan-India relationship.
    Currently, economically, our exchange relative to software 
people is incredible. There is not any doubt that there are 
several natural avenues, but I wonder if we don't have 
preconceived notions that are cutting off avenues of 
communications. I think we really need to be developing a good 
relationship. Because they are a huge force, and they could be 
a dangerous force.
    Admiral Prueher. We are. Ambassador Chandra, India's 
ambassador to the U.S., was just at our headquarters last week; 
and we made a visit to India to try to set this up last year. 
They are--after watching what we have been doing with China, 
India is now energized a little bit to open up some more, 
because they were, you know, a Soviet Cold War partner. So that 
is sort of the baggage that we are working with right now.
    Mr. Lewis. Probably our baggage as much as theirs.
    Admiral Prueher. That is right. Exactly. I have some 
anecdotes that I won't take up the Committee's time with, but 
we are working that.
    And General Reimer is going to India. We will go along 
because they are in our Area of Responsibility--AOR. We will 
try to get the same type of setup going where we start to work 
these interactions. But it has been dormant for a while, and 
just in the last year we have been getting it off the ground.
    Mr. Lewis. When is General Reimer going?
    Admiral Prueher. I believe in the fall or the spring.
    Mr. Lewis. Why don't you let me know?
    Admiral Prueher. I will. I will get back to you on that.

                   ANTIPERSONNEL LANDMINE MORATORIUM

    Mr. Lewis. General Tilelli, you were talking about a couple 
of things that captured my imagination when you talked about 
the battlefield and remotely placed landmines and legislation 
impacting you ability to shape the battlefield and then you 
talked about special forces across the line that have 
deliverable weapons of mass destruction, all of that raised a 
number of concerns.
    When that language went forward relative to landmines, was 
there not some consultation with people like yourself relative 
to these possible impacts?
    General Tilelli. Sir, in fiscal year 1996, when that 
legislation went forward, it was a fiscal year 1996 Foreign 
Operations Appropriation Act. I can't answer who consultation 
occurred with. Now, certainly, since then, all of us have been 
consulted and collaborated with by both the Department of 
Defense and the Chairman and the joint staffs.
    Mr. Lewis. Foreign Operations is an Appropriations 
subcommittee, and its language or its impact is limited to a 
year at a time, I think. Is that language just being renewed 
every year?
    General Tilelli. This moratorium goes into effect in 
February of 1999. So I think for the use of remotely emplaced, 
Anti-Personnel Landmines--APL, I think that carried forward.
    Mr. Lewis. I wonder if staff would help me examine that. 
Normally, our language lasts for a year and doesn't go forward. 
I am just curious about it.
    General Tilelli. It is a reintroduction on a year-by-year 
basis.

                         ASIAN FINANCIAL CRISIS

    Mr. Lewis. On a year-by-year basis in foreign ops. Well 
then, we do have to look at that very carefully. You have 
authorization language in foreign ops that affects a 
battlefield, for God's sakes, and that is a significant item. 
We ought to at least examine it.
    If I could shift back for a moment, I understand that the 
suicides have quadrupled in Thailand in recent months; and it 
has been suggested that that is a reflection--people jumping 
out of windows, kind of like Wall Street in 1930--that is a 
reflection of the economic condition there.
    Can you give me a feeling for what kinds of instability 
that you see as a direct result of economic crises that could 
bring us to the point of having to exercise ourselves in a 
confrontational sense in some way?
    Admiral Prueher. Well, I was in Thailand last week, in 
Bangkok, and I had the opportunity to meet with the Prime 
Minister Chuan and the Foreign Minister Surin and then the 
General that I mentioned, General Mongkon, who I always see 
when I go there. I had not heard the figure about suicides.
    In Thailand itself, I think the people there are very 
concerned about the city-poor; the poor people in the 
countryside will be okay. Their standard of living is modest, 
and it is slightly more modest, but they will have food, 
clothing and shelter. So the situation in Thailand I think is--
they have hard times ahead, but it is stable.
    Now, is the question region-wide?
    Mr. Lewis. It really is region-wide. I was thinking earlier 
on about the Chinese devaluation potential.
     Admiral Prueher. Right. The Chinese have said they will 
not devalue, so that is--hopefully, they won't get pressed into 
doing that.
    The types of security issues that we see there are, with 
the economic instability, primarily in South Korea, Indonesia 
and Thailand, but the currency or banking crisis has occurred, 
and that happened very quickly. Now it is transitioning into a 
trade crisis as they try to export their way out of 
devaluation. And the growth rates and the optimism that was 
there is not there now. So what we have is economic 
instability. The worst is in Indonesia.
    When I talked earlier about the confluence of military, 
economic and political, what we are trying to do is show--and 
that was the nature of my trip to Thailand, Singapore and to 
Manila--is to show that the U.S. presence, Secretary Cohen's 
statement of we are there in good times and bad, is that we are 
there to buttress the military security piece so that that does 
not exacerbate the economic insecurity.
    So this is what we are working on. There are all sorts of 
shaping, sizing, scoping, adjusting, timing of things that we 
are doing to work with the nations so that they can grapple 
with this economic correction, which they need to go through. I 
mean, there were a lot of bad loans and overoptimism, a 
nonsustainable growth rate.
    Mr. Lewis. Thank you, Admiral.
    Thank you very much, Mr. Chairman.
    Mr. Young. Mr. Dicks.

             TWO SIMULTANEOUS MAJOR REGIONAL CONTINGENCIES

    Mr. Dicks. I want to go back to this issue that was raised, 
General Tilelli, in your memo that was leaked inside the Air 
Force.
    In a memo sent this week to the Pentagon, the Commander-in-
Chief of U.S. Forces Korea warned that, with the threatened 
action in Iraq and the attendant diversion of forces from Korea 
to back it up, his ability to defeat a limited warning attack 
by North Korea is at risk. The concerns expressed by General 
John Tilelli cast doubt on the Defense Department's ability to 
carry out the national military strategy of the last 5 years to 
fight and win in two major theaters of war at once.
    Do you believe our strategy of swinging high-value assets 
between theaters is realistic in scenarios involving little or 
no warning?
    General Tilelli. I think it is realistic, but it is very 
difficult, and at the same time----
    Mr. Dicks. How can it be both?
    General Tilelli. No, you can swing forces. The issue 
becomes--and if you are talking the two MTW scenario, if you 
are using or apportioning the same forces, the second MTW is 
going to have to wait for those forces to be swung. So the 
consequence of that is you elevate the risk, and the risk 
elevation may equate to a number of things. It may equate to 
the kind of things it takes to be successful in defending, the 
amount of terrain that you lose that you are defending if you 
are the second MTW, the length of time it takes for you to be 
able to go on the offense, and the number of casualties that, 
in fact, you will take while awaiting the forces that you 
absolutely need to accomplish one or more of the phases of your 
campaign plan.
    Mr. Murtha. There is one other thing too, if the gentleman 
will yield, sustainment is the big problem, sustaining the 
forces is the big problem in this whole scenario.
    General Tilelli. And there are some high value items such 
as PGM, Precision-Guided Munitions, that truly, the second MTW 
will not have as many as they might need. So it truly is--you 
elevate the risk in a very candid way, in my assessment. What 
you are seeing there is not a--not to be flippant, but that 
falls in the category, sir, of not believing everything you 
read. I never sent a memo to the Chairman that said much of 
that. That was a staff assessment from one staff to the other, 
which was a very appropriate assessment, by the way. And that 
was--and a very appropriate assessment, because it is the staff 
responsibility and commander's responsibility to share 
assessments.
    But the fact is, in my very candid opinion and we have done 
this, we have done it in a number of ways, if I am the second 
major theater of war, I believe I will win, and I believe I 
will achieve the objectives if Korea is the second MTW.
    Mr. Dicks. But it will be as lot tougher. You will take a 
lot more causalities.
    General Tilelli. That is exactly how you mitigate, you 
mitigate a lack of resources by the time it takes, the 
harshness of the fight, and the number of casualties. And I 
mean it would be frivolous of me to say that or for Admiral 
Prueher to say that if you take resources from me today that I 
require to fight, then it is less risk than it was when I had 
those resources. It absolutely increases the risk.
    Mr. Dicks. I don't know how this got into the public 
domain, but I think it is very useful for the people up here on 
Capitol Hill who have the ultimate responsibility under the 
Constitution to know that, we are going to swing assets from 
one area of the world to another area, and still be as 
effective militarily.
    Let me go on and read a little bit more of what this says. 
Despite these stopgap measures, Tilelli says that during the 
first phase of a battle, the denial phase, the absence of 
ammunition sustainment ships places our abilities to sustain 
defensive forces at very high risk, according to the document. 
The combined shortfalls in Patriot, Army tactical missile 
systems, Hellfire and TOW missiles and 120 millimeter main gun 
tank rounds will severely impact our ability to defend Seoul. 
He warns that if our forces are diverted from the Pacific 
Theater to support the operation in Iraq, military flexible 
deterrent options using in-theater assets will be reduced. 
Relying on out-of-theater forces to support the deterrence 
posture would entail delays of personnel and equipment, 
compromising his position.
    And then it goes on to say that the memo, however, is far 
from those who are using the Quadrennial Defense Review--QDR 
plan of fighting 2 major theaters of warfare, Iraq and North 
Korea, in most planning documents is impossible to support 
under the defense budgets over the last decade. The military 
argues that a primary enabler of the plan is the ability to 
swing high value assets like bombers and JSTARS aircraft 
between theaters as they are needed. Tilelli's memo points to 
the Achilles heel of the plan. It only works when there is 
adequate warning of an attack. Because Korea is so far removed 
from the majority of U.S. forces in a limited warning scenario, 
if assets are not in theater, precious days could be lost in 
answering an attack with overwhelming force.

                               B-2 BOMBER

    Now, I think that is very helpful. This gentleman has been 
concerned about the adequacy of our bomber force. I happen to 
think that bringing assets from outside of the theater, if they 
are long-range bombers that can drop these precision-guided 
munitions, would be very useful in a no-warning scenario. And 
even in the QDR where they did everything they could possible 
to say we don't need B-2s, they had to admit that in the early 
warning, in a surprise attack or a no-warning attack, the most 
effective system you would have would be long-range bombers.
    Now, if you don't have all of these other things that are 
mentioned in this memo--I mean it certainly seems to me that 
having a bomber force that could come from outside of the 
theater in support would be of some use, especially if they can 
get there in a matter of hours, and especially if you don't 
have your aircraft carrier there. Admiral?
    Admiral Prueher. May I address it, Congressman Dicks, in 
part because my responsibility in this case is to support 
General Tilelli and to provide him the assets that he needs to 
fight. Not in this case, but period.
    Mr. Dicks. You mentioned in your statement we are short in 
6 areas, 6 substantive areas.
    Admiral Prueher. Right. And there are a couple of things 
that bear--General Tilelli, when assets have gone and then 
light in the theater, for example, EW aircraft, that is another 
scarcity, but the--what he has increased is the Intel 
surveillance and the reconnaissance effort so he gets a longer 
lead time, so we can have as much lead time as we can get to 
move assets into the theater.
    The other thing on the logistic sustainment ships is we 
have been using----
    Mr. Dicks. You know, it is one thing that is so easily 
said, Admiral, but remember what happened in the Gulf War. We 
had 2 days of operational warning and we really didn't act, 
because we didn't think Saddam was going to do it. I mean it is 
one thing to have indications; it is another thing to take 
decisive steps. Sometimes you can't get the National Command 
Authority's attention. In that case they couldn't get the 
deputies' group together to have a meeting. So they didn't make 
a decision, and all of these things didn't flow. So I mean you 
know, it is one thing to say we are going to have indications 
and warnings, it is another thing to be able to act on them.
    Admiral Prueher. I am trying to work my way around to sort 
of supporting your position.
    Mr. Dicks. Well, let me give you one more opportunity.
    Admiral Prueher. The other issue on sustainment ships that 
we talked about, sustainment ships, we are using, we have 14 
sustainment ships in the Gulf right now, and they have been 
used as a U.S. presence indicator in the Gulf for quite a 
while, and some of these are ones that would normally be in our 
theater where we have made a conscious decision, though General 
Tilelli and I argues against it, but to keep them there because 
that was the highest and best use of those ships during this 
time period. So that is another part, and they are quite a long 
steaming distance from Korea.
    Lift is a critical component for us, it is one of those 6 
items on our list. Both strategic airlift and sealift are vital 
in our area where the distances are so large. The point about 
bombers, we have also, in addition to moving the squadron of F-
15s into Korea to partly account for the lack of aircraft 
carriers, we have also flown some B-52 missions to targets in 
South Korea, and just to exercise that.
    So your point about bombers and the condition where we find 
ourselves is certainly, it is a valid point. We could use them 
in this type of condition.
    If I could just finish with one point. The reason we are 
where we are right now is, in talking with General Hugh Shelton 
and talking with the Secretary of Defense, the situation where 
we find ourselves is our assessment is the likelihood of 
conflict in Korea is very low right now. The likelihood of 
conflict in our area is low. We have kept some assets there, 
but it is--we are squirming because we have to look very 
carefully right now because we do have so many assets in The 
Gulf.
    Mr. Dicks. Admiral.
    General Tilelli. The other thing I mentioned, sir, and you 
know this because you have heard the war plan brief, in a real 
sense, the preponderance of the force that fights in Korea 
comes from off the peninsula.
    Mr. Dicks. Right.
    General Tilelli. So the longer it takes for that force to 
close, the longer it is going to take me to initially defend 
and then go on the offensive against the North, and the 
consequence of that will be, or potentially will be, a loss of 
some of the key and decisive terrain that we hope to keep, and 
certainly more casualties.

                            CHEMICAL WEAPONS

    Mr. Dicks. ------.
    [Clerk's note.--The classified discussion was removed.]
    Mr. Young. Mr. Hobson.

         JOINT SURVEILLANCE TARGET ATTACK RADAR SYSTEM (JSTARS)

    Mr. Hobson. Thank you, Mr. Chairman.
    Gentlemen, as I sit here, I get awful nervous when you 
start talking about B-52s and C-141s, those things. I don't 
think we have enough C-17s to do all this stuff. The sealift is 
old and a lot of them not there. It is a real--I knew Norm was 
going to get around to the B-2 before he got done.
    Mr. Dicks. It took me a long time to set it up.
    Mr. Hobson. I know, but that is a long-term problem that I 
don't see a lot of planning for.
    I just have one question I would like to ask you, General. 
The National Defense Panel has two formal reports and in 
testimony before the Congress has questioned the Quadrennial 
Defense Review's reduction in the number of JSTARS and further 
stated that 13 JSTARS is not enough. Would you please discuss 
the importance of JSTARS to your theater and indicate how many 
are needed to support your operation?
    General Tilelli. Sir, first, we had the first JSTARS 
deployment to Korea in the October-November time frame during 
an exercise. One, we learned as much from JSTARS as it learned 
from us in the operational tactics, techniques and procedures, 
plus the wiring from air to ground. So that was very 
successful. We had a second deployment that occurred here 
during the winter training cycle and subsequent to that, the 
JSTARS has been redeployed. So JSTARS, as a function of the 
terrain and the compartmentalization and the heavy movement of 
vehicles from north to south, as a battle management platform 
and as a platform, that gives me indicators of moving targets 
is very important to the Republic of Korea fight.
    To quantify the number required for the Republic of Korea 
and the single orbit which would give me coverage of about 24 
hours a day, I think the number is 5, and I would have to 
provide you that for the record, but that is just for my area 
of operations, and it is also for my area of operations without 
any backup. So in my view JSTARS is one of those elements, and 
I briefed Congressman Murtha when he was there, JSTARS is one 
of those elements that is critical to my fight if we ever go to 
conflict.
    Mr. Hobson. Did you want to comment, Admiral?
    Admiral Prueher. On the JSTARS issue in the theater?
    Mr. Hobson. Yes.
    Admiral Prueher. Well, there are a lot of potential areas 
that, for example, if things started going awry, well, it could 
be anywhere, but say we wanted to look at a variety of things, 
it could be forest fires or whatever in Indonesia, JSTARS could 
be a type of platform that could work there. We will need I 
think at some time over the South China Sea the ability to put 
a platform; a surveillance and a management platform there 
would be a very handy thing to have. But Korea is the main spot 
in our theater.
    Mr. Hobson. I guess my point is that I think the 13 number 
may not be enough. We may need to look at that, because there 
are a lot of things we have to look at, but that may be one and 
we need to find out the relative, I guess, priority of that as 
we look out.
    Admiral Prueher. And there are a number of things going on 
now in surveillance. One of the key things that General Tilelli 
mentioned about JSTARS is that what it was not originally 
intended to do, I don't think, is the battle management aspect 
of it. There are other platforms that can look and see the 
types of movement that JSTARS can pick up and the battle 
management piece is very important. But there are other, 
Umanned Aeriel Vehicles--UAVs and things like that that we 
might use just for the data collection piece.
    Mr. Hobson. Thank you, gentlemen.
    Mr. Young. Mr. Visclosky.

                            INDIA'S MILITARY

    Mr. Visclosky. Thank you, Mr. Chairman.
    Admiral, in your testimony you indicated that India and the 
Indian military is focused inwardly at the current time. From 
the Indian government's point of view, from the military's 
point of view, what is their role today, the Indian military 
role?
    Admiral Prueher. They have--India-Pakistan, there is a 
steady low-level conflict going on in the Siachen Glacier, one 
of the strangest wars in the world, but it continues.
    Mr. Visclosky. So they actually are engaged?
    Admiral Prueher. They are engaged. Periodically there is a 
helicopter that gets shot down from one side or the other, and 
there is a level of activity that goes on all the time there on 
the Indian-Pakistan border. It is near Jammu and Kashmir.
    Primarily the Indian military orients, the Army orients 
toward border protection, as does their air force. They are not 
thinking about a power projection force. Their Chief of Naval 
Operations--CNO, Admiral Bagwat, is trying to build a more 
powerful Navy thatwill have the ability to be dominant in the 
Indian Ocean, which they probably will do.
    They do not work jointly, as we do. The services in India 
don't work together at all. Also, in our country, we breathe 
India-Pakistan almost always in the same breath. My take and 
most people's take from visiting India is they look much more 
to the east to China for both the long-term threat and also to 
the east, to Southeast Asia, for the long-term economic trade 
that they would have.
    Mr. Visclosky. Are there occasional hostilities between the 
Chinese and the Indians?
    Admiral Prueher. There are low-level border disputes and 
they have largely not had--they haven't had clashes that I know 
of lately, but the border is contested along there in the 
mountains.
    Mr. Visclosky. Do they serve a domestic political role as 
well?
    Admiral Prueher. They do. But someone pointed out earlier 
that India has gone through 4 weeks of elections and they have 
600 million people vote and they have had some demonstrations, 
but largely it has been peaceful in India. But they do use 
their military for internal security, the Army.

            DEFENSE AGAINST CHEMICAL AND BIOLOGICAL ATTACKS

    Mr. Visclosky. You also had mentioned in your testimony 
that in conjunction with U.S. Forces, Korea, the U.S. Pacific 
Command has generated a list of near-term fixes to close the 
gap in our capability to defend against chemical and biological 
attacks.
    Is that in your budget request?
    Admiral Prueher. There are some in the budget request. 
Well, the Services' budget requests, we--that comes via the 
services and yes, it is. There is chemical equipment and 
antichemical equipment in the budgets, in the service's budget 
requests. Our requests were for near-term fixes.
    Mr. Visclosky. Are you fully funded for at least the near 
term fixes in your request to the Committee, or is there a 
shortfall?
    Admiral Prueher. I will have to provide the answer on 
whether we are fully funded or not. I know some of those things 
are fairly simple, like plastic sheeting and stuff like that. I 
will have to find out whether we are fully funded. I will get 
that answer to you, sir.
    Mr. Visclosky. Okay, I am just concerned if we are talking 
about near-term fixes and we are not even fully funded to 
protect your people in the near term, that certainly I think 
causes all of us some concern here.
    Admiral Prueher. Well, that has been a steady effort, and I 
know U.S. Forces, Korea has gotten the antichemical suits for 
our troops and are getting the new ones, but there are some 
other odds and ends of things that I will have to find out the 
answer for you.
    Mr. Visclosky. General, perhaps I should ask you also.
    General Tilelli. Sir, from the standpoint of the U.S. 
forces, the individual protective gear, we are getting that as 
scheduled. We are also activating a chemical decontamination 
outfit with 5 companies that will provide us greater 
decontamination capability for some of our large facilities.
    Some of the--we are also, as we speak, they are starting to 
distribute, they begin the Army, some of the new individual 
protective gear. On the ROK side, the Republic of Korea side, 
as we fight this thing, I have to be concerned with them, and 
they have greater problems with their forces in the rear than 
their forces that are engaged initially.
    Some of the areas that we are working on that require fixes 
that we don't quite understand are protection and 
decontamination of large areas. For example, our ADOPS and our 
seaports. And also, one of the things that we have just done 
and are doing and have been funded to do is to field the gear 
for the mission essential personnel who work in ports, drive 
trucks, and the Korean service corps, who also provide us 
logistic support in the rear.
    So we have gotten a lot of near-term fixes, some we don't 
understand how to fix yet, and some of the collective 
protective systems we are still assessing. But there has been 
an emphasis. The money that the Department of Defense has 
received has been parceled out to the field. I think parceled 
out in priority.

             ENVIRONMENTAL CLEAN-UP OF U.S. BASES IN JAPAN

    Mr. Visclosky. Okay. As far as some of the environmental 
cleanup of U.S. bases in Japan, is there a controversy or 
outstanding question as to who will pick up the cost, the U.S. 
or the Japanese government?
    Admiral Prueher. There is not a controversy. On the base 
cleanup, there is a legal position where the agreement we 
signed, we are not legally bound to pay for base cleanup. As an 
environmental steward, we claim to be an environmental example 
in the world or try to be an environmental example. This is 
under discussion because we need to do a responsible thing, and 
we are working with the lawyers on who does provide base 
cleanup. I would not describe it as a controversy, but it is a 
discussion topic.
    Mr. Young. Will the gentleman yield?
    Mr. Visclosky. I am happy to yield.
    Mr. Young. Admiral and General, Speaker Gingrich and 
Minority Leader Gephardt have asked me to take a substantial 
group to Bosnia tomorrow, and in 1 minute I have a meeting with 
those folks and some people with the State Department. So I am 
going to excuse myself. Mr. Lewis will preside.
    But I want to thank you very much for an exceptional 
hearing this afternoon and the way you just responded to us 
openly and honestly and directly, and we appreciate that very 
much. Thank you for yielding, Mr. Visclosky.
    Mr. Visclosky. Thank you, Mr. Chairman.
    In conclusion on that, is that an open question as to how 
the cleanup will be made?
    Admiral Prueher. That is correct. It is not an open 
question legally, from a legal standpoint, but it is one we 
want to discuss to make sure we are doing the right thing with 
it on the base cleanup.
    Mr. Visclosky. Thank you very much.
    Admiral Prueher. With respect to chemical defense 
requirements I was told we had the information and all the 
near-term things are fully funded.
    Mr. Visclosky. Okay, good, good.
    Admiral Prueher. Thank you, sir.
    Mr. Visclosky. Okay. Thank you.

                             BURDENSHARING

    Mr. Lewis. Mr. Nethercutt, do you have questions?
    Mr. Nethercutt. Gentlemen, welcome. I am delighted to have 
you here and thank you for your service and for your testimony 
here today.
    Both of you testified briefly on the Asian crisis and the 
economic situation there. My question is whether you feel the 
Asian currently problems are going to have an impact on the 
burden-sharing obligations of Japan and Korea, and if so, if 
our budget request for fiscal year 1999 adequate to meet any 
deficiency there might be? What is your assessment of that?
    Admiral Prueher. I can take the Japan part, and I think it 
would be better if General Tilelli took the Korean part.
    In Japan, they are slightly different. In Japan the 
services are provided by labor contracts, and it is in yen, so 
the real issue is purchasing power. So the devaluation will not 
impact our--the host Nation's support for us. There are 
pressures on it, but the Japanese have said they will pay it. 
The other thing is if the amount they are going to pay is above 
the 75 percent level that we look for, but it is a nonproblem. 
If you look at the track of dollar value over the last 3 years, 
the dollar value of that support has decreased, but the 
purchasing power has increased, and we have the same amount of 
support that we had before. That part is not a problem in 
Japan.
    Mr. Nethercutt. You expect no pressure on us as a result of 
any of that?
    Admiral Prueher. I don't expect pressure on us. In fact, 
Secretary Cohen has made the point with them that this is not 
just money, this is a strategic issue for us. Now, I don't 
think he is talking just strategic with the committees.
    Mr. Nethercutt. I understand.
    General Tilelli. Sir, from the ROK, Republic of Korea side, 
we are in a unique situation. First, Secretary Cohen made the 
same comments, that burden-sharing is a strategic issue and it 
is an international agreement and promise that the Republic of 
Korea must keep. The Minister of National Defense of the 
Republic of Korea and the President have stated openly and 
publicly that they would keep their promise of purchasing power 
associated with the burdensharing agreement for fiscal year 
1998.
    The unique situation we are in is this is the last year of 
the burdensharing agreement, and we go into new negotiations 
this year which I think will be tougher, but again, I believe 
that the ROK government is keenly aware of how important 
burdensharing is not only to the U.S. forces, but to the U.S. 
people in general, and will deal in good faith as we look at 
fiscal year 1999 and out.
    So it is my current view now, in the absence of any facts 
for 1999 and out, to say that I think we can at least be 
optimistic that we will be at about the same level or a little 
bit better in purchasing power, but not--we will not attain the 
goals that have been set by the Congress and we will not attain 
the goals that have been set by Japan.
    We are, I think, number 2 as far as burdensharing in the 
Republic of Korea, but number 2 doesn't reach number 1 at this 
point.

            KOREAN PENINSULA ENERGY DEVELOPMENT ORGANIZATION

    Mr. Nethercutt. What about the Korean Peninsula Energy 
Development Organization--KEDO? They are going to fund 
construction of 2 light water reactors in the north. Will the 
Asian currency problem impact that at all?
    General Tilelli. Kim da Jung, the President inaugurated 
last Thursday, has stated that KEDO is very important and that 
the Korean will keep their commitment to KEDO.
    Now, the fact is that most of KEDO is paid for in won, so 
the devaluation of the won does not have a great impact on 
their ability to pay. At the same time, there have been some 
initiatives by the Korean government to try to get some 
additional help in paying that, but it is really a--and I won't 
say long-term issue, it is amid-term issue rather than an 
immediate issue, because it is progressive payments rather than 
a $5 billion or $5.7 million payment. It is on a continuum 
rather than this year, next year or the year after.
    So it is my belief that they understand it is in their best 
interests that KEDO go forward and that they will do their best 
to keep it up the way they said they would.
    Admiral Prueher. There are--on KEDO there are a number of 
contributors to it, some of which are symbolic amongst the 
Southeast Asian nations, but one very substantial contributoris 
Singapore, and again we were just there last Sunday, and they intend to 
continue with their contributions, so the crisis isn't expected to 
unfold.
    General Tilelli. If I could just interject, it is also very 
important that we continue to send a heavy oil commitment that 
we have made for the KEDO environment, so there is no, no seam 
that North Korea might exploit.

                     FOOD SHORTAGES IN NORTH KOREA

    Mr. Nethercutt. What about their food shortage problems in 
the north? Recent reports say they were running out, they have 
a couples of weeks left, I guess. How do you assess that 
relative to their military posture as well? What is your sense 
of it?
    General Tilelli. Let me try to answer that, and I say try 
because it is a very opaque society. It is very difficult to 
get hard and fast information on whether we are looking at 
progressive malnutrition, pockets of starvation, or what 
exactly is the circumstances.
    We know that the general population is not getting the 
amount of food that they have had in the past. We knew when we 
assessed last year that sometime in early spring that they 
would run out of the food as a function of their poor harvest 
last year. We at the same time know that their military is 
getting more than their fair share of constrained resources. As 
we look at the winter training cycle that is going on right 
now, it is a relatively robust winter training cycle. At the 
same time, the country or the regime is saying, we will run out 
of food in 2 weeks. They have a very active winter training 
cycle with lots of forces out in the field.
    So we are getting contrary information, to be quite frank. 
I would assess that the truth lies somewhere between 2 weeks 
and the late spring where they are going to start having food 
shortages, but that is truly a wild assessment on my part 
rather than based on much fact.
    We know that the World Food Program has assessed that they 
need far more this year from the humanitarian standpoint than 
they needed last year, almost double. I think $378 million 
worth this year. And many countries have subscribed to help in 
the humanitarian effort.
    Admiral Prueher. An interesting point is to contrast the 
apparent direness of the food shortage with the most robust 
winter training cycle that they have had in 3 years that is 
going on as we speak.
    Mr. Nethercutt. Is there a redirection of that food aid to 
the military?
    General Tilelli. That is difficult to track in a real sense 
because of the opaqueness of the society, Congressman. As you 
look at it, you have different sources of food. One is the 
indigenous growth. The second is a food aid that they get from 
China that doesn't count against the humanitarian food aid, and 
the third tranche, if you will, is the food aid. So to say that 
this great--this pocket of rice or corn is going to the 
military versus another I think is very, very difficult. But we 
do know for a fact that their military is getting a higher 
quantity of food in total number of grams per day than is the 
civilian population at large.
    Mr. Nethercutt. Assuming that it is a 2-week supply, would 
the international, humanitarian organizations be able to meet 
this expected shortfall?
    General Tilelli. I don't know how quickly it could kick in, 
to be frank with you, sir.
    Mr. Nethercutt. I see.
    Admiral Prueher. The International Food Organization has 
never failed to answer the bell if they felt it was really 
getting that short. I think there is very little thought that 
it is actually a 2-week supply.
    Mr. Nethercutt. Thank you very much, both of you.
    Thank you, Mr. Chairman.

                      FREQUENCY SPECTRUM PROBLEMS

    Mr. Lewis. Thank you, Mr. Nethercutt.
    On the point you were just talking about, my staff just 
pulled up an item that is very interesting showing that the GDP 
of North Korea at $21 billion in a country the size of 
Mississippi, and the GDP of South Korea is $647 billion, the 
size of Indiana, and yet North Korea spends 23 percent on 
defense, the other spends 3.3 percent. That is interesting.
    In our briefing book there is a very important, but 
sensitive question I would appreciate your responding to. 
According to the U.S. Army, there is a conflict between the 
frequencies used by Patriot missile systems and those used by 
South Korean government and commercial activities. How does 
this conflict limit our ability to train or operate the Patriot 
system?
    General Tilelli. During peacetime we work our way through 
it. I think the frequency spectrum issue is a greater issue 
than in the Republic of Korea. The issue in the Republic of 
Korea is instead of having the bands of frequency associated 
with just the civilian or military, it is an integrated band of 
civilian and military. So the consequence is that as you 
increase the number of civilian requirements and you start 
peeling away that band width for civilian requirements like 
digital telephones, you start running into conflict.
    We have been able to work through the peacetime requirement 
in the Republic of Korea. It does become an issueas we look at 
band width requirements with a large number of forces flowing and we 
are working with the ministry of communications to resolve some of 
those wartime issues.
    On the other hand, Mr. Chairman, I would say that the 
frequency spectrum problem in my view is a problem not only 
associated with the Republic of Korea, but we have the same 
issues right here in the United States of America as we sell 
off band width that was previously sole-use military that is 
now sold to commercial enterprises. Admiral Prueher was talking 
a little bit about that today.
    Admiral Prueher. The overall frequency spectrum issue is 
one that as we have had bandwidth that has been exclusively 
military, for military use, weapons systems, communications, 
things like that. We are seeing now in various nations--and I 
think it is occurring in our Congress too--there is, in order 
to make money, people are selling off bandwidths, so that now, 
for example, an additional exercise cost, if we go to 
Australia, they want to charge for bandwidth, to use that part 
of the frequency spectrum, or else it is closed because they 
have already sold it. This is the issue that occurs in Korea, 
but it also occurs worldwide; our military bandwidth just 
shrinks and shrinks.
    Mr. Lewis. Well what does it do relative to your ability to 
operate the Patriot system?
    General Tilelli. Well, you are either blocked out or get 
interfered with. We have been able to work through the 
Armistice issue with the ROK government, so during Armistice 
and our Patriots are up every day, it is not a matter that they 
are waiting to be up, they are up every day, because we are not 
in a peacetime environment, we are in an Armistice environment 
where we have to keep our 50 percent Patriots up. They are 
operating and they are okay, but it does become a larger issue 
when you start to flow forces for conflict.
    Mr. Lewis. Admiral, you suggest that being in Australia you 
might have a problem in the region and a problem in relation to 
the same thing. This is a serious business. Even if there is a 
cost factor involved, we ought to know about that, but we sure 
can't ignore them.
    Admiral Prueher. No, that's right, and it is not just our 
theater, this is a worldwide issue.
    Mr. Lewis. That's right. You indicated that it was being 
discussed earlier. Is it being discussed at the highest level 
and are we seeking a solution?
    Admiral Prueher. Absolutely, absolutely. Well, our military 
solution is don't sell off our bandwidths, but it is a 
congressional national group above the military that is 
discussing this. I think there are people in Congress working 
it.
    Mr. Lewis. It is pretty obvious that the people who are 
most interested in the questions that swirl around the selling 
of bandwidths could care less in terms of their priorities 
about some difficulties, and yet this is pretty fundamental. I 
would hope that the SECDEF is talking about this with somebody 
at the highest level.
    Admiral Prueher. Yes, sir, he is, he is.
    General Tilelli. The other thing, Mr. Chairman, I think we 
have to give a little bit of clarity to it. This is not only a 
Patriot issue, this is an issue of anything that requires a 
frequency spectrum to operate to include all of our 
communications. So it is an issue that we have taken up with 
the Joint Staff. Both the Chairman and the Secretary are aware 
of this one.
    Mr. Lewis. Well, I would hope that somebody where those 
high level discussions are taking place will keep our staff 
informed so that we know when we need to get involved to help. 
I would think that maybe the Intelligence community would know 
a little bit about this. This is a pretty significant potential 
problem.
    Admiral Prueher. We will make sure that occurs, sir.

                        CHINESE-INDIAN RELATIONS

    Mr. Lewis. Okay. Thank you.
    Earlier we were talking about China and India's military, 
and you referred just as an aside to the former India-Soviet 
relation.
    What are the relations at a military level between China 
and India at this point? There is a huge border and a lot of 
sensitive territorial considerations, and so forth. I am also 
interested in the relationship between India and Russia as 
well, but I am more interested in the India-China question.
    Admiral Prueher. It is not, it is not a friendly 
relationship, but they have a dialogue that goes on, and 
basically, it is a counter proliferation issue for us, as we 
tend to watch Pakistan and look at the India-Pakistan issue. 
China tends to align somewhat with India to stand off in that 
regard.
    So they don't have a military-to-military relationship; 
they have border discussions and they have political 
discussions back and forth.
    Mr. Lewis. They ought to be communicating in depth with 
each other.
    Admiral Prueher. Yes, sir. One of the things that we have 
been working with China on is to tell the senior leadership 
that they need to talk to the other nations in the region as 
well as us and tell them what they are up to. This is not easy 
for them to do. They are not accustomed to doing that. So 
everybody wonders, there is uncertainty as to what China is an 
when there is uncertainty people think the worst, and the worst 
might be true, but it might not too. So they are, in fact, 
opening up.
    China has had a summit with us, with Japan and with Russia 
in a 3-month period. They are trying to stabilize their 
borders, and they are traveling around a lot, and if you track 
the people that go to Beijing, or are there, there are people 
beating down the door, usually commercial ones, but also 
increasingly defense ones. Japan and China, which is an 
important relationship, Chi Hoatian just went to Japan and now 
Natsukawa in Japan is going to go visit the chairman 
counterpart, who is Fu Quanyou in China, sorry, but you know, 
Hashimoto visited China, that is starting to work, it is 
starting to work. They are having a dialogue.
    Mr. Lewis. It has been a long time since I have spent any 
significant amount of time in India, I have never been to China 
personally, but in the mid-1960s there was almost a love fest 
going on between India and China at the highest level and 
growing warmth of relationship, in spite of obvious problems 
and difficulties. Over time, that has changed very 
significantly. They are serious competitors in any number of 
ways and I can't help but worry about that competitive 
circumstance. It would help helpful if the military was 
communicating in some depth.
    Admiral Prueher. Yes, sir.

                         ASIAN FINANCIAL CRISIS

    Mr. Lewis. You started to talk a little bit about Indonesia 
and Thailand and the trade war implications of their trying to 
trade their way out of economic difficulties. Could you expand 
on your perspective?
    Admiral Prueher. Yes, sir. I will launch into my economist 
mode, which is very treacherous.
    Mr. Lewis. You are dealing with generals and economists, so 
go ahead.
    Admiral Prueher. That's right. As I said before, I think 
the currency or banking crisis occurred and created a real 
vacuum for capital in the East Asian region. It caused the 
devaluation, which was worse in Indonesia, Thailand and South 
Korea. Their tendency with the devaluation, their only way out 
of it is to export cheeper goods, which they are starting to 
do. They come on our market, a good deal for our consumers, but 
it increases our trade deficit, creates a problem in that 
regard.
    Our biggest worry right now in the long haul is Indonesia 
because there is so much that we don't know. The other part is 
Indonesia is a big country, the 4th largest nation in the world 
in terms of population. It is a very complex society. It has 
over 17,000 islands, 2,500 of them are inhabited, but it is a 
hard place to govern. It has a volatile population, ------ and 
they also have had a devaluation of the rupiah of about 300 
percent, versus the dollar and they have had fires, they have 
all sorts of pressures on them for political instability. The 
ABRI, the military there has been a force for stability, it is 
different than ours. They have what is called Dwi Fungsi, I 
think we talked about it last year, but they have a political 
function as well, this is a traditional-by-design feature.
    The burning question right now with the political 
instability with Suharto, and Former Vice President Mondale 
just made a trip there to try to look at the economics, but the 
succession issue for Suharto is prominent in the region. ----
--. Our burning question is can ABRI, will they and can they 
maintain stability like the Thai military was able to do in 
Thailand,can they bring that off in Indonesia. I really, I 
really don't know the answer to that question, but we are in touch with 
General Wiranto, who is the head of their military, a very good man, 
but there is a lot we don't know right now.
    So Indonesia is a big question mark in our area and the 
biggest source of instability. Again, we are working it 
economically, and politically. Stape Ray is as capable an 
ambassador as the United States has anywhere, so we are working 
all of those frames in Indonesia, sir.
    Mr. Lewis. Thank you. Mr. Cunningham.

                       NUCLEAR CARRIERS IN JAPAN

    Mr. Cunningham. Joe, I will still meet you at 15,000 feet.
    I have a little advantage, in I worked for Admiral Brown on 
the 7th fleet staff and was basically responsible for the 
defense in TEAM SPIRIT, Cobra Gold, Tanget Flash and the rest, 
and what I would like to do is ask some questions to see the 
delta between then and now and maybe what some of the 
differences are.
    I know when we had negotiations with Japan, one of my 
interests was that we are going to go to an all nuclear carrier 
force,. We have closed our bases in the Philippines and are 
trying to work out an agreement with them. Now our closest 
place is Guam, which in looking at it in TEAM SPIRIT, it takes 
a long time to get forces there. Are we going to have a problem 
with Japan in the future with nuclear carriers like we have 
them support us there? We had Midway and we had others. But is 
that going to be a problem which could affect, you know, the 
defense of Korea if it comes up?
    Admiral Prueher. We think not. INDEPENDENCE leaves this 
summer from Japan and is replaced again by KITTY   HAWK. ----
--. There will surely be demonstrations and things like that, 
but the government of Japan, at least the LDP, the current 
government, thinks it will be a nonproblem.

              IMPACT OF FINANCIAL CRISIS ON CONTINGENCIES

    Mr. Cunningham. Do you foresee, either one of you, with the 
crisis of the devaluation of the dollar in Asia, any support 
from our allies if we do get into conflict? We have limited 
dollars available, and it is harder to fund our armed forces. 
Have any of the countries suggested that they may have a 
problem supporting us if something happens in Korea or China or 
the other problem areas?
    Admiral Prueher. They have not suggested that, but they are 
very cash poor right now, and--one, we don't really think we 
are at a time in the near future where we are going to get into 
a foray in either Korea or China. We hope not, so the subject 
hasn't come up too much, and we are tapering back on a number 
of exercises and rescoping a bunch of things to accommodate the 
fact that they are very cash poor right now. I had mentioned 
earlier before you get here in Thailand the situation is such 
that they are taking pay cuts and in a variety of things in 
their military in order to do their piece of trying to deal 
with the economic crisis.

                    ADEQUACY OF FORCES AND SUPPLIES

    Mr. Cunningham. I know Mr. Murtha has expressed concern 
with us, and I apologize for being late, I was up on the floor, 
and I don't know if the question of Bosnia and Iraq drawing 
assets away came up, one of the problems we had even when we 
were fully loaded, when you went to other portions of the 
world, for example, the number of AMRAAMS needed to meet your 
commitments weren't there, the number of SPARROWS, the number 
of sorties and the flight time. Is that going to be affected? I 
know the Army's tanks, they are only going to redo about a 
third of them, and your next issue of a new weapons system 
isn't until like 2020, and I can imagine the drawdown that that 
would have, especially in Korea in that terrain where there is 
so much required.
    Do you see a potential hollow force scenario with all of 
our commitments ongoing and our equipment problems that we 
have, and are we having to cross-deck in the Navy? I know that 
the Army is having some problems with retention just like the 
other services. Do you see a real problem coming up with that 
if we don't change direction a little bit?
    Admiral Prueher. I think both of us can comment on that. We 
are all very nervous about it. We have talked about the 
readiness issue. The idea of enough sustainment ammunition is 
one factor, and right now I would say in our theater we are--we 
have sent the INDEPENDENCE battle group to the Gulf, so we are 
thin, and also the sustainment ships are there. If we get a 
sense of higher urgency, we need to start getting some of that 
stuff back and start flowing some assets from the continental 
U.S. That is sort of the near-term piece. I think we can answer 
the near-term bell.
    All of us with gray hair have been through the 1970s and 
the hollow force part. That is not where we are right now. 
However, we also are nervous about the trend lines of our--not 
our forward deployed forces, which are fine, but the forces 
back home, the follow-on forces or the first-to-flow forces are 
having a harder time than they were with parts and supplies, 
and we are tracking that and we are concerned about it. 
However, the data, in order to make informed expenditures to 
correct the problems, the data are hard to come by to say just 
exactly where we----
    Mr. Cunningham. Do you have enough AMRAAMS and AIM-9s and 
these kinds of things?
    Admiral Prueher. We have enough in theater. We do.
    Mr. Cunningham. If something would break out, and I knowone 
of the big problems we had when I worked in coordination, the commander 
was always upset at the Navy because he could only have excess sorties, 
and if you want to commit naval power in an engagement like that, the 
excess sorties are defined as only those sorties not required to defend 
the boat. That would be limited if your ammunition is limited.
    General Tilelli. We have done far better than that in our 
integrated tasking order. We now have sorted out with the fleet 
commander a number of sorties that he would absolutely provide 
day-by-day. The issue become with the void of not having the 
carrier in the Pacific right now, it is just a shortage of 
aircraft. About 35-plus aircraft shortage, a function of the 
carrier being gone, plus our electronic warfare aircraft, our 
EA-6Bs
    Mr. Cunningham. Yes, sir. I also understand the problems of 
going north of Cheju-do even though we have them there. But the 
logistics, once you change the logistics going the other way, I 
can't imagine doing a TEAM SPIRIT. It would be a nightmare just 
trying to get the bottoms in the holes and the different things 
there if we had a conflict elsewhere.
    Admiral Prueher. We have gradually, over the last year or 
so, because of what has been going on in the Gulf and the 
relative tranquility in the Pacific, our command authorities, 
we have shifted some sustainability assets and propositioning 
ships that have remained in the Gulf and we reevaluate every 6 
months whether they should come back or not.

                           RESERVE COMPONENTS

    Mr. Cunningham. General, do we still use--I know when we 
were actively working the exercises, we used a lot of the 
reserves, and I know that it had been difficult to do those 
exercises without the support of those reserves, and in many 
cases they have been drawn down as well. What about the 
effectiveness, both for exercise and/or real components? And 
again, just a reserve component. If we are other places, not 
just Bosnia, not just Iraq, but let's just say Iraq goes away 
and you have forces in Bosnia, you are still nervous because of 
the requirements, I would imagine. But the reserve forces, are 
they adequate to supply you with the additional people that you 
need?
    General Tilelli. Well, certainly the reserve component is 
fully integrated into my war fighting campaign plan. So the 
consequence of that is that we not only train with them, they 
know who they are and when they would come on the flow. During 
Armistice time, we have reserve individuals and units taking 
part in not only exercises, but also in working on the 
peninsula for us of all services. So I think the reserve 
component is fully integrated into the Korean scenario, if you 
will.

                         EMERGENCY SUPPLEMENTAL

    If I can digress one moment, one of the things that no one 
has asked or we haven't talked about, anyway, one of the pieces 
about Bosnia and Southwest Asia that is very important to us, 
because again, we are dealing with a top line, and that is the 
emergency supplemental and the approval of that to pay for the 
fiscal year 1998, because as you are dealing with a top line, 
if you don't get that supplemental, the money is going to come 
out of somewhere and where it is going to come out of are the 
forces and the operations and maintenance dollars that we have 
which are tight right now. So that is another variable of the 
whole issue here that we had discussed, but money is real also 
when it comes in the context of as you get closer to the end of 
the year, when you cancel a training opportunity or cancel an 
event, it is an event missed that denigrates readiness.
    Mr. Cunningham. I think that has been universal among all 
of the services, the supplemental, and I would say that none of 
us want to take it out of defense; I don't think we can take it 
out of defense. But if you look at the President's budget, it 
doesn't give you much wiggle room to find dollars elsewhere. I 
can find dollars elsewhere, I can tell you exactly where I 
would take them from, but we might have a problem with a vote 
on the floor with that.

                            F-18E/F AIRCRAFT

    The last thing I would like to cover, Mr. Chairman, is the 
F-18E/F, with the extended range, I don't even know if you are 
still having intercepts exercises or what, but I know the F-
18E/F, and this is kind of a pitch, General, that coming back 
on a boat, when you only have one pass at the deck and you are 
with pitching decks and minimum visibility and you know that 
you go into water, you are going in dressed in a survival suit 
and you are probably not going to make it back to the boat, but 
it gives you 3,000, 4,000 pounds more fuel, and several looks 
at that deck. It is going to mean survival for them, time over 
target for what your requirements are. The reason I ask you is 
those excess sorties, if you have an airplane that can sit up 
there for a longer time, it is just going to enhance it, and 
many of us are very supportive of that with the Air Force F-22 
with its stealth requirements, and I just think it is a total 
package.
    Thank you, Mr. Chairman.
    Mr. Lewis. Thank you very much.
    Mr. Murtha, for whatever closing comments he may have.
    Mr. Murtha. Chairman Lewis reminded me of something about 
your predecessor, General Tilelli, and I want you to know, 
Admiral Prueher, we are glad, we feel comfortable, now that we 
have General Tilelli over there.
    Admiral Prueher. I had mentioned to General Tilelli my 
first hearing with General Luck he brought a shovel in here and 
I thought what is this? What is going on with this?
    Mr. Young. We have gone through most of the priority 
questions. If you gentlemen would assist us with responses for 
the record, that would be very helpful. In the meantime, we 
appreciate very much you being here. We know you don't just 
have a tough schedule, but serious responsibilities. It is 
great to be with you. With that, we will adjourn the hearing. 
Thank you.
    [Clerk's note.--Questions submitted by Mr. Young and the 
answers thereto follow:]

                      Priorities and Deficiencies

    Question. Do you feel the interests and needs of the Pacific 
Command have been adequately addressed in the fiscal year 1999 budget 
request?
    Answer. The President's Budget adequately meets the needs of 
Pacific Command. It provides sufficient support of training, exercises, 
supplies and other essentials to accomplish our mission. Given the 
level of available resources, and barring additional unforeseen 
contingency operation costs, the fiscal year 1999 budget strikes an 
appropriate balance in spending toward current and future defense 
requirements. It also provides an adequate quality of life for most of 
our uniformed personnel and their families throughout the Pacific. 
Exceptions exist in high cost areas and where facilities have 
deteriorated. Increased support will be needed in the future, 
especially for real property maintenance and improvement.
    Question. What is your assessment of the major shortfalls in: 
personnel, training, equipment and maintenance for those units under 
your day-to-day command as well as those that would be assigned to you 
in a wartime situation?
    Answer. U.S. Pacific Command forward deployed forces are ready, but 
we do have some concern in each of these areas.
    Pacific Command components have some significant personnel 
shortages. Pacific Fleet is short 1900 personnel in key technical 
ratings, and finds it necessary to ``crossdeck'' sailors in some 
specialties to fully man deploying ships. Pacific Air Forces are 
experiencing Air Force-wide pilot manning problems. Other components 
and sub-unified commands also have shortages in a variety of skills. 
Efforts are underway to fill these requirements where possible. For 
example, the Department of the Army is undertaking recruiting and 
assignment initiatives to eliminate most of the theater's shortage in 
infantry.
    Training in U.S. Pacific Command is in generally good shape, 
especially among forward-based and deployed forces. However, without 
supplemental reimbursement for costs incurred in contingency 
operations, training will be substantially curtailed during the fourth 
quarter of this fiscal year due to lack of funds. Further, Pacific 
Fleet has insufficient funds to send desired numbers of sailors to 
professional development training courses that improve their abilities 
to perform at sea.
    Funding shortfalls are also affecting readiness due to parts 
shortages and deferred maintenance, especially among aviation units. 
Pacific Fleet has had to direct redistribution of many parts from Naval 
Air Stations to deployed units. As a result, the readiness of Pacific 
Fleet's non-deployed aircraft has declined significantly over the past 
two years which has severely constrained flight training and lowered 
morale of affected personnel. Similarly, Pacific Air Forces have 
consumed substantial percentages of their contingency stocks of spare 
parts and have had to cannibalize parts from some aircraft. The present 
cannibalization rate for F-16s has approximately doubled from some 
aircraft. The present cannibalization rate for F-16s has approximately 
doubled from a rate of 6.6% in fiscal year 1995.
    Pacific Command components are maintaining high readiness of 
forward-based and deployed forces, but at the expense of other units. 
The readiness of West Coast naval forces is illustrative. They deploy 
at historically normal levels of readiness, but are attaining 
proficiency much later in their pre-deployment training than in past 
years.
    Additional forces that would be assigned to U.S. Pacific Command in 
wartime are experiencing similar problems.

                             Top Priorities

    Question. What are the top ten items on your most recent integrated 
priority list?
    Answer. I intentionally did not rank the 26 items on my most recent 
Integrated Priority List (FY00-05 IPL). These items are all critical 
and the difference in importance between them was not significant 
enough to adopt a rank-ordered list. USCINCPAC's fiscal year 2000-05 
Integrated Priority List is provided below: ------.

                         Changes in Priorities

    Question. How do your top ten priorities differ from last year and 
why?
    Answer. ------.

                      Priorities and Deficiencies

    Question. In your view, are present levels of investment funding 
contained in the department's future year defense plan sufficient to 
address the long-term recapitalization requirements of today's forces?
    Answer. Yes. The President's fiscal year 1999 budget request 
includes $48.7 billion for procurement. Procurement is projected to 
reach $61.3 billion in fiscal year 2001, achieving the $60 billion goal 
previously set by the Clinton Administration. This higher modernization 
spending is essential to the future readiness and battlefield 
superiority of U.S. forces. The fiscal year 1999 budget begins 
implementation of the Quadrennial Defense Review (QDR) plan for 
transforming U.S. defense strategy and military forces. The QDR 
provides a sound direction for long-term modernization. It also strikes 
an appropriate balance between near-term modernization. It also strikes 
an appropriate balance between near-term requirements and the need for 
improved future capabilities. However, if savings projected in the 
President's Budget from the Defense Reform Initiative, including the 
reductions in infrastructure, are not achieved, recapitalization and 
modernization will require additional funding.

                         Asian Economic Crisis

    Question. We are all well aware of the current economic problems 
plaguing the Asian region. Once robust economies remain fragile, the 
debt crisis is not solved, currencies are being devalued, stock markets 
are performing poorly and liquidity problems are crippling regional 
trade. Admiral Prueher, as theater commander of the region that 
includes these troubled economies, what difficulties or threats are 
posed to the Pacific Command as a result of the current situation? In 
your answer please discuss the impact of the crisis on the following: 
pending foreign military sales; the ability of Pacific Rim nations to 
participate in joint training exercises; and the force modernization 
programs of regional allies.
    Answer. The immediate threat posed to Pacific Command is that the 
current financial crisis could progress into a security crisis. We have 
already seen civil disturbances within Indonesia. Relations between 
Indonesia and its neighbors are being effectively managed as the region 
handles the economic refugees. The economic outlook has improved 
slightly. Indonesia remains vulnerable to a resurgence of rioting and 
civil disturbances as shortages of food and fuel grip the country. We 
are watching this situation closely and are conducting appropriate 
planning to protect U.S. interests should a crisis arise.
    Over a long term, reduced ability to provide for self-defense and 
the potential for regional friction increases the importance of 
sustaining U.S. military presence and engagement programs. Our analysis 
of the impact of the Asian financial crisis has focused primarily on 
the hardest hit countries: Thailand, Malaysia, Indonesia, the 
Philippines, and South Korea. The financial crisis has caused each of 
the countries to delay or curtail force modernization programs. To 
date, Thailand is the only one of these countries to request the 
termination of a major foreign military sale program, the purchase of 
F/A-18 aircraft. Participation in combined training continues, but at a 
somewhat reduced scale. No joint training exercises have been canceled 
but we have worked with each nation to tailor bilateral exercises and 
exchanges to meet their needs. USCINCPAC is working closely with each 
country to ensure we remain engaged and emerge from this crisis with an 
even closer relationship.
    Question. Do you perceive any linkage between overall levels of 
military cooperation in the theater and U.S. support for the IMF 
package?
    Answer. I do not perceive a direct linkage. Military cooperation is 
driven primarily by the realities of financial austerity and not by 
negotiations for IMF funding. My recent visits to countries in the 
region indicate defense establishments recognize the short-term need 
for IMF programs and the importance of structural reforms for long-term 
prosperity. Across the board, the militaries recognize the original 
source of their economic problems lies in government and financial 
institutions and solutions will come from those quarters. This 
professional willingness to ``stay in the barracks'' and take the IMF 
medicine represents a positive trend in regional political development, 
and reinforces investor confidence in Asia's long-term growth 
potential. Regional military leaders realize erosion in international 
support to the crisis--such as withdrawal of IMF programs--places 
regional growth and stability at risk.
    Question. What is your perception of ``man in the street'' 
attitudes in the region with regard to U.S. roles and responsibilities 
in the resolution of the crisis?
    Answer. The economic success of the Asia-Pacific region in the 
1980's and 1990's brought increasing prosperity to the populations of 
these countries. Increased prosperity raised expectations, but it did 
not always increase understanding of the complicated nature of 
financial markets, the global trading system, exchange rates, etc. The 
suddenness and severity of the economic downturn in the region caught 
the ``man in the street'' by surprise and found him struggling to 
understand what was happening to his standard of living and future 
prospects. Initially, some blamed Western financial systems and the 
U.S. for their difficulties. For the most part, Asian leaders have 
acted responsibly to address the financial crisis in their respective 
countries. Editorial opinion and public opinion have generally been 
less nationalistic than expected. People throughout Asia look to the 
U.S. in their nationalistic than expected. People throughout Asia look 
to the U.S. in their time of trouble for the leadership and forward 
presence that have helped bring peace and stability to the region for 
the past 50 years.

                          North Korean Threat

    Question. General Tilelli, what is your current estimate of the 
threat posed by North Korea? In your answer please discuss the North 
Korea weapons of mass destruction program, the readiness and morale of 
forces, the status of conventional arms modernization, and support 
provided to international terrorist activities?
    Answer. Considering the massive military forces, enormous 
quantities of artillery, rocket systems, tanks, Surface to Surface 
Missiles (SSMs), chemical weapons, special operations forces, and other 
key components of military might, we assess North Korea has built and 
maintains the capability to inflict enormous destruction on the South 
through large-scale combat operations. However, viewing readiness as 
both a state of preparation and ability to conduct full scale joint 
operations in a coherent, effective, and sustained fashion, we assess 
that North Korean forces are deficient to a degree. This deficiency is 
primarily due to the ------. The primary cause of the reduced training 
tempo has been a shortage of fuel and other materials and conservation 
measures applied throughout the 1990s. ------. Although overwhelming 
economic problems are severely limiting the pace of improvements to 
readiness, we believe the force remains capable of conducting 
unsophisticated corps and below movements, limited operations, and 
integrating low levels of air and naval support with ground activity.
    The most significant force modernization trend has been the gradual 
shift, since the early 1980s, of military combat power toward the 
forward area. Of specific concern is the continuing forward deployment 
of long-range artillery and multiple rocket launcher (MRL) systems to 
underground facilities and hardened sites within 15 kilometers of the 
Demilitarized Zone. Operational exploitation forces and front line 
corps with supporting artillery are positioned so far forward now that 
they could launch an attack with very limited warning. ------. North 
Korea has conducted its own terrorist attacks executed by trained 
agents of the regime. The most recent incident was the 1987 bombing of 
Korean Air Lines Flight 858 in which all 115 on board were killed. The 
North formally renounced international terrorism in the early 1990s. 
Although the North will continue to provide military weaponry and 
associated training to military forces of consumer nations, it does not 
directly support international terrorism. Any terrorist activity in 
which it engages will likely be carried out by its own agents. At this 
time, it would be counter-productive for the North to carry out any 
terrorist activity as it would be detrimental to their efforts to 
garner international support to help solve their current economic and 
food crisis.
    In summary despite continuing economic problems and the resultant 
negative impact on its military readiness, North Korea still retains an 
adequate capability to inflict tremendous damage on the ROK through 
large-scale combat operations. Although capable of conducting terrorist 
attacks, any reporting linking them to international terrorism would be 
contrary to their national goals in gaining international aid.

         1994 Agreed Framework on North Korea's Nuclear Program

    Question. Update the Committee as to the status of efforts to 
implement the terms of the 1994 agreed framework to dismantle North 
Korea's nuclear program.
    Answer. The Democratic People's Republic of Korea's (DPRK) 
graphite-moderate nuclear reactors and related facilities remain 
frozen. The International Atomic Energy Agency (IAEA) has maintained a 
continuous presence at the Yongbyon nuclear facility and has continued 
with inspection activities related to verifying and monitoring the 
freeze in the DPRK according to the terms of the Agreed Framework. The 
U.S. and the DPRK are continuing to cooperate in safely storing the 
DPRK spent nuclear fuel. Canning of the 8,000 spent fuel rods is nearly 
complete. The canned fuel rods have been placed under IAEA seals and 
surveillance. Work continues on cleaning, and storing loose rods and 
rod fragments from the spent fuel basin.
    Groundbreaking for the construction of the Light Water Reactors 
(LWRs) took place on 19 August 1997. The Republic of Korea (ROK) is 
supplying most of the personnel involved in the initial construction at 
the reactor site. The installation in 1997 of mail and phone links 
between the LWR site and the ROK represents the first such direct ties 
between the North and South since the Korean War. Continued 
construction is jeopardized by the failure of the U.S., ROK, and Japan 
to reach funding commitments.
    Heavy fuel oil (HFO) deliveries remain a persistent challenge, and 
it is complicated by the result of lower-than-anticipated contributions 
from the international community and higher-than anticipated oil and 
shipping costs. Korean peninsula Energy Development Organization (KEDO) 
has a $47 million debt. If the debt is not retired soon, it may effect 
future funding and/or HFO deliveries.
    The LWR project has not reached sufficient progress to trigger the 
DPRK's requirement to come into full compliance with its safeguards 
agreement with the IAEA. ``When a significant portion of the LWR 
project is completed, but before delivery of key nuclear components,'' 
the DPRK is to permit the IAEA to verify the accuracy and completeness 
of DPRK's initial report on all nuclear material in the DPRK. 
Differences between the two sides remain.

                            Four Party Talks

    Question. What is your assessment of the North Korean willingness 
to fully engage in the four-way talks to bring about a permanent 
settlement on the peninsula?
    Answer. The Democratic Peoples Republic of Korea (DPRK) does not 
appear willing to engage in the Four Party Talks on terms compatible to 
the U.S. and the Republic of Korea (ROK) at this time. The DPRK's 
insistence on negotiating U.S. troop withdrawals was expected and 
remains an obstacle. The DPRK has also expressed a fundamentally 
different view of any eventual peace treaty, insisting on a U.S.-DPRK 
treaty which excludes the ROK as a party. The DPRK wants some of the 
benefits that the Four Party Talks offer (direct talks with the U.S. 
and food aid), but it has been unwilling to take incremental measures 
to reduce tension between the opposing military forces. Additionally, 
there is no indication that the DPRK is prepared to recognize the ROK's 
right to coexist. Whatever progress is achieved, it will be a long-term 
and complicated process.

                              South Korea

    Question. The South Koreans have recently elected a new government 
headed by former dissident Kim Dae Jung. This represents the first time 
that an opposition party in South Korea has assumed leadership through 
a civilian to civilian transfer of power. General Tilelli, how do you 
characterize the new administrations commitment to the ROK-US alliance?
    Answer. On numerous occasions President Kim has publicly stated his 
strong commitment to the Republic of Korea-U.S. alliance. Throughout 
his career he has consistently supported United States Forces Korea 
(USFK), and at graduation ceremonies at service academies this year he 
affirmed the need for USFK presence even after unification.
    Question. Have you had the opportunity to develop a strong 
relationship with President Kim Dae Jung?
    Answer. I have met with the President several times. I think we 
have a good relationship. I look forward to working with him in the 
future.
    Question. Do you foresee any change in the military to military 
relationship with the South Koreans?
    Answer. Change is a normal consequence of any relationship, but the 
changes I see ahead are positive and relate to force improvements, 
enhanced integrated training, and technological development that will 
further strengthen our military partnership.

                         Chinese Military Power

    Question. Admiral Prueher, can you please discuss the power 
projection capabilities of China's armed forces. In particular, could 
they effectively move against Taiwan or the Spratly Islands if the U.S. 
didn't intervene?
    Answer. China has limited naval power projection capability and is 
incapable of effectively conducting a full-scale amphibious invasion of 
Taiwan or supporting a long-term occupation of the Spratly Islands. Its 
capability is limited by significant deficiencies in technology, 
training, tactics, and personnel throughout all Chinese armed forces, 
accentuated by the lack of military air and sea lift capacity. 
Operations against Taiwan's lightly defended coastal islands are within 
the PLA's capability. These islands along the PRC's coast are 
vulnerable to Chinese artillery, short-range ballistic missiles, and 
air strikes.
    The PRC's predominant power projection capability lies in its 
ballistic missile force. These missiles include the CSS-5 (range: 
1800km/972nm) and CSS-2 (range: 2800km/1512nm) intermediate-range 
missiles, and CSS-6 (range: 600km/324nm) short-range ballistic missile. 
China's short-range ballistic missiles are currently assessed to be 
targeted solely against Taiwan. Beijing is making quantitative and 
qualitative upgrades to its missile force, and is developing new types 
of missiles that will improve its targeting capabilities in the region. 
Additionally, China's ICBM force of CSS-4 missiles (range: 13,000km/
7,019nm) can strike Alaska, Hawaii, and most of the Continental U.S. 
However, its primary nuclear mission is deterrence and retaliation if 
attacked.
    Question. What is the status of China's modernization program? How 
is it being viewed in the region? How does that affect U.S. interests?
    Answer. I would like to answer your questions in reverse order. At 
the present time we do not see China as a threat to U.S. security 
interests nor do we want China to view the United States as a threat. 
China shares our mutual interests and concerns for a stable, peaceful 
world. Their primary interests at this time are internal...how to feed, 
clothe, shelter and provide jobs and energy to 1.3 billion people. 
Nonetheless, China is a legitimate nuclear power and has a limited 
ability to threaten portions of the United States. However, their 
ballistic missiles are primarily a deterrent force as their stated 
nuclear policy is ``no first use.'' In the conventional realm, the PRC 
does not have the capability to project power much beyond its borders.
    Leaders in the region view China through different lens and worry 
about their intentions. However, the Chinese are borrowing a chapter 
from our book on engagement and have embarked upon a program of high 
level diplomatic and military visits, and port calls. The Chinese 
leadership is clearly making greater efforts through confidence-
building measures to allay regional concerns.
    China's modernization is focused on air and maritime power 
projection capabilities and ballistic missile improvements. The Chinese 
Air Force has purchased some high performance Su-27/FLANKER 
interceptors from Russia and is building more advanced versions of its 
indigenous fighters. They are also developing the F-10 fighter (F-16 C/
D equivalent). The Chinese Navy has received three Russian KILO 
submarines and is building limited numbers of newer, more capable 
surface combatants and submarines. China continues to modernize its 
ballistic missile force, focusing on improved accuracy, mobility, and 
reliability. China's military modernization program has yet to 
adequately address shortfalls in command, control, communications, 
intelligence, logistics, maintenance and training.
    Many have expressed concerns about capabilities and intentions, 
especially as China's forces modernize. We believe it will be 15-20 
years before China is capable of projecting power with the ability to 
challenge the United States conventionally and that is only if they 
make all the right choices and investments.
    Question. Has there been any change in the last year in China's 
export of weapons? What are they selling and whom are they selling it 
to?
    Answer. ------.
    --Iran took delivery in 1997 of over $310 million in equipment, 
including FT-7 trainer aircraft, ballistic missile technology, and air 
defense command and control equipment. China pledged to stop selling 
anti-ship cruise missiles and production technology to Iran. However, 
Chinese companies probably will continue to provide production 
technology.
    --Burma took delivery of $210 million of equipment in 1997 
including fighter aircraft, tanks, armored infantry fighting vehicles 
and field artillery. Deliveries continue into 1998.
    --Military deliveries to Pakistan fell from $434 million in 1993 to 
$60 million in 1997 and included LY-60 naval surface-to-air missiles. 
The decline is not a long-term trend as relations remains strong. China 
provides assistance to Pakistan's ballistic missile program and both 
cooperate on main battle tank and trainer aircraft developments. 
Additionally, Islamabad plans on buying a large number of FC-1 fighter 
aircraft from China.
    --China made a major $186 million sale of a battalion of 155mm 
self-propelled artillery to Kuwait in late 1997. Kuwait's purchase was 
a reward for Chinese diplomatic acquiescence in Desert Storm and to 
elicit backing in the UN on Iraq issues. ------.
    Question. Admiral Prueher, in last year's testimony, you referred 
to Hong Kong as ``a harbinger of China's ability to integrate into the 
global community as a responsible player''. Based on what you have seen 
so far, what is your reaction to China's behavior?
    Answer. I am encouraged so far by China's adherence to the ``One 
Country, Two Systems'' policy enacted to handle the Hong Kong 
reversion. While the relationship is still very young, the Beijing and 
Hong Kong Special Autonomous Region (SAR) governments seem to have 
agreed to a legitimate delineation of powers beneficial to Hong Kong's 
special status. As an example, Beijing recently decided to retain the 
head of the New China News Agency (NCNA) as the senior representative 
of the central government in the SAR, vice posting an official envoy. 
This announcement speaks well for Chief Executive Tung Chee-hwa and 
leaves him as the senior government official in the SAR.
    There will surely be growing pains associated with this new 
relationship, to include perhaps over-reactions or ultra-conservative 
policies issued by the HK and SAR government itself. As Hong Kong and 
Beijing become more comfortable working with each other, I expect we 
will see less self-imposed restrictions from the SAR legislature.
    U.S. Pacific Command's relations with Hong Kong have continued 
virtually unabated since the reversion. Seventh Fleet continues to 
conduct periodic port calls to the SAR with no Beijing interference. 
This past December, USPACOM and U.S. Coast Guard forces joined in the 
annual Hong Kong Search and Rescue Exercise. U.S. forces have 
participated in this event for the past 26 years. Being a Hong Kong-
hosted event, the People's Liberation Army was also invited to 
participate but chose to observe only. This is a demonstration of 
Beijing's sincerity in upholding the delineation of responsibilities 
agreed to under the ``One Country, Two Systems'' formula.

                         Chinese Misperceptions

    Question. A recent report from the Defense Department's Office of 
Net Assessment warns that ``China's leadership holds a number of 
dangerous misperceptions that may well cause serious political friction 
or even military conflict with the United States.'' Admiral Prueher, do 
you agree with the report that China's leadership holds dangerous 
misperceptions about the United States?
    Answer. Several ``dangerous misperceptions'' noted by the Office of 
Net Assessment are well-documented by the Intelligence Community. While 
some Chinese military writers portray the United States as militarily 
weak, most military officers of the People's Liberation Army (PLA) hold 
the U.S. defense establishment in high regard.
    Some senior Chinese Community Party and military leaders believe 
the United States wants to prevent the rise of a more powerful China 
and that the world is transitioning to a multipolar one in which the 
U.S. would gradually lose its status as the sole superpower. These 
concerns have not prevented Beijing from fostering closer political and 
defense ties with Washington in pursuit of its strategic agenda. The 
Chinese hope that dialogue will reduce the potential for conflict 
between the United States and China as Beijing's power and influence 
grow.
    Another ``misperception'' noted in the report, overestimating U.S. 
military weakness, is somewhat overstated. The capabilities 
demonstrated by the U.S.-led coalition during Desert Storm demonstrated 
to Beijing that its military would be deficient against an adversary 
with precision-guided weapons, cruise missiles, and stealth aircraft. 
The Persian Gulf War and the Taiwan Straight crisis in 1996 underscored 
the need to improve the PLA's ability to win ``local wars under high-
technology conditions'' and provided impetus for ongoing military 
modernization program.
    Question. A Washington Post article on this story notes that the 
Chinese apparently consider you, Admiral Prueher, to be the individual 
they prefer to deal with and have allowed you ``unparalleled access to 
Chinese defense establishments.'' Is this accurate? If so, who do you 
believe the Chinese are more comfortable dealing with you and how has 
this improved relationship assisted you in your mission?
    Answer. I do not agree with the characterization of my access as 
``unparalleled.'' China has extended increased openness and access to 
all senior U.S. military leaders as the political atmosphere between 
our nations has improved. The Chinese place great importance in 
personal relationships. Personal ties among senior military leaders 
throughout the theater help to prevent misunderstandings and can be 
especially useful in crises. By contrast, during the Taiwan Straits 
crisis in March 1996, we have no basis upon which to open discussions 
about intentions with Chinese military leaders.
    Access to senior Chinese leaders enables USCINCPAC to build trust, 
confidence, and transparency in this relationship. Continued dialogue 
is important in promoting and advancing U.S. security interests 
including: regional security cooperation; arms control and 
nonproliferation of weapons of mass destruction; environmental 
security; and a peaceful resolution of the Taiwan issue. Our principal 
objective is to maintain regional peace and stability. China will play 
a major role in this mutual interest.
    Question. Do you believe the access you are getting to China's 
military is commensurate with the access that we are giving to their 
military leadership?
    Answer. A major objective of our military-to-military program with 
China is to increase their transparency. We see transparency as a key 
component of regional stability by increasing trust through awareness. 
Transparency is necessary to quell tensions and distrust throughout he 
region of China's modernization efforts.
    With transparency the goal, there are two ways to structure 
military-to-military programs with the People's Liberation Army (PLA)--
using strict reciprocity or rough parity. Strict reciprocity measures 
the degree of transparency in terms of what is received versus shown. 
Strict reciprocity guarantees a poor outcome. Strict reciprocity is 
seen in Beijing as demanding, to which the Chinese leadership cannot 
comply and expect to survive the reaction within their party. In many 
cases, the Chinese are unable to show similar facilities or 
capabilities. Demanding reciprocity builds walls in front of our 
ultimate transparency goal.
    Rough parity, however, focuses on the effort. Progress is defined 
as seeing something new. The trend is the key and U.S. efforts should 
be to increase the pace of transparency. My experience indicates the 
``rough parity'' approach is more successful in achieving transparency 
than ``strict reciprocity.''
    Transparency--not reciprocity--is the objective we seek. 
Transparency can only be achieved at China's pace. There are many 
examples that show proponents of rough parity have seen increased 
transparency, as if the PLA seems to base a visitor's access on their 
stance. Supporting the rough parity approach in our military-to-
military contacts will foster greater transparency in the future.
    Question. What steps do you recommend to reduce the risk of 
friction or conflict between the U.S. and China that could occur due to 
misperceptions?
    Answer. Continuous engagement is key to reducing the likelihood of 
conflict. Two nations whose militaries are comfortable with each other 
have an inherent mechanism to reduce the potential for misperceptions. 
Communication is essential, mutual understanding is the outcome, and 
trust is the ultimate goal. I have stressed with every Chinese leader I 
have met, military and civilian, the need to establish and maintain our 
lines of communication. I have also requested these lines be used not 
only for discussing the easy topics on which we already agree, but to 
bring up the harder issues where our points of view diverge.
    Tlhe U.S.-PRC military relationship is approaching the point at 
which disagreements can be aired without concern for the effect on the 
overall relationship. This must continue. My December 1997 trip into 
China pushed this message with encouraging success. Through a multi-
faceted program of seminars, confidence-building measures and senior-
level discussions, I proposed establishing a framework by which mutual 
understanding was effected at all levels. Through our efforts and those 
of OSD, the 1998 contact program reaches more of the PLA and deeper 
into their ranks than any year previous.
    The Military Maritime Consultative Agreement (MMCA) provides the 
formal framework missing in the U.S.-PRC relationship to reduce the 
chance of miscalculation when our naval and/or air operations occur in 
close proximity. This agreement was signed by Secretary Cohen and 
Minister Chi in January and provides for Annual Meetings, Working 
Groups and Special Meetings to discuss anything that increases safety 
and decreases the risk of an incident between our two forces. Pacific 
Command is the designated Executive Agent for implementation of this 
agreement. Our first annual meeting is scheduled for July in Beijing.

                    India's Elections/Military Power

    Question. Admiral Prueher, India has just completed Parliamentary 
elections that have been marred by violence and are expected to produce 
a divided government. Do you have any concerns about this election or 
how it might affect India's defense policy or internal stability?
    Answer. India elections typically result in sporadic violence, 
since appeals to caste, religion, and ethnicity by politicians often 
inflame tensions. This year's polling generally was viewed as free and 
fair, with less violence than previous elections.
    The Bharatiya Janata Party (BJP) leads an unwieldy, 13-party 
coalition government that will be consumed with maintaining its fragile 
majority, a condition which mitigates against it embarking on drastic 
policy shifts. BJP campaign rhetoric called for openly declaring 
nuclear weapons, strengthening the military, and accelerating ballistic 
missile development and deployment. This should not be dismissed 
outright as merely electioneering propaganda, but ideological 
differences within the BJP, the need to get agreement from coalition 
partners, and domestic program priorities make it unlikely we will see 
any significant changes in these areas soon.
    BJP domestic policies are unlikely to threaten India's internal 
stability. In a bid to calm non-Hindu minorities, Prime Minister 
Vajpayee has stressed his government will not pursue programs inimical 
to India's many diverse communities.
    The BJP government wants to establish solid and enduring ties to 
the U.S. We look forward to working with the government to promote 
continued progress in our bilateral defense relations.
    Question. What are the implications of the religious, cultural, and 
other divisions within India for its long-term stability?
    Answer. India contends with many internal challenges that result 
from enduring poverty, the inequities of caste, underdevelopment, poor 
access to education, and endemic corruption. Despite such enormous 
handicaps, the country manifests a remarkable resilience, best 
demonstrated by its unwavering commitment to democracy. More devolution 
of power from New Delhi to the states is the current trend. This is a 
healthy development and does not suggest India's long-term stability is 
threatened. In fact, just the opposite may result as regional and local 
authorities gain power to influence decisions. Additionally, support 
for continued economic liberalization exists across all major political 
parties in India, and these reforms will help alleviate poverty and 
improve living standards for all.
    India's tolerance of diversity is one of its greatest historical 
characteristics. Appeals to religious, cultural, and ethnic sentiments 
by politicians, tribal leaders, and caste chieftains can provoke sudden 
communal violence, but not lasting anarchy. Flare-ups, while remarkably 
violent, usually are localized and short-lived. India's daily level of 
violence is simply a result of tension that exists when diverse 
communities live in close quarters under conditions of poverty and 
scarcity. It does not suggest in any way that the country is 
fragmenting.

                               Indonesia

    Question. Are you concerned about the response of The People's 
Republic of China--PRC to the prospect of Indonesians rioting against 
or otherwise maltreating the ethnic Chinese minority in Indonesia?
    Answer. The PRC regards the treatment of Indonesia's ethnic Chinese 
citizens as an internal matter for the Indonesian authorities. 
Beijing's only comment on the recent unrest has been to express the 
view that the rioting against the ethnic Chinese is a temporary 
phenomenon. The PRC prefers to be a positive influence. For example, 
its recent announcement to provide $3 million in aid to Indonesia was 
made without mention of anti-Chinese unrest. The PRC will not comment 
further unless there is a significant escalation in the violence, and 
Beijing perceives the Indonesian authorities are not responding 
adequately to stem the violence. In this event, PRC actions would be 
limited to public statements against the violence and/or demarches to 
the Indonesian Government.
    In contrast, Beijing has publicly expressed concern for the safety 
of its 1,000-2,000 PRC citizens in Indonesia and has stated that the 
PRC Embassy in Jakarta is prepared to provide assistance to PRC 
citizens during the current instability. The need for assistance will 
not be great since many PRC citizens have departed Indonesia already. 
Should the violence escalate, the number of PRC citizens remaining in 
Indonesia will be quite small.
    Question. What if any, are the security implications of not 
supporting the International Monetary Fund--IMF package proposed for 
Indonesia?
    Answer. As a non-economist, I am not qualified to judge the merits 
of the IMF package in its entirety. However, even with IMF support, the 
situation is serious but will become even more dire without support. 
Indonesia's economic security is significant to U.S. strategic 
interests and to regional stability. Instability in Indonesia can 
spread to the larger region.
    We are witnessing a growing potential for security problems 
resulting from the harshest economic environment Indonesia has faced in 
thirty years. These problems include immigration, potential for 
expanded piracy, civil unrest and food security.
    Immigration of Indonesians to Malaysia and deportations from 
Malaysia and Singapore are continuing. Illegal immigrations are 
complicating diplomatic and security relations between Indonesia, 
Malaysia and Singapore, and could affect relations with Australia. 
Immigration of refugees add to the traditional problem of high seas 
piracy, which together increase the cost of commerce and stall economic 
recovery. Although civil unrest in Indonesia has been largely confined 
to university campuses, it has strong potential to grow. Reports 
indicate that labor and Islamic organizations are evaluating ways to 
join the students' moreover, unrest has an explosive ethnic factor to 
it. Indonesia's ethnic Chinese have historically been a target during 
periods of economic duress.
    On top of these issues, Indonesia faces a potential major food 
shortage. The devaluation of the rupiah increased four-fold the cost of 
imported foodstuffs, and the country's worst drought in a century has 
stunted annual food production. Recurring food shortages present the 
possibility of a major international humanitarian and/or disaster 
relief mission sometime in the future. International promises of food 
relief have been linked to continued IMF program implementation.
    We can not overstate Indonesia's strategic importance to U.S. 
interests in the Asia-Pacific, nor the combined impact the above 
security problems could have on the region's stability. With the 
world's fourth largest population and a location astride Asia's 
dominant shipping lanes linking Asia and the Arabian Gulf, events in 
Indonesia affect the entire East Asian region. Clearly, Indonesia is an 
example of a strategic and pivotal country where political stability, 
economic prosperity, and regional security intertwine. Prolonged 
economic hardship will have wide ranging security implications.
    Question. What have been the effects and implications of U.S. 
restrictions on arms transfer to Indonesia? Is the bilateral U.S.-
Indonesian military relationship suffering as a result?
    Answer. Foreign Military Sales (FMS) and the International Military 
Education and Training program (IMET) are major tools the U.S. has in 
shaping military-to-military relations with any country's armed forces. 
These avenues represent our best opportunity to shape and influence 
behavior, doctrine, and interoperability--Indonesia is no exception. 
U.S. restrictions on arms transfer and IMET limit our ability to fully 
engage and influence the Indonesian Armed Forces (ABRI). It is in U.S. 
interests to have a comprehensive security relationship with Indonesia 
without these restrictions.
    Restrictions force Indonesia to look elsewhere to modernize its 
armed forces and to train its leaders. The F-16 sale is just one 
example. Even though Congress authorized Expanded IMET (E-IMET) in 
1996, Indonesia refrained from taking advantage of the excellent 
opportunity to train in the U.S. On a positive note, the new ABRI 
Commander, General Wiranto, is seriously considering using E-IMET this 
year because of the value he places on training with the U.S. military.
    A stable and friendly Indonesia is strategically important to the 
United States. As the dominant country in Southeast Asia, it has 
enormous influence within the Association of Southeast Asian Nations 
(ASEAN) and the ASEAN Regional Forum. Within Indonesia, the ABRI is the 
most important national institution. Restricting our military-to-
military relationship limits our opportunity to advance our interests 
and to promote democratic values among the ABRI.

                    U.S.-Philippines Military Accord

    Question. The Committee understands that the U.S. and the 
Philippines have recently concluded an agreement that would allow for 
the resumption of joint military exercises. When is the agreement 
scheduled to go into effect?
    Answer. The Visiting Forces Agreement will go into effect upon 
ratification by the Philippine Senate. We expect the Philippine Senate 
will consider the agreement during their next legislative session in 
July 1998. We are optimistic that they will ratify it. No further 
action is required on behalf of the U.S. Government, although some 
entry procedures for DoD personnel remain to be clarified with the 
Government of the Philippines. Until the agreement goes into effect 
only visits/exchange involving twenty or less U.S. personnel will 
occur.
    Question. What are the legal protections for U.S. troops in the new 
agreement?
    Answer. The Visiting Forces Agreement (VFA) covers DoD military and 
civilian personnel visiting the Philippines on official business. The 
agreement provides substantial legal protections for covered U.S. 
personnel. The agreement will ease the entry and exit procedures as 
well as tax liability for our personnel on official business. 
Furthermore, in the important area of criminal jurisdiction, the 
Government of the Philippines agrees to automatically waive their 
primary right to criminal jurisdictional upon U.S. request in cases of 
particular importance to the Philippine government. The U.S. will 
exercise criminal jurisdiction over offenses committed between U.S. 
personnel. Equally important, the agreement allows the U.S. military to 
determine if an offense was committed during the performance of 
official duties, and then exercise jurisdiction over such offenses. 
Finally, custody of U.S. personnel resides with the U.S. military upon 
our request.

                Philippiines Status of Forces Agreement

    Question. What type of joint exercises and activities do you 
foresee as a result of this agreement?
    Answer. Once the Philippine Senate ratifies the Visiting Forces 
Agreement (VFA) we plan to resume medium-scale exercises in support of 
the U.S.-Philippine Mutual Defense Treaty as well as U.S. Naval port 
visits.
    The U.S.-Philippine exercise program is designed to reinforce the 
treaty by mutual defense cooperation. It consists of bilateral training 
and modest field exercises in staff planning, small unit tactics, use 
of weapons and special operations. Since 1996 these activities have 
been limited to 20 U.S. personnel per event, due to the absence of a 
status of forces agreement (SOFA). Following ratification of the VFA we 
plan to conduct a schedule of events similar to that conducted prior to 
the lapse in SOFA, by expanding existing training events (conducted 3-6 
times per year and involving less than 100 U.S. personnel) and resuming 
annual BALIKATAN field exercises (involving approximately 400 U.S. 
personnel). Additionally, we plan to resume port visits to the 
Philippines of up to 30 ships per year.

                      U.S.-Japan Security Alliance

    Question. Can you please update the Committee on the most recent 
changes to the `Guidelines for U.S.-Japan Defense Cooperation'? In 
particular, how does it expand Japan's role in an Asian conflict? How 
does the new arrangement effect your operations? What has been the 
reaction in the region to this new agreement?
    Answer. The September 1997 issuance of the revised ``Guidelines for 
U.S.-Japan Defense Cooperation'' was designed to re-orient the U.S.-
Japan Security relationship from a Cold War focus to one that allows 
both countries to meet the regional and international challenges of the 
21st Century. Both countries are in the process of implementing the 
Guidelines. For Japan, this involves preparing legislation to change 
their laws to allow greater participation in peacekeeping, humanitarian 
assistance/disaster relief, and maritime intercept operations. Japan 
has also emphasized improving provisions of the existing Acquisition 
and Cross-Servicing Agreement (ACSA) in order to meet the challenges of 
both peacetime and contingency operations, particularly in terms of 
rear area support to U.S. forces. Finally, the U.S. and Japan have 
established a Bilateral Planning Committee, an effort that will allow 
for bilateral contingency planning.
    Except for provisions regarding the defense of Japan, the 
Guidelines are not intended to commit the Japan Self Defense Force 
(JSDF) to actual combat in an Asian conflict. What they will do is 
allow for critical Japanese support, primarily in rear area support and 
in activities adjacent to a combat area. Efforts such as maritime 
interdiction, search and rescue, patrolling, and minesweeping will 
complement U.S. effort by allowing our forces to focus more on direct 
combat operations. These new arrangements, once fully implemented, have 
the potential to significantly reduce the operational and logistics 
challenges we currently face in the region.
    Understandably, there has been some regional concern over 
perceptions of a rearmed Japan. We have reassured governments in the 
region that the Guidelines are not aimed at any specific country and 
are not a guise for Japanese rearmament.

                        U.S. Marines in Okinawa

    Question. The Special Action Committee on Okinawa (SACO) was 
established in 1995 to reduce the burden of the U.S. military presence 
on the people of Okinawa. As part of this process, the United States is 
to return Marine Corps Air Station (MCAS) Futenma to Japan after Japan 
provides a suitable replacement facility that meets U.S. operational 
requirements. The replacement is to be a sea-based facility with an 
availability date of about 7 to 10 years at a cost of $4 billion. 
Admiral, what is the status to the SACO process and what is the 
likelihood of the U.S. maintaining its military presence at Okinawa? 
Why is a U.S. military presence at Okinawa important? If the U.S. is 
forced to leave Okinawa, what are the basing alternatives?
    Answer. I am satisfied with the overall progress that has been 
accomplished in implementing SACO. In three of the four categories: 
SOFA, Training and Operational Procedures, and Noise Reduction 
Initiatives, there has been either completion or significant progress. 
The fourth category of land return has proved to be the most difficult 
with progress in only one of eleven issues. This is primarily due to 
the Government of Japan'-GOJ's continuing difficulty in resolving 
Futenma's relocation.
    There are no plans to change our current military posture on 
Okinawa. Along with other forces in the region, the physical presence 
of our forces on Okinawa underscores our commitment to the defense of 
Japan. Additionally, Okinawa's location and facilities provide our 
forward forces a unique power projection capability vital to our 
Pacific Military Strategy.
    Okinawa's superb strategic location, exceptional facilities, and 
the Government of Japan's generous funding support cannot be replicated 
elsewhere. Should the strategic situation in the Pacific change, we 
will evaluate the strategic environment and make the appropriate 
decision at that time, together with our Japanese allies.
    Question. What is the status of the sea-based facility? According 
to the GAO, maintenance funding responsibility between the U.S. and 
Japan for the sea-based facility remains uncertain. Current 
arrangements call for Japan to provide bases, while the United States 
pays for the maintenance of these facilities. GOA and DoD have 
estimated that the annual maintenance costs for the sea-based facility 
could be $200 million. In contrast, the average annual maintenance cost 
of the MCAS at Futenma is $2.8 million. Have the Japanese offered to 
pay the maintenance costs for the sea-based facility?
    Answer. U.S.-Japanese negotiations to develop a replacement for 
Futenma Air Station are on hold while the Government of Japan-GOJ 
continues its effort to obtain the support of the Okinawa prefectural 
government for the proposed sea-based facility--SBF. To date, the GOJ 
has been unable to convince Okinawa's Governor Ota to reconsider his 
opposition to the SBF. We believe there will be little change on this 
issue through the summer as Okinawa enters a busy local election period 
that culminates with a gubernational election in November.
    The estimated maintenance costs associated with the SBF are of 
great concern to us. I must point out, though, the facility has not 
been designed yet and therefore an accurate estimate of maintenance 
costs is speculative at best. In my view, imposing these costs on us 
would not meet Japan's commitment to fund replacement of Futenma's 
capabilities. DoD has raised this issue with the GOJ, but preliminary 
discussions have been inconclusive. However, the GOJ indicated a 
willingness to negotiate these costs once they have resolved the larger 
issue of the SBF in Okinawa.
    Question. If Japan declines to assume the operations and 
maintenance costs of the sea-based facility, what are our options?
    Answer. First of all I want to emphasize my confidence in our 
ability to resolve this issue with the Government of Japan. Our current 
position is that the Japanese must assume these costs, as we simply 
cannot afford the estimated maintenance costs of this type of facility. 
If this issue remains unresolved we may have to exercise our option of 
informing the Government of Japan that the proposed sea-based facility 
is not acceptable to the U.S., and that we will maintain the status quo 
by remaining at Futenma.
    Question. Shouldn't an agreement be reached on this issue before 
construction of the facility begins?
    Answer. Yes. There should be an agreement on responsibility for 
maintenance costs in place prior to the beginning of any construction 
for this facility.

             Foreign Currency Fluctuation and Burdensharing

    Question. The Department of Defense recently announced that it 
would base Korean burdensharing calculations on outdated foreign 
currency exchange rates used during initial formulation of the DOD 
budget request; before the recent fall in the value of Pacific Rim 
currencies. This change will result in the U.S. foregoing a windfall in 
burdensharing of roughly $260 million. Gentlemen, under what authority 
has DOD revised its burdensharing calculations with Korea?
    Answer. The legal authority to negotiate, conclude, and revise 
defense cost-sharing agreements derives from the President's 
constitutional authority to conduct foreign relations, and as Commander 
in Chief, under Article II of the Constitution, as exercised by the 
Secretary of State and Secretary of Defense respectively, and from the 
U.S.--Korea Mutual Defense Treaty. In addition, the Congress added in 
1993 section 2350j to title 10 of the U.S. Code to authorize the 
Secretary of Defense, after consultation with the Secretary of State, 
to accept cash contributions from any country or regional organization. 
This provision relating to ``burdensharing'' authorizes such 
contributions to be available to pay costs related to compensation for 
Department of Defense (DOD) local national employees, military 
construction projects, and DOD supplies and services.
    When United States Forces, Korea (USFK) budgeted for fiscal year 
1998, it used a fixed ratio that was determined by the Under Secretary 
of Defense (Comptroller) of 907.6 won to the dollar to calculate the 
dollar value of its won-based expenses. If the Republic of Korea (ROK) 
were required to make most of its 1998 cost-sharing contribution in 
dollars, as required by the 1995-1998 U.S.-ROK Special Measures 
Agreement (SMA), the Defense Department would realize a significant 
windfall in paying these won-based expenses because of the dramatic 
depreciation of the Korean won. To prevent this windfall, the State and 
Defense Departments and the ROK are discussing an adjustment to the SMA 
that would require the ROK to satisfy the same amount of DOD won-based 
expenses, but in won instead of dollars. Under the amended payment 
arrangement, the government of the Republic of Korea will provide a 
value, in purchasing power terms, equal to that originally envisioned 
in the SMA's provisions for the cost-sharing contribution of the 
Government of the Republic of Korea. In this way, the Department of 
Defense will neither suffer a financial penalty nor realize a profit 
from the Korean economic crisis.
    Question. Are there other instances of such a change in policy?
    Answer. Revising the 1996 multi-year Special Measures Agreement 
(SMA) between the Republic of Korea and the United States was not a 
policy-driven process. Last year's Asian financial market crisis took 
its toll on the Korean economy. This crisis, which halved the value of 
the Korean won relative to the dollar, had major cost-sharing 
implications. The Secretary of Defense was determined to find a way to 
preserve the value of our agreement while taking into account the 
impact of the financial crisis on the value of the won. This cost-
sharing issue has not affected our strong security relationship with 
the Republic of Korea, which remains central to the stability of the 
Korean Peninsula and Northeast Asia. The Department is aware of no 
other instances of amending cost-sharing arrangements.
    Question. Have any U.S. allies offered to make similar currency 
related concession during past downturns of the dollar?
    Answer. The Department is aware of no other instances whereby U.S. 
allies supporting forward-deployed forces (in the Gulf Cooperation 
Council, NATO, and East Asia Pacific regions) made adjustments to cost-
sharing arrangement.
    In the East Asia Pacific area of responsibility, Japan's cost-
sharing contributions, as outlined in the current Special Measures 
Agreement between the United States and Japan, are made in Japanese 
yen, not U.S. dollars.
    Question. Does the decline in Asian currencies provide the U.S. an 
opportunity to repair and upgrade our facilities in Asia at a lower 
cost?
    Answer. The current won devaluation provides limited savings to the 
U.S. taxpayer for the repair and upgrade of facilities in Korea. 
Inflation, higher construction bids, and the services' corresponding 
funding cuts offset these as shown below:
    --A 10% local inflation rate.
    --A 40% increase in local fuel costs.
    --A 50% increase in the cost of construction materials.
    --A volatile fluctuation of the Won has raised the risk of 
contractors, resulting in higher bids.
    --A reduced base in contractors bidding. (This reduction caused by 
the high number of construction contractors who have gone into 
receivership).
    Cost for renovating a 3-story concrete block building to the DOD 
1+1 standard in September 96 was $1.38 million and the Government 
estimate for a similar project in FY98 is $1.8 million. On the other 
hand, cost of a 2-story metal skin barracks renovation averaged 
$504,000 in Fiscal Year 97, but is expected to drop to $450,000 in 
fiscal Year 98 despite local inflation.
    United States Forces Korea (USFK) does not realize any significant 
economic gain as a result of the current Asian economic situation. In 
general, USFK maintains the same level of purchasing power for all Won 
based contracts, since all disbursements are obligated at the Office of 
the Secretary of Defense established budget (exchange) rate. Therefore, 
any savings are returned to the Department of Defense Foreign Currency 
Fluctuation Account and never realized by USFK.
    Question. What are your priorities for repairs and upgrades and how 
has the expected cost of those projects changed over the last year?
    Answer. Our priorities for repairs and upgrades have not changed. 
They are barracks, war fighting operational facilities, and 
infrastructure upgrades. Repair and upgrade costs have decreased, 
though insignificantly, in some areas of work, while increased in 
others. The won devaluation has been offset by increased construction 
and fuel costs, and higher construction bids due to risks in the 
current contracting environment that creates an uncertain future. 
Furthermore, service component funding cuts based on won devaluation 
eliminates any real gain in the number of repair and upgrade projects.

                       Year 2000 Computer Problem

    Question. One of the problems that we face as we enter the next 
century is older computers that are only programmed to remember the 
last two digits in a year. Thus they remember `1997' as simply `97'. 
The year 2000, however will be saved as `00', the same as the year 
1900. This can lead to calculation errors and systems failures. How 
serious is the problem for your Command? What would be the impact if 
your Mission Critical Systems were not corrected by the year 2000?
    Answer. This issue is receiving urgent attention throughout U.S. 
Pacific Command. All components and functional areas are affected. Our 
emphasis is not only on information management but also to ensure that 
our logistical, medical, base infrastructure and weapons systems are 
ready for the transition.
    Pacific Command Headquarters has one unique mission critical 
command and control system that is affected. Fixes to this system will 
be completed by December 98. We also have three other unique systems, 
but these are non-mission critical C4 systems. They will be fixed by 
March 99.
    The services are responsible for fixing and testing the majority of 
the theater's affected systems. I established a command-wide working 
group to serve as a focal point to coordinate component, service and 
Pacific Command efforts.
    The impact of not correcting Year 2000 problems is significant, but 
cannot be fully determined at this time. The potential ranges from loss 
of training value due to confusion in an exercise to temporary 
interruptions of command and control that could result in life-
threatening mishaps. We will continue to work aggressively with the 
Joint Staff, our components, the services, the Defense Information 
Systems Agency and system providers to implement fixes, and to prepare 
contingency plans where appropriate.
    Question. Do you know of any plans to conduct JCS Exercises next 
year with `the clocks turned forward; to identify any uncorrected year 
2000 computer problems? Do you believe this would be a valuable test to 
see if your critical computer systems will be ready for the year 2000?
    Answer. The Joint Staff and the Secretary of Defense's staff are 
assessing the feasibility of an integrated exercise to test systems for 
these problems sometime in 1999. A broad test would be of value only as 
corrective actions near completion. Resources to address the Year 2000 
issue are scarce. Individual systems are tested after software fixes 
are made. A premature major exercise could divert some of the resources 
and effort away from working-in-progress needed to correct Year 2000 
problems.
    Question. Have you begun developing contingency plans in case your 
Mission Critical Systems are ot year 2000 compliant?
    Anwer. Yes. In addition to making appropriate fixes to our systems, 
we are developing contingency plans for our headquarters' systems. 
Pacific Command's components are also preparing contingency plans based 
on guidance from their respective services. We are working closely with 
the Joint Staff and Defense agencies as they coordinate and integrate 
this effort.

        Combating Terrorism Readiness Initiatives Fund (CBTRIF)

    Question. With Congressional support the Chairman of the Joint 
Chiefs of Staff established the Combating Terrorism Readiness 
Initiative Fund. How much did PACOM receive from this fund in fiscal 
year 1997 and what were the funds used for?
    Answer. In fiscal year 1997, Pacific Command received $4.82 million 
(including $2.49 million for U.S. Forces Korea) from this fund. We used 
the funds to reduce the risks of terrorist attack, based on priorities 
established following theater-wide vulnerability assessments. Most of 
the money was spent to enhance physical security systems in forward 
locations.
    The largest fiscal year 1997 expenditures were:

 
 
 
Pacific Fleet....................      625,000  Portable metal detectors
                                                 and X-ray scanners for
                                                 aircraft carriers
Marine Forces pacific............      309,000  Metal detectors, sensor
                                                 lights, mobile
                                                 communications systems,
                                                 military working dogs
                                                 for III Marine
                                                 Expeditionary Force
                                                 (MEF)
  ...............................      120,000  Information security
                                                 system for I MEF
U.S. Forces Korea................      320,000  Perimeter wall of
                                                 Yongsan Army Garrison
  ...............................       55,000  Security monitoring
                                                 system for Yongsan Army
                                                 Garrison
Headquarters, Pacific Command....      100,000  Computer and video
                                                 training equipment for
                                                 headquarters and
                                                 component command
 

    Question. How much has PACOM requested from the fund for fiscal 
year 1998?
    Answer. To date, Pacific Command has requested $6.44 million in 
CBTRIF funds for fiscal year 1998 (including $3.56 million for U.S. 
Forces Korea). Of the $6.44 million, the Joint Staff has approved $1.77 
million, disapproved $75 thousand, and is still considering the 
remainder. We are also reviewing additional requests from Pacific 
Command component commanders totaling $3.66 million. We are working 
closely with the Joint Staff to expedite their consideration.
    Approved fiscal year 1998 requests include:

 
 
 
Pacific Fleet....................     $498,500  Construct a barrier wall
                                                 and window treatment
                                                 for Bachelor Enlisted
                                                 Quarters, Atsugi, Japan
  ...............................      178,000  Vehicle barricade
                                                 systems for housing
                                                 areas in Combined Fleet
                                                 Activity, Sasebo, Japan
  ...............................      306,000  Vehicle barricade
                                                 systems for gates to
                                                 Combined Fleet
                                                 Activity, Sasebo, Japan
  ...............................       80,000  Access and egress
                                                 control system for HQ,
                                                 Commander Naval Forces
                                                 Korea
Marine Forces Pacific............      480,000  Expanded explosive
                                                 detector for III Marine
                                                 Expeditionary Forces
 

                            Force Protection

    Question. What are the top ten force protection priorities for 
PACOM in fiscal year 1999? Have these items been fully funded in the 
services' budget requests? If these items are not fully funded, what 
will be the specific impact on your ability to protect the forces under 
your command?
    Answer. Pacific Command establishes theater force protection 
priorities in concert with its components following vulnerability 
assessments. Services fund requirements based on availability of funds. 
Unfunded requirements represent some risk and are candidates for future 
funding. With some particular exceptions, the probability of attack 
upon U.S. personnel or facilities is low throughout the Pacific 
Theater. The top ten priorities on Pacific Command's fiscal year 1999 
Force Protection Integrated Priority List are:

------------------------------------------------------------------------
                                     Funding status     Funded required
------------------------------------------------------------------------
1. Manpower for Installation       Fully.............             $95.30
 Security (Pacific Fleet).
2. Antiterrorism Personnel.......  Partial...........      $2.26 million
                                                           $4.04 million
Impact: Commands' development and
 implementation of comprehensive
 antiterrorism programs will not
 progress as rapidly as desired.
 Installation security forces are
 not to be fully manned
3. Installation Vulnerability      Partial...........      $297 thousand
 Assessments.                                              $391 thousand
Impact: Pacific Command and U.S.
 Army Pacific assessment programs
 are only partially funded.
 Pacific Command's Antiterrorism
 Division will be unable to
 conduct independent assessments
 of Defense Attache and Security
 Assistance Offices throughout
 the theater as required by DOD
 guidance. U.S. Army Pacific will
 be unable to assess three of
 nine vulnerability assessments
 at installations in Japan
4. Antiterrorism/Force Protection  Partial...........      $274 thousand
 Training.                                                 $525 thousand
Impact: Antiterrorism programs in
 Pacific Command will be
 developed and implemented at a
 slower pace than planned.
 Components may not have
 sufficient instructors to
 conduct required training. Unit
 Force Protection Officers may be
 inadequately trained to execute
 their responsibilities and
 duties
5. Pipeline/Fuel Tank Farm         Unfunded..........      $800 thousand
 Protection (U.S. Army Pacific).
Impact: This pipeline provides
 overland bulk distribution of
 petroleum, oils and lubricants
 for U.S. forces on Okinawa.
 Without the physical security
 upgrades to augment Japanese
 contract security guards, the
 pipeline is at some risk
6. Barriers (Pacific Air Forces).  Unfunded..........      $170 thousand
 
Impact: Degrades ability of
 security forces to control
 vehicle access to critical areas
 and facilities
7. Physical Security improvements  Unfunded..........      $780 thousand
 (Marine Forces Pacific).
Impact: Camp Butler Okinawa will
 be unable to procure equipment
 and physical security upgrades.
 Equipment includes expanded
 explosive detection systems,
 metal detectors, portable
 concrete barriers and riot gear
8. Electronic Security System      Fully.............      $1.11 million
 (Pacific Fleet).
9. Restricted Area Lighting for    Unfunded..........      $840 thousand
 Bases (Pacific Air Forces).
Impact: Existing restricted area
 and airfield lighting fails to
 meet security requirements at
 Elemndorf, Kunsan and Misawa
 Airbases
10. Physical security upgrades to  Unfunded..........      $450 thousand
 three Ammunition Storage
 facilities in Japan (U.S. Army
 Pacific).
Impact: Warfighting supplies are
 at greater risk to terrorist
 acts
------------------------------------------------------------------------

                            Joint Exercises

    Question. In the Quadrennial Defense Review the Department of 
Defense announced plans to reduce the number of man-days required for 
joint exercises by 15% in order to reduce high PERSTEMPO rates. Has 
PACOM experienced a reduction in its JCS exercises? If so, has this had 
a noticeable effect on your PERSTEMPO rates?
    Answer. USPACOM has reduced its joint exercise man-days to comply 
with the Quadrennial Defense Review (QDR) mandate. We have reduced man-
days primarily by reducing exercise length and number of participants, 
rather than reducing the number of exercises.
    Joint exercises account for about five percent of USPACOM 
PERSTEMPO, so the reduction is expected to reduce overall theater 
PERSTEMPO by only one to two percent.
    Question. How do you determine that the right mix of exercises is 
being conducted?
    Answer. The U.S. Pacific Command Joint Exercise Program is designed 
to train U.S., allied and friendly forces in essential skills necessary 
to conduct military options ranging from Humanitarian Assistance/
Disaster Relief (HA/DR) to Major Theater War (MTW). Our exercises are 
designed to train USPACOM and JTF staffs in conducting joint and 
multinational operations, enhance joint interoperability among service 
components, and integrate the supporting CINCs and interagency 
organizations. Regional engagement and presence, essential elements of 
our national and theater engagement strategies, are byproducts of these 
exercises.
    The Joint Mission Essential Task List provides the full array of 
military task where we must be proficient. Each exercise is designed to 
accomplish a certain number of training objectives, which are derived 
from these tasks. By comparing exercise training objectives with 
required tasks, Pacific Command can assess whether its exercise program 
is meeting theater training objectives.
    The Chairman's Joint Training System also governs the structure of 
the exercise program. This requirements-based training ensures mission 
requirements are balanced with scarce resources. It forces us to 
analyze the tasks, identify the appropriate training audience, and set 
the training frequencies.
    Question. What portion of the exercises that you conduct is 
primarily to train U.S. forces for their wartime mission and what 
portion is for regional engagement?
    Answer. Pacific Command's Joint Exercise Program consists of 18 to 
20 exercises annually. All but two of these exercises are conducted 
primarily as training for wartime missions. Where possible, we also 
incorporate regional engagement objectives into exercises. For example, 
the purpose of annual COBRA GOLD exercises in Thailand is to prepare 
Pacific Command's joint forces to fight in a Southeast Asian 
environment in support of treaty obligations. This exercise also 
promotes interoperability with the military forces of a key treaty 
ally. Additionally, when opportunities permit during the exercise, some 
U.S. forces conduct small civic and humanitarian projects resulting in 
additional training that also directly supports a regional engagement 
objectives.

                                POW/MIAS

    Question. The Committee understands that there are currently 2,097 
Americans unaccounted for in southeast Asia and that Joint Task Force-
Full Accounting has been working hard to address this issue. Could you 
please summarize the results of their work over the last years?
    Answer. In Fiscal Year 1997 Joint Task Force-Full Accounting (JTF-
FA) conducted 11 joint field activities (JFAs) in Southeast Asia (5 in 
both Vietnam and Laos and 1 in Cambodia).
    JTF-FA investigated 235 cases (163 Vietnam, 55 in Lass, and 17 in 
Cambodia) and excavated 49 sites (34 in Vietnam, 12 in Laos, and 3 in 
Cambodia).
    These efforts resulted in the repatriation of 31 remains believed 
to be those of unaccounted-for Americans. During 1997, the remains of 
35 Americans were officially identified. JTF-FA also responded to 484 
next-of-kin requests and forwarded 905 reports to next-of-kin via the 
Services' casualty affairs offices.
    Thus far in 1998, JTF-FA has investigated 66 cases (49 in Vietnam, 
13 in Laos, and 4 in Cambodia) and excavated 19 sites (7 in Vietnam, 8 
in Laos, and 4 in Cambodia).
    Additionally, 21 remains have been repatriated and 9 remains 
identified as previously unaccounted-for Americans.
    Currently, 2,090 Americans are still unaccounted for.
    Question. Has the Vietnam government been cooperative during these 
investigations?
    Answer. The Vietnamese government has continued to cooperate well 
with the Joint Task Force-Full Accounting (JTF-FA) during these 
investigations. The Vietnamese have improved their advance work in 
preparation for joint field activities (JFAs), provided better access 
to military sensitive areas, and approved the extension of JFAs to 
allow teams to complete excavations. The field teams are also receiving 
better cooperation at the provincial level. Vietnamese citizens 
continue to come forward individually, often providing information 
critical to the success of individual investigations and recoveries. 
The Vietnamese government continues to support trilateral 
investigations as evidence by the 21 Vietnamese witnesses that have 
supported investigations in Laos.
    Based on a U.S. request, the Vietnamese are focusing their efforts 
on conducting more unilateral investigations. During 1997, JTF-FA 
adjusted the schedule of JFAs to permit Vietnam and Laos to concentrate 
on unilateral investigations. During two specified unilateral periods, 
the Vietnamese conducted 56 investigations relating to losses involving 
unaccounted-for Americans. During the 50th JFA (21 April--23 May 1998), 
the Vietnamese will field one additional team to conduct unilateral 
investigations. This is the first time the Vietnamese will have 
conducted unilateral investigations concurrently with joint teams 
during a major field activity. The unilateral investigations have 
resulted in the development of new leads for joint investigations.
    Question. Do you have any news from the current investigation going 
on now in Vietnam?
    Answer. Joint Task Force-Full Accounting's (JTF-FA) 49th joint 
field activity (JFA) concluded a series of investigations and remains 
recovery operations in Vietnam on 21 March 1998. JTF-FA team, 
consisting of 112 U.S. personnel, investigated 49 cases and excavated 7 
sites.
    On 28-29 March 1998, a joint forensic team examined eleven remains 
recovered or received during the 49th JFA, retaining five sets for 
further examination at the U.S. Army Central Identification Laboratory 
in Hawaii.
    The operation was very successful with investigation and recovery 
teams operating throughout the entire country off Vietnam. The 
Vietnamese advance work was excellent: key witnesses were made 
available, and land compensation issues were resolved prior to the 
arrival of the field teams.

    [Clerk's note.--End of questions submitted by Mr. Young.]
                                          Thursday, March 19, 1998.

 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                              ----------                              


               HIGH MOBILITY MULTIPURPOSE WHEELED VEHICLE

                                WITNESS

HON. TIM ROEMER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF INDIANA

                              Introduction

    Mr. Young. The Committee will come to order.
    This morning, the Committee will hear testimony from 
Members of Congress and from witnesses outside of the Congress. 
The Committee has basically completed the hearing process for 
the fiscal year 1999 period. We have heard from all the service 
secretaries and the chiefs of each service. All of the regional 
commanders in chiefs have appeared.
    Yesterday, we had a hearing on the quality of life from the 
perspectives of the Sergeant Majors of the Army and Marine 
Corps, the Chief Petty Officer of the Navy and Chief Master 
Sergeant of the Air Force.
    We also conducted a hearing on readiness yesterday with the 
vice chiefs of each service and the assistant commandant of the 
Marine Corps, and now we are going to hear from Members of 
Congress who do not serve on this subcommittee and those of you 
who represent organizations and institutions who support our 
men and women in uniform.
    Many of you here today have testified before, but for those 
who are here for the first time, let me explain how we proceed. 
Each of your prepared statements will appear totally in the 
published hearing volume, and we ask that you summarize your 
testimony in 5 minutes or less, inasmuch as we have over 40 
witnesses scheduled to appear today.
    That may seem like a short period of time, but it is 
consistent with the 5-minute rule the Committee works under. 
Throughout the year, through all of our hearings, each Member 
of this Committee has to express his thoughts and ask questions 
in 5-minute intervals or less. Many members will be coming in 
and out today because they are working in other subcommittees 
on the supplemental appropriations bill. So while they are not 
here at the moment, you will see most of them sometime during 
the hearing.
    Before we get started, I just wanted to relate some 
personal experiences we had during the last year visiting our 
troops in the field. Some of us have been to Bosnia as many as 
three times in the last 6 months, traveled throughout Southwest 
Asia, visiting our troops in Saudi Arabia, Bahrain, Kuwait, 
checking on force protection measures that have been put into 
place since the Khobar Towers bombing. Mr. Murtha has led a 
group to Korea.
    So between the two of us and all of our members, we have 
covered most of the major hot spots in the world, and we have 
gotten to see firsthand what we have been told about in this 
room.
    What we find are well-trained, highly motivated, dedicated 
men and women who are proud of their Country and who welcome 
the opportunity to make a contribution to our national 
security.
    I bring this up only because many of you in this room have 
devoted a great deal of time and effort to making sure our 
troops have what they need in the way of equipment, training, 
to make sure their quality of life is what it should be and to 
ensure that their families are taken care of during the time 
they are deployed so far away from home.
    Things aren't perfect yet, but we are not done yet. So 
together all of us and each of the Members of this Committee 
will continue to work to do the best we can for these 
outstanding men and women who go in harm's way for our Country.
    Now I would like to recognize a very distinguished Member 
of Congress, Mr. Tim Roemer, from Indiana, who stays in close 
touch with the Chairman and the Members of this Committee on 
issues of vital concern to our national security effort.
    Congressman Roemer, we are happy to recognize you, sir.

                    Statement of Congressman Roemer

    Mr. Roemer. Thank you, Mr. Chairman; and I want to ask 
unanimous consent for my entire statement to be entered into 
the record.
    Mr. Young. Without objection, that will be done.
    Mr. Roemer. I just want to speak from the heart to you for 
a couple of minutes and then answer any questions you might 
have.
    First of all, on behalf of the 558,000 people that I 
represent and roughly 1,260 workers that work in the three 
plants making the two-and-a-half-ton truck, the HMMWV and the 
Sea Snake Supersonic Missile, we want to express our thanks to 
you and the Committee for your help in bolstering our defense 
efforts in this country and improving the quality of life for 
our military personnel and in maintaining good, high-paying 
jobs for people in this country.
    If not for your help and your dedication, Mr. Chairman, and 
the people on this Committee, we might be in some trouble back 
home in Indiana.
    I am here to talk to you about three different programs and 
thank you for your help and continue to seek out your support, 
three important programs for the national security of this 
country.
    First of all, you mentioned that many members here on this 
Committee have traveled to Bosnia. You probably saw the HMMWV, 
which is made in Mishawaka, Indiana, over there.
    Last year, three soldiers in Bosnia walked away unharmed, 
unhurt after their HMMWV ran over a 14-pound antitank land 
mine. Now, that was an uparmored HMMWV. It is working 
beautifully. There are no complaints from the Army. The Army 
continually comes before Congress and does not ask for enough 
money to fund this program, even though it is working 
beautifully.
    We have to come before your Committee and ask for a plus-
up, which we are asking again today, based upon the performance 
of the HMMWV, the safety of the HMMWV and the need and the 
requirement of the HMMWV throughout the world for the safety of 
our troops, as evidenced from that latest example in Bosnia.
    Secondly, when we talk about not only performance of the 
HMMWV but efficiency, we make and remanufacture a two-and-a-
half-ton truck back in South Bend, Indiana. The two-and-a-half-
ton truck actually remanufactures 20-year-old trucks.
    There is nothing sexy about this program, Mr. Chairman. I 
wish I was in here to talk about an F-22 or something that I 
had a big diagram of. These trucks keep our men and women safe. 
They deliver personnel and supplies to our troops in the field. 
We saved operations and support--O&S $500 million 
remanufacturing these trucks; and I know you are looking for 
savings in this tight budget as well, too.
    This is a very, very effective and efficient program, 
making something that our troops need, and I would ask your 
support on that program.
    Thirdly, I ask your support for a program that has worked 
well in the past. Allied Signal is the only U.S. supplier of 
supersonic sea skimming targets. Interestingly enough, we are 
competing with the Navy, with Russian-made missiles.
    Now, I have had brief conversations and long conversations 
with you about this before, but for us to have competition with 
Russian-made missiles when the Russians could be making the MA-
31, selling it to Iraq or Iran or in the Middle East or to 
North Korea, we subsidize then the Russians making those 
missiles that go to other unfriendly countries that may be 
aimed at our personnel. That is one concern I have.
    Secondly, if Allied Signal doesn't stay in this business 
and we lose our industrial base and we don't have a U.S. 
supplier in this field, that is a big concern.
    Thirdly, Mr. Chairman, I know you are very, very sensitive 
to this, we have 150 U.S. taxpayers that have made this missile 
that are very, very dedicated to the safety and the security of 
this Country. I don't think 150 people should be thrown out of 
jobs when I know the Russian Duma, if they had their votes, 
they would vote, I am sure, within Russia, to buy the MA-31 and 
not to buy our Sea Snake or Vandal Missile. I think we should 
do the same thing here; employ our people to get a good system.
    If we want to reverse gear and get access to the MA-31 for 
reasons of knowing what might be coming at us, I certainly 
understand putting some money forward on that concern; but not 
to put out a U.S. supplier and not to hurt our industrial base.
    Finally, Mr. Chairman, I say to you, in all due respect, I 
want to help you make sure that not only these kinds of 
programs are supported within the budget but the quality of 
life for our personnel is supported within this budget; that 
our personnel have good quality child care; that our personnel 
live in good quality housing; and that our personnel in the 
military forces not be forced to be on food stamps. And if that 
takes bipartisan efforts to get you a little bit more money, I 
am supportive of that and would look forward to working with 
you on that.
    Mr. Young. Congressman, thank you very much.
    As you know, the Committee has--thanks to much of your 
persuasive effort and the work of Mr. Hobson, who we appointed 
as a special subcommittee of the subcommittee to deal with the 
truck issues, we have raised the budget request substantially 
in the last couple of years for the remanufacturing and the 
purchase of the new vehicles. We recognize, and most of our 
witnesses that have been here this year have told us, without 
question, they need trucks. They need their trucks repaired; 
and, without the trucks, they can't function.
    So we appreciate your support and thank you very much for 
being here.
    Mr. Roemer. Thank you, Mr. Chairman.
    Mr. Young. As you and I have discussed many times, we don't 
have the extra money in our budget this year that we have had 
in previous years. We are working on that. We are attempting to 
get leadership and the membership to give us a little more 
realistic budget number, so we will count on your help for 
that.
    Mr. Roemer. Well, Mr. Chairman, I just want to say my 
personal thanks to Mr. Hobson, who has been such a champion on 
the HMMWV and the two-and-a-half-ton truck as well, too, as 
other Members of this Committee have been.
    I heard Mr. Cunningham on the radio this morning on the C-
SPAN radio program talking about his strong fighting for 
adequate defense dollars; and if we can get that money for 
roads and bridges in this country for better security 
internally, certainly we can fight for our troops overseas.
    I thank you again for all your help on these programs.
    Mr. Young. Thank you for being here this morning, Tim.
    Mr. Roemer. Thank you.
    [The statement of Congressman Roemer follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

    DYSTROPHIC EPIDERMOLYSIS BULLOSA RESEARCH ASSOCIATION OF AMERICA


                               WITNESSES

MIRIAM FEDER, EXECUTIVE DIRECTOR, DYSTROPHIC EPIDER-MOLYSIS BULLOSA 
    RESEARCH ASSOCIATION OF AMERICA
MARY BETH SHERIDAN, PARENT

                              Introduction

    Mr. Young. Next I would like to recognize Miriam Feder, 
Executive Director of the Dystrophic Epidermolysis Bullosa 
Research Association; and Mary Beth Sheridan and her husband, 
who are parents of a child with this disease; and would like to 
welcome you now. Your entire statements will be placed in the 
record, and we would ask that you would summarize them this 
morning.
    Thank you for being here.
    Incidentally, Mrs. Sheridan and her husband and daughter 
are from the Tampa Bay area, which I have the privilege of 
representing; and we are happy to have you all here.

                       Statement of Mrs. Sheridan

    Mrs. Sheridan. Thank you for having us here.
    Mr. Chairman and the Members of the Subcommittee, thank you 
for inviting me to appear before your committee. My name is 
Mary Beth Sheridan. I live in Tampa, Florida; and my little 
angel is Samantha.
    My pregnancy was the most wonderful experience in my life. 
I loved being pregnant. Going through the delivery was 
frightening, as I am sure it is for all new moms. When the 
doctor pulled my baby from my womb, she had no skin on her left 
hand. As the nurses and doctors touched and looked, huge 
blisters formed all over my child before their eyes. I 
recognized fear in their eyes and I was awake, as I was awake 
for the delivery.
    I will never forget the terror I felt when I realized that 
these professionals did not know what was happening to my baby.
    After a painful and emotional 6 weeks of waiting, worrying 
and suffering, my husband and I discovered that our beautiful 
baby was born with a dreadful genetic disorder called 
Epidermolysis Bullosa, otherwise known as EB.
    At a national EB registry in Chapel Hill, Samantha was 
diagnosed with Recessive Dystrophc EB. We were somewhat 
relieved, because the first diagnosis was the lethal form of 
Junctional EB.
    The pain and suffering that our baby endured we could not 
believe possible. We could not conceive just how hard everyday 
life would be for our beautiful daughter, Samantha. We learned 
that the genetic disorder that Samantha was born with was 
excruciatingly painful. The slightest touch to her skin causes 
painful blisters to form which have to be burst and drained to 
prevent infection. Often the skin heals slowly, and she has 
open wounds to deal with. She lost her fingernails and toenails 
at about 3 months of age.
    Her body is wounded and blistered from head to toe. She 
couldn't even wear the softest of clothes until she was 5 
months old. Some days she can't eat because her mouth and her 
throat are so full of blisters her throat is so narrow that she 
can't even swallow milk. Managing her diet is very challenging, 
because proper nutrition is important for her immune system in 
order to fight off constant infection, which is so common for 
these children.
    As an infant, we can only lift our baby by the buttocks 
with a sheepskin cushioning her underneath. Can you imagine 
what it is like not to be able to cuddle or to hold to your 
breast your own child or grandchild? We will always have to be 
careful because our touch can cause severe blistering or even 
denude our child's skin.
    Now Samantha is three, and there are days she can't walk 
because her little feet are so badly blistered that we have to 
carefully carry her. She isn't able to run and play with the 
other children, and it is hard for a 3-year-old to understand 
her limitations. She wants so desperately to be like the other 
children.
    The painful burning and itching from healing and the 
blistering is unbearable for our little girl. Her skin itches 
so badly that she just tears it off sometimes. There seems to 
be no relief from medication or creams. We have to bathe and 
bandage her every day, which sometimes takes 2 to 4 hours. This 
is also a painful procedure as the water burns her open wounds 
and the bandages stick to her skin.
    There are so many aspects of this horrific disease that it 
can only be described as just sad; and, as a mother, I just 
want somebody to find a cure. There are many terrible nights 
that Samantha doesn't sleep but cries in pain. And, for me, my 
greatest challenge is just getting through the day.
    Samantha is beautiful, bright and adds joy to our life with 
her sense of humor, her courage and her spirit. And I know God 
has given her these gifts, and we appreciate them.
    If only one child on this earth was affected by this 
disease, EB, in my opinion, it would be too many. The reality 
is that over 100,000 Americans suffer from EB, and there are 
too many children who endure the suffering as my child does.
    I ask you for your support of EB research, to help all the 
children suffering today so they can reach their potential as 
healthy, productive Americans.
    Thank you so much for having us today.
    Mr. Young. Mrs. Sheridan, thank you very much for being 
here.
    As you know, this disease causes wounds similar to the 
wounds caused by certain types of chemicals, and so we have 
funded a modest program through the Department of Defense to 
study the causes and to see if we can help find a cure for this 
disease or prevention for the disease.
    We appreciate your being here. We understand the suffering 
that all of you go through, and especially Samantha; and we 
just pray for the day that we can find a way to stop this 
terrible disease.
    Mrs. Sheridan. Thank you.
    Mr. Young. Thank you very much for being here today.
    Mrs. Sheridan. Thank you.
    [The statement of Mrs. Sheridan follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Young. Now, Ms. Feder, were you going to make a 
statement?

                         Statement of Ms. Feder

    Ms. Feder. Yes, I will summarize.
    I am the Executive Director of DebRA, and I want the 
Committee and Mr. Chairman to know the appreciation for this 
opportunity to appear before the House Appropriations 
Subcommittee on National Security and ask for your continued 
support for the DOD research initiative in EB.
    As you know, over 100,000 Americans and their families are 
very grateful that in fiscal year 1998 the DOD Appropriations 
Act included $1 million for the study of wound treatment using 
EB as a model.
    As you know, EB is a group of skin diseases characterized 
by fragility and easy blistering of the skin and other 
epithelia including the eyes and the airways. The blisters 
often lead to infection and cause premature death. In its most 
severe form, the blisters lead to chronic, unremitting wound 
healing which results in extensive scarring of the affected 
area.
    Extraordinary answers have recently been made in our 
knowledge of the structure and function of the skin, and EB has 
been the centerpiece of skin disease research and appears to be 
the most appropriate for gene therapy. We are looking forward 
to trial within the next 5 years.
    How could EB research benefit the Army? Well, the wounds 
caused by EB closely resemble the wounds caused by chemical 
weapons, chemical vesicants. EB represents the natural model to 
study the cause and consequences of blistering caused by 
vesicants, trauma and other conditions relevant to military 
medicine.
    Dr. Robert Burgeson of Harvard was awarded a $625,000 grant 
by the Army, and he is presently investigating enhanced models 
for skin regeneration and wound healing. Dr. Burgeson's work 
shows great promise for EB and for the treatment of blistering 
caused by exposure to chemical weapons.
    In normal skin, the basement membranes are composed of 
independent but associated networks of type IV collagen and 
laminins. Laminin 5 is essential to basement membrane stability 
and the key bridging molecule that bonds the necessary 
components of the skin. In EB, type IV collagens and laminins, 
including subunits of laminin 5, are mutated; and the basement 
membrane changes in the skin in sulfur mustard-induced 
vesication mimics those of the Junctional form of EB.
    Sulfur mustard gas causes denuding of the skin and slows 
wound healing. In addition to being toxic to the most common 
cell in the skin, sulfur mustard causes separation of the 
epithelium from the underlying basement membrane zone, from the 
underneath part of the skin to the most important part of the 
functioning part of our skin. The phenotype observed is 
strikingly similar to that observed in patients with specific 
forms of EB.
    The ability of sulfur mustard to crosslink these laminins 
has already been documented. Many scientific aspects still have 
to be investigated, but the studies clearly indicate that the 
basement membrane molecules can be alkylated by sulfur mustard. 
Alkylation means that the proteins in these cells are actually 
changed to misfire, not to function with the sulfur mustard.
    Dr. Burgeson and his colleagues are conducting studies on 
mice with laminin 5 genetically enhanced grafts on wound 
surfaces. The animal studies strongly suggest a potential of 
benefit of laminin 5 when applied to extensively burned 
patients. In collaboration with Japanese scientists, an amount 
of laminin 5 was made available for human tests. In the cases 
tried so far, the pretreated, the genetically treated grafts, 
showed favorable results.
    We believe that the DOD's research initiative in EB will 
foster a better understanding of wound healing, the impact of 
vesicants on the skin, eyes and airways and on the behavior of 
healthy skin. EB serves as a natural model for skin 
regeneration.
    An additional $1 million in DOD-sponsored EB research could 
be used to provide answers to the following problems: improving 
our understanding of the molecular genetics of blistering; 
increasing our knowledge of the role of collagen in blistering; 
developing more successful treatments, such as gene therapy; 
and perfecting the novel technologies for gene delivery, and 
this is what we really have to be working on, which will affect 
all gene delivery systems.
    Once again, thank you for this opportunity to speak today; 
and we hope that you share in our optimism about this important 
initiative and urge your continuing funding in fiscal year 
1999. Thank you.
    Mr. Young. I want to thank both of you for being here 
today. The Committee will do the very best it can with the 
limited resources; and I would say, again, that our budget 
numbers do not give us much room for adding any money over the 
President's budget this year. But we will do the very best we 
can. We understand the problems and thank you both for being 
here.
    Mrs. Sheridan. Thank you.
    Ms. Feder. Thank you.
    [The statement of Ms. Feder follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

                   ROCHESTER INSTITUTE OF TECHNOLOGY


                               WITNESSES

HON. LOUISE SLAUGHTER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW YORK
NATHAN ROBFOGEL, VICE PRESIDENT FOR UNIVERSITY RELATIONS, ROCHESTER 
    INSTITUTE OF TECHNOLOGY
NABIL NASR, PROFESSOR OF ENGINEERING, ROCHESTER INSTITUTE OF 
    TECHNOLOGY; DIRECTOR, NATIONAL CENTER FOR REMANUFACTURING AND 
    RESOURCE RECOVERY

                              Introduction

    Mr. Young. Next I would like to introduce a very 
distinguished member of the Rules Committee, Congresswoman 
Louise Slaughter of New York. She is here to introduce our next 
witness.
    Louise, we are very, very happy to have you here this 
morning. Usually, I am sitting at the table talking to you at 
the Rules Committee. Now we are happy to have you here at our 
Committee.

                  Statement of Congresswoman Slaughter

    Mrs. Slaughter. Well, I certainly appreciate your letting 
me come this morning; and Mr. Skeen and Mr. Hobson, Mr. 
Cunningham, it is a pleasure to be here with you this morning.
    You may or may not remember, but last year we came here 
with a proposal to try to do something about remanufacturing; 
and you were very gracious and did give us $2 million for that 
project. We promised you that, if you did, we would be good 
stewards of it; and we are here to tell you this morning that 
we have been. So I am very pleased, but I thank you most 
profoundly for taking that chance on us last year and including 
us in the budget.
    I would like to introduce this morning Mr. Nathan Robfogel 
and Dr. Nabil Nasr, who is the head of the National Center for 
Remanufacturing and Resource Recovery.
    Mr. Robfogel is the Vice President for University Relations 
at the Rochester Institute of Technology; and Mr. Robfogel will 
describe for you in a moment the commitment that RIT is making 
in this particular field and the outlines of the cooperative 
research program with the Office of Naval Research, which is 
going really well.
    Dr. Nasr and his fellow research scientists at RIT have 
been in close contact with officials of the Office of Naval 
Research since the enactment of last year's appropriations 
bill. They are making great progress in developing research 
that will benefit the Department of Defense.
    Dr. Nasr is the leading scientist in the field of 
remanufacturing in the Nation and can answer any detailed 
questions the subcommittee might have about the research 
program.
    I was particularly encouraged to learn that the Office of 
Naval Research has indicated that it is planning to introduce 
RIT to the manufacturing technology officials in each of the 
military services. There appears to be strong recognition 
within the Department of Defense that learning how to better 
apply the process of remanufacturing to defense systems is 
critical under our present budgetary conditions; and we are 
very much aware of that, Mr. Chairman.
    We often hear the Members of the Congress and the Pentagon 
talking about the affordability of new systems. RIT is prepared 
to help the military services to better maintain and advance 
the systems that they already have and can't afford to replace 
with an expensive new system.
    RIT wants to continue its cooperative research program 
through the Office of Naval Research in fiscal year 1999 in the 
amount of $2 million, and I am hopeful that the subcommittee 
will look favorably on this request and include this amount in 
the fiscal year 1999 National Security Appropriations bill.
    Thank you most kindly, Mr. Chairman; and may I introduce 
Mr. Robfogel?
    Mr. Young. Thank you very much.
    [The statement of Congresswoman Slaughter follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    1Mr. Young. We want to welcome all of you here and state 
that the statements, your entire statements, will be placed in 
the record; and we would ask that you condense and summarize 
them to about 5 minutes or less if you can. We have a very long 
list of witnesses today.

                       Statement of Mr. Robfogel

    Mr. Robfogel. Thank you very much, Mr. Chairman.
    I am Nathan Robfogel, Vice President for University 
Relations at RIT. I am here today with Dr. Nasr, who is a 
Professor of Engineering at the University and who is the 
Director of our National Center for Remanufacturing and 
Resource Recovery.
    Mr. Chairman, before I begin, I would first like to thank 
Congresswoman Slaughter for her introduction and her strong 
support of RIT; in particular, our manufacturing technology and 
our remanufacturing research program. She has been a great 
champion for all of our efforts and the efforts to help U.S. 
manufacturers.
    I would also like to join Congresswoman Slaughter in 
thanking you and the subcommittee for your inclusion of $2 
million in last year's National Security Appropriations bill 
for our cooperative remanufacturing research program with the 
Office of Naval Research.
    Mr. Chairman, understanding the extreme time constraints 
that you are under, I would like to just summarize our 
testimony and refer you and the subcommittee to our formal 
written testimony for further details.
    First, as Congresswoman Slaughter has said, RIT is fully 
committed as a University in helping our Nation's manufacturing 
industry compete in a global marketplace. We have built a 
157,000 square foot state-of-the-art manufacturing research and 
education facility, and that is the only one of its kind in our 
Nation. Our engineering, imaging and other colleges work 
collaboratively with industry to solve manufacturing problems 
with this facility.
    Several years ago, RIT researchers, led by my colleague, 
Dr. Nasr, began looking into methods and practices of 
remanufacturing--the process of taking a used product, 
disassembling it, refurbishing its parts and remanufacturing it 
into like-new condition.
    Recently, RIT has become the national leader in 
remanufacturing research and education. We have established, 
under Dr. Nasr's leadership, the National Center for 
Remanufacturing and Resource Recovery and are currently working 
with the Argonne National Laboratory and the Department of 
Energy, the Office of Naval Research, Environmental Protection 
Agency, and a number of major U.S. manufacturing companies such 
as Kodak, Xerox and Detroit Diesel.
    Our work with Detroit Diesel, which remanufactures engines 
for the Marine Corps Light Armored Vehicle, make it clear to 
this old Marine and to the rest of us that the military and its 
defense contractors would benefit greatly from a comprehensive 
applied research program in manufacturing.
    Mr. Chairman, the Department of Defense is, in fact, the 
world's largest remanufacturer. Some examples of the weapons 
systems currently remanufactured--and I will just list a few: 
the B-52 Bomber, the Bradley Fighting Vehicle, the Marine Corps 
Light Armored Vehicle, the AV-8B Attack Aircraft, the SH-60F 
ASW and the Phalanx Close-in Weapons System.
    Why is the remanufacturing of these systems so important to 
the Pentagon? For the following reasons, Mr. Chairman:
    First, remanufacturing saves significant costs involved in 
design and production of new systems.
    Secondly, remanufacturing allows the insertion of new 
technology faster and more efficiently than new systems.
    Remanufacturing does not require the same amount of 
resources needed for manufacturing of new systems, thereby 
resulting in significant cost savings.
    And, finally, remanufacturing of existing systems can be 
done much closer or in some cases at point of use, thereby 
resulting in significant cost savings.
    Mr. Chairman, ONR is very interested in what we have to 
offer to the Navy manufacturing technology program and, in 
fact, has indicated that they want to introduce our program to 
the other military services.
    Mr. Chairman, our research project with ONR funded in last 
year's bill will focus on enhancing the Navy's ability to 
transfer remanufacturing know-how and technologies within and 
outside of its facilities to fully exploit the benefits of 
remanufacturing.
    In year two of the project, which will utilize fiscal year 
1999 dollars we are requesting today, the RIT project team will 
collect detailed information on remanufacturing activities, 
capabilities and technologies from DOD depots. The information 
will be assembled into a searchable computerized clearinghouse. 
The data will be analyzed in order to develop broad 
recommendations for improvement of remanufacturing practices.
    Mr. Chairman, Dr. Nasr and the National Center have 
developed a multiyear plan of research cooperation and support 
of ONR remanufacturing priorities. I am submitting with the 
testimony a copy of the detailed proposal that we have 
submitted to ONR relating to the use of fiscal year 1998 
funding and a program for subsequent years.
    In fiscal year 1999, RIT is requesting that the 
subcommittee include another $2 million appropriation in ONR to 
fund year two of this very vital program.
    Thank you, Mr. Chairman, for allowing us this opportunity 
to testify. My colleague, Dr. Nasr, has all the answers, if you 
have some questions; and I will back him up as sufficiently as 
my credentials would permit me to.
    Thank you for your time.
    Mr. Young. Well, I would like to say that most--the biggest 
question we would have for him is, how can we get the extra 
money to take care of all of these programs that we are talking 
about today?
    And I would like to respond that the Committee is well 
aware of the success of many of the remanufacturing programs, 
and we understand we do get a lot for the dollar invested 
there, and we appreciate your calling that to our attention 
today.
    And, Representative Slaughter, thank you very much for 
bringing them.
    Mrs. Slaughter. Mr. Chairman, thank you for your 
graciousness. We appreciate your listening to us this morning. 
You are very kind to have us in. Thank you.
    Mr. Young. For your constituents, I would tell them that 
you are a very important one to listen to.
    As a member of the Rules Committee, she plays a major role 
in the legislative process here in the House.
    Mrs. Slaughter. You are always a pleasure to work with.
    Mr. Young. Thank you.
    Mrs. Slaughter. You were saying----
    Mr. Cunningham. He is okay for a Marine.
    Mr. Young. General Krulak told us there are no old Marines.
    Mrs. Slaughter. Absolutely no old Marines at all.
    Mr. Young. Thank you very much. We appreciate you being 
here this morning. Thank you.
    Mrs. Slaughter. Thank you.
    [The statement of Mr. Robfogel follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

     NATIONAL COALITION FOR OSTEOPOROSIS AND RELATED BONE DISEASES


                               WITNESSES

SANDRA RAYMOND, EXECUTIVE DIRECTOR, NATIONAL OSTEO- POROSIS FOUNDATION 
    (NOF)
COMMANDER CHARLES SCOTT, U.S. NAVY

                              Introduction

    Mr. Young. I would like to welcome next Sandra Raymond, the 
Executive Director of the National Coalition for Osteoporosis 
and Related Bone Diseases.
    She is accompanied by Commander Charles Scott and his son 
Nick. Commander Scott suffers from multiple myeloma, which is a 
cancer of the bone marrow.
    Ms. Raymond, your prepared statement will appear in the 
permanent record; and we would ask that you summarize it at 
this time.

                        Statement of Ms. Raymond

    Ms. Raymond. Thank you very much, Mr. Chairman.
    I will summarize my testimony. But I do want to say that 
Commander Scott is here today, and his personal story, I think, 
really lays out the real cost of bone disease to the military.
    On behalf of myself and the Coalition, I want to sincerely 
thank you, Mr. Chairman, and your colleagues on the committee 
for the $10 million you appropriated for bone disease research 
in the fiscal year 1997 DOD budget. This money has been put to 
good use, and it is worth every appropriated dollar.
    The DOD received 88 proposals, out of which they were only 
able to fund 12 outstanding proposals; and those projects are 
enumerated in our testimony that you have received today.
    This is not an extension of the NIH research program, 
because the DOD bone disease research program aims to enhance 
military readiness by improving the bone health of young men 
and women who are in the military.
    The research addresses the important issue of stress 
fractures, which are among the most frequent injuries that take 
men and women off duty in the Army. According to the Army, the 
minimum time away from significant duty for a male or female 
soldier who develops a stress fracture is 6 to 8 weeks. Stress 
fractures are very slow to heal, and full recovery takes as 
long as 12 weeks.
    You know, most of us think of stress fractures--that stress 
failures heal and that the integrity of bone is maintained, but 
that is not true. If a stress fracture goes untreated and if it 
occurs in the same bone, you can have a full fracture; and that 
full fracture may cause complete disability. It may cause 
costly surgery and rehabilitation. And it is very, very costly 
to the military.
    An estimated 10 to 15 percent of women recruits experience 
stress fractures during this 8 weeks of basic training. With an 
increased number of women in the military, these stress 
fractures can only increase.
    One training intervention research project, which was 
conducted among 22,000 recruits in the U.S. Marine Corps in San 
Diego, showed that as much as $4.5 million could have been 
saved by reducing stress fractures. So the DOD research program 
is addressing these problems.
    For example, one project will examine oral contraceptives 
in bone health in female runners. Another will investigate 
treatments which increase the rates of healing stress 
fractures.
    There are many other projects which are being conducted 
under the DOD research program. It may be that what we learn 
from DOD research will greatly contribute to bringing bone 
diseases under control. Because osteoporosis and other related 
bone diseases, such as Paget's disease, Osteogenesis Imperfecta 
and multiple myeloma, are serious threats to the public health. 
These diseases cause loss of independence, they cause 
disability, they cause death, and they are extremely costly to 
the medical system in the United States and to the military.
    By discovering how we can build peak bone mass in military 
recruits we will not only build a strong Nation in terms of 
defense but also we are going to be able to extend our life and 
extend and withstand the stresses of an extended life span. We 
are today urging you to appropriate a modest $20 million in 
appropriations for bone disease research in fiscal year 1999.
    [The statement of Ms. Raymond follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Ms. Raymond. Commander Scott.

                      Statement of Commander Scott

    Commander Scott. Gentlemen, as you heard, my name is 
Commander Charles Scott. I am a Naval aviator, experimental 
test pilot, aeronautical engineer and Persian Gulf veteran.
    In December, 1996, after suffering a broken back, I was 
diagnosed with multiple myeloma, which is a complex cancer of 
the bone marrow that invades and destroys bone. As a result of 
this disease, I have severe osteoporosis.
    Each year, 14,000 new cases of myeloma are diagnosed. The 
occurrence of myeloma has increased dramatically in the past 
decade. The average life expectancy from the time of diagnosis 
is three-and-a-half years, and there is no cure for this 
disease.
    I demonstrate the tangible cost of bone disease to the 
military. The Navy has paid over $9 million to train me in the 
highly technical fields in which I am qualified. This 
investment by the taxpayers of this country is in jeopardy due 
to my bone disease and cancer.
    We are asking for $20 million for bone disease research. If 
the research resulting from the Department of Defense Bone 
Health and Military Medical Readiness Research Program could 
help me recover my health and put me back into a flying status, 
nearly one half of the amount we are requesting from you today 
could be recovered.
    By understanding the mechanisms of bone destruction in 
myeloma, we can learn how the dynamic equilibrium of bone 
damage and bone healing actually works.
    In myeloma patients, bone damage is dramatically increased 
but, more importantly, bone repair is almost completely 
blocked. Myeloma bone disease cripples 50,000 Americans in the 
prime of their lives. All Americans will benefit from increased 
knowledge of what can make bones heal and become stronger. 
Research focusing on the reduction of tumor burden, causative 
factors and better treatments will benefit everyone suffering 
the debilitating effects of bone disease and myeloma.
    Reduction in military readiness, our ability to fight and 
win wars, runs the gamut from the new recruit who fails to 
complete basic training on time due to a bone fracture to the 
seasoned veteran like me whose career is cut short by a 
debilitating bone disease.
    Thank you.
    Mr. Young. We want to thank you very much for being here 
and for your statements.
    Mr. Cunningham is our in-house expert on Naval aviation, 
having been, I believe, the first ace in the Vietnam War. He 
has a little knowledge about this problem, and I have asked him 
to comment on this.
    Mr. Cunningham. Well, I was also a former coach at a high 
school and college level.
    You know, the Speaker of the House has insisted that we 
increase funding for medical research at National Institute of 
Health--NIH.
    Another area that I would encourage you to look at, 
although you have your particular problem, but especially in 
fractures and stress fractures, sports medicine has got a vast 
knowledge. I mean, they're professionals, it is in their best 
interest to look at, A, how to prevent it, the diet, and also, 
if you have a stress failure, how to fix that, and I would turn 
you in that direction.
    The third thing I would mention is, with the limited budget 
which is as low as the 1950s, procurement has been cut 70 
percent. We can't buy parts smart. We can't do the things that 
actually save money. Because you need an airplane to go to 
Bosnia--we have got in some cases only one airplane in the 
squadron because we don't have parts to go forward. And we are 
fighting this battle, and I support it and understand what your 
problem is.
    But I also would like you to know the Chairman's problem 
that we are having, and we can't do the smart things because of 
a limited budget. But we are sympathetic, and we will see what 
you can do. And God bless you being a Navy fighter pilot.
    Commander Scott. Coming from a procurement background, I 
certainly understand and appreciate the constraints.
    Mr. Cunningham. Thank you.
    Mr. Young. We thank you very much, and we certainly 
understand the problem. Believe me, we could find a lot of ways 
to spend a lot more money on medical research. This Committee 
has taken the lead in a lot of medical research programs, 
including the establishment of a bone marrow registry for 
transplants. I understand that you had a transplant.
    Commander Scott. Yes, sir.
    Mr. Young. But yours was anatologist, as I understand.
    Commander Scott. Yes.
    Mr. Young. So this Committee has taken a strong lead on 
medical issues, and we appreciate your being here to back us 
up.
    As Mr. Cunningham said and as I have said, money is going 
to be really tight this year. All I can say is, we will do the 
best we can.
    Commander Scott. Thank you.
    Ms. Raymond. Thank you.
    Mr. Young. Thank you again for being here.
                              ----------                              

                                          Thursday, March 19, 1998.

                        BRAIN INJURY ASSOCIATION


                                WITNESS

MARTIN B. FOIL, JR., CHAIRMAN OF THE BOARD, BRAIN INJURY ASSOCIATION

                              Introduction

    Mr. Young. I would like to recognize now Mr. Martin Foil, 
who is the voluntary Chairman of the Brain Injury Association.
    The Members will remember, he is a constituent and good 
friend of Congressman Hefner, who normally introduces him with 
a very nice introduction. But Congressman Hefner is not able to 
be here this morning, and I probably won't be able to do as 
good a job.
    But we appreciate all the time that you volunteer, Mr. 
Foil, for this very important matter; and your statement will 
be placed in the record, and I would ask that you summarize it 
for us.

                         Statement of Mr. Foil

    Mr. Foil. Thank you, Chairman Young, and good morning, and 
all the members of the National Security Subcommittee. Thank 
you.
    We are sorry that Bill is not here this morning. We are 
well aware that he is retiring, and all of his constituents are 
going to miss him, and we who come before you will miss him as 
well. He has been a good friend to the Brain Injury Association 
and to our cause.
    My name is Martin Foil, and I come before you as a father 
of Philip Foil, a young man with a severe brain injury. I do 
serve as a voluntary Chairman of the Brain Injury Association. 
I am also the Chairman and Chief Executive Officer of Tuscarora 
Yarns in Mt. Pleasant, North Carolina.
    I receive no compensation from the Association or from the 
programs I am testifying about here today. Rather, I contribute 
considerable sums of my own money to the Brain Injury 
Association to help improve the lives of persons with brain 
injury. I am here, Mr. Chairman, simply because I do care about 
the 9 million Americans living with brain injury and their 
families.
    The Defense and Veterans Head Injury Program, or DVHIP, and 
the Violence and Brain Injury Project are collaborative efforts 
among the DOD and the Veterans Affairs and the Brain Injury 
Association.
    Together, we not only serve Active duty military personnel 
but we are an important resource to veterans and civilian 
populations as well. Over 7,000 military people a year suffer 
brain injury in peacetime.
    Our programs, therefore, are exemplar cases of dual-use 
funding; and I am pleased to report to you, Mr. Chairman, that 
our collaborative efforts continue to pay off. We do this by 
increasing the return to work rate of military personnel and 
improving the efficiency of the medical services provided. By 
doing this, DOD realizes significant cost savings.
    We have also had many accomplishments this year, including 
expanding of our Patient Registry Treatment and Referral 
Network.
    Our Brain Resource Center, developed by our Association, is 
now available in over 60 locations across the country, 
including select DOD and Veterans' Administration--VA hospitals 
as well as civilian facilities.
    Our toll-free help line continues to receive at least 
15,000 calls a year helping military personnel and civilians 
with brain injury and their caregivers.
    We have increased our prevention and educational programs 
to include something we call the brain building basics. This is 
a violence, prevention and brain injury awareness program for 
low literacy adults, including incarcerated populations.
    Our HeadSmart Schools Program is now being used in 21 
States, over 106 schools, 141,000 children, of whom 36,000 are 
children of the military. We have schools in 12 military 
installations.
    Through the Brain Injury Association, we are embarking on 
research of neurobehavioral problems following brain injury 
that will help to return military personnel to work. Included 
in this kind of research are FMRI studies to evaluate outcomes 
and concussions in sports.
    Brain injury is, however, a silent epidemic; and, as such, 
it is the single largest killer and the cause of disability 
among our young people. We need to learn more about the brain, 
and we need to do more to prevent brain injury.
    Our efforts continue to help our Nation's military 
readiness by helping service members get appropriate care and 
return to work. We need your support, Mr. Chairman, for $8.5 
million in funding so that the DVHIP and VBIP and the Brain 
Injury Association can carry on this unique partnership. This 
has been a very successful program, and we are proud of our 
association together.
    I am happy, Mr. Chairman, to answer any questions. Thank 
you and God bless you for allowing me here again this year.
    Mr. Young. Mr. Foil, thank you very much. We appreciate 
that.
    I wanted to mention that the University of Florida has a 
very aggressive brain injury program, and we do help with that.
    I would also tell you that the Chairman of this 
Subcommittee will miss Mr. Hefner as much as his constituents. 
He has been a good friend and a very good Member of this 
Committee.
    Mr. Foil. He is a fine man, and we all will miss him.
    Mr. Young. We appreciate you being here. Thank you very 
much.
    Mr. Foil. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Foil follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

                     THE FLEET RESERVE ASSOCIATION


                                WITNESS

MASTER CHIEF JOE BARNES, USN (RET.), DIRECTOR, LEGISLATIVE PROGRAMS, 
    THE FLEET RESERVE ASSOCIATION

                              Introduction

    Mr. Young. Next I would like to welcome Master Chief Joe 
Barnes, who is the Director of Legislative Programs for the 
Fleet Reserve Association. Chief Barnes represents 160,000 
enlisted sea service personnel who are serving or have served 
in the Navy, Marine Corps and Coast Guard.
    Master Chief, your prepared statement will be made a part 
of the Committee's permanent record, in that statement, which 
we have read, it says, military readiness is now at code 
yellow. You also warn of the pending damage to the Nation's 
defense establishment if the fiscal year 1999 defense budget is 
approved in its present form.
    I will say amen to that. We recognize the serious 
shortfalls in many areas in the President's budget. 
Unfortunately, his top number is the same as the top number 
that we are dealing with. So we are going to have to work 
around that the best we can. But we appreciate your being here, 
and we would like to recognize you to summarize your statement.

                    Statement of Master Chief Barnes

    Master Chief Barnes. Thank you, Mr. Chairman. Distinguished 
Members of the Subcommittee, thank you for the opportunity to 
present the Fleet Reserve Association's--FRA--priorities 
regarding personnel issues for 1999.
    I also wish to express appreciation to you and members of 
the subcommittee for your strong support of the men and women 
serving in our uniformed services. Thanks to your efforts, they 
have seen significant quality of life improvements.
    Our country and its uniformed services face many 
challenges, not the least of which is turmoil in distant parts 
of the world that threatens our national interests. Inadequate 
defense funds, insufficient manpower, declining recruiting and 
retention rates, widening pay comparability, crumbling 
infrastructure and disenfranchised older retirees add to these 
challenges.
    These and other issues are addressed in our complete 
statement, and in the interest of time I will focus only on 
several key points.
    Compared to 1989, DOD funding in fiscal year 1999 will have 
dropped approximately $40 billion. This dramatic reduction 
helped to balance the budget, generate a projected surplus and 
free up money for other government programs. Notable is an 
increase by next year of over $208 billion compared to 1989 in 
Department of Health and Human Services funding.
    Keeping in mind the challenges discussed above, it seems 
those most deserving of consideration in the reallocation of 
government spending are the men and women who are now sharing 
the sacrifices and hardships of serving in the Armed Forces.
    In addition to these major challenges, additional personnel 
cuts are planned, not because the workload has decreased but 
because money saved from the personnel account is sorely needed 
for procurement and modernization.
    OPTEMPO has significantly increased and reduced manpower 
levels have led to longer deployments as well as family 
problems, instability, stress and falling retention rates.
    Next year's mission demands will be greater than in 1998, 
and the Navy can ill afford to lose 18,000 more personnel as 
recommended in the QDR, and the Marine Corps should not be 
mandated to further reduce manpower below the pre-1998 levels.
    Annual military pay raises always trail 15 months behind 
the applicable employment cost index data, and each year the 
pay gap grows wider and now stands at 13.5 percent.
    FRA again draws your attention to the decline in pay 
ratios. Prior to the all-volunteer force, the ratio between 
senior enlisted personnel and new recruits was 4.6 to 1 and now 
it is 2.6 to 1, indicating nearly a 44 percent decline.
    Hopefully, Congress hasn't forgotten the need in 1981 to 
raise the pay of its senior enlisted members. At that time, 
many were voting with their feet. FRA urges larger pay 
adjustments to narrow the pay gap in accordance with the latest 
full ECI data immediately prior to the effective date of the 
pay raise and a gradual pay increase for senior enlisted 
personnel to bring it to a level commensurate with their 
leadership roles.
    Regarding health care, improvements are needed in the 
TRICARE program; along with enactment of full Medicare 
subvention; a broader mail order pharmaceutical drug program; 
and, finally, a major priority is a test program to the Federal 
Employees Health Benefit Program option for older 
beneficiaries.
    Confusion over the three military retirement plans is a 
concern for uniformed service members pondering career 
decisions. Second and third term enlistees are discovering that 
the retirement program they may look forward to provides 
significantly less financially than the previous two programs, 
yet they must pay the same amount for health care for 
themselves and their families.
    FRA believes Congress should repeal the 1986 Military 
Retirement Reform Act.
    Mr. Chairman, FRA shipmates appreciate your untiring 
commitment and support of personnel now serving and those who 
have served in the past. Thank you very much.
    Mr. Young. Master Chief Barnes, thank you very much. We 
always appreciate your excellent testimony; and, as you know, 
we work with you to do the best we can to make good things 
happen; and we thank you for being here this morning.
    Master Chief Barnes. Thank you, Mr. Chairman.
    [The statement of Master Chief Barnes follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

                         FORT ATKINSON CEMETERY


                                WITNESS

HON. DOUG BEREUTER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEBRASKA

                              Introduction

    Mr. Young. I would like to recognize now one of our 
distinguished colleagues from the great State of Nebraska, 
Congressman Doug Bereuter. Doug serves on the Banking and 
Financial Services Committee and the International Relations 
Committee, where he chairs the Asia and Pacific Subcommittee 
and, in his usual aggressive way, does an excellent job there.
    Congressman, your prepared statement will be placed in the 
record; and we would ask that you summarize it.

                   Statement of Congressman Bereuter

    Mr. Bereuter. Thank you very much, Mr. Chairman and Mr. 
Cunningham and members of the Committee. I appreciate you 
seeing me at this point. Because of an emergency, Chairman 
Gilman will not be able to handle the next bill; and I will 
have to do that.
    I would want to bring to your attention a request for a 
quarter million dollars. I know you don't often deal in a 
request of that size.
    In summarizing, let me tell you this. The first fort west 
of the Missouri River in the United States is located in my 
district. It was eventually called Fort Atkinson. The first 
winter the troops were located there shortly after Lewis and 
Clark had gone up the river and had met the Indians for the 
first time at what is called Council Bluff.
    The Missouri cantonment, over 200 troops died the first 
winter. As far as I know, it is the largest area of unmarked 
American military graves in the United States. Today, we don't 
know exactly where these officers and men are buried.
    There are other civilians that were buried as well, not on 
the fort but an area north of it. I am sorry to tell you that 
that area is cultivated today. It is farmed. We have had 
difficulty getting access.
    We need to use ground-sensing radar to find out exactly 
where it is. We can take it down to within a 15- to 20-acre 
site, and what I am asking for is site planning money; if 
necessary, leasing; and preparation for memorializing these 
graves of these 200-plus soldiers of what was the most--it was 
actually the largest military establishment in the United 
States at one time.
    It is adjacent to a State historical park which is called 
Fort Atkinson, named after an early Army officer that helped 
explore the Missouri River territory and Nebraska territory and 
Dakota territory. It is my expectation, once we locate these 
graves with the assistance of the appropriate component of the 
U.S. military, that we would arrange to have land purchased; 
and I would think it would be the preference of the Federal 
Government to transfer the land to the State historical park.
    But I do think that proper recognition and memorialization 
of these 200-plus American servicemen from the 1820 to 1827 era 
is appropriate. And that is my request, a very unusual one; and 
I think it is probably the first request I have ever made 
before this Committee. It has nothing to do with my Asia and 
Pacific Committee assignment.
    I would be happy to answer any questions you might have.
    Mr. Cunningham. I don't really have any questions for the 
issue. I understand the issue, and I know the Chairman is 
trying to wade through the priorities on it. A lot of our 
foundation is on history.
    When you say transfer of land you are actually asking for 
money. I am not quite clear on the reasoning behind, the 
expanse of money required if we transfer the land to bring up 
these 200 or more.
    Mr. Bereuter. I don't think it is appropriate to move the 
graves. What we are asking for now is investigation money. Part 
of that equipment is in the hands of the Smithsonian 
Institution. Part of it is in the hands of the Army, the DOD. 
We would like to find out precisely where these graves are, as 
much as possible after this century and a half, and prepare a 
site plan and memorialization of it.
    We think it is--because of the noncooperation of the 
landowner, it is going to be necessary to lease the ground for 
a period of 3 to 6 months for that purpose. Then it would be my 
expectation to either go to the State of Nebraska or the 
Department of Interior Appropriations Subcommittee, Ralph 
Regula's subcommittee, and request an additional 10, 15, 20 
acres, whatever it might be, to add to Fort Atkinson.
    I don't think the Federal Government would expect to 
establish a Federal cemetery and would not want the property to 
be under its control. So I would think it is logical at some 
subsequent action, when we determine exactly where these graves 
are and what kind of markers should be placed there and what 
kind of visitation arrangements to the site should be there, 
then I would think we would go for the additional purchase.
    Or what the landowners would prefer is a land swap. I don't 
know if that can be arranged.
    I will tell you one thing more. This will be the site of 
one of the three most important ceremony--festivity sites in 
the Lewis and Clark expedition. In 2004, this is where the--one 
of three sites will be for the Lewis and Clark expedition 
bicentennial. It happens to be----
    Mr. Cunningham. Has there been any attempt for a foundation 
to be set up for--a funding foundation, private?
    Mr. Bereuter. No. But I think probably the acquisition can 
be handled by the Nebraska Game and Parks Foundation.
    The problem is, we need at this point the expertise of the 
military; and we think it is appropriate that they help find 
those graves of American military men from that era.
    Mr. Cunningham. Thank you, Mr. Bereuter.
    Mr. Bereuter. Thank you very much.
    [The statement of Congressman Bereuter follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

 NON COMMISSIONED OFFICERS ASSOCIATION OF THE UNITED STATES OF AMERICA


                                WITNESS

SERGEANT MAJOR MICHAEL F. OUELLETTE, USA (RET.), DIRECTOR OF 
    LEGISLATIVE AFFAIRS, NON COMMISSIONED OFFICERS ASSOCIATION OF THE 
    UNITED STATES OF AMERICA

                              Introduction

    Mr. Cunningham. Our next witness from the Non Commissioned 
Officers Association is Sergeant Major Michael Ouellette. I 
look forward to your testimony, Sergeant Major.

                 Statement of Sergeant Major Ouellette

    Sergeant Major Ouellette. Good morning, Mr. Cunningham, and 
thank you very much. On behalf of the Non Commissioned Officers 
Association--NCOA, it is always nice to be given an opportunity 
to appear before this subcommittee; and I, on behalf of NCOA, I 
would like to thank all the members, especially the Chairman 
who I thank constantly, for the efforts in past years to assist 
military people and retirees.
    I would tell you that we are--we still need help in those 
areas, but we would be far off the pace if it had not been for 
the efforts over the years to protect COLAs for retirees, to 
provide pay raises, money for pay raises for the special 
deployment pays and all of those items that come up to improve 
the welfare of military men and retirees and, of course, 
promote recruiting and retention.
    Mr. Cunningham, I would just like to summarize. We have 
submitted our statement.
    I think there are a lot of issues. I don't think that this 
Committee in 1 year is going to solve all of the problems. I do 
think, though, that there should be a real attempt to try to 
bring military pay up to par, as Mr. Barnes talked about.
    I think the best way to start that, though, within reason, 
is just to assure full employment cost index pay raises every 
year. We came close to doing that last year; and, at the very 
end, that provision fell out of the authorization bill.
    So in the area of health care, Mr. Cunningham, you hear 
that all the time. The problems--and there are many problems 
with health care. Are we going to--do you have the money to fix 
all of the areas during the course of any one year? The Non 
Commissioned Officers association sure doesn't think so. But we 
do think that probably selecting one thing and maybe 
prescription--opening the mail order prescription drug program 
to all retirees would be a major step forward.
    That is the way this Committee has progressed over the 
years. You haven't solved all the problems every year, but you 
keep nipping at it.
    On behalf of NCOA and our President, Chuck Jackson, Mr. 
Cunningham, we--and the staff of the subcommittee, we certainly 
appreciate all the things that you have done and look forward 
to those things that you are able to do within the budgetary 
restraints during--for the fiscal year 1999 program.
    Mr. Cunningham. Thank you, Sergeant Major.
    I think it is pretty much a bipartisan issue on taking care 
of our veterans, and you know we look forward to--the 
subvention bill was written by the veterans in my district and 
submitted, and it took a long time.
    I would tell you that J.C. Watts, Mr. Thornberry and myself 
have a health care bill that I would like NCOA to take a look 
at. I think it will save dollars in the long run and will 
greatly benefit our military--the Chairman heard testimony of 
all the service chiefs before, and one of the big things for 
retention was loss of their benefits and they could do better 
on the outside. So I know the Chairman is very concerned about 
that, and we thank you for your testimony.
    Sergeant Major Ouellette. All right, Mr. Cunningham. Thank 
you very much.
    Mr. Chairman, thank you very much for all you have done.
    Mr. Young. Thank you. I am sorry that I missed your 
testimony, but I just got the second vote that Mr. Cunningham 
is going to have to go get now. Voting does interfere with our 
Committee work.
    Sergeant Major Ouellette. All right. Thank you, Mr. 
Chairman.
    Mr. Young. We always appreciate you being here. We always 
appreciate the support you give us when it is time to take this 
bill to the floor and to the Committee.
    Sergeant Major Ouellette. Likewise, Mr. Chairman.
    Mr. Young. Thank you, sir.
    [The statement of Sergeant Major Ouellette follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

              AMERICAN FEDERATION OF GOVERNMENT EMPLOYEES


                                WITNESS

ROCKY MORRILL, PRESIDENT, LOCAL #1156, MECHANICSBURG, PENNSYLVANIA, 
    AMERICAN FEDERATION OF GOVERNMENT EMPLOYEES, AFL-CIO

                              Introduction

    Mr. Young. I would like to recognize next Mr. Rocky 
Morrill, President of the American Federation of Government 
Employees, Local 1156, from Mechanicsburg, Pennsylvania.
    As a representative of 300,000 employees of the Department 
of Defense, we are interested in what you have to say about 
things of importance to them.

                        Statement of Mr. Morrill

    Mr. Morrill. Thank you, Mr. Chairman and subcommittee 
members. I appreciate the opportunity to speak before you.
    I am president of the American Federation of Government 
Employees, Local 1156, at Mechanicsburg, Pennsylvania. The 
American Federation of Government Employees represents more 
than 600,000 Federal employees serving worldwide, including 
300,000 employees at DOD.
    I would like to begin my testimony by thanking the 
subcommittee for this opportunity to testify on National 
Security Appropriations.
    While there are many important issues affecting DOD 
employees which this subcommittee will consider, I will limit 
my statement today to what I consider to be the most important 
issue, the use of in-house personnel ceilings by DOD officials 
to contract out work, often at higher cost because of the 
absence of public/private competition.
    DOD, the Department the American people rely on to 
safeguard their future, is experiencing in-house staff 
shortages. On March 16th, 1995, the personnel directors of the 
four branches of the Armed Forces told the Senate Armed 
Services Personnel Subcommittee that civilian personnel 
ceilings, not workload, cost or readiness concerns are forcing 
them to send work to contractors that could have been performed 
more cheaply in-house.
    Also in March, 1995, GAO reported that the personnel 
ceilings set by OMB frequently have the effect of encouraging 
agencies to contract out regardless of the results of cost, 
policy or high-risk studies. And the DOD Inspector General 
noted in a 1995 report the goal of downsizing the Federal 
workforce is widely perceived as placing DOD in a position of 
having to contract for services regardless of what is more 
desirable and cost-effective.
    Moreover, I have attached to my testimony three internal 
documents which suggest that DOD managers are instructing 
subordinates to manage by personnel ceilings and then contract 
out the work.
    The second document imposes a not-to-be-exceeded ceiling 
and insists that work performed by employees under the GS-12 
level be contracted out.
    We shouldn't be surprised that much contracting out 
occurring because of personnel ceilings is wasteful. After all, 
there is no public/private competition. Federal employees 
aren't given opportunities to compete in such situations, 
simply because there aren't enough of them to do the work.
    Clearly, DOD should be required to manage by budgets. If it 
has work to do and money is authorized and appropriated to do 
that work, then the DOD should be able to use Federal employees 
if in-house performance is to the benefit of the warfighters 
and the taxpayers.
    We all know that the DOD civilian workforce is going to get 
smaller. We all know that there is going to be contracting out. 
But DOD should not be imposing arbitrary personnel ceilings and 
foreclosing the option of the in-house performance of important 
work, especially if contractors are less efficient, even if not 
always successful.
    At my own base, we have the base communications office, 
already streamlined, has implemented cost-savings incentives 
and has saved the government documented savings of $500,000 
that continues through each fiscal year. Additionally, this 
timely organization has backlogged projects that have the 
potential for significantly larger savings. No contractor will 
duplicate or exceed the efficiencies or economies demonstrated 
by this organization.
    I present the documentation of the director of this base 
communications office that goes into further detail.
    We appreciate the Committee's efforts to prevent DOD from 
managing by personnel ceilings by the inclusion of prohibitions 
in recent defense appropriations bills, and we urge that a 
similar prohibition be included in this year's funding measure.
    Thank you for the opportunity to testify. I would be happy 
to answer any questions.
    Mr. Young. Well, thank you very much for being here, and we 
appreciate the opportunity to work with you on this issue. We 
recognize the importance of the civilian workers in the 
Department of Defense and the important role that they play. 
Thank you for being here today.
    Mr. Morrill. Thank you, sir.
    [The statement of Mr. Morrill follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

                  NATIONAL MILITARY FAMILY ASSOCIATION


                                WITNESS

SYDNEY T. HICKEY, ASSOCIATE DIRECTOR, GOVERNMENT RELATIONS, THE 
    NATIONAL MILITARY FAMILY ASSOCIATION

                              Introduction

    Mr. Young. I would like next to recognize Mrs. Sydney 
Hickey, Associate Director of Government Relations of the 
National Military Family Association. Mrs. Hickey is no 
stranger to this Committee. She and her organization do a 
really great job of standing up for the families of the men and 
women who serve our great Nation. And I might also say they 
publish a great newsletter which I find very informative.
    Mrs. Hickey, we are very happy to have you back again. Your 
entire statement will be placed in the record, and I would ask 
that you summarize it for us.

                        Statement of Ms. Hickey

    Ms. Hickey. Thank you very much, Mr. Chairman; and thank 
you for letting NMFA again express its views. In grateful 
recognition of your kind remarks, I will be less than 2 
minutes.
    We would like to reiterate again the gratitude of military 
families for the concern shown by the members of this 
Committee.
    We have eight main items in our written testimony, which I 
will simply list:
    A continued stress placed upon the force and their families 
by long workdays and weeks, as well as the frequent 
deployments;
    Two, the distress of families that their leaders continue 
to voice little concern about compensation programs that 
decrease their buying power and appear more concerned about 
cutting costs than the family's quality of life;
    Three, the privatization or outsourcing of vital family 
service functions and the fear that such contracts will go the 
way of the new parent support program contract;
    The implementation of the family housing privatization 
initiatives without full consideration of the effects on 
military families and the surrounding civilian communities. Our 
fear here is that this Subcommittee may be asked to fund the 
full impact aid program rather than simply the supplemental.
    The viability of the military community upon which we have 
historically depended for our support under privatization and 
outsourcing;
    The continuing problems with our health care system years 
after the initial implementation of TRICARE, and the fact that 
we still do not have a solution for our over-65s;
    A plea for the Committee's assistance in ascertaining if 
military families everywhere are paying the lion's share of the 
reduced provider payments under TRICARE Prime, as the exhibit 
included in our testimony shows;
    And, finally, our deep concern that policies and actions 
that produce negative experiences for the family, military 
family, of today will have a profound and equally negative 
effect on the military force of the future.
    Thank you, Mr. Chairman.
    Mr. Young. Thank you very much for your testimony.
    Thank you for being here, and you know that we always look 
forward to working with you and receiving your newsletter to 
keep up to date on what you are doing.
    Ms. Hickey. Thank you very much, sir.
    [The statement of Ms. Hickey follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

                NATIONAL MILITARY AND VETERANS ALLIANCE


                                WITNESS

COLONEL CHARLES C. PARTRIDGE, U.S. ARMY (RET.), NATIONAL MILITARY AND 
    VETERANS ALLIANCE

                              Introduction

    Mr. Young. I would like now to welcome Colonel Charles 
Partridge in his capacity as spokesman for the National 
Military and Veterans Alliance. Colonel Partridge is also the 
legislative counsel for another important group, the National 
Association for Uniformed Services. The Alliance represents 15 
military and veterans organizations with 3.5 million members.
    We appreciate the support that your organization has always 
given us when we try to do the best we can for our Nation's 
security. Your prepared statement is an excellent summary of 
where you think we stand with regard to military health care, 
and I might say this Subcommittee has spent considerable time 
this year on the subject of military health and health care for 
the families, some of the problems that have evolved, and we 
look forward to hearing from you, sir.

                     Statement of Colonel Partridge

    Colonel Partridge. Thank you, Mr. Chairman; and we want to 
thank you for all you have done over the years in military 
health care. Just year after year after year, you and this 
subcommittee have stood up. If it hadn't been for you, military 
health care would have been underfunded in the past years by 
almost three-quarters of a billion dollars; and we really 
appreciate your help there.
    As you know, we have supported the Department of Defense in 
establishing the TRICARE program; and we worked hard to help 
them with that. We worked hard with them on the Medicare 
subvention issue, which Mr. Cunningham mentioned earlier was 
drafted years ago from a man in his district; and we would like 
to see, of course, Medicare subvention expanded just as rapidly 
and quickly as possible.
    We are also concerned, as I know you are, with the deep and 
continuing cuts in the end strength, particularly medical end 
strength, where it is down by about 30 to 35 percent. Military 
hospitals are being closed as part of the BRAC--Base 
Realignment and Closure--business, which we understand. That is 
necessary.
    What has concerned us is that, with all of these reductions 
and cuts going on in the medical system, the Department of 
Defense has not come up with a plan that would take care of all 
of their beneficiaries. We know that the TRICARE program with 
subvention will take care of a large number, and we know that 
increasing coordination with the VA, between DOD and VA, is 
going to help.
    Even with all of that, though, there are people that are 
falling through the cracks, particularly Medicare-eligible 
retirees. And we--that is why we are proposing the Federal 
Employees Health Benefits plan. And our--what we need is a plan 
that works, that is a proven program, we know it works, and we 
believe that it would cover some 30 percent of military 
retirees over 65 who now have no other option. The other 70 
percent would get their care somewhere else.
    And we would--we understand there is an additional 
legislative proposal in the works that would--that could begin 
this program next year. We understand that the current bills 
that are being considered would not begin for several years, 
and we would like to see these older retirees getting this 
benefit in the next year. Then, as the Department develops 
their own alternatives, they can opt out of that into something 
else. But, for now, we would like to see something started next 
year, start them enrolling next year even if it is on a modest 
scale.
    Thank you very much, Mr. Chairman.
    Mr. Young. Colonel, thank you very much. You know of our 
commitment to making these things happen.
    Colonel Partridge. Yes, sir.
    Mr. Young. Also, I might tell you that a recent hearing we 
had with the Surgeons General I had discovered several 
recruiting posters that weren't all that old that promised, for 
those who spend enough time to retire in uniform, that they 
would have health care for life.
    Colonel Partridge. Yes, sir.
    Mr. Young. Many have said that that was not the case, but 
we found these old recruiting posters, and we are doing the 
best we can to keep faith with the people who believed that 
when they signed up.
    Thank you for being here today, sir.
    Colonel Partridge. Thank you, sir.
    [The statement of Colonel Partridge follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

                       DISABLED MILITARY RETIREES


                                WITNESS

EDITH G. SMITH, CITIZEN ADVOCATE FOR DISABLED MILITARY RETIREES

                              Introduction

    Mr. Young. I would like to invite Mrs. Edith Smith to come 
to the witness table now. Mrs. Smith is a long-time friend of 
this Committee and has been a tireless advocate for our 
Nation's disabled military retirees, and she has spent a lot of 
time with the Members of the Committee in this great effort.
    Mrs. Smith, we are always happy to hear from you. Your 
entire statement will be in the record, and we would ask that 
you summarize it.

                        Statement of Mrs. Smith

    Mrs. Smith. Thank you very much, Mr. Chairman.
    I am Edith Smith, the wife of a disabled retired Marine, 
who is very grateful to you, Mr. Young, and to Mr. Murtha and 
to the members of this subcommittee for rising up and leading 
the fight to protect the disabled military retiree by restoring 
their earned CHAMPUS benefit as second payer to Medicare in 
1991.
    Members of this subcommittee may remember the courageous 
testimony of your constituent Terry Cox that led to the 
immediate implementation of your legislation by the Department 
of Defense in 1992. The weak link, however, in your legislation 
is with DOD in its implementation of this dual-coverage 
benefit. For more than 6 years, DOD has not accomplished a data 
match with--the Health Care Financing Activity--HCFA for your 
legislation. The data match is required to identify and notify 
Medicare-eligible beneficiaries under age 65 of their change in 
eligibility for CHAMPUS.
    I am here today to plead for understanding and relief for 
any retirees under 65 who have not been informed of the unique 
requirement to enroll in Medicare B in order to remain in their 
CHAMPUS benefit, which is now known as TRICARE.
    I would like to describe the crisis faced by these disabled 
retirees with two real-life examples of young retirees who 
believed they were covered by CHAMPUS until age 65, as are all 
other military retirees.
    One is a disabled retiree from Michigan, afflicted with 
Huntington's disease. He learned of the Part B requirement 
after the enrollment period had closed, 4 days too late. His 
request for equitable relief was denied, and he was tragically 
left without outpatient insurance for the next 15 months.
    Two weeks ago, he was diagnosed with recurrence of cancer. 
Had his CHAMPUS coverage not been taken away, would he have 
gone to the doctor earlier? Would his cancer have been detected 
sooner?
    Another disabled military retiree signed up for TRICARE 
Prime at Madigan Army Hospital, uninformed by the military of 
his need to buy Part B. He died; and his widow suffered a 
recoupment attempt by TRICARE of nearly $200,000 last year, not 
once but twice in the same year, simply because this couple did 
not know about the Medicare B requirement.
    As DOD expands its managed care subvention demonstrations 
and programs such as TRICARE senior, the disabled appear to 
have been cherry-picked and left basically alone to fend for 
themselves.
    If DOD cannot coordinate one data match with HCFA in 25 
years for the Active duty family members who are disabled, how 
can they coordinate eight data systems for Medicare over-65s to 
begin the TRICARE senior demonstration by 1 July?
    For 10 years, Medicare eligibles have received a DEERS 
letter of notification, detailing the switch from CHAMPUS to 
Medicare at age 65. But this doesn't happen for the disabled 
under 65s. Mr. Chairman, these disabled beneficiaries deserve 
this important notification letter as well.
    DEERS is now working on the data match, but it will not be 
completed in time for the disabled retirees to enroll in Part B 
by this year's closing date of March 31st.
    Disabled beneficiaries not currently enrolled in Part B 
will find themselves at risk of ruin emotionally, physically 
and financially, because they will have no outpatient insurance 
until July 1st, 1999, unless Congress presses DOD to take 
protective measures regarding equitable relief waivers.
    If eligibility requirements for TRICARE were equal to those 
for the Federal Employees Health Benefits Program--FEHBP, these 
gaps in medical coverage for the disabled would not exist. 
Disabled Federal civilian retirees enrolled in FEHBP have a 
voluntary choice to purchase Medicare B but the disabled 
military retired beneficiaries do not.
    My husband and I are concerned that military personnel are 
viewed as second-class citizens by our employer, the Federal 
Government. Military professionals have earned a legitimate 
employer-provided health benefit such as FEHBP, which the 
Congress provides to Federal civilian retirees.
    Mr. Chairman, I have submitted my full statement for the 
record; and I appreciate the opportunity to speak this morning. 
If you have any questions, I would be happy to answer them.
    Mr. Young. Ms. Smith, we are always happy to hear from you. 
I still remember the help you gave us when the Andy Cox case 
was before us.
    Mrs. Smith. Yes. I mentioned Terry and talked to her last 
night, and she asked that I relay her best wishes to you and 
their appreciation as well for what you have done.
    Mr. Young. And she, Mrs. Cox, appeared in one of our 
hearings.
    Mrs. Smith. That is right.
    Mr. Young. I am sure you know that.
    Mrs. Smith. Yes.
    Mr. Young. And made a very good presentation.
    Thank you very much for being here today. We appreciate all 
the good work that you do.
    Mrs. Smith. Thank you very much.
    Mr. Cunningham. Let me say, Mrs. Smith, also, I am a 
military retiree, and I don't consider you a second-class 
citizen.
    Mrs. Smith. Thank you.
    Mr. Cunningham. I am one.
    Mrs. Smith. Maybe we can work on this for the data match.
    [The statement of Mrs. Smith follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                    THE RETIRED ENLISTED ASSOCIATION


                                WITNESS

CHIEF MASTER SERGEANT MARK H. OLANOFF, USAF (RET.), LEGISLATIVE 
    DIRECTOR, THE RETIRED ENLISTED ASSOCIATION

                              Introduction

    Mr. Young. Our next witness is retired Chief Master 
Sergeant Mark Olanoff, who is the Legislative Director for the 
Retired Enlisted Association.
    Chief, we are glad to have you here. You represent more 
than 100,000 members and auxiliary of the Retired Enlisted 
Association, and we are particularly interested in your views 
on health care for military retirees since 61 percent of your 
members are over the age of 65.
    We will place your entire statement in the record and ask 
that you summarize it at this point.

                     Statement of Sergeant Olanoff

    Sergeant Olanoff. Thank you very much, Mr. Chairman.
    First, I would like to let you know that, you know, I have 
not testified here before, but I have read a lot about what you 
have done personally and what this Committee has done for 
military retirees, especially the ones that are the majority of 
my membership; and we deeply appreciate what you do.
    Although my statement discusses many issues, I will focus 
my summary remarks on retired military health care.
    We are not here to ask you for a new weapons system. We are 
here to reclaim our employer-sponsored health care. Our 
solutions include a combination of TRICARE, DOD and VA 
subvention, and the option of the Federal Employee Health Plan 
that you, your staffers and every other Federal employee has; 
and we state that it should be unequivocal for any military 
retiree, regardless of their age.
    Mr. Chairman, I am going to refer to some attachments that 
I have put into the record, so I will have to do a little bit 
of reading. I just want to remind you, and you mentioned it 
already, about the promise. Most of the information that I have 
seen since I have been here, up until 1993 the United States 
Army was still publishing that poster that guaranteed the 
health care for life, and I can tell you----
    Mr. Young. That was the date on the one that I found.
    Sergeant Olanoff. Yes, sir. And just so you are aware of 
it, you know that, prior to 1956, this country had the 
equivalent of lifetime health care for military retirees 
because the law that was passed in 1956 actually took it away 
from us, because it created space-available health care. 
Unfortunately, this message was distorted over a period of 
time, and many of my members today still believe that that 
promise was made and it was guaranteed.
    I have a couple items that I am going to add that I have 
not put into the record, and I will put them in the record. My 
letter says that I have a week to do that. This information, I 
just received.
    Mr. Young. That is fine. We will be happy to include any 
items that you want in the record.
    Sergeant Olanoff. Thank you, sir.
    The Acting Secretary of DOD Health Affairs, Mr. 
Christoferson, testified before the Senate Committee on March 
the 11th; and he reiterated the DOD's commitment to health care 
for our over-65 people. However, there is one question and fact 
that I want to bring up that was answered that you probably 
have not seen this, but Senator Kempthorne's Committee asked 
him about what their position is on FEHBP and how would they 
implement it?
    His answer was that the Department has consistently opposed 
proposals to offer FEHBP because of the high cost and its 
potential effect on medical readiness; and in parenthesis he 
says, if substantial numbers of beneficiaries were no longer 
seen within the military health system.
    Well, sir, the first thing I can say to that is that I 
receive many phone calls, and I am sure your staff does, that 
these people are being turned away. So we don't see how this is 
going to have any an impact on military readiness.
    And I state in the attachments that I have given to you 
from the General Accounting Office--GAO their--the numbers 
don't match up. For example, the GAO stated there is 1.2 
million of our people. They also state in another report that 
Medicare subvention will only help 75,000 people, and they also 
go on to say that DOD is currently taking care of approximately 
300,000 of our people. So when you subtract 300,000 from 1.2 
million, that leaves 900,000 left; and I am here to tell you 
that if I could get you to put a law into this appropriations 
bill that eliminated the words ``space available'' and all 
those 900,000 people started coming back, I do not think the 
Department of Defense could take care of all of those people.
    There is also some testimony that has come out of the 
authorizing committee which, unfortunately, we were unable to 
participate in, concerning that enlisted personnel do not want 
to pay for health care. Well, sir, I have some data which I 
recently received since we are a member of the military 
coalition, that is not--that I have not attached but I will 
attach, of a survey that was done in 1996 of all the members of 
the military coalition. That survey indicates that 66 percent 
of all enlisted personnel have some type of Medicare 
supplement. They are paying money for health care somehow.
    And out of those 66 percent, based on the survey in which 
the individuals were asked, how much are you paying for health 
care specifically--and if these numbers are needed we can 
provide them--but the chart that I have that was produced by 
the military coalition indicates that of the Medicare-eligible 
retirees over 65, 32 and a half percent of these people would 
benefit with FEHBP because the costs that they are currently 
paying equals what FEHBP would cost, or more.
    So I hope we can dispel the myth that enlisted personnel do 
not pay for their health care when it is not provided, because 
I think they do.
    The last thing I would like to discuss with you, sir, is 
some congressional language and mandates that were given to the 
Department of Defense.
    In fiscal year 1997, the national--the fiscal year 1997 
Defense Authorization Act instructed the Department of Defense 
to conduct a study of FEHBP and cost available--and costs. In 
last year's conference report from the authorizers, they 
directed the Secretary to come up with a plan to expand TRICARE 
by March the 1st, 1998.
    There was also a sense of the Congress resolution that was 
put in by Senator Cleland which says, we owe these people 
health care even though it is not in the law, and we have an 
obligation to take care of these people. And he says, we need 
to do that within 2 years of the date that this was signed.
    Finally, your Committee, based on your leadership, put in a 
request, two requests. The first one was you directed them to 
prepare a plan by March the 1st, 1998, to fully implement 
subvention which, unfortunately, has not started because of 
some administrative things, but we do believe that subvention 
will work. And you directed them to come up with a plan so it 
could be completed quicker. And, finally, you put a requirement 
to them to submit a legislative proposal for FEHBP for a 
demonstration project.
    I am sure that you are aware, sir, that there are currently 
48 Senators and 189 House Members who have signed on to the 
legislation that has been pushed by us and other military 
associations. I can only say that, in my opinion, it appears to 
me that all of these mandates that have come out from these 
reports, I have not seen any of these reports and I don't think 
you have seen any of these reports, and I believe it is now 
time to stop the rhetoric, the report language, the sense of 
the Congress, and come up with a plan and oversee and make sure 
that that agency does come up with a plan. Because our people 
truly have believed in that promise, and I was also told that 
promise in 1967 when I enlisted in the military.
    So we would like to thank you for the time here, and 
anything that you can do to help us we would really appreciate 
it.
    Mr. Young. Well, I appreciate your testimony; and for your 
first time here I would like to say you made a very impressive 
statement to the Committee.
    As I mentioned, we have had numerous meetings with the 
medical folks at the Secretary of Defense's office, as well as 
the Surgeons General, trying to keep the pressure on to have 
them comply with the directions we put in the appropriations 
bill last year.
    I know you understand that we are not the authorizers, so 
we are not supposed to deal with the basic law, but sometimes 
we get around that with language in the appropriations bill.
    Sergeant Olanoff. Yes.
    Mr. Young. And my last comment is, as a father of a young 
man who is enlisted in the United States military, I understand 
what you are saying about the fact that they do pay. In fact, I 
get a bill every once in a while from him wanting a little bit 
of supplement to his rather low salary.
    Mr. Cunningham is wanting to make a comment on this issue 
as well.
    Mr. Cunningham. I thank you. And I also would like you to 
take a look at this bill that does exactly what you want on 
FEHBP. It deals with TRICARE and the eligibility for it. Even 
this--it seems like we just spot each year little changes and 
what we want is a seamless system for our veterans, and I would 
appreciate if you would take a look at this.
    We are going to submit this thing. We think it is far 
better than the current legislation that is already in, and we 
are asking for different retiree groups to take a look at it. 
If you don't like it, don't support it.
    But I would also say the very first subvention bill came in 
2 years before I was a Member of Congress. I was asked to pick 
it up by the veterans and pushed it through. A lot of that is 
OSD, because they wouldn't implement it. But some of it is 
politics, on just the ability to get selected as a ``pilot'' 
site it--which hospital got it.
    I know I was involved in that. We slowed down the process. 
We are going to speed it up and we want to thank you for your 
testimony.
    Sergeant Olanoff. Thank you very much, Mr. Cunningham.
    Thank you, Mr. Chairman.
    Mr. Young. Mr. Bonilla wanted to make a comment as well, 
sir.
    Mr. Bonilla. I thank the Chairman.
    I just want to reiterate, I happen to represent an area 
with a high retiree population. I have got a wonderful 
community called Air Force Village II in my congressional 
district. I hear about these problems all the time, and it is 
frankly a very sad situation where we have military retirees 
nowadays that have to wait 6 months sometimes to get an 
appointment. When they get there, they have to wait 6 to 9 
hours, and they wonder where--where is the commitment that was 
made to them when they put 30 years in for our country? And it 
is a sad situation.
    So all the points you are making are taken to heart; and, 
rest assured, there are a lot of us that, if you followed any 
of the testimony we have had in this Subcommittee in recent 
days and weeks, you know that a lot of us are on your side on 
this issue.
    I would ask one quick question, Mr. Chairman.
    Mr. Young. Yes.
    Mr. Bonilla. I have a question about those participating in 
Medicare Part B, because there is a problem with them 
participating in the subvention program. Can you comment on 
that just briefly, please?
    Sergeant Olanoff. The only comment, sir, is that there 
are--I think Virginia Torres probably knows the number--I think 
it is about 7 percent of the people did not enroll in Medicare 
Part B because at the time they were advised that, because all 
of these military facilities were available, that you would 
waste your money by paying Medicare Part B.
    So there are a few of our members that would be affected 
that, if they are not in Medicare Part B right now, they would 
not be eligible to apply for the test of Medicare subvention.
    Mr. Bonilla. Well, keep tooting the horn for us out there; 
and, rest assured, there are a lot of us that are listening to 
this problem.
    Sergeant Olanoff. Mr. Bonilla, I didn't see you walk in. We 
know you are a cosponsor, and there are many in this 
Subcommittee that are, and hopefully we will get some help, and 
we will get these problems solved.
    Mr. Bonilla. Thank you.
    Thank you, Mr. Chairman.
    [The statement of Sergeant Olanoff follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

           UNIVERSITY OF MEDICINE AND DENTISTRY OF NEW JERSEY


                               WITNESSES

HON. DONALD M. PAYNE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW JERSEY
RUSS MOLLOY, DIRECTOR OF GOVERNMENT RELATIONS, UNIVERSITY OF MEDICINE 
    AND DENTISTRY OF NEW JERSEY
BETTY GALLO, CANCER INSTITUTE OF NEW JERSEY

                              Introduction

    Mr. Young. Our next witness is going to be introduced by a 
very distinguished colleague of ours. I would like to invite 
Congressman Donald Payne of the great State of New Jersey to 
come to the witness table and introduce his guests.

                     Statement of Congressman Payne

    Mr. Payne. Thank you very much, Chairman Young. It is not 
often I have the opportunity to come before this august group, 
but it is certainly a privilege and to Mr. Cunningham, Mr. 
Bonilla.
    I would like to take a few moments this morning to 
introduce two very special people from my State of New Jersey, 
Mr. Russ Molloy, who is the Director of Government Relations at 
the University of Medicine and Dentistry of New Jersey, which 
is headquartered in my district; and Ms. Betty Gallo, with the 
Cancer Institute of New Jersey.
    UMDNJ, which is our State medical school, is unique because 
New Jersey is probably one of the only States that has simply 
one medical school and, therefore, it does a tremendous amount 
of coordinating. Although we have two or three outlets, it is 
one school; and, therefore, we believe that we are able to do 
more with the allocations that we have because we don't have 
competing medical schools; and so for that I am very proud.
    Mr. Molloy is here to tell us about the International 
Center for Public Health, a strategic initiative to create a 
world-class infectious disease research and treatment complex 
at the University Heights Science Park in Newark, which is also 
being developed.
    Accompanying him, Mr. Molloy, is a good friend of mine, Ms. 
Betty Gallo, who is the wife of the late Congressman Dean 
Gallo. Dean Gallo and I served in county government many years 
ago, before he came to Washington, preceding me by several 
terms, but we worked closely together when we were in county 
government with youth organizations. YMCA, he was very fond of. 
We became very good friends. On different sides of the aisle, 
but we had many more things in common.
    So it is my pleasure to introduce Ms. Betty Gallo.
    Dean was diagnosed in February of 1992 with prostate cancer 
in the advanced stage and sadly passed away in November of 
1994.
    Ms. Gallo is a national advocate for prostate cancer and is 
currently on the staff of the Cancer Institute of New Jersey, 
which received the NCI designation as a comprehensive clinic 
cancer center just last year.
    So, Mr. Chairman, once again, I appreciate the opportunity 
to appear before you and to introduce the witnesses to speak 
about this very crucial issue of importance to New Jersey. 
Thank you.
    Mr. Young. Don, thank you very much.
    We welcome both of you; and, as Congressman Payne has said, 
I think everybody in the past loved Dean Gallo. He was a very 
special person.
    Mrs. Gallo. Thank you.
    Mr. Young. We sorely miss him. We are happy to hear from 
both of you this morning. Whoever would like to go first, go 
forth.

                        Statement of Mr. Molloy

    Mr. Molloy. Thank you, Mr. Chairman.
    Yes, I would like to personally express the University's 
thanks to Congressman Payne. He has been a wonderful friend to 
the University and to the State of New Jersey, and we 
appreciate his attendance today.
    I would like to briefly give you a background about two 
priority projects that the University of Medicine and Dentistry 
is pursuing that really relate specifically to the national 
security of the United States.
    Just a bit of background on UMDNJ. The University, as 
Congressman Payne just noted, is the largest public health 
sciences university in the United States. We have three medical 
schools, all within our umbrella. We are the only institution 
that has that; and, therefore, we don't have that competitive 
nature of having schools fight against each other.
    We also have schools of dentistry, nursing, health-related 
professions and biomedical sciences. We also happen to have, in 
Congressman Payne's district, one of the largest acute care 
hospitals in the State of New Jersey. We are affiliated with 
three core teaching hospitals, the largest behavioral health 
care delivery system in the State of New Jersey, and we are 
affiliated with well over 100 academic and health care 
institutions statewide. So we are clearly--we are a State 
agency. We are a public entity, and we are statewide in nature 
and operation.
    Initially, let me just touch base on the International 
Center for Public Health. I testified last year before this 
Committee that we were moving forward; and there has been some 
truly dramatic changes in this project, both positive and 
negative.
    On the negative side, I think--I don't have to tell this 
committee about the problems of infectious disease. It is on 
the front page of every paper almost weekly now. Clearly, this 
issue about what happens to national--international security 
forces with infectious disease is becoming a very prevalent 
discussion topic. The deployment of U.S. troops to new 
geographic areas within the increasingly global economy have 
contributed to this resurgence in infectious microbes.
    Rapid and repeated exposure to these types of diseases can 
arise in any part of the world, and it is a reality for both 
military personnel and to the common U.S. citizen. By the year 
2000, well over 400 million people will engage in international 
travel and the issue of connection with infectious disease and 
its spread arises therefrom.
    New Jersey is unique because we are surrounded by eight 
international seaports and airports, so our access to the 
international field is enormous. We, therefore, propose the 
creation of an International Center for Public Health as a 
direct response to this looming crisis.
    Within the University Heights Science Park, which is this 
50-acre development project that Congressman Payne mentioned 
earlier, it is a linkage between four academic institutions 
within the City of Newark and private partners, including the 
major corporations, Prudential, Bell Atlantic, and public 
service electric and gas. They have tied together this proposal 
to link three core tenents into a single anchor facility.
    It is the International Center for Public Health, which 
combines the Public Health Research Institute of New York, 
which will be relocating from Manhattan into New Jersey; the 
New Jersey Medical School, our medical school; National 
Tuberculosis Center at the University--it is one of three model 
TB centers in the country that are funded by the CDC--and our 
Medical School's Department of Microbiology and Molecular 
Genetics.
    What we are doing is bringing together these three core 
tenents to create a nexus, a connection that allows this 
research to really expand.
    Each of these groups have already gotten millions upon 
millions of dollars in support for their research, both from 
public and private sources; and we seek your support to pull 
together and finalize this project.
    Since I appeared last year, in October, a memorandum of 
understanding was signed by the State of New Jersey and the 
partners in this project; and the State has committed $60 
million towards the overall cost of $78 million in both loan 
and grant funds towards the development of this institution.
    The State recognizes the enormous value and potential this 
facility has; and we are appearing before you today, as I did 
last year, to try to complete this project.
    The secondary, if I may--Mrs. Gallo has already been 
introduced to the Committee. Just to give you an overview of 
what we are attempting to do.
    The Cancer Institute of New Jersey, as Congressman Payne 
mentioned, is the only NCI-designated clinical cancer facility 
in the State of New Jersey. As we have discussed earlier, with 
the International Center for Public Health, the key is to put 
together the right experts to deal with the particular problem.
    Prostate cancer, you will hear, I believe, later on from 
the National Coalition on Prostate Cancer, is clearly an 
enormous problem. Mrs. Gallo lost her husband to it. If anybody 
is rediagnosed, if you get a recurrence of prostate cancer, it 
is always fatal. What we are attempting to do is to bring 
together a unique consortium of extraordinarily talented 
individuals to go forward to create the Gallo Prostate Cancer 
Institute, which is designed to do something quite dramatic. It 
is designed to actually cure prostate cancer.
    The Cancer Institute itself has been concentrating on 
efforts to develop new ways to treat this devastating disease. 
Currently, patients are enrolled in five different clinical 
trials for advanced prostate cancer. And since we have the NCI 
designation, anyone with a recurrent disease can immediately be 
brought in to these advanced therapies and we can basically do 
experimental therapies right now.
    We are bringing in a series of focus groups so that we can 
bring together the basic scientists looking at the core of the 
problem, along with clinicians and physician-researchers so 
they can work together and collaborate, which is now becoming 
the catchword for all future research in this area. We have to 
get enough people together to focus on this problem.
    The Gallo Prostate Cancer Institute will be incorporated 
into the Cancer Institute of New Jersey's statewide network so 
that we have immediate statewide presence with all of our 
affiliated hospitals with the Cancer Institute so that citizens 
within the State and within the metropolitan region can 
immediately access these goals--these new therapies and new 
treatments.
    We have already recruited investigators from sister 
research institutes in the region in New Jersey to study this 
issue. Clearly, we are--the issue about its impact not only on 
the male population in general but on the African American 
population is a critical component of this research. New Jersey 
stands as a unique facility to try to address this issue 
specifically.
    With the establishment of the Gallo Prostate Cancer 
Institute, collaborative research such as the projects that I 
have just mentioned will be expanded. We can then also 
effectively recruit all of the national and international 
recognized scientists to focus on this research.
    We expect to raise substantial private funds and public 
funds through corporate and other resources, and we also ask 
your support to secure whatever funds we can to facilitate the 
establishment of this critically important resource.
    This Committee is renowned for its efforts in biomedical 
research; and we, on behalf of the University, want to thank 
you for your efforts in the past. You have already taken major 
steps in prostate cancer, and we encourage you to continue that 
support.
    I want to thank you for the time.
    Mr. Young. Thank you very much. We appreciate your 
testimony. You know this Committee has invested substantial 
sums in addition to the other funding provided by other 
Committees, so we understand the seriousness of the problem.
    Mrs. Gallo, did you want to make a statement?

                        Statement of Mrs. Gallo

    Mrs. Gallo. The only statement I would like to say, Mr. 
Chairman, is I appreciate the time to come here today; and I 
just want to let you know that I am very committed to this, 
because of Dean dying from prostate cancer.
    You were not aware that when he was diagnosed in February 
of 1992, he was in the advanced stages. His PSA, which is--
normally 1 to 4 is a normal PSA; his was 883. It was already 
into his bones. His prognosis was 3 to 6 months at that time. 
But being that we had the National Institutes of Health here in 
Washington, he was able to go there and get a protocol called 
Seromon which helped prolong his life for two and a half years 
with a good quality of life.
    That is why it is so important that with the--when an NCI 
designate such as the Cancer Institute is able to get 
information on clinical trials and, again, with our affiliates 
kind of give them out to each of the communities so they--
people can stay in their communities but still have access to 
these clinical trials through the Cancer Institute.
    This Gallo Center would be in memory of Dean in the sense 
that he did die of prostate cancer as a few colleagues here in 
Congress already have, and I just feel that it is a real great 
thing for what Dean had stood for and being able to help the 
people in the State of New Jersey, who he so much cared about. 
I am kind of trying to continue on his work.
    Again, I just thank you.
    Mr. Young. Well, thank you very much.
    Congressman Payne, thank you for bringing the witnesses to 
us today. We appreciate it.
    Mr. Payne. Thank you, sir.
    Mr. Molloy. Thank you, sir.
    [The statement of Mr. Molloy follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

           RESERVE OFFICERS ASSOCIATION OF THE UNITED STATES


                                WITNESS

MAJOR GENERAL ROGER W. SANDLER, AUS (RET.), EXECUTIVE DIRECTOR, RESERVE 
    OFFICERS ASSOCIATION OF THE UNITED STATES

                              Introduction

    Mr. Young. I would like to welcome back to the Committee 
for another appearance General Roger Sandler, who is the 
Executive Director of the Reserve Officers Association.
    General, your statements are always very comprehensive; and 
your entire statement will be placed in the record.
    You point out that more than 106,000 Reservists were 
deployed to Southwest Asia during Desert Shield and Desert 
Storm. This last week, Mr. Bonilla and I had the privilege of 
visiting with a number of Army Reservists at Camp McGovern, 
just outside of Brcko in Bosnia; and I would have to tell you 
that they are shoulder to shoulder with their Active duty 
counterparts. You can't tell them apart. They are all doing a 
really good job. Many of them would rather be back home, but 
they understand the importance of what they are doing. So we 
are happy to hear from you today.
    One of the things they talked to us about, while we were 
there, was the Ready Reserve Mobilization Income Insurance 
Program and the problems that exist there. We think we fixed 
that in the supplemental, which this Subcommittee reported out 
of here last Thursday.
    So we are happy to hear from you at this time, sir. It is 
always good to have you back.

                      Statement of General Sandler

    General Sandler. Thank you, Mr. Chairman. Mr. Cunningham, 
Mr. Bonilla. Thank you very much.
    We at the Reserve Officers Association certainly appreciate 
what this committee has done, what you have done personally, 
over the years in support of the Reserve components.
    Let me just perhaps amend what I was going to say earlier 
and just talk about the fact that I was also in Bosnia 
recently, and that very subject was broached to me. The people 
are only getting 5 percent of what they had originally 
contracted for in the mobilization income insurance.
    Now I realize we are putting forth a supplemental to 
perhaps make up the difference so they will get 100 percent of 
the benefit that is owed, but I would also tell you that they 
are telling me that they would like to see that insurance 
program reinstated in some fashion. Of course, we understand 
that there was a problem in the manner in which it was designed 
and the manner in which it was implemented, but perhaps we 
could figure out some way in which we can do the same kind of a 
program but with a more intellectual approach to how it is 
implemented.
    Let me just move on that, since the Gulf war, some 
245,000--in which some 245,000 Reserve component personnel were 
involuntarily mobilized, only 160,000, as you indicated, had 
gone to the Gulf but considerably more were mobilized. There 
has been a continuing levy on the demands of our Reservists in 
northern Iraq, Haiti and in Bosnia.
    It is our firm belief that the seamless integration of 
which you just spoke of Reserve and Active components is at 
least apparent in the operational contingencies; and, as a 
result, the ROA feels that there needs to be a continued 
recognition of the increased need to fund mission training in 
modernization.
    There have been approximately 17,000 Reservists of all 
components mobilized for the Bosnia contingency. This shows no 
sign of abating in the near future. There are inhibitors to 
saving money, by not having enough contingency money available 
to support extending Reservists on Active duty after they have 
completed their 270-day statutory tour. We have many Reservists 
who have indicated an interest in extending; but, because of a 
lack of funding, they have not been able to do that. What that 
really means is that we spend more money mobilizing a new 
individual to take that person's place and paying the 
transportation for the individual to come home and another bit 
of transportation for a new person to go into theater and 
thereby also interrupting the continuity of effort.
    If we have got people who are willing to stay, then we 
ought to consider figuring out ways to fund that.
    I was on that trip to EUCOM, U.S./European Command, and 
that short trip to both Hungary and Bosnia. I discovered that, 
while I was there, that only the Air Force has made a sincere 
attempt in providing this contingency type money so that they 
could fly missions, in many cases--most cases, as a matter of 
fact--with volunteers. And it really is important, in my 
judgment, in the judgment of the leadership in EUCOM, that the 
other services, particularly the Army but also the Navy, Mr. 
Cunningham, that they also would come up with some way of--in 
which they could fence money to pay for contingency operations.
    We recommend that the Army and the Navy receive an increase 
in their share of the DOD budget. I realize there is a lid on 
the amount of the DOD budget, but they ought to get a larger 
share. The Army itself has only had about 24 percent of the 
budget for--almost historically, and they just need to figure 
out a way, and perhaps this Committee could help direct their 
efforts in that regard. If they want to use Reserve forces for 
these contingencies, they need to have a pool of money to do 
that.
    Our feeling is that the Air Force has done a wonderful job, 
and money ought not come from the Air Force to fund the Army or 
the Navy. It ought to come perhaps from DOD overhead in various 
and sundry headquarters around the world.
    I will just touch again on the mobilization insurance 
program. These folks are getting the 5 percent. They are 
getting along just fine. You know, they realize that there is a 
problem, but they do indicate very strongly to their 
leadership, which was transmitted to me and also personally to 
me by the individual soldiers with whom I spoke, that they 
would like to see that reinstated.
    So I would like this Committee to give strong consideration 
to figuring out a way, and we would be delighted to work with 
you on that, a way in which mobilization income insurance could 
be reinstated.
    My final comment, Mr. Chairman, is on the equipping and 
training of the forces. As you know, long-term investment is 
being sacrificed in order to maintain short-term readiness. We 
need both. The Reserve components need to have sufficient money 
to train the force. The Navy Reserve, in particular, has 
reduced their annual training to 12 days in order to shift 
funding to other requirements. They have also allowed a greater 
number of exemptions from their annual training for the purpose 
of saving and shifting money.
    Fifteen percent of the officers in the Naval Reserve and as 
many as 25 percent of the enlisted Naval personnel will not 
perform any annual training. The statutory annual training days 
are 14. Yet DOD has been given the authority to reduce that in 
the event that they have been requested by the service. In this 
case, the Navy did request it and were granted the authority to 
reduce it to 12. They are the only service that is training 
their people with 12 days annual training and allowing so many 
exemptions from annual training.
    We would also recommend that section 1301(a), Title 31, 
U.S. Code--and I will provide that to you in a written form--be 
broadened to allow reimbursement to the Reserve personnel 
accounts without reprogramming. This was done on a very limited 
basis previously. We would like to see it broadened so that the 
contingency ops that are being supported by the Reserve 
components could be reimbursed. This would assist in recouping 
money back in those accounts.
    Finally, this year, DOD--this is the year that DOD has been 
waiting for, the year that their procurement lists were 
expected to cover the needs of the Reserve components as well. 
Well, they don't.
    We request that you review the requirements in our 
statement for the record and fund those high-priority items 
listed. We believe that the $1.363 billion requested by DOD 
falls short by at least a half a billion dollars.
    Whatever amount is authorized, we recommend that the money 
be allocated to miscellaneous accounts rather than line items 
so that the services have the greatest amount of flexibility.
    Mr. Chairman, again, I thank you very much for your 
personal attention. Members of the Committee, thank you so 
much. If you have any questions, I would be delighted to answer 
them.
    Mr. Young. General, thank you very much for being here.
    The Members of this Committee recognize that we are being 
forced to do more with less. We are wearing out troops. We are 
wearing out equipment. We are not making that long-term 
investment that you suggested. This Committee is trying to do 
something about it that, but we are being hindered this year by 
the lack of room in the budget.
    General Sandler. Right.
    Mr. Young. We are really going to have to get down to brass 
tacks and work hard to do the things that have to be done.
    General Sandler. Yes, sir.
    Mr. Young. We appreciate your testimony today.
    General Sandler. Yes, sir.
    Mr. Cunningham. General, I know that all the groups come in 
here, but I have extreme hope. I look at the future and the 
direction we are going--and this is not political, but a 
balanced budget that gives us low interest rates, I mean, that 
gives you more money in your pockets and the people that you 
are talking about and the contingencies, when we--I think every 
group in here, we could give them the dollars, but when you 
have got to take out $16 billion for the extension in Somalia, 
Haiti and Bosnia, and we are looking at staying in Bosnia, 
which is going to be more, that is what really puts a clamp on 
us. Because you only get about one of four dollars back, even 
in a supplemental.
    General Sandler. Right.
    Mr. Cunningham. But I have extreme hope in the direction we 
are going, and I think it is going to get better, and we will 
do everything in a bipartisan way in this Committee to make 
sure that that happens, sir.
    General Sandler. Yes, sir.
    Mr. Young. General, again, thank you very much for being 
here with us. We always appreciate your testimony, sir.
    General Sandler. Thank you.
    [The statement of General Sandler follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

                         THE MILITARY COALITION


                                WITNESS

COMMANDER VIRGINIA TORSCH, MSC, USNR, ASSISTANT DIRECTOR, GOVERNMENT 
    RELATIONS, THE RETIRED OFFICERS ASSOCIATION ON BEHALF OF THE 
    MILITARY COALITION

                              Introduction

    Mr. Young. Now I would like to welcome Commander Virginia 
Torsch of the Military Coalition. The Coalition consists of 25 
military and veterans organizations, representing approximately 
5 million members of the uniformed services, officers and 
enlisted, Active, Reserve, veterans and retired, plus families 
and survivors.
    The Coalition does an excellent job of informing this 
Committee of the collective thinking of the organizations; and 
on those occasions that we need help with getting our 
legislation supported throughout the Congress, the Coalition 
has always been very helpful; and we appreciate that very much.
    Commander, welcome to you. Your entire statement is 
included in the record, and we would like to have you summarize 
it.

                     Statement of Commander Torsch

    Commander Torsch. Okay. Thank you very much, sir.
    I would like to express my deepest appreciation to you and 
your distinguished members of this Subcommittee for holding 
these important hearings and for allowing us to present our 
concerns. In fact, I think Mark Olanoff stole much of my 
thunder, but I will reiterate--probably much of what he said 
you will hear again in my statement.
    We are particularly grateful for your leadership in 
directing DOD to submit a test to allow the Medicare-eligible 
uniformed services beneficiaries to enroll in the Federal 
Employees Health Benefits Program.
    I want to point out that we are very committed to making 
TRICARE a better health care plan. I have detailed extensively 
some of the problems with that program in my written testimony, 
so I won't go over those; but I do want to say that I want to 
thank this committee for being instrumental in ensuring that 
many of these problems have been resolved or at least 
ameliorated. We would like to express our deepest appreciation 
for your Committee's role in working with and trying to fix 
TRICARE, make it a better plan.
    I also want to say that one of the most critical steps 
towards restoring equity in the health care benefit for older 
retirees was taken last year, with the enactment of legislation 
for the Medicare subvention test and the Balanced Budget Act of 
1997.
    Again, the Coalition deeply appreciates the subcommittee's 
leadership in getting this very important legislation enacted, 
and we are optimistic that the test will prove that subvention 
is a win/win provision for all concerned. However, we do have a 
major concern that many subvention supporters believe 
subvention is the solution. This is not the case at all. In 
fact, when you look at TRICARE Senior, even if it is expanded 
nationwide, when combined with DOD's level of effort, it will 
only benefit about 30 to 40 percent of the Medicare-eligible 
population.
    Thus, to honor the lifetime health care commitment that 
many have already previously testified to and which we in the 
Coalition believe is a firm commitment to retirees, we believe 
an additional option must be provided to the have-nots and the 
lock-outs and that is to offer these beneficiaries the option 
of enrolling in the Federal Employees Health Benefits Program.
    We realize that the principal argument being made currently 
against FEHBP 65 is its price tag, both to DOD and to the 
beneficiary. We took--the concern of the high cost to the 
beneficiary was one that the Coalition took a good hard look at 
and before we concluded that it would be a viable option for 
beneficiaries, we conducted a health care cost survey in 1996. 
That survey revealed that 32 percent of enlisted retirees who 
are 65 and older and 41 percent of officers are already paying 
substantially higher costs in supplemental care, and they would 
be economically better off with FEHBP than under their current 
health care coverage. That represents a significant population 
who would benefit from FEHBP.
    While the Coalition would prefer to have FEHBP 65 enacted 
nationwide, we recognize that a limited test may be necessary 
to take the guesswork out of the real cost of this option. For 
this reason, we strongly urge this committee to pass at least a 
test of FEHBP 65 along the lines spelled out in the current 
House Bill 1766.
    This bipartisan bill, which now has 190 cosponsors in the 
House, and its Senate companion bill S. 1344 has 37 cosponsors, 
would authorize a demonstration of FEHBP 65 in two geographic 
areas, one including a TRICARE primary with military treatment 
facilities and another area without such facilities; and it 
would include no more than 25,000 Medicare-eligible service 
beneficiaries in each area.
    Based on the participation rate, we believe accurate data 
could be derived to predict the cost of extending the program 
nationwide; and I want to point out that this test initiative 
has been scored by CBO as only costing $68 million each year. 
The demonstration proposed by H.R. 1766 is consistent with your 
committee's guidance in the fiscal year 1998 Defense 
Appropriations Act, which directed DOD to submit FEHBP test 
legislation to Congress this year.
    We believe this should not be too problematic for DOD since 
last year, in a report to Congress, Dr. Martin, who was then 
Acting Assistant Secretary of Defense for Health Affairs, 
indicated DOD would support a limited test of FEHBP 65 in non-
Prime areas. The Coalition is anxiously awaiting DOD's proposal 
but is concerned that DOD is dragging its feet in developing 
the plan.
    Timing is critical because the Office of Personnel 
Management has indicated to us that even with FEHPB 65 
legislation enacted this summer, enrollment for the 
demonstration could not begin until November, 1999, with 
implementation in January, 2000. It would be a travesty if the 
test slipped beyond that date.
    It is truly ironic that, despite their many sacrifices, 
retired service members lose their military health insurance at 
age 65. Please keep in mind that those hit hardest by Congress' 
and DOD's actions are the retirees who fought in World War II, 
Korea and Vietnam and then won the Cold War. The latter victory 
alone is saving the government many, many billion dollars in 
reduced defense spending every year. These retirees have 
already paid the premiums for equal coverage, not just in money 
but in services sacrificed, including many who paid the 
ultimate sacrifice.
    Mr. Chairman, the Coalition respectfully requests and 
strongly recommends that this Committee include funding to 
conduct a demonstration of FEHBP 65 in its markup of the 
Defense Appropriations bill.
    I thank you, again, for the opportunity to address this 
Subcommittee; and this concludes my testimony.
    Mr. Young. Commander, thank you very much; and we, I say 
again, do appreciate the position of the Coalition and the help 
that you have always given us. We recognize the difficult 
problem of getting DOD to move sometimes, but we are not the 
authorizing committees, but we are trying to use the pressure 
that we can to develop a test plan.
    Commander Torsch. We much appreciate that, sir.
    Mr. Young. Thank you again for being here.
    Commander Torsch. Thank you.
    [The statement of Commander Torsch follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

                    NATIONAL BREAST CANCER COALITION


                                WITNESS

FRANCES M. VISCO, PRESIDENT, NATIONAL BREAST CANCER COALITION

                              Introduction

    Mr. Young. I would like to introduce next Ms. Fran Visco, 
who is President of the National Breast Cancer Coalition.
    The Coalition represents 400 member organizations and more 
than 40,000 individual women, their families and friends. She 
and the Coalition have been very instrumental in making sure 
that this Committee and our colleagues in the Senate are well 
aware of the needs here, and we appreciate that very much. We 
have been able to add substantial money over the President's 
budget for this effort for breast cancer research.
    This year, the money is going to be very difficult to come 
by. I have to warn everybody of that, because we don't have the 
budget room that we had in previous years. But, anyway, Fran, 
we are always glad to see you.
    Ms. Visco. Thank you.
    Mr. Young. We are always glad to hear you. It is always 
nice to know that you are out there in the hallway during our 
markup to give us the support that we need to get this job 
done.

                         Statement of Ms. Visco

    Ms. Visco. Thank you, Mr. Chairman. Thank you, Mr. 
Cunningham.
    I want to come here today just to bring you up-to-date on 
the program and to, again, offer my thanks to you, to the 
Committee, for your ongoing support of this incredible program 
and to pledge that we will work with you in any way necessary 
to make certain that we have significant funding to continue.
    I am here once again as a breast cancer survivor and on 
behalf of the 2.6 million women living in this country with 
breast cancer and in memory of the more than a quarter of a 
million women who have died of breast cancer since this program 
began. We truly believe, and we know that you agree with us, 
that this program has brought about hope and has brought about 
scientific discoveries that means that those numbers will 
significantly change in the future.
    Over the past year, this program once again has made 
history. Last fall, the Era of Hope, Department of Defense 
breast cancer research meeting occurred here in Washington, 
D.C. For the first time ever, a major biomedical research 
program, funded with taxpayer dollars, issued a report to the 
Nation on what happened with those dollars.
    It was an unbelievable meeting. It was unbelievable not 
just because it was the first-ever report to the Nation but 
also because it was unique in that it was really a 
collaboration in partnership between women with breast cancer 
and the scientific community. I want to tell you some of what I 
heard at that meeting.
    New researchers came up to me to tell me that, because of 
this program, they think about their research differently. It 
has changed the way they do their medical research.
    Established scientists came up to me and said, why aren't 
all of our programs run like this?
    Very recently, an extremely well-known, internationally 
well-known breast cancer scientist said to me, you--meaning 
this program and the activists--have changed the way we think. 
You have brought us out of our ivory towers; you have changed 
our world.
    This program has brought about not just more money for 
breast cancer research, it hasn't just brought in new people to 
the field, but it has changed the way scientists are doing 
their research. And that has ramifications not just for me, for 
a woman with breast cancer, but for all women, all women in the 
military, all women everywhere, and all men also, because these 
scientists focus on other areas. This program has set a model.
    I also want to point out to you that, over the past year, 
the Institute of Medicine of the National Academy of Sciences 
has issued a report. They evaluated this program, and they gave 
it a four-star rating. They said the program is unbelievable 
and must continue.
    I want to thank you not just for continuing to fund the 
program but also for respecting the integrity of the program. I 
know that, working together, we have had a difficult time at 
times protecting this program and recognizing this importance 
of peer review and recognizing the unusual, incredible system 
we have set up. You have really been a leader in making certain 
that that system remains, and that is the system that has 
captured the imagination of the scientific community and of 
activists, and that is the system that has brought about 
incredible results.
    I don't think I need to take up much more of your time. You 
know how important this program is and how successful it is, 
and you know that you will hear from us and that we will 
continue to work with you to make certain this program 
continues.
    But I do want to bring you one report, and it is just an 
example of many. Very soon, there is a therapy that will be 
submitted to the Food and Drug Administration for approval, and 
that therapy will probably be made available to millions of 
women in this country. It will be a very new, unusual, first 
biologic for breast cancer treatment. That therapy is here 
because the scientists who came up with the initial discovery 
got funding from the Department of Defense Breast Cancer 
Research Program when no one else would fund him.
    That is a specific, concrete example of what we have done. 
And I have told you that the change in the scientific community 
is another example of what we have done.
    I want to thank you for working with us to bring all of 
this about. Thank you very much.
    Mr. Young. Well, Fran, we really appreciate you and the 
good work that you do; and I hope that you know that and 
believe that.
    Ms. Visco. Yes.
    Mr. Young. This is a very important crusade that we are all 
on. It is very threatening to many, many, many women in our 
country.
    Ms. Visco. Yes, I know you know that.
    Mr. Young. It is always good to see you. Thank you for 
being here again.
    Ms. Visco. Thank you.
    Mr. Young. We look forward to seeing you in the hallway 
during markup time.
    Ms. Visco. Thanks.
    [The statement of Ms. Visco follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

               AMERICAN ASSOCIATION OF NURSE ANESTHETISTS


                                WITNESS

RON VAN NEST, CRNA, ASSISTANT DIRECTOR, NURSE ANESTHESIA PROGRAM, 
    GEORGETOWN UNIVERSITY, AMERICAN ASSOCIATION OF NURSE ANESTHETISTS

                              Introduction

    Mr. Young. I would like to now welcome Ron Van Nest, the 
Assistant Director of the Nurse Anesthesia Program at 
Georgetown University. Mr. Van Nest represents 27,000 certified 
anesthetists in the United States, including 600 in the 
military services.
    Mr. Van Nest, your prepared statement will appear in the 
record; and we would like you to summarize it in your oral 
testimony.

                       Statement of Mr. Van Nest

    Mr. Van Nest. Thank you, Mr. Chairman.
    Mr. Young. Incidentally, I understand you have some of your 
students with you today; and I wanted to make the room aware of 
that.
    Mr. Van Nest. Yes, sir. Thank you very much for your 
patience in them coming in.
    Mr. Chairman, thank you for the opportunity to testify 
before this Committee today. My name is Ronald Van Nest, and I 
am a certified registered nurse anesthetist, a CRNA.
    I served in the United States Navy for 30 years, and I was 
a member of the American Association of Nurse Anesthetists 
Federal Services Committee for the last 3 of those years. At 
that time, I also held the position of Nurse Anesthesia 
Consultant to the Navy Surgeon General. I am retired from the 
Navy Nurse Corps and currently am an instructor in a Nurse 
Anesthesia Program at a local university, as you mentioned, 
Georgetown; and my students, as you mentioned, are here to 
cheer me on, I hope.
    I am testifying today on behalf of the American Association 
of Nurse Anesthetists, the AANA, which represents more than 
27,000 CRNAs, including 600 that serve in the Armed Forces.
    My testimony here today will touch on the status of CNRAs 
in the military and how effective utilization of those CRNAs 
could result in considerable cost savings for the Department of 
Defense, without any sacrifice in quality.
    First, I would like to thank this Committee for its 
continued support of the efforts of the Department of Defense 
to recruit and retain qualified nurse anesthetists. The AANA 
particularly thanks this Committee for your support of special 
pay programs for CRNAs and strongly recommends their 
continuation as an important recruitment and retention tool to 
ensure that our Federal services can meet their medical 
mission.
    CRNAs save the Department of Defense a considerable amount 
of money, without any sacrifice in quality of care. Nurse 
anesthetists, while providing the same services as physician 
anesthesiologists, are far less costly for the services to 
educate and retain. Data indicates that as many as 10 highly 
qualified CRNAs may be educated for the cost of training one 
anesthesiologist.
    It is true that cost effectiveness means nothing if the 
quality is not there, but let me stress that numerous studies 
have shown that there is no significant difference in outcomes 
between the two providers. Both providers receive similar 
training in anesthesia. One started that training as a 
physician, the other as a nurse.
    The services also spend far less in bonus money for CRNAs 
as compared to anesthesiologists. Anesthesiologists receive far 
more types and amounts of bonus money. If a nurse anesthetist 
and a physician start in the anesthesia training at the same 
time, in 8 years the nurse anesthetist will have received 
$69,000 in special pays, while the anesthesiologist will have 
received a quarter of a million dollars. The Department of 
Defense could provide even more cost-effective care with more 
appropriate utilization of its anesthesia providers.
    The three services are currently operating at most medical 
treatment facilities with approximately two CRNAs for every one 
anesthesiologist. But isn't it ironic that during World War II, 
when nurse anesthesia training was little more than 4 months, 
and mostly on-the-job training at that, that their ratio was 17 
CRNAs to one anesthesiologist? Compare that to today when 
anesthesia is far safer, with sophisticated technology and 
computerized monitors and alarms.
    With nurse anesthetists educated at the Master's Degree 
level, we find that CRNAs are being supervised and at ratios of 
2 to 1 and in some cases even one to one.
    On many military operational missions today, it is a CRNA 
that is deployed with combat units or aboard aircraft carriers 
as the sole anesthesia provider with anesthesiologist present. 
I personally served as the sole anesthesia provider for a 
population of 5,000 at our base in Keflavik, Iceland, for 2 
years; and I also served as a sole anesthesia provider on an 
aircraft carrier for 4 months. If such practice models are 
acceptable in some settings, then there is no reason they 
should not be acceptable in urban military treatment 
facilities.
    I would recommend that this Committee direct the Department 
of Defense to utilize their anesthesia providers in the most 
cost-effective manner, prohibiting strict ratio requirements 
for urban facilities that only drive up the cost and do nothing 
to enhance the quality of care.
    In conclusion, AANA thanks this Committee again for its 
support of military nurse anesthetists through the incentive 
special pay and board certification pay. AANA believes that 
more appropriate utilization of CRNAs in the military is of 
critical concern and is an area that could be examined for 
increased cost savings.
    I thank the Committee members for their consideration on 
these issues, and I will be happy to answer any of your 
questions.
    Mr. Young. Mr. Van Nest, thank you very much for being here 
with us today.
    We certainly understand--those of us who have gone through 
some more serious surgeries understand the importance of what 
it is that you do, and we appreciate your being here today. 
Thank you very much.
    Mr. Van Nest. Thank you, sir.
    Mr. Cunningham. And let me just say about the last witness, 
the only thing I disagree with, it shouldn't be just civilian. 
The nurse's role should be expanded in a lot of other areas 
besides just the one that he mentioned. Thank you.
    [The statement of Mr. Van Nest follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

                          NEW YORK UNIVERSITY


                                WITNESS

DR. PHILIP FURMANSKI, DEAN, FACULTY OF ARTS AND SCIENCE, CHAIRMAN AND 
    PROFESSOR, DEPARTMENT OF BIOLOGY, NEW YORK UNIVERSITY

                              Introduction

    Mr. Cunningham. Next we will hear from Dr. Philip 
Furmanski, Dean, Faculty of Arts and Science, New York 
University. We welcome your testimony, Doctor.

                       Statement of Mr. Furmanski

    Mr. Furmanski. Thank you, Mr. Cunningham.
    My name is Philip Furmanski, and I am speaking on behalf of 
New York University as Dean of its Faculty of Arts and Science.
    I appreciate very much this opportunity to discuss with you 
an initiative which addresses national goals for enlisting 
university-based scientific research to catalyze technologic 
innovation and strengthen national defense and military 
preparedness. Our project will advance national security 
interests through enhanced scientific understanding of brain 
development and activity.
    We believe that a national investment into research on the 
mind and brain will repay itself many times over. To put my 
remarks into a larger context, I would like to thank this 
committee for its recognition that broad-based university 
research over the years has been one of the cornerstones of our 
national security efforts.
    Research support provided by the Department of Defense has 
been crucial to advancing new discoveries on campus with 
important military and civilian applications.
    For example, by its investment in research into computers, 
communications and networking technology, the Department has 
spurred the development of an entire civilian industry 
generating millions of jobs and billions of tax dollars.
    I would like today to present to you another possible 
investment by the Department into research that will push the 
frontiers of understanding of how the brain develops and 
functions and how we can enhance our ability to learn, think, 
remember and work as productive members of society.
    At NYU, we are undertaking to do this by establishing a 
Center for Cognition, Learning, Emotion and Memory Studies. 
This Center will not only carry out research but will also act 
to help train the next generation of interdisciplinary brain 
scientists. Research in this Center will substantially expand 
what we know about the neurodynamics of learning and memory; 
the brain's perception, its acquisition and storage of 
information; the neurobiology of fear and its impact on 
learning and performance; and information processing in the 
brain and, by extension, in computers and other machines.
    These studies will have enormous applications in the 
training and performance of military personnel and for the 
development of new technologies.
    As one example, our research has implications for 
instruction, including those in the military, in the classroom, 
as well as in hands-on use of sophisticated machinery and 
weaponry. The more we know about how peopleprocess and retain 
information, the better we can design such training programs and target 
them to individuals with different levels of preparedness.
    Our research can identify different learning styles and 
suggest how instruction can accommodate those styles and how 
learning technologies and simulated learning environments can 
be harnessed to improve motivation and increase retention and 
memory.
    Second, our neurological research on emotion has 
implications for improving performance under the high-stress 
conditions that characterize military operations. Our research 
in the neurobiology of fear is examining the brain systems that 
malfunction, for example, in anxiety phobias, panic attacks and 
post-traumatic stress disorders. These studies will help us 
understand the source of fear and other emotions, how they are 
triggered by circumstance, why they are hard to control, and of 
the greatest practical importance, how emotions can 
incapacitate, undermine attentiveness and weaken memory. 
Ultimately, our research will generate clues for preventing and 
treating emotional disorders on a very broad and wide scale.
    Finally, our vision psychologists and computer vision 
researchers are working together to investigate intelligence 
and information processing in neural systems and in their 
machine analogues in the computer data imaging, processing and 
retrieval areas.
    These kinds of studies have far-reaching implications, 
first, for our understanding in improving the human capacity to 
perceive and respond to visual cues; and, second, for 
developing computer technologies to process and monitor large 
displays of information which obviously have implications in 
the military and in civilian areas as well.
    To establish this interdisciplinary Center, NYU is seeking 
support to expand research programs, attract investigators from 
the disparate disciplines that are required and provide the 
technical resources necessary to create a premier, world-class 
scientific enterprise.
    As you know, traditional funding sources cannot underwrite 
the establishment of a cross-disciplinary area of scientific 
study, particularly one that includes research and teaching and 
reaches across the fields so disparate as computer science, 
cognitive science, biomedicine, psychology and education.
    New York University is well positioned to create and 
operate this major national cross-disciplinary research and 
training center. The largest private university in the United 
States, with over 49,000 students and 13 schools, NYU has 
outstanding researchers and well-established strengths in 
neurobiology, cognitive science, neuromagnetism, behavioral 
science, mathematics, computer science, educational psychology 
and the like. With these strengths, NYU will create a 
distinctive center that will produce a new understanding of the 
brain and new ways of using that knowledge to meet our national 
goals.
    Our faculty are already widely recognized for their 
research on memory, learning and motivation. NYU is 
internationally known for its studies in vision, a key input to 
learning; and NYU is the leader in new studies on the 
neurobiology of emotion and its connections to learning, memory 
and perception.
    Parenthetically, I should say that much of this work has 
been featured very prominently in media venues such as the New 
York Times, Time Magazine and the networks.
    As we complete what has been called the Decade of the 
Brain, NYU, through this new center, is poised for leadership 
in accomplishing the aims of this important initiative and the 
goals central to this Committee's priorities.
    NYU is in a special position among universities to bring 
these strengths in so many very different disciplines together 
to attack these crucial issues and then to disseminate the 
results for the benefit of the American people.
    I know, Mr. Cunningham, that many members of this Committee 
have played a leading role in supporting brain research and 
related issues concerning education, their application to 
children, as well as those aspects that relate to the military; 
and, for that, I would like to express my very deep 
appreciation, both as a university administrator and as a 
scientist myself.
    Mr. Cunningham, this concludes my testimony. I thank you 
for the opportunity to appear before you today.
    Mr. Cunningham. Thank you, Doctor. You need to have me 
testify before your hospital and your university. This tape has 
some 36 Surface-to-Air Missiles--SAMS fired at me while engaged 
with 22 MiGs. Fear has an advantage by forcing the mind to 
work, but uncontrolled fear makes you vulnerable.
    Those studies are very worthwhile, and I thank you for your 
testimony.
    Mr. Furmanski. Thank you very much. Thank you.
    Mr. Cunningham. I just got this tape the day before 
yesterday, and it makes the hair on my neck stand up.
    Mr. Furmanski. I imagine so.
    [The statement of Mr. Furmanski follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

                   NATIONAL PROSTATE CANCER COALITION


                                WITNESS

JAY H. HEDLUND, PRESIDENT AND CEO, THE NATIONAL PROSTATE CANCER 
    COALITION

                              Introduction

    Mr. Cunningham. Our next witness, the National Prostate 
Cancer Coalition, Jay Hedlund, President. Mr. Hedlund.

                        Statement of Mr. Hedlund

    Mr. Hedlund. Mr. Cunningham, thank you for the opportunity 
to be here today.
    I am Jay Hedlund, President of the National Prostate Cancer 
Coalition, a nationwide grass-roots advocacy organization 
dedicated to the mission of ending prostate cancer as a serious 
health concern for men and their families.
    In addition to individual survivors, family members, 
researchers, medical professionals, the National Prostate 
Cancer Coalition members include the American Cancer Society, 
the American Foundation of Urologic Disease, CaP CURE, national 
survivor support groups like US TOO International, Man to Man 
and PAACT, and numerous State and local survivor groups.
    A fundamental objective of the Coalition is to increase 
Federal funding for prostate cancer research commensurate with 
the terrible impact of this deadly disease.
    I am pleased to have the opportunity to provide testimony 
in support of the prostate cancer research programs conducted 
by the U.S. Army Medical Research and Materiel Command at Ft. 
Detrick and the U.S. Army Center for Prostate Disease Research 
at Walter Reed Army Medical Center. And on behalf of the more 
than one million American men who are living with their 
diagnosis of prostate cancer, and their families, I want to 
thank this Committee for the terrific leadership that it has 
given to the effort to fund basic and clinical research into 
prostate cancer.
    The commitment of this Committee to fund prostate cancer 
research has given important new momentum to the drive to find 
a cure for this epidemic, which we firmly believe research can 
and will do.
    I know that prostate cancer has touched this institution 
and the Appropriations Committee. Former members Silvio Conte 
and George O'Brien died of prostate cancer, Dean Gallo as well. 
His wife Betty, who appeared before you earlier today, is a 
member of the National Prostate Cancer Coalition Board and a 
tireless advocate for prostate cancer research.
    Fortunately, a number of other members of the institution 
on the House and Senate side who have been touched by the 
disease have had much better outcomes from their treatment, and 
that is what we want to see for many more Americans as well.
    We urge the Committee to substantially increase the 
commitment they have made to prostate cancer in the last 2 
years, in fiscal 1997 and 1998, with the establishment of the 
new program at Ft. Detrick.
    Prostate cancer has been left behind for too long to the 
terrible impact on millions of Americans. Annually, more 
Americans are diagnosed with prostate cancer than with any 
other nonskin cancer. Last year, 209,000 Americans were 
diagnosed with prostate cancer; and 41,800 American men died of 
prostate cancer. Prostate cancer is the second leading cause of 
cancer death among American men, just behind lung cancer. 
African Americans have the highest prostate cancer incident 
rates in the world, and their mortality rates are double that 
of Caucasian men.
    Mr. Chairman, Mr. Cunningham, prostate cancer comprises 
more than 15 percent of all nonskin cancer cases that are 
diagnosed but receives less than 4 percent of the Federal 
research funds, cancer research funds.
    I would like to make three brief points regarding the DOD's 
involvement with prostate cancer research, particularly to 
focus on the peer review program at Ft. Detrick, although we 
strongly support the terrific program that is run by Colonel 
David McLeod at Walter Reed as well.
    First, the appropriation of $45 million each year in fiscal 
years 1997 and 1998, through the work of this subcommittee, 
although relatively modest, served to increase by more than 50 
percent the total Federal commitment to prostate cancer 
research. This has come at a critical time when momentum has 
been building in the----
    Mr. Cunningham. I am sorry to interrupt you, but if you 
could hold, I have got 1 minute to make this vote.
    Mr. Hedlund. Okay. I don't want you to miss that vote.
    Mr. Cunningham. The Chairman is not back yet. He will let 
you continue.
    Mr. Hedlund. I would be glad to. Don't miss a vote, 
absolutely.
    Mr. Cunningham. All right.
    Mr. Young. Mr. Hedlund, why don't you go ahead and proceed.
    Mr. Hedlund. Okay, Mr. Chairman. Thank you.
    I won't go over the earlier part of my testimony, but I 
wanted to express the regards of our Chairman, Bob Samuels, 
from the Tampa Bay area, who you know and who is very 
appreciative of the leadership that you and this Committee have 
given to prostate cancer.
    I wanted to make three points regarding the DOD's 
involvement in prostate cancer, particularly focusing on the 
new peer review program at Ft. Detrick, although in no way--I 
very much want to stress how important we think the quality 
work is that is being done by Colonel David McLeod over at 
Walter Reed as well and don't want to neglect that program.
    But, first, the appropriation of $45 million both in fiscal 
years 1997 and 1998 through the work of this subcommittee, 
although relatively modest, served to increase by more than 50 
percent the total Federal research commitment to prostate 
cancer.
    This has come at a critical time when important research 
funded by outside organizations, like CaP CURE, the American 
Cancer Society, the American Foundation of Urologic Disease and 
others, as well as research at the National Institutes of 
Health, have built important momentum in the area of prostate 
cancer research. That momentum, we believe, must be sustained 
by the commitment of significant public resources if we are 
going to achieve the needed breakthroughs in diagnosis, 
treatment, cure and prevention of prostate cancer.
    This Committee has also given important leadership in the 
effort to accelerate the time period from appropriation to 
distribution of research money to scientists. With the help of 
this Committee, the Ft. Detrick program has expedited the 
fiscal year 1997 schedule by several months and will award 
initial grants, we understand, in the next 4 to 6 weeks. They 
will use some of the fiscal year 1998 appropriations to fund 
grant proposals received in the fiscal year 1997 cycle and will 
cut in half the time taken from the fiscal year 1997 cycle for 
the schedule--for the--between the receipt in appropriations 
and distribution of scientists for the fiscal year 1999 money.
    We think that both General Blanck and Colonel Rich and 
their colleagues have been very responsive in this regard in 
accelerating the program without sacrificing quality of 
performance.
    Second, we believe--the NPCC believes that the highly 
focused, goal-directed program of basic and clinical research 
into prostate cancer was very much needed, and that the peer 
review program at Ft. Detrick in its first year has proven that 
it will make a substantial contribution to fight to find a 
cure.
    I was just very struck by the terrific testimony that Fran 
Visco gave earlier of the terrific progress that has been made 
in the breast cancer program up at Ft. Detrick, and we see that 
this program is being built in the model of that program and 
can have the same kind of substantial impact that that program 
has had.
    The broad agency announcement that they issued really drew 
in a large number of quality proposals. It gives evidence that 
the program will attract new researchers into the field. Their 
streamlined approach at getting research dollars into the field 
will enable them to nimbly build on some of the breakthroughs 
and some of the exciting research areas that are coming. We 
believe that, with a continuing commitment of resources, that 
they will make a substantial contribution in the comprehensive 
research fight against prostate cancer.
    Finally, we believe that they are positioned well to add 
significantly to what is going on in prostate cancer research. 
About a year, a year and a half ago, the National Prostate 
Cancer Coalition gathered scientists and researchers to develop 
an agenda of prostate cancer research; and they identified more 
than $250 million of worthwhile prostate cancer research 
projects that were going unfunded in 1997 simply due to lack of 
public or private funds. We believe that the peer review 
program at Ft. Detrick is really going to--has a promise of 
filling a tremendous research need that exists in the prostate 
cancer world to help us find a cure.
    In sum, the Ft. Detrick program has attracted quality 
proposals, has only been able to fund a fraction of those 
through the fiscal year 1997 appropriation. It is structured in 
a way that will be attractive to the most innovative 
researchers who are making exciting progress in finding 
breakthroughs for prostate cancer. We believe that Colonel Rich 
has built a strong and promising program that deserves a 
substantial increase in its appropriation for fiscal year 1999; 
and, along with the program that Colonel McLeod has at Walter 
Reed, we strongly urge this Committee to do whatever it can to 
substantially increase its commitment to prostate cancer for 
fiscal year 1999.
    Saying that, I fundamentally want to thank the leadership 
of this Committee for giving great hope and tangible benefits 
to the millions of Americans whose lives are touched by 
prostate cancer.
    Mr. Young. Thank you very much for your statement, sir. We 
appreciate your being here today. You know of our concern about 
the issues that you have mentioned.
    Mr. Hedlund. Thank you very much.
    [The statement of Mr. Hedlund follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

                          UNIVERSITY OF MIAMI


                                WITNESS

CYRUS M. JOLLIVETTE, VICE PRESIDENT FOR GOVERNMENT RELATIONS, 
    UNIVERSITY OF MIAMI

                              Introduction

    Mr. Young. I would like to introduce next Mr. Cyrus 
Jollivette, who is the Vice President of Government Relations 
at the University of Miami.
    In his prepared statement, Cyrus requests funding for 
several projects, including the Navy's Atlantic test range and 
oceanographic research vessel and the University's high-
priority Cancer Prevention, Control and Treatment Initiatives.
    Cyrus, that statement becomes a part of our record; and we 
would like you to proceed with your oral testimony.

                      Statement of Mr. Jollivette

    Mr. Jollivette. Thank you, Mr. Chairman.
    Mr. Young. It is always good to see you.
    Mr. Jollivette. It is good to see you too, Mr. Chairman. 
Mr. Cunningham, also.
    Thank you very much for allowing me to appear before you 
today on behalf of my colleagues at the University of Miami.
    As you indicated, Mr. Chairman, we have included in our 
earlier statement a request for support of four initiatives 
that come within the purview of this Committee: first, the 
South Florida Ocean Measurements Center in coordination with 
the Navy, Florida Atlantic University and NOVA university; 
next, support for a request that is coming from the University 
of Southern Mississippi for a new fishery, oceanography 
research ship for research programs in the Southeast, 
Mississippi and Texas; continuation of funding for the North-
South Center; and, finally, support for the University of 
Miami's Cancer Prevention, Control and Treatment Initiatives.
    I would like to talk about the Ocean Measurements Center 
first and the unique partnership that exists between academic 
scientists from three Florida universities and the Navy, which 
provides the opportunity to meet the significant need for 
science and technology development efforts in the near shore 
environment.
    The Navy test range in Florida is a unique location in that 
it is the nearest approach of the continental shelf to the 
shore along the entire Atlantic seaboard. Our scientists and 
ocean engineers are increasing their understanding of the near 
shore acoustic environment and pursuing development of AUV 
sonar and other related technologies.
    We ask that you provide $2.75 million to continue this 
private program in fiscal year 1999. My colleagues and I are 
convinced that this consistently funded, long-term partnership 
provides the best benefit to the Navy and the scientific 
community.
    Second, we respectfully urge you to fund the proposal put 
forward by the Institute of Marine Scientists at the University 
of Southern Mississippi for the construction of a Class III 
research ship for the southeastern U.S., Mississippi and Texas. 
A Class III ship, as you know, is approximately 190 feet in 
length. We agree that a new fisher-oceanography research ship, 
with the capability to conduct complex, interdisciplinary 
research in the shallow water regions of the Gulf Coast and the 
Intra-America Sea, is vital to support our academic research 
programs.
    The existing Southeast Consortium for Oceanographic 
Research, known as SECOR, would operate the ship as a part of 
the UNOLS fleet; and UNOLS does support this arrangement that 
provides dock-side facilities in Texas and Florida and 
coordinates instrumentation use and marine technician support 
among the SECOR members. SECOR members now include three of the 
ship-operations institutions in the Southeast and the Gulf, the 
University of Miami, the University of Texas and Texas A&M. The 
University of Southern Mississippi will be added very soon.
    My colleagues and I believe strongly that only through 
resource sharing can we effectively manage costly ship 
operations. Support of this project will benefit all academic 
institutions in the southeastern U.S. and the Gulf of Mexico.
    Now, about the North-South Center at the University of 
Miami. Its mission is to promote better relations and to serve 
as a catalyst for change among the United States, Canada and 
the nations of Latin America and the Caribbean. Our goal is to 
find viable solutions to the problems confronting the nations 
of the Western Hemisphere.
    In the last decade, the North-South Center has been engaged 
in promoting and sponsoring research and dialogue on inter-
American security issues. Among other issues, the Center has 
conducted an extensive research program on drug trafficking in 
the hemisphere, studied and promoted dialogue on the crisis in 
Cuba, Panama and Haiti and has engaged in research in civil 
military relations, conflict resolution and security 
cooperation.
    The relocation of the U.S. Southern Command to Miami has 
afforded an enhanced role for the North-South Center in 
security issues. My colleagues have figured prominently in 
discussions of the future of civil-military relations in the 
hemisphere. Our Center is committed to advancing the state of 
security cooperation in the Americas. It serves as a bridge 
between government officials, dedicated to enhancing regional 
security, and academic and other civil society experts who have 
devoted their professional lives to analyzing the hemisphere's 
critical security issues.
    Finally, Mr. Chairman, let me turn to health matters and 
the University's focus on cancer. The disease does not spare 
anyone based upon age, sex, ethnic background or socioeconomic 
status. We know that basic research will eventually lead to the 
causes and hopefully cures of this dreaded disease. However, 
research already has given us the tools for prevention and 
early detection that will reduce the suffering until cures can 
be found.
    My colleagues at the University School of Medicine seek to 
apply these tools in a variety of settings for prevention, 
control and treatment, especially in multiethnic, diverse 
minority populations.
    This translational approach to biomedical research, that 
is, applying the basic scientific knowledge we have already 
gained to populations in clinical settings, is a key component 
of our research at the University of Miami. By applying this 
knowledge, we can reduce the morbidity, mortality and improve 
the quality of life for all. We are convinced our special 
expertise in this area, in pediatric cancer, in breast cancer, 
in prostate cancer and other areas referred to will greatly 
assist the Department of Defense.
    Again, Mr. Chairman, I thank you for the opportunity to 
appear today. My colleagues and I hope it won't be difficult 
for you to fund these initiatives in what is a difficult budget 
year.
    Thank you.
    Mr. Young. Thank you very much. We always appreciate the 
dialogue that we have with you and the good work that is done 
at the university.
    Mr. Jollivette. Thank you very much. We appreciate your 
confidence and support.
    [The statement of Mr. Jollivette follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

                LOVELACE RESPIRATORY RESEARCH INSTITUTE


                                WITNESS

JOE L. MAUDERLY, SENIOR SCIENTIST AND DIRECTOR OF EXTERNAL AFFAIRS, THE 
    LOVELACE RESPIRATORY RESEARCH INSTITUTE

                              Introduction

    Mr. Young. I would like to now welcome Dr. Joe Mauderly of 
the Lovelace Respiratory Research Institute from Albuquerque, 
New Mexico. The Institute currently performs some work for the 
Air Force and the Army, as well as a number of other Federal 
agencies.
    Doctor, your entire statement will be placed in the record; 
and I would ask that you summarize it at this point.

                       Statement of Mr. Mauderly

    Mr. Mauderly. Thank you, Mr. Chairman.
    I would like to discuss how our Institute can meet some 
important existing needs of the Department of Defense, as well 
as our support in the past.
    Lovelace is an independent, nonprofit institute in 
Albuquerque, New Mexico, conducting research on respiratory 
disease and risk from inhaled toxic materials in the workplace 
and the environment. Lovelace also leases the privatized 
government-owned inhalation toxicology research facility on 
Kirkland Air Force Base in Albuquerque, which is the Nation's 
best-equipped facility for studies of inhaled materials.
    Lovelace has a track record of supporting the Department of 
Defense. It produced much of the information that placed the 
health risk of nuclear weapons production and deployment in 
their proper context and by virtue of that helped to win the 
Cold War.
    Lovelace is working to place our understanding of illnesses 
potentially related to Gulf War activities on a stronger 
scientific basis than it often has been in the past.
    Together with Sandia National Laboratories, we are 
developing methods for the remote detection of airborne 
biological agents. We are working with another company on a new 
plasma technology for destroying chemical and biological agents 
without air contamination, which has been an important problem. 
We are also determining the toxicity of depleted uranium 
fragments from armor-piercing munitions.
    Now Lovelace proposes to work with the Department to meet 
its research needs in four specific areas that I would like to 
discuss briefly.
    The first is establishing a cooperative agreement for 
conducting toxicological research. It is becoming increasingly 
apparent to both Lovelace and the Army in particular, also 
other services, that the Institute is well-matched to a number 
of current research needs, a spectrum of needs, particularly in 
the toxicology area. Lovelace seeks a cooperative agreement 
with the Department to facilitate the conduct of this work in a 
cost-effective manner.
    The second area is using the National Environmental 
Respiratory Center to address the Department's concern for the 
inhalation of multiple air contaminants. Now the health risks 
of breathing multiple air contaminants and pollutant mixtures 
is a difficult issue that until now has received very little 
attention. The Department needs to understand these risks from 
inhaling mixtures of air contaminants, from sequential 
exposures to various air contaminants and from combinations of 
occupational exposures and nonoccupational exposures such as 
cigarette smoke.
    The National Environmental Respiratory Center is being 
established this year at Lovelace by EPA to address the health 
risk of mixtures and combined exposures to inhaled materials. 
Lovelace proposes that the Department participate in this 
activity to meet information needs specific to its issues, as 
well as the environmental issues of concern to EPA.
    The third area is in the reduction of chemical and 
biological threats. The development of new technologies to 
reduce these important threats requires multidisciplinary 
research. Better detection and countermeasures will require 
integrated research involving electronics, chemistry, aerosols, 
lung injury and infectious disease.
    Now, no single institution is expert in all of these 
fields. However, together, Lovelace, Sandia National 
Laboratories and the University of New Mexico are expert in all 
of these areas; and they propose to work together to develop 
new ways to deal with these threats. The focus of this work 
would be on remote detection of airborne agents, personnel 
protection, threat neutralization and treatment of affected 
individuals.
    The final area is improved treatment of disabling 
respiratory diseases. As you have heard this morning, the 
Department has military employees and civilian workers with 
many kinds of disabling diseases, including lung diseases. 
Those destructive respiratory diseases, such as severe 
emphysema, have been thought to be incurable; and treatment 
consists just largely of trying to maintain quality of life for 
the patients.
    Other diseases, such as lung cancer, are possible to cure 
in some instances but are usually fatal; and more than twice as 
many women will die of lung cancer this year as breast cancer; 
more than twice as many men will die of lung cancer this year 
than prostate cancer.
    Together with its Senior Fellows that it supports in other 
institutions, Lovelace is now making breakthroughs in the 
treatment and cure of these intractable diseases. A remarkable 
example is the work of Lovelace Fellows Drs. Don and Gloria 
Massaro at Georgetown University Medical School, who have now 
produced results suggesting that emphysema might actually be 
reversed by treatment with analogues of Vitamin A; and this has 
been done in animals at this time.
    Another example of our work is to deliver anti-cancer drugs 
directly to the lung and airway surfaces by inhalation, a route 
that has not yet been used. Supporting research aimed at 
treating and potentially curing disabling respiratory disease 
is well within the scope of the Department's health concerns.
    I thank you again for the opportunity to present this 
information.
    Mr. Young. Doctor, thank you very much.
    I know that Mr. Skeen will be pleased to read your 
testimony. He is very interested in the work in Albuquerque and 
all of New Mexico. Thank you for being here.
    Mr. Mauderly. Thank you.
    [The statement of Mr. Mauderly follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

                         JOSLIN DIABETES CENTER


                                WITNESS

KENNETH E. QUICKEL, JR., M.D., PRESIDENT, JOSLIN DIABETES CENTER

                              Introduction

    Mr. Young. Mr. Nethercutt, Dr. Quickel is our next witness.
    Mr. Nethercutt. The Committee welcomes Dr. Kenneth Quickel, 
President of the Joslin Diabetes Center of Boston, 
Massachusetts. His center participates in a joint VA/DOD 
diabetes research project.
    I am certainly well aware of what you do, Doctor, and 
certainly welcome you here today. I have a special interest in 
diabetes and have been delighted to have a chance to work with 
you. Your prepared statement will be made a part of the record, 
and we are happy to have you summarize your testimony at this 
time.

                        Statement of Dr. Quickel

    Dr. Quickel. Thank you, Mr. Nethercutt. I want to record 
our sincere thanks to the chairman and the entire Committee and 
especially to you for your support of a fairly unique 
partnership that we are endeavoring to establish with the 
Department of Defense and the VA system, with your help.
    The Joslin demonstration project will Institute some pilot 
programs for the detection of diabetes, the prevention of it 
and the care of people with diabetes in two regions, first in 
Hawaii through the Tripler Army Medical Center and the second 
in Boston's VA hospitals.
    The project has a very strong emphasis on telemedicine and 
computer-based care of individuals with diabetes, and these 
strategies fit very well with the military's and VA's 
distributed systems, which depend on those technologies. So 
there is a unique and excellent marriage between what we can 
bring to the table and what they need, and their patient base.
    We at Joslin want to thank you and the Committee for your 
support.
    I have two objectives today. The first is to give you a 
little brief status report on the status of the project and the 
second is to focus on next year's funding of the project.
    There are two objectives in the project. The first is a 
screening for diabetes among Department of Defense and VA 
personnel and patients, and the second is to implement 
strategies to improve diabetes care in the Department of 
Defense and the VA system in New England and Hawaii.
    We have now reached an understanding, with the excellent 
support of personnel that we have come to know in the 
Department of Defense and the VA system, concerning how to 
establish a work plan, how to put the systems in place as we 
had intended over this coming year.
    By September, we will have completed a phase 1 setup and 
validation stage and a phase 2 implementation of the broad 
program in the VA hospitals in New England. We are well along 
the way to accomplishing that now.
    By September, we also will have completed the phase 1 setup 
and validation at Tripler and be prepared to implement 
subsequently there. And also by September, we will have 
accessed--deployed equipment and staffing in three remote sites 
selected throughout New England, which will then feed into the 
VA system. And later we will do the same thing in Hawaii and in 
the Pacific.
    In year 2, what we intend to do is to accomplish several 
objectives. The first is to begin actually providing care to 
people with diabetes that feed into those two regions, the VA 
and the military, in Boston and in Honolulu. The second is to 
begin to screen for diabetes broadly throughout those regions, 
using some unique strategies that we have developed. And the 
third is that over that period of time we will endeavor to 
improve the metabolic control of individuals throughout the 
regions that we serve. Subsequently, of course, we hope to 
spread beyond that.
    Mr. Nethercutt. Doctor, let me interrupt you, if you would, 
and ask you, what are the techniques----
    Dr. Quickel. Sure.
    Mr. Nethercutt [continuing]. Very briefly, of screening 
that you have developed?
    Dr. Quickel. Well, the first technique is the use of a 
light source to actually shine into the pupil of the eye, and 
by measuring refraction of light that uniquely occurs in people 
with diabetes, you can actually screen for the presence of 
diabetes without drawing blood. It is a totally unique 
strategy. And the advantage of that is that you can do it in 
large numbers of people. You can do it in a drugstore. You can 
do it extremely simply without having to handle bloods and draw 
bloods.
    The second strategy is to image--to obtain a digital image 
of the back of the eye so we can screen for the leading cause 
of blindness in diabetes. And the third strategy is a computer-
based method of instructing individuals with diabetes how to 
care for themselves and provide support for their care. So you 
can create a broad program to do all of those things.
    Mr. Nethercutt. Is the eye screening, example number one, 
available today? Or is that something you will be developing 
over the next few years?
    Dr. Quickel. It is live and working today. And we are 
presently, as I speak, transmitting images from Chinatown in 
Boston to our center across on the other side of town. What we 
want to do is to take it out to broader areas, because we think 
it is a strategy that is ideally adapted to telemedicine across 
the Pacific or throughout New England or in any other widely 
dispersed area.
    Mr. Nethercutt. That's great. Forgive me for interrupting. 
I appreciate having that for the record.
    Dr. Quickel. That is all right.
    To date, we have spent about $1.5 million on this phase of 
the project and have not yet been able to free up the 
appropriated funds from the Department of Defense. And this has 
been a particular challenge for a tax exempt organization and 
for me, who has to face a board periodically and justify those 
expenditures.
    We were not, frankly, aware that at each stage as the money 
came out it would get a little bit peeled off to support the 
development activities of other agencies. And as a result we 
will, over the next 2 years, probably have made unexpected 
assessments within the Department of Defense and the VA system 
of about $2 million, that will not actually pay for the system 
to go into place.
    The $4 million budget we submitted last year is probably 
going to result in about $3 million of funding for the project 
and it was fairly bare bones. With the support of the 
Department of Defense and especially the Army, we are 
submitting a request for next year of $6.4 million in order to 
be able to cover those unanticipated losses and be able to 
accomplish the goals that I have outlined here today.
    Once again, I think we have a wonderful opportunity for a 
unique partnership between what essentially is a private 
research institution and a large Federal agency that marries 
what we can do and what they need uniquely, and if we can do it 
well perhaps we can benefit people even beyond the Department 
of Defense.
    Thank you very much for allowing us to testify.
    Mr. Nethercutt. Well, thank you very much for your 
testimony. And Joslin does wonderful work and I certainly thank 
you for your dedication to this project and also your work to 
help improve human health. Thank you very much.
    Dr. Quickel. Thank you.
    [The statement of Dr. Quickel follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

     FEDERATION OF BEHAVIORAL, PSYCHOLOGICAL AND COGNITIVE SCIENCES


                                WITNESS

DAVID JOHNSON, PH.D., EXECUTIVE DIRECTOR, FEDERATION OF BEHAVIORAL, 
    PSYCHOLOGICAL AND COGNITIVE SCIENCES

                              Introduction

    Mr. Nethercutt. Our next witness is Dr. David Johnson, 
Executive Director of the Federation of Behavioral, 
Psychological and Cognitive Sciences. Dr. Johnson's group 
represents 17 scientific societies and some 150 university 
graduate departments.
    Your prepared statement will appear in the record, sir, and 
you may summarize it at this time. Thanks for being here.

                        Statement of Dr. Johnson

    Dr. Johnson. Thank you, Mr. Nethercutt.
    Normally when I speak to the Subcommittee about--when I 
speak before this Subcommittee, I am coming to talk about the 
basic or 6.1 behavioral research budget. But I am going to 
spend most of my time today on a proposed cut to applied and 
advanced development or 6.2 and 6.3 research, and I am going to 
talk about that because those cuts would destroy the behavioral 
research program at the Air Force.
    Most applied and advanced development work on manpower, 
personnel and training is managed by the Armstrong Lab at 
Brooks Air Force Base in San Antonio. Behavioral research and 
development--R&D there is funded this year at $11 million. The 
1999 budget request would reduce funding to $3 million. That 
will kill the program.
    If 6.2 and 6.3, that is, the development of research into 
products, goes by the wayside, the 6.1 program will quickly 
follow suit since it will be left as the front end of a 
pipeline that doesn't lead anywhere.
    If the Air Force abandons human performance research, what 
will it lose? It will lose its ability to adapt personnel to 
new skill requirements; to maintain readiness in the face of an 
increasingly diverse personnel pool; to maintain strength and 
quality while continuing to downsize; to incorporate usability 
planning into new system designs; and to meet the increasing 
demand for distributed training. It will even lose its ability 
to adapt its personnel to the changing nature of warfare. That 
is really pretty fundamental and it is a lot to lose.
    The handicap this R&D faces under the current pressure to 
cut research is that the service it provides is to the whole 
Air Force, indeed in many cases to the whole of the Armed 
Services. That means in practicality that no one owns it in the 
way that each major command knows in detail what hardware 
development it must have.
    In contrast, the commands understand the importance of 
behavioral research only when something goes wrong. For 
example, the military, NASA and the FAA are partners in a 
massive modernization of air traffic control terminals. Human 
factors were not taken adequately into account in the early 
planning of the terminals with the result that air traffic 
controllers found they couldn't use the new terminals. That has 
prompted costly retrofits that could have been avoided if human 
factors research knowledge had been incorporated in the initial 
design.
    We are strongly urging this Committee to stop the 
devastation of the Air Force manpower, personnel and training 
R&D program. We ask this Committee to recommend explicitly a 
funding level of $11 million for the behavioral research 
programs of the Armstrong Lab. We ask you, in addition, to 
support the administration's request for $12.567 million for 
6.1 behavioral research at the Air Force.
    Let me turn briefly to the behavioral research budgets of 
the Army and the Navy. Both of these budgets are also under 
stress. And I want to thank this Committee for its role last 
year in saving the Army Research Institute--ARI. Congress 
appropriated $21 million for those programs for fiscal 1998. 
Unfortunately, to date I understand ARI has received only $13 
million of this appropriation, and that is severely impacting 
the flow of research. The request for next year, $16.7 million, 
is a large cut from the appropriated fiscal year 1998 amount. 
We ask the Committee to maintain ARI at $21 million, its 
appropriated fiscal year 1998 level.
    We also ask that the Committee support the administration 
request of $49.69 million for the 6.1, 6.2 and 6.3 behavioral 
and bioengineering programs at the Office of Naval Research.
    In closing, however, it is important to mention that ONR, 
ARI and AFOSR budgets have been severely impacted by 
withholding of significant amounts of funds to help pay for 
unbudgeted nonresearch costs such as the cost of supporting our 
current efforts in the Persian Gulf. Those unanticipated cuts, 
amounting to 15 percent in the current fiscal year for 
behavioral research at ONR, wreak havoc with research programs. 
We hope that the Committee will continue working to improve our 
means of responding to unplanned costly events like the Persian 
Gulf and Bosnia.
    Thank you for the opportunity to testify.
    Mr. Nethercutt. Thank you very much Doctor. We will do the 
best we can and we appreciate you being here to testify.
    Dr. Johnson. Thank you.
    [The statement of Dr. Johnson follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

                   AMERICAN PSYCHOLOGICAL ASSOCIATION


                                WITNESS

WILLIAM STRICKLAND, PH.D., AMERICAN PSYCHOLOGICAL ASSOCIATION

                              Introduction

    Mr. Nethercutt. The Committee now welcomes Dr. William 
Strickland of the American Psychological Association. Dr. 
Strickland is also a graduate of the Air Force Academy. I was 
particularly interested in the portion of your prepared 
statement, Doctor, which points out that the Air Force loses a 
fighter squadron a year through accidents, 80 percent of which 
involve human error.
    You also say this happens not because we don't have the 
world's best pilots but because we have allowed hardware and 
software to get too far ahead of human ware.
    We all know the next generation systems are going to be 
even more challenging than those we fly now, so we are 
interested in your views on where we go in the future. So I am 
happy to tell you your prepared statement will be made a part 
of the record and you may summarize it as best you can.

                      Statement of Dr. Strickland

    Dr. Strickland. Thank you, Mr. Nethercutt.
    Mr. Nethercutt. Yes, sir.
    Dr. Strickland. As you say, I am representing today the 
American Psychological Association, a professional and 
scientific organization of 155,000 people, many of whom conduct 
behavioral research relevant to the military.
    This statement addresses two main issues, the continuing 
need to invest in psychological research in the Department of 
Defense and the particular need to sustain support for the 
human systems programs in the Air Force.
    Our military is facing a host of new challenges. Our forces 
are downsizing, women are playing an increasingly prominent 
role and constant deployments have become a way of life. Modern 
weapons systems and the availability of information technology 
have dramatically changed the way our forces fight. What hasn't 
changed is that success still depends on people, at every level 
in every unit.
    Behavioral research answers questions at the heart of 
military operations. Who should be recruited? How should they 
be selected and assigned? What job should they be trained for? 
How should they be trained? How can they maintain their skills? 
What should the human system interface look like? How should 
systems be operated for maximum efficiency, effectiveness and 
safety?
    Answering these questions requires serious investment in 
behavioral research, and currently that investment is 
appalling. Personnel and training costs account for one-third 
of DOD's total budget, yet DOD invests less than 1 percent of 
its science and technology budget in personnel and training 
research. For every $4 we spend on equipment, we spend a dollar 
in R&D to make it better. For every $4 we spend on people, we 
invest less than 3 cents to do the same task.
    APA supports the DOD request for $12.6 million for Air 
Force basic behavioral research. We are very concerned, 
however, about the significant cuts you just heard about that 
are proposed for behavioral 6.2 and 6.3 R&D at Brooks Air Force 
Base. The FY 99 request would reduce the development side of 
behavioral R&D from $11 million to $3 million. Product 
development in the behavioral research pipeline will be 
eliminated.
    What does the Air Force get for its modest current 
investment? The answer is, essential tools that will allow the 
Air Force to operate effectively with fewer people, with 
changing and complex technical jobs in a rapidly changing 
environment.
    Answers to tomorrow's critical questions, who should be 
trained? Where? When? How? Who has the skills? Who could 
develop the skills to do totally new kinds of jobs? Which 
recruits have the aptitude for cooperative work?
    The customer for this R&D is the Air Force of tomorrow. The 
people in that future Air Force are not the voices you hear in 
the clamor over short-term budget decisions, but Congress must 
ensure that their voice is heard.
    APA urges the Committee to include specific language in the 
FY 1999 appropriation that would restore $9.84 million to the 
6.2 and 6.3 funding at Brooks Air Force Base. This would only 
maintain programs at their 1997 level.
    APA is also grateful for this subcommittee's leadership in 
restoring funds to the Armored Research Institute in FY 98. 
Last year's proposed cut would have crippled ARI's research. 
Once again, we ask for your help. Despite ARI's strong record 
in funding research essential to the training and performance 
of Army personnel, the Institute's funding continues to erode. 
The 1999 request is $16 million, a substantial cut from the 
currently appropriated $21.4 million. We urge the subcommittee 
to continue support for ARI.
    ARI conducts behavioral research on such topics as 
recruiting, including minority recruiting, personnel testing 
and evaluation, training and retraining, and leadership. While 
the Army seeks to cope with downsizing, to solve problems of 
sexual harassment and to establish workplaces that bring out 
the best from a diverse workplace, studies done for the Army by 
scientists who understand how the Army works will be critical 
in helping the Army to plan and execute change.
    I refer the Committee to the APA statement for our 
association's complete recommendations.
    In closing, please remember that behavioral research can 
continue to provide the foundation for tremendous savings 
through increased personnel efficiency and productivity. 
Increasingly sophisticated weapons systems place more, not 
fewer, demands on human operators. We must ensure that military 
personnel are at least as well prepared as their machines to 
meet the future. This requires a sustained investment in human 
oriented research.
    Thank you, sir.
    Mr. Nethercutt. Thank you very much, sir, for being here 
today and we appreciate your testimony.
    Dr. Strickland. Thank you.
    [The statement of Dr. Strickland follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

    AMERICAN ACADEMY OF OTOLARYNGOLOGY--HEAD AND NECK SURGERY, INC.


                                WITNESS

JOHN R. WILLIAMS, DIRECTOR, CONGRESSIONAL RELATIONS, AMERICAN ACADEMY 
    OF OTOLARYNGOLOGY--HEAD AND NECK SURGERY, INC.

                              Introduction

    Mr. Nethercutt. The Committee now welcomes John Williams of 
the American Academy of Otolaryngology--Head and Neck Surgery.
    The academy and the physicians who belong to it are 
dedicated to the care and treatment of patients with disorders 
of the ears, noses and throat and related structures of the 
head and neck. Your prepared statement will be made a part of 
the official record of the Committee, sir.
    Your statement represents an interesting perspective on 
tobacco availability in the military, as well as skin cancer, 
ultraviolet--UV radiation and noise reduction. Mr. Williams, we 
are glad to have you here.

                       Statement of Mr. Williams

    Mr. Williams. Once again, my name is John Williams. I am 
Director of Congressional Relations here for the American 
Academy of Otolaryngology--Head and Neck Surgery. I am here 
today in place of Dr. Michael Maves, Executive Vice President 
of the academy, who was unable to be here due to a family 
illness.
    As you mentioned, the American academy of Otolaryngology--
Head and Neck Surgery is the largest medical society of 
physicians with over 10,000 members dedicated to the care and 
treatment of patients with disorders of the ears, nose, throat 
and related structures of the head and neck. We are more 
commonly referred to as ENT physicians.
    We have testified before the Committee over the last 
several years about some matters that I am going to discuss in 
this testimony, and deeply appreciate the courtesy with which 
the Committee has reviewed our views.
    Today I would like to briefly reiterate three of these 
issues of importance to our membership. The first is tobacco 
use in the military. The American Academy has been opposed to 
tobacco for many decades. We are the physicians who, again, 
care for most of the patients with cancer of the head and neck 
and we see the harmful effects of tobacco use among our 
patients every day.
    All over the news, you see reports of tobacco companies 
finally admitting to the adverse effect of tobacco users. We 
also know that there can be a significant impact on 
individuals, especially children, who happen to be in the 
vicinity of toxic smoke from tobacco products used by others.
    We are pleased to see that the Department of Defense 
announced a policy ban of smoking in all DOD work facilities 
worldwide. This far-reaching initiative makes DOD workplaces 
free from harmful secondhand smoke as well, thus, will improve 
the overall health of military personnel. We do know, however, 
that many military--many in the military have substituted 
tobacco smoking with smokeless tobacco to avoid disciplinary 
actions where smoking itself is prohibited.
    Smokeless tobacco is also a very serious medical--has very 
serious medical effects upon the oral cavity. Even with all the 
scientific information we now have about negative impacts of 
smoking and secondhand smoke on individuals, we find that the 
tobacco use is still indirectly encouraged by the military 
through the subsidized sale of tobacco products at military 
commissaries and PXs where cigarettes and other tobacco 
products can be bought at a much lower price than otherwise 
would be charged outside.
    The academy has expressed its concern that the DOD would 
likely not ban the sale of tobacco products in the commissary 
system. However, we strongly support the concept of bringing 
tobacco prices at least to the parity where civilian prices 
would help cut down on its use.
    The next of that is--the next issue of importance to our 
membership is the--is that of skin cancer and UV radiation. 
Three years ago, the American Academy indicated its strong 
support for environmental--indicated its strong support to the 
Environmental Protection Agency and the National Weather 
Service in developing a nationwide UV index to alert members to 
the public dangers of excessive radiation to the sun and 
potentially resulting in skin cancers, especially to the head 
and neck and other immune systems.
    Our academy members deal with medical problems of the head 
and neck where many of these skin cancers occur. We urge that 
this Committee consider how it might participate with the 
Department of Defense in ensuring that all personnel and their 
families are educated in this regard.
    One excellent instrument of this education is the UV index, 
widely made available by the National Weather Service and 
private weather reporting companies.
    Finally, Mr. Chairman, let me talk about the issue of noise 
reduction. Our academy has long been concerned about the effect 
of excessive noise in the structures of the ear, particularly 
those noises which are extremely excessive. We know that noise 
is a necessary part frequently of--part frequently of daily 
military life, particularly so in wartime. Nevertheless, we 
believe that many of the noise effects in military personnel 
can be reduced by appropriate noise reducing and prevention 
activities.
    Finally, I would just like to thank you for your time and 
be happy to answer any questions that you may have.
    Mr. Nethercutt. Thank you very much for being here, Mr. 
Williams. We appreciate having your testimony today.
    [The statement of Mr. Williams follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

                     RESEARCH SOCIETY ON ALCOHOLISM


                                WITNESS

DR. MICHAEL CHARNESS, CHIEF OF NEUROLOGY, BROCKTON/WEST ROXBURY VA 
    MEDICAL CENTER AND ASSOCIATE PROFESSOR OF NEUROLOGY AT HARVARD 
    MEDICAL SCHOOL

                              Introduction

    Mr. Nethercutt. Our next witness is Dr. Michael Charness 
representing the Research Society on Alcoholism. Dr. Charness 
makes the point in his written statement that heavy drinking in 
the military is 40 percent more prevalent than in the civilian 
sector and that as a result there is a 24.5 percent 
productivity loss in the E-1 to E-3 pay grades.
    We are interested in your views on this subject, sir, and 
we are happy to say your prepared statement will be made a part 
of the record. We welcome you today and please summarize your 
testimony.

                       Statement of Dr. Charness

    Dr. Charness. Thank you very much. I am Chief of Neurology 
at the Brockton/West Roxbury VA Medical Center and am also 
associated with Harvard Medical School. I conduct basic 
research on how alcohol changes the function of brain cells, 
and I also care for alcoholics whose drinking has damaged their 
brains and their muscles and nerves. I appreciate very much the 
opportunity to appear here before you today on behalf of the 
Research Society on Alcoholism.
    We are a professional research society whose 1,200 members 
conduct most of the basic clinical and psychosocial research on 
alcoholism and alcohol abuse that is conducted in this country. 
I am here to discuss drinking in the military, which I believe 
is a serious problem that compromises the defense of the 
Nation.
    One in 10 Americans will suffer from alcoholism or alcohol 
abuse. The cost to this country is $100 billion annually. 
Alcohol is a factor in 50 percent of all homicides, 40 percent 
of all motor vehicle fatalities, 30 percent of all suicides and 
30 percent of all accidental deaths.
    In the military, the costs of alcohol abuse and alcoholism 
are likely to be enormous. Nearly 1 in 5 military personnel 
engages in heavy drinking, a rate which is almost double that 
of the civilian population.
    In 1990, 23 percent of deaths in the United States Air 
Force were related to alcohol. There is a human face attached 
to each of these statistics. As physicians, we see men, women 
and children who are paralyzed in car accidents caused by drunk 
drivers. We see accomplished men and women who will never 
remember another new experience because drinking has damaged 
their brains. We see frightened and abused children who grow up 
in homes with abusive alcoholic parents.
    Many talented and dedicated people in the Department of 
Defense are working hard to reduce drinking in the military, 
but current prevention and treatment programs are simply not 
good enough.
    Only research halts the promise of change. Alcohol research 
is presently conducted primarily at the National Institute of 
Alcohol Abuse and Alcoholism and within the Department of 
Veterans Affairs. This effort is severely underfunded in 
proportion to the magnitude of the problem and, moreover, 
neither NIAAA nor the VA focus their research efforts on 
prevention and treatment issues that are specific to the needs 
of the military.
    While the high rates of use and abuse of alcohol in the 
military are alarming, the good news is that we are poised at a 
time of unprecedented opportunities in research. For the first 
time, scientists have identified discrete regions of the human 
genome that contribute to the inheritance of alcoholism. Two 
new medications, Naltrexone and Acamprosate have proven 
effective in reducing drinking and are undergoing large-scale 
clinical trials. The development of more effective drug 
therapies for alcoholism awaits an improved understanding of 
how alcohol affects brain function.
    Alcohol research has now reached a critical juncture and 
the scientific opportunities are numerous. With the support of 
this subcommittee and the Congress, we believe that we can 
achieve significant advances in alcohol research that will 
reduce heavy drinking in the military.
    Research society on alcoholism urges the Department of 
Defense to take the lead on initiating what the Department of 
Veterans Affairs calls a new broad cooperative research program 
on alcoholism. We also urge that the Department of Defense 
establish with NIAAA research programs on the epidemiology, 
causes, prevention and treatment of alcoholism.
    This request balances the morbidity, mortality and huge 
economic costs of heavy drinking in the military with the 
abundance of research opportunities for improving the 
prevention and treatment of alcohol abuse and alcoholism. I 
thank you.
    Mr. Nethercutt. Let me ask you, Doctor, to what extent do 
you get information from the National Institutes of Health on 
the issue of alcoholism?
    Dr. Charness. NIAAA is very helpful. They have a program of 
public education that involves sending out information to 
virtually all the physicians in the country.
    Mr. Nethercutt. Do you rely on that aspect of NIH or that 
Institute?
    Dr. Charness. I think that the treatment committee in 
particular does. As a researcher, I get it from the horse's 
mouth.
    Mr. Nethercutt. I understand. Thank you, sir, very much.
    Dr. Charness. Thank you.
    [The statement of Dr. Charness follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

           AMERICAN SOCIETY OF TROPICAL MEDICINE AND HYGIENE


                                WITNESS

PHILIP K. RUSSELL, M.D., PROFESSOR OF INTERNATIONAL HEALTH, SCHOOL OF 
    HYGIENE AND PUBLIC HEALTH, JOHNS HOPKINS UNIVERSITY

                              Introduction

    Mr. Nethercutt. The Committee will now hear from Dr. Phil 
Russell of Johns Hopkins University, representing the American 
Society of Tropical Medicine and Hygiene.
    As Dr. Russell points out in his written statement, U.S. 
soldiers will continue to be deployed in regions of the world 
where the threats of infectious disease exist. That written 
statement that you have prepared will be made a part of the 
record, Dr. Russell, and you may summarize it at this time. 
Welcome.

                        Statement of Dr. Russell

    Dr. Russell. Thank you, Mr. Nethercutt. It is my privilege 
to present the testimony on behalf of the American Society of 
Tropical Medicine and Hygiene. In order to emphasize the 
written testimony, I would like to focus on three points. The 
first you mentioned is the emerging infectious disease issue.
    The Nation as a whole is beginning to recognize the growing 
problems and increasing threat of emerging infectious diseases. 
Social and behavioral changes, environmental changes and 
microbial evolution are all contributing to an increasing risk 
to our entire population and most especially to the military. 
Deployed military forces, because of the nature of military 
operations, have throughout history been at especially high 
risk to infectious diseases.
    In response, military medical research programs have been 
specifically directed at protecting the armed forces through 
development of vaccines, drugs and other preventive measures. 
Although there have been notable successes and great advances 
in military preventive medicine in recent years, the threat 
remains and the threat continues to change and increase as 
disease producing organisms evolve and as the environment in 
which these organisms produce disease continues to change.
    The current epidemics of dengue, cholera, Rift Valley fever 
and malaria now ongoing in several tropical countries would all 
be extremely serious hazards if military deployment in those 
areas were necessary. The threat is increasing, yet the Army 
and Navy medical research organizations have had to deal with 
severe restrictions in both personnel and budget in recent 
years. I urge the Committee to look at this and to reverse this 
downward trend.
    The second issue I would like to address is the value of 
military medical research structure in drug and vaccine 
development. Military scientists have been world leaders in 
several areas of tropical medicine for many years, and they 
continue to do very high quality and important research. The 
exciting development with a new malaria vaccine which has 
protected volunteers and is moving into field trials is an 
outstanding example. However, there are several potential new 
products that are not advancing or are moving ahead very slowly 
because of lack of funds and shortage of scientific personnel.
    The third area I would like to call to your attention is 
the network of overseas medical research laboratories operated 
by the Army and the Navy.
    These are extremely valuable medical research, public 
health and military assets. They provide unparalleled 
opportunities for training of military and civilian scientists 
in tropical medical research and for that reason are highly 
valued by the civilian academic community, as well as the 
military scientists. They provide excellent opportunities for 
collaboration between military and academic scientists in 
research as well as in training of junior scientists.
    These laboratories can potentially provide an outstanding 
surveillance network to monitor emerging infectious disease 
problems in critical parts of the world. They have done so at 
many times in the past and have provided medical experts with 
up-to-date knowledge and research capability needed to address 
epidemics in civilian populations in their region. The recent 
examples include dengue epidemics in Peru and RVF epidemics in 
east Africa. Additional funding is urgently needed to enable 
these laboratories to achieve their potential for dealing with 
the emerging infectious disease threat.
    Perhaps the greatest and most obvious value of these 
laboratories is their capacity to conduct field trials of drugs 
and vaccines. Anti-malarial drugs, hepatitis A and Japanese 
encephalitis vaccines are examples of products which have been 
licensed in the country on the basis of trials done by these 
laboratories at the overseas sites.
    As we move forward with new vaccines for dengue, malaria, 
diarrheal diseases and hopefully HIV, the value of these 
laboratories as a basis for field trials will become even 
greater. They need and they deserve additional support.
    In conclusion, I want to thank the Committee for their past 
support for these programs and on behalf of the society request 
your continued support of DOD infectious disease research 
programs. This is critically important given the resurgent and 
emerging infectious disease threats which exist today. We are 
pleased that the administration's request does not cut current 
funding levels but we see that there are still many unmet needs 
and opportunities, and failure to act will result in health 
care cost increases downstream and threaten the effectiveness 
of future troop deployments.
    Thank you for your consideration of our request, sir.
    Mr. Nethercutt. Thank you for making the request. I would 
just ask, are these emerging infectious diseases--generally 
fatal or are they only debilitating?
    Dr. Russell. Both. Dengue, for example, is just a very 
serious disease with little threat of death to military 
populations. Rift Valley fever and malaria, on the other hand, 
are potentially fatal.
    Mr. Nethercutt. Sure. I understand. Well, thank you very 
much for your testimony.
    [The statement of Dr. Russell follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

                  ASSOCIATION OF AMERICAN UNIVERSITIES


                                WITNESS

GENE D. BLOCK, VICE PROVOST FOR RESEARCH, UNIVERSITY OF VIRGINIA

                              Introduction

    Mr. Nethercutt. Our next witness is Gene Block, Vice 
Provost for Research at the University of Virginia. He is 
appearing today on behalf of the Association of American 
Universities, in support of DOD University research.
    Your prepared statement notes, sir, that DOD basic research 
funding has been used several times in the last few years to 
provide offsets for unrelated new expenditures in supplemental 
appropriations bills.
    As you may know, we marked up a supplemental bill to pay 
for Bosnia and our support forces in the Persian Gulf last week 
right here in this Committee without offsets.
    So I encourage your association to let others in the 
Congress know of your views because there are many members who 
believe we should offset that supplemental. And you are right, 
we may have to use R&D funding as an offset.
    Your prepared statement will appear in the record of the 
Committee, and we are delighted to have you summarize it at 
this time.

                         Statement of Mr. Block

    Mr. Block. Thank you very much. As you mentioned, my name 
is Gene Block. I am the Vice Provost for the University of 
Virginia for Research, and I am also the Director of the 
National Science Foundation Center for Biological Timing. In 
addition, my academic background is in neurobiology. I am 
specifically interested in biological clocks and I am partially 
funded by a grant from the Air Force Office of Scientific 
Research.
    I am testifying today on behalf of the Association of 
American Universities, representing 62 premier research 
universities in the United States and Canada, and the National 
Association of State Universities and Land Grant Colleges, 
representing 195 public institutions of higher education across 
the United States.
    I have provided you with a copy of my written testimony, 
and I will not read that. I will just highlight some of the 
important issues.
    Let me emphasize verbally how important I believe it is for 
your Subcommittee to provide adequate funding this year for 
basic and applied research at the Department of Defense. As you 
know, basic and applied research are funded under program 
elements 6.1 and 6.2 in the research, development, testing and 
evaluation section of the Department of Defense appropriation.
    The Army, the Navy, the Air Force and defense-wide account 
under the Office of the Secretary all receive separate 
appropriations for these programs. Universities play the 
largest role in basic defense research, receiving more than 60 
percent of this funding. That is program element 6.1. They also 
receive substantial funding for applied defense research and 
advanced technology development, program 6.2 and 6.3 
respectively.
    The department's budget request would provide a total of 
$1.11 billion for defense 6.1 programs in FY 99, including 
programs funded under the Office of the Secretary of the 
Defense as well as the Navy, Army and Air Force research 
programs.
    This represents an increase of 6.6 percent over the final 
funding levels of FY 98. According to the defense--the 
department's RTD&E programs report, applied research would 
receive a total of $3.02 billion, an increase of .8 percent 
over FY 98. I believe these budget projections represent a 
realistic and appropriate estimate of what will be needed to 
carry out a vigorous research program in the coming year, and I 
hope you will approve them for the FY 99 appropriation.
    As you are aware, many crucial defense technologies have 
emerged from fundamental research conducted on American 
University campuses. Among these are radar, nuclear power, 
digital computers, semiconductor electronics, lasers, 
fiberoptics, night vision, inertial guidance, a global 
positioning system, stealth and other advanced materials, 
computer networking. As you remember, Advanced Research 
Projects Agency Net--ARPANet was actually the forerunner of our 
current Internet and computer-based visualization systems for 
training and planning and for conducting operations.
    With future threats to the national security so uncertain, 
maintaining technological superiority will require a strong and 
continuing research effort. The Armed Forces today must not 
only be ready to fight in conventional regional wars such as 
the Gulf War but must be ready to undertake peacekeeping 
missions in hostile situations and defend against 
unconventional threats such as terrorism, biological and 
chemical agents and computer sabotage.
    Supporting university research benefits DOD in many ways. 
It produces important advances in knowledge. It helps keep top 
scientists and engineers involved in defense research. Not 
least, the students who get hands-on research training and 
become highly qualified scientists and engineers of the future 
will go on to work in academia, industry and Federal 
laboratories.
    DOD is the third largest Federal funder of university 
research after the National Institutes of Health, and the 
National Science Foundation. The funds are awarded under 
competitive merit review procedures to assure high quality. 
Nearly 350 universities and colleges sponsor DOD research and 
development.
    Unfortunately, last year, the science and technology budget 
of DOD hit a 35-year low after adjusting for inflation. Basic 
research is down by $350 million in just the lasts 5 years. 
While the University of Virginia has actually seen an increase 
in DOD funding in the past year, I am concerned that other 
colleagues in the scientific community will find resources 
drying up for promising areas of inquiry.
    In particular, I'm concerned about the effect that 
shrinking funding will have on those disciplines that are most 
heavily funded by the department since other sources of support 
may not easily be found to keep these disciplines healthy.
    At this point I would just like to speak very briefly about 
some projects funded through DOD support at the University of 
Virginia. We received $10 million in defense, Department of 
Defense grants and contracts between July 1, 1996 and June 30 
1997. These funds supported 69 projects. DOD funds provide 
critical support for broad areas of fundamental research at our 
university. The results of this research are paying important 
dividends for the government and the public as well, and I'd 
like to just very briefly mention 3 areas to show you the 
diversity and the interesting research going on.
    One is in the area of biological timing research. A grant 
from the Air Force office of scientific research supports 
studies on the ability of the biological clock to adjust to 
changes in time cycles associated with transmeridian flights 
such as experienced by military flights across time zones or 
even in rotating shift work scheduling. The research performed 
in my laboratory and the laboratory of Dr. Michael Menaker 
employs state of the art continuous monitoring of electrical 
neural signals from the biological clock. This allows us to 
give insights into the functioning of the biological clock, and 
this should help us eventually be able to reduce fatigue during 
extended military operations, improve safety and productivity 
in the civilian work force. So this is work going on, 
biological work being supported by the Air Force.
    The Office of Naval Research supports engineering research 
on directed vapor deposition of thermal barrier coatings. The 
hot section combustor components of today's high performance 
aircraft engines operate close to the melting point of the 
materials of which they are made. Professor Haydn Wadley at the 
University of Virginia Department of Material Science has 
invented and patented a revolutionary new technology for 
coating these components with thin, thermally plated ceramics. 
These coatings can be applied with a new technology at one-
tenth the cost of competing technologies. By engineering their 
composition and structure the coatings can be twice as 
effective as the existing coatings that are being used. This 
will dramatically increase the thrust and fuel efficiency of 
engines that exploit them. As a result, military aircraft from 
the F-22 to the Global Hawk would be able to extend their 
mission duration and range.
    And finally I even have a little sample here, the third 
example of research going on at UVA, this is supported by 
Defense Advanced Research Projects Agency--DARPA. These are 
smart air jell sensors for biological agent detection. Arguably 
the greatest threat posed to the security of our nation's 
citizens is from the biological attack by a terrorist group. 
The ease of biological agents synthesis and the relatively 
simple technologies needed for the dispersal in urban 
environments and their near absence of effective methods of 
rapid detection create a real risk for biological agents. 
Professors Norris and Brinizer of the University of Virginia 
Mechanical, Air, Space and Nuclear Engineering Departments, in 
conjunction with the Pacific Sierra Research Corporation, are 
developing a smart biological censor that exploits the unique 
internal structure of aerojels. Aerojels are novel ultraporous 
polymer materials that contain enormous concentrations of 
interlinked pores. The minute pores can be engineered to match 
the size and shape of molecules of biological warfare agents. 
When attached to micro unmanned air vehicles the aerogel 
sensors have the capacity to continuously monitor the 
atmosphere, thereby providing an alert to potential biohazards. 
This technology will have tremendous nonmilitary applications 
as well.
    What I wanted to point out is the tremendous diversity of 
the types of research supported by DOD and the importance that 
this plays actually in the university research program.
    I want to thank you again for the opportunity to testify, 
and I'd be happy to answer questions.
    Mr. Nethercutt. I want to say thank you very much, sir, for 
being here. We appreciate your testimony. We'll do the best we 
can on your request.
    [The statement of Mr. Block follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

                    OVARIAN CANCER NATIONAL ALLIANCE


                                WITNESS

ANN KOLKER, EXECUTIVE DIRECTOR, OVARIAN CANCER NATIONAL ALLIANCE

                              Introduction

    Mr. Nethercutt. The Committee is happy to welcome our next 
witness, Ann Kolker. Ms. Kolker is the Executive Director of 
the Ovarian Cancer National Alliance. The Ovarian Cancer 
National Alliance is a young organization and was founded just 
last summer by Ms. Kolker.
    Ms. Kolker. Among others.
    Mr. Nethercutt. Among others. Because this Committee is 
interested in the health of women in our military, we provided 
$10 million in last year's appropriation for research for this 
deadly disease that effects 1 in 55 women. Your prepared 
statement is an excellent summary of the issues regarding the 
ovarian cancer research. It will be made part of the record of 
the Committee, and we're delighted to have you summarize it as 
you wish.

                        Statement of Ms. Kolker

    Ms. Kolker. Thank you very much and thank you for providing 
the opportunity to testify, and a special thank you to Chairman 
Young and also to Representative Murtha for including and last 
year increasing critically needed funds for the ovarian cancer 
research in the congressional special interest research 
program.
    I'm Ann Kolker, a founder, one of many and now the 
Executive Director of the Ovarian Cancer National Alliance. As 
Congressman Nethercutt noted, the alliance is a new 
organization formed last summer. It's the creation of leaders 
from the growing number of ovarian cancer groups across the 
country. These groups united to establish an umbrella group, 
the alliance, in order to have a coordinated effort that will 
put ovarian cancer policy, education, research issues squarely 
on our national agenda. Our statement today marks our first 
public appearance on Capitol Hill.
    I also serve as a consumer representative on the 
Integration Panel of the DOD ovarian cancer research program 
and, as members of this Committee are aware, this program is 
still in its first funding cycle. So there is no track record 
yet for it as there is for the breast cancer research program. 
We look to the success of that effort, described earlier today 
by Fran Visco, to inform the expansion of the ovarian cancer 
program.
    On behalf of the alliance, I have a straightforward 
message. Ovarian cancer research has been drastically 
underfunded to date and it's urgent that policy makers expand 
resources devoted to this disease. The goal must be to increase 
in a significant way the ovarian cancer survival rate, which is 
so poor that this disease has the unwelcome distinction of 
being the deadliest of the female cancers.
    Ovarian cancer is truly life threatening. More than 50 
percent of the women who have it die within 5 years of 
diagnosis, and that's because in at least 70 percent of the 
cases women aren't diagnosed until the cancer has reached an 
advanced stage when it is often too late to cure. But when 
women are diagnosed in the first stage, which unfortunately 
occurs in less than 1 quarter of cases, the survival rate is 
over 90 percent. I was fortunate to be diagnosed in this stage.
    As is the case with many other cancers, a key to improved 
survival is early detection, and for ovarian cancer a critical 
component of early detection is a better understanding of key 
scientific aspects of the disease. This will happen only if 
research is increased substantially.
    The creation of the ovarian cancer research program several 
years ago and last year's expanded appropriations of $10 
million were important steps in that direction. Today we ask 
you to consider a significant funding increase and broadening 
the requirements for potential applicants who are now, as 
you're aware, restricted to comprehensive cancer centers. 
Increasing funding for research will go a long way toward 
helping improve the poor survival rate.
    Knowledge about key aspects of ovarian cancer is so limited 
that diagnostic tools are too often imprecise and there is no 
simple reliable screening mechanism. We need a screening tool 
that is as simple and as successful as the pap smear is for 
cervical cancer, the mammogram is for breast cancer and the PSA 
is for prostate cancer. Even with their limitations, these 
tests have dramatically improved early detection and spared 
many people with cervical, breast and prostate cancer the early 
death sentence that so many women with ovarian cancer face.
    Thus, for the alliance the development of a screening tool 
that is affordable, reliable and easy to administer is a top 
priority. This lifesaving tool will only be found when more 
research dedicated explicitly to ovarian cancer is available, 
and we hope that this committee will--the funds that this 
Committee makes available will play an important role in 
ultimately producing that tool.
    However, until that tool is available early detection of 
ovarian cancer will continue to elude too many women and their 
families. Thousands and thousands of women will needlessly 
continue to die, and it's our strong hope that the research 
funded through this important program will ultimately yield a 
screening instrument. 183,000-plus women who currently live 
with ovarian cancer, our sisters, our daughters, our 
granddaughters and millions of at-risk women around the country 
and all of our families and loved ones look to your support for 
increasing the resources dedicated to this lethal disease.
    Thank you very much.
    Mr. Young. Ms. Kolker, thank you very much.
    Several of us on this Committee have had personal 
experiences with this terrible disease and understand the 
importance. Thank you very much for----
    Ms. Kolker. I'm sorry to hear that, and I hope that the 
money that comes from this Committee will help those, as well 
as the many women who are associated with the alliance.
    Mr. Young. Thank you for a very impressive statement.
    [The statement of Ms. Kolker follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

                   JOINT POLICY BOARD FOR MATHEMATICS


                                WITNESS

JAMES CROWLEY, EXECUTIVE DIRECTOR, SOCIETY FOR INDUSTRIAL AND APPLIED 
    MATHEMATICS

                              Introduction

    Mr. Young. We would like to welcome now Mr. James Crowley, 
who was the Executive Director of the Society for Industrial 
and Applied Mathematics, located in Philadelphia. Mr. Crowley 
is here today representing the Joint Policy Board for 
Mathematics, a collaborative effort of three professional 
societies, SIAM, the American Mathematical Society and the 
Mathematical Association of America. Mr. Crowley is a former 
Air Force officer and chief scientist at the Air Force Systems 
Command at Andrews Air Force Base.
    Mr. Crowley your statement will be placed in the record in 
its entirety, and we would ask that you summarize it at this 
time.

                        Statement of Mr. Crowley

    Mr. Crowley. Thank you, Mr. Chairman, for this opportunity 
to comment on the fiscal year 1999 appropriations for DOD. 
Today I'd like to address DOD's investment in basic research, 
or 6.1 as it's known to DOD.
    As I noted in my written statement and as you noted just 
before, I served 22 years as an Air Force officer and so I'm 
familiar with the importance of basic research to the defense 
mission. I've seen firsthand how the results of basic research 
were incorporated into defense technologies and systems for the 
ultimate benefit of our defense forces, the American taxpayers 
and our national security. I'm very concerned though, Mr. 
Chairman, that the buying power of DOD support for basic 
research has dropped dramatically in recent years, by 18 
percent since 1994, and I included a chart in my written 
statement that shows this. Moreover, these funding levels are 
well below historical levels of investment and defense basic 
research. Those past investments played a critical role in 
enabling today's DOD to meet the Nation's defense needs through 
superior and cost effective military technologies which are 
even more important with the constrained operational budgets 
today.
    The reduced budgets have had a staggering effect on DOD 
research agencies' ability to maintain the strength of their 
programs. In the mathematical and computational sciences, for 
example, the scope of promising research that DOD has 
identified as relevant to its mission have been curtailed and 
whole thrusts of research have had to have been eliminated in 
some programs. The opportunities lost are not insignificant.
    Mr. Chairman, the funding erosion of DOD's basic research 
programs must be stemmed if we are going to achieve our 
national security objectives into the future. We urge the 
subcommittee to begin restoring the buying power of defense 
basic research by fully funding DOD's request for basic 
research. We must start reversing the downward funding trend, 
and enacting the relatively modest proposed increase for fiscal 
year 1999 would be a crucial first step.
    Let me say a few words about what basic research means to 
DOD. You are no doubt aware of the importance of long term 
fundamental research. I would also point out that some of the 
research supported through the 6.1 account is not as long term 
as you might think. In many cases university researchers have 
been brought in for special expertise to help solve real-time 
scientific and technical challenges, and this raises a critical 
point. By engaging the Nation's research universities and 
defense-related problems, DOD ensures itself access not only to 
today's researchers and the latest discoveries, but also to 
graduate students whose involvement in defense-related research 
areas helps guarantee the production of mathematicians, 
scientists and engineers who can contribute to meeting defense 
needs in the future, to tackling the long term research 
problems and being available to DOD to call on for more 
immediate ones.
    Let me illustrate my remarks about DOD's investment in 
basic research and its contributions to the national defense 
with a few examples. You are no doubt familiar with the rapid 
advances in computer hardware. Computer speed doubles every 
1\1/2\ years. Equally important is the fact that new and 
improved mathematical algorithms, which are the basis of all 
computer software, also contribute to this remarkable trend. In 
fact, the computer hardware would be useless without equally 
sophisticated advances in mathematical modeling and algorithm 
development.
    Let me cite a couple of cases in which DOD support has 
facilitated breakthroughs in this area. Research in the past 25 
years, much of it funded by DOD, led to the development of 
mathematical techniques underlying computer programs that can 
easily manipulate geometric objects. The techniques form the 
basis for modern CAD/CAM packages to make rapid prototyping and 
computer aided design possible. These tools are used by defense 
contractors to cut the development time and cost for new 
aircraft and other major DOD purchases.
    And in addition, simulation based upon mathematical models 
is becoming an important component of design. For example, 
mathematics can be used to model or predict how radar waves 
behave when scattered off of surfaces such as aircraft bodies. 
Advances in the developments of computational algorithms that 
design the testing of stealth technology in simulation; that 
is, on computers, before any actual development begins.
    More recently, a DOD initiative and modeling simulation and 
control of fabrication processes for thin films promises to 
deliver new, more reliable and economical processing techniques 
for these thin films, which are critically important for new 
and advanced electronic components for such examples as high 
performance microwave filters for wireless and aerospace 
communications. These thin films are not easy to manufacture 
and the computational model and simulation will be critical to 
obtain the uniformity that is necessary to obtain the device 
properties.
    I have chosen just a few examples, but clearly research in 
mathematics, algorithms, computing and all other areas of 
science for that matter have played and will continue to play a 
critical role in new technologies ranging from smart weapons to 
advanced aircraft design.
    This concludes my testimony. I appreciate the opportunity 
to talk to you about the impact of defense basic research, but 
let me also thank you for taking the time to speak last year at 
the DOD Demonstration Day, which was entitled ``Basic Research 
in the National Defense,'' sponsored by the Association of 
American Universities. I hope you're able to join us again at 
this year's event that's going to be held on April 29.
    Again thank you, Mr. Chairman, and I would be pleased to 
answer any questions you might have.
    Mr. Young. Mr. Crowley, thank you very much, and your 
statement is very thorough and we appreciate that, and we thank 
you for being here today and we believe in basic research. We 
would like to get a little basic research into how to get more 
money to pay for some of these programs that we've heard about 
today that are not included in the President's budget. So what 
I can tell you is we'll do the best we can.
    Thank you very much sir.
    [The statement of Mr. Crowley follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 19, 1998.

                 CHILDREN'S HOSPITAL AND HEALTH CENTER


                                WITNESS

JANE WEISENBERG, DIRECTOR OF AMBULATORY SERVICES, CHILDREN'S HOSPITAL 
    AND HEALTH CENTER, SAN DIEGO, CALIFORNIA

                              Introduction

    Mr. Young. I'd like to welcome Jane Weisenberg, Director of 
Ambulatory Services in San Diego, California. Ms. Weisenberg 
has appeared before the Committee in support of the new parents 
support program which is operating at 29 army installations 
worldwide as well as several Navy installations and is intended 
to help prevent child abuse, something that we're all certainly 
supportive about and concerned about. We're happy to hear from 
you today, and your statement has been placed in the record and 
you may summarize it as you wish.

                      Statement of Ms. Weisenberg

    Ms. Weisenberg. Thank you, Mr. Chairperson, and other 
Members of the Committee.
    I have to say I really do appreciate the stamina that you 
all have to listen to all of our testimonies, and I got a 
flavor of that since I did get to appear last. The written 
testimony was submitted by Blair Sadler, the CEO and President 
of Children's Hospital. He really wanted to be here today, but 
he was detained with emergency business in San Diego. So he 
asked me to represent him and I have to say I'm truly honored 
to be here.
    I thank you for being supportive of the new parent support 
program over the last years. My testimony today is applicable 
to the Marine Corps New Parent Support Program in terms of you 
have helped over 11,000 military families since your support in 
1993.
    I would also like to welcome you all if you're interested 
in seeing firsthand the new parent support program we are 
operating on all Marine Corps installations worldwide, 
including the newest site at Miramar.
    There continues to be a critical need for family support 
programs for military personnel. Last year I attended an event 
celebrating the 222nd birthday of the Marine Corps. A videotape 
was shown where General Krulak described the essence of the 
Marine Corps. He used the Battle of Bella Wood as the pivotal, 
essential and defining moment of the reputation of the Marine 
Corps. He portrayed the spirit of honor, courage and commitment 
as fierce, independent and unconditionally committed to 
victory. I was moved by his presentation where bayonets were 
drawn and men died in battle. Then I sat back in my chair and I 
thought how challenging it is to reconcile the fighting spirit 
of the Marine Corps with the nurturing, caring and loving that 
is needed to sustain a family relationship and raise a child.
    There are risk factors related to military life where 
parenting starts at a young age. There is physical isolation 
and some remote locations, there is separation from family and 
friends, there is unknown resources and support systems in 
unfamiliar communities, there is frequent moves, there is 
difficulty in stretching a paycheck to meet the housing and 
other expenses, there is the uncertainty of peace and war. The 
new parent support program addresses these issues with the 
overall goal of strengthening military families and preventing 
family violence through the use of home visitation by nurses 
and social workers and prevention activities such as Daddy's 
Baby Boot Camp.
    The program makes a difference in peoples' lives. Consider 
a staff sergeant with his young wife who is five months 
pregnant, anemic, thin, unhealthy, 2 children, a son 4 years 
old who is moderately autistic, a son 19 months old. The wife 
feels overwhelmed by the care of an autistic child. They have 
recently transferred to their new location. The husband states 
the wife's housekeeping skills are poor and beginning to become 
a problem for him. He goes to the family services for 
counseling and is referred to the new parent support program. 
The problems identified are that a 19-month-old child is 
nonverbal, the household was not using speech with the 
children, they were all communicating by sign language, there's 
financial difficulties that do not allow the mother to get her 
eyes cared for so she may not get glasses, therefore she's 
unable to get a driver's license in a new State and is unable 
to drive. The mother was not on the women-infant children 
supplemental food program and neither were the 2 children.
    A home visitor, a trained social worker, went to the home, 
did an assessment of this family situation. Some of the 
interventions included having the Lions Club pay for glasses 
for mom which resulted in her being able to take a driver's 
test and have access to transportation, both mom and children 
were put on WIC, and mom is no longer anemic, she's getting 
appropriate prenatal care, and her pregnancy is progressing 
smoothly. A speech therapist goes into the home twice a week. 
The household has become more verbal and speech has improved 
for both of the children. The Child Abuse Prevention 
Association provided the family with gift certificates to buy 
clothing in their thrift shop, the home visitor worked with mom 
and dad around their own organizational skills so they could 
develop a family routine. They also have the family apply and 
receive Social Security for the autistic child. The family is 
using the money to provide opportunities to enhance the child's 
skills and development. They also are now enrolled in a food 
share program. The day-to-day stressors are under control, and 
thanks to the early intervention this family can now be 
prevented from having more serious consequences of their 
situation. It's really your support that made a difference in 
the life of this family and many, many others.
    The need continues for programs aimed at assisting military 
families. Programs such as the new parent support program on 
all Marine Corps installations plays an important role in 
military readiness by insuring the stability of military 
families. Congress has generously provided support for the 
Marine Corps' new parent support program and in light of this 
subcommittee's previous support for new parent support and 
other family advocacy initiatives, we request funding of $5.6 
million to continue this program into the FY '99--through the 
FY '99 appropriations bill.
    Thank you, Mr. Chairman, and other members of the Committee 
for your support.
    Mr. Young. Ms. Weisenberg, I have a quick question for you.
    If a reservist or a guardsman is called for active duty, 
are they eligible for this program?
    Ms. Weisenberg. All active duty military are eligible. They 
usually receive services by first going to the family service 
center on that installation. They can also be referred by 
community agencies or self-referrals.
    Mr. Young. I visited just last week in Bosnia with a 
reservist from my district who had been called up and his wife 
is expecting momentarily their third child, and he's going to 
be in Bosnia while she's in St. Petersburg having the baby.
    Ms. Weisenberg. So she's not near a Marine Corps 
installation.
    Mr. Young. No, and he's not in the Marine Corps, he's in 
the Army.
    Ms. Weisenberg. He is and she's not. That is an interesting 
situation.
    Mr. Young. And the closest we have is MacDill Air Force 
Base but that's a joint command there.
    Ms. Weisenberg. I think that's a very interesting 
situation. I'd be happy to follow up and see what happens in 
that type of situation, but that's a perfect example where the 
husband in this case is off in Bosnia and the wife is the one 
that needs assistance.
    Mr. Young. Well, thank you very much for being here today, 
we appreciate your support of the program and your willingness 
to travel all the way from San Diego to be here to visit with 
us today, and again I apologize for you being at the end of the 
line.
    Ms. Weisenberg. I have to say it was a very interesting 
morning and a good use of my time. Thank you.
    Mr. Young. Thank you very much.
    That I think is the end of our witness list. The Committee 
is adjourned until the call of the chair.
    [The statement of Ms. Weisenberg follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                           W I T N E S S E S

                              ----------                              
                                                                   Page
Bailey, Maj. Chris...............................................   133
Barnes, Master Chief Joe.........................................   514
Bereuter, Hon. Doug..............................................   536
Block, G.D.......................................................  1017
Bosiljevac, Com. Tim.............................................   133
Bye, Dr. R.E., Jr................................................  1132
Charness, Dr. Michael............................................   976
Clark, Gen. W.K..................................................     1
Clark, Les.......................................................  1128
Collins, Father T.B..............................................  1134
Crow, Dr. Michael................................................  1138
Crowley, James...................................................  1035
Cunha, Manuel, Jr................................................  1128
Emery, J.L., Sr..................................................  1116
Farr, Hon. Sam...................................................  1072
Feder, Miriam....................................................   344
Foil, M.B., Jr...................................................   440
Furmanski, Dr. Philip............................................   838
Gallo, Betty.....................................................   705
George, Father W.L...............................................  1134
Hayes, A.B.......................................................  1146
Hedlund, J.H.....................................................   852
Hickey, S.T......................................................   586
Hubbard, Capt. Curtis............................................   133
Johnson, David...................................................   918
Jollivette, C.M..................................................   863
Kenny, M.P.......................................................  1128
Kolker, Ann......................................................  1027
Mauderly, J.L....................................................   882
Mica, Hon. J.L...................................................  1061
Molloy, Russ.....................................................   705
Morrill, Rocky...................................................   562
Nasr, Nabil......................................................   387
Olanoff, Chief Master Sgt. M.H...................................   643
Oullette, Sgt. Maj. M.F..........................................   540
Owens, W.D.......................................................  1090
Partridge, Col. C.C..............................................   617
Patrick, Barbara.................................................  1128
Payne, Hon. D.M..................................................   705
Prueher, Adm. J.W................................................   211
Quickel, K.E., Jr................................................   897
Raymond, Sandra..................................................   429
Reheis, C.H......................................................  1128
Reis, Sgt. First Class Larry.....................................   133
Robfogel, Nathan.................................................   387
Roemer, Hon. Tim.................................................   338
Russell, P.K.....................................................   996
Sadler, Blair....................................................  1046
Sandler, Maj. Gen. R.W...........................................   728
Schoomaker, Gen. P.J.............................................   133
Scott, Comm. Charles.............................................   429
Sheridan, M.B....................................................   344
Slaughter, Hon. Louise...........................................   387
Smith, E.G.......................................................   627
Staton, J.D......................................................  1083
Strickland, William..............................................   954
Tilelli, Gen. J.H., Jr...........................................   211
Torsch, Comm. Virginia...........................................   778
Van Nest, Ron....................................................   822
Visco, F.M.......................................................   810
Waters, Hon. Maxine..............................................  1074
Weisenberg, Jane.................................................  1043
Weller, Maj. Eric................................................   133
Williams, J.R....................................................   968
Young, Dr. Robert................................................  1136
Zinni, Gen. A.C..................................................     1


                               I N D E X

                              ----------                              

  COMMANDER IN CHIEF, UNITED STATES CENTRAL COMMAND AND COMMANDER IN 
                 CHIEF, UNITED STATES EUROPEAN COMMAND

                                                                   Page
Assassination, Strategy of.......................................   128
Basing Issues, United States:
    Access.......................................................   128
    Access to Bases in Southwest Asia............................   126
    United States Basing in Europe...............................   111
    United States Basing Rights, in the Middle East..............   105
Bosnia Contingency Operation...................................107, 119
    Economics....................................................   108
    Infrastructure, Bosnia.......................................   102
    Landmines in Bosnia........................................109, 111
    War Criminals, Balkan........................................   101
Budget Priorities and Deficiencies...............................   120
Chinese Involvement with Iran/Iraq Weapons of Mass Destruction 
  (WMD) Programs.................................................   112
Combating Terrorism Readiness Initiative Fund....................   125
Command Operations...............................................   115
Deployment of Forces.............................................   100
    Length of Current Deployments................................   106
European Economic Status.........................................   113
Force Structure, Composition of..................................   106
Fundamentalism, the Dangers of...................................   103
Intelligence Capabilities........................................   104
Introduction.....................................................     1
Iranian Policy/Update.....................................103, 108, 129
    Missile Production...........................................   130
Iraq.............................................................   120
    Outlook......................................................   128
    Potential Airstrikes.........................................   120
    Saddam Hussein's Strength....................................   129
    Sanctions Update.............................................   102
        Effectiveness of.........................................   103
    Threat Assessment, Iraqi.....................................   100
Joint Chiefs of Staff (JCS) Exercises............................   124
Kosovo...........................................................   101
    Violence in..................................................   119
North Atlantic Treaty Organization (NATO) Expansion............110, 117
Persian Gulf Region:
    Burdensharing................................................   113
    Situation in the Gulf Region.................................    99
    United States Forces Readiness in the Gulf...................   100
Remarks of Mr. Murtha............................................     2
Statement of General Anthony C. Zinni............................    67
Statement of General Wesley K. Clark.............................     5
Summary Statement of General Clark...............................     2
    Bosnia Operation.............................................     3
    European Command Threats.....................................     3
    NATO Expansion...............................................     3
    Personnel Issues.............................................     3
    Summary......................................................     4
Summary Statement of General Zinni...............................    66
Supplemental Budget Request......................................    99
Swing Strategy...................................................   131
Theater Missile Defense (TMD)....................................   130
Turkey...........................................................   105
Weapons Inspections..............................................   127
Year 2000 Computer Problem.......................................   122
COMMANDER IN CHIEF, UNITED STATES PACIFIC COMMAND AND COMMANDER, UNITED 
                          STATES FORCES, KOREA
Antipersonnel Landmine Moratorium................................   302
Asian Financial Crisis....................................302, 315, 321
    Impact of Financial Crisis on Contingencies..................   316
B-2 Bomber.......................................................   305
Chemical and Biological Attacks, Defense Against.................   308
Chemical Weapons.................................................   306
China:
    Chinese--Indian Relations....................................   314
    Chinese Military Power.......................................   323
    Chinese Misperceptions.......................................   325
Combating Terrorism Readiness Initiatives Fund (CBTRIF)..........   332
Emergency Supplemental...........................................   318
F-18E/F Aircraft.................................................   319
Force Protection.................................................   332
Forces and Supplies, Adequacy of.................................   317
Frequency Spectrum Problems......................................   313
India:
    India's Elections/Military Power.............................   326
    India's Military.............................................   307
    Relations with...............................................   301
Indonesia........................................................   327
International Military Education and Training (IMET).............   300
Introduction.....................................................   211
Japan:
    Environmental Clean-Up of United States Bases in Japan.......   309
    Nuclear Carriers in Japan....................................   316
    Okinawa, U.S. Marines in.....................................   329
    Security Alliance, United States--Japan......................   329
Joint Exercises..................................................   333
Joint Surveillance Target Attack Radar Systems (JSTARS) Aircraft.   306
Korean Peninsula:
    Agreed Framework on North Korea's Nuclear Program, 1994......   322
    Energy Development Organization..............................   311
    Foreign Currency Fluctuation and Burdensharing.............310, 330
    Four Party Talks.............................................   323
    North Korea, Food Shortages in...............................   311
    North Korean Threat..........................................   322
    South Korea..................................................   323
Philippines:
    Status of Forces Agreement, Philippines......................   328
    United States--Philippines Military Accord...................   328
POW/MIAs.........................................................   334
Priorities and Deficiencies....................................319, 320
    Changes in Priorities........................................   320
    Top Priorities...............................................   320
Remarks of Mr. Murtha............................................   212
Reserve Components...............................................   318
Spare Parts......................................................   297
Statement of Admiral Joseph W. Prueher...........................   217
Statement of General John H. Tilelli, Jr.........................   273
Strain from Operational Commitments..............................   296
Summary Statement of Admiral Prueher.............................   212
    Area of Responsibility.......................................   213
    Forces in Pacific Command....................................   212
    Readiness....................................................   214
    Strategy in the Pacific......................................   212
    Summary......................................................   216
    Thailand.....................................................   214
Summary Statement of General Tilelli.............................   269
    Alliance with the Republic of Korea..........................   270
    Antipersonnel Landmines Moratorium...........................   270
    North Korean Threat..........................................   269
    Quality of Life Issues.......................................   271
    Resources....................................................   271
    Summary......................................................   272
Two Simultaneous Major Regional Contingencies (MRCs)...........297, 303
Year 2000 Computer Problem.......................................   331
      COMMANDER IN CHIEF, UNITED STATES SPECIAL OPERATIONS COMMAND
Bosnia Mission...................................................   210
    Implementation Force (IFOR) Cost Estimates...................   199
Civil Affairs and Psychological Operations Units...............195, 199
Counterproliferation.............................................   208
Counter-Terrorism................................................   203
CV-22 Aircraft...................................................   201
Demining Missions................................................   181
Deployment Impacts on Family.....................................   189
Deployment Vignettes.............................................   170
    Bosnia EC-130 Operation......................................   171
    Colombia Counter Drug Operation..............................   170
    Namibia Demining.............................................   172
    Namibia Psychological Operations.............................   174
    Senegal--Acri Operation......................................   176
    Sierra Leone Operation.......................................   177
Fiscal Year 1999 Budget Request..................................   183
Information Warfare..............................................   202
Introduction.....................................................   133
Military Operations Other Than War (MOOTW).......................   204
Modernization Programs, United States Special Operations Command 
  (USSOCOM)......................................................   200
Operating Tempo (OPTEMPO) and Deployments........................   196
Personnel Issues.................................................   193
Personnel Tempo (PERSTEMPO)......................................   191
Remarks of Mr. Cunningham........................................   190
Reserve Forces...................................................   180
    Employer's Support...........................................   181
Rules of Engagement..............................................   184
Special Operation Forces (SOF):
    Assessment and Selection Process...........................185, 194
    Retention....................................................   186
    SEAL Retention...............................................   187
Somalia Revisited................................................   187
Statement of General Peter J. Schoomaker.........................   136
Submarine Platforms, Special Operations Forces (SOF).............   189
    Advanced SEAL Delivery System..............................190, 201
Summary Statement of General Schoomaker..........................   134
    USSOCOM--Budget Request......................................   134
    USSOCOM--State of the Command................................   134
    Summary......................................................   135
Survival, Escape, Resist and Evade (SERE) Training...............   182
Unfunded Requirements............................................   184
Year 2000 Computer Problem.....................................188, 207

 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

Air Force Sergeants Association..................................  1083
American Academy of Otolaryngology--Head and Neck Surgery, Inc...   968
American Association of Nurse Anesthetists.......................   822
American Federation of Government Employees......................   562
American Psychological Association...............................   954
American Society of Anesthesiologists............................  1090
American Society of Tropical Medicine and Hygiene................   996
Association of American Universities.............................  1017
Brain Injury Association.........................................   441
California Industry and Government Coalition on PM-10/PM-2.5.....  1128
Central Intelligence Agency Investigation........................  1074
Children's Hospital and Health Center............................  1043
Columbia University..............................................  1138
Disabled Military Retirees.......................................   627
Dystrophic Epidermolysis Bullosa Research Association of America.   344
Federation of Behavioral, Psychological and Cognitive Sciences...   918
Florida State University.........................................  1132
Fort Atkinson Cemetery...........................................   536
Fox Chase Cancer Center..........................................  1136
Georgetown Institute for Cognitive and Computational Sciences....  1134
High Mobility Multipurpose Wheeled Vehicle (HMMWV)...............   338
Joint Policy Board for Mathematics...............................  1035
Joslin Diabetes Center...........................................   897
Live Fire Testing and Training Initiative........................  1061
Lovelace Respiratory Research Institute..........................   882
National Association of Energy Service Companies.................  1176
National Breast Cancer Coalition.................................   810
National Coalition for Osteoporosis and Related Bone Diseases....   429
National Military and Veterans Alliance..........................   617
National Military Family Association (NMFA)......................   586
National Prostate Cancer Coalition...............................   852
Navy Professional Development Education..........................  1072
New Parent Support Program.......................................  1116
New York University..............................................   838
Non Commissioned Officers Association of the United States of 
  America........................................................   540
Ovarian Cancer National Alliance.................................  1027
Research Society on Alcoholism...................................   976
Reserve Officers Association of the United States................   728
Rochester Institute of Technology................................   387
The Fleet Reserve Association....................................   514
The Military Coalition...........................................   778
The Retired Enlisted Association.................................   643
University of Medicine and Dentistry of New Jersey...............   705
University of Miami..............................................   863
University of San Diego..........................................  1146

                                <greek-d>


</pre></body></html>
